<html>
<title> - DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2003</title>
<body><pre>[Senate Hearing 107-891]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-891
 
        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2003
=======================================================================



                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   on

                           H.R. 5521/S. 2809

  AN ACT MAKING APPROPRIATIONS FOR THE GOVERNMENT OF THE DISTRICT OF 
 COLUMBIA AND OTHER ACTIVITIES CHARGEABLE IN WHOLE OR IN PART AGAINST 
THE REVENUES OF SAID DISTRICT FOR THE FISCAL YEAR ENDING SEPTEMBER 30, 
                      2003, AND FOR OTHER PURPOSES

                               __________

                          District of Columbia
  Putting Families First: The Road to Reform of the D.C. Family Court
          Regional Emergency Planning for the Nation's Capital

                               __________

         Printed for the use of the Committee on Appropriations




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate
                                 ______


                       U. S. GOVERNMENT PRINTING OFFICE
78-468                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001













                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
ERNEST F. HOLLINGS, South Carolina   THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            ARLEN SPECTER, Pennsylvania
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BARBARA A. MIKULSKI, Maryland        CHRISTOPHER S. BOND, Missouri
HARRY REID, Nevada                   MITCH McCONNELL, Kentucky
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
BYRON L. DORGAN, North Dakota        JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              MIKE DeWINE, Ohio
                  Terrence E. Sauvain, Staff Director
                 Charles Kieffer, Deputy Staff Director
               Steven J. Cortese, Minority Staff Director
            Lisa Sutherland, Minority Deputy Staff Director
                                 ------                                

                Subcommittee on the District of Columbia

                 MARY L. LANDRIEU, Louisiana, Chairman
RICHARD J. DURBIN, Illinois          MIKE DeWINE, Ohio
JACK REED, Rhode Island              KAY BAILEY HUTCHISON, Texas
ROBERT C. BYRD, West Virginia (ex    TED STEVENS, Alaska, (ex officio)
    officio)
                           Professional Staff

                            Charles Kieffer
                              Kate Eltrich
                        Mary Dietrich (Minority)
















                            C O N T E N T S

                              ----------                              
                                                                   Page

                        Thursday, March 14, 2002

Regional Emergency Planning for the Nation's Capital.............     1

                        Thursday, March 21, 2002

District of Columbia: Court......................................    53

                        Tuesday, April 16, 2002

District of Columbia: Education..................................   101

                       Wednesday, April 24, 2002

Putting Families First: The Road to Reform of the D.C. Family 
  Court..........................................................   153

                         Tuesday, June 11, 2002

District of Columbia.............................................   237



















        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2003

                              ----------                              


                        THURSDAY, MARCH 14, 2002

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met, at 2:39 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Mary L. Landrieu (chairman) 
presiding.
    Present: Senator Landrieu.

          REGIONAL EMERGENCY PLANNING FOR THE NATION'S CAPITAL

STATEMENT OF MARGRET NEDELKOFF KELLEMS, DEPUTY MAYOR 
            FOR PUBLIC SAFETY AND JUSTICE, DISTRICT OF 
            COLUMBIA
ACCOMPANIED BY:
        PETER G. LaPORTE, DIRECTOR, EMERGENCY MANAGEMENT SERVICES 
            AGENCY, DISTRICT OF COLUMBIA
        RICHARD A. WHITE, CHIEF EXECUTIVE OFFICER, WASHINGTON 
            METROPOLITAN AREA TRANSIT AUTHORITY
        MICHAEL ROGERS, EXECUTIVE DIRECTOR, METROPOLITAN WASHINGTON 
            COUNCIL OF GOVERNMENTS
        DONALD KELDSEN, ACTING DIRECTOR, MARYLAND EMERGENCY MANAGEMENT 
            AGENCY
        MICHAEL CLINE, COORDINATOR OF EMERGENCY MANAGEMENT FOR VIRGINIA
        JAMES SCHWARTZ, ASSISTANT CHIEF OF OPERATIONS, ARLINGTON, 
            VIRGINIA FIRE DEPARTMENT


             opening statement of senator mary l. landrieu


    Senator Landrieu. Let me begin by reminding our witnesses 
and everyone attending that the meeting is not only being 
covered in our usual ways, but Senator Byrd has--and we have 
agreed, to have this meeting covered on the Internet. So this 
is going to be live. And it is not the first time, but it is a 
new policy that we have adopted. So I just wanted to let you 
know that we are wired for sound.
    Welcome to the District of Columbia Subcommittee Hearing on 
Emergency Preparedness. At our last meeting last year both the 
ranking member, Senator DeWine, and I had committed to having 
as one of our first meetings this year an update of the 
Districts' emergency management plan.
    We are all very familiar, too familiar, with what happened 
on September 11. And we are aware that it is our responsibility 
to do everything in our power to make sure that if there is 
another such attack, we hope that there won't be, but we 
prepare as if there will be, that we would be ready, first of 
all, if we can, to prevent the attack. But if we fail at 
detecting and preventing an attack, then we must deal with the 
consequences of it as effectively and as professionally and as 
carefully and as thoroughly as we can.
    And none of us can do that alone. Therefore, the purpose of 
this meeting is to see how the District of Columbia, which is a 
rich target, and surrounding areas, which are rich targets, 
emergency operations plans are coming along to work together in 
that way.
    Coordination between jurisdictions is essential. I hear 
this from many of my colleagues, from Senator Mikulski, from 
Senator Sarbanes, from Senator Warner, from Senator Allen, as 
well as from Mayor Williams, representatives of the District 
and Congresswoman Eleanor Holmes Norton about this issue.
    I have four specific goals and I'm going to submit my 
longer statement for the record. But I hope that our committee 
can help, with other committees of jurisdiction, to help create 
a seamless emergency response plan for the region; to establish 
rigorous training under the plan for regional first responders; 
that the plan, once implemented and signed off on, must be 
communicated to the public in a way that they understand their 
role; that we just don't understand our roles, but the 
residents and the workers and the people who live in this 
region understand the plan and can respond appropriately should 
something happen.
    And the end result of all of this, I hope we have the 
highest level of security, but that we keep the welcome sign 
out in the District of Columbia and in the region that we are 
so proud of.
    So those are my four goals. After I hear some additional 
testimony I may add some additional goals, but just to get us 
started, I thought I would throw those goals out.
    Let me remind everyone here that this subcommittee 
appropriated over $200 million, $175 million to the District of 
Columbia, $39 million to Metro, and $5 million to the Council 
of Governments, and tasked those entities with coming up with a 
response plan and coordinating it with regional 
representatives. I look forward to hearing from the witnesses 
as to how this $175, $39 and $5 million has either been 
partially spent or is planning to be spent. We also have 
representatives from Maryland and Virginia, who we hope will 
comment about how the District's particular efforts are either 
complementing or meshing or not, or conflicting, whatever the 
case might be, with the States plans.
    I am going to submit, without objection, a longer statement 
for the record, and also submit this fact sheet that was part 
of an assessment recently done by CNN when assessing resources 
for the District of Columbia.
    Washington was ranked seventh overall among the Nation's 30 
largest cities in a study of resources and training focused on 
disaster preparedness. In addition, D.C. was ranked second in 
the category of medical response resources, with 328.7 
physicians per 10,000 people. It ranked second for Federal 
emergency preparedness grants, 19,613 per 10,000 residents. It 
ranked first for the ratio of police officers to the 
population, 63.4 officers per 10,000 residents, but it ranked 
27th out of 30 of the Nation's largest cities for the 
efficiency of its transportation system in the event of 
emergency.
    I am sure Metro may want to comment. My question when I was 
shown this is that resources do not necessarily translate into 
readiness. You can throw a lot of resources at something, but 
if you do not have a good plan and those resources were not 
either invested or spent wisely, you could be no more ready 
except to have $100 million.
    So while I am happy to see that we are ranking in the top 
in terms of resources, I would be very happy when I am 
convinced, not to say that I am skeptical at this point, but I 
think the record is just open about, that we are turning our 
resources into readiness and into security. And that is the 
point of this hearing; in addition, we must determine if we are 
planning in a regional way that will result in a seamless 
regional emergency plan so our residents and our workers and 
our Nation can be confident that we are doing the very best we 
can. I would like to include in the record my full prepared 
statement and the statement of the ranking member, Senator 
DeWine.


                          prepared statements


    So with that, let me just introduce our witnesses.
    We have Mrs. Margret Kellems, Deputy Mayor for Public 
Safety, who's taken a leadership role here; Mr. Peter LaPorte, 
Director of the Emergency Management Service Agency. We have 
Metro represented by Mr. Richard White; we have our Council of 
Governments represented by Mr. Michael Rogers; and we have 
Maryland and Virginia represented by the acting director of the 
Maryland Emergency Management Agency, Mr. Donald Keldsen, and 
Virginia represented by Mr. Michael Cline, the coordinator of 
Emergency Management for Virginia, and Mr. Jim Schwartz, 
assistant chief of operations for the Arlington County fire 
department. Chief Schwartz, we are happy to have you here.
    Mrs. Kellems, why do you not begin?
    [The statements follow:]

             Prepared Statement of Senator Mary L. Landrieu

    Welcome to the Senate District of Columbia Appropriations 
Subcommittee hearing on regional emergency planning for the Nation's 
Capital. I want to give a special welcome to our witnesses this 
afternoon: Deputy Mayor for Public Safety, Margret Nedelkoff Kellems; 
Peter LaPorte, the District's Emergency Management Agency Director; 
Richard White, CEO of the Washington Metropolitan Area Transit 
Authority; and Michael Rogers, Executive Director of the Washington 
Council of Governments.
    I am also happy to have representatives of the State and local 
governments surrounding the District to hear their views on the 
regional preparedness planning needs for the area. I want to thank: 
from the State of Maryland, Donald Keldsen and from Virginia, Michael 
Cline for attending today's hearing and answering questions. I also 
want to thank Jim Schwartz, Assistant Chief of Operations for the 
Arlington Fire Department, for coming today. Mr. Schwartz was the on-
site commander at the Pentagon on 9/11.
    Last November, this Subcommittee held a hearing on the District's 
emergency planning efforts and funding needs in the wake of the 
terrorist attacks of September 11. That hearing bolstered my commitment 
to provide the necessary resources for the District to prepare for an 
respond to an emergency. The Congress approved $200 million for the 
District Government, the Metro transit system, and the Council of 
Governments to train and equip your personnel and increase security in 
the Capital. I would like to hear from each of you how those resources 
are contributing to a higher state of readiness. I thought it was 
appropriate for our first hearing this year to look back for 
accountability for funds appropriated last year and to look ahead to 
developing a regional emergency strategy.
    I hope this hearing will serve as a springboard to four principle 
outcomes for emergency planning and security in the region. First, the 
creation of an easy-to-understand, seamless regional emergency response 
plan that incorporates best practices. Second, the plan should have a 
rigorous regional training component. Third, the public needs to be 
educated about the plan which evacuation routes should people use and 
the locations of shelters. Finally, I hope we can begin to move toward 
a longer term goal of creating security systems for the region that do 
not take away from the beauty and the majesty of our Nation's Capital.
    The terrorist attacks of September 11, just 6 months ago, united 
the nation. In this, the terrorists failed because they sought to tear 
us apart. Instead, we as a people came together as one. But the attacks 
also taught us a number of valuable lessons and gave us a renewed 
awareness of the value of emergency planning and a strong civil 
defense.
    The attacks also underscored that the District of Columbia faces 
unique emergency preparedness challenges that go beyond those that 
would normally face a living, breathing city of over 500,000 people. 
The District is vulnerable to a terrorist attack because it is the seat 
of government of the nation that symbolizes freedom and democracy in 
the world so this City must be prepared for the worst. The larger 
challenge is that any emergency in the City be it a terrorist attack or 
a snow storm will have an immediate impact on at least 17 other cities, 
towns, and counties in the two States on Washington's borders. Until 
September 11 it was not unusual for all 17 of these State and local 
governments as well as the Federal Government and the mass transit 
system, Metro, had their own emergency operations plans.
    The challenge, as a Capital, a City and a Region, is to ensure that 
these plans are at the very least coordinated on an operational basis, 
and that consistent policies govern decision making across the region. 
Without a seamless regional plan, this area could become crippled at 
the worst possible time.
    The City has developed a comprehensive emergency response plan, 
called the ``District Response Plan'' or ``DRP.'' The DRP identifies 15 
Emergency Support Functions such as transportation, law enforcement, 
fire fighting, mass health care, and public communications and 
identifies the lead City agencies responsible for each. The DRP also 
identifies agencies that will provide valuable support in each of these 
functions. I must congratulate the City, Mayor Williams, and his team 
for putting this Plan together. It anticipates a wide range of 
emergency scenarios from the routine to the devastating and sets forth 
systems for how City agencies will respond to these events.
    I understand the Federal Emergency Management Agency, FEMA, was 
actively involved in the formulation of the DRP. Cooperation between 
the District and the Federal Government is essential. I believe a 
higher degree will be necessary as we go forward. I will be interested 
to hear whether District officials have been briefed on the so-called 
``Shadow Government'' that we have heard about in media reports. For 
some emergencies the District Response Plan indicates that one of the 
first calls the City might make will be to a Federal agency the 
Department of Justice or the Department of Agriculture for example. If 
either one of those agencies has been severely disrupted or destroyed, 
District officials should be able to find out how to contact the 
Federal agencies wherever they may be.
    In reviewing the District's plan, I did not get a sense as to 
whether Maryland, Virginia, and the communities in suburban Washington 
played any role in developing the District's Plan. Some State and local 
agencies from the surrounding suburbs are identified as having a 
support role in some of the Plan's Emergency Support Functions for 
example, in the transportation area. However, it does not seem that 
those suburban communities play a role in some of the other Emergency 
Support Functions when perhaps they could.
    Developing a regional emergency response plan for the Washington 
area will be a highly complicated and monumental task. Coordinating the 
emergency planning needs and systems of 17 local and State 
jurisdictions, plus the Washington Metropolitan Area Transit Authority 
will be very difficult. In December, as part of the Defense 
Supplemental Appropriations bill, we included funding for the 
Washington Area Council of Governments, COG for short, to develop a 
regional plan. I understand that COG has made progress in this area and 
I look forward to hearing the testimony about how this planning is 
proceeding.
    I want to thank you all for attending this hearing today and for 
contributing to the highest state of preparedness in the nation. We 
will forward additional questions for the record to each witness, if 
necessary.
                                 ______
                                 

               Prepared Statement of Senator Mike DeWine

    Madam Chairman, the attacks of September 11 Dealt direct blows to 
the cities of New York and Washington, DC. it is little wonder why 
terrorists targeted these two cities. They represent our economic 
strength and our military and democratic strength. That is one of the 
main reasons that Congress provided $200 million in the fiscal year 
2002 Supplemental Appropriations Bill to secure the District of 
Columbia from future attacks.
    Without question, Washington, DC, Is a unique city. It has the 
honor and the immense responsibility of being home to the Federal 
Government. This is a burden that we recognize every year when we 
provide specific appropriations for the city. We understand, however, 
that although we provide some of the city's resources, it is the 
District officials who are on the front lines in deciding how to spend 
a majority of those funds.
    Today, I look forward to hearing from our witnesses about how the 
District plans to use these resources and how we--as Federal partners 
in this effort--can support the goal of securing our people and our 
institutions from terrorists.
    I am particularly interested in hearing how the city is equipped to 
provide emergency assistance to children. because of their size, 
metabolism, and body development, children are more vulnerable than 
adults in certain crisis situations. Yet, emergency equipment--such as 
oxygen masks--is usually designed for adults and cannot be used 
effectively to assist children. Often, staged emergencies do not 
include children and rescue workers are not trained to handle the 
special needs of children. So today, I'd like you to discuss how 
prepared the city is in assisting our youngest citizens in the event of 
an emergency.
    Before September 11, I was concerned about reports that local, 
regional, and Federal law enforcement officers were unable to 
communicate with one another because their communications systems were 
not compatible. I included funds through the fiscal year 2002 DC 
Appropriations Bill so that we could begin to make these systems 
interoperable. After September 11, the need for communications 
compatibility became urgent. In the fiscal year 2002 Supplemental Bill, 
we provided an additional $45 million to continue this effort. I'd like 
to hear from our witnesses today about the progress that's been made in 
ensuring that the many law enforcement officers in the region can 
communicate and coordinate with one another.
    In conclusion, we are pleased to have this group of witnesses 
before us today to discuss how they are working to ensure that the 
metropolitan area is prepared for future emergencies. As I noted 
earlier, they are the ones on the front lines of this effort. We thank 
them for their hard work and dedication and we look forward to 
continuing to partner with them to protect our Nation's Capital.

    Ms. Kellems. Good afternoon, and thank you, Chairperson 
Landrieu.
    I am Margret Nedelkoff Kellems, the Deputy Mayor for Public 
Safety and Justice for the District. And with your permission, 
I would submit my written testimony for the record. And also 
with your permission, I would like to deviate from it in 
response to some of the issues that you raised just at the 
outset.
    In my written testimony I outline some of the management 
infrastructure that's been put into place to make sure that we 
are using all our money and resources wisely, that we are 
tracking them well and that we are integrating them. And that's 
all included in the written testimony. But listening to you at 
the beginning, I thought maybe I should speak a little more 
about the planning process that's been going on. Of course I'll 
be happy to answer any questions about the resources as well.

                    DOMESTIC PREPAREDNESS TASK FORCE

    Just after the 11th the Mayor convened a Domestic 
Preparedness Task Force among the District agencies. The 
members were the agency heads from the primary, not just the 
first responders, but all of the primary response and recovery 
agencies. So included in it we have Department of Public Works, 
the Department of Transportation--to mention an issue you just 
raised--in addition to police and fire and emergency management 
and emergency medical services. Also, the Department of Health 
and many others.
    The goal of the task force at the outset was to make sure 
that in these days when we felt like we were living on borrowed 
time that we address some of the most immediate issues. God 
forbid something should happen in a few days or a few weeks 
after the 11th. He wanted to be sure that we had done 
everything we could to improve our state of readiness as 
quickly as possible.
    The task force met weekly and very quickly broke into 
subcommittees. The subcommittees were organized around 
something called emergency support functions, which is the term 
of art that the Federal Government also uses in its Federal 
response plan. They include things like communications, 
transportation, firefighting, hazardous materials response, 
urban search and rescue, and that sort of thing.
    There are in our plan a few additional ESFs, emergency 
support functions, that do not appear in the Federal response 
plan, because they are things that are really purely local. 
Then a number of the members of the task force went to New York 
and visited with the folks there to understand what kind of 
challenges they faced. They had a plan, they implemented it, 
and yet of course they faced many new and additional 
challenges. And we folded that into our thinking as we 
developed our new and improved District Response Plan. And some 
of those issues actually became part of ESFs, or emergency 
support functions.

                         DISTRICT RESPONSE PLAN

    That group, over the course of about 3 months, completely 
rewrote and redesigned the District Response Plan. It wasn't 
just the district agencies who were doing this. The district 
agencies took the lead in each of these functional areas, but 
they worked very closely with the Federal agencies that also 
have responsibilities in those same areas, private sector 
partners that we found were essential to our planning process; 
for example, the hospitals, the hospital association, the Red 
Cross, some of the volunteer organizations. So for each of 
those functional areas the District convened a subcommittee 
comprised of the Federal, the surrounding jurisdictions that we 
needed to work with, and the private sector and community 
organizations.

                             TRANSPORTATION

    Of particular note, just because you brought it up in your 
opening remarks, was the transportation part of it. We 
recognized that within the four boundaries of the district what 
we faced on September 11 was a transportation emergency as much 
as anything else. We also realized that the transportation 
emergency extended beyond the four boundaries of the district. 
Our downtown area was clear within a few hours, within a couple 
of hours after the plane hit the Pentagon, but traffic was 
backed up horribly as people tried to get further and further 
out of the city.
    So the transportation subcommittee included members from 
MDOT, Maryland's Department of Transportation, and VDOT, as 
well as the Federal Department of Transportation. Their primary 
focus was to figure out how, in the event of a disaster, we 
would evacuate all of the people in this area as far away as 
they needed to. And I hope during the course of this hearing we 
can talk about some of the details of that area, but it is just 
one example of the kind of work that's happened since then.
    All of the folks sitting at this table I hope, I believe, 
are going to say that there's been an enormous amount of 
cooperation in the areas where we really needed it most, in the 
health care and health services response, in the transportation 
area, in the communications area, the communication 
infrastructure area, to which we've devoted a lot of our time 
and resources. So I hope I can answer more detail during the 
course of the hearing, and of course speak to some of the 
resources, without which we would not be able to implement this 
plan.
    But overall, I think that if we come away with nothing 
else, I think we should rest assured that there has been an 
enormous amount of progress; that the folks who live in the 
city, the many, many people who work here and the 20 plus 
million visitors we get each year should have a much higher 
degree of confidence that not only has the planning been done, 
but now of course thanks in part to you and your colleagues, we 
have the resources to actually implement that kind of plan. 
We've submitted just briefly spending plans on how we would 
expend the funds.
    We've expended a significant amount. I think the number as 
of today is about 17 million--and I think that number will grow 
significantly over the next couple of weeks as we sort out some 
of the initial paperwork that we had we just received. We 
actually took the Federal funds about a month ago, just about a 
month ago. So we've been spending at a very quick pace, 
focusing on our highest priority, things like preparedness, 
personal protective equipment a lot of training that's being 
done with the District and some of the surrounding 
jurisdictions jointly, and beginning to build out some of the 
communications and transportation infrastructure that we think 
is so essential.

                           PREPARED STATEMENT

    So with that, I will be happy to answer your questions 
after my fellow panelists here speak. Thank you.
    [The statement follows:]

            Prepared Statement of Margret Nedelkoff Kellems

    Good afternoon, Chairperson Landrieu and members of the 
Subcommittee. I am Margret Nedelkoff Kellems, Deputy Mayor for Public 
Safety and Justice for the District of Columbia. I am pleased to have 
the opportunity to testify today before you today about regional 
emergency planning and the level of emergency preparedness and 
coordination with surrounding jurisdictions. As Director LaPorte's 
testimony reflects, the District has made great strides in developing 
an operational infrastructure to ensure that our nation's capital will 
be prepared for any emergency that may arise. As the co-chairs of the 
Mayor's Emergency Preparedness Council, a cabinet level organization 
arising from the Mayor's Domestic Preparedness Task Force, John 
Koskinen, the City Administrator, and I are responsible for ensuring 
that we are in close contact with other jurisdictions in the 
Washington, D.C. Metro Area in an effort to promote and ensure 
coordinated emergency response. As Mr. LaPorte mentioned, the District 
is participating in the development of a regional communications and 
communication plan, in cooperation with the Metropolitan Washington 
Council of Governments.
     Additionally, earlier this week, representatives from the District 
participated in the Senior Leaders' Seminar, hosted by the U.S. Army 
Corps of Engineers and the Federal Emergency Management Agency. This 
exercise highlighted the need for strong regional coordination in any 
major terrorist incident in the DC Metropolitan area and tested the 
interoperability of the District and Federal Response Plans.
    Developing an operating infrastructure, however, is only the first 
step in ensuring preparedness. Thanks in large part to the support of 
members of this Subcommittee, the District government received 
approximately $156,000,000, along with $39,100,000 going to WMATA, to 
support the implementation of the District Response Plan. We recognize 
the significance of this federal support and we are committed to 
spending these funds on time, in accordance with Congress's intent, and 
in a way that maximizes the District's state of preparedness to deal 
with any disasters that may arise.
     As you may well imagine, such a large influx of resources creates 
new management pressures on District support agencies. I would briefly 
like to discuss the management infrastructure that we have put into 
place to ensure the highest level of financial and programmatic 
accountability for the federal dollars we have received.
    As you know, the federal appropriation is split into 12 Federal 
Payment Categories to District Agencies that spell out specific use of 
funds, as well as payments to the Washington Metropolitan Area Transit 
Authority and the Metropolitan Washington Council of Governments.

Protective Clothing and Breathing Apparatus...................$7,144,000
Specialized Hazardous Materials Equipment..................... 1,032,000
Chemical and Biological Weapons Preparedness..................10,355,000
Pharmaceuticals for Responders................................ 2,100,000
Response and Communications Capability........................14,960,000
Search, Rescue and Other Emergency Equipment and Support...... 8,850,000
Equipment, Supplies and Vehicles for the Office of the Chief 
    Medical Examiner.......................................... 1,780,000
Hospital Containment Facilities for the Department of Health.. 8,000,000
Office of the Chief Technology Officer........................45,494,000
Emergency Traffic Management..................................20,700,000
Training and Planning......................................... 9,949,000
Increased Facility Security...................................25,536,000
Washington Metropolitan Area Transit Authority................39,100,000

    All of these funds have been strategically allocated across 
District agencies based on identified needs. Every agency that is to 
receive federal funds has developed a spending plan that identifies 
what resources will be purchased and over what time period. These 
spending plans ensure that we have a mechanism to track and benchmark 
our progress in spending federal emergency preparedness funds. I have 
submitted with my testimony a graphic that depicts agency spending 
plans, by fiscal quarter.
    In addition to agency-specific spending plans, we also are creating 
a centralized procurement unit to focus exclusively on purchasing 
against domestic preparedness funds. This unit will ensure that 
emergency preparedness procurement requests, particularly the most 
time-sensitive, are processed on their own, prioritized procurement 
schedule, utilizing expedited procurement techniques. Having a unit 
dedicated to cover these funds has an added advantage of ensuring a 
level of consistency and cost effectiveness across District agencies 
that may be purchasing similar goods or services.
    From the financial perspective, expenditures are monitored closely 
to ensure that they are in line with the spending plans submitted by 
each agency and are in accordance with the agency quarterly 
apportionment request.
    The District received its first quarterly allocation of funds in 
mid-February, or approximately one month ago. Nevertheless, because of 
the work we already had done in preparation, in that short time we have 
been able to expend or obligate over $6 million. We will be submitting 
our first quarterly report on the use of the funds tomorrow. Among the 
items that we already have begun to procure are Fire/EMS response 
apparatus and hazmat equipment for our first responders. Furthermore, 
we have expedited training for our Fire/EMS specialized response units. 
Starting on February 11, the District's Hazmat Task Force Unit and 
Rescue Squads began specialized training. As of today, 48 individuals 
on these teams already have been certified in levels 1, 2, and 3 hazmat 
response. By April 19, all 125 individuals on these specialized units 
will be certified at all three levels. On a parallel track, starting on 
February 17 we began a broader training initiative for the rest of the 
F/EMS Department, and by mid-October 2002, approximately 1,000 
firefighters will be certified at hazmat levels 1 and 2. All 
individuals are being trained at the Maryland Fire and Rescue Institute 
(MFRI), which ensures that District firefighters will share a common 
training foundation with surrounding jurisdictions. As you can see, our 
first priority is to ensure that our first responders are equipped and 
trained and that our technological and communications infrastructure is 
in place, as these are the pillars on which the success of an effective 
response will stand.
    In fact, our actual expenditures are lower than our first quarter 
expenditure projections; however, this is not unexpected during this 
initial ramp up period. With our expenditure tracking system in place, 
I have no doubt that we will expend all of these funds timely and to 
the benefit of all of the residents and workers in the District.
    I am pleased to report that as a city, we are developing 
performance standards and measurements for all agencies within the 
District of Columbia participating in the emergency management program. 
Every agency director in the District has in his or her performance 
contract with the Mayor a requirement that he or she participate in the 
relevant planning groups and training sessions. We are also developing 
specific performance standards for the expenditure of these funds.
    These preparedness efforts and budget allocations move the District 
closer to the goal of becoming the first city to meet the national 
standards for emergency management and business continuity programs 
endorsed by FEMA, the National Emergency Management Association, and 
the International Association of Emergency Managers. Meeting these 
standards will position Washington, D.C. to be the first city 
accredited under the Emergency Management Accreditation Program, once 
the program is online.
    We have come a long way in the six months since September 11 but we 
recognize that there is much to do in our own city, in our region, and 
in our partnership with the federal government. We continue to focus on 
improving our communications and coordination through the Council of 
Governments, the D.C. White House Task Force Committee on Emergency 
Preparedness, and in our relationships with our counterpart agencies in 
the surrounding jurisdictions. We hope that the citizens of the 
District of Columbia, those who work here, and the more than 20 million 
people who visit annually know that this city is well prepared for the 
events that we all hope and pray will never happen.

    Senator Landrieu. Thank you.
    Mr. LaPorte.
    Mr. LaPorte. Good afternoon, Chairperson Landrieu, members 
of the committee. I am Peter LaPorte, Director of Emergency 
Management for the District of Columbia. I am pleased to have 
the opportunity today to testify about the level of emergency 
preparedness and coordination with the surrounding 
jurisdictions, both State, county, and local and regional 
entities.
    In July of 2001, D.C. Emergency Management, in cooperation 
with FEMA and the Department of Justice, as well as our 
regional partners in Maryland and Virginia, convened a regional 
meeting of Federal and local response and recovery agencies to 
discuss regional preparedness for a terrorist attack using 
weapons of mass destruction. A tabletop exercise, to which 
local responders, Federal partners and other key agencies, such 
as Metro, WMATA, and the Airport Authority responded to a 
scenario featuring an attack using weapons of mass destruction 
was a key feature of the meeting. The ultimate goal was to 
develop a coordinated regional response plan as soon as 
possible. Subcommittees charged with developing various aspects 
of the plans were established and met regularly until September 
11.
    On September 11, 2001, it became abundantly clear that 
although we had made a very good start at developing a regional 
plan, we were not prepared to mount to the extent we needed to 
a coordinated regional response to emergencies. The region's 
response to the September 11 crash at the Pentagon showed just 
how our jurisdictions in the Washington metropolitan region, 
along with State and Federal Governments, are inextricably 
intertwined, and therefore, must develop a coordinated plan to 
respond to the level and types of terrorist threats we now 
currently face.
    Immediately following September 11, 2001, Mayor Anthony 
Williams convened an interagency Domestic Preparedness Task 
Force to review the District's emergency management planning 
and activities. Through its meetings and dialogues, the task 
force enhanced critical linkages, operational relations with 
Federal, State and regional partners, as well as our regional 
stakeholders. The task force identified as a top priority for 
the District, the development of a comprehensive emergency plan 
capable of responding to any incident. And I emphasize any 
incident because of the new component we are looking at, 
catastrophic type disasters. Our planning is well beyond just 
your simple flood and that type of response.
    The task force has since evolved into the Mayor's Emergency 
Preparedness Council, which is a full-time city body that 
includes among its members District agencies, businesses, 
schools, universities, the Council of Governments, and local 
utility companies.
    Working in consultation with the Deputy Mayor for Public 
Safety and Justice, the City Administrator, and under the 
Mayor's leadership, DCEMA led the effort to reform the City's 
Emergency Response Plan, renamed the District Response Plan to 
reflect its revision to mirror the Federal Response Plan.
    I think it really needs to be emphasized how important that 
is in the business of emergency management, the one language, 
the common architecture of a response plan, Federal, State, 
local; the idea that there's an accepted language and an 
accepted understanding of the architecture of how a response 
plan would work.
    The new DRP is organized by emergency support functions, 
those tasks that, in the aggregate, comprise the City's 
response to emergencies and disasters. As work proceeded to 
develop the current DRP, DCEMA gathered input from its regional 
partners and stakeholders and used it to help shape the plan. A 
draft of the District Response Plan is posted on the agency's 
web site, dcema.dc.gov. It was posted there till September 11 
as part of our public review. March 11, excuse me, for public 
review and the comment process.
    Following the comment period, the DRP now is under a 
revision and will be forwarded to the city council in a very 
short period of time.
    As part of our effort to educate the community about its 
role in disaster preparedness and response, in early October of 
2001 EMA published a family preparedness guide and distributed 
it to every household in the city, as well as additional 81,000 
copies to all schools for distribution to each teacher, 
student, and staff member. Thousands, literally hundreds of 
thousands of copies of this guide have been distributed to 
community meetings, to business groups, hospitals, regional 
partners, and other interested parties.
    A major focus during 2002 will be the implementation of 
Community Emergency Response Team Training, in which community 
members partner with the first responders to prepare for and 
survive disasters within their communities. The 8-hour training 
course was developed by FEMA to teach communities how to take 
responsibility for their own community preparedness, as well as 
personal preparedness.
    In order to insure our workers are prepared to respond when 
called, EMA has increased the number of and types of training 
it offers first responders, medical workers, and emergency 
personnel, as well as for citizens who expressed an interest in 
learning about personal and community preparedness. Examples of 
new courses are Personal Preparedness, the DRP, the Incident 
Command System, Stress Management, and so on. The agency has 
also increased its efforts to encourage neighboring 
jurisdictions to participate in regional training efforts and 
we've opened all of those courses to our regional partners at 
no expense. In fact, we are strongly encouraging their 
participation in all of these training classes.
    As part of its ongoing effort to ascertain the efficacy of 
the plan, the City took part in a tabletop exercise, Tuesday 
and Wednesday of this week hosted by the Federal Emergency 
Management Agency and the U.S. Corps of Engineers to test the 
effectiveness of our response plan and the overall capabilities 
of the greater Washington, D.C. area to respond to a terrorist 
attack. Participants included Maryland, Virginia, the District 
of Columbia, EPA, DOT. It literally was the entire Federal 
family. It was well over 300 people at the exercise, that 
simulated almost a, I would say a worse case scenario and how 
we'd respond to that.
    Through its membership again with the Washington Council of 
Government's, Homeland Security Task Force, EMA works with the 
16 other regional member jurisdictions to enhance regional 
preparedness. Michael--an example of that regional preparedness 
is the Regional Incident Communications and Coordination 
System, and I am sure Michael Rogers will talk about that, 
which was developed to fill the gap in interagency coordination 
exposed September 11. RICCS facilitates communication about 
regional incidents and events by providing a comprehensive, 
real-time communication link that gives decision-makers the 
ability to respond in a coordinated, consistent and efficient 
manner under all scenarios.
    The District also serves as the control point for the 
Washington Area Warning Alert System. EMA transmits emergency 
messages to 67 regional response organizations including State 
and county agencies in Maryland and Virginia, as well as 
airports, railways, District and Federal agencies. And the list 
is very impressive when you look at who participates of the 67, 
including literally three separate drops at the White House. 
When we do a roll call of those 67 agencies, I will tell you in 
the last month it has been 100 percent each and every time. It 
has really proven to be a very good tool.
    Over the past 6 months the city has hosted or taken part in 
numerous community meetings focused on preparedness. Mayor 
Williams has led these meetings. They've been on local cable TV 
and they've been very well attended, standing room only, and 
literally the questions have all been right on point from the 
community.
    One issue that always arises is how the city plans to 
evacuate residents, workers, and visitors in the event of an 
emergency. Oftentimes I do not like to talk about evacuation. I 
like to talk about an expedited commute, because in many ways 
it is a transportation issue to expedite folks who need to get 
home. And if an event is not causing a disruption, you do not 
want to evacuate people that could easily stay at home. And in 
some cases, we need to continue that education of how to 
shelter in place, of other things that people can do to prevent 
themselves from being part of the disaster and exacerbating the 
situation.
    One of the most important parts is the District's Division 
of Transportation, which has been collaborating on regional 
transportation planning and coordination with Maryland and 
Virginia and the Washington Metropolitan Area Transit 
Authority. New signage identifying roads that are event roads 
and directing motorists to I-395 will soon be installed on 
major throughways through the city. And what I would like to do 
actually is share with you some of the new signage that we are 
expecting and part of the new evacuation routes that are about 
to be announced in coordination with Maryland and Virginia.

                           PREPARED STATEMENT

    As you can see, the District is fully engaged in local and 
regional preparedness and training activities. I take a great 
deal of pride in what we've been able to do in 6 months, 
sitting around that tabletop, you know, for a day and a half 
and having literally every regional director from the Federal 
Emergency Management Agency and the Army Corps of Engineers 
there and putting our plan through the paces. We held up very 
well. And in fact, it is Mayor Williams' challenge to Margret 
and, myself is to be the best prepared regional jurisdiction in 
the country. And I think we can accept nothing but being the 
best. Thank you.
    [The statement follows:]

                 Prepared Statement of Peter G. LaPorte

    Good morning, Chairperson Landrieu and Members of the Committee. I 
am Peter G. LaPorte, Director of the District of Columbia Emergency 
Management Agency (DCEMA). I'm pleased to have the opportunity to 
testify today about the District's level of emergency preparedness and 
coordination with surrounding jurisdictions.
    In July 2001, the District of Columbia Emergency Management Agency, 
in cooperation with the Federal Emergency Management Agency and our 
regional partners in Maryland and Virginia convened a regional meeting 
of federal and local response and recovery agencies to discuss regional 
preparedness for a terrorist attack using weapons of mass destruction. 
A tabletop exercise in which local first responders, federal partners 
and other key agencies, such as Metro, were asked to respond to a 
scenario featuring an attack using weapons of mass destruction was a 
key feature of the meeting. The ultimate goal was to develop a 
coordinated regional response plan as soon as possible. Subcommittees 
charged with developing various aspects of the plan were established 
and met regularly up until September 11.
    On September 11, 2001, it became abundantly clear that although we 
had made a good start at developing a regional plan, we were not 
prepared to mount a coordinated regional response to emergencies. Prior 
to September 11, 2001, many of the threats to the District of Columbia 
were localized, requiring minimal inter-jurisdictional coordination. 
The region's response to the September 11 plane crash at the Pentagon 
showed us that the jurisdictions in the Washington metropolitan region, 
along with their state governments and federal partners, are 
inextricably intertwined and therefore must develop a coordinated plan 
to respond to the level and types of terrorist threats we currently 
face.
    Immediately following September 11, 2001, Mayor Anthony Williams 
convened an interagency Domestic Preparedness Task Force to review the 
District of Columbia's emergency management planning and activities. 
Through its meetings and dialogue, the task force enhanced critical 
linkages and operational relations with federal, state and regional 
partners, as well as with regional stakeholders. The task force 
identified as a top priority for the District of Columbia the 
development of a comprehensive emergency management program capable of 
responding to any incident. This task force has since evolved into the 
Mayor's Emergency Preparedness Council and includes among its members 
District agencies, businesses, schools and universities, the 
Metropolitan Washington Council of Governments (COG) and local utility 
companies.
    Working in consultation with the Deputy Mayor for Public Safety and 
Justice and the City Administrator and under the Mayor's leadership, 
DCEMA led the effort to reformat and refine the city's emergency 
response plan. Renamed ``District Response Plan'' (DRP) to reflect its 
revision to mirror the Federal Response Plan (FRP), the new DRP is 
organized by Emergency Support Functions (ESF)--those tasks that in the 
aggregate comprise the city's response to emergencies and disasters. As 
work proceeded to develop the current version of the DRP, DCEMA 
gathered input from regional partners and stakeholders and used it to 
help shape the plan. A draft copy of the DRP is posted on the agency's 
website through March 11 as part of the public review and comment 
process. Following the comment period, the DRP will be revised to 
incorporate appropriate changes and forwarded to the City Council.
    As part of its effort educate the community about its role in 
disaster preparedness and response, in early October 2001, DCEMA 
published a family preparedness guide and distributed it to every 
household in the city. An additional 81,000 copies were made available 
to the District of Columbia Public Schools for distribution to each 
teacher, student and staff member. Thousands of copies have also been 
distributed at community meetings and to business groups, hospitals, 
regional partners and other interested parties.
    A major focus during 2002 will be the implementation of Community 
Emergency Response Team (CERT) training in which community members 
partner with first responders to prepare for and survive disasters 
within their communities. The 8-hour training course was developed by 
FEMA to teach communities how to take responsibility for community and 
personal preparedness.
    In order to ensure that emergency workers are prepared to respond 
when called, DCEMA has increased the number and types of training it 
offers for first responders, medical workers and other emergency 
personnel as well as for citizens who have expressed an interest in 
learning more about personal and community preparedness. Examples of 
new courses are ``Personal Preparedness'', ``The DRP'', ``The Incident 
Command System'', and Stress Management''. The agency has also 
increased its efforts to encourage neighboring jurisdictions to 
participate in regional training efforts.
    As part of its on-going effort to ascertain the efficacy of the 
plan, the city took part in a tabletop exercise, February 12 and 13, 
2002, hosted by the Federal Emergency Management Agency and the U.S. 
Army Corps of Engineers to test the effectiveness of the District 
Response Plan and the overall capabilities of the greater Washington, 
D.C. area to respond to a terrorist attack. Participants included 
representatives from Maryland, Virginia as well as the District of 
Columbia.
    Through its membership in the Metropolitan Washington Council of 
Government's (COG) Homeland Security Task Force, DCEMA works with the 
16 other regional member jurisdictions to enhance the region's 
preparedness. An example of this regional effort is the Regional 
Incident Communication and Coordination System (RICCS), developed by 
COG to fill a gap in interagency communications exposed on September 
11, 2001. RICCS facilitates communication about regional incidents and 
events by providing a comprehensive, real-time communications link that 
gives decision-makers the ability to respond in a coordinated, 
consistent and efficient manner under all scenarios.
    The District also serves as the control point for the Washington 
Area Warning Alert System (WAWAS). DCEMA transmits emergency messages 
to 67 regional response organizations including state and county 
agencies in Maryland and Virginia as well as airports, railways and 
District and federal agencies.
    Over the past six months, the city has hosted or taken part in 
numerous community meetings focusing on preparedness. One issue that 
always arises is how the city plans to evacuate residents, workers and 
visitors in the event of an emergency. The District Division of 
Transportation (DDOT) has been collaborating on regional transportation 
planning and coordination with the Maryland Department of 
Transportation (MDOT), the Virginia Department of Transportation (VDOT) 
and the Washington Metropolitan Area Transportation Authority (WMATA). 
New signage, identifying routes as event routes and directing motorists 
to I-395 will soon be installed on major city thoroughfares.
    As you can see, the District of Columbia is fully engaged in local 
and regional preparedness planning and training activities. Thank you 
for the opportunity to share information with you about these efforts. 
I would be pleased to answer any questions you may have at this time.

    Senator Landrieu. Thank you very much.
    Mr. White.
    Mr. White. Chairperson Landrieu, good afternoon. My name is 
Richard White. I serve as the general manager and chief 
executive officer of the Washington Metropolitan Area Transit 
Authority here in the National Capital region. Thank you for 
asking me to testify on emergency preparedness planning in the 
National Capital region.
    By way of background, WMATA was created by the Congress in 
1967 as an interstate compact agency. The Metro system was 
designed primarily to serve the employees of the Federal 
Government, the residents of our region, the citizens of our 
Nation who come to Washington to do business with the Federal 
Government, and the millions of people who visit the National 
Capital region from throughout the world.
    Since the mid 1960's, population and employment in this 
region have skyrocketed, and the expectations of WMATA have 
also grown exponentially. Each day we provide 1.1 million trips 
on our rail and bus systems. Approximately 40 percent of the 
daily work trips to the core of the National Capital region are 
delivered by mass transit. Half of the Metrorail stations serve 
Federal facilities, and nearly 40 percent of the locally-based 
Federal work force use the Metro system regularly.
    WMATA has long been considered one of the safest and most 
secure transit systems in the Nation. Our transit police force 
works closely with the many police departments in the region, 
as well as the FBI, the Capitol Hill Police, the Secret 
Service, the National Park Service, and the Military District 
of Washington. Since 1998, we have had a number of our police 
force assigned full-time to the FBI's Local Terrorism Task 
Force.
    When the Tokyo Subway system was attacked with a sarin gas 
release in 1995, we recognized that we needed to improve our 
preparation for previously unimagined threats. We now conduct 
annual counter-terrorism and explosive incident training for 
police and operations personnel, as well as provide a high 
level of interagency coordination and training programs and 
exercises with the many law enforcement, fire and emergency 
rescue agencies in the metropolitan area. Essentially 
everything you've already heard from Peter and Margret we 
certainly participate in when it comes to coordination with the 
District and all of the other various jurisdictions in our 
metropolitan area.
    September 11 demonstrated the critical role of transit in 
regional emergencies, and we were called upon to quickly 
evacuate the core of the region at the same time the highway 
network clogged from congestion. We provided many services to 
the Federal Government and the region, including transporting 
local police, rescue workers and emergency supplies, providing 
emergency transportation for fleeing victims of the Pentagon 
attack, and our buses serving as emergency shelters for rescue 
workers. In response to a request from the Department of 
Defense, we opened our rail system earlier than normal for 30 
days to help support essential operations at the Pentagon.
    I do want to take this opportunity to thank you, Madam 
Chair, and the members of this subcommittee, as well as the 
entire Congress and the Administration for the strong support 
and funding we have received to enhance the WMATA security. We 
were appropriated $49.1 million in fiscal year 2002 funds, of 
which $39.1 million was approved as emergency supplemental 
funding in last year's Department of Defense Appropriations Act 
and through your subcommittee. The remaining $10 million we 
received resulted from an allocation of discretionary funds 
from the Administration.
    Against the $49.1 million total we have now received $41.52 
million. And although the fund transfers have been received 
only in the last 30 to 60 days, we have already obligated our 
first $1.8 million for the approved purposes. We are moving 
forward to quickly obligate the remaining funds on a variety of 
projects, including purchasing additional protective clothing 
and equipment, acquiring additional explosive detective canine 
teams, placing vehicle locator systems on our bus fleet and 
security cameras on some of our buses, furnishing our rail 
system with bomb resistant trash containers, improving our 
intrusion detection warning systems, connecting our security 
cameras in rail stations with a central control facility, and 
initiating upgraded security features at some of our 
facilities.
    These funds have also allowed us to begin installing 
chemical sensors, initially at up to 13--or 12 of our Metrorail 
stations. We have been working for several years with the 
Department of Energy, Transportation and Justice and the 
National Laboratories in applying chemical detection technology 
in the transit environment. We are the first transit system in 
the world to become equipped with chemical detection 
capability. We are now in the process of working with the 
military on potential applications for early biological 
detection exposure as well.
    It is expected by the end of this calendar year, 
approximately fully $45 million will have been obligated of the 
amount of funds approved, with the remainder obligated in the 
early to middle part of the next calendar year. Based on our 
continual review of our capabilities in responding to an 
emergency, we are currently developing a supplemental funding 
request to the Congress. This request will enable us to 
complete security projects underway, as well as address some of 
the additional issues we have which have recently been 
developed.
    While in many respects the region was indeed successful in 
responding to the September attack, it is clear, as the 
previous testifiers have said, that communications among 
agencies can be improved. As a part of the Metropolitan 
Washington Council of Governments' emergency planning process, 
we are participating fully in the regional deliberations to 
better coordinate emergency planning and communications. Until 
these processes are finalized, the region has developed an 
interim communications protocol to link the region's 
transportation agencies, WMATA, and others involved in 
responding to a serious incident that either involves or 
affects the regional transportation system.
    WMATA has volunteered to be the primary contact for the 
region's many transit agencies. We are aware that in a crisis 
we may be called upon to play many roles other than moving our 
work force quickly home. And we wish to be prepared for those 
eventualities, whether it is assisting the military or civilian 
government agencies during a crisis to move personnel, 
equipment and potentially patients, or quickly evacuating an 
area or Federal facility not regularly served by transit, we 
are committed to working with the region and the Federal 
Government to be ready when called upon.
    It does bear mentioning, as you said, Madam Chair, in your 
opening comments, that in a recent study of emergency 
preparedness of the Nation's 30 largest cities by a team of 
national disaster experts, although Washington was scored as 
being, quote, well prepared; and we should all be proud of 
that; and did rank seventh of the 30th cities, it did, as you 
say, have one of the lowest rankings in the area of 
transportation due to our region's chronic road and bridge 
congestion problem. Although the Washington metropolitan area 
has one of the highest uses of transit service in the entire 
country, we nevertheless still do have one of the most 
congested road systems in the country. And I think it is merely 
an issue of capacity and investment that leave us in this 
situation.
    I greatly appreciate the support of this subcommittee as 
provided as we move to enhance security of the Metro system. 
Given the fact that WMATA is located in the National Capital 
region and is so integral to the continued operations of the 
Federal Government, there is an even greater need to upgrade 
our ability to respond in emergencies, particularly given the 
negative implications of the congest problem in the National 
Capital region. The leadership and Federal support you have 
provided is critical to our ability to meet the new and 
increased roles expected of WMATA.

                           PREPARED STATEMENT

    Thank you for holding a hearing on this important subject. 
I look forward to continuing with this subcommittee, the 
Congress, and the Administration as we strive to meet these 
many challenges and as a full and complete participant with the 
region. And I would be happy to answer your questions after the 
others have completed their testimony.
    [The statement follows:]

                 Prepared Statement of Richard A. White

    Chairman Landrieu and Members of the Subcommittee, good afternoon, 
and thank you for asking me to testify on coordination of regional 
emergency preparedness planning in the National Capital Region. I am 
Richard White, General Manager and Chief Executive Officer of the 
Washington Metropolitan Area Transit Authority (WMATA) here in the 
National Capital Region.
                               background
    By way of background, WMATA was created in 1967 through enactment 
of legislation by the U.S. Congress, and by the Commonwealth of 
Virginia, the State of Maryland, and the District of Columbia. The 
Metro System was designed primarily to serve the employees of the 
Federal Government, the residents of our region, the citizens of our 
Nation who come to Washington to do business with the Federal 
Government, and the millions of people who visit the National Capital 
Region from throughout the world.
    Since the mid 1960's, there has been dramatic growth and change in 
the National Capital Region. As population and employment in this 
region has skyrocketed, the demands on and expectations of WMATA have 
also grown exponentially. Each day we provide 1.1 million trips on our 
rail and bus systems. Approximately 40 percent of the daily work trips 
to the core of the National Capital region are delivered by mass 
transit service. Half of Metrorail stations serve Federal facilities, 
and nearly 40 percent of the locally based Federal workforce use the 
Metro system regularly to commute to their jobs. Across the Nation, 
transit has experienced the highest ridership growth rate of any 
transportation modes over the past 5 years.
                    wmata's emergency response role
    WMATA plays a critical role in ensuring that the important work of 
the National Capital Region continues under all circumstances. 
September 11 demonstrated the importance of transit in this region when 
we were called upon to quickly evacuate the core of the region at the 
same time that the highway network clogged from congestion. Every mode 
of transportation is important during emergencies, but transit is able 
to move people much more quickly and efficiently than automobiles which 
rapidly congest roads and highways.
    WMATA has long been considered one of the safest and most secure 
transit systems in the Nation. We have our own police force of 357 
sworn officers who are trained and certified in all three 
jurisdictions, Maryland, Virginia and the District of Columbia. We work 
closely with the many police departments in the region, as well as the 
FBI, the Capitol Hill Police, the Secret Service, the National Park 
Service, and the Military District of Washington. Since 1998, we have 
had a member of our police force assigned full-time to the FBI's local 
Terrorism Task Force.
    When the Tokyo Subway System was attacked with a sarin gas release 
in 1995, we recognized that we needed to improve our preparation for 
previously unimagined threats. We now conduct annual counter-terrorism 
and explosive incident training for police and operations personnel, as 
well as provide a high level of interagency coordination and training 
programs and exercises with the many law enforcement, fire and 
emergency rescue agencies in the metropolitan area.
    On September 11 we were called upon to provide many services to the 
Federal Government and the region. We helped evacuate the city, 
transport local police, rescue workers and emergency supplies, provided 
emergency transportation for fleeing victims of the Pentagon attack, 
and our buses served as emergency shelters for rescue workers. Further, 
in response to a request from the Department of Defense, we opened our 
rail system earlier than normal for a period of 30 days to help support 
essential operations at the Pentagon while it recovered from the 
September 11 attack. Since September 11, we have redoubled our focus on 
security and are continually assessing the best way to meet new 
challenges and expectations being placed upon WMATA.
                            security funding
    I want to take this opportunity to thank you, Chairman Landrieu, 
and the Members of this Subcommittee, as well as the entire Congress 
and the Administration for the strong support and funding we have 
received to enhance the security of WMATA facilities and equipment. In 
response to our request for Federal assistance, WMATA has received 
$49.1 million in fiscal year 2002 funds, of which $39.1 million was 
approved as emergency supplemental funding in last year's Department of 
Defense Appropriations Act. The remaining $10 million we received 
resulted from an allocation of discretionary funds from the 
Administration.
    We are moving forward to quickly obligate these funds on a variety 
of security projects including purchasing additional protective 
clothing and equipment, adding K9 explosive detection canine teams, 
placing vehicle locator systems on our bus fleet and security cameras 
on some of our buses, furnishing our rail system with bomb resistant 
trash containers, improving our detection warning systems, connecting 
our security cameras in rail stations with our Central Control 
facility, and initiating upgraded security features at our facilities.
    These funds have allowed us to move from a test phase to an 
installation phase for chemical sensors, initially at up to thirteen of 
our Metrorail stations. We have been working for several years with the 
Departments of Energy, Transportation and Justice and the National 
Laboratories in applying chemical detection technology in a transit 
environment. We are the first transit system in the world to become 
equipped with chemical detection capability. We are also now in the 
process of working with the military on potential applications for 
early biological detection exposure.
    Recently the Federal Transit Administration completed a security 
assessment of WMATA, as part of its nationwide review of transit system 
readiness. While they indicated to us that we are one of the best 
prepared transit systems in the country in terms of security, they also 
recognized our heightened vulnerability as a target, being located in 
the nation's capital. Based on the preliminary results of the FTA 
assessment, as well as our continual review of our capabilities in 
responding to an emergency, we are currently developing a supplemental 
funding request to the Congress. We plan to forward that request to the 
full Appropriations Committees, this Subcommittee, and the 
Administration in the very near future. The request will enable us to 
complete security projects now underway, as well as address some of the 
new vulnerabilities we have recently identified.
                         regional coordination
    While in many respects the region was very successful in responding 
to the September attack, it is clear that communications among agencies 
can be improved. As part of the MWCOG emergency planning process, we 
are participating in the regional deliberations to better coordinate 
communications among jurisdictions concerning regional transportation 
issues and activities following an emergency incident.
    Until these processes are finalized, the region has developed an 
interim communications protocol to link the District of Columbia, 
Maryland and Virginia departments of transportation, WMATA, and other 
agencies involved in responding to a serious incident that either 
involves or affects the regional transportation system.
    WMATA has volunteered to be the primary contact point for the 
region's many transit agencies under the COG umbrella, which is also 
working to ensure redundant communications systems, holding mock 
emergency conference calls, and initiating an on-line bulletin board. 
These ``quick-hit'' efforts are low- tech, but they assure our region 
will be better prepared to respond if an incident were to occur 
tomorrow.
    The transportation portion of the regional funding request being 
coordinated by MWCOG is focused primarily on improving communications 
and incident management capabilities. Much of WMATA's Federal funding 
request will echo this theme. Redundant and secure communications under 
our Continuity of Operations Plan (COOP) are absolutely essential to 
WMATA's ability to continue to run rail and bus service in an 
emergency, including a major disruption to our Operations Control 
Center. Another part of the COG funding request will be for an improved 
regional traveler information system.
    We are also cognizant of our responsibility to communicate with 
citizens during a crisis. On September 11, our web site experienced an 
89 percent increase in use, and our Call Center and media offices also 
had a steep rise in inquiries. Our ability to communicate with our 
customers through various means, including the public address system in 
our rail system, which can reach thousands of people in this region 
simultaneously, is an important tool in emergencies. We are evaluating 
all of our communications and operating systems, as well as back up 
capability, in order to ensure that we are prepared to respond to any 
situation.
    We also look forward to continuing to work with the MWCOG and the 
District of Columbia as they develop actual planning scenarios. WMATA 
participates in the region's emergency preparedness exercises. This 
week a table top exercise was held with several Federal agencies, the 
District of Columbia, Maryland and Virginia and WMATA simulating 
responses to threats in the Metro rail system. There is also a more 
extensive crisis planning workshop on March 21, 2002, that is sponsored 
by COG, the Greater Washington Board of Trade and others to determine 
the effectiveness of existing plans and cooperative agreements.
    We are aware that in a crisis, WMATA may be called upon to play 
many roles other than that of moving a work force quickly home, and we 
wish to be prepared for those eventualities. Whether it is assisting 
the military or civilian government agencies during a crisis to move 
personnel, equipment and potentially patients, or quickly evacuating an 
area or Federal facility not regularly served by transit, we are 
committed to working with the region and the Federal Government to be 
ready if we are needed. In an ongoing study we are currently completing 
on regional bus service we are examining establishing strategic bus 
corridors to help expedite evacuation from key Federal and other 
employment centers in the region.
    We need to ensure that the Federal Government participates fully in 
the preparation of the region's emergency response plan so that the 
region can be properly equipped to address Federal workforce mobility 
and Federal agency continuity of operations issues. I would add that it 
is also important to the Legislative Branch of the Federal Government 
to participate in this as well.
                               conclusion
    I greatly appreciate the support this Subcommittee has provided as 
we move to enhance security of the Metro System and to be prepared to 
respond to any future emergencies. I urge you to consider certain 
transit properties, such as the WMATA System, as an essential part of 
the nation's homeland defense system as it pertains to readiness of our 
urban centers, and to contemplate our value and needs as the evacuation 
method of choice, and possibly necessity, during specific emergency 
situations. Given the fact that WMATA is located in the National 
Capital Region and is so integral to the continued operations of the 
Federal Government, there is an even greater need to upgrade our 
ability to respond in emergencies. The leadership and Federal support 
you have provided is critical to our ability to meet the new and 
increasing roles expected of WMATA.
    Thank you for holding a hearing on this important subject. I look 
forward to continuing to work with this Subcommittee, the Congress, and 
the Administration as we strive to meet these challenges. I would be 
happy to answer your questions.

    Senator Landrieu. Thank you very much.
    Mr. Rogers.
    Mr. Rogers. Good afternoon, Madam Chair. I am Michael 
Rogers, executive director of the Metropolitan Washington 
Council of Governments. As you know, COG is a 501(c)(3) not for 
profit association of 17 governments in the Metropolitan 
Washington region serving Northern Virginia, suburban Maryland 
and the District of Columbia. This region is also known as the 
National Capital region.
    COG has served this region since 1957, providing a venue 
for regional collaboration and coordination on a multitude of 
public policy issues that have shaped this region, including 
transportation, planning and development, environment, public 
safety and emergency management, housing, and a host of other 
issues for which regional cooperation was essential.
    First, I want to acknowledge the support of this committee 
in insuring that this region received funds from the Federal 
budget to improve preparedness in the entire region post 9/11. 
Overall, the District of Columbia, Northern Virginia and 
suburban Maryland jurisdictions, as well as key regional 
organizations such as COG and WMATA, received a total 
collectively of $320 million to improve emergency preparedness.
    I note this fact because of the significant nature of the 
act of allocating funds directly to jurisdictions in Northern 
Virginia and suburban Maryland. This act recognizes that 
jurisdictions within the COG region are significant to the 
Federal interest because of the Federal facilities and workers 
that are disbursed throughout this region.
    Kevin Avery asked me to bring a map. I have it----
    Senator Landrieu. Thank you for improvising. We do have an 
easel. The staff is getting it right now.
    Mr. Rogers. Okay.
    Senator Landrieu. But this will work for right now and then 
we'll get the easel so that the cameras might----
    Mr. Rogers. Well, we brought this map to show you the 
footprint of the COG region, the National Capital region, and 
the fact that Federal facilities and employees are located all 
over this region. And we think that is significant and the fact 
that this committee and the Federal Government allocated funds 
to--for regional security is very significant.
    Senator Landrieu. And the boundaries of this region are the 
red lines we see?
    Mr. Rogers. That's right.
    Senator Landrieu. The circle?
    Mr. Rogers. That's right.
    I am pleased to report that we have made substantial 
progress toward developing a Regional Emergency Response Plan. 
On April 10 we expect to present a baseline plan to the COG 
board for approval.
    In Public Law 107-38, COG was appropriated $5 million to be 
used to improve emergency preparedness in this region. The 
funds requested were allocated for the development of a 
regional plan, $1.5 million; the development of improved 
emergency communications, $500,000; development of a 
vulnerability assessment tool, $500,000; and development of 
regional training and exercises and community outreach, $2.5 
million. These funds are to be expended by September 30, 2003. 
COG received its first payment on February 1, 2002.
    Let me share the steps that have been taken to develop a 
Regional Response Plan and coordination.
    In October, the COG Board Chair, Carol Schwartz, created a 
COG Ad Hoc Task Force on Homeland Security and Emergency 
Preparedness. The purpose of the task force is to develop a 
comprehensive, all sector plan involving all levels of 
government in the region, key private sector organizations, and 
to improve communication and coordination when an incident of 
regional impact occurs.
    The task force involves representation from all of the 
local governments, key Federal agencies, the private sector, 
the educational community, volunteer organizations active in 
disaster, and the nonprofit community. Federal agencies that 
are participating in the task force include the Office of 
Homeland Security, FEMA, the Office of Personnel Management, 
the Army Corps of Engineers, the Military District of 
Washington, the Department of Health and Human Services, U.S. 
Public Health Service, and the Center for Disease Control.
    The task force is organized in six major functional areas: 
transportation, health, communications, solid waste debris 
management, public safety, energy and water supply.
    The committees of the task force are populated with 
representatives of all sectors in the functional areas. Through 
the committee structure, a number of gaps in policies, 
procedures and protocols, legal authorities and equipment have 
been identified. These committees identified 50 recommendations 
that were approved by the COG board. When implemented, these 
recommendations will address the identified gaps in the 
region's response on 9/11.
    The focus of our efforts has been to develop the framework 
for a Regional Emergency Response and Communication and 
Coordination Plan. We have hired a consultant group to work 
with us. The COG Board and task force have approved an approach 
that will result in a regional plan being modeled after the 
Federal Response Plan and the District Response Plan. Our 
objective is to create a common terminology for emergency 
response in this region, to create a seamless plan, if you 
will, from the Federal to the district to the regions and 
involving the States.
    The purpose of the Regional Emergency Response Plan is to 
assure effective regional communications and coordination among 
participation organizations in an event or incident in the 
region. The plan will be functionally organized and will use 
common terminology and structure for compatibility, with 
accepted State and local emergency plans. The framework for the 
Regional Emergency Response Plan describes the purpose and 
roles of member organizations, including the concept of 
operations. The Regional Emergency Response Plan describes the 
organizations that have roles and responsibilities for planning 
communication and coordination for specific support functions.
    The Regional Emergency Support Function is a collection of 
organizations with resources and capabilities that align with 
particular types of assistance or requirements that are needed 
in large-scale emergencies or disasters, provides effective way 
of grouping like organizations and activities from a wide range 
of dissimilar jurisdictions. Support annexes describe 
activities and responsibilities that have unique, cross-cutting 
regional requirements. The support annexes include emergency 
evacuation support plan and terrorism annex.
    Our progress to date includes more than 40 coordination 
meetings with working groups. We have drafted a basic framework 
for a Regional Emergency Response Plan and a framework of 11 of 
the 15 supporting annexes. We have reviewed all mutual aid 
agreements and determined what must be done to make them more 
effective. We are currently conducting a capability assessment 
for readiness, a survey of all 17 jurisdictions in the region. 
We have began the--begun the assessment of current training and 
exercises across the region, and this assessment will 
facilitate the development of a regional training and exercise 
plan.
    As I noted earlier, we have used a process that focuses on 
the many functions necessary for an emergency response plan. 
Those functions correspond with elements of the Federal 
Response Plan, and that is important, and the District Response 
Plan.
    Organizing the regional plan along cross-functional lines 
is creating a product that is sure to be effective because it 
matches the Federal outline. In addition, we, by inviting all 
regional stakeholders to the table to work on the plan, we are 
insuring that the extra level of coordination and value that 
will be extremely important for the region and its unique 
needs.
    Now let me say in view of all this highly visible planning 
process, it is reasonable to ask has anything that has been 
done in this region since 9/11 improved preparedness for an 
emergency incident? Are we more prepared for an attack or an 
emergency in this region than we were on September 10, 2001?
    The answer to that question is yes. But before I provide a 
detailed answer, let's take a look at what happened on 9/11 
according to a report by George Washington University Institute 
for Crisis and Disaster and Risk Management. Their report was 
funded by the National Science Foundation.
    The findings were encouraging. The Institute reported that 
the response to the attack on the Pentagon September 11 was 
effective, including both a rapid mobilization and integration 
of Federal and local resources, and the effective use of 
available assets and teams. I have attached a chart that kind 
of lays out a graphic of the deployment of resources and who 
responded on 9/11. And the short of it is that the first 
responders did their job, the mutual aid plans work.
    There's another report called ``Answer the Call: 
Communications Lessons Learned from the Pentagon Attack'' that 
was released on February 1 by the Public Safety Wireless 
Network, a joint initiative sponsored by Treasury and Justice 
Departments. The program's goal is to help public safety 
community improve wireless radio operability.
    This report indicated that there were 50 public safety 
organizations that responded to the Pentagon. They used 900 
radios. A lot of them were not on the same frequency, but there 
were various ways of creating interoperability. But 
nonetheless, though they were able to communicate at the site, 
there still remains an interoperability challenge that we need 
to focus on in this region.
    Now I say yes that we are prepared for an incident.
    Senator Landrieu. You have one more minute.
    Mr. Rogers. One more minute. And I can cut it short because 
both Margret Kellems and Peter LaPorte and Dick White have 
identified the work of COG through the planning process for the 
Regional Incident Communications Systems.
    What did not happen on 9/11 was the communication from the 
Federal Government to the local government and the early 
engagement of local decision-makers to coordinate and 
communicate early in the process. What we've created now is an 
interim measure called the Regional Incident Communications 
System, that will be operated on a interim basis at least by 
the District of Columbia Emergency Management Agency, that will 
have the ability to get regional leaders on the phone for a 
conference call or by a variety of backup mechanisms early in 
an incident, so that decisions can be made early in the process 
about how to respond to an incident so we can create one common 
message and one common approach, though it may be delivered 
through many voices in the region.

                           PREPARED STATEMENT

    So if something happens, our first responders will respond 
and do their jobs. There are ways to create interoperability 
that did not exist in some cases on 9/11 and our leaders have 
the ability to communicate with each other early in the process 
for decision making. So that's the answer.
    Thank you very much for the opportunity to be here. I look 
forward to answering your questions.
    [The statement follows:]

                Prepared Statement of Michael C. Rogers

    Good Afternoon, Madame Chair and Members of the Subcommittee. I am 
Michael C. Rogers, Executive Director of the Metropolitan Washington 
Council of Governments (COG). As you know, COG is the 501(c)3 not for 
profit association of 17 governments in the Metropolitan Washington 
region serving Northern Virginia, Suburban Maryland and the District of 
Columbia. This region is also known as the National Capital Region.
    COG has served this region since 1957 providing a venue for 
regional collaboration and coordination on a multitude of public policy 
issues that have shaped this region, including transportation, planning 
and development, environment, public safety and emergency management, 
housing, and a host of other issues for which regional collaboration 
was essential.
    First, I want to acknowledge the support of this committee in 
ensuring that this region received funds from the federal budget to 
improve the preparedness of the entire region post 9-11. Overall, the 
District and the Northern Virginia and Suburban Maryland jurisdictions 
as well as the key regional organizations, COG and the Washington 
Metropolitan Transit Authority, received collectively $320 million to 
improve emergency preparedness.
    I want to note this fact because of the significant nature of the 
act of allocating funds directly to the jurisdictions in Northern 
Virginia and Suburban Maryland. This act recognizes that jurisdictions 
within the COG region are significant to the federal interest because 
federal facilities and workers are disbursed all around this region. 
Having this region, because it is so target rich, be the best prepared 
in the country, is a desirable objective and this cannot be 
accomplished without substantial ongoing support by the federal 
government to the region.
    As a think tank on local issues and a regional information source, 
COG has molded its members into an effective partnership. We are an 
organization that often ensures that the region speaks with one voice. 
As we confront the aftermath of September 11, I believe there has been 
no other time in COG's 45-year history when those services have been 
more valuable to the region. Since the attack, we have effectively 
mobilized the entire region and focused the attention, time and talent 
of the region's leaders--and their emergency management and public 
safety officials--on the development of a plan.
    Madam Chair, I'm pleased to report that we have made substantial 
progress toward developing a Regional Emergency Response Plan, and on 
April 10, we expect to present a baseline plan to the COG board for 
approval.
    In Public Law 107-117, COG was appropriated $5 million to be used 
to improve regional emergency preparedness. The funds were allocated as 
requested in the following categories:
  --Development of Regional Emergency Response Plan: $1.5 million
  --Development of plan for improved emergency communications: $500,000
  --Development of regional vulnerability threat assessment tool: 
        $500,000
  --Development of regional emergency training, including exercises and 
        community outreach: $2.5 million
    These funds are to be expended by September 30, 2003. COG received 
its first allocation on February 1, 2002.
    Let me share with you what steps are being taken to develop a 
regional plan for emergency response and coordination.
    In October, then COG Board Chair Carol Schwartz created the COG Ad 
Hoc Task Force on Homeland Security and Emergency Preparedness 
(COGHSTF). The purpose of COGHSTF is to develop a comprehensive all 
sector plan, involving all levels of government in the region and key 
private sector organizations to improve communication and coordination 
when an incident of regional impact occurs. The task force involves 
representation from area local governments, key federal agencies, the 
private sector, the educational community, Volunteer Organizations 
Active in Disaster (i.e. the National Capital Region Red Cross and the 
non-profit community.) Federal agencies that are participating in the 
task force include the Office of Homeland Security, FEMA, the Office of 
Personnel Management, the Army Corps of Engineers, the Military 
District of Washington, the Department of Health and Human Services, 
the U.S. Public Health Service and the Centers for Disease Control.
    The task force is organized into six major functional areas: 
Transportation, Health, Communications, Solid Waste/Debris Management, 
Public Safety and, Energy/Water Supply
    The committees of the task force are populated with representatives 
from all sectors in the functional areas. Through the committee 
structure a number of gaps in policies, procedures, protocols, legal 
authorities and equipment were identified. These committees identified 
50 recommendations that were approved by the COG Board. When 
implemented, they will address the identified gaps in the region's 
response to the Pentagon Attack.
    The focus of our efforts has been to develop the framework for a 
regional emergency response and communication and coordination plan. We 
have hired a consultant group to work with us in this process. The COG 
Board and the COGHSTF have approved an approach that will result in a 
regional plan being modeled after the Federal Response Plan and the 
District Response Plan. Our objective is to create a common terminology 
for emergency response in this region.
    The purpose of the regional emergency response plan is to assure 
effective regional communications and coordination among participating 
organizations in the event of an incident of regional impact. The plan 
will focus on regional communication and coordination. The plan will be 
functionally organized and will use common terminology and structure 
for compatibility with accepted state and local emergency plans. The 
framework for the regional emergency response plan describes the 
purpose and roles of member organizations including the concept of 
operations. The RERP describes the organizations that have roles and 
responsibilities for planning communication and coordination for a 
specific support function.
    A Regional Emergency Support Function (R-ESF) is a collection of 
organizations with resources and capabilities that align with 
particular types of assistance or requirements that are needed in a 
large scale emergencies or disasters. R-ESFs provide an effective way 
of grouping like organizations and activities from a wide range of 
dissimilar jurisdictions. Support Annexes describe activities and 
responsibilities that have unique, cross cutting regional requirements. 
The Support Annexes include an emergency evacuation support plan and a 
terrorism annex.
    Our progress to date includes more than 40 coordination meetings 
with working groups. We have drafted the Basic Framework for the 
Regional Emergency Response Plan, and the framework for 11 of 15 
Supporting Annexes. We have reviewed all mutual aid agreements and 
determined what must be done to make them more effective. We are 
currently conducting a Capability Assessment for Readiness survey of 
the 17 jurisdictions in the region. We have begun to assessment of 
current training and exercises across the region and this assessment 
will facilitate the development of a regional training and exercise 
plan.
    As I noted earlier, we have used a process that focuses on the many 
functions necessary to an emergency response plan. Those functions 
correspond with the plan elements used by the Federal Emergency 
Management Agency (FEMA) and that also exist in the District of 
Columbia's Emergency Response Plan.
    Organizing the regional plan along these ``cross-functional'' lines 
is creating a product that is sure to be effective because it matches 
the federal government's outline. In addition, by inviting all the 
regional stakeholders to the table to work on the plan, we are ensuring 
there is an extra level of coordination and value that will be 
extremely important for the region and its unique needs.
    In view of our highly visible planning process it is reasonable to 
ask has anything that has been done in this region since 9-11 improved 
our preparedness for an emergency incident. Are we more prepared for an 
attack or an emergency in this region than we were on September 10, 
2001?
    The answer to that question is Yes. But before I provide a detailed 
answer, let's take a look as what happened on 9/11 according to a 
report by the George Washington University Institute for Crisis, 
Disaster and Risk Management. The report was funded by the National 
Science Foundation.
    The findings were encouraging. The Institute reported that response 
to the attack on the Pentagon on Sept. 11 was effective, including both 
the rapid mobilization and integration of federal and local resources, 
and the effective use of available assets and teams. The report notes 
that the response system designed for natural disasters was effective 
for terrorist attacks. (A chart from the report that tracks the 
organizational response to attack on the Pentagon is attached.)
    Another report came to a similar conclusion. The report, 
``Answering the Call: Communications Lessons Learned from the Pentagon 
Attack,'' was released Feb. 1 by the Public Safety Wireless Network 
(PSWN) Program, a joint initiative sponsored by the Justice and 
Treasury departments. The program's goal is to help the public safety 
community improve wireless radio interoperability.
    Interoperability has been a major focus among public safety 
organizations and governments for years, but has become a national 
focus following the Sept. 11 attacks. Many public officials have said 
first responders in many jurisdictions cannot communicate with one 
another because many operate on different radio frequencies.
    During the Pentagon attack, 50 local, state and federal public 
safety agencies responded to the incident, resulting in about 900 radio 
users, the report said. Initial responders, led by those from Arlington 
County, Va., had no problem establishing communications at the scene 
due to ``the high-level of regional coordination and agreements 
previously established,'' it said.
    Robert Lee Jr., a PSWN program manager representing the Justice 
Department, said part of the success stemmed from the problems first 
responders had when Air Florida Flight 90 crashed into the 14th Street 
Bridge and into the Potomac River in 1982.
    He said several public safety agencies, including the National Park 
Police, Washington, D.C., fire and police, Arlington County rescue 
units and authorities from then-Washington National Airport, were 
``dissatisfied with their ability to communicate'' and set about making 
changes.
    ``Cooperation is the key,'' Lee said. ``If you can't get people to 
sit down and talk with each other, they'll never come up with 
technological and procedural solutions to meet the challenge.''
    The report found that: Regional planning and coordination efforts 
produced procedures for mutual-aid interoperability for local 
jurisdictions.
  --Local agencies regularly rehearse mass casualty incidents.
  -- Agencies had early establishment of and strict adherence to a 
        formal incident command system.
  --Responders found that their private land mobile radio systems were 
        the most reliable form of communication. However, the report 
        noted that as state and federal agencies, which are considered 
        secondary responders, increased their presence at the site, 
        ``no means of direct interoperability was immediately 
        available'' for them. It also said the level of 
        interoperability necessary to support these secondary 
        responders had not been documented.
    Lee said the PSWN report, which contains a number of 
recommendations, should be used to see how communities and regions can 
increase their interoperability. ``In the emergency services, stress is 
inevitable,'' he said. ``It's really, really comforting to responding 
entities that they have plans and procedures to fall back on and they 
have appropriate equipment to meet the challenges. If we don't plan 
ahead of time, it makes it all the more frightening for responders and 
all the more confusing for the initial ones to help.''
    These two high level reports reflect what COG has found in its 
review of the events of September 11, as well as what we know about the 
regional coordination and mutual aid agreements that were developed 
under COG's leadership over many years. Even though those systems 
worked reasonably well, we have identified problems in several areas:
  --Communications between federal and local officials
  --Timely communication between the region's local jurisdictions
  -- The failure to use the Emergency Alert System or the WAWAS system.
    Early in the planning process, COG's Board identified improved 
communication as a key component of a Regional Emergency Response Plan. 
When the COG Board's Task Force developed its 50 recommendations in 
December, the most significant proposals dealt with communications. As 
a result, the board decided to establish a Regional Incident 
Coordination and Communications System (RICCS).
    The mission of the RICCS is to facilitate coordination and 
communications among local, state and federal governments authorities 
to ensure an effective and timely response to potential, imminent and 
actual emergencies and incidents. The system will facilitate 
communications and decision making via conference calls. An important 
goal of coordinated decision-making is to have regional leaders develop 
``common messages'' that will be delivered by ``many voices.''
    On an interim basis, the RICCS will be located in the District of 
Columbia's Emergency Operations Center. We expect this new system to 
benefit local and federal governments as they work together during 
emergencies to coordinate school closings, transportation planning and 
the safe movement of the area's workforce.
    Once the RICCS is in place, it will give this region a greatly 
improved capacity to respond to emergencies and make us all more aware 
of how to work cooperatively.
    An important next step in our planning process, Senator Landrieu, 
is to develop the training exercises that will better prepare our 
public safety agencies for a 9-11 like emergency. We will also acquire 
the technical tools that can evaluate potential threats to the region's 
infrastructure. We are reviewing several different systems. The general 
public will become more aware of the regional plan as we begin to 
activate a community outreach plan and begin the training sessions for 
public safety personnel.
    Again, thank you for this opportunity to brief the subcommittee. 
I'll be happy to take your questions.

    Senator Landrieu. Thank you.
    Mr. Keldsen.
    Mr. Keldsen. Thank you, Madam Chair. I am Donald Keldsen, 
acting director, Maryland's Emergency Management Agency. I too 
welcome the opportunity to be here to discuss this important 
issue.
    Let me talk a little bit about Maryland. We created a 
Maryland Terrorism Forum back in January of 1998 to bring 
together State, Federal and local partners across the spectrum 
of the disciplines involved in combating terrorism and managing 
the consequences of such events. Over the last 4 years our 
agency has been involved in over 40 terrorism-related 
exercises, innumerable planning sessions, and equipment 
procurement within the last few years.
    Baltimore was selected as a national pilot for the Chemical 
Improved Response Program. The relevance of that to the 
National Capital region is we included partners from the 
Baltimore/Washington corridor in that process and developed new 
processes for dealing with chemical weapons and sharing those 
throughout the Nation. Relative to the National Capital region, 
Montgomery County and Prince George's County were active 
members in that, have been very proactive in anti-terrorism.
    In the exercise arena, for example, Montgomery County on an 
annual basis is conducting chemical, biological and 
radiological and hazmat exercises, and on an annual basis 
conducts a decontamination demonstration for the entire region 
and the rest of the State. Prince George's County likewise has 
been involved in many exercises, including participation with 
the State and with the district in poison response 1999 and in 
the National Capital region exercise in 2000 which was 
concurrent with top-off.
    In addition, Maryland and the two counties have worked with 
the jurisdictions in the COG and with the District in various 
planning things, such as the regular meetings of the COG 
Emergency and Disaster Preparedness Committee, which the 
important aspect there is they've established the relationship. 
So people know each other and they know who they're talking to 
at the other end of the phone.
    The other aspects, also completed a Bio-terrorism Plan. I 
worked with FEMA as they developed a National Capital region 
annex to the Federal Response Plan. It is already been alluded 
to the cooperation in the transportation arena based on 9/11 
and its remarkable accomplishments.
    In addition, I would like to refer to the Brentwood anthrax 
incident. That's where the relationships established during the 
Bio-terrorism Training Plan came to fruition and health people 
were able to talk to health people and emergency managers to 
emergency managers.
    That also provided us the opportunity to deal with the 
National Pharmaceutical Stockpile. We will coordinate with CDC 
and with the other jurisdictions in the area to break down 
parts of that and allocate it, albeit a small portion of that, 
but since that time there's been extensive planning on dealing 
what the National Pharmaceutical Stockpile for the National 
Capital region as a joint, combined effort.
    That's most of what I needed to say that hasn't already 
been said. One thing I would like to point out, even with 
Washington, D.C. having such a high rating in medical response 
resources and Maryland also having them, we should not be 
deluded that we nationally have a deficit in surge capability 
in the medical arena in dealing with weapons of mass 
destruction and terrorism issues.
    Senator Landrieu. Thank you.
    Mr. Cline.
    Mr. Cline. Chairperson Landrieu, Subcommittee members, I am 
Michael Cline with State Corp Native Emergency Management for 
the Commonwealth of Virginia. I too appreciate the opportunity 
to be here and address the subcommittee. While I do not have a 
prepared written statement to submit, I would like to make a 
few comments and then I'll be available to answer any 
questions.
    We are confident in our State emergency operations plans, 
in the response and recovery system that is in place and 
exercised regularly both in real emergencies and through 
exercises. While we feel that our operational relationship, 
both with the District and with Maryland and with our Northern 
Virginia counties and cities is excellent, and while we train 
and exercise regularly with those jurisdictions, we feel that 
there is still a need for a specific, earmark unit of resources 
to support capital area regional planning, training and 
exercises.
    We would propose an all hazards approach, but certainly 
terrorism and weapons of mass destruction response is the--
would be the focus. We are very encouraged by a number of the 
efforts that are currently underway. We are participating in 
efforts to develop planning around pharmaceutical stockpiles 
for transportation and evacuation coordination plans, we are 
regional hazardous materials capabilities, a number of the 
things that you've already heard mentioned today.
    There are also a number of planning efforts that are 
underway. The National Capital region response planning efforts 
that recently took place; the work that is being done in each 
of the jurisdictions and at the State level, to the extent that 
it is being coordinated, and to a large extent it is, is going 
to be very supportive of an enhanced capability to respond. But 
we still believe that the bottom line is that first there's a 
real need for a formal effort going through the governors of 
the States and the Mayor in the District to be established to 
insure that we have a working, coordinated, regional plan that 
everyone will agree to and that will work both through 
communications operationally and functionally when it is 
required to be activated.
    Senator Landrieu. Thank you, Mr. Cline.
    Mr. Schwartz.
    Mr. Schwartz. Thank you, Madam Chair. My name is James 
Schwartz and I am the assistant chief of operations for the 
Arlington County Fire Department. I appreciate the opportunity 
to be here this afternoon and represent Arlington County.
    I submitted my formal remarks, and in the interest of time 
and with your permission, I'll abbreviate my remarks to a 
couple of key issues.
    I want to compliment all the other panel members on all of 
their remarks regarding the emergency planning issues. They are 
all extremely qualified to speak to those. So I'll focus my 
remarks more on some of the operational issues and some of the 
obstacles and impediments that we view as being present now.
    The first one leads--is the indemnification of mutual aid 
responders. New York and the Pentagon incidents graphically 
demonstrated that major emergencies cannot be managed without 
mutual aid from all jurisdictions in a region. A serious 
obstacle for interjurisdictional response to major emergencies 
in the capital region is the lack of indemnification for mutual 
aid responders.
    The problem is created by the differing sovereign immunity 
laws in the District, Maryland and Virginia. This is not an 
abstract legal issue for Arlington. We suffered a major legal 
and financial loss in 1979 when a civilian was severely 
interested--injured during a pursuit in the District.
    Police departments in the region have found a creative 
solution for mutual assistance to the District when there is 
adequate time to plan ahead. Maryland and Virginia police 
officers are deputized as Federal marshals. However, we have no 
solution for unplanned situations requiring police mutual 
assistance or any situations requiring fire and emergency 
medical services.
    Last fall the Metropolitan Washington Council of 
Governments passed a resolution to seek Federal legislation to 
provide for such indemnification. A draft Mutual Aid 
Authorization Act was sent to Congress on November 21, 2001. 
Delegate Eleanor Holmes Norton and Representative Jim Moran 
support such a bill, and we ask your support also.
    Moving to another issue regarding operations, I'll focus 
for a moment on a Uniform Incident Management system, critical 
for effective operations to occur. The management aspect of a 
terrorist incident must be addressed. That means the universal 
adoption of a standard Incident Management System as taught by 
FEMA's National Emergency Training Center. This system should 
be understood and mastered by all operational agencies at every 
level of government, local, State and Federal.
    It is a simple, modular system that is used by the fire 
service throughout the United States. It is commonly used by 
State emergency management agencies as well. Several Federal 
agencies, including the U.S. Coast Guard and the Environmental 
Protection Agency also use it. And the Federal Bureau of 
Investigation has begun to train its special agents to use this 
system.
    The FBI's understanding of and adherence to standard IMS 
was invaluable at the Pentagon on September 11. IMS does not 
dictate who is in charge, but provides a framework for managing 
the incident and has been proven in countless public 
emergencies. The use of IMS should be mandated by all agencies 
and should be a requirement for all funding.
    And I want to add in my written comments also that the 
understanding of an Incident Management System, a common 
Incident Management System, has to go beyond just emergency 
responders and emergency management agencies. It truly is, as 
Mr. LaPorte pointed out earlier, an issue that the public needs 
to understand.
    And the CERT teams who play a vital role in communicating 
and acting in our communities also need to have a common 
understanding of it. We also found a lot of the nongovernmental 
organizations, such as the Red Cross and the Salvation Army, 
need a much better understanding of that as a result of lessons 
learned on September 11.
    Let me turn our attention just for a moment to the 
communications system, adding onto something that Mr. Rogers 
talked about, that we all knew this before September 11. we 
learned an absolutely critical lesson about good communications 
systems and the interoperability among individual 
jurisdiction's communications systems. We are concerned that 
not all jurisdictions in the capital region have interoperable 
communications ability. There are a number of steps that have 
to be taken to address the problem, including adequate funding 
for local jurisdictions to upgrade their systems.
    The best long-term solution lies in the allocation of 
additional radio spectrum. Radio spectrum, a publicly owned 
commodity, is used by government agencies and the private 
sector alike. Congress can provide a long-term solution to this 
problem by setting aside appropriate band width that will allow 
us to communicate in an emergency. H.R. 3397, sponsored by 
Representative Jane Harman, is critical in the effort for 
additional public safety spectrum, and we ask the support of 
this committee also.
    Let me turn for just a moment to public health resources, 
because this is an important one. And while a lot of the focus 
so far of our comments have been on September 11, we cannot 
forget the anthrax events that occurred in October throughout 
our region.
    That particular crisis made us aware of the essential role 
the public health systems play in emergency planning and 
response. If the public health system is to continue to 
function effectively, it is critical that adequate resources be 
made available at the local level. Health departments that 
coordinate activities play a critical role as first responders 
in anticipating, preparing for, and identifying and responding 
to acts of bio-terrorism, bio-terrorism hoaxes, and other 
public health threats and emergencies.
    Clearly defined, consistent lines of communication during 
planning, response and evaluation phases between health 
directors in all jurisdictions must be developed and supported 
at the highest levels of government. The Council of Governments 
Health Officer's Committee provides such a forum. The health 
officers, or their designee, from every Metro jurisdiction 
should consistently attend these meetings.
    A critical early component of all responses should be 
immediate communication and discussion of options with all 
health directors. Internet-based information and communications 
system became widely unavailable on September 11, and many 
health departments could not access e-mail for hours to receive 
health alerts from neighboring jurisdictions, the centers for 
disease control and prevention, or their States. Wireless 
handheld communication capacity is an important emergency tool 
the public health agencies should not be without.
    During the anthrax outbreak we learned an important first 
step during a public health disaster involves setting up an 
immediate available 24-hour hotline to receive reports and 
dispense accurate information. This may require a pre-arranged 
means to access new telephone lines to create an emergency 
hotline across jurisdictional boundaries for the public.
    The following four critical areas need immediate attention: 
Public health strategies, which include advance planning, 
coordination of public health response, and implementation of 
emergency measures to control and contain an outbreak must 
occur in a collaborative manner across jurisdictional 
boundaries. It is imperative that public health expertise from 
all jurisdictions be integrated with that of other emergency 
response agencies throughout the region.
    Surveillance and epidemiologic investigation, which 
requires monitoring community health status to detect the 
presence of bio-terrorism agents and to characterize the public 
health threat or emergency across jurisdictional boundaries. 
Public health agencies must share results of active, syndromic 
surveillance for disease across jurisdictional lines to do 
immediate, on-scene, epidemiological investigation; to develop 
and test local bio-terrorism preparedness plans; and to 
coordinate community responses. Strong public health systems 
coordinated across jurisdictional boundaries are required to 
rapidly detect and respond to bio-terrorism events.
    The metropolitan D.C. area has the unique challenge of 
needing to coordinate response across the three jurisdictions 
of Northern Virginia, D.C. and Maryland, and coordinate those 
responses in the case of Virginia and Maryland with their 
States obviously.

                           PREPARED STATEMENT

    We need additional laboratory capacity to identify, rule 
out, and confirm and characterize biological threat agents and 
rapidly share information among jurisdictions. And finally, we 
need communication across jurisdictional boundaries at the day-
to-day operational level and at the policy level, which 
includes collection, analysis, and communication of information 
among the response community, decision makers, and the general 
public during a public health emergency. Thank you.
    [The statement follows:]

                  Prepared Statement of James Schwartz

    Madam Chair: Arlington County appreciates the Subcommittee's 
invitation to be present at today's hearing and to offer the following 
comments on regional issues impacting the District of Columbia's 
emergency planning and response.
    Indemnification of Mutual-Aid Responders.--New York and the 
Pentagon graphically demonstrated that major emergencies cannot be 
managed without mutual aid from all jurisdictions in a region. A 
serious obstacle for inter-jurisdictional response to major emergencies 
in the Capital Region is lack of indemnification for mutual-aid 
responders. This problem is created by the differing sovereign immunity 
laws in the District, Maryland, and Virginia. This is not an abstract 
legal issue for Arlington: we suffered a major legal and financial loss 
in 1979 when a civilian was severely injured during a pursuit in the 
District.
    Police departments in the region have found a creative solution for 
mutual assistance to the District when there is adequate time to plan 
ahead: Maryland and Virginia police officers are deputized as Federal 
marshals. However, we have no solution for unplanned situations 
requiring police mutual assistance or for any situations requiring fire 
and emergency medical service.
    Last fall, the Metropolitan Washington Council of Governments 
passed a resolution to seek Federal legislation to provide for such 
indemnification. A draft Mutual Aid Authorization Act was sent to 
Congress on November 21, 2001. Delegate Eleanor Holmes Norton and 
Representative Jim Moran support such a bill. We ask your support, too.
    Fire/Emergency Services Funding.--Key to emergency planning and 
response is adequate funding; and significant Federal funding is 
required for the emergencies we must now deal with. This is especially 
true for the fire and emergency-medical services, which has not 
typically been recipients of Federal funding. We were very concerned 
that the administration initially proposed eliminating, in fiscal year 
2003, the FIRE Act grants that were created about 18 months ago. The 
Assistance to Firefighters grant program at the Federal Emergency 
Management Agency (FEMA) is regarded as an unqualified success in the 
fire service and should not be eliminated or folded into any new, 
untested program.
    There are signs that the administration is reconsidering its 
initial position. FEMA Director Joe Allbaugh recently testified before 
Congress on the fiscal year 2003 budget request and stated that he 
thought the FIRE grant program should continue. Homeland Security 
Director Governor Tom Ridge met about 6 weeks ago with the Terrorism 
Committee of the International Association of Fire Chiefs. At that 
meeting, Governor Ridge said that the FIRE Act grant program should 
remain and be funded as a program distinct from the proposed new 
terrorism preparedness block grant program that would be administered 
by FEMA.
    We urge Congress to insure that FIRE Act funding is maintained.
    Regional Planning.--We must insure that this funding is used well. 
It is imperative that agencies within a given community or region work 
together so as not to duplicate their capabilities while leaving some 
needs completely unaddressed. We believe that grant funding made 
available should be contingent upon inter-jurisdictional planning based 
on carefully articulated preparedness goals.
    Uniform Incident-Management System.--The management aspect of a 
terrorist incident must be addressed. That means universal adoption of 
the standard Incident Management System as taught at FEMA's National 
Emergency Training Center. This system should be understood and 
mastered by all operational agencies at every level of government, 
local, State and Federal. It is a simple, modular system that is used 
by the fire service throughout the United States. It is commonly used 
by State emergency management agencies as well. Several Federal 
agencies, including the U.S. Coast Guard and the Environmental 
Protection Agency also use it. The Federal Bureau of Investigation has 
also begun to train its special agents to use this system. The FBI's 
understanding of and adherence to the standard IMS was invaluable at 
the Pentagon on September 11. The IMS does not dictate who is ``in 
charge,'' but provides a framework for managing the incident and has 
been proven in countless public emergencies. The use of IMS should be 
mandated by all agencies and should be a requirement for funding.
    Communications Systems.--Though we always knew this, September 11 
taught us about the absolute criticality of good communications systems 
and of the interoperability among individual jurisdictions' 
communications systems. We are concerned that not all jurisdictions in 
the Capital Region have interoperable communications systems. There are 
a number of steps that can be taken to address the problem, including 
adequate funding for local jurisdictions to upgrade their systems. The 
best, long-term solution lies in the allocation of additional radio 
spectrum. Radio spectrum, a publicly-owned commodity, is used by 
government agencies and the private sector alike. Congress can provide 
a long-term solution to this problem by setting aside appropriate 
bandwidth that will allow us to communicate in an emergency. H.R. 3397, 
sponsored by Rep. Jane Harman, is critical in the effort for additional 
public safety spectrum. We ask you to support this bill.
    Public Health Resources.--The anthrax crisis that followed 
September 11 made us aware of the essential role that public-health 
systems play in emergency planning and response.
    If the public health system is to continue to function effectively 
it is critical that adequate resources be made available at the local 
level. Health departments that coordinate activities play a critical 
role as first responders in anticipating, preparing for, identifying, 
and responding to acts of bioterrorism, bioterrorism hoaxes, and other 
public health threats and emergencies. Clearly defined, consistent 
lines of communication during planning, response, and evaluation phases 
between Health Directors in all jurisdictions must be developed and 
supported by the highest levels of government. The Council of 
Governments Health Officers' Committee provides such a forum. The 
Health Officers or designee from every Metro jurisdiction should 
consistently attend these meetings.
    A critical early component of all responses should be immediate 
communication and discussion of options with all health directors. 
Internet-based information and communication systems became widely 
unavailable on September 11 and many health departments could not 
access email for hours to receive health alerts from neighboring 
jurisdictions, the Centers for Disease Control and Prevention, or their 
States. Wireless, handheld communication capacity is an important 
emergency tool that public health agencies should not be without. 
During the anthrax outbreak we learned that an important first step 
during a public health disaster involves setting up an immediately 
available 24-hour hotline to receive reports and dispense accurate 
information. This may require a prearranged means to access new 
telephone lines to create an immediate emergency hotline across 
jurisdictional boundaries.
    The following four critical areas need immediate attention:
  --Public health strategies, which include advance planning, 
        coordination of public health response and implementation of 
        emergency measures to control and contain an outbreak, must 
        occur in a collaborative manner across jurisdictional 
        boundaries. It is imperative that public health expertise from 
        all jurisdictions be integrated with that of other emergency 
        response agencies throughout the region.
  --Surveillance and epidemiologic investigation, which requires 
        monitoring community health status to detect the presence of 
        bioterrorism agents and to characterize the public health 
        threat or emergency across jurisdictional boundaries; Public 
        health agencies must share results of active syndromic 
        surveillance for disease across jurisdictional lines, to do 
        immediate, on-the-scene epidemiological investigation, to 
        develop and test local bioterrorism preparedness plans, and to 
        coordinate community responses. Strong public health systems, 
        coordinated across jurisdictional boundaries are required to 
        rapidly detect and respond to bioterrorism events. The 
        Metropolitan DC area has the unique challenge of needing to 
        coordinate response across three jurisdictions (Northern 
        Virginia, DC, and Maryland).
  --Laboratory capacity must be available to identify, rule out, 
        confirm and characterize biological threat agents and rapidly 
        share information among jurisdictions.
  --Communication across jurisdictional boundaries at the day to day 
        operational level and at the policy level, which includes 
        collection, analysis and communication of information among the 
        response community, decision-makers and the general public 
        during a public health emergency must be strengthened.

    Senator Landrieu. Thank you all very much for keeping your 
statements concise.
    We are going to take a 3-minute break before we get at the 
round of questions. And then I've got a series of questions, if 
you do not mind, for all of you. And we have also some from 
members that may not be able to come to submit for the record.
    So if we could just take a 3-minute break. I would 
appreciate it.

                          DEFINING THE REGION

    We will reconvene our meeting for the question and answer 
period.
    Let me begin by thanking you all for your testimony. And as 
you know, your full statement will be submitted for the record.
    Let me begin by asking each of you, if you would, to just 
help me understand the boundaries here. Because as you know, my 
overriding goal, and I think shared by members on both sides, 
would be to have a system that is seamless. And it is important 
to know how far those seams run. Are they short or long; how 
far beyond the city do they run?
    And I am wondering if you could each tell me if this red 
line on that chart represents what you think is the right 
regional component, or should that circle be enlarged or small. 
And if you think it should be changed, why; and if not, why 
not. And if you could each just take a minute or two for that 
answer. And I am assuming, as was stated on the record, that 
that red line is the beltway?
    Mr. Rogers. Yeah, that's the beltway.
    Senator Landrieu. What is the jurisdiction of COG?
    Mr. Rogers. The jurisdiction of COG actually is all of the 
white area. I----
    Senator Landrieu. And only the white area?
    Mr. Rogers. And only the white area, right.
    Senator Landrieu. Okay.
    Mr. Rogers. It goes down to Prince William County to the 
south, and to Loudoun. And the white area right above 
Montgomery County is Frederick County. It is not shown in its 
entirety there. It is Frederick County, Maryland. That is 
part----
    Senator Landrieu. Okay. So this isn't a picture of the 
whole COG region?
    Mr. Rogers. It just has--a portion of Frederick County to 
the north is missing, but most of Frederick County is there, 
yeah.
    Senator Landrieu. Okay. Well, even though it is not exactly 
the accurate map, you all looking at this map, is this the 
region that we should really try to create this plan, or should 
the region be larger or smaller? And just your ideas about that 
in 1 minute or less.
    Ms. Kellems. I think that the region--this is a very 
difficult question. The region could be the Eastern Seaboard, 
the region could be the Mall, downtown Washington. I think the 
way that we view that, and I would assume most others do, is 
sort of rings on a bull's-eye. And I hate to use that 
expression, but that's essentially what it is. The District is 
the center of the bull's-eye, if you're thinking of a terrorist 
incident and the goal is to be disruptive and attack a public 
place, a very--a symbol rather.
    So I think you--that you could keep expanding the ring of 
the bull's-eye, and we should probably do that as we become 
more and more sophisticated. But if you look at it in those 
terms, that's a good facsimile of the area in terms of 
transportation, in terms of communication, in terms of mutual 
aid, the most likely people who would respond, and the most 
likely sort of scope of a target area. I think that's probably 
right, but as we become more sophisticated I would imagine we 
would keep adding rings out, probably going both north and 
south and encompassing more of the seaboard.
    Senator Landrieu. Mr. LaPorte.
    Mr. LaPorte. I would very much concur. In fact, as we start 
to think and prepare out of resources and identifying 
resources, if you look at where resources were pulled for New 
York City, you went 500 to 1,000 miles pulling resources that 
close by. Very familiar with the proper--the response in New 
Jersey and Connecticut, in both those States in preparing areas 
where they could bring resources, the donations management, 
that Stockton, Connecticut, before it got to New York, as well 
as New Jersey; the hospital response, literally I think 500 
miles out.
    And personally, when we start thinking catastrophic, where 
am I going to stage heavy equipment, where are we going to 
provide other resources, we look at military assets, military 
facilities. So our--as we plan a catastrophic event, start to 
look well beyond just your traditional National Capital region, 
you start going as far away as Richmond, you get up to 
Annapolis, you go to Baltimore, because it will impact the 
entire region. And that type of communication really needs to 
be in sync. We've done a lot to rectify some of the gaps that 
have been identified, but the region will continue to grow as 
any event impacts the entire region.
    Senator Landrieu. Mr. White.
    Mr. White. Yeah. I would say the place where we start to 
try and define the region is where do our residents live and 
work. I mean where's the population centers and where are the 
job centers obviously brings you to the focus of what you're 
looking at. And what we have is large concentrations of job 
centers, the largest of which, of course, is in the District of 
Columbia. But many other regional employ--activity centers is 
what the COG now calls them. It is kind of the spider web of 
regional activity centers. And although you do have 
concentrations of employment, you have dispersals of 
population. So that complicates your problem here, because 
you're taking people in many instances from single locations 
and trying to disperse them to multiple locations.
    So I mean I think a good place to start is at the 
boundaries that constitute the COG. I think it is clear that 
probably most of the events that this region would be called 
upon to deal with would in all probably be--in all probability 
be somewhere inside the ring of that beltway with respect to 
activity. And therein lies the importance of making sure there 
are those important--those appropriate hand-offs.
    It is one thing to be able to help get people out of a 
city, but once they're out of the city, I mean there's a 
transfer from district boundaries, as I think the district 
people have testified, to an adjoining county that needs to be 
able to be well coordinated from the road point of view and the 
transit point of view to be able to accept that hand-off. And I 
think it is that that we are now dealing with in terms of 
really coming up with some alternative scenarios for emergency 
movement of people.
    Senator Landrieu. Thank you.
    Mr. Rogers.
    Mr. Rogers. Well, since it has been the boundaries of the 
Council of Governments for--since our creation, and really, 
when you look at an incident in this region, the mutual aid, 
the immediate mutual aid from first responders is likely to 
come from within that, you know, those jurisdictions 
represented on the map. And that does not mean that there will 
not be support from other regions, but the mutual aid 
agreements are involved with those jurisdictions, you know, on 
the map.
    There's been--and this jurisdiction is really defined based 
on a history of COG as a metropolitan planning organization, a 
standard, statistical area. It is used for planning purposes 
for a lot of, you know, a lot of region--reasons.
    Senator Landrieu. Okay.
    Mr. Keldsen. Yeah. I agree with basically everything that's 
been said so far. I guess as the District itself is more 
secure, terrorists may be looking at adjacent areas for attack, 
and that needs to be considered. And as far as mutual aid, 
there's several things going on in the District and in the 
States that may make that a more universal capability. But 
Howard County and Wicomico County, and even Charles County may 
be responding to backfill Prince Georges and Montgomery 
Counties. So I think the, as Peter described, there's--there'll 
be an expansion depending on the severity of the event and we 
need to have interoperability.
    Mr. Cline. I do not disagree with what's been said. I take 
a slightly different approach. I would suggest that contiguous 
jurisdictions----
    Mr. Keldsen. I would suggest that contiguous jurisdictions, 
and perhaps you're all looking at the Beltway and inside, 
certainly should be included in the development of operational 
plans. To the extent that there are written mutual aid 
agreements between other jurisdictions, they certainly need to 
be included. And I couldn't speak to which ones those might be 
specifically.
    I think that you also have to include the capitals for the 
two States and the emergency operation centers for the two 
States, not as entities to be impacted by the disaster, but 
certainly that's where, from REOC in Chesterfield County 
outside of Richmond, we would coordinate the allocation of 
resources and the staging of resources from all over the State 
and from places coming from outside of the State. Hopefully 
they would be staged close in, but that coordination would take 
place in REOC.
    Just by way of background, we would also expect to have 
representatives from our office in the EOCs in Maryland and in 
D.C. to help coordinate ongoing activities. And certainly as 
the Federal plans call for, in the jogs and the jigs and all of 
the other entities that are established when an incident 
occurs.
    The one other thing I would mention is that your major 
transportation corridors are obviously going to impact in a 
catastrophic situation. And the plans need to recognize those, 
even though they may not show up specifically on a map.
    Senator Landrieu. Thank you.
    Chief Schwartz.
    Mr. Schwartz. Senator, I couldn't add a whole lot more 
other than to say obviously most of this is situational. If we 
look at September 11, it was a rather confined area. Yes, in 
the first hours it affected people that lived throughout the 
area here that you see represented here, but as days went on 
it, you know, it was a rather confined kind of event. A 
biological event is going to be something significantly 
different.
    If we have an event that is on the catastrophic level 
whereby an attack took out a lot of our transportation 
corridors, or to take out some of the bridges that connect 
Virginia to the District, obviously mutual aid would be coming 
from--we would be reaching further south to get that mutual 
aid. So a lot of this is really situational, I think, and 
when--what is it that we are dealing with that really defines 
the area?
    Senator Landrieu. I think that we've gotten somewhat of a 
consensus, and I am glad we got those answers on the record 
because I think Ms. Kellems, your visual of a bull's-eye is a 
good one to work from. But if we are really committed to 
building one system that serves this region, we need to know 
whether we are dealing with one ring, or two rings, or three 
rings. And if we have to go out 10 rings or 12 rings, we know 
and we all understand which ring we are in, where the rings 
start, where the rings end. And so there is a map that is 
understandable and that all of the entities have bought into. 
And I think we have a little work to do yet on that map, but I 
think we are getting there. We've gotten some interesting 
comments about how this process needs to work.
    We need to define the region; we need to be clear about 
who's in the region, who's not, and how other parts might be 
added if necessary. That would make a big difference in our 
planning.

                         PLANNING AND TRAINING

    Let me begin also asking a question for each of you. In 
your opening statements there was some tabletop exercises 
mentioned. I am understanding that there were two that have 
been conducted. If I am wrong, tell me. How many of you 
participated in the first one and in the second one? And could 
you give a comment about the one or two things that really 
jumped out at you that we really have to work a little harder 
on.
    And I do not know, Ms. Kellems, if you can clarify for us, 
have there been one tabletop or two? Was everybody here 
represented included, et cetera.
    Mr. LaPorte. I am going to--the July tabletop was really 
driven from the two States and the District, recognizing that 
we understood that our planning process needed to include a 
regional approach. And so we approached FEMA and Justice to say 
``Hey, this is different here.'' And what occurred really was a 
change for their response.
    And they changed the traditional response where Maryland, 
Virginia or the District in a disaster would have to go to 
Philadelphia, the regional office, and then back to 
headquarters, in a case of a disaster as you have made requests 
for Federal assistance. In a weapons of mass destruction 
incident in the National Capital region, they changed the plan. 
The Federal Government changed the plan, meaning we would 
directly with FEMA headquarters. And so that was the genesis of 
that and that was one of the outcomes.
    We also identified the significant gaps in our plans, the 
fact that the district plan did not marry the Federal Response 
Plan; there wasn't a common language.
    The second tabletop exercise is the one held this week, 
which was March 12 and 13, which included everyone at this 
table. Maybe not Arlington specifically, but the Council of 
Governments were there, Maryland and Virginia were there. And 
it was really an Army Corps of Engineer/FEMA exercise, but the 
participating locality was the District and the greater 
Washington area. And what we learned from that exercise truly 
was the new District Response Plan, the plans for Maryland and 
Virginia accepting that common language really did work well 
accepting and understanding our requests for Federal 
assistance, exactly what we were looking for, how we would go 
about getting it, and what mechanism we would use.
    We've also had a number of internal tabletops within the 
District to improve our own internal coordination. They've been 
led by Mayor Williams. And we've gone through a number of 
scenarios among all our government entities to really test our 
own plan. And it is our intent to continue that with a full-
scale exercise later this summer.
    Senator Landrieu. Okay. I would just like to ask if you'd 
submit for the record who participated in that tabletop.
    [The information follows:]
   Emergency Preparedness ``Tabletop'' Exercise 2002 Senior Leaders' 
              Seminar Participant List--March 12-13, 2002
    American Red Cross
    Commonwealth of Virginia
      Department of Emergency Management
      Department of Transportation
      Deputy Assistant to the Governor for Commonwealth Preparedness
    District of Columbia Government
      Deputy Mayor for Public Safety and Justice
      Department of Health
      Department of Public Works
      Department of Transportation
      Emergency Management Agency
      Fire and Emergency Medical Services Department
      Metropolitan Police Department
      Office of the Chief Medical Examiner
      Office of the Chief Technology Officer
    District of Columbia Water and Sewer Authority
      Director of Occupational Safety and Health
      Director of Sewer Services
    Federal Bureau of Investigation
      Counter Measures Unit
      Domestic Terrorism/Counter terrorism Planning Section
      Washington Field Office
    Federal Emergency Management Agency
      Headquarters:
        Readiness, Response and Recovery Directorate
        Office of National Preparedness
        HAZMED
        Federal Insurance and Mitigation Directorate
      Region I: Boston, MA
      Region II: New York, NY
      Region III: Philadelphia, PA
      Region IV: Atlanta, GA
      Region V: Chicago, IL
      Region VI: Denton, TX
      Region VII: Kansas City, MO
      Region VIII: Denver, Co
      Region IX: Ft. Shafter, HI
      Region X: Bolhell, WA
    George Washington University
    Marasco Newton Group
    Metropolitan Washington Council of Governments
      Department of Environmental Programs
      Waste and Debris Management Work Group
    National Guard
      Assistant for Homeland Security
    Office of Homeland Security
      Critical Infrastructure Restoration
    Office of Personnel Management
      Office of Communications
    Securities and Exchange Commission
      Office of Market Watch
      Office of Administrative and Personnel Management
    State of Maryland
      Department of Emergency Management
    The IT Group
    United States Army Corps of Engineers
      Headquarters
        Civil Emergency Management Branch
        Security and Intelligence and Law Enforcement
      Readiness Support Center
      Great Lakes and Ohio River Division
      Los Angeles District
      Mississippi Valley Division
      North Atlantic Division
      Northwestern Division
      Omaha District
      Pacific Ocean Division
      Readiness Support Center
      South Atlantic Division
      South Pacific Division
      Southwestern Division
    United States Department of Defense
      Joint Forces Command
      Readiness & Recovery
      Navy War College
      Military District Washington, Force Protection Branch
    United States Department of Energy
    United States Environmental Protection Agency
      Chemical Emergency Preparedness and Prevention Office
    United States Park Police
      Special Events
    United States Secret Service
      Major Event Division
    United States Department of Transportation
      Office of Emergency Transportation
    Washington Aqueduct
    Washington Metropolitan Area Transit Authority
      Metro Transit Police
      Rail Analysis and Support

    Senator Landrieu. And would anyone else like to comment 
that was there about one or two important things that you 
gleaned currently? How much have we improved since the first 
exercise you participated in or what jumped out at you at the 
tabletop about either progress we've made or some real 
challenges ahead?
    Mr. Rogers. I was not a participant in the July tabletop, 
but I did participate in the Army Corps/FEMA tabletop this 
week. And I was impressed by the fact that our Federal partners 
seem to have a greater degree of understanding than may have 
been expected of the District Response Plan and how the 
District would request assistance.
    But I also think that what was important was the dialogue 
that was developed between the various levels of government, 
because in the regional context that's what's going to get the 
job done. And more opportunities to get people from a variety 
of agencies that will be participating in a response in the 
room participating with each other will help by improving our 
well preparedness.
    Senator Landrieu. Ms. Kellems.
    Ms. Kellems. To answer the question about a couple of the 
specific things. One thing that became abundantly clear in this 
tabletop last week in which one aspect of the scenario was a 
building explosion in downtown Washington was debris removal 
and what--where would we take all this debris. We pointed out 
that the building they blew up was a Federal building, so they 
would have to figure that out. But it did point out that if we 
had a major event like that, certainly within the bounds of the 
District, we do not know where we would take something like 
that.
    We started looking regionally where it would go. 
Suggestions were made, and I know there's a COG subcommittee 
that's looking at the issue of solid waste disposal generally. 
Would it go to a military base, would it go to some independent 
staging area first, how would we avail ourselves of private 
landfills if we needed to do that after debris had been 
decontaminated. There was a fair amount of discussion about 
that, and I do not think that we've come to a good resolution.
    I think the other issue that was highlighted and I think we 
are much better, we--that I saw a lot of improvement at least 
from September 11 to the tabletop was the communications issue; 
who has command centers, who's in them, and how do they 
communicate with each other to make sure, among other things, 
not just the operational perspective, but what is being said to 
the citizens here, what is being said nationally, what kind of 
information do we have, what kind of information are we sharing 
with each other. And I think we are much more likely now to 
have many voices with the same message. That's really where we 
were trying to get to, as opposed to many voices with many 
different messages, which was one of the struggles that we 
faced last September.
    So I think those were the two that were most notable.
    Senator Landrieu. Thank you for being specific.
    Anybody else want to add anything? And were the fire 
departments just not included in this particular tabletop?
    Ms. Kellems. The District Fire Department was. I do not 
believe that Arlington was, no.
    Mr. Rogers. It was just the District.
    Senator Landrieu. So it was just the District Fire 
Department at this tabletop because it wasn't a regional 
tabletop?
    Ms. Kellems. Well, if I could--I do not think any of us 
here were actually part of the original committee that created 
it, but this tabletop was hosted again by FEMA and the Army 
Corps of Engineers. And the Army Corps' focus is really 
emergency support function three, which is public works and 
engineering. So this tabletop tended to be more focused on 
issues like debris removal and the kinds of things that would 
be within the Army Corps' purview.
    The other comment that was made during the course of this 
tabletop though was that as we go forward, maybe we ought to 
not make it specific to just one ESF. But generally they're 
grouped. This one tended to be ESF three, public works and 
engineering. There was a heavy transportation component, 
because as part of the scenario two bridges were disabled. So 
it clustered around a few of the more infrastructure/
engineering functions.
    We discussed having another one, and the District offered 
to co-sponsor this, to have one around mass care, health and 
medical issues, and that sort of thing. It obviously has 
implications to the other ESF's, but they tend to be sort of 
topic specific. So I think that's why the fire department was 
not----
    Senator Landrieu. I am glad you brought that up, because 
maybe we do not have all the right information, I am looking at 
emergency support function areas, the ESF's. For the Council of 
Governments, according to our records, and we could clarify 
this now, has six titles: transportation, health, 
communication, solid waste, public safety, energy and water. 
The District has 15 and the Federal Government has the same 15.
    Ms. Kellems. The Federal Government actually has 12.
    Senator Landrieu. Twelve, okay. So the Federal Government 
has 12. Can anybody here, for the record, give me those 12? I 
know I could get them, but you do not have them here?
    Ms. Kellems. Sure. This could be like a little problem for 
us.
    Senator Landrieu. That's all right. If you do not have 
them, I will get them for the record.
    Ms. Kellems. No, we have them.
    Senator Landrieu. So the COG has 6, District has 15, and 
the Federal Government has 12. Do we all not need the same 
committees? Or if we are going to keep these different 
committees, do they know which ones relate to which?
    Ms. Kellems. They are sets. They're starting with the 
largest universe, which is the District's. The others are 
subsets of those. And where you see an ESF committee number 
one, let's say, transportation in the District, it is very 
closely coordinated with the same ESF through COG, which 
expands to a set of regional partners. And the ESF for the 
Federal Government, which is the same one, the same set of 
people are operating in all of those. They just tend to expand 
or contract the focus of their issues depending on who's having 
the meeting, but that's all the same ESF. The----
    Senator Landrieu. Because it may work fine that way, but I 
would also suggest you may want to consider everybody having 
the same committee breakdown so there is a one-to-one 
correspondence. Like you've got COG has communications, but I 
guess under the district you've got communications broken down 
into, information and planning and resource support. I am not 
going to belabor the point, but it might be better to follow 
one system or another.
    Mr. Rogers. COG has 15 emergency support functions. What 
you're looking at are the committee structure. And so you have 
several emergency support--related emergency support functions 
assigned to one of those six committees that's chaired by an--
--
    Senator Landrieu. So they have the same 15?
    Mr. Rogers. Right, right.
    Senator Landrieu. Okay. That's fine. And the Federal 
Government has 12 and--go ahead, Ms. Kellems--
    Ms. Kellems. The difference is there are some that are 
primarily local functions. It is not unusual. It is to be 
expected that local governments would have additional emergency 
support functions. The most obvious example is law enforcement. 
The primary law enforcement response is the local jurisdiction. 
Another one is donations management. The local jurisdiction 
would be primarily responsible for donations management. And so 
we've added some on. The Federal Government is very supportive 
of that. And I think as we all become more sophisticated, not 
just this region, but all of the cities, there may be 
additional ones that need to get added.
    Senator Landrieu. Okay. But having those standardized, or 
as close to it as possible would be helpful. Does anybody want 
to add anything on tabletop before I go into another issue?
    Mr. Keldsen. Just one comment. One of the issues that came 
up this week was really the clarification of the role of COG by 
the States and the operational issues, and we are exploring 
those.
    Senator Landrieu. I am glad you raised that, because one of 
my questions was going to be that I am familiar with many of 
these planning districts around the Nation that we pull 
together because economic growth doesn't stop necessarily at 
political boundaries. These planning districts were put 
together for growth and economic development.
    But when you get into the issue of attacks or terrorism or 
defenses, sometimes we might have to think differently. 
Planning districts were not specifically created to defend 
against terrorists. And so we might have to have some 
modifications to the way that we function to take into account 
the changing terrible reality that we are facing now, and I 
think that's what you have alluded to.
    Mr. White.
    Mr. White. Yes, Madam Chair. To your question of tabletop, 
beyond what has already been said, and we do participate in the 
tabletop exercises, is that we have been conducting ourselves 
on an annual basis mock disaster drills; beyond tabletop, but 
actually making believe something happened and going into the 
field and replicating an emergency condition, and then testing 
the response preparation capabilities of not only the Metro 
employees, but the local fire, police, emergency rescue people.
    And we found that to be a very good exercise to really keep 
ourselves fresh with our regional partners. And also we do 
debriefings after each of those annual exercises to go over 
lessons learned. And we actually use them to prepare ourselves 
for the next year to make sure that anything that didn't go 
quite right in that mock drill, that we kind of learn from that 
and then prepare for the next event.
    Senator Landrieu. First, Ms. Kellems, the National Capital 
Regional Plan which you've alluded to is under development. Can 
you tell me which organization or entity is taking the lead in 
creating this plan? How does the National Capital Regional Plan 
differ or relate to the District Plan that you are in the 
process of coordinating and refining and perfecting?
    Ms. Kellems. That is one of the most common questions we 
get asked, how do all of these many plans fit together. And as 
a baseline matter, that's exactly why everyone keeps 
underscoring the importance of the same language, the same 
architecture, the same terminology, so that you can move your 
module of your plan and integrate it with someone else's 
module.
    The National Capital Plan is led by FEMA, the development 
is led by FEMA. We are very much active participants in that 
obviously, for all the reasons that we've talked about. And 
again, our District Response Plan is designed to marry function 
by function with that, but FEMA's the coordinator for the 
larger National Capital Regional Response Plan.
    Senator Landrieu. Have all of you either been consulted or 
connected in some way to this National Capital Regional Plan? 
Those of you that have had some input or some connection, could 
you just testify about what that might be very briefly?
    Mr. Rogers. Yes. We--FEMA is participating in the COG 
planning process. And we are using the Federal Response Plan 
and--it is to the Federal Response Plan and then it is the 
continuity of operations for weapons of mass destruction for 
the National Capital Region. That's the plan I think you're 
referring to that's being led by FEMA. And we are working with 
them on that as well.
    And we, when we finish our planning process, Madam Chair, 
it should be seamless in terms of terminology, in terms of 
concept of operations, and in terms of procedure from the 
Federal plan to the district and the local jurisdictions. And 
that's what we are trying to achieve.
    Senator Landrieu. So you see it as your mission, based on 
the resources that we've given you, to try to pull together all 
of these many plans and make them as seamless as possible and 
get the region identified, or the areas identified, and the 
responsibilities identified. And that's the process that you're 
beginning?
    Mr. Rogers. Right. That's correct.
    Senator Landrieu. Okay.
    Mr. Cline. Madam Chairman.
    Senator Landrieu. Go ahead.
    Mr. Cline. If I may.
    Senator Landrieu. Go ahead, Mr. Cline.
    Mr. Cline. If I am not mistaken, we did participate 
providing input and review so far as the National Capital 
Regional Plan has been developed. But it appears that that--
really the best way to think of it is an annex to the Federal 
Response Plan. It provides information that the Federal 
agencies would need and it is a follow-on to that response plan 
that the Federal agencies are going to use as they respond. It 
does not address the needs for operational planning at the 
regional basis for the capital area.
    So you need to make sure you think of them as on the--well, 
as two separate entities. I agree that the terminology needs to 
be the same; the concepts and the policies need to meld 
closely. And I am not sure that we've gone to that level yet to 
insure that it is--that those things will occur. But there 
does--there is a need for that to be seamless as it flows into 
the State plans, the regional plan, and the local plans.
    Senator Landrieu. This chairman is committed to work with 
you all for however long it takes and helping to allocate the 
resources necessary to make sure the end result is truly the 
model described today. And it is going to take some give and 
take, some throwing out and starting over, building and being, 
constructively critical about where we are.
    It is a very difficult, very difficult thing to undertake. 
You've got many jurisdictions. And this area is complicated by 
a number of factors. Not only is it a rich target area, but 
you've probably got more jurisdictions here than anyplace in 
the Nation, between the Federal and State and county level 
agencies. So this is going to be probably the most difficult 
region in the whole Nation, but I think we can do it. We have 
to do it and we have to do it well.
    Let me ask you this question. To date, and I know where 
this is still a work in progress, but among all the various 
plans, could you, Ms. Kellems or anyone, tell us today, if 
there was an attack this week, who checks the bridges? Who's 
got the responsibility to check the bridges? Is it a Federal 
agency or is it the city, is it Metro?
    Ms. Kellems. It is a whole group of people depending----
    Senator Landrieu. Is it the fire fighters or the police? 
Who checks the bridges to see if there are explosives, like 
before we start sending people over them? Who would be, 
according to the plans that you're aware of, whose job would it 
be right now, today, if it happened this week, to check the 
bridges to make sure that they were secure for exit or 
entrance?
    Ms. Kellems. Amazingly, and I do not know if someone 
whispered this in your ear, but part of our tabletop this week 
involved two of our bridges being destroyed. And so this--a lot 
of people, I think, learned a lot about this. It depends on 
which bridge you're talking about actually. The bridges are 
owned by different jurisdictions. Depending on the bridge and 
the jurisdiction, who would be responsible for checking it.
    One of the things that we saw in our tabletop was that you 
can have three jurisdictions who are all contributing to the 
operation of a bridge and a fourth one whose responsible for 
the security of that. I think that your question gets at the 
larger point of knowing--not assuming any of those kinds of 
things and knowing where your vulnerabilities are, where your 
risks are, and dealing with it at a very individual level. 
Having each of your jurisdictions do risk assessments for what 
are their high target areas.
    Bridges are just one example, but we went through--we are 
going through now a similar exercise with the Federal 
Government for particular buildings. Particular buildings have 
their own individual jurisdictions, the sidewalk is owned by 
another jurisdiction, and the street is owned by a third 
jurisdiction. So what we--and that's actually true. So what we 
are going through is individualized assessments of these high-
risk targets and determining all of those levels of 
jurisdiction, and knowing who would respond depending on what 
type of incident it is.
    We had an incident recently at the Commerce Building, which 
happily turned out to be nothing. Everyone knew that the local 
fire department was the incident command, but with all of the 
other jurisdictions that showed up, we had people closing 
streets and people re-routing traffic. And it became apparent 
at that point that that's the level of coordination that has to 
occur, but it has to be unique. It is not--there is not a 
global plan for that. There is not an agency responsible for 
doing that kind of thing.
    It underscores Peter's point earlier about having an all 
hazards plan based on specific risk assessment, which is why 
COG is going through the risk assessment analysis now, the 
District is doing it in connection with DOJ, so that we can 
identify specific kinds of targets and what the--who--the 
specific jurisdictional responsibilities are there. So I hope 
that answers your question.
    Senator Landrieu. No. It is very important and helps the 
public to understand what a great challenge this is, because in 
addition to 100 questions I could ask like this, two others 
would be who monitors the air, in the region to see if 
something has been released into the atmosphere and where it is 
moving? Who is responsible for the waterways to check the same? 
Is there any thing that's been put in the waterways that would 
be dangerous?
    And that's how regions have to think. It is an unfortunate 
reality of the times we live in. Who would have thought. But 
this is the future and we've got to be prepared for it. And so 
there is some, you know, urgency and there's some real 
consequences for not getting it right. And we talk about 
coordination, and sometimes we do a good job of it and 
sometimes we do not. But when you do not do a good job planning 
here there could be serious consequences of not making this as 
seamless as we would hope.

                   COORDINATING REGIONAL PREPAREDNESS

    Let me ask Mr. LaPorte, if you could. One of the goals of 
the hearing is to understand the extent of cooperation between 
the District and not just the regional, but the other States. 
And we've heard a little bit of that. I've got some concern to 
the degree in which the whole State of Maryland and the whole 
State of Virginia are playing into developing this. And we 
talked about possibly, Mr. Cline said, of extending some of our 
planning to take the capitals of those two States.
    Could you just comment about how you see us now and where 
we'd like to go in the future.
    Mr. LaPorte. We've come a long way. And prior to coming to 
the District I was the State director of Emergency Management 
in Massachusetts. So I pretty much understand the State hat. 
The challenge is from a State to local jurisdiction, and that 
relationship. And the District being a city, a county, a State 
and the District, it is many things at once.
    One of the hats that I wear is I sit on the National 
Emergency Management Association and I chair the terrorism 
committee. And one of the things we are really focusing on is 
the cross State to State jurisdiction, sharing of information, 
sharing of resources. Just recently Mayor Williams submitted, 
the council is in its final passages, make the district part of 
the Emergency Management Assistance Compact, which is signed--a 
signatory, congressionally approved compact that deals with 
resources across State lines. The District will be a very happy 
signatory to that to bring additional resources.
    Regularly we have shared our plans with Maryland and 
Virginia. Michael and Don and I are personal friends. We talk 
on a regular basis. They've offered opportunities for the 
District first responders to train at their facilities and 
we've offered our training to them. What we need to do is 
continue to build up the relationship and sharing of those 
plans, identifying where our resources are and how we would 
share them.
    I think we've come a long way of between the two States and 
the District, but I again think it is critically important that 
we build that relationship up even stronger.
    Senator Landrieu. Let me ask you this. Could someone go on 
the record to say right now, do we have a regional police 
training, a regional fire training? Are there different 
centers, regional, first responder training centers, in terms 
of medical first responders, or are we still having those 
assets done within counties or within smaller areas? Because in 
Louisiana, even before September 11, we had a fairly, I think, 
effective--I helped to create it and was very proud of that, 
and got good reports--but a statewide fire training academy 
that all of our local fire departments thought was really good 
because they didn't have to spend their own resources 
developing these kinds of academies. And many States, even 
before September 11, had sort of coordinated their law 
enforcement.
    I would like Chief Schwartz, for you to respond to this, 
but, Ms. Kellems, you could begin, or Mr. LaPorte. Do we have 
plans to have regional training sites so that we can have some 
of the best training? Instead of having five mediocre programs 
we could have one or two really strong training programs that 
we can all support and it cuts down on the expenses that the 
public has to pay?
    Ms. Kellems. I'll let the State speak for their individual 
State operations as well. I know that the District has tried to 
take advantage of some of these opportunities. In fact, now 
with some of the Federal resources we have for fire and EMS 
training, our folks are going to MFRA, the Maryland Academy, 
and receiving the same training, and some of it is delivered in 
conjunction.
    In the law enforcement side, particularly on the police 
side, we have an Institute of Police Science for local aid, for 
the MPD, but they do a lot of joint training, particularly with 
the Federal agencies, not as much with the surrounding 
jurisdictions. We, out of the Federal funds that we received, I 
think close to $11 million is for training. And one of the 
top--one of the highest priority topics is how do we integrate 
our training with these other jurisdictions, particularly the 
operational training. But also underscoring the point that the 
Chief made at the beginning, the incident command training, so 
that we are all operating our incidents the same, using the 
same methodology.
    The District Response Plan is now based on an Incident 
Command System, just like the Federal Response Plan, but there 
is a steep learning curve, not only for our agencies, but for 
the other jurisdictions. And I think you're exactly right. That 
is exactly where we need to head to regional training programs 
not just for first responders, but for all of the response and 
recovery agencies that would be involved.
    Senator Landrieu. And I want to ask the chief to comment, 
but I hope in the plans that you're--that COG is developing 
you'll look closely at the possibility of having perhaps 
Maryland lead in a certain kind of training, and they become 
quite expertise in training in this certain area. And then 
Virginia could lead in a certain other kind of training, and 
the District could host its training, instead of taking our 
training dollars and everybody trying to set up training and 
spreading them so thin.
    But I hope a good part of this plan will be to have an 
understanding among the region whenever we decide how many 
rings we are talking about within the region, can really give 
the very best training and we are not duplicating facilities, 
et cetera. Because we are a compact area and there'd be no 
reason why someone couldn't travel 45 minutes or an hour to get 
good training as opposed to having them 15 minutes away.
    Chief, do you want to say anything on that? And then, Mr. 
Keldsen.
    Mr. Schwartz. Just to add to what's been said. You are 
correct that in most jurisdictions they have their own training 
facilities. There are examples in Virginia, farther down in the 
Tidewater area, where they do share an awful lot of their 
training facilities. And there is an effort underway in the 
Northern Virginia region to explore the idea of a regional 
training academy. There's an effort underway with Fairfax 
County working with Dulles Airport to look at a plan, some of 
the land that's out at Dulles Airport, and use for a regional 
training facility for the Northern Virginia departments. It is 
exploratory right now and hasn't gotten too far, but it is got 
a lot of interest on the part of the fire departments in 
Northern Virginia.
    One thing I do want to emphasize though is that regardless 
of how the training is delivered, I think you will find, 
speaking at least for the fire and EMS community, that our 
training is all to the same standards. There are sets of 
professional standards that--under which all, at least in this 
region, all training academies, all training efforts teach to 
those standards. So while there may be--the delivery may be in 
different places, you can pretty much go from one jurisdiction 
to the next and find the same capabilities, the same capacities 
in terms of EMTs, paramedics, firefighters and officers.
    There are additional efforts, speaking for Northern 
Virginia, because we operate under a very tight automatic aid 
program. In other words, we share our resources without regard 
to jurisdictional boundaries. So we operate also under the same 
standard operating procedures and we share not only our first 
level emergency response resources, but we share our command 
level officers too.
    So there is an awful lot of that going on already. 
Certainly there can be some improvement to gain more economies 
of scale, but I would want to emphasize that standards are an 
important aspect of this. And so we are not losing a lot in 
that regard.
    Senator Landrieu. I appreciate you clarifying that, because 
the standards are important. But it is also important to, 
husband our resources and try to make sure that we've got good 
training systems that are being utilized, and not have 15 
programs that are utilized at 15 percent when you could support 
5 and have them utilized at 100 percent and save the taxpayers 
some money in the process.
    Mr. Keldsen. Yeah, one other comment. Maryland Terrorism 
Forum actually has a training committee which is 
interdisciplinary. It has the police, fire, police and fire, 
public health, emergency management. And they're looking at 
best practices and sharing those across. In some cases in 
Maryland, like the Fire Rescue Institute has training 
facilities throughout the State, outside of our big seven 
counties who have their own fire academies. But again, as the 
chief talked about, they would be training to the same 
standard.
    The purpose of this training committee is really look at 
the weapons of mass destruction, unique things, and look at 
other nontraditional responders that might need training, i.e. 
dispatch folks, public health folks, even public works staff. 
So we'd certainly be willing to share what we've done with the 
COG committees.
    Mr. Rogers. Madam Chair, as part of the funds that were 
allocated we are required to do a training needs assessment, as 
well as develop a training plan for the region. And the 
assessment comes first. We are going through that process now. 
And it will reveal to us what--not only what the training needs 
are, but the existing training facilities and the resources 
allocated to training by the local jurisdictions and the State. 
And we will have a plan for how to better maximize the use of 
those training dollars.

                  COORDINATING TRANSPORTATION SECURITY

    Senator Landrieu. Okay. Let me ask if I could switch to 
some questions to Metro. Could you, Mr. White, comment about 
the way you're developing your plans. Are you doing it in 
conjunction with other carriers similar to yourself? Not that 
Amtrak would be similar, but it is a, rail system; Amtrak and 
other Metro-like facilities or entities around the Nation. How 
are your plans that you're developing? Are you all conferencing 
with people around the Nation? And if so, what are you 
learning?
    Also, you can't go into specific detail, I know, but are we 
making any progress on our new chemical sensor programs that 
you're developing?
    And third--three questions at once. We've had some 
complaints from visitors here about not having anyplace to 
throw waste in the Metro stations, because we removed the trash 
cans because they have proven to be somewhat of a security 
risk. But when we will get bomb-resistant trash cans is the 
question.
    Mr. White. At the great risk of trying to compare ourselves 
to Amtrak--which I'll probably choose not to do given the 
enormous controversy on that issue right now. But as it 
pertains to coordination, I'll try to address it from the two 
areas that you asked the question.
    Regionally, we are kind of playing the central glue role of 
this coordination process under the COG Regional Emergency 
Response Plan. The vision is in the event that there is a 
transportation event that either affects the transportation 
network or facilities or has some direct or indirect effect on 
that, we then become a part of the consultation process and 
coordination of decision making process with our peers. The 
State highway departments and departments of transportation 
would be making decisions on roads and bridges. In the instance 
where there are Federal control and ownership, that's an issue 
that would be involved as well. And then the various 
transportation carriers.
    We then would have a responsibility for coordinating with 
the two commuter railroads, for example, VRE in Virginia and 
MARC in Maryland, as well as any Amtrak-related services that 
would be coming through Union Station, as well as the county-
based bus systems, of which there are multiple county-based bus 
systems. So we are---since we are the regional operator, we 
become the, kind of the regional facilitator of letting people 
know how we've been impacted and what we are doing, and then 
sharing that information with others. And if it means we are 
dropping people in different locations or running different 
kinds of services that we wouldn't otherwise be running, we 
want to make sure then that the other systems who then are the 
circulator systems who pick the people up from the stations 
after we bring them to a location, they're prepared to do that 
kind of distribution role that we play.
    So we are very--getting very well coordinated regionally to 
perform that function, and there have been several conference 
calls testing that capability, you know, from a demonstration 
point of view. And I think that process is emerging and looks 
like it is going to work quite well.
    At the national level, we are playing a very active role. I 
happen to have been appointed by our industry's, the American 
Public Transportation Association, which represents all the 
mass transit interests around the country, as the chair of 
their security task force. Well, we are now coordinating this 
issue at a national level, all of our peers. I am kind of at 
the central point of all of that coordination inside of the 
industry, as well as with the Federal Government, most 
particularly the Federal Transit Administration.
    So we are providing that linkage between what the Federal 
Government is doing with respect to our industry, how we 
coordinate it nationally amongst ourselves. Internationally, we 
are bringing people in from around the world who, 
unfortunately, have many more years of experience than this 
country has about responding to terrorism and they've learned a 
lot. And we hope to be able to shortcut our learning process by 
understanding their best practices. We've already had people 
from the United Kingdom in. There's going to be a symposium 
bringing people from Europe and Asia in as well.
    So there's a lot of work going on in this particular area 
and I am fairly fortunate that I am kind of playing a 
leadership role at the regional and the national level.
    Senator Landrieu. And are there funds available to help you 
continue this good work that you have talked about in terms of 
conferencing and bringing people in? Because I think exchanging 
information and not starting from scratch, and taking ideas 
from other people that unfortunately have faced these 
challenges is very helpful. And I think that should be part of 
our budget, a smart way to spend money.
    Mr. White. Yes. Now some of the money that you have 
appropriated to us are used for regional emergency coordination 
purposes as we continue our efforts in that arena, although 
much of what we are spending the money on is to prepare our 
employees to do what's called upon them. A lot of that is--
involves coordination with our police, fire, emergency, rescue 
departments, which we have an enormously close relationship 
with.
    At the national level, we are quite fortunate that the 
Federal Government took $2 million of its national research, 
actually a quarter of the money it spends in this particular 
arena, and devoted it entirely to this region--this national 
coordination mechanism as to where research could be best 
applied to bring the highest and best use.
    And the first allocations of funding under that program was 
to conduct regional workshops where we and our peers, the large 
urban heavy rail systems, got together. And we spent 3 days 
exchanging best practices, conducting actually mock exercises, 
trying to put ourselves in the shoes of terrorists and trying 
to think of what they would and how they would--how our system 
might be vulnerable, then the next day saying ``Well, wait a 
minute. What would we do to shore up our system given those 
kind of scenarios.''
    So there's four of those workshops that are going on around 
the country with this $2 million program, and the Federal 
Transit Administration is conducting something like 15 
additional regional workshops. So I know that the Federal 
Transit Administration is probably better qualified than I am 
to talk to you about what's going on nationally, but based upon 
how I am participating at the national level, I see a lot of 
activity going on.
    Senator Landrieu. Can you comment on the chemical sensor 
program?
    Mr. White. Yes. Chemical sensors. We have moved now from 
the prototype phase. It has proven, after about 15 to 18 months 
of testing, to be ready to move into the implementation phase. 
Part of the first batch of money that we got is going to be 
used to move towards outfitting up to 12 of our underground 
stations with these sensor technologies. We are going to have 
the next set of stations moving forward probably in the next 90 
days or so. And then we expect that these next 12 stations 
should be completed by the end of this calendar year.
    And as it pertains to waste and trash cans, the good news 
is that we are now able to bring bomb-resistant trash cans back 
into our stations where we moved all the trash cans out from 
our platforms. We've now researched and found what we believe 
to be the best bomb-resistant trash cans on the marketplace. We 
are now in the process of acquiring them. And we'll be bringing 
them in, not to our platform levels, but into our mezzanine and 
entrance levels. All of our stations will be equipped with 
those and that should happen no later than this summer and 
fall.
    Senator Landrieu. Great. And one other question on 
transportation and Metro. Have we completed the establishment 
of protocols for evacuating Federal employees, or is there a 
process going on by the Federal Government in the event that we 
would have to, evacuate? Would anybody like to comment?
    Mr. White. Peter probably would want to give you the first 
answer, and I can try and chime in afterwards.
    Senator Landrieu. Okay. Mr. LaPorte.
    Mr. LaPorte. It is certainly one of the biggest challenges 
out there. And oftentimes if I talk to a group it is just that 
question, ``What do we do as Federal employees. Federal 
Government may say you all can go home, but what about our 
building specifically?''
    We've been working with the Office of Personnel Management 
and FEMA in putting together plans for all the Federal 
buildings to design the basic curriculum of their evacuation 
plan, where they would go, how would they run their fire 
drills, floor captains. And it is--that process, in many ways 
the District is beating the Federal Government to that, because 
they're going to end up on the city streets and then into the 
region on Metro and the like. So we've been working with FEMA 
and OPM on that. OPM approached us to ask us to give them some 
assistance of putting that training together for individual 
plans for each building.
    We've worked a couple facilities, started with 500 C 
Street, which is FEMA. And one of the challenges ongoing in the 
next few months is to put those plans in place at each building 
and then continue to work on their plans and drills and 
exercises. Because we saw in New York, from the 1993--from 
learning from 1993, the first explosion, to the explosion in 
2001, a number of companies did some great planning and it 
saved a lot of lives. And so things we need to think about 
right now and continue to work on that.
    Senator Landrieu. It was an extraordinary story I read, I 
wish I could remember the company. But it was a inspirational 
story but yet sad at the end, because the guy who organized the 
evacuation was a former member of our armed services and he'd 
served in Vietnam very courageously. You all might remember the 
story. But the bottom line is because he was such an 
extraordinary security officer, and despite the fact that he 
was told not to worry about such things, had such a strong 
evacuation plan for his company. And would train, even despite 
the fact that they were not really encouraged to, that he got 
every single person out, but he lost his life doing it and his 
right hand guy basically. They didn't make it out.
    I think it would be very important for us to all be 
knowledgeable about that, how a strong evacuation plan by a guy 
who had been through the war and understood, despite not 
getting the right instructions did it anyway, and saved 
everyone in the company.

                    COORDINATING SCHOOL EVACUATIONS

    Let me ask a question on one thing. And, Ms. Kellems, I'll 
get back to you. For a lot of parents in the region, the whole 
idea of the coordination between the school system and everyone 
else in the event of an emergency is very important, because 
one wrong decision to let schools out thinking you're doing the 
right thing could cause terrific panic when you can't get the 
children together with the parents. So could you give us--
because we are running very short on time and we only have a 
few more minutes. But could you and anyone else who would want 
to comment about progress we are making to coordinate the 
schools emergency operations.
    Ms. Kellems. Yeah, you're exactly correct. We've all said 
that one of the best things that happened on September 11 was 
the decision to keep our schools open. With all of the folks 
trying to flee the city or the Federal Government closing down 
or people self-evacuating, it was probably the best option. And 
I think all the surrounding jurisdictions shared that opinion 
in their schools. It was the best option to have the kids 
without some threat, have the kids where we knew they were safe 
and they were supervised.
    Since then we've put a lot of attention to this issue. The 
director of security for D.C. Public Schools is also a member 
of the task force, along with the superintendent of schools. 
One of the portions of the money that you appropriated to us is 
for facility security. Each of the schools, D.C. Public Schools 
at least, is going through an effort to update their evacuation 
plans and their security plans. They're also integrating their 
camera system with our law enforcement camera system, so that 
we can keep track of it. In its---the building security, the 
planning process, a very important part of it is the education 
of the children about what to do in these circumstances.
    We all tease Peter and call him the Master of Disaster. And 
we stole that nickname actually from a program that is 
federally sponsored that we are delivering in D.C. public 
schools now that helps children understand how they need to be 
prepared, whether it is a flood or a hurricane or a tornado or 
anything else; what are the basics that they need to know, 
starting at a very young age. This curriculum is now being 
adopted by the D.C. Public Schools.
    So I think it is a whole host of things that have to be 
done. It is an enormous percentage of our population obviously, 
and the most vulnerable part of our population, the one that 
gives most people the greatest trepidation. Many people were 
leaving their posts, their facilities and their jobs, because 
they were fearful for their children. So I think to the extent 
that we can underscore and bolster their sense of confidence in 
how the school system is handling it, we are trying very hard 
to do that.
    Senator Landrieu. Well, it is very important--does anyone 
want to comment, because I have one closing comment?
    Mr. Rogers. The school superintendents are a part of the 
decision making process with the CAOs and emergency managers in 
an incident. They are on the conference call usually. They were 
on the conference call on 9/11, though it was late. We need to 
improve that process. We've made provisions to do that. The 
superintendents have been incorporated as a part of the COG 
planning process. The school safety officers have formed a 
cluster under an emergency support function so that we can 
better understand their needs there. So what happens in the 
school system and the decisions there are very much a part--
will be very much a part of our eventual plan.
    Senator Landrieu. Okay. Well, I think that's very 
important. And I'll say my daughter and I for some reason were 
talking the other day, Chief, about fire. And she just looked 
at me and she said, ``Well, Mom, if that happens just stop, 
drop and roll.'' It would be very helpful if we could get all 
the kids understanding as well as the fire chiefs have done 
such a good job with this as they go around the schools 
teaching the children about stop, drop and roll, then our kids 
will know what to do in the event that something like this 
happens.
    So, Chief, thank you for teaching----
    Mr. Schwartz. Good to hear that all of our hours of public 
education are getting down to----
    Senator Landrieu. Yeah. They got that stop, drop and roll. 
They got it down.

                          SUBCOMMITTEE RECESS

    Thank you all so much. It was a good hearing.
    [Whereupon, at 4:37 p.m., Thursday, March 14, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]













        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2003

                              ----------                              


                        THURSDAY, MARCH 21, 2002

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:38 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Mary L. Landrieu (chairman) 
presiding.
    Present: Senator Landrieu.

                          DISTRICT OF COLUMBIA

                                 Courts

STATEMENT OF JASPER ORMOND, INTERIM DIRECTOR, COURT 
            SERVICES AND OFFENDER SUPERVISION AGENCY

             OPENING STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Good afternoon, everyone. I am pleased to 
call this meeting of the Subcommittee on the District of 
Columbia of the Appropriations Committee to order.
    The purpose of our hearing today is to review the fiscal 
year 2003 budget request of the D.C. Subcommittee's Federal 
agencies, and those are the Court Services and Offender 
Supervision Agency, with the Public Defender Service and the 
District of Columbia courts. We are going to have two panels 
today. We thank the first panel for being with us.
    Let me say that some of our members will be coming in and 
out during the hearing, and of course, we are live on the 
Internet and hope that we will have a good hearing today and 
get some good information on the record.
    Let me begin by just submitting a couple of things for the 
record for our committee. One is just some information, a fact 
sheet, on D.C. inmate population, information and statistics 
that our staff was able to pull together for today; the fact 
sheet on the agency, and I am sure some of these numbers will 
be bolstered or supported by your presentations. We have gotten 
some information from, the Bureau of Prisons about the 
population data, U.S. prison population, and their data to 
submit to the record, about 6,792 prisoners that they have 
identified as part of their U.S. system.
    I would also like to submit for the record the two articles 
that were in the Washington Post today, one about the 
challenges under our new system of inmates being separated at 
some distance from families and some of the challenges that 
that creates, and we will have some questions about that as 
this hearing goes on. And also an article about the city's 
plans for the D.C. General site which might affect one of the 
sites under the jurisdiction of this agency. And then just a 
map of that particular area. So, without objection, I am just 
going to submit these for the record.
    [The information follows:]

                 [The Washington Post, March 21, 2002]

                City Unveils Plan for D.C. General Site
    homes, shops, waterfront park, health-related offices envisioned

                          (By Debbi Wilgoren)

    District officials yesterday introduced their vision for extending 
the Capitol Hill neighborhood into the sprawling, mostly vacant D.C. 
General Hospital campus in Southeast Washington.
    The proposal would replace about 45 acres of deteriorating hospital 
buildings and parking lots with tree-lined streets, homes, shops, 
laboratories and outpatient clinics and health-related government 
offices. The neighborhood they envision would lead to a 15-acre 
waterfront park along a now-inaccessible stretch of the Anacostia 
River.
    City officials must submit the draft land-use plan to the D.C. 
Council, which would hold public hearings before deciding whether to 
approve or modify it.
    Under an agreement with the federal government, which owns the 
land, the entire site must continue to have a municipal focus. That 
means most new offices would be owned by the government and related to 
health or science, and some of the new housing could be reserved for 
health care workers or teachers. Despite the restrictions, officials 
said, they are determined to transform the site into a lively 
waterfront neighborhood.
    ``People are going to suddenly look at this [parcel] with very 
different eyes,'' said City Administrator John A. Koskinen, who briefed 
reporters on the proposal yesterday afternoon in advance of a public 
presentation at Eastern High School last night. ``Instead of seeing 
what is there, they'll start to see what could be there.''
    A few of the 50 or so people who attended last night's presentation 
spoke approvingly of the plan.
    ``I love the fact of opening up to the waterfront,'' said Ellen 
Opper-Weiner, who has lived a few blocks from the D.C. General campus 
for 24 years, but set foot on the campus for the first time just two 
weeks ago. ``It's creating a whole new neighborhood.''
    But others in the audience, mostly longtime opponents of the 
decision to close D.C. General, criticized the plan. They focused on 
the decision to reserve four acres near the Stadium-Armory Metro 
station for a facility for St. Coletta's, a private special education 
school in Alexandria that enrolls many D.C. students.
    ``The citizens of the District once again have been disrespected,'' 
said Kathleen Wills, an activist on school and land-use issues. ``How . 
. . does a private institution get this public land? It's a travesty.''
    The entire plan could take up to 20 years to achieve, District 
Planning Director Andrew Altman said. City officials have not begun to 
estimate the cost, which would be borne by local, federal and private 
funds.
    Once a plan is approved, the city would start developing the site 
around its edges, building the waterfront park--including a scenic 
roadway and a bicycle path--extending Massachusetts Avenue, and 
improving 19th Street to include a new mix of homes and shops around a 
``village square.'' That first phase probably would take about five 
years, Altman said.
    Along Massachusetts Avenue, a public health and science center 
would include offices, laboratories, a rebuilt city morgue and new 
facilities for the outpatient health care and drug treatment clinics 
that have remained in operation since D.C. General was shut down last 
year. Koskinen said the buildings could include a new health department 
headquarters, the police forensics lab and possibly a federal forensics 
facility.
    The office buildings on the south side of Massachusetts Avenue 
would serve as a buffer between the new boulevard and the D.C. jail, at 
the southern edge of the hospital campus.
    The northern edge of the site is earmarked for St. Coletta's. The 
city wants the school there because it would reduce transportation 
costs. The project also enjoys strong support on Capitol Hill.
    Capitol Hill resident Elizabeth A. Purcell said yesterday that she 
has asked the D.C. inspector general to investigate the decision to 
award the site to the school rather than issue an open call for bids. 
``I think that was a tremendous loss,'' she said.
    Those who opposed closing the hospital expressed disappointment 
last night that the draft plan does not call for construction of a 
public hospital.
    But the plan reserves about eight acres along Independence Avenue 
SE for undetermined municipal projects. Officials said such projects 
could be anything from a hospital, if one is needed, to a high-quality 
community swimming facility that could also be used in the Washington-
Baltimore bid for the 2012 Summer Olympics.
                                 ______
                                 

                 [The Washington Post, March 21, 2002]

                  Families Lamenting Life After Lorton
    with prisoners all over country, relatives find visits daunting

                          (By Arthur Santana)

    Gayle Hebron's trips to the old Lorton Correctional Complex in 
Fairfax County used to be governed by routine: a 30-minute drive every 
Saturday, a security check and hand stamp at the entrance and then a 
short walk to the visitors area. There, she would sit in a crowded room 
and talk with her 26-year-old son about life on the outside.
    That eight-month routine ended in November when Hebron's son, 
Elauin ``Lonnie'' Hebron, was among the last inmates transferred from 
Lorton, in his case to the federal penitentiary in Leavenworth, Kan., 
more than 900 miles away.
    Now, Hebron said, she would have to spend hundreds of dollars for a 
plane ticket or endure two days each way on a bus to see her son. ``I 
absolutely hate it,'' she said. ``I don't get to see him anymore. We 
miss each other.''
    Since Lorton was closed for good in November, more than 6,400 
District felons like Hebron are scattered in 77 federal prisons 
nationwide, according to the federal Bureau of Prisons.
    The last of seven prisons at Lorton was shut Nov. 19, completing a 
task mandated by the 1997 Revitalization Act for the District. That law 
transferred the expense of operating prisons from the city to the 
federal government, which committed itself to placing the prisoners 
within 500 miles of Washington.
    About 82 percent of those felons, including about 5,255 men and 
women in 36 prisons, are within the 500-mile radius. But more than 
1,184 are housed farther away.
    Prison officials calculate the distance ``as the crow flies.'' Some 
prisoners are in California, Texas and Arizona, exiled from their 
families, according to Carol Fennelly, director of Hope House, a North 
Carolina-based group that connects incarcerated prisoners with loved 
ones.
    While crime victims might feel that sympathy for distant inmates is 
misplaced, such separation of prisoners from families hurts everyone, 
according to prison-rights groups. Inmates who lose touch with close 
relatives are more likely to be on shaky footing when they reenter 
society and to return to crime, these groups say. ``We know that the 
best way to have somebody come home and become a productive member of 
society is to make sure they maintain family ties,'' said Marie-Ann 
Sennett, executive director of the D.C. Prisoners' Legal Services 
Project. ``By being sent throughout the country, family ties are being 
severed. That connection that is so important is gone.''
    Faraway inmates also have fewer chances to pursue legal options. 
``Does that federal facility have the D.C. Code in their law library? I 
doubt it,'' said Kara Gotsch of the American Civil Liberties Union 
National Prison Project, based in the District.
    Since they are far from hometown inmate-rights groups, District 
prisoners are more susceptible to prison abuse, Sennett said. Her group 
handles about 2,000 D.C. inmate complaints a year and intervened after 
problems at the private Northeast Ohio Correctional Center in 
Youngstown.
    Run by Corrections Corporation of America, it was beset by trouble 
after opening in 1997. About 1,700 inmates were sent there from Lorton 
in May that year. Two inmates were fatally stabbed; 40 assaults were 
reported; six prisoners escaped in 1998; and in 1999, inmates won $1.65 
million in a class-action suit accusing guards of excessive force.
    Sennett called the decision a landmark victory exposing prison 
abuses.
    Incarcerating inmates far from where they committed crimes is the 
rule, not the exception, Fennelly said. ``Having a prison at Lorton was 
a luxury for D.C. inmates,'' she said. ``So when they were transferred, 
they had the distance shock.''
    John L. Clark, a congressionally appointed trustee who oversaw 
transition of city inmates to federal prisons, agreed, saying that, 
when Lorton was operating, D.C. inmates and their families had ``a 
definite advantage that was unique in the country. The prisoners and 
their families here will now be more like the situation in many 
states.''
    But Gotsch said distance not only increases severity of punishment 
for inmates but also for their families.
    Edward Robinson Sr., hasn't seen his son, Edward Jr., 27, since he 
left Lorton about two years ago. Now that he's in Edgefield, S.C., 
serving a life sentence for murder, the family said it's financially 
impossible to travel the more than 400 miles to see him. ``When you're 
on a fixed income, going down to Lorton was easy, but now, I don't know 
how we'd do it,'' Robinson said. ``It's been a strain on the whole 
family.'' He added that his son's two children, both 7, often ask him 
how their father is doing. ``I think they are suffering for him,'' 
Robinson said. ``They can't see him. By not seeing him and not knowing 
him, it's definitely going to affect them later in life.''
    Traci Billingsley, a Bureau of Prisons spokeswoman, said the policy 
of keeping D.C. inmates within 500 miles of home cannot always be 
implemented. It was put in place, she said, ``because being within 500 
miles of home . . . strengthens family ties.''
    But, she said, a primary reason that inmates cannot be placed in 
prisons within 500 miles of Washington is that the bureau has only two 
high security prisons nearby--in Pennsylvania at Allenwood and 
Lewisburg, each about 200 miles away.
    She said the bureau's policy of not housing large numbers of 
inmates from a single geographic location in a single federal 
penitentiary prohibits concentrating high-security D.C. felons in the 
Pennsylvania institutions. When more high-security prisons are 
constructed, she said, the bureau expects to bring D.C. offenders 
closer to home.
    Bureau officials said the 500-mile commitment was made with the 
understanding that it would have time to build facilities to handle the 
influx of D.C. inmates. They said the 1997 law didn't give officials 
time to do so.
    Billingsley said work is underway on five high-security prisons in 
the Mid-Atlantic region. One has begun accepting inmates in Lee, Va., 
she said.
    Trustee Clark said inmates sometimes must be incarcerated far away 
if they misbehave in prison. ``Most of the people who are sent to 
Leavenworth, Kan., are sent there because they were not able to adjust 
and get along in prisons closer in,'' Clark said. ``Or they may have 
some unique situation, like they have an enemy . . . at a number of 
other prisons.''
    Hebron's mother said he was not sent to Leavenworth for misbehavior 
but by mistake after being convicted of theft. She is disputing the 
system's classification of her son as a high-security inmate. Prison 
officials said Hebron is also serving time for assault, armed robbery 
and other charges.
    Billingsley said that a D.C. inmate released from a faraway prison 
is referred to a halfway house in the District or that accommodations 
are made to get the inmate home.
    Until then, families prepare for a long haul.
    Shanetta Wilson hadn't seen her nephew, Marco, 16, in more than a 
year when she paid a $700 Amtrak fare this month so she and her niece 
could travel to Atlanta to see him. Previously incarcerated at D.C.'s 
Oak Hill Youth Center for robbery, Marco won't be released for five 
years, his aunt said.
    Our Place D.C., a private, nonprofit women's center, was founded in 
1999 in part to help incarcerated mothers. It has worked with 800 women 
and their families, said Susan Galbraith, its president and executive 
director. ``We were very concerned that women were being dispersed 
throughout the country, that they were losing any connection they had 
to the community,'' she said.
    Before Kathryn Hunter discovered Our Place D.C., she had to take 
her daughter's two children more than 200 miles by bus to Danbury, 
Conn., to see their mother, Jacqueline Ferguson, imprisoned since 1994 
for violating parole, her mother said. ``She [Ferguson) didn't get to 
see them but once every eight months or so,'' Hunter said. ``It was 
devastating to her and the kids.''
    With the help of Our Place D.C., the children, now 21 and 8, have 
seen their mother every other month. ``It was a lifesaver to have the 
kids go up there much more often,'' Hunter said. Ferguson, 40, returned 
to a D.C. halfway house in January, her mother said.
    Clark, who said transition of D.C. inmates into the federal prison 
population had gone ``with remarkable smoothness,'' said he has heard 
few inmates complain about distance. ``There have have been very few 
inmates who were unhappy about going to federal institutions,'' he 
said. ``The overwhelming response that I have gotten . . . has been 
that they were eager to go to federal prisons versus being in Lorton 
because of the program opportunities, the vocational opportunities, the 
chance to work everyday and make some money, and as much as anything, 
that these are clean, safe, well-managed institutions.''
    But some inmates' family members, such as Nellie Toliver, have 
difficulty being that upbeat. Toliver, 74, said she that has never been 
on an airplane, that she has no intention of doing so and that age 
precludes traveling more than 1,000 miles to the Federal Correctional 
Institution in Pollock, La., where her son, James Gibbs, 50, is serving 
15 to 20 years for murder.
    Her grandson, Lamont Warren, 29, is at Leavenworth, serving a life 
sentence for murder. ``I don't know why they would send your relatives 
so far away,'' Toliver said. ``I don't know when I'll get to see 
them.''

    Senator Landrieu. I would like to welcome our first panel 
of witnesses today, the Interim Director, Mr. Jasper Ormond, 
and the Director of the Public Defender Service, Mrs. Jones. We 
look forward to your testimony today.
    As you all know in our audience, the mission of the Court 
Services and Offender Supervision Agency is varied, but the 
purpose is to ensure public safety primarily, while also 
helping District residents reenter their communities. CSOSA 
supervises approximately 15,000 offenders and 8,000 defendants 
at any given time, according to the records that we have. I 
understand from your prepared statements that more inmates are 
transitioning directly from prison to the community with no 
halfway house stays, and up to 70 percent of convicted D.C. 
offenders serve all or part of their sentences in the 
communities, which is quite a challenge for us. In these 
instances, especially an offender's connection with a community 
supervision officer is crucial.
    We have made some progress during the course of this brief 
existence of this new agency, which was created not too many 
years, but the number of parolees rearrested on new charges 
seems to have dropped 63 percent since 1998. There is a drug 
testing program that has shown some decline of positive drug 
tests, from 28 to 23 percent, some positive signs.
    CSOSA is reaching out to the District's faith-based 
community to provide treatment and rehabilitation services to 
offenders under its supervision, which is commendable.
    We have also, I think, made some progress in reducing our 
caseload that was once at 100 to 1 before the Revitalization 
Act to the current level of 64 cases under general supervision. 
But in my opinion that is still too high, and I would like to 
encourage some investments or redeployment of resources to 
reduce that caseload even further.
    I am interested in hearing about specific steps the agency 
is taking to minimize recidivism, again either faith-based 
initiatives or other programs that are very result-oriented and 
very effective and have a proven track record of effectiveness.
    I also want to note that I have recently learned that CSOSA 
must move 70 employees from a D.C. court building to 
accommodate the new Family Court, which is also a priority of 
this committee, to help stand up a new court system, and has 
spent a considerable amount of time and energy and money 
helping to stand up that Family Court. This move has been 
accelerated, and I understand it is not the most convenient 
option for this agency, but it is a necessary move. This 
subcommittee is committed to help CSOSA to ensure that the 
operations continue, that the Family Court needs are met.
    I am looking forward, Mr. Ormond, to hearing from you about 
the development of the D.C. site, as I mentioned, the General 
Hospital site. One of the articles that I put into the record 
describes to me a very promising plan for the development of 
that site, but how it affects your agency we are interested in 
hearing.
    I look forward to the testimony from you, Mrs. Jones. I am 
glad to see that you are continuing your training program for 
court-appointed attorneys. It is absolutely essential that 
competent legal representation be provided for indigent 
defenders so that our system that we are so proud of we can 
actually be proud of and that it is fair.
    Additionally I am looking forward to hearing about 
representation your agency provides to juveniles with 
disabilities in that system. Currently our committee is 
grappling with the cost of special education services in the 
District and would appreciate any of your views regarding that.

                           prepared statement

    I know you have statements prepared for the record. My 
statement is at some length in addition to what I have 
described, and I am going to submit that for the record.
    [The statement follows:]
             Prepared Statement of Senator Mary L. Landrieu
    Good afternoon, the Subcommittee on the District of Columbia will 
come to order. I would like to welcome our witnesses today and thank 
you for your time. This is the Subcommittee's second hearing, but one 
of it's most important as we review the fiscal year 2003 budget 
requests of our two main federal agencies, the Court Services and 
Offender Supervision Agency, with the Public Defender Service, and the 
District of Columbia Courts.
    We will conduct the hearing in two separate panels so everyone's 
time is used efficiently. We will begin by receiving statements from 
the Court Services and Offender Supervision Agency and the Public 
Defender Service; followed by a second panel from the D.C. Courts. I 
would like to remind witnesses to limit their remarks to five minutes 
and your entire prepared statement will be included in the record.
    The D.C. Revitalization Act of 1997 eliminated the $600 million 
Federal payment appropriated by Congress to the District. Instead, the 
Act transferred several functions of the D.C. government to Federal 
supervision. It was decided that the Federal government would be fully 
responsible for two specific areas traditionally carried out at the 
state level: criminal justice and District employee pensions.
    The first function, the District's criminal justice activities, is 
under the direct oversight of this Subcommittee and is comprised of two 
main entities: the D.C. Courts and the Court Services and Offender 
Supervision Agency (CSOSA).
    The third component of criminal justice, corrections, was 
successfully terminated by the District's Correction's Trustee, John 
Clark, with the transition of all adult felons to the Federal Bureau of 
Prisons last December. Corrections of D.C. adult felons are now under 
the sole control of the BOP. An article in the Washington Post today 
highlighted the new reality for D.C. offenders--they do not get to see 
their families. Apparently, the 6,400 D.C. inmates housed in the Bureau 
of Prisons are scattered in 77 prisons nationwide.
    Though we do not fund corrections of D.C. adult felons, I am 
concerned about the impacts of this transition on the District 
community--particularly, the ability of offenders to maintain close 
ties with children and families. Although BOP policy is to keep 
offenders within 500 miles of home--that does not appear to be 
happening. I would be interested to see if CSOSA offers any type of 
mediation or counseling to re-entering offenders to help them re-enter 
family life at home.
    I would like to welcome our first panel of witnesses, the Interim 
Director of the Court Services and Offender Supervision Agency, Mr. 
Jasper Ormond and the Director of the Public Defender Service, Ms. 
Cynthia Jones.
    The mission of the Court Services and Offender Supervision Agency 
is varied, but the purpose is to ensure public safety while also 
helping District residents re-enter their community. CSOSA supervises 
approximately 15,900 offenders and 8,000 defendants at any given time. 
I understand from your prepared statements that more inmates are 
transitioning directly from prison to the community with no halfway 
house stay at all and up to 70 percent of convicted D.C. offenders 
serve all or part of their sentence in the community. In these 
instances especially, an offenders' connection with a Community 
Supervision Officer is crucial.
    CSOSA has made some great progress during the course of its brief 
existence as an agency. The number of parolees' re-arrested on new 
charges dropped 63 percent since 1998. It has an effective drug testing 
program that has shown a decline of positive drug tests from 28 percent 
to 23 percent. CSOSA is reaching out to the District's extensive faith 
community to provide treatment and rehabilitative services to the 
offenders under its supervision. I commend CSOSA for reducing caseloads 
from over 100, before the Revitalization Act, to current levels of 64 
cases under general supervision. Additionally, I encourage the 
investment to reduce caseloads further to 50 cases per officer in 
fiscal year 2003. I am also interested in hearing about specific steps 
the agency is taking to minimizing recidivism, such as the Faith-based 
Initiative and Transitional Intervention Program.
    Also, I wanted to note that I have recently learned that CSOSA must 
move 70 employees from a D.C. Courts building to accommodate the new 
Family Court. This move has been accelerated and I understand it is not 
the most convenient option for CSOSA. However, it is a necessary move. 
Establishment of the Family Court is a high priority of this 
Subcommittee, but we are also committed to working with CSOSA to help 
ensure that their operations are not disrupted.
    I would also like to hear from Mr. Ormond about the development of 
the D.C. General Hospital site. Another article in the Washington Post 
today described the District's plans for the site, with no mention of 
the Assessment and Orientation Center administered by CSOSA. The Center 
conducts a 30-day residential program to stabilize the highest-risk 
offenders. We need to work together to ensure that CSOSA is able to 
expand these critical services, wherever they are located in the 
District.
    I look forward to the testimony from the Public Defender Service. I 
am glad to see that you are continuing your rigorous training program 
for court-appointed attorneys. Providing comprehensive legal 
representation to indigent defendants is critical to a fair legal 
system. Additionally, I look forward to hearing about representation 
your agency provides to juveniles with disabilities in the delinquency 
system. Currently, the Committee is grappling with the costs of special 
education services in the District, and we would appreciate your views 
on how the system serves delinquent juveniles.
    I would also like to welcome our second panel of witnesses 
representing the D.C. Courts, Chief Judge Rufus King and Chief Judge 
Annice Wagner. As a relatively new quasi-federal entity the Courts have 
done a terrific job, during my tenure, of communicating with this 
Committee on your funding needs and keeping us informed of progress. 
Additionally, I appreciate the tremendous effort that you, Judge 
Satterfield, the new Family Court chief, and others have contributed to 
the formation of the Family Court.
    Over the last two years, a surge of public pressure highlighted the 
faces of abuse and neglect in the District--faces of children who were 
victims of a system so disjointed and ineffective that they did not 
live to see the day when major reforms are being implemented. I commend 
the Courts, the City, child welfare advocates in the District and in 
Congress for collaborating on the Family Court Act. I am committed to 
working hand-in-hand with the Courts and the City to ensure that every 
child currently in the system benefits from this reform and does not 
suffer the fate of too many children that have been failed. Every child 
should be moving towards permanency as quickly and effectively as 
possible. This Committee is committed to addressing resource and 
management issues of the Family Court. We are anxious to review the 
Courts' transition plan and will hold a hearing in May to investigate 
reform more intensively.
    One hundred percent of the D.C. Superior Court's operating budget 
is paid for with federal funds. Therefore, Congress has a unique 
obligation to ensure that the day-to-day operations of this court 
reflect the best practices in each and every area of law under its 
jurisdiction. In fiscal year 2002 the Senate bill made it a priority to 
provide sufficient resources to implement the Family Court Act. We did 
this because we did not want other areas of the Court to suffer in an 
attempt to comply with the law.
    The fiscal year 2002 D.C. Appropriations Act included over $23 
million specifically for the Courts' to hire and train new judges and 
renovate space. We included a provision requiring review of the Courts' 
transition plan specifically to ensure effective implementation and 
accountability.
    It was this Committee's intent that, if necessary, the Court's 
could use its operating expenses account to comply with the Family 
Court Act and reimburse the operating fund with Family Court funds, 
once they become available. Considering explicit report language and 
remarks made on the Senate floor, I am disturbed that the General 
Accounting Office has determined that the Courts may not reimburse 
operating expenses with Family Court funds. I will work with the Court 
and interested Members to resolve this issue as soon as possible. We do 
not want to have a situation where other Court functions are deprived 
or where Family Court funds are left unexpended.
    Additionally, I am looking forward to hearing about the Courts' new 
initiatives. Particularly, I wanted to take the time to commend the 
Courts' for expanding the strong Domestic Violence Unit through a 
satellite in-take center in Anacostia. It is critical to take services 
to the communities in which they are needed, particularly in dealing 
with vulnerable populations who are often reluctant to come forward. I 
would also like to for the witnesses to present the plans for 
renovating the historic Old Courthouse and how this fits in with other 
capital improvements.
    I want to thank you all for attending this hearing today and for 
contributing to public safety and justice in the District.

    Senator Landrieu. But so that we can begin, I am happy for 
you all to begin and then we will have a series of questions. 
If you each could limit your opening statements to about 5 
minutes, that would be helpful.

                       STATEMENT OF JASPER ORMOND

    Mr. Ormond. Madam Chairperson and members of the 
subcommittee, thank you for the opportunity to appear before 
you today in support of the fiscal year 2003 budget request of 
the Court Services and Offender Supervision Agency for the 
District of Columbia, CSOSA.
    For fiscal year 2003, CSOSA requests direct budget 
authority of $161,925,000 and 1,266 FTE. This includes the 
administration's Federal retirement funding proposal. Of this 
amount, $100,612,000 is for the community supervision program; 
$37,357,000 is for the Pretrial Services Agency; and 
$23,956,000 is for the D.C. Public Defender Service, which 
transmits its budget with CSOSA's.
    Without the retirement funding proposal, the requested 
appropriation is $154,707,000. Of this amount, $95,682,000 is 
for the community supervision program; $35,955,000 is for the 
Pretrial Services Agency; and $23,070,000 is for the Public 
Defender Service.
    CSOSA requests an increase of 4.4 percent over fiscal year 
2002. This increase is spread over 10 new initiatives totaling 
$13,653,000 and 92 FTE. The Director of PDS, Cynthia Jones, 
will present the details of her request separately.
    CSOSA is committed to linking program performance to our 
budget initiatives. The agency received an unqualified opinion 
on the independent audit of fiscal year 2000 financial 
statements. To further enhance our abilities to integrate 
performance data with the budget process, our first budget 
request is an additional $280,000 for PSA to purchase and pilot 
test performance management software.
    CSOSA performance model is based on four critical success 
factors that must be achieved for us to fulfill our mission of 
increasing public safety. I will discuss our fiscal year 2003 
budget initiatives within the context of these critical success 
factors.
    The first critical success factor is risk and needs 
assessment. CSOSA requests $4,737,000 for three new initiatives 
in this area.
    Our first initiative will increase the number of diagnostic 
officers. These officers complete pre-and post-sentence 
investigations for use by the court, the Federal Bureau of 
Prisons, and the U.S. Parole Commission. Currently each officer 
carries 14 investigations per month. We would like to reduce 
this to more appropriate levels of nine to ensure that 
investigations are thorough, accurate, and timely.
    The second initiative will establish two new teams for 
CSP's transitional intervention for parole supervision, or 
TIPS, program. TIPS officers work with inmates transitioning to 
the community through halfway houses, to verify release plans, 
and assess offenders' needs.
    Finally, we request funds to relocate roughly 17 diagnostic 
and interstate supervision staff from Building B of the D.C. 
Superior Court to other nearby office space. We must vacate 
Building B to facilitate the implementation of the D.C. Family 
Court Act.
    CSOSA's second critical success factor is close 
supervision. CSOSA supervises about 15,900 offenders and 8,000 
defendants at any given time. We request $6,444,000 to fund 
three new close supervision initiatives. First, we request 
funding for five additional general supervision teams and a new 
field office within CSP. This will reduce our general 
supervision caseload from a current 64 offenders per officer to 
our target level of 50 offenders per officer. Lower caseloads 
enable the officer to monitor the offender closely. Closer 
monitoring has contributed to reductions in parole rearrests, 
one early indicator of recidivism. The number of parolees 
rearrested has significantly decreased over the last several 
years, about 63 percent since 1968, to be exact. The 
corresponding rearrest rate has also dropped 33 percent over 
the same period.
    Second, we request funding for the Pretrial Services Agency 
to establish a community-based day reporting center, which will 
expand the options available to supervise higher risk 
defendants.
    Our third initiative will enable us to maintain increased 
levels of offender drug testing. The funding will be used for 
the drug testing staff at the field offices scheduled to open 
in fiscal year 2002 and fiscal year 2003, as well as for test 
processing chemicals.
    Treatment and support services, our third critical success 
factor, are the means through which offenders and defendants 
can establish stable, drug-free lives in the community. CSOSA 
requests an additional $2,196,000 for three new initiatives in 
this area.
    First, we request funding to expand CSP's Substance Abuse 
Treatment Branch. These staff assess offenders for treatment 
placement. CSOSA initiated or continued treatment for nearly 
1,500 offenders and 800 defendants in fiscal year 2001. The 
additional staff will ensure timely assessment and expand our 
in-house treatment capacity, which is currently 600 offenders 
at any given time.
    CSOSA has established learning labs to meet the extensive 
educational and job placement needs of our supervised 
population. We request additional funds to expand learning lab 
programs at the new field units scheduled to open in the fiscal 
year 2003.
    The third new treatment initiative would provide mental 
health services to the defendant population, expanding the 
capacity that PSA established last year through successful 
pilot mental health programs. Testing, sanctions, and treatment 
have contributed to the substantial decrease in drug use among 
our offenders. Positive tests dropped 60 percent among a sample 
of 353 offenders who successfully completed treatment in fiscal 
year 2001.
    Our fourth critical success factor is the establishment of 
partnerships with police, the community, and other criminal 
justice agencies. While we are not requesting new funds in this 
area, I would like to call your attention to our newest 
partnership with the city's faith community. Nearly 40 faith-
based institutions have pledged to recruit mentors to work with 
offenders returning from prison. We anticipate training nearly 
200 mentors next month.

                           prepared statement

    We thank the subcommittee for its past support which has 
made our success possible. This concludes my prepared 
statement. I will be pleased to respond to any questions you 
may have. Thank you.
    [The statement follows:]
                  Prepared Statement of Jasper Ormond
    Madam Chairperson and Members of the Subcommittee: Thank you for 
the opportunity to appear before you today in support of the fiscal 
year 2003 budget request of the Court Services and Offender Supervision 
Agency for the District of Columbia, or CSOSA. As you know, CSOSA 
provides supervision for pretrial defendants and convicted offenders 
released into the community on probation, parole, or supervised 
release. The Pretrial Services Agency (PSA) supervises defendants, 
while the Community Supervision Program (CSP) supervises offenders.
    For fiscal year 2003, CSOSA requests direct budget authority of 
$161,925,000 and 1,266 FTE. Of this amount, $100,612,000 is for the 
Community Supervision Program; $37,357,000 is for the Pretrial Services 
Agency, and $23,956,000 is for the Public Defender Service. The 
District of Columbia Public Defender Service transmits its budget 
request with CSOSA's. The Director of PDS, Cynthia Jones, will present 
it in a separate statement.
    CSOSA requests an increase of 4.4 percent over fiscal year 2002, 
taking into account the President's initiative of making each agency 
directly responsible for funding federal retiree benefits and health 
insurance. This increase is spread over ten new initiatives totaling 
$13,653,000 and 92 FTE. The request excludes PDS.
    In the two years since CSOSA was certified as an independent 
Executive Branch agency, we have made great progress toward our goals 
of establishing strict accountability for the population we supervise 
and supporting the fair administration of justice in the District of 
Columbia. These goals support our mission, which is to increase public 
safety through effective supervision of defendants and offenders.
    CSOSA supervises approximately 15,900 offenders and 8,000 
defendants at any given time. Our supervision model is based on the 
premise that four types of activities must occur in order for us to 
perform effectively. Therefore, our budget request is based on these 
Critical Success Factors: Risk and Needs Assessment, Close Supervision, 
Treatment and Support Services, and Partnerships. In addition to our 
request for enhancements in these areas, we also request information 
technology funding to support the Critical Success Factors and enhance 
our ability to measure performance. I will discuss our fiscal year 2003 
budget initiatives within the context of the Critical Success Factors 
and briefly summarize our information technology initiatives.
                       risk and needs assessment
    The first Critical Success Factor is Risk and Needs Assessment. We 
believe that effective supervision is based on a comprehensive 
knowledge of the offender's risk to the community and need for support 
services. Defendants are assessed for risk as part of the release 
recommendation process. For offenders, risk assessment includes 
diagnostic activities, such as pre-sentence investigations, initial 
risk screening, and comprehensive pre-parole assessment, as well as 
reassessment every 180 days throughout the supervision period. Needs 
assessment begins at intake and continues throughout supervision. It is 
the basis of case planning and referral to treatment, education, 
training, and other support services.
    CSOSA will dedicate 245 percent of its fiscal year 2003 budget to 
activities in this area, and we request funding for three new 
initiatives. First, we request $2,310,000 for additional diagnostic 
staff within the Community Supervision Program. Diagnostic staff 
prepare pre-sentence and post-sentence investigations, which are used 
by the court in determining sentences, by the Federal Bureau of Prisons 
in making institutional placements, and by the U.S. Parole Commission 
in making release decisions. These reports must be thorough, accurate, 
and timely; they are an important product our Agency provides to the 
criminal justice system.
    Our existing staff completed over 5,000 investigations last year. 
The additional staff will reduce each diagnostic officer's caseload 
from 14 investigations per month to a more appropriate level of nine. 
The caseload reduction is supported by a workload study we commissioned 
from the National Institute of Corrections last year.
    Second, we request $1,127,000 to establish two additional teams of 
officers in the Transitional Interventions for Parole Supervision, or 
TIPS, program. TIPS officers work with inmates transitioning to the 
community through Community Corrections Centers, or halfway houses. 
These officers investigate and verify the inmate's release plan, work 
with the inmate to secure employment, and initiate referrals to 
treatment, education, training, or other support services. TIPS 
officers' involvement ensures that the inmate makes a seamless 
transition from the institution to the community, with no break 
interruption of supervision.
    The volume of TIPS investigations has remained consistent 
throughout the three years since the program was established. However, 
during this period, the average length of stay for inmates in halfway 
houses has decreased. This means our officers have less time to 
complete each investigation. Moreover, an increasing number of inmates 
are transitioning directly from prison to the community with no halfway 
house stay. For these inmates, the release plan must be verified within 
a very short time. The additional funding for staff would ensure that 
release plan verification and case planning are completed in a timely 
manner despite the shorter timeframes within which officers are 
working.
    Finally, we request $1,300,000 to relocate approximately 70 
diagnostic and interstate supervision staff from Building B of the D.C. 
Superior Court to other office space in close proximity to the court. 
Building B must be vacated due to renovation of the space for the new 
Family Court.
                           close supervision
    CSOSA's second Critical Success Factor is Close Supervision. We 
believe that a system of close supervision, based on clearly defined 
expectations and graduated sanctions for offenders and defendants who 
violate those expectations, will result in increased accountability and 
decreased recidivism among our population. The primary means of 
enforcing accountability are regular contact between the offender and 
his or her supervision officer and testing the offender for drug use.
    For sufficient meaningful contact to occur, the officer's caseload 
must be manageable. We have set a target of 50 offenders per officer 
for general supervision cases and have made consistent progress toward 
that target. Last year, the average general supervision caseload was 64 
offenders per officer. With the addition of Pretrial Supervision 
Officers funded in fiscal year 2002, PSA's caseload will be reduced 
from 95 defendants per officer to 83.
    CSOSA will dedicate 48 percent of its fiscal year 2003 budget to 
activities in this area, and we request funding for three new 
initiatives. Our first new Close Supervision initiative totals 
$3,633,000 and would establish five general supervision teams and a new 
field office within the Community Supervision Program. With the 
addition of these staff, CSP's general supervision caseload will reach 
the target level of 50.
    The second new initiative would provide $569,000 for the Pretrial 
Services Agency to develop and establish a community-based Day 
Reporting Center. The Center will expand the available supervision 
options for higher-risk defendants by offering non-residential 
intensive supervision with a variety of substance abuse, education, and 
life skills programs.
    For our third initiative, we request $2,238,000 to increase 
offender drug testing. This will fund new positions for specimen 
collection at the field offices scheduled to open in fiscal year 2002 
and fiscal year 2003. The request also includes $1,100,000 for the 
chemicals and supplies used to process drug tests. Drug testing is 
critical to both needs assessment and supervision. Offenders who are 
using drugs are more likely to need treatment and pose a greater risk 
of committing new crimes.
    Late in fiscal year 2000, CSOSA began requiring all offenders 
entering supervision to be tested twice weekly for eight weeks. Testing 
then gradually decreases as the offender demonstrates abstinence. Under 
this policy, an offender who uses drugs can be placed on a more 
intensive testing schedule as a sanction for use. Full implementation 
of this policy contributed to a 233 percent increase in the total 
number of drug tests between fiscal year 2000 and fiscal year 2001. The 
requested funding would meet the full cost for testing chemicals and 
supplies under this policy.
    Increased testing reinforces offender accountability. Each positive 
test is treated as a violation of release conditions and is sanctioned. 
Sanctions include increasing the frequency of testing, requiring the 
offender to check in daily with the supervision officer, or requiring 
the offender to attend a group meeting every day for a fixed number of 
days. If the offender continues to test positive, he or she will be 
referred to treatment or a residential sanctioning facility. The 
offender receives the message that drug use will not be tolerated and 
that violations will be punished. We believe that increased testing has 
begun to impact drug use among the supervised population: the average 
percentage of positive tests per month decreased from 28 percent in 
fiscal year 1999 to 23 percent in fiscal year 2001.
                     treatment and support services
    The third Critical Success Factor is Treatment and Support 
Services. These services provide the means through which offenders and 
defendants can establish stable, drug-free lives in the community. 
CSOSA will dedicate 23 percent of its fiscal year 2003 spending to this 
area, and we plan three new initiatives.
    CSOSA initiated treatment for more than 1,000 offenders in fiscal 
year 2001 and continued services for 480 others. Over 800 defendants 
were also placed in sanction-based treatment last year. We have seen 
significant growth in the amount of treatment available to offenders 
and defendants over the past three years. In order to ensure that these 
resources are used effectively, CSOSA assesses all individuals referred 
to treatment for severity of need and commitment to treatment and 
recommends an appropriate placement.
    As treatment availability has increased, the volume of referrals 
has also increased. In order to continue processing referrals in a 
timely manner, we request $848,000 to expand CSP's Substance Abuse 
Treatment Branch. The additional staff would also allow CSP to better 
utilize existing staff who are certified addiction counselors and 
expand in-house treatment programs.
    The defendants and offenders under CSOSA supervision need a range 
of services in addition to substance abuse treatment. The average 
offender has a fifth grade literacy level, poor job skills, and an 
unstable work history. CSOSA has established a network of learning labs 
to provide academic and vocational assistance to address these needs. 
We request $464,000 to expand the learning lab program at the new field 
units scheduled to open in fiscal year 2002 and fiscal year 2003.
    The third new treatment initiative, totaling $884,000, would 
provide mental health services to the defendant population. These 
services would include case management and referral to community-based 
mental health treatment services for a rotating caseload of 180 
defendants. Further, this initiative includes 50 contractual, 
residential treatment slots for defendants with concurrent substance 
abuse and mental health disorders. PSA launched a pilot mental health 
program in fiscal year 2001. This program reached its capacity within 
90 days, demonstrating the need to expand mental health services 
available to defendants. Numerous studies have established a strong 
association between serious mental illness and criminal activity, 
including violent crime. An even stronger association exists when the 
mentally ill individual also has a substance abuse problem. Some 
studies have shown that placing the mentally ill into appropriate 
treatment programs reduces the likelihood of a return to jail.
                              partnerships
    Our fourth Critical Success Factor is the establishment of 
Partnerships with the police, the community, and other criminal justice 
agencies. CSOSA will dedicate 4 percent of its fiscal year 2003 budget 
to activities in this area.
    Although we are not requesting additional funding in this area, we 
have developed a new initiative of which we are very proud. Last fall, 
we began to work with the city's faith-based institutions on a pilot 
program through which returning offenders can access the resources and 
services available through houses of worship. During the weekend of 
January 11, nearly 40 faith-based institutions devoted their worship 
services to a discussion of offender re-entry and pledged to recruit 
mentors to work with offenders returning from prison. Since then, 
interest has remained high. We are on track to begin training mentors 
next month. We hope the mentoring program will be the first expression 
of a long, fruitful collaboration between CSOSA and the faith community 
that will increase opportunities for returning offenders and, as a 
result, decrease recividism.
                         information technology
    CSOSA achieved significant improvements in information management 
in fiscal year 2001. The Agency designed, built, tested, and deployed 
two separate custom-designed case management applications, one for 
defendant management and one for offender management. The new 
applications replace outdated legacy systems. Both will greatly enhance 
the information available to the supervision officer, as well as the 
quality and availability of program data.
    Our final program request is $280,000 for PSA to purchase and pilot 
test a strategic planning software package designed to facilitate the 
integration of performance and budget data. If the pilot test is 
successful, the software will be implemented throughout CSOSA.
                               conclusion
    CSOSA continues to accumulate evidence that our supervision 
approach is contributing to a safer District of Columbia. Both the 
number of parolees rearrested and the rate of rearrest have dropped 
significantly in the three years since the TIPS program began. The 
number of parolees rearrested dropped 63 percent; the rate of rearrest 
is down more than 33 percent. We are beginning to study the effects of 
our supervision model on probation rearrests as well.
    We are beginning to see the effects of our drug testing and 
treatment programs. Although we are testing more people for more drugs, 
the rate of positive drug tests among probationers and parolees has 
fallen 15 percent since fiscal year 1999. Among a sample of offenders 
who completed treatment in fiscal year 2001, positive drug tests 
dropped more than 50 percent. We are studying treatment placements and 
outcomes this year to determine whether the promising results of that 
sample hold true for the entire treatment population.
    We at CSOSA are very proud of the difference we have made to 
offender and defendant supervision and our positive impact on public 
safety. We thank the Subcommittee for its past support, which has made 
our success possible. This concludes my prepared statement. I will be 
pleased to respond to any questions you may have.

    Senator Landrieu. Ms. Jones.
STATEMENT OF CYNTHIA JONES, DIRECTOR, PUBLIC DEFENDER 
            SERVICE, DISTRICT OF COLUMBIA
    Ms. Jones. Good afternoon, Madam Chair and members of the 
subcommittee. My name is Cynthia Jones and I am the Director of 
the D.C. Public Defender Service. I appreciate the opportunity 
to come before you today to discuss the agency's fiscal year 
2003 budget request.
    For fiscal year 2003, PDS requests $23,956,000 and 218 FTE. 
If the President's initiative is not fully funded, our request 
goes to $23,070,000.
    The Public Defender Service provides constitutionally 
mandated legal representation to indigent people facing the 
loss of liberty in the District of Columbia. While much of our 
work is devoted to ensuring that no innocent person is ever 
wrongfully convicted of a crime, we also provide legal 
representation to mentally ill people who are facing 
involuntary civil commitment, recovering substance abusers who 
are participating in the highly successful Drug Court program, 
and juveniles in the delinquency system who suffer from 
learning disabilities and require special accommodations under 
the Individuals with Disabilities and Education Act.
    In the District of Columbia, PDS and the District of 
Columbia courts share the responsibility for providing 
constitutionally mandated legal representation to indigent 
people. Approximately 100 lawyers on staff at PDS are appointed 
by the court to represent the majority of the people facing the 
most serious felony charges, the majority of juveniles in the 
delinquency system, nearly 100 percent of all parolees, and the 
majority of the people in the mental health system facing 
involuntary civil commitment.
    Under the Criminal Justice Act, the District of Columbia 
courts appoint over 200 other pre-selected private attorneys to 
handle the less serious felony cases, misdemeanor cases, and 
the neglect and abuse cases.
    In fiscal year 2002, PDS was very successful in instituting 
changes to improve the overall quality of the District of 
Columbia justice system. We filed a successful class action 
lawsuit against the U.S. Parole Commission in the U.S. District 
Court. As a result, the court ordered the U.S. Parole 
Commission to reform its procedures for handling parole 
revocation cases.
    We also created a training and certification program for 
CJA criminal investigators to make sure that only competent and 
qualified people were assisting the court and providing 
representation. We also created several other training programs 
for the CJA Bar, including a very in-depth training seminar on 
special education advocacy and juvenile delinquency.
    One of our biggest achievements in fiscal year 2002 was the 
OPTIONS mental health treatment program in collaboration with 
the Corrections Trustee, CSOSA Pretrial Service Agency, the 
D.C. Department of Mental Health and the courts. We created a 
substance abuse treatment for nonviolent offenders to provide 
them with not only mental health treatment and counseling, but 
to get them social work, to get them into medication programs, 
and to provide them with housing. The OPTIONS program has been 
highly successful and has been fully incorporated into the 
District of Columbia Government Commission on Mental Health.
    For fiscal year 2003, the Public Defender Service has just 
two initiatives: the Parole Revocation Defense initiative and 
the DNA Sample Collection Response initiative.
    As you know, in August of 2000, the U.S. Parole Commission 
assumed responsibility for handling parole matters for all D.C. 
code offenders. With the strict accountability measures 
employed by CSOSA to ensure that all parolees are in line with 
community supervision standards, not surprisingly there has 
been an increase in the number of parolees who are facing 
revocation. According to CSOSA figures, in fiscal year 2001, 
the parole rearrest rate was 21 percent. Out of an average 
monthly population of 3,846 parolees, 815 were rearrested last 
fiscal year. PDS represented nearly 100 percent of them. This 
current fiscal year in the previous 4 months, there have been 
160 parolees rearrested, a rate of 40 parolees per month. That 
does not include the number of parolees who are facing 
revocation based upon noncompliance with technical community 
supervision requirements.
    We request four additional positions to handle the parole 
revocation cases.
    The other initiative is the DNA Sample Collection Response 
initiative. The use of DNA evidence in criminal cases is on the 
rise, and at least two statutes have been passed in the 
District of Columbia to expand the use of DNA evidence in 
criminal proceedings. In order to keep pace with this trend and 
continue to provide the same quality of constitutionally 
mandated legal representation in the growing number of DNA-
based criminal cases, PDS seeks two additional positions and 
funding for expert services.

                           prepared statement

    I respectfully request your support of these initiatives, 
and I would like to thank you and the members of the committee 
for your time and attention to these matters. I will be happy 
to answer any questions you might have.
    [The statement follows:]
                 Prepared Statement of Cynthia E. Jones
    Good Afternoon, Madam Chair and members of the Subcommittee. My 
name is Cynthia Jones, and I am the Director of the Public Defender 
Service for the District of Columbia (PDS). I appreciate the 
opportunity to come before you today in support of the Agency's fiscal 
year 2003 budget request.
    As a result of the National Capitol Revitalization and Self-
Government Improvement Act of 1997 (the ``Revitalization Act''), PDS 
was established as a federally-funded, independent District of Columbia 
agency. The Revitalization Act requires PDS to transmit its budget and 
receive its appropriation through the Court Services and Offender 
Supervision Agency (CSOSA). The Public Defender Service provides 
constitutionally-mandated legal representation to indigent people 
facing a loss of liberty in the District of Columbia. While much of our 
work is devoted to ensuring that no innocent person is ever wrongfully 
convicted of a crime, we also provide legal representation to mentally 
ill people who are facing involuntary civil commitment, recovering 
substance abusers participating in the highly successful Drug Court 
treatment program, and juveniles in the delinquency system who suffer 
from learning disabilities and require special educational 
accommodations under the Individuals with Disabilities in Education 
Act.
    For fiscal year 2003, PDS requests $23,956,000 and 218 FTE in 
direct budget authority, which includes a request for 6 new FTE and 
$874,000 to support two new initiatives.
    Taking into account the President's initiative of making each 
agency directly responsible for funding federal retiree pension and 
health benefits, this represents a 10.7 percent increase over fiscal 
year 2002.
    In the District of Columbia, PDS and the District of Columbia 
Courts share the responsibility for providing constitutionally-mandated 
legal representation to indigent people. Approximately 100 lawyers on 
staff at PDS are appointed to represent:
  --the majority of people facing the most serious felony charges;
  --the majority of the juveniles facing serious delinquency charges;
  --nearly 100 percent of all people facing parole revocation; and
  --the majority of people in the mental health system who are facing 
        involuntary civil commitment.
    Under the Criminal Justice Act, the District of Columbia Courts 
appoint over 200 pre-selected private attorneys (``CJA attorneys'') to 
handle the less serious felony cases and the majority of the 
misdemeanor and traffic cases. The cases assigned to PDS are generally 
the more complex, resource-intensive and time consuming criminal cases 
that would be very costly if litigated by CJA attorneys who are paid on 
an hourly basis.
                    fiscal year 2002 accomplishments
    In fiscal year 2002, in addition to handling a constant volume of 
over 10,000 criminal, juvenile, parole, mental health and other legal 
matters, PDS was very successful in instituting changes to improve the 
overall quality of the District of Columbia justice system through 
litigation and very successful collaborations with other criminal 
justice agencies.
                 court-ordered criminal justice reforms
    First, PDS initiated litigation in the United States District Court 
to challenge a District of Columbia statute which did not comply with 
constitutional Due Process standards. The United States District Court 
agreed, and the issue is now before the United States Supreme Court in 
a separate case involving the same legal issue.
    Second, PDS filed another successful class action lawsuit in the 
United States District Court in order to force the United States Parole 
Commission to reform the manner in which the agency adjudicated parole 
revocation cases involving DC Code Offenders. The federal court agreed 
that the U.S. Parole Commission's procedures were unconstitutional and 
ordered the Agency to make critical reforms.
    In another case, PDS was successful in convincing the Superior 
Court to find that the grand jury practices of the local United States 
Attorney's office were a violation of local law, and major changes were 
ordered by the court to better protect the rights of people subpoenaed 
to the grand jury as witnesses.
                criminal justice collaboration projects
    In addition to these large-impact litigation cases, PDS also 
initiated the OPTIONS mental heath treatment program in collaboration 
with the Corrections Trustee, the CSOSA Pretrial Services Agency, the 
DC Department of Mental Health, and the Courts. The OPTIONS program 
provides comprehensive treatment and social services to people with 
mental illness who are charged with non-violent offenses in order to 
prevent recidivism and promote healthy rehabilitation. In the short 
time that it has been in existence, the program has been incredibly 
successful assisting nearly 100 people with mental illness by providing 
counseling, medication, housing and other critical social services. The 
participants in the OPTIONS program are members of a class of offenders 
who have traditionally been a high risk for successive re-arrests in 
the absence of effective treatment. Through the comprehensive services 
provided in the OPTIONS program, the re-arrest rate among program 
participants has declined. This pilot program has now been fully 
incorporated into the DC Department of Mental Health and will be a 
permanent fixture in the DC criminal justice system to better serve 
people with mental illness.
    Similarly, PDS worked closely with the Courts and the Corrections 
Trustee to create a consolidated financial management system for the 
issuance, processing and payment of vouchers under the Criminal Justice 
Act. The new system allows the Court to maintain better, more efficient 
financial control and oversight of its CJA budget and requires minimal 
participation by outside agencies. This new automated system 
fundamentally reforms the process for payment under the Criminal 
Justice Act by centralizing the accounting and payment functions with 
the Courts.
    Finally, PDS continued its tradition of providing in-depth training 
courses for court-appointed CJA attorneys in order to improve the 
overall quality of the defense bar and promote the maximum economic 
efficiency in providing legal representation to indigent people.
  --The Public Defender Service produced the Criminal Practice 
        Institute Practice Manual, an 1,800-page, comprehensive 
        treatise on criminal law in the District of Columbia. Over 600 
        copies of this manual have been distributed to the judges on 
        the District of Columbia Courts, the United States Attorney's 
        Office, the Bureau of Prisons, area law schools and the private 
        bar.
  --The Public Defender Service sponsored the 37th annual Criminal 
        Practice Institute training conference, a 3-day event involving 
        seminars by nationally-known speakers, law professors, legal 
        scholars, local judges and criminal justice practitioners. Over 
        200 lawyers attended the 2001 conference.
  --The Public Defender Service sponsored over 14 other training 
        sessions for CJA attorneys throughout the year, including in-
        depth training seminars on Special Education Advocacy and 
        Juvenile Delinquency.
  --The Public Defender Service initiated the creation of a training 
        and certification program for all CJA criminal investigators in 
        order to ensure that only competent, well-qualified people were 
        appointed by the court to assist private lawyers investigate 
        and prepare cases. The Superior Court adopted the PDS proposal 
        and implemented the mandatory training requirement for all CJA 
        investigators in criminal cases. Senior PDS investigators and 
        PDS staff attorneys prepared the training materials and 
        coordinated the training sessions on all aspects of criminal 
        investigation. All CJA investigators should complete the 
        training and receive certification by the end of this fiscal 
        year.
    Each of the court ordered reforms and successful collaboration 
projects have improved the quality of services provided to indigent 
people in the District of Columbia justice system and have contributed 
to a better, more efficient criminal justice system. With the on-going 
development and implementation of the PDS Community Defender Program to 
provide legal assistance and community re-entry support to people under 
criminal justice supervision, PDS hopes to continue to work closely 
with the other agencies in the criminal justice system for positive 
change and reform.
                        fiscal year 2003 request
    For fiscal year 2003, PDS seeks to build on the current successes 
of the agency with two new initiatives: The Parole Revocation Defense 
Initiative and the DNA Sample Collection Response Initiative. The total 
request for these two initiatives is $874,000, for a total fiscal year 
2003 budget request of $23,956,000.
                  parole revocation defense initiative
    In August 2000, the United States Parole Commission assumed 
responsibility for handling parole matters for all DC Code Offenders. 
At that time, PDS began representing all parolees facing parole 
revocation proceedings. In the first full year, PDS handled over 700 
revocation matters. With the current strict accountability measures 
employed by CSOSA to ensure that all parolees are in line with 
community supervision standards, not surprisingly, there has been an 
increase in the number of people facing parole revocation. Currently, 
PDS handles 70-100 new cases each month. This is a nearly 80 percent 
workload increase. The current number of staff attorneys assigned to 
handle parole matters cannot absorb the steadily increasing parole 
revocation docket without adversely affecting our ability to provide 
legal representation in trial, mental health, and other legal matters. 
Thus, we are seeking additional legal and administrative staff. We 
request 4 FTE and a total of $447,000 to enable PDS to continue to 
provide this constitutionally-mandated legal representation.
               dna sample collection response initiative
    In 2001, the Council of the District of Columbia passed the DNA 
Sample Collection Act that mandates that persons convicted of felony 
offenses (and certain misdemeanor sex offenses) submit a DNA sample for 
inclusion in the FBI database for use in solving future crimes. In 
addition, the DC Council has also passed the Innocence Protection Act, 
which allows persons convicted of crimes in the District of Columbia to 
litigate post-conviction claims of actual innocence based on DNA and 
other evidence. The combined effect of these two new laws is an 
increase in prosecutions based largely or exclusively on DNA evidence. 
In order to provide the constitutionally-mandated legal representation 
in this growing number of DNA-based criminal cases, PDS seeks 2 FTE and 
$427,000 to hire experts and staff to assist with the science of DNA, 
population genetics and other technical and scientific areas involved 
in this type of litigation.
    I respectfully request your support of both of these initiatives 
and I would like to thank the members of the committee for your time 
and attention to these matters. I would be happy to answer any 
questions the committee might have.

    Senator Landrieu. Thank you, Ms. Jones. I appreciate you 
all keeping your testimony concise, and any additional 
information please feel free to submit to the record.

                          OFFENDER POPULATION

    Let me begin, Mr. Ormond, with you. There are so many 
questions that I could ask in such a limited time, but I would 
like to just flush out a few things.
    In our preparation for this hearing, our staff had some 
difficulty receiving some detailed information about the 
profile of prisoners within the Federal system. And the reason 
I raise that in terms of their age, their background, et 
cetera, there did not seem to be information at our fingertips.
    My question would be, how is it possible either to 
anticipate the prisoners coming out into the community, in 
terms of what their needs might be, if we are not able to have 
an accurate profile of the 6,000-7,000 in the system that are 
coming back into the District each month at approximately, from 
what we can gather, 120 per month on average?
    How are you managing to anticipate who is coming out of the 
prison system back into the community so that you can help to 
either reorient them, prepare them for reentry, and most 
importantly protect the public and ensure public safety?

                      RE-ENTRY INTO THE COMMUNITY

    Mr. Ormond. We initiated 3 years ago a transitional program 
that really allowed us to put our staff parole officers in the 
halfway houses ideally to work with the men and women for 120 
days. Given the fact that people are throughout the country 
now, that was probably the most fixed place that we could 
control the population.
    During that time, we are assessing people. We are also 
getting a sense of what both their criminal profiles are, as 
well as their treatment needs. About 60 percent of the men and 
women that we are serving have significant drug abuse kinds of 
issues. If we look at one profile of the geographical location, 
about 19 percent of those people were violent offenses, about 
50 percent were drug-related offenses, which really told us 
that we really needed to focus on those drug-related kinds of 
issues, even the technical violations and revocations are 
basically drug-related.
    A small percentage, about 5 percent, were sex offenses, and 
we had to begin to focus on those sex offenses.
    We are seeing some increase in domestic violence, and again 
it forced us to make sure that our interventions around 
domestic violence were current to the needs that we were seeing 
in the population.
    So, again, for us we do a fairly thorough assessment both 
at the Karrick Hall facility, which is a 28-day program that 
allows us to have a good profile of the needs of individuals 
transitioning back before they actually go into the community, 
as well as our staff working in the halfway houses that are 
assessing folks, developing plans, assessing their residential 
needs or employment needs prior to them actually coming under 
supervision. So, that is the intervention that we have in place 
thus far.
    Senator Landrieu. So, you are testifying that 100 percent 
of everyone coming out of the system goes into the 30-day 
assessment period and then 100 percent of that population goes 
into a halfway house and then out into the community. Are we 
catching everyone or are we missing some people?
    Mr. Ormond. No, that is not exactly the testimony. Right 
now and probably recently, we are seeing roughly about 45 
percent of folks that are coming directly from the institution 
to the community.
    Senator Landrieu. So, we are only either providing 
services, as limited as they might be, to about 55 percent of 
the population; 45 percent is going directly from prison back 
into the population without the benefit of either assessment or 
transition. Is that what we are establishing here?
    Mr. Ormond. They really are not getting the transition that 
we would prefer. Ideally we want at least 120 days of 
transition time to do the assessment, to be clear about the 
profiles. Particularly now because people are in various 
jurisdictions throughout the country, we need that time. So, we 
are seeing a significant number of people that are leaving the 
Bureau of Prisons coming directly to the community without the 
benefit of transition, and we need to address that. Hopefully, 
with expanding the services at Karrick Hall or wherever we 
decide to place that program, we can capture a significant 
number of folks.
    But in addition to that, we are finding ourselves in a 
position of having to assess people, once they are actually in 
the community, which is not the most ideal way of intervening 
with the population that we are serving.
    Senator Landrieu. Have you estimated, Mr. Ormond, what it 
would either cost or what would have to be configured or 
restructured to allow us to try to, at a minimum, get 30 days 
or 60 days of profile and evaluation before the person entered 
the community? Do you have any figures that you could submit to 
us on what it would take financially or otherwise to see that 
that would occur?
    Mr. Ormond. Yes. I would be pleased to submit those figures 
to the committee. I do not have them at this point, but I 
really would like to get those figures back to you.
    Senator Landrieu. I realize that that is probably a goal 
for every community in the Nation, and based on fiscal 
constraints and other constraints, it may not be possible. But 
I think it would be a goal worth working towards so that we 
could have a clear profile of a person leaving the system and a 
plan for their reentry, obviously for public safety, number 
one, but also as an opportunity to try to give this individual 
a second chance if they would so grasp it. Some will and some 
will not, but it would be a benefit.
    So, if you could submit that to the committee.

                             DRUG TREATMENT

    Let me ask something about drug testing because, as you 
stated, the vast majority--and I think you stated for the 
record 50 percent of more--had drug-related offenses. I would 
assume most of those had a drug problem.
    Mr. Ormond. Yes.
    Senator Landrieu. So, when they come from the Bureau of 
Prisons back into the community, one of our primary objectives 
would be to assess that these individuals are remaining drug-
free.
    Mr. Ormond. That is correct.
    Senator Landrieu. And could you describe the system that we 
use now to ascertain that information and talk to me a little 
bit about the expense of it or the way it is actually 
conducted, the kinds of tests, the frequency of tests, and the 
general outcome of those tests.
    Mr. Ormond. Well, again, there are two phases. The first 
phase, ideally the transition phase. Right now, roughly 50 
percent of the people are getting that. During that period, we 
do a thorough assessment, and we are also testing them twice a 
week to make certain that as they begin to enter the community, 
they are not using drugs.
    Now, we also introduced a zero tolerance policy about 3 
years ago that if you get a positive urine once you are in the 
halfway house, we would remand you back to the jail for at 
least 30 days just to reorient you to kind of get you focused 
again and try the transition process again, assuming that the 
U.S. Parole Commission supports that.
    Once they complete transition, our policy within CSOSA is 
each person gets 8 weeks of drug tests twice a week. If they 
test clean, they get an additional 4 weeks once a week. If they 
test clean, we begin to do monthly spot checks from that point 
forward because, again, the accountability around drug testing 
is critical given the population profile that we are seeing at 
this point.
    Senator Landrieu. Let me ask you this. Are you aware of any 
better technologies other than the current testing system that 
you are using that you would like to have at your disposal that 
would either be less intrusive, that would give us more 
accurate information? I understand that there are some 
advantages and disadvantages to different types of tests.
    Mr. Ormond. We have looked at saliva testing. However, it 
really does not provide the rigor that would stand up against 
some of the challenges that we would probably get from PDS over 
time. Right now, the drug testing protocol is probably the most 
tested science that we have that would really stand up against 
the challenges.
    Now, we also initiated a pilot program last year just to 
look at saliva testing as a prescreener. We see that as being 
far more cost effective, but we would still need the regular 
drug testing, the urine screens, that would give us the rigor 
of confirmation and the chain of custody that would be required 
to really stand up.
    Senator Landrieu. I am somewhat familiar with a program 
that we have piloted in Louisiana about using hair analysis. Do 
you have any information about that? Because the information 
that I have--and this is just on a very small pilot that we 
have helped to fund, and it is used not for offenders but for 
students in school, a system that is less intrusive. It is, of 
course, voluntary, et cetera.
    But the reliability seems to be very high. The evidence of 
drugs cannot be washed or bleached out. It is non-intrusive and 
there are advantages there. There's increased detection 
efficiency. Hair testing can detect drug use in the previous 90 
days so that there is a long lead time, if you will, about 
trying to determine if someone is violating the conditions of 
their parole.
    The disadvantages would be--and that is why I ask you--the 
cost seems to be a little bit higher.
    But I just would be interested if you had ever heard of 
this or had explored this as an option and just dismissed it 
because of the cost.
    Mr. Ormond. We also had some concerns about the fact that 
it really does not get recent use with the level of sensitivity 
that we would require because our basic protocol is to do quick 
responses as soon as the person begins to use the drugs. I 
think the hair testing does good after long-term use, but with 
recent use, it really does not get the level of sensitivity 
that we would need. But we have explored both saliva and hair 
testing.

                          SUPERVISION CASELOAD

    Senator Landrieu. Let me ask this just to get our hands 
around the numbers here. You testified that you have 
approximately 23,000 individuals under sort of the jurisdiction 
of your agency. And how many personnel do you have? 1,200 
approximately?
    Mr. Ormond. Well, as far as our community supervision 
officers, we have about 271 community supervision officers.
    Senator Landrieu. But total personnel.
    Mr. Ormond. 956 FTE.
    Senator Landrieu. That would be about, if my math is 
correct, 200 to 1. Is that about right?
    Mr. Ormond. 200 to 1?
    Senator Landrieu. Is that correct? Yes. 1,200 FTE. So, that 
is about 200 to 1. Now, I know that is all personnel compared 
to the population that you are serving. That is one way to 
measure it. The other way to measure it is your case load.
    Mr. Ormond. Exactly.

                         SEX OFFENDER REGISTRY

    Senator Landrieu. But either way you are measuring it, can 
you give us any reference point to other jurisdictions around 
the Nation? Are those ratios high or low in terms of our trying 
to deliver effective services? Do you have any information 
about that?
    Mr. Ormond. Well, the ratios are still much higher than we 
would prefer. I think the general rule of thumb is about 50 to 
1. We are probably at 64 to 1 now. That is with about 271 
community supervision officers and with an active and monitored 
population that is roughly around 3,600 or 3,800 at any given 
point in time. We still feel a significant need, particularly 
with the sex offenders, the mental health population, and some 
of the substance abusers. We really still need to reduce those 
caseloads.
    In addition to that, our diagnostic staff caseloads are 
around 14 to 1. I think the U.S. Probation is probably around 6 
to 1. So, we have to, again, significantly reduce those 
caseloads.
    Senator Landrieu. So, it is about double that amount.
    Mr. Ormond. Exactly.
    Senator Landrieu. Let us talk about the sex offenders for a 
moment because that is a real hot button issue, as you know, 
everywhere within the community. Our information shows that 
CSOSA established a sex offender registry for the District. 
Currently there are 585 sex offenders registered. It is your 
obligation to forward the information to the Metropolitan 
Police Department which has the responsibility for handling 
public notification. It is unclear to us whether CSOSA plays 
any role in following up with the police department's efforts. 
So, could you comment about that? And can you comment about any 
public notification that the police department is doing that 
you are aware of that you support or think should be enhanced?
    Mr. Ormond. Well, first, we developed an automated system 
with the police department so all of the sex offenders that are 
registered are electronically transferred to the police 
department. There is also notification in the precincts. That 
notification process is going fairly well. There are some 
challenges against the notification.
    But as far as the registration itself, it is all automated. 
We are connected also with the FBI. So, we are able to 
constantly communicate with the police department around those 
sex offenders.
    In addition to that, because we have geographically 
specific supervision and we are collaborating with the police 
department, within each of the police service areas. We are 
constantly communicating with the police around those high risk 
offenders.
    We also have a special transition program for the high risk 
sex offenders that we provide substance abuse treatment, as 
well as sex offender treatment, before they are actually able 
to transition from the halfway house into the community. So, 
there is pretty stringent monitoring on that population and 
communication with the police department.
    Senator Landrieu. Well, that is very good to hear. But do 
you know if the public has access to that registry? Is there 
any requirement in the District for that registry to be listed, 
as it is in some jurisdictions? The neighborhood has to be 
notified if there is a sex offender living in the neighborhood.
    Mr. Ormond. The registry is at the police precinct. I am 
not quite sure about what the notification procedures are. We 
will have to get that information back to you.
    Senator Landrieu. Do you know, Ms. Jones, by any chance?
    Ms. Jones. Yes. The Metropolitan Police Department has a 
website and they also have a book at the police station where 
they list the pictures and the names of the people who are sex 
offenders.
    There was a legal challenge to the statute and those 
procedures in that it did not give people who were listed as 
sex offenders the opportunity to say, that is not me, I am not 
the James Brown that you think I am and I should not be in the 
book, or to say I was a juvenile at the time and my record was 
expunged. So, the legal challenge is going on regarding those 
kinds of cases, but the system is in place.
    Senator Landrieu. But the website is still up.
    Mr. Ormond. Yes.
    Senator Landrieu. And will stay up until that legal 
challenge is either successful, and then it will have to be 
taken down and reconstructed or it will have to be removed?
    Ms. Jones. Unless the court orders otherwise. Right now I 
believe it is up and the book is still----
    Senator Landrieu. But it is still up. To your knowledge it 
is kept up pretty regularly? I have not looked at it myself, 
but I may after this committee hearing.
    Ms. Jones. That is my understanding, that it is kept 
regularly.
    Senator Landrieu. Could you please, staying on this general 
topic, talk to us a minute about what specific programs are 
offered to offenders convicted of child abuse or domestic 
violence? And if you could take each one separately and walk us 
through how your agency would prepare a child abuser to come 
back into the community but, more importantly, sort of back 
into whatever family unit they came from. Could you describe 
briefly that kind of process and any kind of effective programs 
where you are seeing any real results in terms of turning 
people around and really stopping that behavior, et cetera?
    Mr. Ormond. Let me start with the sexual child abuser. 
Again, for a policy that profile of offender has to go through 
the halfway house. Really, they do not have any options, and 
they are not allowed to leave that halfway house until we have 
completed a comprehensive assessment and we have also gotten 
treatment vendors working with that person as we begin to 
transition him out.
    We have a sex offender unit that works specifically with 
them. It is a much smaller caseload. Right now it is probably 
around 25 to 1 because we put a lot of time and energy making 
sure that the monitoring of this population was very, very 
closely provided.
    In addition to that, they do have to register, so we have 
another level of supervision through the registration. That is 
the sex offenders. We are feeling pretty comfortable with our 
treatment interventions. There are groups that they have to 
attend. There are specialized treatment they have to attend. 
So, the monitoring and intervention has been good with that 
population of sex offenders.
    With the domestic violence population, we use the Duluth 
model. They go through 28 weeks of intensive treatment. There 
is a screening that we also are engaged in to work with that 
population. Again, we have a specialized unit and specialized 
caseloads working directly with that population.
    Senator Landrieu. Is there any provision in that system, 
though, for the victim to have some input into that counseling 
or reintegration system? You know, the spouse that was 
battered. Is there any way that they can express their views 
about this going on, about their batterer coming out of prison?
    Mr. Ormond. We actually have a separate victims program, 
but in addition to that, reunification issues are something 
that we assess, particularly as people transition through the 
halfway houses. At that point, any significant others that are 
a part of that transition process--and more often it is the 
victim--we work with those folks, particularly if they are 
going to have contact with them as they transition back into 
the community. Beyond that, it is purely a notification 
process.
    Senator Landrieu. I think that is a very, very important 
aspect that probably sometimes gets overlooked. There are 
agencies that are looking out for the convicts and the felons 
and the lawbreakers, but sometimes we fail to support the 
victims in terms of that reintegration and for a family 
situation whether the family has stayed together or has been 
separated because of this situation, if these individuals are 
living in the same community, it can make it very, very 
difficult for the victims, spouses, but also children. It can 
be frightening. So, I just wanted to pursue that line.

                   TRANSITION BACK INTO THE COMMUNITY

    Let me ask, could you describe just briefly for the record? 
I am assuming some of these halfway houses are private 
contractors or all of them are private contractors?
    Mr. Ormond. Most of them are private contractors. I think 
the Department of Corrections runs one halfway house out of the 
halfway houses that are being administered in the city.
    Senator Landrieu. What is sort of the general per diem that 
these halfway houses charge? Is there a range of per diem that 
they charge per day for this work?
    Mr. Ormond. It varies. I do not have those exact figures 
because we do not contract with halfway houses. Our contracts 
are either with the Department of Corrections or the Federal 
Bureau of Prisons.
    Senator Landrieu. So, they do the contracts for the halfway 
houses.
    Mr. Ormond. Yes.
    Senator Landrieu. But you have to be responsible for 
getting them out of the halfway houses into the community?
    Mr. Ormond. Well, we basically put our staff in the halfway 
houses even though the offenders are technically under the 
jurisdiction of the Bureau of Prisons or the Department of 
Corrections during that transition period. But we felt it 
necessary to start the assessment, to start the interventions 
prior to them actually coming under supervision. But 
technically the folks are still in a pre-parole status under 
the jurisdiction of the Bureau of Prisons.
    Senator Landrieu. Well, I would be very interested in that 
information because to me--and I am not saying that I would 
suggest a change, but I would be very interested because your 
agency has actually more at stake than the Bureau of Prisons. 
The Bureau of Prisons is happy to get rid of people, of which 
they have too many, and are happy to get them out.
    But your agency's job is to make sure that they are safely 
integrated into the community. So, the quality of the work that 
goes on at the halfway house would be really very important, if 
I were in your position, to make sure that I have the tools I 
need to help make sure that they are not out back in the 
community committing more crimes and causing general 
disruptions, et cetera.
    Mr. Ormond. If I may add.
    Senator Landrieu. Please.
    Mr. Ormond. One of our initiatives this year is the 
transitional treatment program to add staff to support those 
halfway houses for the various reasons that you stated.
    Senator Landrieu. I would be interested in that.
    Let me see here. Then I will get to you, Ms. Jones. Let me 
ask about the D.C. General Hospital site. There are some 
promising developments in my opinion about the development of 
that site. But you have Karrick Hall there, which is your 
primary transition facility.
    Mr. Ormond. Yes.
    Senator Landrieu. Do you know if these new plans include 
you or not, and if not, where do you think you might be 
relocated?
    Mr. Ormond. We have been working with the city in this 
planning process. The current plan basically is proposing that 
we stay in Karrick Hall as an interim solution for a period of 
2 to 3 years, and after that period, a permanent site would be 
identified.
    Our concern is that because we got funding in the' 01 
budget to start capital improvements of Karrick Hall and March 
31st will be a period of decision for us, that we are very 
aggressively looking at some other alternatives because some of 
the dynamics around D.C. General are so uncertain right now. We 
really do need to start the process of developing some 
transitional options that Karrick Hall would afford us. But we 
are aggressively working with the city to identify additional 
sites, particularly if we do not feel comfortable after March 
31st that we will get a permanent commitment from the city in 
reference to the site at D.C. General.
    Senator Landrieu. Let me ask if you could comment. I am 
assuming you saw the article in the paper this morning about 
the challenges of prisoners being so far away from families. 
This is not the only subset of prisoners that I am aware of 
that have this problem. There are many prisoners that have this 
problem, and there are some limited solutions.
    But have you given any thought to this or would you just 
like to go on the record with some of your general thoughts 
about any potential solutions or suggestions, particularly in 
terms of integrating back into the community, ways that we 
could improve the fact that some of these prisoners are more 
than 500 miles away, making it virtually impossible for family 
members, particularly those on limited means, to have any sort 
of contact, which is important when you are trying to 
rehabilitate people, or at least to get them back into a 
productive state.
    Mr. Ormond. We have a steering committee now, working with 
the city, to really look at a comprehensive approach to 
transitioning people back into the community. One of the 
options is to really look at teleconferencing, particularly for 
people in the various jurisdictions, as a pre-release option. 
The Federal Bureau of Prisons is also putting policies in place 
that will enforce a certain level of pre-release planning prior 
to people coming back, but again, it is going to have to be 
electronic communication at this point.
    But we feel very, very strongly that transition needs to be 
absolute for 100 percent of the people that are transitioning 
back because people are in so many different jurisdictions. The 
mothers particularly because most of the women that are 
incarcerated have at least one child, and that reunification 
process is so absolutely critical. We need that period of 
transition, at least 120 days, in some cases 6 months to a 
year, to assist in just addressing some of the core needs of 
developing and addressing the demands of adult life. I mean, it 
is just very, very critical at this point. So, again, 100 
percent transition, at least 120 days, is something that we are 
really pushing.
    Senator Landrieu. Two questions. What percentage of your 
population is male and what percentage is female?
    Mr. Ormond. Probably roughly about 90 percent male.
    Senator Landrieu. 90 percent male, 10 percent female?
    Mr. Ormond. 10 or less female.
    Senator Landrieu. Is there a priority for the closest beds 
to the District being given to custodial parents with small 
children? Have you at least thought about requesting to have 
preference given to custodial parents? Because the idea is to 
punish the offender or the criminal but not to punish the 
children. We would like to try to minimize the punishment to 
the innocent children, even if you are going to maximize 
punishment to the adults. Is there any such preference in our 
placement law that you are aware of?
    Mr. Ormond. I do not think there is a preference in the 
law. I think there was a lot of community concern and initially 
a lot of support around having particularly a prison for women 
within the geographical boundaries of D.C. because most of 
these women do have children, and trying to maintain those 
bonds in some system of reunification was very, very critical. 
But to my knowledge there is not a stated preference at this 
point.
    Senator Landrieu. So, we do not have a women's prison.
    Mr. Ormond. No, we do not.

                   PUBLIC DEFENDER SERVICE PRIORITIES

    Senator Landrieu. I just got a note that we have two back-
to-back votes. I have got a few minutes. I would like to go 
ahead and finish the questions for this panel and then take a 
break. I will go vote and we will start the second panel so we 
can stay on time.
    Let me just begin. Ms. Jones, if you could just repeat for 
us or express again some of the priorities that you see. If you 
could list one, two, or three in terms of the challenges that 
are before you in your budget that you have requested, what 
would be the number one or number two or number three item that 
you would really want us to leave this hearing with 
understanding about what you are trying to do or accomplish?
    Ms. Jones. I think that number one clearly for us is parole 
revocation. There are a growing number of people who are 
returning to the community, as you know, who are on parole. We 
see they are at a rate of about 40 per month, which is more 
than 1 or 2 parolees per day, coming through on a rearrest 
charge. Although we are trying very hard to represent them, we 
are also trying to provide social services assistance, and we 
are trying to provide community reentry services. A lot of 
times the law has changed. The world has changed in 15 years, 
and some of the transition and rearrest problems are a result 
of people really not being adept to handle to that. So, we are 
requesting some additional positions to really enable us to 
provide those kind of services.
    Often we find that you are disconnected with your family. 
You view the social workers and some of the people who are 
supervising you as the enemy, but you will listen to your 
lawyer who is trying to help you. So, we are hoping that we can 
expand the services in that area.
    The DNA initiative is our second biggest and the reason why 
that is important is we, in the last 3 or 4 months, have seen a 
marked increase in the number of DNA cases. There are different 
kinds of DNA. I am learning about mitochondrial DNA, whatever 
that is. But we have been hiring experts, and it gets very 
costly. And the learning curve is very steep. We have a 
forensic practice group at the Public Defender Service right 
now of about 12 lawyers who are learning about the science of 
DNA and population genetics and all of those areas. But we 
would like additional funding to really stay up to speed and 
allow us to train the CJA Bar so that they can remain up to 
speed in this area as well. The additional funding we are 
seeking in our budget is just adjustments to base.
    Senator Landrieu. I understand that this system is a result 
of two laws that were passed in 2001 requiring all persons 
convicted of felony offenses to submit a DNA sample. So, the 
database is growing and we are becoming more effective in our 
prosecutions because of that information.
    Ms. Jones. What we are seeing is a growing number of cases 
that are old cases and the prosecution is based either solely 
or largely on DNA evidence. So, there are not a lot of 
witnesses to cross examine, and you really have to know the 
science of DNA to effectively represent someone as a result of 
that database.
    And then there is the Innocence Protection Act that has 
been passed in the District, which will also result in people 
who have been incarcerated seeking to have their conviction 
overturned because they are saying DNA was never performed and 
I was wrongfully convicted. The Public Defender Service will 
also get its share of those cases. Again, we would have to 
understand the science of DNA and hire experts to represent 
those people as well.
    Senator Landrieu. How do you compensate your public 
defenders? What is your means of compensating them? Are there 
salaries or per hour, or what is that system? Can you describe 
it?
    Ms. Jones. They are salaried on a GS pay scale. Although we 
are a District of Columbia agency, because we are federally 
funded, they are paid comparably with Federal defenders and the 
attorneys who work at the U.S. Attorney's Office, though not 
quite as high.
    Senator Landrieu. Did we not just have an adjustment or a 
request for an adjustment last year in that regard? The courts, 
not this. Okay.
    Can you just give me a rough estimate of what the starting 
salary is of a public defender?
    Ms. Jones. Yes. The starting salary is approximately 
$45,000, and the average salary for a public defender--people 
stay around 5 years--is around $55,000 to $60,000. I believe 
you were referring to the Criminal Justice Act. The court 
received funding. Those are the lawyers who handle mostly 
misdemeanor and CCAN cases, and they received an adjustment.
    Senator Landrieu. Let me ask the final question here about 
juveniles with special needs education and how that 
interrelates to what your role is. Can you comment for the 
record about some of the challenges there?
    Ms. Jones. We are finding increasingly, just as substance 
abuse remains a major factor for adults and linking them to 
criminality, a lot of times juveniles in the delinquency system 
come into the system with learning disabilities. They have been 
acting out in school. They got into a fight in school. They are 
not in the proper classroom. They are not receiving an 
accommodation for a learning disability, and it just sort of 
trickles over into other areas of their life and they find 
their way into the delinquency system.
    As a result of that, the Public Defender Service has a 
total of three special education advocates, and they work full-
time on nothing else other than finding appropriate educational 
placements for kids charged in the delinquency system.
    By and large what happens is somewhere in their school 
records, when the delinquency lawyer begins representing them, 
there is some evidence that this child has a learning 
disability either that has not been properly diagnosed ever or 
has been diagnosed by D.C. Public Schools, but nothing has ever 
happened. The advocate then goes in and negotiates with DCPS 
and says you have to do something to accommodate this child. We 
find the appropriate educational placement either within the 
system or at a private institution, and we seek to have DCPS 
place that child or we litigate with DCPS and say under the 
Individuals with Disabilities in Education Act you have to 
place the child.
    Senator Landrieu. I just want you to know there is great 
concern among Members on both sides of the aisle about the, in 
our view, staggering costs of special education in the District 
and costs associated with the litigation, with the placement of 
children in some of these contract schools or a 
disproportionate number of special ed children being placed in 
these schools. This is not the proper time for those kinds of 
questions, but it is going to be a very important issue that we 
stay focused on until we can solve the problem for the District 
or try to help solve the problem for the District, as well as 
deal with this whole issue nationally because the costs are 
outstripping the resources. There has got to be some reform of 
the underlying law, as well as some reform of the advocacy and 
the placement of these children, the end result hopefully being 
that children get the services they need, but the taxpayers are 
not getting ripped off, if you will, by a system that is 
dysfunctional. Hopefully we can spend some time talking about 
that this year either with my committee or with the other 
committee of jurisdiction in the Senate.
    Now, I am going to have to vote. Let me just check and make 
sure there is not anything.
    Thank you all. This panel has been very good. We will take 
about a 10-minute break.
STATEMENT OF HON. ANNICE M. WAGNER, CHAIR, JOINT 
            COMMITTEE ON JUDICIAL ADMINISTRATION IN THE 
            DISTRICT OF COLUMBIA
ACCOMPANIED BY ANNE WICKS, EXECUTIVE OFFICER, D.C. COURTS, DISTRICT OF 
            COLUMBIA

    Senator Landrieu. Our committee will resume.
    We are now pleased to have our second panel of witnesses 
representing the D.C. courts. Judges, it is good to see you. We 
have Chief Judge Rufus King and Chief Judge Annice Wagner with 
us today.
    As a relatively new quasi-Federal entity, the courts in my 
opinion have done a very good job during my tenure in 
communicating with this committee on your funding needs and 
keeping us informed of your progress. We are indeed grateful 
and pleased.
    Additionally, I appreciate the tremendous effort that Judge 
Satterfield, the new Family Court Chief, and others have 
contributed to the formation of the Family Court.
    Just briefly and for the record, as everyone here is 
familiar, over the last 2 years a surge of public pressure 
highlighted the faces of abuse and neglect in the District, 
faces of children who were victims of a system so disjointed 
and ineffective that they did not live to see the day when 
these major reforms are being implemented.
    I commend the courts, the city, the child welfare advocates 
in the District and in Congress for collaborating on the 
creation of a Family Court.
    I and I know my ranking member, who has spent a great deal 
of time and energy and has expressed such passion his 
commitment to this, are committed to working hand in hand with 
the courts and the city to ensure that every child currently in 
the system benefits from this reform and does not suffer the 
fate of too many children that we have come to know in a very 
personal way.
    Every child should be moving toward permanency as quickly 
and as effectively as possible. And let me be very clear. Every 
child that is removed from their home for whatever situation 
either should be moving back to be reunited with a family that 
has been treated and the opportunity to be reinstated and to be 
healthy and safe or they should be moving as quickly as 
possible to an adoptive home and only temporarily in foster 
care which supposedly is the way it was to operate.
    This committee is committed to addressing resources and 
management issues of the Family Court because the judges are in 
a position, the most critical position, of making sure that our 
child welfare system actually works, that the laws are upheld, 
the time lines are met, and that justice is dispensed.
    100 percent of the D.C. Superior Court's operating budget 
is paid for with Federal funds. Therefore, Congress has a 
unique obligation to ensure that the day-to-day operations of 
this court reflect the best practices in each and every area of 
the law under its jurisdiction. In fiscal year 2002, the Senate 
bill made it a priority to provide sufficient resources to 
implement the Family Court Act. If I am not mistaken, it was 
approximately $23 million.
    The Appropriations Committee, as I said, included $23 
million. We included a provision requiring review of the 
court's transition plan specifically to ensure effective 
implementation and accountability.
    It was this committee's intent that if necessary, the court 
could use its operating expenses account to comply with the 
Family Court Act and reimburse the operating fund with Family 
Court funds, once they became available. Considering explicit 
report language and remarks made on the Senate floor, I am 
disturbed that the General Accounting Office has determined 
that the courts may not reimburse operating expenses with 
Family Court funds. I will work with the court and interested 
Members to resolve this issue as soon as possible. We do not 
want to have a situation where other court functions are 
deprived or where Family Court funds are left unexpended.
    Additionally, I am looking forward to hearing about the 
court's new initiatives. Particularly I want to take time to 
commend the court for expanding the strong Domestic Violence 
Unit through a satellite intake center in Anacostia. It is 
critical to take services to the communities in which they are 
needed, particularly in dealing with vulnerable populations who 
are reluctant to come forward. And as we know, domestic 
violence hides its ugly face in every part of this community, 
and so we need to reach out to every neighborhood and every 
socioeconomic income level.
    I would also like for the witnesses to present the plans 
for renovating the historic Old Courthouse and how this fits in 
with other capital improvements.
    Again, thank you for being here. We will try to proceed for 
the next 40 minutes because we lost some time at the vote. But 
hopefully, you can keep your opening statements to about 5 or 
10 minutes and then I will have a few questions. Chief, would 
you like to go first?
    Chief Judge Wagner. Good afternoon, Madam Chairwoman, and 
members of the committee. Thank you for this opportunity to 
come and address you in person about our fiscal year 2003 
budget request. I am Annice Wagner and I am appearing here in 
my capacity today as Chair of the Joint Committee on Judicial 
Administration, which is responsible for submitting the budget. 
The courts, as you know, have submitted a detailed budget 
request with justifications, so my remarks this afternoon will 
highlight only the most critical priorities.
    As you know, the District of Columbia courts comprise the 
judicial branch of the D.C. government. Through our mission and 
strategic goals, we strive to provide fair, swift, and 
efficient and accessible justice. We try to enhance public 
safety and ensure public trust and confidence in the justice 
system, which is needed more and more today.
    To support our mission and strategic goals in fiscal year 
2003, the courts have requested $131 million for court 
operations, $53.3 million for capital improvements, and $45 
million for defender services. In many ways, last year marked a 
turning point for the courts. Our nonjudicial employee turnover 
rate was cut in half when we achieved pay parity with our 
counterparts in the Federal agencies. We are very grateful to 
this subcommittee for its strong support in this area.
    During the year, the courts continued to build on 
enhancements that demonstrate our commitment to sound 
management and fiscal responsibility. We are proud to have 
received an unqualified opinion from KPMG, an independent 
accounting firm, on our financial audit for the second year in 
a row.
    We also successfully implemented a new personnel 
information system that provides immediate access to detailed 
information for employees and job applicants, enabling us to 
better manage our human resources.
    We initiated the courts' first comprehensive master plan 
study, this coupled with an assessment of the condition of our 
physical plants. This is critical to accommodating the Family 
Court within the court complex.
    We also completed an information technology strategic plan 
and initiated an independent study of staffing levels court-
wide to assist us in deploying our limited resources most 
effectively and efficiently.
    Each of these efforts supports the courts' comprehensive, 
long-term strategic planning and re-engineering efforts which 
are currently underway, which will enable us to determine 
priorities and focus our efforts and resources on measurable 
results, which we will share with you and the public.
    Last year, the courts completed roof repairs to help 
prevent further deterioration to the Old Courthouse at 451 
Indiana Avenue. Key to the efficient use of court facilities is 
restoration of habitability to this historic structure for use 
by the Court of Appeals. The Old Courthouse is now ready to 
begin restoration and planning work is already underway. We are 
pleased to be involved in such an exciting and important 
project, which will not only help meet our critical space 
demands, but also preserve for the city and for the Nation a 
national treasure. We appreciate the subcommittee's support for 
this project.
    As you know, the National Law Enforcement Museum is planned 
for a portion of the site. There was legislation that made this 
possible. These two projects must proceed in tandem and in a 
coordinated manner to ensure the best results possible.
    In addition, the U.S. Court of Appeals for the Armed Forces 
is participating in this effort, as part of the site will be 
used to enhance their security, parking and service access.
    The courts' fiscal year 2003 request invests in the Family 
Court, court employees, information technology, infrastructure, 
financial management, trial records, and defender services.
    The largest initiative underway at the courts is the 
implementation of the District of Columbia Family Court Act of 
2001. This initiative will change the way the court serves 
families and children in the District. As the Family Court is 
part of the Superior Court, Chief Judge King will address this 
initiative in his testimony.
    The President has shown strong support for the courts' 
fiscal year 2003 budgetary needs. I would like to mention, 
however, three critical areas not addressed in the President's 
recommended budget for 2003.
    First, the court faces critical staffing needs. The 
following positions must be filled to support quality judicial 
administration in the District: courtroom and support staff to 
serve the domestic violence victims and coordinate police 
officer appearances in criminal cases; clerks and accountants 
to enhance financial management, including the Criminal Justice 
Act voucher issuance function the courts recently assumed from 
the Public Defender Services; facilities staff to support our 
buildings and to manage the Old Courthouse restoration project; 
information technology staff required by expanded court-wide 
use of technology; and staff to continue a successful juvenile 
probation program previously funded through grants.
    Another priority is appropriation language changes, 
including limited authority to transfer funds among the courts' 
appropriation accounts in order to meet changing needs and 
circumstances. In addition, the courts would like to provide 
employees the new Federal long-term care insurance program. We 
do not believe that either of these language changes require 
additional funds.
    Finally, the courts have requested an increase in the 
defender services account to provide appropriated funding to 
increase the hourly rate paid court-appointed attorneys to $90 
per hour. The services of these attorneys who represent 
indigent defendants or children and families before the court 
are essential to the fair administration of justice.
    In conclusion, the District of Columbia courts have long 
enjoyed a national reputation for excellence. Adequate funding 
for the courts' highest priorities in fiscal year 2003 is 
critical to our success both in the next fiscal year and as we 
plan our strategy to continue to provide high quality service 
to the community.

                           prepared statement

    Madam Chairwoman and members of the committee, thank you 
for the opportunity again to discuss the courts' budget 
request. Chief Judge King and Ms. Wicks, our executive officer, 
are also here, and we would be pleased to address any questions 
when you are ready.
    Senator Landrieu. Thank you very much, Judge.
    [The statement follows:]
                 Prepared Statement of Annice M. Wagner
    Madam Chairwoman, Senator DeWine, thank you for this opportunity to 
discuss the District of Columbia Courts' budget request for fiscal year 
2003.
    I am Annice Wagner, and I am appearing in my capacity as the Chair 
of the Joint Committee on Judicial Administration in the District of 
Columbia. The Courts have submitted a detailed request for the 
budgetary resources needed in fiscal year 2003. My remarks this 
afternoon will summarize the request and highlight the Courts' most 
critical priorities.
                              introduction
    Comprised of the Court of Appeals, the Superior Court, and the 
Court System, the District of Columbia Courts constitute the Judicial 
Branch of the District of Columbia government. The Joint Committee on 
Judicial Administration is the policy-making body for the Courts. The 
mission of the District of Columbia Courts is to administer justice 
fairly, promptly, and effectively. Through our strategic goals, the 
Courts strive to provide fair, swift, and accessible justice; enhance 
public safety; and ensure public trust and confidence in the justice 
system. To support our mission and strategic goals in fiscal year 2003, 
the D.C. Courts request $181,416,000 for court operations. Of this 
amount, $8,640,000 is requested for the Court of Appeals; $81,530,000 
is requested for the Superior Court; $40,894,000 is requested for the 
Court System; and $50,352,000 for capital improvements for courthouse 
facilities. In addition, the Courts request $45,014,000 for the 
Defender Services account.
    The largest initiative underway in the D.C. Courts is the 
implementation the District of Columbia Family Court Act of 2001, 
Public Law 107-114. This initiative will change the way the Courts 
serve families and children in the District. As the Family Court is 
part of the Superior Court, Chief Judge King will address this 
initiative in detail in his testimony.
    In many ways, last year marked a turning point for the Courts. In 
particular, the Courts' ability to recruit and, particularly, retain 
highly qualified staff was significantly enhanced as the fiscal year 
2001 appropriation permitted the Courts' non-judicial employees to 
achieve pay parity with their counterparts in federal agencies. The 
Courts' non-judicial turnover rate has been cut in half, dropping from 
10.9 percent in fiscal year 2000 to 5.2 percent in fiscal year 2001. We 
are very grateful to the Subcommittee for its strong support which 
contributed to these positive results.
    The Courts are also proud of their improved management of the 
Defender Services Account and the significant reduction in processing 
time for vouchers from attorneys representing the indigent. To gather 
additional data to estimate more accurately future obligations, the 
Courts assumed responsibility for voucher issuance from the Public 
Defender Service and implemented an automated system to track 
obligations. We are now able to track vouchers from issuance to 
payment. Reengineering the processing of submitted vouchers has reduced 
the time from receipt to payment from 62 to 29 days, a 53 percent drop.
   critical budget priorities above the president's fiscal year 2003 
                                 budget
    To permit the Courts to continue to meet the needs of the 
community, adequate resources are essential. The Courts have identified 
three critical areas which the President's recommended budget for 
fiscal year 2003 does not address.
    Court Staffing.--To support quality judicial administration in the 
District of Columbia, mission-critical staffing needs must be addressed 
in fiscal year 2003. First, staff for courtroom operations and support 
is critically needed to serve Domestic Violence victims and to support 
the police overtime reduction initiative in the Criminal Division. 
Second, our efforts to enhance financial management in the Budget and 
Finance Division, including assumption of the CJA voucher issuance 
function from the Public Defender Service, requires additional clerks 
and accountants. Third, to provide critical engineering support to the 
Courts' infrastructure and to manage the multi-million dollar Old 
Courthouse restoration project, which will address some of our space 
needs, additional Administrative Division staff persons are essential. 
Fourth, expanded courtwide use of technology demands additional IT 
support staff. Finally, grant funding has expired for a successful 
program to monitor high-risk juveniles on probation, and Social 
Services staff members are critically needed to continue the program.
    Appropriation Language Changes.--The Courts are requesting limited 
authority to transfer funds among their accounts to enhance flexibility 
to meet changing needs and circumstances. In addition, the Courts want 
to expand employee benefits to include the new federal long term care 
insurance program. Neither language change requires additional funds.
    Defender Services.--The Courts' budget request includes an increase 
of $10.7 million in the Defender Services account to increase the 
hourly rate paid court-appointed attorneys to $90. These attorneys, who 
represent indigent defendants or children and families before the 
court, are essential to the fair administration of justice in the 
District.
                 performance measurement at the courts
    As part of our strategic goal of providing fair, swift, and 
accessible justice, the Courts monitor performance in efficiently 
processing cases in terms of (1) the case clearance rate, or the ratio 
of cases disposed to cases filed in a given year (a standard efficiency 
measure is 100 percent, meaning one case disposed for each case filed); 
and (2) the reduction in cases pending at the end of the year.
  --In fiscal year 2000, the Courts' caseload management practices 
        resulted in a case clearance rate of 107 percent in the Court 
        of Appeals and 112 percent in the Superior Court.
  --In addition, the Court of Appeals reduced its pending cases by 4 
        percent and the Superior Court reduced the number of cases 
        waiting to be resolved by 8 percent in fiscal year 2000.
    In fiscal year 2000, the Court of Appeals saw 1,739 new cases 
filed. Including pending cases and reinstatements, 4,407 cases were on 
appeal in fiscal year 2000. During the same time, in the Superior 
Court, 144,046 new cases were filed. Including reinstated cases and 
pending cases, 209,329 were available for disposition in fiscal year 
2000.
    The Courts look forward to enhancing our performance measurement 
system by moving toward implementation of the strategic planning and 
related strategies of the Government Performance and Results Act in the 
coming years.
                           strategic planning
    The Courts have initiated a comprehensive long-term strategic 
planning and reengineering process that will enable us to determine 
priorities and focus our efforts and resources on measurable results. 
Early in 2001, the Courts held two management training conferences 
which were attended by a broad group of Court leaders, including both 
judges and top administrators. Facilitated by experts in court 
management from around the country, the training sessions provided 
conferees with an opportunity to explore the key issues and challenges 
which face the Courts and to discuss goals and desired outcomes in 
critical strategic areas.
    To continue the work initiated at the management training 
conferences, the Courts have appointed a full-time strategic planning 
director and established the Strategic Planning Leadership Council. 
Together, they will facilitate the development of the Courts' long-
range strategic plan and continuously monitor the Courts' progress in 
fulfilling their mission and achieving key strategic goals, as well as 
ensure that the Courts' strategic agenda is dynamic and responsive to 
the changing needs of the community.
                       sound management practices
    As the Courts approach the fifth year of direct federal funding in 
fiscal year 2003, we look forward to fulfilling our strategic goals by 
building on past reforms that demonstrated our commitment to sound 
management and fiscal responsibility. We are proud of the Courts' 
recent achievements that include the following:
    Unqualified Audit Opinion.--Received an ``unqualified'' opinion for 
the second year in a row in our annual independent financial audit, 
conducted by KPMG;
    Staffing Study.--Initiated an independent study of staffing levels 
by Booz-Allen and Hamilton to provide data to facilitate the most 
effective deployment of limited staffing and address GAO's 
recommendation for a more rigorous methodology;
    Human Resources Data.--Implemented a Human Resources Information 
System to provide ready access to detailed personnel information;
    Facilities Evaluation.--Initiated a GSA Building Evaluation Report 
to provide a comprehensive assessment of the Courts' physical plant and 
to prioritize capital improvement needs;
    IT Strategic Plan.--Initiated an Information Technology strategic 
plan to focus the resources of the IT Division and ensure that IT 
efforts conform to the larger vision and mission of the Courts; and
    Master Plan Study.--Initiated the Courts' first comprehensive 
master space plan study to provide a blueprint for Court capital 
projects and space utilization for the next ten years and to identify 
the optimal location for the Family Court.
                             old courthouse
    Key to efficient use of the Courts' facilities is restoration of 
habitability to the Old Courthouse at 451 Indiana Avenue for use by the 
District of Columbia Court of Appeals. The Courts have requested, and 
the President recommended, funds to continue this critical project.
    Last year, the Courts took a positive step toward restoring 
habitability to the Old Courthouse. The fiscal year 2001 appropriation 
provided funding for roof repairs to help prevent further deterioration 
of this historic structure. This work was completed in December 2001, 
resulting in a watertight roof that protects the neoclassical interior 
from the elements. In addition, measures were taken to secure the 
building and stabilize the interior.
    The Old Courthouse now stands ready to begin restoration. 
Constructed in 1820, the Old Courthouse is the fourth oldest government 
building in the District of Columbia. Its architectural and historical 
significance led to its listing in the National Register of Historic 
Places and its designation as an Official Project of Save America's 
Treasures. A GSA study of the facility found that, although the 
structure is sound, all major systems need to be replaced, and 
hazardous materials must be removed.
                      the courts and the community
    As part of the District of Columbia's criminal justice system, the 
Courts participate in collaborative projects with other agencies, and 
provide many services to benefit the community at large. Some examples 
include the following:
  --Active participation in the Criminal Justice Coordinating Council 
        (CJCC) which seeks to improve the criminal justice system in 
        the District. The Superior Court is currently utilizing the 
        results of a CJCC-sponsored study in its effort to assist the 
        District in reducing police overtime costs, thereby better 
        using resources throughout the criminal justice system.
  --The District's award-winning Domestic Violence Project, spearheaded 
        by the Superior Court, promotes victim safety and integrates 
        the adjudication of both criminal and civil aspects of domestic 
        violence cases. This project provides one central location for 
        a victim to meet with representatives of various agencies, and 
        permits one specially trained judge to address both civil and 
        criminal aspects of a case.
  --The Courts recently implemented a Community Court initiative to 
        process more expeditiously ``quality of life'' misdemeanor 
        cases while creating a system of more meaningful sanctions. The 
        initiative uses diversion, community service, and treatment 
        programs to create opportunities for same-day disposition of 
        these minor matters, thereby reducing the criminal justice 
        resources, such as police officer, attorney (both prosecutor 
        and defender services), and Court time, needed to process the 
        cases. By addressing the underlying social issues driving many 
        of these cases (mental illness, substance abuse, homelessness, 
        etc.) the Court also seeks to reduce recidivism and improve the 
        quality of life in the District.
  --In cooperation with the Foundation of the Bar Association of the 
        District of Columbia, the Courts encourage District high school 
        students to reflect on the law with an annual essay contest to 
        celebrate National Law Day on May 1. Last year, Ms. Lyndsey 
        Williams, of the U.S. Senate Page School, won First Place for 
        her essay on the juvenile justice system.
  --In cooperation with the D.C. Bar Association, the Courts 
        participate in the annual D.C. Youth Law Fair in the spring. 
        Hundreds of D.C. school students tour court facilities, 
        participate in mock trials, and discuss legal issues of 
        interest to youth, for example the effect of pop culture on 
        teen violence or teen rights and responsibilities in the 
        workplace.
               dc courts' fiscal year 2003 budget request
    The fiscal year 2003 budget request incorporates the Courts' 
strategic goals and strategies, and includes performance projections 
for all core functions. To build on past accomplishments and to support 
the Courts' commitment to serve the public in the District of Columbia, 
additional resources are essential. The Courts' three strategic goals, 
and the additional operating budget resources requested to help attain 
them in fiscal year 2003, are as follows:
  --Provide fair, swift, and accessible justice by enhancing efficient 
        case-processing capability and ensuring that the public can 
        access Court facilities (+$2.6 million and 13 FTE);
  --Enhance public safety for metropolitan area residents and visitors 
        (+$7.3 million and 29 FTE); and
  --Ensure public trust and confidence in the justice system through 
        enhanced management practices and improved staff training and 
        accountability (+$3.8 million and 11 FTE).
    To achieve these strategic goals, the Courts articulated three 
budget strategies for fiscal year 2003. The budget strategies would 
promote the Courts' strategic goals by:
  --Building capacity to provide Court services (+$10.0 million and 51 
        FTE);
  --Investing in information technology (+$2.7 million and 2 FTE); and
  --Enhancing the skills and accountability of Court employees (+$1.0 
        million).
    The District of Columbia Courts are committed to carrying out the 
mission of administering justice in a fair, accessible, and cost-
efficient manner. The additional resources in the fiscal year 2003 
budget request will ensure that the Courts continue to perform this 
essential mission with quality, professionalism, efficiency, and fiscal 
integrity.
    The demands on the Courts require investments in staffing, 
technology, infrastructure and courtroom operations. Without targeted 
investments in Court staffing, the quality of justice will be 
compromised; without remediation, the Courts' information technology 
will fail; and without additional capital resources, the Courts' 
buildings will continue to deteriorate. The fiscal year 2003 request 
addresses these requirements by:
    Investing in Family Court Reforms.--Growing caseloads and new 
mandates applicable to the Courts through the passage of the District 
of Columbia Family Court Act of 2001 have made it incumbent on the 
Superior Court to change the way it manages, supervises, and resolves 
cases involving children and families in the District of Columbia. To 
meet these mandates, the fiscal year 2003 request includes $25,166,000 
for the Family Court, of which an increase of $6,782,000 and 24 FTE 
will be dedicated to operating costs. The remaining $17,587,000 is 
requested for capital improvements.
    Investing in Court Employees.--Notwithstanding the Family Court 
Initiative, the fiscal year 2003 request includes $1,589,000 in the 
operating budget for an additional 29 FTEs to strengthen the Courts' 
capacity to achieve their strategic goals. The request also includes 
$407,000 for human resources initiatives to establish performance 
awards and Court Senior Executive programs modeled on Federal programs. 
To provide specialized and skill-based training for both judicial and 
non-judicial personnel, the fiscal year 2003 budget request includes 
$267,000. These investments in the Courts' human resources are 
essential to improving the capacity to serve the citizens of the 
District of Columbia and the many visitors to our nation's capital.
    Investing in Information Technology (IT).--To achieve the Courts' 
goal of a case management system that provides accurate, reliable case 
data across every operating area and making available appropriate data 
to the judiciary, the District's criminal justice community and the 
public, the Courts request $2,663,000 and 2 FTE for information 
technology in fiscal year 2003. In addition, the Courts' capital budget 
request includes an additional $4,240,000 to support the implementation 
of the Integrated Justice Information System (IJIS), which the Court 
launched in fiscal year 1999.
    Investing in Infrastructure.--The fiscal year 2003 capital request 
reflects several years of underfunding and deferred maintenance of the 
Courts' aging facilities. In fiscal year 2001, for example, the Courts' 
capital appropriation of $3.3 million was 58 percent below the fiscal 
year 2000 level and 82 percent below the Courts' request. To ensure the 
health, safety, and quality of courthouse buildings, particularly 
important as we relocate functions to accommodate the Family Court, the 
fiscal year 2003 request includes $42,500,000 for health and safety 
projects and for maintaining the Court infrastructure. Included in the 
total is $12,100,000 to continue restoration of the Old Courthouse at 
451 Indiana Avenue for readaptive use by the District of Columbia Court 
of Appeals, thereby freeing space in the main courthouse to meet the 
Superior Court's critical space needs, which are exacerbated by the 
increased staffing for the Family Court. Built from 1820 through 1881, 
the Old Courthouse, which has been designated as a project of Save 
America's Treasures, is deteriorating rapidly. The structure currently 
does not meet District of Columbia health and building codes and is 
uninhabitable. Restoring this historic landmark to meet the critical 
space needs of the Courts and preserving it for future generations are 
critical priorities for the District of Columbia Courts.
    Strengthening Financial Management.--To adopt recommendations by 
the Courts' independent financial auditor, the fiscal year 2003 request 
includes $900,000 for implementation of an integrated financial 
management system and to provide Court staff training in accounting, 
financial management, and budgeting. To strengthen the fiscal integrity 
of the Courts through the preparation of real-time financial 
statements, 3 additional FTEs (accountants) are requested. These 
positions would support the implementation of the general ledger and 
related components of the financial management system.
    Investing to Ensure Accurate and Complete Trial Records.--The 
Courts' fiscal year 2003 request includes $670,000 to enhance our 
ability to ensure that accurate and complete records are generated from 
court proceedings. The request includes $390,000 for courtroom audio 
work; $260,000 for contractual court reporting services; and $20,000 
for hardware maintenance.
    Strengthening Defender Services.--In fiscal year 2000 and fiscal 
year 2001, the Courts devoted particular attention to improving the 
financial management and reforming the administration of the Defender 
Services programs. For example, the Courts issued Administrative Orders 
to ensure that Criminal Justice Act (CJA) reimbursement claims are 
submitted on a timely basis, are accompanied by adequate documentation 
of eligibility for indigent clients, and that highly qualified 
attorneys participate in the program.\1\ Because the Courts' accounting 
system contractor, GSA, is unable to record Defender Services 
obligations as they are incurred, the Courts implemented an in-house 
automated system, which was fully operational in October 2000, to track 
obligations from the Courts' receipt of a voucher to its payment. A 
Defender Services customer service initiative allows attorneys access 
to electronic systems to check the status of vouchers tendered to the 
Court, provides dedicated staff to answer attorney inquiries on the 
status of payments, and solicits customer feedback through a 
satisfaction survey instrument. The fiscal year 2003 request builds on 
these efforts. Through advance funding for the Defender Services 
account, the Courts would ensure funding stability while gaining 
experience in tracking obligations in the new automated system, 
analyzing data on attorney appointments and voucher submission 
patterns, and projecting resource requirements. To assist the Courts in 
enhancing the financial management of the Defender Services program, 
the Courts have assumed responsibility for issuing vouchers from the 
Public Defender Service (PDS). Consolidation of responsibility for all 
financial management aspects of the Defender Services programs will 
enable the Courts to more accurately estimate program obligations 
throughout the voucher processing cycle. To this end, a request for 3 
FTE is contained in this budget submission under the Court System 
section.
---------------------------------------------------------------------------
    \1\ It should be noted that court-appointed attorneys represent 
nearly 90 percent of indigent criminal defendants in the District (1999 
figure). The balance of indigent defendants is represented pursuant to 
D.C. Code Sec. 1-2702 by the Public Defender Service.
---------------------------------------------------------------------------
    In the Defender Services account, the fiscal year 2003 budget 
request represents a net increase of $10,703,000 over the fiscal year 
2002 level of $34,311,000. The requested increase represents 
appropriated funding for the hourly rate increase granted in fiscal 
year 2002 for attorneys and investigators who provide legal and expert 
services to the Defender Services programs. The first rate increase for 
attorneys since 1993, to $65/hour, was funded in fiscal year 2002 
through unobligated balances in the Defender Services account. 
Appropriated funding is essential to ensure the fiscal integrity of the 
Defender Services account once the unobligated balance is exhausted. In 
addition, the Courts request an increase in the hourly compensation 
rates for attorneys from $65 to $90, to keep pace with the rate paid 
court-appointed attorneys at the Federal courthouse across the street 
from the D.C. Courts. A decline in the number of CJA cases in recent 
years is expected to offset anticipated cost increases in the CCAN and 
Guardianship programs. Accordingly, except for the subject rate 
increase, the fiscal year 2003 funding request for the base program 
remains at the fiscal year 2002 level.
                    appropriations language changes
    The fiscal year 2003 budget requests limited authority to transfer 
funds among the Courts' four appropriations to provide additional 
flexibility to meet the changing needs of the Courts and the community. 
Although more limited, this language is similar to the provision in the 
D.C. Appropriations Act, 2002, Sec. 109(b) authorizing the District 
government to transfer local funds.
    In addition, the request includes language to include D.C. Courts' 
employees in the new federal long term care insurance program. This 
provision would enhance the Courts' competitiveness in the labor market 
by providing an additional benefit at virtually no cost to the Courts, 
as there is no employer share to the premium.
    The fiscal year 2003 budget also requests appropriations language 
that would provide advance funding for the Defender Services account. 
In 14 of the past 22 years, the CJA program has experienced a budgetary 
shortfall. Advance funding for the Defender Services account would 
eliminate the need to augment the appropriation with supplemental 
appropriations or with funds from the Courts' operating budget in the 
event of a shortfall. In addition, as an alternative approach to 
address the need to augment the Defender Services account, the Courts 
are requesting that the Defender Services account be moved from the 
discretionary to mandatory side of the federal budget. We believe that 
mandatory treatment of Defender Services is consistent with the 
uncontrollable nature of obligations in this program and the GAO's 
determination that these are mandatory expenses.
                             september 11th
    Before I conclude my remarks I would like to mention one more event 
in the past year. Like many of our fellow Americans across the country, 
the Courts reacted with shock, horror and resolve to the terrorist 
attacks of September 11, 2001.
    As at many other agencies, the attacks provided the impetus for a 
review of security at the Courts. Some measures to enhance security 
were implemented immediately, including, for example, 100 percent 
security checks at pedestrian entrances, installation of roll-up 
barriers at garage entrances, and increased screening of mail. 
Additional measures were planned. The Joint Committee will continue to 
take the steps necessary to ensure that court facilities are both 
secure and accessible to the community that the Courts serve.
                               conclusion
    Madam Chairwoman, Senators, the District of Columbia Courts have 
long enjoyed a national reputation for excellence. We are proud of the 
Courts' record of administering justice in a fair, accessible, and 
cost-efficient manner. We believe we are taking the administrative 
steps, as highlighted above, needed to enhance our operations and 
ensure the fair administration of justice in the District of Columbia. 
Adequate funding for the Courts' highest priorities in fiscal year 2003 
is critical to our success, both in the next fiscal year and as we plan 
our strategy to continue to provide high quality service to the 
community in the future. Madam Chairwoman, we look forward to working 
with you throughout the appropriations process, and thank you for the 
opportunity to discuss the Courts' budget request.
    Chief Judge King, Anne Wicks, the Court's Executive Officer, and I 
would be pleased to address any questions.
STATEMENT OF HON. RUFUS KING III, CHIEF JUDGE, SUPERIOR 
            COURT, DISTRICT OF COLUMBIA
    Senator Landrieu. Chief.
    Chief Judge King. Thank you, Madam Chairwoman. I am Rufus 
King III and I am appearing in my capacity as Chief Judge of 
the Superior Court of the District of Columbia. I want to thank 
you for the opportunity to speak to you today on our fiscal 
year 2003 budget and particularly on the Family Court 
initiative. Chief Judge Wagner, Chair of the Joint Committee on 
Judicial Administration, has provided you an overview on the 
budget.
    My written testimony addressed some of the accomplishments 
of the Superior Court over the past year, and so I will only 
address the single issue. I would like to mention the 
partnership initiative by the court working with Women 
Empowered Against Violence, the Corporation Counsel, and the 
D.C. Coalition Against Domestic Violence to open an intake 
center in Anacostia, which is where nearly 65 percent of those 
who seek the services of the Domestic Vioence Unit reside. We 
hope that this will result in substantially easier and more 
effective service to those in this vulnerable population. We 
are also going to be working with our technology staff to take 
advantage of video-conferencing and electronic filing so that 
the work that goes on at that center can more easily and 
effectively be integrated with the work that will go on at the 
main courthouse.
    As you know, the President signed the Family Court Act of 
2001 into law on January 8, 2002 with the support of the court, 
the bar, and most of the stakeholders in the child advocacy 
community, and after much work by this subcommittee. While all 
of us involved in the process had some differences on some 
specific provisions of the bill as it went through the 
legislative process, we shared a goal of improving the 
provision of services to the abused and neglected children of 
the District of Columbia. The bill is a major step toward that 
goal.
    Now that the bill is law, the debate is over and the court 
is committed to implementing the act as effectively and 
expeditiously as possible. The implementation plan under the 
act is due to Congress on April 8, 2002 and it will be 
submitted on time.
    In addition, we have already made offers to five attorneys 
to serve as magistrate judges, as specified in the act, and 
they will initially handle those abuse and neglect cases that 
have been pending for more than 2 years. I am pleased to say 
that we met the statutory guideline for hiring them and have 
already renovated space for their offices and have begun the 
process of acquiring needed equipment and hiring support staff.
    Of course, the full implementation of the Family Court Act 
will take much more time, effort, funding, and space. But I 
leave that to the budget justification which has been provided 
and which spells out in more detail the budget needs for the 
Family Court.
    For today, I would want to raise one issue, and it has 
been, I note with some sense of reassurance, addressed by you, 
Madam Chairwoman, and that is the concern over the funding 
provided to the court by the appropriations act. The funding, 
as it now is provided, is not available to us until 30 
legislative days after a 30-day period of review by the GAO. 
This means that funding will not be available until late June, 
as best we can estimate.
    We have already committed nearly $1 million in costs for 
hiring and making space for the five new magistrate judges. To 
commence design and construction of building renovations for 
the full Family Court, GSA says that it needs $7 million 
immediately. We do not have sufficient funding available in our 
capital account to cover this expense, but we need to obligate 
the funds to GSA immediately to keep the architectural and 
construction work on schedule so that we can meet the act's 18-
month deadline for completion of the transition. It is an 
urgent, critical need that the court be able to access already 
appropriated funds in order to cover the Family Court costs and 
be allowed to reimburse those accounts from the Family Court 
appropriation, once it becomes available.
    So far, we have expended funds from the courts' operating 
and capital budgets for fiscal year 2002. These past 
expenditures will not be a problem if these Family Court 
expenses can subsequently be recovered from funds appropriated 
for the Family Court. However, GAO has informed us that this 
type of reimbursement is a transfer which is not allowed 
without statutory transfer authority. If this is not addressed 
immediately, this lack of authority will require the court to 
choose between seriously compromising vital court safety and 
infrastructure needs or having the Family Court building plan 
fall behind schedule, which could cause the court to fail to 
meet the legislative deadline, an outcome we are committed to 
avoiding if humanly possible.
    I should point out that we have had discussions with 
subcommittee staff on this issue and those discussions have 
been helpful and positive. I am also, of course, grateful for 
the expressions of support from you on this issue. And as well, 
I appreciate your support and the support of the subcommittee 
throughout in securing funding for the Family Court. So, at 
this point a legislative remedy is essential for the safe and 
secure operation of the Superior Court if we are remain on 
schedule in transitioning to the new Family Court.

                           prepared statement

    Madam Chairwoman, thank you for the opportunity to appear 
before you and to talk to you about the Superior Court's fiscal 
requirements. I appreciate your continuing interest and strong 
support for our efforts and the solid working relationship that 
we have built. And I would be pleased to answer any questions.
    [The statement follows:]
                 Prepared Statement of Rufus King, III
    Madam Chairwoman, Senator DeWine, members of the Subcommittee: I am 
Rufus G. King, III, and I am appearing in my capacity as Chief Judge of 
the Superior Court of the District of Columbia. I thank you for the 
opportunity to speak to you today. Chief Judge Wagner of the D.C. Court 
of Appeals, as chair of the Courts' Joint Committee on Judicial 
Administration, has provided an overview of our budget request and 
priorities. I wanted to address an issue that I thought might be of 
special concern to this subcommittee: the Family Court of the D.C. 
Superior Court.
    The Superior Court of the District of Columbia was established in 
its current configuration as a unified court by the District of 
Columbia Court Reform and Criminal Procedure Act of 1970, with five 
major divisions: Civil, Criminal, Probate, Tax and Family. The Family 
Court Act of 2001, sponsored by the chairwoman and ranking member of 
this Subcommittee, created the Family Court within the Superior Court. 
A report on the Court's transition plan for implementing that 
legislation is due on April 8, and we expect to meet that deadline with 
a comprehensive plan on how to implement the Act, which will integrate 
the principles outlined in the legislation throughout the Family Court.
    During the past year, the Superior Court has pursued a number of 
important initiatives. We have instituted a community court within our 
courthouse, to address so-called ``quality of life'' offenses, such as 
public drunkenness, panhandling, and the like. Previously, these cases 
were usually rescheduled for two or more court days before they were 
resolved. This wasted court time, police time and attorney time, with 
little benefit to the legal process. The new community court addresses 
the real issues: meaningful sanctions for the perpetrators, provision 
of needed services and redress of wrongs to the community. We have 
assigned teams of ``duty attorneys'' to represent these defendants, 
resulting in the bulk of these misdemeanor cases being heard and 
resolved on the first day in court. Sanctions are imposed--fines or 
community service--and services provided to those who need them--
substance abuse education and counseling, mental health referrals and 
homelessness assistance.
    The Domestic Violence Unit, which has received commendations 
nationally, is working with partners in the community to expand our 
intake center by opening a satellite center in Anacostia, nearer where 
a significant percentage of victims reside. Currently the center is 
seriously overcrowded. Establishing a second center will make it less 
burdensome for this vulnerable population to seek the services offered 
by the Court.
    The Court has worked to enhance its technological capacity. We are 
developing a system for paying fines and fees by credit card, which 
will expedite those processes and enhance their convenience, both for 
the Court and for the community. We have enhanced our information 
technology (IT) security in response to the increased level of threat 
since last September.
    While we pursued these and other efforts, our major priority has 
been enactment and now implementation of the Family Court Act of 2001.
    Madam Chairwoman, Senator DeWine, as you know, the President signed 
the Family Court Act of 2001 into law on January 8, 2002 with the 
support of the Court, the bar and most of the stakeholders in the child 
advocacy community. While all of us involved in the process had some 
differences on specific provisions of the bill as it went through the 
legislative process, we shared a goal of improving the provision of 
services to the abused and neglected children of the District and 
expediting permanency for them. The bill is a major step toward that 
goal. And now that the bill is law, the debate over provisions is over, 
and the Court is preparing to implement all of its provisions as 
effectively and expeditiously as possible. Judge Lee Satterfield, 
presiding judge of the Family Court and Judge Anita Josey-Herring, 
deputy presiding judge have devoted countless hours to developing the 
transition plan for the new Family Court in a manner that reflects 
congressional intent and best practices, and, most importantly, 
provides the best possible services and protections to abused and 
neglected children. I commend them for their hard work on this issue. 
The changes that the legislation made and that our plan will 
incorporate will make a marked difference in the lives of children and 
families in the District of Columbia.
    As the subcommittee well knows, the District saw a dramatic surge 
in abuse and neglect filings in the late 1980's and, while the most 
recent increases do not seem to be as significant, they have not yet 
leveled off. Each year, more than 1500 children are found to be 
neglected or abused by their parents. The Child and Family Services 
Agency is completing its transition out of receivership and is striving 
to strengthen its ability to deliver services to children and families.
    The Court is beginning the transition under which cases formerly 
distributed among all 59 Superior Court judges after trial will be 
transferred to the Family Court. In addition, all new abuse and neglect 
cases have been retained in the Family Court since enactment of the 
Family Court Act. The transition plan will address how to better ensure 
that related cases are heard by the same judge or magistrate judge. 
This will require enhancing clerks' offices for those branches of the 
Family Court and developing the Family Court's IT capacity. It will 
require additional judges and magistrate judges to handle the 
significantly increased caseload in the Family Court. Additional 
judicial officers require additional administrative assistants, law 
clerks, courtroom clerks and other related personnel. Space needs to be 
constructed to house the new courtrooms, hearing rooms, chambers and 
support services to enable the Family Court to function optimally. Cost 
estimates for the construction to meet the long-term needs of the 
Family Court are due from GSA this month. We are working directly with 
the architects and will include as much information in the transition 
plan as is available from them.
    A serious concern to us is the need to spend funds in order to 
comply with the Act prior to their becoming available under applicable 
appropriations law. The District of Columbia Appropriations Act, 2002 
provides that Family Court appropriations will not be available until 
after a 30 day review by the GAO and a subsequent review of 30 
legislative days by Congress. We estimate this will be mid or late 
June. In the meantime, we have extended offers to five attorneys to 
serve as magistrate judges; we have constructed office space for them 
(within existing Court space); and we have obtained the necessary 
furnishings and equipment. We have also reconfigured hearing rooms, 
added space for support staff and will soon hire those staff. Of even 
greater concern, we estimate that approximately $5 million will be 
needed to keep the architectural and construction work on schedule so 
that we can meet the Act's 18 month deadline for completion of the 
transition. So far we have expended funds from the Courts' operating 
and capital budgets for fiscal year 2002. This will not be a problem if 
these Family Court expenses can be recovered from funds appropriated 
for the Family Court. However, the GAO has informed us that this type 
of reimbursement is a transfer, which is not allowed without statutory 
transfer authority. Unaddressed, the lack of this authority has the 
potential of requiring the Court to choose between compromising other 
court operations by using funds intended for them to cover costs of the 
Family Court and delaying in our commitment to construction contracts, 
which must be fully funded at signing.
    This subcommittee has been very generous in securing sufficient 
funding for the Family Court effort. It is hoped that in timing as well 
as in amount the subcommittee will continue in that support.
    Madam Chairwoman, Senator DeWine, thank you for the opportunity to 
talk about the Family Court budget request for fiscal year 2003. I 
appreciate your continuing interest and support and the solid working 
relationship we have built. I am happy to answer any questions.

    Senator Landrieu. Thank you very much.

                              FAMILY COURT

    As the panelists are aware, we are going to have a second 
hearing--and I believe it has already been scheduled--to go 
into some more detail about the aspects of the new Family Court 
and how the reforms are coming along. So, the purposes of this 
hearing are really just to touch on the budget issues, and I 
may have one or two questions about the progress of our 
reforms.
    But let me just be clear that in your budget request for 
the courts, we are requesting an additional $22.3 million above 
the President's 2003 budget submission. We have acceleration of 
the Old Courthouse, $5.1 million, fully implemented; the 
integrated justice information system, $1.5 million; general 
repair projects, $5.5 million; and then 23 additional full-time 
staff positions requested for various functions. Is that 
approximately right?
    Chief Judge Wagner. That sounds about right. I would feel 
more comfortable relying on my figures in the book, but I think 
that is about right. The Family Court is $22.9 million.
    Senator Landrieu. This is above the President's request.
    Chief Judge Wagner. We had made a comparison chart, but we 
did not bring that or do not have it readily available. We can 
provide that.
    Senator Landrieu. You can submit that for the record and 
just make sure that we have the request accurately.
    [The information follows:]

                             D.C. COURTS FISCAL YEAR 2003 BUDGET REQUEST COMPARISON
----------------------------------------------------------------------------------------------------------------
                                                            President's                          Request above
                                                               budget        Courts' request      President's
                                                           recommendation                            budget
----------------------------------------------------------------------------------------------------------------
Court of Appeals.......................................         $8,352,000         $8,640,000           $288,000
Superior Court.........................................         80,140,000         81,530,000          1,390,000
Court System...........................................         38,902,000         40,894,000          1,992,000
                                                        --------------------------------------------------------
      Subtotal, operations.............................        127,394,000        131,064,000          3,670,000
Capital................................................         31,651,000         50,352,000         18,701,000
                                                        --------------------------------------------------------
      Total, Federal Payment...........................        159,045,000        181,416,000         22,371,000
                                                        ========================================================
Defender Services......................................         32,000,000         45,014,000         13,014,000
----------------------------------------------------------------------------------------------------------------

    Senator Landrieu. Let me ask, Judge King, just a couple of 
general questions. Remind me now of the total number of judges. 
It is 59 in the court?
    Chief Judge King. That is correct, in Superior Court, 58 
associate judges and a chief judge.
    Senator Landrieu. Then of those, 15 are Family Court judges 
or have been designated as such?
    Chief Judge King. As it now stands, it is up to 15 can 
serve in the Family Court. I have at present 12 who have 
volunteered and are agreeing to serve the 3-year term 
applicable.
    Senator Landrieu. That compromise, which we debated at some 
length, as it worked out, as I recall, was a 3-year term for 
current judges serving and then new appointees will be 5 years?
    Chief Judge King. Correct.
    Senator Landrieu. With the opportunity to renew service if 
requested.
    Chief Judge King. Correct. And I would say on the basis of 
our experience in hiring magistrate judges, that what I had 
hoped would happen in that environment is that there will be 
some number--I would not want to predict now, but there will be 
some number who will do just that. They will want to extend to 
substantial additional amounts of time and become just the 
experts that the bill contemplates.
    Senator Landrieu. So, of the current 59 judges, 12 
volunteered to step into the Family Court role and take on the 
responsibility for 3-year terms.
    Chief Judge King. Correct.
    Senator Landrieu. And then we can fill the remainder of 
those seats, which would be three additional seats, with new 
appointments that the President would have to make to people 
interested with some background in this area for 5-year terms.
    Chief Judge King. Yes.
    Senator Landrieu. Is it your understanding the President is 
in the process of doing that or can you give us an update?
    Chief Judge King. The way that we are approaching this so 
far is that to add three judges, we will need additional space. 
So, we will have to be part-way down the road in our 
construction efforts. So, I have signaled that we do not intend 
to push yet for the current vacancies to be filled. They will 
fill other vacancies in the court and that probably, as best we 
can estimate now, it would be late summer when we would push 
for the three additional positions. I will work with the 
commission and the White House to see, to the extent that I can 
persuade them, that the criteria under the act are met in those 
appointments.
    Senator Landrieu. And then how many magistrates will be 
attached to Family Court?
    Chief Judge King. We have just added five and we 
contemplate an additional four, which again we would probably 
reach toward the end of the summer. The magistrate judges, of 
course, we hire so that we can do that on our schedule. So, it 
is really going to be key to construction and completing the 
revision of our calendars and so on so that we will have the 
logistics worked out to take them into the Family Court.
    Senator Landrieu. So, this will be nine magistrates for the 
Family Court when it is stood up.
    Chief Judge King. Correct. I should point out that we have 
eight already. This is in addition to eight that we have now 
who are already doing other things other than child dependency 
cases. Child support is one series of cases that are being 
addressed by magistrate judges. We have uncontested domestic 
relations calendars and so on. So, there are cases that have 
already been addressed by magistrate judges, and there are 
eight of those.
    Senator Landrieu. So, these nine magistrates do not do just 
exclusively Family Court issues or they do?
    Chief Judge King. They do.
    Senator Landrieu. But it is a range of issues. It's abuse 
and neglect, domestic violence, divorce, custody.
    Chief Judge King. Correct. The nine that we are in the 
process of adding, the five that we have just taken in will do 
nothing but abuse and neglect until we have all the cases 
brought in from judges outside the Family Court. Their job is 
to help that process and make sure that those cases come in 
smoothly and are assigned to judges and magistrate judges in an 
effective way.
    Senator Landrieu. As you know, one of the great purposes of 
this reform was to try to get a handle on the cases and 
committing one judge per family, consolidating cases, and 
expediting the hearings of these cases. I know it is early in 
these reforms. Any information that you could provide to our 
committee between now and the time of our next hearing about 
the results of that effort to date in terms of the more rapid 
process of reaching either conclusion of some of these cases 
would be very helpful.
    In addition, because our staff does not seem to have this, 
I would really be interested in seeing how the total budget of 
your court, the total dollar amounts are allocated between the 
five divisions, which would be your civil, your criminal, your 
family, your probate, and your special operations division. So, 
if you all could get that to us. We may have it, we just did 
not have it handy. Take your total budget and try to tell us 40 
percent of your total funds are allocated to your Civil 
Division, 30 percent to your Criminal Division, 10 to your 
Family Division, whatever the percentages are of your total 
budget. It would be helpful for us to have.
    Chief Judge King. Without committing to how completely that 
can be broken out, we will certainly get you whatever 
information we can on the general proportionality of 
expenditures.
    Senator Landrieu. Let me ask, while the staff is getting 
some of the other questions organized--and this is a little off 
the subject. But I know that you are laying plans for the 
renovation of the new Family Court. As we talked when we 
contemplated this new facility or renovated facility, we wanted 
to use some of the best practice models around the Nation, 
about mediation, having opportunities for family counseling, to 
make the facility and the building work to maybe reduce the 
tensions of the litigation and to maximize the positive 
outcomes of some of these very tense and difficult situations.
    Can you just comment about how that is coming along in 
terms of the planning for the physical construction or the 
physical space of the Family Court?
    Chief Judge King. We are working directly with the GSA 
architects to devise plans for both the short-term and longer-
term arrangements for space. As part of the effort for us to 
cooperate with them and to inform our direction and so on, we 
have consulted with a number of other courts around the 
country. In fact, 10 days ago we went out to Santa Clara County 
to talk with a judge there on how they handled the business of 
getting services to people who needed them in their dependency 
court.
    We will be submitting in the transition plan our tentative 
space plan--and I say tentative at this point, only to the 
extent that I do not think the architects have fully completed 
their decisions about what the options are. But whatever we 
have available, we will include in our plan. It very much does 
contemplate a construction of space that is not just a 
collection of courtrooms and chambers. It will be waiting 
rooms, conference rooms, mediation facilities so that we can 
accomplish the immediate delivery of services in a comfortable 
and family friendly setting.
    Senator Landrieu. Well, I just want to say for the record I 
am very certain that my ranking member feels as strongly about 
this as I do. But if we are going to spend any amount of money 
renovating and have the opportunity to either renovate or 
construct a facility, we would really like this to be a state-
of-the-art facility. I understand that either your staff or 
ours or both just visited Los Angeles County, which my records 
show became the first in the Nation to establish a dependency 
courthouse designated specifically as a child sensitive 
facility. The courtrooms are smaller, less intimidating to 
children than traditional courtrooms. Special areas are 
designed for children to play in, engage in interesting 
activities, or catch a nap. These features are obviously meant 
to reduce as much as possible the stress and trauma associated 
with the child's experience with the legal system.
    So, I know that our committee would be very interested in 
pursuing. While money is not unlimited, we want to make sure 
that any effort is an effort worth engaging in, that the 
outcome is something that we can really be proud of, and serves 
as a model for the Nation.
    I believe that we just have gone far astray in our design 
of court buildings to accommodate the kinds of cases that we 
are speaking about here. There is a special way for civil cases 
to be handled when you are talking about adults and money and 
finance, and then there is a whole other set of accommodations 
when you are talking about mothers and fathers and love and 
hate and children who are desperate for the kind of outcomes 
that will affect the rest of their life. So, we need to keep 
that in mind.

                        LONG-TERM CARE INSURANCE

    Let me ask, if I could, Judge Wagner, if you would just 
explain a little bit more about your long-term care benefit. I 
am not familiar with this. Maybe it is a benefit that Federal 
employees have that I am not familiar with.
    Chief Judge Wagner. Maybe I should ask Ms. Wicks to 
respond. She probably has a better handle on the long-term 
health care issue. We understand it is not quite implemented 
yet with the Federal Government, but it would be available. But 
there is no employer contribution to the program, and that 
would be the thing that would run the costs up for us. To the 
extent we could get into it without having to make an employer 
contribution to it, it would be of benefit.
    Ms. Wicks. Chief Judge Wagner is correct. My understanding 
is in October of this year, it will be a benefit available to 
Federal employees, and I believe the employee pays the full 
cost of the insurance. It is long-term care insurance for once 
we all get older and need to take care of ourselves, so we do 
not burden our families.
    Senator Landrieu. So, it is your understanding that this is 
a new benefit that Federal employees are going to have.
    Ms. Wicks. That is correct.
    Senator Landrieu. And you would like it extended to the 
courts.
    Ms. Wicks. To the court employees. Court employees 
currently get Federal benefits for health and life insurance. 
So, it would just be ensuring that we have that benefit 
available as well.

                  INCREASING COURT-WIDE SUPPORT STAFF

    Senator Landrieu. Judge King, you have asked for an 
additional 26 new positions. Is that correct? Or was that Judge 
Wagner? It does not matter which one of you answers.
    Chief Judge King. Yes, we have.
    Senator Landrieu. If you could just go into some more 
detail about these specific positions, not each one, but just 
generally.
    Chief Judge King. Yes. First of all, summarily and 
generally, they are employees who are necessary to strengthen 
our existing operations. The courtroom operations and support 
personnel are needed simply to keep up with large caseloads. 
Two of them address vacancies that now need to be filled in 
order to bring the staff to a level really where it should be 
to operate effectively.
    The accounting staff needs to be augmented to accommodate 
the new--we are doing a new automated accounting system which 
carries with it the need for additional people to operate. It 
allows us more effectively to keep track of and plan our 
finances.
    The Defender Services Branch needs clerks to operate the 
voucher program which we assumed from Public Defender Service. 
So, this is a new obligation we undertook. We have automated it 
and reduced the amount of staff needed to operate it, but still 
we do need some staff to carry out that function.
    Then for the capital infrastructure, as it now stands, we 
have no coverage of any of our campus buildings. If emergencies 
arise, we have to call out. In fact, in the recent fire, that 
was a factor. There was a delay in getting the fire department 
to the facility. We need people to add to the engineers and 
mechanics staff.
    The project director for the Old Courthouse I believe is--I 
am going to defer to Chief Judge Wagner, but I think that is a 
self-evident need for somebody to run that project for the 
courts.
    And then on the web application programmer, we have now 
been enjoying the beneficence of the D.C. Bar in operating our 
web page. That has been a terrific collaboration, but 
ultimately the bar is interested in service to lawyers and in 
providing service to the court of benefit to lawyers. We have a 
broader mandate to serve the public to provide information to 
jurors and members of the public that we feel merits bringing 
the web page operation into the court system itself, and we 
need someone to run that.

                    COORDINATION WITH D.C. AGENCIES

    Senator Landrieu. I just have two additional questions, and 
then if there are not any from the other members.
    Judge King, particularly Senator Durbin and Senator 
Voinovich have expressed this concern to me about the 
importance of the courts working with the D.C. Family Service 
Agency and the Metropolitan Police, as well as the public 
schools, to have a rather seamless or coordinate effort, 
particularly in the area of identifying child abuse and neglect 
early, stepping in at an early and appropriate stage, taking it 
through to the next step if the allegations are proved to be 
true, and then prosecuted, et cetera with the right outcome. In 
order for that to work in any community, there really needs to 
be a seamless operation between the entities most likely to 
identify the abuse or neglect, which would be in most instances 
the school systems, but not in every instance.
    So, can you comment about your ongoing efforts to try to 
make this as coordinated and as seamless as possible? What 
steps has the court taken to date? What steps are you 
contemplating? And if you or any of the other judges that are 
here want to--you know, be as specific as possible about that.
    Chief Judge King. The first and most important coordination 
effort, of course, is with Child and Family Services Agency, 
since they are the first line of responsibility for acquiring 
services and coordinating services. I have myself had a number 
of meetings with Dr. Golden, the director of the agency, and I 
have also encouraged and in fact planned with Family Court 
Presiding Judge Satterfield to have biweekly meetings with her 
so that we never get off the same page on any issue for more 
than 10 days or so before we can sit down and get it fixed and 
coordinate our efforts.
    The Child and Family Services staff were consulted in 
hiring the new magistrate judges. They have a social worker on 
our advisory committee. They are on our implementation 
committee, as are other city agencies, including the public 
schools, so that as we develop the transition plan. Then, when 
we move into the implementation and oversight phase, they will 
be right there at the table reviewing our initiatives and 
consulting with us as we go forward.
    So, I would not agree more. I think it is critical that we 
work very closely with them.
    Senator Landrieu. Well, anything that this committee can do 
to facilitate that working together and that cooperation we 
would very much like to. If there is not kind of an annual 
conference held and follow-up to bring leaders of the school 
system together, the Family Services Agency, the courts, and 
the police, we could help to facilitate such an annual event. 
We could help facilitate some additional training opportunities 
that would be very, very helpful. Really, in order for us to 
turn around the situation, which is desperate in this city--and 
it is not the only city that has a problem, but it is a very 
serious problem and of great concern to the members of many 
committees in Congress. Anything that we can do to facilitate 
that and continue. So, just because we passed the bill, just 
because we build the building, once we build the building, 
there are a lot of other pieces that have to go into creating 
the kind of system that I think the community can be very happy 
with and the Congress can be proud of.
    Now, I have got to get to the floor. Is there anything else 
you want to add in closing?
    Chief Judge Wagner. You had mentioned in your statement 
that you would like us to do a presentation on the Old 
Courthouse. Of course, we will not have time to do that here, 
but it is a part of our overall master plan, which is underway, 
which will both identify the optimal location for the Family 
Court, as well as how to use all of the space in the courts' 
complex. We would like to come down at some point and do a 
presentation with both the Law Enforcement Memorial and with 
our court system and the U.S. Court of Appeals for the Armed 
Forces, because it is all on one square, as to exactly what we 
would be doing.
    I think you would be interested in knowing that restoration 
of the old courthouse will free 37,000 square feet in the 
Moultrie Building, when the Court of Appeals moves into the 
restored building. The Superior Court would have space 
available to expand other operations and better accommodate 
their new Family Court and their other functions that are going 
to move for the Family Court immediately.
    Senator Landrieu. Well, I would really like to set that up 
with the staff, a briefing for the physical complex, and we 
will do that as soon as our schedules allow.
    I want to recognize our Shadow Senator, Paul Strauss, who 
is with us today.

                          SUBCOMMITTEE RECESS

    If there are not any further questions or comments, we will 
adjourn the meeting.
    Chief Judge Wagner. Thank you.
    Chief Judge King. Thank you.
    Senator Landrieu. Thank you.
    [Whereupon, at 4:43 p.m., the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]















        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2003

                              ----------                              


                        TUESDAY, APRIL 16, 2002

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:45 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Mary L. Landrieu (chairman) 
presiding.
    Present: Senators Landrieu and DeWine.

                          DISTRICT OF COLUMBIA

                               Education

STATEMENT OF PEGGY COOPER-CAFRITZ, PRESIDENT, DISTRICT 
            OF COLUMBIA BOARD OF EDUCATION

             OPENING STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. The meeting of the subcommittee on the 
District of Columbia will come to order.
    If the first set of witnesses would come to the front 
tables, if you would: Mr. Chavous and Ms. Graham and Dr. Vance 
and Ms. Cooper.
    My staff reminds me, Kevin, that it is ``Chavous.''
    Mr. Chavous. Yes, Chavous.
    Senator Landrieu. But because I am from Louisiana, I do the 
correct pronunciation, as you know. You and I have talked about 
this. We know about these pronunciations.
    Mr. Chavous. I have been called worse, Senator.
    Senator Landrieu. So I apologize.
    Let me welcome all of you all to this hearing, and I am 
particularly pleased that our ranking member could be with us 
this morning, because both for Senator DeWine and for myself, 
this is a very, very important issue, not only for the District 
and our roles as chairing and ranking member of this committee, 
but we have both been very, very involved at our own areas in 
education in our States and communities at home.
    As I have said many times in this committee, as the parents 
of many children--together we have ten; of course, he gets the 
credit for eight, and I get two, so he beats me on that score--
but we are in the process of raising ten children ourselves and 
know the----
    Senator DeWine. Not together though, right?
    Senator Landrieu. Not together, though, yes.
    Separately, yes. But we know the trials and tribulations of 
that.
    But this committee hearing we wanted to have this morning, 
and I have a written opening statement for the record. But I 
think in light of the times, to kind of get to the heart of the 
matter, I would like to just submit my opening statement for 
the record and make just a couple of brief points in summary.
    Then I am going to ask you all, so that you can be thinking 
while I am making a few opening remarks, if you would do the 
same thing, to submit your testimony in writing. And then I am 
going to ask a question about goals and vision for the 
District. I am going to be asking you about your current 
vision, where you would like to see the school system 10 years 
from now and where you expect the school system to be 10 years 
from now.
    If you could think about one example that the District has 
made some significant progress in the last several years and if 
you can begin thinking about two or three of the greatest 
barriers to achieving your vision. And I am going to ask each 
of you maybe to give 5 minutes in that regard, so that we can 
get a good dialogue here of questions and answers and really 
try to hone in.
    But let me frame the beginning of this hearing by simply 
saying that every State and every community is struggling with 
how to create excellence in public schools uniformly. We all 
recognize that there is excellence in our public school systems 
in pockets throughout this Nation. And there are some 
extraordinary examples of schools doing extraordinary work with 
limited resources and very challenging circumstances.
    I could cite any number of examples from Louisiana. Senator 
DeWine could cite examples from Ohio. We could cite examples 
here, and I know that you all would agree, right here in the 
District.
    But our challenge, and you can see that it is coming from 
Congress in a very bipartisan way, both Democrats and 
Republicans, is to try to embrace public education and try to 
improve it and try to create a system where truly no child is 
left behind.
    It takes a combination of things, which was the result of 
last year's great effort here in Congress, which is to say that 
systems of accountability and reform are very necessary, along 
with new investments, and that those things need to be matched 
to make sure that we really can provide excellence for each 
child.
    A second point that I want to make is the same point that I 
make to every mayor that I talk to, including my own mayor in 
New Orleans and my mayors throughout Louisiana, and to my 
chambers of commerce, which is, if you are speaking about 
economic development and you are not speaking about excellence 
in school, then you are not going to have the kind of results 
that you might think you are going to have or intend to have, 
because economic development for any community and the 
strengthening of any community really has--the schools are one 
of the primary focuses of that effort.
    Why do I say that? Obviously people who want to build their 
businesses and expand their businesses and have to hire 
employees want to be in communities where the schools are good 
and robust and excellent, so that they can then attract the 
employees for their companies. You know, building a strong 
middle class for a community is very important. Besides having 
a reduced crime rate and good city services, I think the 
primary focus of people is to have excellent opportunities for 
children.
    So needless to say, many of our communities and States are 
challenged. And we have taken, I think, a very extraordinary 
step, really, in Congress to begin saying to every district, 
and that includes the District, that the Congress has made a 
decision to stop funding failure. And we want to start funding 
success and rewarding success and investing in reform and 
investing in high expectations for all children. And that 
really is the bottom line of this, of the bill that was passed 
this last year.
    So I can say for myself, and I think Senator DeWine will 
also jump in here in a moment to say it, that I want to be a 
partner with you in helping to fashion this plan and program 
for the District.
    I think there are some plans that are already underway and 
seem to be working. Perhaps some directions have been taken 
that are not working. But every school district including the 
District is now going to be required by new Federal legislation 
to meet certain standards or, of course, there will be real 
consequences for failure.
    With that, I am going to ask Senator DeWine if he has an 
opening statement, and then I am going to reask my question and 
we will start the panel.
    Thank you.
    [The statement follows:]

             Prepared Statement of Senator Mary L. Landrieu

    The Subcommittee will come to order. Good morning and welcome to 
this important hearing on the status of the District of Columbia Public 
Schools. I want to express my appreciation for the witnesses we have on 
our first panel today, particularly Peggy Cooper Cafritz, President of 
the District's School Board and Mr. Paul Vance, Superintendent of 
Schools. Mr. Vance is recuperating from major surgery, so I am 
specially indebted to him for coming today. We also have Kevin Chavous 
with us today, the Chair of the City Council's Education Committee, and 
Carolyn Graham, the Deputy Mayor for Children, Youth and Families. I 
thank these witnesses for attending.
    The District of Columbia is enjoying a renaissance. Once a fiscal 
and management nightmare, the City's budget is now in better shape than 
the budgets in Maryland and Virginia according to some media accounts. 
The City was once ruled by a control board, today the officials elected 
by the District's citizens are now in charge. A rampant crime rate 
chased citizens from District neighborhoods for the suburbs, now people 
are coming back. Property values are rising, new businesses are 
opening, and the City is working to beautify the Anacostia waterfront. 
I applaud Mayor Williams, the Council led by its Chairman Linda Cropp, 
and the people of the District of Columbia for this turnaround.
    This success while in many ways remarkable is still very, very 
fragile. There is a long- term structural imbalance in the City's 
finances that Congress and the City must address and we will hold a 
hearing on this next month. With the on-going threat of terrorism, the 
Mayor remains concerned and I share this concern that the City is 
operating one disaster away from financial difficulty.
    The school system will either play a vital role in the continuation 
of the District's success story or it will create additional budget 
woes that will threaten that success. What do I mean by that? As I 
said, people are coming back to D.C. They want to take advantage of 
what the city has to offer: restaurants, museums, sports and 
entertainment venues. But they will only stay for the long-term if they 
believe that their children can get a high quality education in the 
District. As long as they stay, as long as they own property and 
patronize businesses, pay their property taxes, the District's 
renaissance will continue.
    I am concerned, however, that right now the schools are 
contributing to the fragile nature of the District's financial success. 
The Comprehensive Annual Financial Report (CAFR) for the District's 
budget projects a $240 million shortfall in fiscal year 2002. 
Fortunately, the majority of the $240 million can be covered through 
the use of reserves, but that will not leave a lot of reserves left 
over for next year. There are several reasons for the shortfall 
according to the CAFR: the City still needs to improve its Medicaid 
collections, for example. But the biggest item in the shortfall is an 
$81 million projected deficit for the District of Columbia Public 
Schools and the there is widespread agreement that the reason for this 
shortfall is cost overruns in special education.
    Currently the District spends about one third of the total school 
budget on the 16 percent of all students who are in special education. 
I know transportation costs are a big factor here. Many of these 
students attend private facilities in Maryland and Virginia. There have 
also been reports of lawyers former public school employees gaming the 
special education system. The Washington Post reported on one lawyer 
who finds potential special education clients and refers them to a 
diagnostic testing service that he controls. Once the client has been 
diagnosed as needing special education services, the lawyer wins 
tuition from the school system to send the student to a private school 
he also controls.
    This year, Congress is set to consider the re-authorization of the 
Individuals with Disabilities Education Act, the main Federal law on 
special education. Members, like myself, are anxious to use this re-
authorization as an opportunity to examine what is working and what is 
not working in special education in America. On October 3, 2001, 
President George Bush established a Commission on Excellence in Special 
Education to collect information and study issues related to Federal, 
State, and local special education programs with the goal of 
recommending policies for improving the education performance of 
students with disabilities. In the 6 months since its inception, the 
Commission has found children are often mislabeled or under served in 
special education.
    Some of the problems plaguing the system here in D.C. are also 
experienced in other school districts throughout the Nation, but some 
are unique. Clearly, special education has placed a tremendous strain 
on the education budget. Yet, are the services delivered the best and 
most cost effective alternatives available? No, they are not. Clearly, 
special education in the District of Columbia needs reform. I am 
concerned that without reform the City's overall financial management 
picture will suffer. This problem must be solved. I do not want to see 
the bad old days of deficits, poor services, and control boards return 
to the District on my watch.
    I realize that all of the problems will not be solved today. If we 
need to hold some kind of special education summit in the near future 
to hammer out a solution, we can do that. As the Nation's capitol, the 
District of Columbia should serve as a model for other districts in 
America, a living testament to an ideal upon which this country was 
founded, equal opportunity for all.
    In addition to special education, I want to discuss the District's 
public schools plans for implementing the No Child Left Behind Act. As 
many of you know, this year marks the first year in a new way in 
education thinking. This exciting reform, if properly implemented, has 
the potential to transform public education not only in the District 
but also in America. The District has a long way to go toward meeting 
the goals laid out by the No Child Left Behind Act. They need to 
implement a district wide accountability system complete with yearly 
assessments of school children grades 3 through 8; they need to put in 
place a system that ensures all teachers teaching in high poverty 
schools are fully qualified and they need to implement programs aimed 
at having all children proficient in reading by the third grade. While 
these requirements may seem onerous now, I can assure you from personal 
experience in my State, they will yield amazing dividends.
    While this law will make a substantial investment in public 
education, there will be greater accountability required as well. I 
want to see to it that the District's public schools are not left 
behind in meeting the requirements of this legislation. I have seen the 
terrific work schools in Louisiana are doing in this area. My State had 
already implemented a number of the accountability reforms contained in 
the national legislation and they have yielded great returns. I hope we 
can share some of these best practices with the District and other 
school systems.
    Today's second panel will help us to explore some of the best 
practices in areas that are critical to the cities ultimate success in 
education. We will hear from Andrew Rotherham, Director of the 21st 
Century Schools Project at the Progressive Policy Institute; Mr. Robert 
Cane, Executive Director of Friends of Choice for Urban Schools; and 
Virginia Walden Ford, a parent in the District and Executive Director 
of D.C. Parents for School Choice. I thank these witnesses for coming 
today.
    John F. Kennedy once said, ``Our progress as a Nation can be no 
swifter than our progress in education. The human mind is our 
fundamental resource.'' In the knowledge based economy of the 21st 
Century, these words are even more compelling. The District can either 
accept the challenge or they can be left behind. The choice is theirs.

                   STATEMENT OF SENATOR MIKE DE WINE

    Senator DeWine. Well, Madam Chairman, thank you very much 
for holding this hearing, and I will also submit my written 
statement for the record.
    We look forward to this hearing. All of us, we all know the 
horror stories about the District of Columbia school system. 
Quite candidly, these problems, though, can be found in many 
urban school districts. They might be a little different, but 
urban school districts are one of the major crisis points 
really in our country today.
    If we do not, as a country, begin to address the problems 
of our urban schools, the future of this country and the future 
for our children will clearly not be what we want it to be.
    In my own home State of Ohio, the graduation rate in one of 
our major metropolitan school districts is only about 36 
percent. So this is not a problem that is totally unique to the 
District of Columbia.
    But it is a problem the District has. The District has not 
performed--the school system has not performed in the past, 
obviously, as well as any of us would like it to.
    Each year, the District spends over $9,500 per student on 
education, and that is more spending per pupil than any of the 
50 States. The national average is actually a little over 
$7,000.
    Earlier this year, Education Week gave D.C. schools a D 
grade in standards and accountability, and a D in improving 
teacher quality.
    But our purpose here today is not to talk about the past. 
Our purpose today is to talk about the future and to talk about 
what has been accomplished in the last year or so. And that is 
really what we are looking forward to, is hearing the testimony 
from our witnesses.
    Some ask, you know, ``What role does the Federal Government 
play?'' The chairman has, I think, outlined this a little bit. 
I would just add one more statistic. The Federal Government 
puts in about 17 percent of the money for the school district. 
That compares with 8 percent for schools nationwide. And we 
just completed a national debate about education led by the 
President and the Congress. And I think that was a very, very 
good debate.
    But if it is important for what happens in Ohio when we 
only put in 8 percent, it is certainly equally, if not more 
important, for the District of Columbia, the oversight by the 
United States Congress.
    So we are looking forward, Madam Chairman, to hearing our 
witnesses, to hearing what progress has been made, what vision 
has been made, what vision they have, and candidly what they 
see as the working together of the public officials and the 
community. I am interested in the involvement not only of the 
Board, not only of the mayor, but also of the parents, what has 
been their involvement and how do they fit into the overall 
scheme of putting our schools in the District of Columbia the 
way we would like them to be.
    I thank you.
    Senator Landrieu. Thank you.
    Let me just update for the record, and Senator DeWine was 
putting into the record the last figures from the Department of 
Ed, but we just received some updated figures and I wanted to 
share them for the record.
    It is now $12,343, Senator, per pupil the District spends, 
which is the highest of any of the districts in the Nation 
compared to States. New York, just for reference, is second at 
$10,481. Ohio is $6,962, and Louisiana is $5,968. So there is a 
great disparity.
    We are trying to make sure that these are apples to apples, 
and oranges to oranges. This supposedly is not with Federal 
funds, but if you will have other figures, Peggy, we can put 
them into the record at that time.
    So if this is not accurate, please help us to qualify that, 
because it is very, very important for us to have good 
comparative data, and we are really struggling with it. So I 
wanted to submit that.
    In addition, I would like to say that the District should 
be commended in the sense of trying to increase investments in 
education. One of the goals of this hearing is to see if these 
new investments are commensurate with some of the reforms. 
Since 1998, the total funding has gone up from $670,000 to over 
$1 billion.
    I do not have the percentage of increase, but you can see 
from this pie chart that it seems to be a very substantial 
increase in funding that has been a good decision by the local 
officials and with additional Federal funding.
    Senator Landrieu. Now, if this is not accurate, then we 
need also to know, you know, because that is what we are 
working off of. We are trying to get good, good solid data.
    But let us begin with the opening question. Would each one 
of you share your vision for the District's education system? 
Please begin by stating from your point of view what the 
schools look like today; what do you think they look like 
today, what should they look like in 10 years; one example of 
an area where you think the District has made significant 
progress and explain.
    What are the two or three greatest barriers to excellence, 
uniform excellence in education facing the District as of 
today? And what are you or the agency that you represent doing 
to address these barriers?
    If you could, do it in 5 minutes. First, if you would 
identify yourself. And, Peggy, we might want to start with you 
as the school board president, and I think that would be very 
helpful. And then we will go into a round of questions.
    Ms. Cooper-Cafritz. Fortunately, I had your revised 
questions and that is what, you know, this is. I think that I 
will go through it quickly. I will just take some highlights 
from it. And then I did write down this vision thing.
    [The statement follows:]

               Prepared Statement of Peggy Cooper-Cafritz

    Good Morning, Chairperson Landrieu and members of the Senate 
Appropriations Subcommittee on the District of Columbia. I am Peggy 
Cooper Cafritz, President of the D.C. Board of Education (Board). It is 
my pleasure to appear before you today to speak to the status of 
education in the Nation's Capital.
    The board, in its role of enacting policy and providing effective 
oversight, has made significant progress in the first fifteen months of 
our existence. To name just a few of our accomplishments:
  --We adopted a D.C. Public Schools (DCPS) strategic plan that has as 
        its goal the total programmatic rebuilding of a very broken 
        system;
  --We approved a DCPS master facilities plan designed to rebuild our 
        schools;
  --For the first time in thirty years, we have broken ground on new 
        construction or major modernization at six facilities--Miner 
        Elementary School, Barnard Elementary School, Kelly-Miller 
        Junior High School, Key Elementary School, Patterson Elementary 
        School, and Randle Highlands Elementary School--and have 
        completed construction of the new Oyster Bilingual Elementary 
        School;
  --In an effort to ensure that all District public schools provide 
        quality instruction, we began the charter revocation process in 
        regard to four poorly-performing charter schools and 
        successfully completed this process in one instance. Two of the 
        schools are challenging us in court on the issue of whether or 
        not they are entitled to a contested case hearing in regard to 
        the proposed revocation. While it is our position that federal 
        law clearly requires an informal hearing only, we would 
        appreciate Congress' further clarifying this issue to prevent 
        the charter revocation process from being mired in legal 
        challenges in the future;
  --We approved policies for public/private partnerships, educational 
        facilities planning, and school design and construction to 
        ensure quality and maximize the use of private funds in our 
        capital improvement program;
  --We approved board rules requiring the superintendent to submit a 
        performance-based budget beginning in fiscal year 2004, to 
        enhance accountability in our school system;
  --We approved the superintendent's central office transformation plan 
        designed to streamline the DCPS central office and save DCPS 
        $17 million annually;
  --We directed the superintendent to exclude from DCPS students with 
        incomplete immunization records, a mandate that resulted in 
        thousands of children being immunized. We brought the count 
        from 41,000 unimmunized students to less than 20;
  --We approved rulemaking on corporal punishment written in 
        conjunction with DCPS unions and children's advocates, in an 
        effort to protect the rights and well-being of both DCPS 
        students and staff;
  --We approved rules limiting reimbursement for special education 
        independent evaluations and services, to bring these charges 
        into line with standard costs in the field and prevent over-
        charging;
  --For the same reason, we approved rulemaking requiring special 
        education attorneys both to submit their bills within forty-
        five days and to provide proof of legal representation when 
        they file special education due process hearing requests;
  --We approved rulemaking broadening the scope of DCPS' prohibition on 
        harassment and sexual harassment to safeguard the emotional and 
        physical well-being of DCPS children and personnel;
  --We approved a complete overhaul of the chapter of board rules 
        regarding special education that includes a provision mandating 
        that DCPS place students in only those private schools that 
        have contracted with the school system unless required by court 
        order, hearing officer's determination or settlement agreement 
        to do otherwise. This was done in an effort to ensure DCPS' 
        ability to control costs and effectively monitor facilities 
        housing our students with disabilities;
  --We enacted policy requiring DCPS teachers and principals to give 
        timely notice (by April 30th) of whether or not they plan to 
        return to the school system in the fall, to enhance our ability 
        to project DCPS vacancies far enough in advance to allow for 
        effective recruiting and staffing; and
  --We passed a policy that allows DCPS to create special education 
        schools for level 4 and 5 students, in partnership with private 
        providers, and then to apply for a charter for these schools. 
        In addition, to encourage others to apply for charters for 
        special education schools, we compressed the amount of time it 
        takes to get a charter for such facilities.
    We are also very proud of the improvements that the superintendent 
has made during the new board's tenure. There is a new and better 
atmosphere in our schools, thanks to such improvements as dress codes 
for adults and children and behavioral codes for students. One of the 
administration's latest accomplishments is the completion of contract 
negotiations with the Washington Teachers' Union that will return 
management control to the superintendent. For example, it will enable 
the school system to institute a staggered bell time system, yielding 
millions of dollars in transportation savings. Under this agreement, 
our teachers will receive 5, 5, and 9 percent salary increases, but 
will still fall sadly short of being competitive with their 
counterparts in Montgomery and Arlington Counties.
    We are working with Elise Baach, special master for the Petties 
case pertaining to DCPS special education, to develop other fiscal 
efficiencies in our provision of services to students with 
disabilities. However, I am very concerned about the conflict between 
the pressure we are under to institute savings in special education and 
the federal law, the Individuals with Disabilities Education Act 
(IDEA), which prohibits any decrease in such spending from year to 
year. In order for us to obey the Council, the Chief Financial Officer, 
and Mayor, we will have to break federal law. The Board of Education 
seeks guidance from you on this issue.
    As DCPS improves the way all children are instructed, fewer 
students will require the specialized services provided to children 
with disabilities. Statistics from our transformation schools prove 
this. Referrals for special education evaluations at H.D. Cooke, for 
example, have decreased from thirty-one last school year to one in 
school year 2001-2002. Similarly, referrals at Turner Elementary School 
are down from thirty-eight to seven and Simon Elementary School's 
referrals have decreased from thirty-six to eleven in a single year. 
The accomplishment of which I am most proud is bringing health, mental 
health, and social services into our schools. We are only in about 25 
schools. We are severely limited by lack of funds, but hope to have 
this in all of our schools. Under the leadership of Deputy Mayor 
Carolyn Graham, Dr. Vance, and Dr. Seleznow, DCPS chief of staff, we 
are on our way to having the best holistic approach to education in the 
country.
    I was deliriously happy when I discovered that one of the questions 
you wanted an answer to was my vision for the schools. Moving from 
budget crisis to budget crisis and the need to address other problems 
with urgency have severely limited the opportunity to discuss vision. 
My vision is one of a sea change that will produce students and schools 
on a par with Montgomery, Arlington and Fairfax Counties. My vision 
activates change in three phases.
    First, I see an administration rebuilding the foundational 
infrastructure of DCPS, to include all basic systems, such as payroll 
and procurement. I envision this infrastructure being operated by a 
staff fully trained in all necessary computer programs.
    I also see our master facilities plan being placed on the fastest 
track humanly possible. How can we expect our children to go to school 
in our crumbling buildings when they see what everyone else has on 
television or on visits to non-DCPS schools? It is a horrible message 
to give to already fragile young egos shunned by much of society. I 
have a vision of you, Senator Landrieu, taking up the battle cry for a 
Marshall plan for the rebuilding of D.C. public schools. We cannot wait 
the 15-20 years that implementation of the facilities master plan will 
take.
    I envision us being bold, energetically solving problems, getting 
people like this year's Pritzker Prize winner, Glenn Murcutt, of 
Australia to work with DCPS to design a school or schools that are 
``green friendly'' and environmentally sustainable, using new materials 
never used on schools but that are less expensive than the conventional 
bricks and mortar. I see us building beautiful schools that respect 
their surroundings and recognize that they are for students, not 
prisoners. The best architects charge the same fees as bad ones. The 
architectural firm of Devrouax and Purnell just built a beautiful 
building for Pepco. Let's extend such architectural beauty to our 
schools in southeast Washington.
    Second, I envision classrooms with high quality teachers who have 
met the requirements of the new federal education law, H.R. 1, the 
``Leave No Child Behind Act''. These teachers are supported by a strong 
instructional leader, and teachers and principals are partners with 
parents who are engaged in their children's schools. In my vision, 
teachers are excited about teaching the students before them, and the 
students are eager to learn because their needs have been met and they 
are able to focus. I envision a K-12 core curriculum that ensures that 
each child is taught core subjects with equal rigor from neighborhood 
to neighborhood but also allows teachers to have enough freedom to 
bring their own creativity, knowledge, and magical touch to the 
classroom.
    In the third phase of my vision, I see all of the other elements 
critical to a good education fall into place. As a required part of the 
school day K-12, I see students participating in intramural sports, 
fitness programs, arts programs, intellectual games, and every 
extracurricular activity that exists at, for example, Montgomery Blair 
High School in Montgomery County. I imagine our school day ending at 
4:30 p.m. in elementary schools, 5:00 p.m. in middle and junior high 
schools, and 6:00 p.m. in high schools.
    And speaking of high schools, I would abolish the institution, as 
we know it today! Instead, I would allow high school students to test 
out of core subjects. We would have a cooperative program with our 
colleges and universities so that our students could graduate from high 
school having already completed two years of college.
    The core curriculum would be classically-based but would embrace 
afrocentrism and other racial and ethnic studies. Every high school 
student would take four core subjects--English, math, history and a 
foreign language--daily from 9:00-12:00 for four years, but would also 
have available a menu of additional vocational and academic 
opportunities from which he or she could select an educational and 
career path. It might be three years of advanced history courses or it 
might be going to one of our state-of-the-art vocational education 
centers to study management information systems or it might be 
attending a sports agency and development program. All courses would be 
taught with the same rigor from southeast to northwest.
    After junior high school, I see our high school teaching force 
becoming largely part-time (which, by the way, would help alleviate the 
current teaching shortage), giving DCPS the flexibility to, perhaps, 
have a former Senator who is now at Akin, Gump Come and teach a course 
in political science in a DCPS high school. The fate of the District's 
future rests on preparing young people to pursue all of the endeavors 
that being uniquely Washington requires, such as: foreign languages; 
tourism; federal court clerkships; and jobs as pollsters, Senate aides, 
or experts on terrorism. I could go on, but I hope you get the gist of 
my vision. It would be possible to select from many options. The city 
would be one big building and every DCPS high school student would own 
it, transversing it from the Potomac to the anacostia river, excitedly 
learning every day.
    Let me note that I am specifically answering your question. The 
Board of Education has not discussed or adopted my vision. We did, as a 
board, adopt the superintendent's strategic plan, and I fully support 
that. I must also emphasize that we are a policy board, not an 
operations board, so it is Dr. Vance, not I, who would have to do all 
the work required to make my vision a reality!
    Unfortunately, substantial obstacles stand in the way of DCPS' 
achieving my vision for the school system, most notably, a lack of 
resources. Despite significant increases in education funding approved 
by the Mayor and Council in recent years, we still fall far short of 
having the monies necessary to make all of the improvements required to 
provide our students with an education that is comparable to that 
provided in our surrounding jurisdictions. Just a cursory review of the 
numbers reveals why this is the case.
    (All of the DCPS numbers in my testimony were computed by an 
independent financial analyst in accordance with the methodology used 
by the metropolitan boards of education (MABE) in producing its annual 
report on expenditures of school systems in the Washington metropolitan 
area. The MABE report is the source of my data for neighboring 
jurisdictions. Its numbers include local education agency expenditures 
and 80 percent of certain grant funds.)
    While DCPS per-pupil expenditures are often described as among the 
highest in the country, our per pupil spending rate ($8,637 in fiscal 
year 2001) is, in fact, significantly lower than that of three of our 
suburban counterparts (Arlington--$11,254; Alexandria--$10,609; and 
Montgomery County--$9,063) and only slightly higher than that of 
Fairfax County ($8,553). Excluding special education costs, our per 
pupil expenditures ($7,031) lag even further behind.
    Moreover, as an urban school system with a largely decrepit 
infrastructure, we are forced to spend more for security and building 
maintenance than our wealthier neighbors. Add to that the facts that 
DCPS is still recovering from the draconian cuts that we experienced in 
the 1990's and that our students are much needier than those in the 
suburbs and it is clear why an fiscal year 2003 budget of $772 million 
will not make our students competitive with those of the surrounding 
jurisdictions.
    In fact, for all of the reasons set out above, as well as the 
astronomical sums that DCPS is forced to pay out for private school 
special education tuition and related costs, DCPS expenditures for 
local school instruction ($4,546 in 2000) fall far short of those of 
Alexandria ($6,132), Arlington ($6,347), and Montgomery County 
($4,826). For these same reasons, DCPS funding for local school, as 
opposed to private, special education services ($5,929 in 2000) also 
lags behind that of Alexandria ($6,709), Arlington ($7,592), and 
Montgomery County ($7,662).
    Moreover, even as we fall farther and farther behind our 
neighboring jurisdictions in funding, our costs continue to soar. 
Implementation of the new H.R. 1, ``Leave No Child Behind Act'', for 
example, will have significant cost implications for the school system, 
as we strive to comply with the testing and personnel requirements in 
this legislation.
    Some say that the school system could go a long way toward solving 
its money problems by disposing of its ``excess'' space. However, 
recent studies suggest that the square footage of D.C. public schools 
has been over-estimated. Moreover, if our schools are to become the 
centers of neighborhood life that District residents want and need, and 
if DCPS students are to be educated inside of our city limits rather 
than in costly suburban private placements, the school system has, in 
fact, little if any extra space.
    Another ``solution'' to DCPS' underfunding that is sometimes 
offered is a suggestion that the school system trim its ``bloated 
bureaucracy.'' A review of the numbers in this regard reveals that, in 
reality, DCPS spends significantly less on central administrative costs 
(an average of $574 per pupil in fiscal year 2001) than Arlington 
($2,747), Alexandria ($2,247), or Montgomery Country ($645).
    For all of these reasons, I ask that Congress to now provide DCPS 
with the additional funding that we so desperately need if my vision 
for the school system is to begin to become reality. Other District 
leaders are, justifiably, appealing to you for congressional 
representation and a return of the federal payment, and we applaud 
these efforts. However, those issues fall outside of the purview of the 
board and the DCPS administration. Our sole responsibility is to the 
children of the District of Columbia. With this in mind, we urge 
Congress to give us the fiscal resources that we need so that we, in 
turn, can provide the children of our Nation's Capital with the quality 
education that they deserve.
    We also need our own Chief Financial Officer for the school system. 
Dr. Vance must be able to manage well and know where every penny is 
spent. We, the board, cannot expect this if he does not have fiscal 
independence and the ability to protect DCPS coffers from the whims of 
the city's CFO. Most critically, however, a new plan must be devised 
for adequately funding District public schools.
    That concludes my prepared statement. Dr. Vance and I would be 
happy to answer any questions that you might have.

    Senator Landrieu. Well, that is okay. You do not have to--
you can submit those answers for the record. I mean, you could 
just, off the top of your head, say what your vision is for the 
school system and one area where you think the District has 
made substantial progress; and then maybe just two areas that 
you, you know, feel we have really got to hone in on.
    Ms. Cooper-Cafritz. Okay.
    Senator Landrieu. And this is just really a free flowing 
discussion.

                           SPECIAL EDUCATION

    Ms. Cooper-Cafritz. I think that the system has made 
significant progress in special education. The Board has 
completely overhauled the rules regarding special education. We 
are requiring private schools to have contracts with the system 
or they cannot be used, unless it is court ordered.
    Okay, we have also come up with standard charges, so that 
lawyers and evaluation and, you know, service providers cannot 
charge us escalating and ridiculous amounts.
    We have approved a way for the superintendent of the school 
system to engage in partnership with private providers to 
create schools and apply for charters. We have also created a 
way to compress the time that it takes to get a charter, and we 
are encouraging others to come through with charter 
applications so that we will be able to create enough beds, for 
example, for us to bring back from Minnesota and other far-
flung places our students who are sent away in special 
education.
    Senator Landrieu. Okay, if I could just ask a question. I 
do not know, Mike, if we want to ask questions as we go or have 
everybody make their statements.
    Why do we not have everybody make their statements, because 
it may get a little bit too detailed, and we want to try to 
stay in the big picture. But I will make a note of some of the 
questions on special ed, and I think Senator DeWine--but go 
ahead and continue.
    What are the two barriers that you might consider to the 
reform--two of the most significant barriers that your agency 
is facing?
    Ms. Cooper-Cafritz. The two most significant barriers are 
the way that we are funded, which leads to tremendous 
misunderstanding about what we have and what we do not have. 
Let me see if I can find this, just so you can hear this.
    Senator Landrieu. That would be very helpful if we could 
understand what that barrier is.
    Ms. Cooper-Cafritz. While I am looking for this, another 
thing that I wanted to point out: With the schools that we have 
reformed, we only had money to do nine--they are called the T9 
schools. We have had a decrease in the number of kids referred 
to special education because now everybody is getting a good 
education.
    At one school, it decreased from 31 to 1, 25 to 7, and I 
have a whole list of that in my testimony. I just want to find 
this.
    Ms. Cooper-Cafritz. Oh, okay, good.
    Senator Landrieu. Go ahead. Take your time. If you need to, 
I can come back to it, if you want.
    Okay.

                          SCHOOL EXPENDITURES

    Ms. Cooper-Cafritz. I have it. Okay, all right.
    Okay, let me--all of the DCPS numbers in my testimony were 
computed by an independent financial analyst in accordance with 
the methodology used by the Metropolitan Boards of Education, 
MABE, which is located in Montgomery County--yes, in Montgomery 
County.
    In producing its annual report on expenditures of school 
systems in the Washington Metropolitan Area, the MABE report is 
the source of my data for neighboring jurisdictions and D.C. 
Its numbers include local education agency expenditures and 80 
percent of grant funds.
    Just so you will understand, MABE takes it takes the 
amounts of money that school systems spend and they break it 
down so that apples are compared to apples, and oranges are 
compared to oranges.
    Senator Landrieu. And what is your total from that? What is 
your district total per student on----
    Ms. Cooper-Cafritz. Okay. While DCPS per-pupil expenditures 
are often described as among the highest in the country, our 
per pupil spending rate, $8,637 in 2001 is in fact 
significantly lower than that of our suburban counterparts.
    Senator Landrieu. Okay. It is $8,000 what----
    Ms. Cooper-Cafritz. Just a moment. $8,637.
    Senator Landrieu. Okay. That is fine. We will just----
    Ms. Cooper-Cafritz. Arlington----
    Senator Landrieu. That is okay. We will just take that and 
try to reconcile the numbers and see.
    Ms. Cooper-Cafritz. Okay. And I have the surrounding 
jurisdictions in my testimony.
    Senator Landrieu. In your testimony, that would be great.
    Ms. Cooper-Cafritz. Right, yes.
    Senator Landrieu. And we can then take those numbers and 
try to reconcile them with ours. That is very important.
    So your biggest reform is the special ed reform, and your 
biggest barrier is funding mechanism for the school board. Did 
you have a second barrier, or do you want to come back to that?
    Ms. Cooper-Cafritz. There is--I mean, the biggest thing is 
funding, okay.
    Senator Landrieu. Okay.
    Ms. Cooper-Cafritz. And the biggest thing is the tremendous 
misunderstanding that exists about our funding. I mean, just 
for example, if I could get somebody--can I bring this up to 
you?
    Senator Landrieu. Oh, get somebody to bring it up to me.
    Ms. Cooper-Cafritz. Okay. But the----
    Senator Landrieu. But we can come back to that, because 
that is part of what this hearing is about, to try to help us 
clarify some of these funding numbers.
    Ms. Cooper-Cafritz. Right, right.
    Senator Landrieu. But why do we not come back to that in 
the question and answers? And let me move to Dr. Vance, because 
we want to try to stay on schedule. If you could share that 
with----
    Ms. Cooper-Cafritz. Okay. May I please, before you move on, 
speak to my vision?
    Senator Landrieu. Okay. Let me come back to you, Peggy, 
because I want to take everybody----
    Ms. Cooper-Cafritz. All right.
    Senator Landrieu. I want to give everybody some time, and 
if we take too much--but I promise you, we will come back in 
the question and answer.
    Dr. Vance, would you just give a brief overview of your 
vision, where you think the school system is now, where would 
like to see it and actually believe it could be in ten years? 
What is the greatest reform you think has been accomplished or 
is in the process, and what are the two barriers that you see?
STATEMENT OF DR. PAUL L. VANCE, SUPERINTENDENT, 
            DISTRICT OF COLUMBIA PUBLIC SCHOOLS
    Dr. Vance. I think simply stated, my vision is one that can 
be shared with you, and it goes like this.
    My vision is for us to have a school system where parents 
of children who are school age can stick their chests out and 
say, you know, ``I am proud, because my youngsters attend a 
DCPS public school.'' That has to be the vision.
    That is the vision of every school system I have worked 
with. That is the vision of every school system where I have 
been a superintendent. And I see no reason why that cannot 
eventually be the vision for our school system here.
    I believe we are set out on that course with, what I would 
consider to be, some very strategic planning. I am aware of the 
fact that we have made some gains.
    But in a moment of candor, the longstanding, deeply 
entrenched challenges remain, unacceptable test scores--and 
they are unacceptable--inadequate infrastructure that is broken 
and one which we are in the process of correcting; ineffective 
systems that have been allowed to exist; other challenges such 
as the much publicized recent budget ills that have been 
unearthed along the way.
    Yet, I insist that we are undeterred and will remain 
focused on the highest priority of this school system and any 
school system, and that has to be student achievement. And the 
true measure of a quality school system will always be the 
success of our students.
    This is our motivation in school safety. It is our 
motivation in procurement and finances. It is our motivation in 
professional development and human resources. It is our 
motivation in transformation schools. And it is our motivation 
in the content of our curriculum.
    So to me, this is our motivation in every dollar that we 
spend, and that is to facilitate classroom teaching and 
learning, and the success of our children with their various 
levels of achievement.
    That, in effect, is where I think we are now. And those are 
some of our immediate short-range goals and some of the 
challenges.
    But I do think that, to me, our greatest accomplishment of 
the past year has been the extent to which this entire city at 
all levels of government and higher education joined together 
to work with the school system to develop a strategic plan for 
the transformation of our school system, which placed the 
school system as one of the highest priorities in the continued 
renaissance of the District of Columbia.
    Senator Landrieu. Yes.
    Dr. Vance. And there is a plan simply stated under the 
guidance of McKenzie and Company, that impacts the key building 
blocks in making any school system successful.
    One is what you mentioned, develop, attract and retain 
excellent principals and teachers. Last year, in a period of 1 
year, you will recall we fired almost 600 teachers who were not 
qualified.
    Working with Teach for America and other organizations and 
our human resource department, we hired, we believe to be, very 
highly qualified teachers, over 650 of them.
    We also went through the process of hiring and selecting 41 
new principals. Just about 25 percent of those principals were 
recruited from outside of the District of Columbia. And we have 
programs for their continued development and induction into our 
school system.
    [The statement follows:]

                  Prepared Statement of Paul L. Vance

    Good morning, Chairman Landrieu, members of the subcommittee, and 
others in attendance. I am Paul L. Vance, Superintendent of the D.C. 
Public Schools and am pleased to appear before you this morning to 
share with you the progress of our school district. In the past year, 
we have undertaken many administrative actions and initiatives that are 
effectively moving the D.C. Public Schools toward our transformational 
goals, the school reforms envisioned by the leaders of this city, and 
the vision of President Bush and Secretary Paige in which no child is 
left behind.
    Approximately 1 year ago, our administration was steeped in a 
comprehensive assessment of school operations and a host of exciting 
new beginnings. We had just put a senior executive team in place, had 
kicked-off the development of our strategic business plan and had 
recently announced our new D.C. Teaching Fellows. We were publicizing 
corporate and community support for our new Technology High School at 
McKinley and were planning a comprehensive, extended day summer school 
program.
    One year later, the planted seeds have yielded its first fruits. 
Our business plan is completed and is now guiding special education 
reform and the transformation of central administration. The response 
to the Teaching Fellows program exceeded all expectations, bringing 
many gifted mid-year professionals to our classrooms. The principal 
hired for the new Technology High School is now overseeing all phases 
of this project in preparation for opening in September 2003. The new 
Oyster Bilingual School, our first new construction project in over 20 
years and product of a creative public-private partnership, opened in 
September. And, our highly successful summer school program became a 
model for the expanded day programs and opportunities that will become 
standard in all transformed schools.
    We are pleased, but ever so cognizant that our visible progress 
remains in the realm of beginnings. The long-standing, deeply 
entrenched challenges continue--unacceptable test scores, inadequate 
infrastructure and broken, ineffective systems. Other challenges, such 
as our recent budget ills, have been unearthed along the way. Yet, we 
are undeterred and remain focused on highest priority of academic 
achievement. The true measure of a quality school system will always be 
the success of its students. This is our motivation in facilities and 
school safety, in procurement and finances, in professional development 
and human resources, in our transformation schools and the content of 
our curriculum. This is our motivation in every dollar that we spend--
to facilitate classroom instruction, to improve academic achievement 
and to expand educational opportunities for all students. We simply 
cannot claim success until the majority of our students are proficient 
or advanced in both reading and math and until every child's education 
fully enables that child to stake out his or her place in the world.
    We are years from complete reform, but we have exhibited a 
commitment to accountability and higher expectations. This year, in the 
name of accountability we undertook many things--some new, others long-
deferred. The successful immunization of roughly 21,000 in period of 
just over 2 months began with a tough decision by the Board of 
Education to hold ourselves accountable for the fundamental well being 
of children. This was a significant milestone in the perpetuation of 
high standards and accountability, and commitment to community and 
government working harmoniously.
    I briefly mention other noteworthy accomplishments.
  --This year, we got the school year off to a good start by certifying 
        to the Board and Council that all ordered textbooks were 
        delivered to every school in time for school opening;
  --This school year, we enforced certification for ALL TEACHERS, even 
        before the new ESEA authorization, and strengthened teacher 
        recruitment so that we were successfully able to hire 527 new 
        teachers with improved staff work, better use of technology and 
        marketing and support from our D.C. Teaching Fellows Program 
        and partnership with Teach for America;
  --This year, we focused on schools leadership and developed, in 
        partnership with the Council for Basic Education, the 
        Principals Instructional Leadership Academy that included a 
        Summer Institute for senior high principals and the 39 new 
        principals that we hired;
  --This year, we focused on high schools with our blue-ribbon panel, 
        comprehensive assessment that yielded important recommendations 
        to guide senior high school transformation;
  --This year, our new Advanced Placement Office that has increased AP 
        class enrollment, teacher training, and the number of students 
        taking the SAT;
  --This year, we expanded programs for girl's athletics to move us 
        closer to Title IX equity;
  --And this year, we have begun to more effectively link key 
        components in the academic arena, e.g., state-of-the-art 
        curriculum, standards, assessments, benchmarking, professional 
        development and state-of-the-art technology.
    The major undertakings of which we are most proud are school 
transformation and school facilities. The major undertaking that 
continues to offer the greatest challenges is special education. But, 
here, too, we are undaunted and are confident that we will finally put 
all of the pieces in place.
  --For school transformation, we began operating nine transformation 
        schools referred to as T-9 Schools. Transformation is a fast 
        track approach reserved, initially, for the lowest performing 
        schools so that these schools will move more quickly toward 
        overall institutional reform. The focus of these first months 
        has been both on literacy and professional development so that 
        the proven instructional models that are being implemented in 
        the T-9 schools are implemented effectively. The focus on 
        literacy helps to establish an appropriate academic environment 
        and is intended to give students the foundation essential to 
        improved achievement. It is early, but we are beginning to see 
        signs of the multi-faceted benefits of fixing the problem 
        rather than treating the symptoms. We are anxious to assess one 
        full year of operation as we prepare to support more schools in 
        similar fashion;
  --In the area of school construction, we have made substantial 
        progress in rectifying the unacceptable condition of our school 
        facilities, holding ground- breakings for six school 
        construction and modernization projects, with several more on 
        the horizon. These are the first fruits of implementation of 
        our facilities master plan which calls for the modernization 
        and replacement of 143 facilities over a 10-12 year period and 
        a $2.4 billion investment in our children and in the future of 
        this city. But, it is important to note that we continue to 
        face challenges as we move toward our school facility 
        improvement goals. Space in schools and former school 
        buildings, once viewed as underutilized and surplus, is needed 
        throughout the city for the in-house special education programs 
        that will meet student needs, cut transportation requirements 
        and reduce private tuition costs. Space is also needed to 
        accommodate fluctuations in class sizes, to house wraparound 
        service providers that will become the hallmark of 
        transformation schools, and to serve as swing space for 
        students displaced by new construction.
  --Finally, to meet our greatest challenge of special education, we 
        are implementing a seven-point plan for Special Education 
        Reform. The plan has seven strategic points, each with a set of 
        outcomes, measures, cost savings, as well as management 
        initiatives, detailed action plans, timelines and deliverables. 
        The seven strategic points are: Accept responsibility at all 
        levels to serve students at their local schools; strengthen 
        DCPS internal special education capacity and offerings; improve 
        management of the use of non-public providers; improve 
        management and operations within the Office of Special 
        Education; effectively manage transportation; establish new 
        legal, legislative and policy strategies; and build creative 
        partnerships with other agencies.
    We are currently finalizing partnerships with private providers to 
serve our special needs students within the city at significantly lower 
cost than private providers in surrounding jurisdictions. We are also 
just beginning to implement a staggered bell schedule for SY2002-2003, 
now possible after the re-negotiation of the contract with the teachers 
union. We continue to improve our Special Education Tracking System 
(SETS), which was audited at 94 percent accuracy at 128 of 152 schools 
earlier this year, to provide better services and funding to serve our 
students with special needs. And, notably, we are working with leaders 
from the Mayor's office, the D.C. City Council, OCFO, and other city 
agencies to form a Task Force on Special Education that will help to 
monitor, support, and implement the most complex, cross-cutting 
components of special education reform.
    Our progress on many fronts is pursuant to our business plan and 
transformational goals that are essential to placing the DCPS house in 
order. The plan is focused on the performance and measurement that 
represent the imposition of high standards that will yield long-term 
results. This is a mode of operation--a way of doing business where by 
every opportunity is maximized to the advantage of students. While we 
cannot accomplish everything at once and as quickly as we would hope, 
given the urgency of our tasks, we are confident that if we stay the 
course, knowing what to do and how to do it will get us there. The 
longstanding challenges can and will be resolved with due diligence and 
fiscal responsibility.
    We are working with the leadership and members of the Board of 
Education, the Council and our Mayor to build a rock solid foundation 
of resources and support, and to solve our budgetary woes once and for 
all. We are pleased with the support we are receiving from the 
community at large and believe that our sharing of information with our 
many constituencies and overall transparency are multiplying our early 
successes through heightened awareness and increased participation.
    We move confidently toward a future, step-by-step, that is within 
our reach. But, beyond the range of our 3-5 year business plan and the 
milestones we will have passed, a new school system will emerge that is 
responsive and relevant to the needs of all children and the needs of 
our community. This will be a school district in which the students 
with special needs are served in such way that education for all 
children becomes equal opportunity and student accomplishment. This 
will be a school district where schools are synonymous with the 
enterprise of learning and those activities and services that support 
this process. This will be a school district where parents are truly 
partners, and one in which the entire community feels ownership.
    We are pleased to have been given this opportunity to make a 
difference in this community and to do right by our children. We are 
appreciative of your interests and involvement and would be pleased to 
address any specific questions you might have.
    Thank you.

    Senator Landrieu. Okay. Let me ask this: You then stated 
that the greatest reform has been the unity, the development of 
a strategic plan and the unity around that specific plan. And 
then you cited two specific examples, the hiring of 600 better 
qualified, more energetic, more motivated teachers, and 41 new 
principals.
    What are the two barriers that you see, the largest, 
looming barriers from your view as superintendent, and how are 
you trying to address these two specific barriers?
    Dr. Vance. My perspective on that question is, barrier 
number one is that the District of Columbia and the school 
system are really not seen as competitive. They are really not 
seen as the places where bright, energetic people who, one, who 
are new to the profession or those who are at mid-careers and 
choose to make a change in their profession and to come into 
education, do not see the District as a viable alternative that 
has history to it.
    Senator Landrieu. Yes. And what would the second one be?
    Dr. Vance. The second one would be an internal feeling 
amongst the school system employees, which means that ``No one 
really loves us''----
    Senator Landrieu. Okay.
    Dr. Vance [continuing]. Or ``No one really cares for us. No 
one is really preoccupied over us, our well-being, and what we 
have been doing over the years to try and to keep the school 
system together.'' And so I would say the second serious 
challenge is the level of morale amongst our employees----
    Senator Landrieu. Low morale.
    Dr. Vance [continuing]. And particularly of those of some 
standing and tenure in the school system.
    Senator Landrieu. Okay. Thank you very much.
    Ms. Graham.
STATEMENT OF CAROLYN GRAHAM, DEPUTY MAYOR FOR CHILDREN, 
            YOUTH AND FAMILIES, GOVERNMENT OF THE 
            DISTRICT OF COLUMBIA
    Ms. Graham. Good morning, again, Senators Landrieu and 
DeWine. On behalf of Mayor Williams, I want to applaud you for 
this hearing this morning and certainly our presence here to 
begin what we are hoping to be an ongoing dialogue with you and 
with the city around the reform of public education here.
    Mayor Williams's vision for public education in the 
District of Columbia is that of a vital, effective system that 
is made up of school choice, which gives every child access to 
a high quality education in a safe, healthy environment.
    That vision recognizes that all children must come to 
school prepared to learn, so we are not looking at school as 
beginning within the walls of the public system, but rather 
within the context of community, which means schools now must 
be linked in a new and a different way to the community process 
and learning.
    It is a vision that recognizes that all children are taught 
to be responsible citizens and they make valuable contributions 
to their local, as well as global, communities; and that all 
children have access to adequate social support that will 
support their ongoing learning. And it is a vision of a system 
in which teachers and principals can both inspire and be 
inspired, and where parents are viewed as partners in the 
learning process.
    It is a vision of a system where all school buildings are 
safe and sound and adequately equipped with modern technology. 
And finally, it is a vision of a system that exemplifies the 
health and vitality of this capital city, one that can become a 
national, indeed an international model for success and 
achievement, attracting and producing the best and the 
brightest educators and students that the world has to offer.
    We believe that the school system now is in the process of 
change. It is in flux. It is a system that is embracing now 
many of its own historical issues and problems. Actually, many 
of those issues have come to light.
    Certainly under Dr. Vance's leadership, Mr. Chavous' 
leadership on the Council, and Ms. Peggy Cooper-Cafritz's 
leadership on the Board, the administration has begun to 
embrace the issues, the historically embedded issues of the 
system. And I believe it has begun to move, to move forward in 
making the necessary changes in the infrastructures that Dr. 
Vance alluded to.
    I believe that some of, or one of the major achievements of 
this system over the past year and a half or so has been the 
unity that has emerged with all of the branches of government, 
committed to the one goal, and that is the reform of the 
overall public education system and the embrace of systems that 
not only begin, as I said, in community, but also transcend the 
walls of the public system itself, looking at the relationship 
between lifelong learning that finds a place in out-of-school-
time activities for children and also beginning now to 
understand the vital role that parents play in the overall 
strengthening and learning process of children.
    Thank you.
    [The statement follows:]

                  Prepared Statement of Carolyn Graham

    Good morning Chairwoman Landrieu, and members of the Committee. My 
name is Carolyn Graham, Deputy Mayor for Children, Youth, Families and 
Elders in the District of Columbia, and I am here to testify on behalf 
of Mayor Anthony Williams. I am accompanied by Mr. Gregory McCarthy, 
Deputy Chief of Staff for Policy and Legislative Affairs. It is a 
pleasure to be here today to discuss the Mayor's vision for public 
education and for the children and youth of the District of Columbia.
The Vision
    Mayor Anthony Williams' vision for public education is a vital, 
effective a system of traditional and charter schools that gives every 
child access to high quality education in healthy and safe 
environments. It is a system in which all students: (1) come to school 
ready to learn, and leave with the necessary skills to be successful in 
today's technologically advanced society; (2) are taught to be 
responsible citizens and to make valuable contributions to their local 
and global communities; and (3) have access to adequate social services 
to support their learning. It is a system in which teachers and 
principals can both inspire and be inspired, and where parents are 
partners in their children's academic development. It is a system where 
all school buildings are safe, sound, and adequately equipped with 
modern technology. And, finally, it is a system that exemplifies the 
health and vitality of this capital city, one that can become a 
national model of success and achievement, attracting and producing the 
best and brightest educators and students.
    Recognizing that progress has been made since 1995 when Congress 
passed the D.C. School Reform Act, the District is still faced with 
many challenges. Many students enter school with developmental 
challenges that have not been effectively identified and addressed. 
Moreover, we recognize that the District must do more to improve 
student achievement scores in kindergarten through 12th grade. In 
school year (SY) 2000-2001, some 25 percent of District of Columbia 
Public Schools (DCPS) students scored below basic on the Stanford-9 
Reading test and 36 percent scored below basic in math. The more 
significant challenges include a rapidly growing special education 
population, increasing demands for adequate facilities for both 
traditional and charter schools, and the need to retain a highly 
qualified teaching staff.
    Indeed, the District is a long way from fully realizing the Mayor's 
vision. Mayor Williams looks forward to continued collaboration among 
his Administration, the City Council, the D.C. Board of Education, the 
D.C. Public Charter School Board, the DCPS Superintendent, and other 
city leaders, to make our combined goals a reality.
Priorities for Achieving the Vision
    Educating our children continues to be the first and foremost 
priority of Mayor Williams' Administration. Indeed, this is absolutely 
central to the Mayor's broader effort to expand our economy, attract 
new residents, and revitalize our neighborhoods. The Mayor is focusing 
on a number of goals in the area of education that will help to achieve 
his vision. These goals support the reform agenda and other initiatives 
of the Board of Education and the Superintendent, and marshal the 
resources of the executive branch around the following:
            Adequately Funding Public Education
    The Mayor, with the support of the City Council, approved 
significant budget increases for schools. Funding for public education 
has increased by 44 percent over the last 4 years; going from $558 
million in fiscal year 1999 to $800 million in fiscal year 2002. 
Moreover, the Mayor's fiscal year 2003 proposed budget, currently 
before the District Council is $906 million, another increase of 13 
percent over fiscal year 2002.
    The Mayor has maintained his commitment to fund public education 
through a transparent, sound process. Prior to the enactment of the 
Uniform Per Student Funding Formula (``Formula''), funding for the DCPS 
was based on the expressed needs of the system and the District's 
ability--at that time--to meet those needs within limited existing 
revenues. The Formula, as prescribed in the District of Columbia School 
Reform Act, is a budget development and execution process that was 
designed to protect DCPS from the public competition over scare 
resources. It provides a more structured, data-driven, equitable 
approach to funding both DCPS and public charter schools. The fiscal 
year 2003 proposed funding level is largely based on an analysis of the 
Formula conducted by the District's State Education Office (SEO), and 
includes an 11 percent increase in the Formula's foundation, which is 
the minimum amount a funding each student receives. It also adjusts the 
funding level for special education services. Although the District is 
still behind some of our neighboring jurisdictions on per pupil 
spending, implementation of the revised Formula will move us closer to 
parity.
    One of our biggest challenges with respect to financing public 
education is special education. The special education population is 
approximately 17 percent of the overall DCPS student population, while 
it is 11 percent of the public charter school population. The cost of 
educating special education students, particularly those in non-public 
placements outside of the District, far exceeds that of general 
education students. Transportation and non-public school tuition costs 
for special education students are a huge strain on the District's 
budget. However, the District is coming together to aggressively 
improve the operations of special education. To provide the 
comprehensive support that DCPS needs, the Mayor, in collaboration with 
Councilmember Chavous and the Board of Education, is creating a 
Taskforce on Special Education.
            Supporting a Vibrant System of Public School Choice
    Washington is home to one of the most vibrant charter school 
movements in the country. The D.C. charter school law is rated among 
the top five in the Nation by the Center for Education Reform. Since 
1996, both the Board of Education and the D.C. Public Charter School 
Board, our two chartering authorities, have approved a total of 38 
charters. Currently, there are 36 public charter schools operating on 
39 campuses in the District with a total enrollment of more than 8,000 
students.
    The vitality of charter schools is testimony to the Mayor's 
commitment to competition within a system that give parents choice. Our 
charter schools offer a variety of educational programs including math 
and science, technology, arts, English as and Second Language (ESL) and 
dual language immersion, character development, public policy, and 
college preparatory study. They also offer many approaches to learning 
including individualized instruction, small academies, and schools 
within schools. Despite our efforts, the problem of adequate facilities 
to house our newest public schools still exists. The District has not 
been able to meet the need or demand for space, but we are working with 
both the public charter schools and DCPS to resolve the problem.
    The charter school movement is very young and it is still too early 
to judge the long-term success of these institutions. We anxiously 
await the completion of the 5th-Year Review currently underway at two 
of our first charter schools. Several other schools will be up for 5th-
Year Review within the next year.
            Providing Healthy, Safe, Technologically Appropriate 
                    Facilities for Every Child
    The desire for quality school facilities continues to be one of the 
key priorities of District citizens. The Facility Master Plan developed 
by DCPS in December 2000 outlines an ambitious 10 to 15 year proposal 
to ensure that all DCPS schools are safe, sound, educationally 
appropriate and efficient to operate. Currently, there are 150 
operating elementary, middle, junior high, high schools and special 
education centers in DCPS. The average age of these schools is over 65 
years, with eight schools constructed in the 19th century. Oyster 
Elementary School, which was completed in fall of 2000, was the first 
school to be built in over 20 years. Some 70 percent of DCPS schools 
have been determined to be in poor physical condition.
    The bulk of DCPS buildings were designed for a different society. 
There are no health suites, no early childhood classrooms, and, in some 
cases, no lunchrooms. These schools were not designed with summer 
school in mind, many are not fully accessible to persons with 
disabilities, and play and parking spaces around the buildings are less 
than adequate. Because most of the schools were built prior to the use 
of modern technology, they are not wired for Internet access or 
outfitted to meet today's technology needs. In addition to limited 
technology, many schools face problems with basic systems such as 
windows, roofs, boilers, and ventilation systems. More importantly most 
schools lack educational amenities such as science labs, art rooms, and 
up-to-date career and technology facilities, etc.
    The Facility Master Plan represents the largest school construction 
program in generations, and it reflects the urgency ascribed to 
rebuilding our schools after decades of disinvestment. The projected 
cost of implementing the Facility Master Plan, which will modernize or 
replace 143 schools over the next 10 to 15 years, is more than $2 
billion.
    There is $183.4 million in the fiscal year 2003 DCPS capital 
budget, and a total of $694 million over the next 6 years. In order to 
align the District's capital budget with identified facility needs 
within the proposed 10 to 15 year timeframe, additional funding will be 
required in future years. Because of structural funding problems, such 
as the District's limited bond and debt capacity, as well as the fact 
that DCPS must compete with other city agencies for limited capital 
dollars, full funding of the Facility Master Plan will present major 
challenges. District leaders have begun a dialogue around ways to 
augment current capital funding levels. One promising solution is the 
Fair Federal Compensation Act (H.R. 3923) introduced by the District's 
Delegate, Representative Eleanor Holmes Norton and supported by Mayor 
Williams and District Council Chair Linda Cropp. This bill will create 
a dedicated infrastructure fund to be used for funding capital 
improvements, including school construction.
            Supporting DCPS Efforts to Attract School Leadership for 
                    the 21st Century by Recruiting and Retaining 
                    Outstanding Principals and Teachers
    Teachers are one of our city's most treasured resources. We cannot 
afford to lose our best teachers because they are tempted by better 
salaries and working conditions in neighboring counties. In an attempt 
to attract and retain good teachers, the Mayor has dedicated 
significant resources to more adequately compensate our teaching staff. 
He has supported a 20 percent increase in teacher salaries over the 
next 3 years. This proposed funding level will bring the District of 
Columbia closer to parity with surrounding jurisdictions.
    Other efforts to improve the quality of our teaching staff include 
the D.C. Teaching Fellows program, which attracts professionals from a 
variety of careers. These new teachers bring their experiences, 
knowledge and record of achievement to the classroom and positively 
affect the lives of students. Teaching Fellows receive financial 
incentives including signing bonuses, reduced mortgage and low/no down 
payment programs for home buying, educational awards to assist with 
tuition costs, vouchers for classroom supplies and cancellation or 
deferment of student loans. In addition, under the leadership of the 
Board and with the support of the Mayor, DCPS has successfully 
implemented the LEAD Principal program, which will recruit and train a 
cadre of highly qualified principals.
            Supporting DCPS Efforts to Turn Around Low-Performing 
                    Schools Through Wrap-Around Services and Out-of-
                    School Time Programming
    In support of the DCPS's Transforming Low-Performing Schools 
initiative, the Williams Administration launched a partnership with the 
DCPS, called Transforming Schools into Neighborhood Places. This effort 
brings together two essential goals: (1) providing an array of social 
services in a community-based setting; and (2) integrating social 
services around schools to improve the lives of children and families. 
With the support of the Annie E. Casey Foundation and other 
philanthropic organizations, D.C. Government agencies will provide an 
array of support programs including on-site mental health services, 
recreation programs, and literacy at nine schools that have shown four 
continuous years of low- or stagnated-performance on academic tests. 
The Department of Mental Health has already begun providing mental 
health services in the Spingarn cluster of the DCPS system and will 
expand services into each Transformation School.
    An integrated data management system, called the Safe Passages 
Information System (SPIS) is being created to support the Transforming 
Schools into Neighborhood Places partnership. The Safe Passages 
Information System will enable the District to better track services 
being delivered to children throughout the District of Columbia. The 
effort is the initial phase of a redesign of the human services 
delivery system that will be focused on integration and coordination of 
data-sharing across agencies.
    To increase the availability of structured programs available to 
youth during the critical hours of 3 p.m. to 8 p.m. daily, Mayor 
Williams created the Children and Youth Investment Trust Corporation 
(The Trust) in 1999, which provides out-of-school time programming to 
children and youth in the District. The Trust Corporation is an 
independent, nonprofit organization incorporated to ``. . . increase 
the quality, quantity, and accessibility of services,'' particularly in 
the areas of early childhood development, out-of-school time programs, 
and youth entrepreneurship opportunities, by leveraging public and 
private funds. To date, the District has provided more than $22.5 
million to the Trust, which funds more than 70 community-based 
organizations throughout the District. During fiscal year 2002 alone, 
21 community-based organizations were added to the partnership of 
grantees. The Trust Corporation reports that over 1,500 children and 
families will be served through these new awards. Two of the programs 
selected this year serve as parent centers, and six were selected for 
literacy initiatives.
    Much of the Trust Corporation's efforts center on residents east of 
the Anacostia River in Wards 6, 7, and 8. Each Trust grantees has 
specific areas of focus. Early Childhood Development grantee partners 
focus on parent education, social services, and the immunization and 
health of very young children (newborn to 5 years of age) to ensure 
these children are ready to learn. Out-of-School Time grantee partners 
engage older children and youth in stimulating and enriching curriculum 
in the critical hours before and after school, weekends, holidays and 
summers. Youth ages 12-21 benefit from the career training 
opportunities and personal development experience offered by Youth 
Entrepreneurship Trust Corporation grantee partners. These grantee 
partners offer a tremendous variety of innovative programs across the 
District, each with a unique approach to quality programming. In 
addition to funding the Trust, the District provided $12 million to 
D.C. Public Schools to provide before and after-school programs to 
District youth. During the summer of 2001, day long academic and 
enrichment programs were available to all children in the District at 
more than 110 District schools.
            Fostering Effective, Structured Interagency Collaboration
    While the Transforming Schools Initiative is a prime example of the 
renewed commitment to our interagency collaboration, the District is 
also launching an interagency initiative designed to create a more 
coordinated approach to the provision of literacy services. According 
to the District's State Education Agency--Adult Education Office, 37 
percent of the District's adult residents are reading at or below the 
third grade level. In an effort to ensure that adults have access to 
quality learning services that enable them to actively participate and 
fulfill their roles as parents, workers and citizens--through a 
combination of adult education, child education, interactive parent-
child activities, and parenting classes--the District and the Workforce 
Investment Council (``WIC'') are spearheading city-wide family and 
workplace literacy initiatives. Through the partnership with WIC, a 
Literacy Coordinating Council will be established to use existing and 
new resources more effectively.
    The WIC is an existing entity that was named by Mayor Williams to 
serve as the District's Workforce Investment Board, as required under 
the Workforce Investment Act. WIC is a private-public partnership 
comprised of key business, education, labor, government and community 
leaders to ensure that the District's workforce needs are met.
    Agencies under the Children, Youth, Families and Elders Cluster and 
the WIC will continue to work collaboratively and employ a multi-facet 
approach to increase family and workplace literacy throughout the 
District of Columbia. To provide just one example of this type of 
collaboration--in fiscal year 2001, the Department of Human Services, 
D.C. Public Libraries, the District's State Education Agency, the 
Department of Employment Services, the Workforce Investment Council and 
many private sector employers held the District's first 3K Literacy 
Walk. A series of book readings and reviews followed and interagency 
partners worked together on a regional book collection drive. The 
Williams Administration would like to see this type of collaboration on 
literacy initiatives continued and expanded upon over the next three 
years.
            Expanding early childhood intervention, such as increasing 
                    child care slots, and opening parent development 
                    centers
    The District has developed more than 9,261 new childcare slots for 
TANF and low-income families in fiscal year 2001. In fiscal year 2002 
we are aiming to increase this number by approximately 500 slots. To 
improve the quality of programming the Office of Early Childhood 
Development is encouraging more child development centers to seek 
national accreditation by offering a Tiered Payment System that awards 
higher subsidy payments to centers that are nationally accredited. The 
Tiered system categorizes child development and Head Start centers as 
either Bronze, Silver and Gold based upon their implementation of 
accreditation standards that focus on teacher certification, 
information technology application and other key indicators. The 
Department of Parks and Recreation is leading the way by having 
achieved national accreditation for more than 20 of its 21 child 
development centers.
    Parent development programs are also essential to ensuring that all 
children and youth live in healthy, stable and supportive families. The 
District, through the Department of Health and the Trust Corporation 
have emphasized parental readiness by offering innovative support 
programs for parents, especially parents of newborns. The Department of 
Health offers parental support through its Newborn Home Visitation 
programs which offers home visits to parents of newborns within 48 
hours of discharge from the area's major birthing hospitals--Columbia 
Hospital for Women, Howard University Hospital, Georgetown Hospital, 
Providence Hospital, the Washington Hospital Center, Greater Southeast 
Hospital and George Washington Hospital. The Children Youth Investment 
Trust also funds 8 early childhood/parent development centers 
throughout the District to provide support for parents of children ages 
newborn to 5 years.
                               conclusion
    Much has changed over the last few years, as our school system 
emerged from crisis to steady and measurable progress. Perhaps the most 
significant change is that the city's elected and appointed 
leadership--the Schools, the Board of Education, the Executive, and the 
City Council--are working together closely to advance a reform agenda. 
The Board and Superintendent Paul Vance have made early strides in 
improving education and promoting a sense of hope and reform in the 
system. Top-level staff are similarly equipped to provide effective 
leadership.
    I have attempted to outline the Mayor's vision for education, and 
how the Administration has set out to achieve these ambitious goals. To 
date, effective partnerships have been formed with the Board and 
Superintendent and the Williams Administration around critical issues 
in the school system such as transforming low-performing schools, child 
immunization, and special education. The City Council, particularly 
through the efforts of Councilmember Kevin Chavous, has been very 
supportive of this work. As we move forward, we must continue to work 
jointly to solve the challenges ahead of us. We will also be calling on 
the support of the Congress as we continue to make strides and tackle 
obstacles.
    Thank you for the opportunity to testify before you and I welcome 
any questions at this time.

    Senator Landrieu. Okay. You cited the specific advancement. 
What are the two barriers that, from your position, you see as 
substantial barriers to achieving the vision that you just 
outlined?
    Ms. Graham. We must have significant capital investments 
and new facilities in the system. The first new building that 
was built in over 20 years came on line this year in the 
District of Columbia, realizing the goal certainly of the 
capital plan to create healthy learning environments for 
children that are community centered and linked will be 
important.
    The next most significant, if not maybe the first 
significant, issue facing this system is, of course, special 
education, and the relationship of that and the financing of 
that, and the way in which--the fact that the school system 
does not have, at this point in time, the adequate 
infrastructure to do the kind of Medicaid billing and whatnot 
that supports this, the financing of special education in the 
City.
    It is a system that has largely been over the past years 
defined as a system that is a special education system. We must 
flip that paradigm. It must be a system that embraces the needs 
of all children.
    Senator Landrieu. Okay. Thank you.
    Mr. Chavous.
STATEMENT OF COUNCIL MEMBER KEVIN P. CHAVOUS, CHAIR, 
            COMMITTEE ON EDUCATION, COUNCIL OF THE 
            DISTRICT OF COLUMBIA
    Mr. Chavous. Thank you, Senators, Senator DeWine and Madam 
Chair. It is good to be with you again and I thank you both for 
your commitment to the City.
    Let me just briefly speak to my vision. The benefit of 
going last is you get to hear everyone else, then I can 
highlight and amplify some things you may have already heard.
    The overall vision is that each and every child in the City 
has equal access to a quality education. The way I view that 
would mean that starting as early as age three, every child 
would have access to a quality based pre-K program. They would 
be well nourished, well supported in their homes and in their 
neighborhood, and we would be well on our way toward educating, 
not just the child, but the whole child and the whole family.
    That means that our system would have to be working in 
tandem with the other social services entity, or entities in 
the government, so that we are able to, early on, diagnose and 
ascertain what ailments afflict not just a child, but the 
family, because those are the type of ailments that impact on a 
learning experience.
    My vision would include school choice, where by the time a 
child enters into first grade, parents have the option of 
sending their children to charter schools. The District has the 
highest percentage of school-age children in charter schools in 
the country. And I think that that, in and of itself, has been 
a major, major reason for some of the reform initiatives.
    I am a strong supporter of charter schools, and they are 
absolutely essential to the future survival of our overall 
public school system. We have to recognize that one size does 
not fit all.
    When you talk about the parents, the frustrations that 
parents have, a lot of those frustrations are based on the 
disconnect between the bureaucracy and the school system and 
their every-day experiences. And my vision would include 
destroying that disconnect so that parents feel that they are 
part of a system that embraces them and that they can, you 
know, they can participate in it.
    In terms of some of our accomplishments, I think that as 
you have heard from some of the other panelists, clearly the 
most important and significant accomplishment has been the 
ability of the mayor, the Council and the Board and the 
superintendent to all work together.
    We meet on a regular basis several times a month. Some of 
the meetings are grueling. Some of the meetings are extremely 
candid, but overall they are productive. It is these types of 
hands-on involvement by the collective leadership in the City 
that will ultimately reap dividends for parents and children. 
And that has been the single most important distinction this 
year as opposed to previous years.
    The second accomplishment I would point to is years ago the 
Council led an initiative through my committee to push the 
system toward better school autonomy. By having a per-student 
funding formula, we were going through the questions about how 
much we spend to educate our children, and we attached all of 
our funding to the child, and then we attached that funding to 
each school.
    That has led to greater control by principals over their 
resources. We are not where we need to be, but school autonomy 
is essential to progress and reform in our school district.
    That leads me to the barriers. The single biggest barrier 
to reform, not just in this school district, but any school 
district in the country, is the entrenched bureaucracy. The 
bureaucracy is self-perpetuating, and it is the antithesis of 
the school autonomy that must occur in the local school level 
for parents to feel a part of what is going on.
    We are now moving well past the days where school 
principals have to requisition downtown to get their books 
ordered and to get a principal--I mean, to get a teacher 
replaced. But some of those days still are with us. And school 
choice will not work, innovative and creative programing will 
not work if you have a bureaucracy that continues to feed 
itself at the expense of our children and our parents.
    I think that is the single biggest challenge that we all 
have in trying to move a reform agenda forward; that is, the 
bureaucracy that is in existence, not just in this school 
system, but in others.
    Second, along with Deputy Mayor Graham, I agree that 
special education is a huge problem right now. I think the 
problem is more immediate, because we have not done some of the 
other things that would naturally cut into the special 
education problem.
    If we educate the whole child, if we have quality pre-K at 
age 3 for every child in the City, and we are able to diagnose 
the problems attendant with them, with those children, then 
that will cut into the expenses that we spend at the end of the 
equation with special education when we realize that at age 13 
and 14 we are losing these children because we did not give 
them what they needed early on.
    So those are just my thoughts in terms of some of the 
questions you raised.
    [The statement follows:]

                 Prepared Statement of Kevin P. Chavous

    Good morning, Chairwoman Landrieu, and members of the Subcommittee. 
Thank you for your invitation to testify at this hearing today to 
discuss the vision as well as the status of education in the District 
of Columbia public school system, and report on the efforts and 
progress that the Council of the District of Columbia, the 
Administration, the District of Columbia Board of Education, and the 
Public Charter School Board have made in implementing the requirements 
of the District of Columbia School Reform Act of 1995.
    As you are aware, we are in the midst of major school reform in the 
District of Columbia. With the selection of Dr. Paul Vance as 
Superintendent, the new School Board and the active involvement of the 
Mayor and the Council, I am more optimistic about the future of public 
education in the District than ever before. As education stakeholders, 
we have all formed an intimate partnership that includes regular 
meetings and, ultimately, policy consensus in a number of areas.
    It is our vision that each and every child has equal access to a 
quality education. We are caretakers to our kids and this is the most 
sacred public trust--how we approach educating our children. With this 
in mind, we need to recognize some of our failures in the past--How 
bureaucracy, cronyism, and misplaced priorities negatively impacted our 
vision. Now, with our new leadership, we are collectively and 
aggressively working to reform the system and stay true to the needs of 
our children.
    From the Council's perspective, specifically, through my Committee 
(Education, Libraries and Recreation), we have been instrumental in 
providing both legislative and budgetary support for our schools, as 
well as vigilant oversight of their activities. Over the past 5 years, 
we have added over $400 million new dollars to public education. This 
amount includes new money for our charter schools, which I have been 
one of the strongest proponents for.
    The Council has also passed far-reaching school reform legislation 
that has improved the quality of education that our children receive. 
For example, the composition of the School Board has been changed. We 
now have a hybrid School Board which is comprised of appointed and 
elected members. Additionally, my legislation created the State 
Education Office, which was designed to be an independent monitor of 
State related functions administered by both the District of Columbia 
Public Schools (DCPS) and District of Columbia Public Charter Schools 
(DCPCS). These successes demonstrate that we are poised to continue to 
implement reform efforts in the public schools.
    One of the areas ripe for reform is the area of early childhood 
education. Last summer, I introduced legislation that would lower the 
compulsory school attendance age from 5 years old to 3 years old. This 
legislation will build upon the success that has been experienced by 
the Office of Early Childhood Development. To explore the viability of 
this unprecedented piece of legislation, I appointed the Commission on 
Primary Education Reform and have partnered with the American 
University to develop a blueprint for its implementation. This 
blueprint has been completed and we are reporting on the findings in 
city wide town hall meetings taking place throughout our city. Our 
third one is tomorrow evening at American University for Wards 3 and 4.
    Late last year, this same panel testified in the House of 
Representatives on the financial crisis that faced our schools. 
Although we have made much progress in addressing the issue of 
overspending, the real solution to solving the special education 
problem lies in a deeper commitment to providing services to our 
children within the City's borders and also a more united approach to 
addressing the Special Education transportation problem. To this end, 
the Mayor and I have created a special taskforce on special education 
to act as a collaborative partnership to not just monitor the school 
system's progress in implementing its special education plan; but also 
to ensure that specific government agencies are there to provide the 
needed and immediate support.
    This ``across agency line collaborative'' approach is significant 
because one of the biggest underestimated challenges confronting our 
children, is the social conditions in which they live. Many of our 
parents are not socially or financially equipped to be parents. 
Success, security and growth all stem from a tight social fabric at 
home. If that fabric is torn, our children directly suffer. Home life 
has a major impact on a child's ability to learn. We will continue to 
create partnerships and collaboratives across agency lines to ensure 
that the social foundation is intact. This ingredient is a critical 
component to achieve true education reform.
    Finally, although we face daily tests in the public school system, 
it is of paramount importance that the good work that has been 
accomplished by the educational stakeholders in the District not be 
overlooked or minimized. The Council, the Office of the Mayor, the 
Superintendent of Schools, and the Board of Education are committed to 
transforming the state of public education in the District of Columbia. 
Working together, with the support of Congress, we can build a first 
class education system that can be a national model.
    Once again, thank you for the opportunity to address the 
subcommittee.

    Senator Landrieu. Excellent. I want to thank you all for 
giving us such good, good responses to that question, because 
it really helps us. Each one was able to identify one specific 
reform, and then two remaining barriers. And it will help us to 
make the next decisions, the decisions about what steps this 
committee might take next, to either focus in a certain area to 
help move along some of these reforms.
    But, Peggy, I promised--Ms. Cooper-Cafritz--to get back 
with you, to give you some time to add to the record before we 
go into our questions.
    Ms. Cooper-Cafritz. Well, I would like to give you some 
sense of my vision for the schools.
    Senator Landrieu. Okay. Can you do it in 1 minute, if you 
would?
    Ms. Cooper-Cafritz. Yes. I envision classrooms with high-
quality teachers who have met the requirements of the new 
Federal education law, HR1, the ``Leave No Child Behind'' Act. 
These teachers are supported by a strong instructional leader; 
and teachers and principals are partners with parents who are 
engaged in their children's schools.
    In my vision, teachers are excited about teaching the 
students before them, and the students are eager to learn 
because their needs have been met, and they are able to focus. 
I envision a K-to-12 core curriculum that ensures that each 
child is taught core subjects with equal rigor from 
neighborhood to neighborhood, but it also allows teachers to 
have the freedom to continue to have their individual magic 
touch in each of their classrooms.
    In the next phase of my vision, I see all other critical 
elements falling into place. As a required part of the school 
day, K through 12, I see students participating in intramural--
--
    Senator Landrieu. We need the microphone. I am sorry. You 
need the microphone; is that what you are trying to tell me?
    Ms. Cooper-Cafritz. I am sorry.
    Senator Landrieu. Okay. Go ahead.
    Ms. Cooper-Cafritz. All right. Okay.
    Senator Landrieu. If you could just--about 30 seconds here. 
I know you have got a lot, but that is okay. You are doing 
great.
    Ms. Cooper-Cafritz. Okay. I know the----
    Senator Landrieu. Just go on.
    Ms. Cooper-Cafritz. Okay. I envision us being bold, 
energetically solving problems, getting people like this year's 
Pritzker prize winner Glenn Murcutt of Australia to work with 
DCPS to design a school or schools that are ``green friendly'' 
using materials never used on schools, but that are far less 
expensive on public buildings than conventional bricks and 
mortar.
    I see us building beautiful schools that respect their 
surroundings and recognize that they are for students, not 
prisoners. The best architects charge the same fees as lousy 
ones. The architectural firm of Devrouax and Purnell just built 
a beautiful building for PEPCO. Let us extend such 
architectural beauty to our schools.
    Senator Landrieu. Okay.
    Ms. Cooper-Cafritz. I can see all the other elements 
critical to a good education falling into place.
    Speaking of high schools, I would abolish the institution 
as we know it today. Instead, I would allow high school 
students to test out of core subjects. We would have a 
cooperative program with our colleges and universities so that 
our students could graduate from high school having already 
completed two years of college.
    The core curriculum would be classically based, but would 
embrace Afro-centrism and other racial and ethnic studies. 
Every high school student would take four core subjects, 
English, math, history and a foreign language daily from 9:00 
to 12:00 for 4 years, but would also have available a menu of 
additional vocational and academic opportunities from which he 
or she could select an educational or career path.
    Senator Landrieu. Peggy, let me tell you, I am going to 
have to ask you to submit the rest for the record.
    Ms. Cooper-Cafritz. Yes. Fine.
    Senator Landrieu. And so we need to get some questions into 
the panel.

                           SPECIAL EDUCATION

    Let me start, if I could, with special education. Maybe Ms. 
Graham could--or could anybody identify how many students we 
are speaking about that are in special education and what the 
overall cost generally of special education is, broken down per 
student?
    I understand, and I will just tell you what I understand, 
but if you are getting these for the record, because it is 
important that we get it for the record, I understand that 
there are approximately 7,700 children in special ed.
    I also understand that the cost can range anywhere from 
$10,000 per child to over $100,000 per child. I understand that 
the bulk of these children are in school outside of the public 
school system.
    Could anyone clarify those, just facts, not opinions, but 
just facts for us?
    Dr. Vance. Thank you. I am going to ask Anne Gay, our 
assistant superintendent of special ed to come up to the table 
quickly. Of course, the facts I have here would indicate that 
our latest count indicates that there is a total of 11,666 
students being served in special education.
    Anne.
    Mrs. Gay. Yes.
    Senator Landrieu. Go ahead. We will pull up another chair 
for you, Anne, right here. Kevin is going to get it for you.
    Dr. Vance. Here, why do you not start?
    Mrs. Gay. Okay. Let me just start by saying we do have 
11,666 students now eligible for special education services. 
This is 17.04 percent of the overall school population.
    Senator Landrieu. Okay. And how many do you have on the 
waiting list asking for that designation?
    Mrs. Gay. We have right now a backlog of 239 students 
awaiting initial referrals. We are averaging about 185 new 
referrals, new initial referrals per month.
    Senator Landrieu. Okay. And that is 17 percent of your 
district. Do you know how that compares to other comparable 
districts?
    Mrs. Gay. In Boston, which has about 64,000 students 
overall, they have a little bit over 19 percent of their 
children in special education. So their overall population is a 
little bit smaller than ours.
    Cambridge, Massachusetts, has about 23 percent of their 
population in special education.
    Senator Landrieu. And special education, under the Federal 
definition includes gifted and talented as well as the whole 
range of special education or----
    Mrs. Gay. These are all the students who are eligible under 
the law for special education.
    Senator Landrieu. The Federal law, which ranges from gifted 
and talented to--no?
    Mrs. Gay. No. No.
    Senator Landrieu. Not gifted and talented. This is not 
gifted and talented. This is the children who are challenged.
    Mrs. Gay. Yes, under IDEA, yes, it is the children who are 
identified under IDEA. Of that 11,666 we have 8,997 students in 
our public schools. We have 2,519 in non-public. That includes 
1,916 in non-public day schools, 368 in residential and they 
are, as Dr. Vance alluded to, all over the country.
    There are 234 students who are in what we call interagency. 
These are students who are in foster care in 13 surrounding 
counties and attending those county school programs.
    Senator Landrieu. Okay.
    Mrs. Gay. So approximately 22 percent of ours, of our 
children are placed outside of the public school system.
    Senator Landrieu. And getting a range of costs per each of 
those students--I know this is very hard, because some are a 
few thousand all the way up to maybe your most critical care, 
but what is your range? Is my estimate accurate, $2,000 to 
$100,000?
    Mrs. Gay. Yes. Yes.
    Senator Landrieu. And can you give, you know, or submit to 
the committee, not today, but basically a breakdown just for 
our records about how many students would be in each category, 
like we will submit to you ``Between zero and ten thousand, how 
many children? Ten to twenty thousand, how many children? 
Twenty to thirty thousand, how many children?''
    It is just so that we can get a real clear picture of some 
of the costs associated with special ed, recognizing the 
Federal Government is not, for the District or for any 
districts, picking up the 40 percent of that cost that we 
intended. However, money is not always the answer to every 
problem. And we recognize there are some shortages.
    Senator DeWine, do you have any questions? Because I would 
like to just maybe go back and forth with you on some things 
that you might have.
    Senator DeWine. Sure. Dr. Vance, can you put just kind of a 
face on the student that we are talking about who is a special 
ed student, who cannot get services close by, that you have had 
to contract out, and that child is in a different State?
    Dr. Vance. Yes.
    Senator DeWine. Tell me who that is.
    Dr. Vance. Well----
    Senator DeWine. Not a name, but I mean, tell me: Who are we 
thinking about?
    Dr. Vance. Well, I think in telling you--trying to put a 
profile on the youngster is to describe the conditions.
    A decade ago, when school systems around the country were 
bringing their students home and were preparing local programs 
within local school settings for a range of youngsters who had 
disabilities, the school system, the District school system was 
doing just the reverse. It was sending youngsters out of the 
school district.
    So what we are confronted with today is a two-fold program. 
The problem is we have to build and develop the programs 
locally to see and to take care of those youngsters, while at 
the same time bringing them back from the private school 
placements.
    So I do not know that there is an actual face on those 
youngsters, because the data would indicate, you know, they go 
across the range of disabilities for the----
    Senator DeWine. Well, try me. Try me, Doctor.
    Dr. Vance. Go ahead, Anne.
    Senator DeWine. Explain it to me.
    Mrs. Gay. If I could assist here, our--about 47 percent of 
our population are children who are described as or are found 
eligible as learning disabled. Almost 19 percent of our 
population are now children who are described as being 
emotionally disturbed. The majority of students that we send to 
residential placements, about 70 percent of those students are 
emotionally disturbed.
    I should also say that the school system is not the sole 
party in making the determination that these children need to 
go to a residential. It is often the Youth Services 
Administration, the Juvenile Justice System, or the foster care 
system that we are working with in those determinations.
    The largest percentage of children who are in non-public 
day programs are also--and that is about 34 percent--are also 
emotionally disturbed. And a majority of those students come 
also from foster care, and either foster care children residing 
within the District or, again, foster care children.
    About 248 of those students are foster care children 
attending non-public day programs, but living in Maryland or 
Virginia, which very much complicates the cost of 
transportation.
    Senator DeWine. The special ed kids consume about what 
percentage of your budget?
    Mrs. Gay. It is about one-third with direct and indirect 
costs.
    Senator DeWine. So 17 percent of the population consumes 
about----
    Dr. Vance. One-third.
    Senator DeWine [continuing]. 33 percent.
    Ms. Garvey. 33 percent.
    Dr. Vance. Yes, sir.
    Senator DeWine. It is----
    Mr. Chavous. If I may, Madam Chair, Senator?
    Senator Landrieu. Yes.
    Mr. Chavous. One thing that we need to alert the committee 
to is that the mayor and the Council and the Board are working 
together to put in place a task force on special education, 
which will really work to not just hold the school system's 
feet to the fire in terms of meeting their goals and timetables 
and deliverables with respect to building local capacity to 
take care of these children, but just to significantly make 
sure that there is the full range of government agencies there 
to support these children.
    As you heard from Mrs. Gay and Dr. Vance's testimony, the 
problem with special education cuts across social services 
lines. And even if we are going to build, for instance, if we 
want to build a brand-new school in the City especially 
designed for children with special needs, we want to make sure 
that there is no bottleneck in it, no bottleneck in the 
permitting process.
    So this task force will be meeting on a regular basis. It 
will have representatives also from the U.S. Department of 
Education, a full range of involvement by parents as well, and 
we will hold the school system to some of their, you know, 
their promises. But at the same time, we will take off the 
table some of the excuses in terms of the government's not 
supporting the initiatives.
    I think this is going to make a huge difference in terms of 
following up on some of the collaborative initiatives.
    Senator DeWine. And similarly to that, though, do you want 
to talk to me a little bit about the whole idea of tapping into 
all the other social services in the community?
    I mean you have that child who has special needs. 
Undoubtedly, that child has multiple special needs. How well 
are the other agencies in the city government cooperating with 
the schools? How are you working together? And it is something 
Ms. Cooper and I were--we were talking about it earlier.
    Ms. Cooper-Cafritz. Yes, when this board came into being in 
January, okay, I asked the mayor if he would buy into a plan of 
wrap-around services, so that our children would have access to 
all of this. At this point, we have those services in about 25 
schools, our nine transformation schools and about 16 other 
schools, okay?
    It is working beautifully. It is just a seamless experience 
for the child. And the parents are also brought in as partners 
in it, in this effort.
    In order for us to put that in all schools, which will 
ultimately save a lot of money, because you can see the results 
in the reduction from, you know, say 31 kids being referred, to 
1 kid being referred out of one school. But in order for that 
to happen, it is going to take new and different money. And it 
is going to take an understanding of that, okay, because our 
bureaucracy has been stripped and by the end of this week, our 
whole building will be transformed. The superintendent has come 
up with a plan, you know, to do that.
    Senator DeWine. Well, let me be very candid. I am not 
talking about the District of Columbia, but I will tell you 
that I have seen other cities and other counties where there is 
a wall between the school system and social services.
    Ms. Cooper-Cafritz. Yes. Not here.
    Senator DeWine. If this child is a Children's Service's 
problem, this child is a mental health problem, this child is a 
substance abuse group problem, how do you break those walls 
down?
    And let me ask Ms. Graham about that, because one of her 
responsibilities, I think, is to deal with the Children's 
Services or Child Welfare in the District.
    Ms. Graham. It is one of my responsibilities, Senator 
DeWine. And we are working, as Ms. Cooper-Cafritz has attested, 
to put in place a system that is, in fact, seamless.
    This task force, I think, will--that Mr. Chavous has 
referenced is going to help us move pretty aggressively to 
realizing a dream of comprehensive community-based services for 
children and families. At this point, we have in place in a 
number of our schools, and I will get the exact number for you, 
mental health services for children.
    Remember now that the Department of Mental Health is just 
coming out of receivership. And in the receivership status, 
these agencies, the Child Welfare Agency as well, were isolated 
from the other agencies. That exacerbated over time the 
situation in the public schools, because it meant in order for 
the schools to access mental health services and some of the 
other support services that families and children needed, they 
had to pursue, you know, the legal route to get those services 
and/or send children outside.
    Now that these agencies are back, it gives us a great 
opportunity and we do have a plan in place that we are 
beginning to bring to scale now that creates schools as 
neighborhood places. You will find some of that information in 
my testimony.
    We are also moving to implement the Safe Passages 
children's information system, which will--my staff admonishes 
me for using this term--but it is tracked. It will capture the 
data of all children beginning with those in the public 
schools, link to youth services. The children in the Child 
Welfare System, children in the court system--you all were 
active, I believe, in the Family Court Bill, which added a 
piece of--for information technology. The data for these 
children will now rest in what is called a Safe Passage Child 
Tracking System which will give and better inform the school 
system as well as all of the other agencies about what is----
    Senator DeWine. Let me say I appreciate that very much. And 
I just wish you well. I do not know that there is anything that 
we have discussed this morning that is more important than 
that.
    Ms. Graham. Yes.
    Senator DeWine. It is tough to implement, and you know 
that. And you know, all the good intentions in the world, you 
know, you get entrenched bureaucracies and people who are used 
to doing things one way. And it is tough to do.
    So we are going to watch this, and the next time we have 
the next hearing on this subject, we are going to ask you about 
it and see how it is coming, because it is tough. And I am not 
skeptical. I just think I am a realist and know how, in the 
real world, how difficult it is to do, Madam Chairman.
    Senator Landrieu. Thank you. And I appreciate that, 
Senator.
    I am hoping because the special education piece is such a 
big piece of the challenge before the District, and frankly it 
is on the minds of Congress, we will, as soon as we move past 
the Energy and the Board of Security and Homeland Security, 
eventually get back to education. And when we get back, we are 
going to be on special education for the whole country. So it 
is quite timely.
    Perhaps because of the comments by the councilman, and if 
Senator DeWine is amenable to this, we may have another hearing 
on only special education, giving your task force some time to 
work and come up with a plan, and then you could make that 
presentation, because he and I would both be very interested, I 
think, in that, in supporting those reform efforts.
    But let me ask about charter schools for a minute, because 
we have got to wrap up this panel and move on to our next one.
    Mr. Chavous, you gave your vision about charter schools 
being a catalyst for change and reform. I happen to share your 
enthusiasm for charter schools within the public school system, 
to give parents more choice, to create competition, to create 
what I would call a very healthy tension, so that parents do 
have choices and children have choices. Therefore, there is 
some competition to continue to be good, so you can attract 
good students and parents that want to help and participate.
    But what are the challenges before the charter schools? 
What do you see as a barrier? And I specifically am interested 
in the ability of charter schools to get facilities----
    Mr. Chavous. Yes.
    Senator Landrieu [continuing]. Capital facilities after 
they have proven that they can operate. And we all know some 
charters will fail. And I have tried to express my opinions, 
which may be different than others. I mean, unless you are 
really trying, you will not fail. So, you know, I do not mind 
failure if it can be a failure, regrouping, and move on, 
because without, you know, failure, there really is no success.
    We cannot be afraid of failure. If we are too afraid of 
failure, we will never achieve greatness. If you want to 
achieve greatness, you have to realize there will be some 
misses and starts, but what will ultimately come out, which is 
what our Nation is good about producing, is the strong, and to 
go on, and the strengths are clear. And the weak fall by the 
wayside, not to be left behind, but to regroup and pull 
themselves up with help. And that is true of any enterprise, 
business or of schools.

                            CHARTER SCHOOLS

    So what about the facilities of charter schools? Are they 
able to kind of get their feet on the ground with facilities, 
or what could we do to, you know, to kind of help this along, 
if anything?
    Mr. Chavous. Well, Senator, that is the largest challenge 
with respect to your--just quickly, parenthetically, with 
respect to your statement about failure, one good thing about 
failures of charter schools, if they do not work, they close 
them. I mean, there----
    Senator Landrieu. Yes.
    Mr. Chavous. There are a lot of traditional schools that I 
would like to close, because they failed. And that is the good 
thing about charter schools. They have 5 years to offer up 
their deliverables and to meet their mission. If they do not 
meet their mission, they come up for periodic review, and then 
they are gone. And that is the essence of quality-based 
control.
    The biggest challenge that charter schools face here in the 
District is the issue of facilities. As I said, we have a 
larger percentage of children than any place in the country 
that are in charter schools. And right now our charter schools 
are faced with the difficult prospect of not being able to 
grow, because they do not have the space.
    That facilities problem has some of its roots in this whole 
bureaucracy and, as Senator DeWine said, the unwillingness to, 
you know, to change or to see things differently. Frankly, 
there was a period of time prior to Dr. Vance's arrival where 
there was open hostility and declared warfare by the District 
of Columbia Public Schools and of the charter schools. I think 
that was a disservice to the parents. But the remnants of that 
still exist.
    I think the facilities problem can be solved, in addition, 
in a couple of ways. One is, and we have been working closely 
with the mayor and the charter schools community on this, that 
the mayor's economic development office has to help free up 
some buildings that are in the inventory of the District 
Government. They have made strides in that regard, but they 
have to be more aggressive in freeing up space.
    The problem is--and we all like economic development. I am 
a big proponent of it, but there is this tendency to want to 
cluster all of the economic development buildings you have in 
your arsenal and make these large projects. I think some of 
these buildings, particularly former schools, should have a 
priority attached to them for the charter schools.
    Second, in DCPS's inventory, they have some, some 
buildings. And I like the idea of partnering, where you can 
have schools within schools. You can have one building that is 
under capacity. There is no reason why a charter school, if the 
principal at the traditional system is willing, should not be 
able to share that space. The charter schools will pay their 
way. They will pay their, you know, freight, so to speak.
    So I think that there just has to be some aggressive 
commitment, not just verbal commitment, but aggressive 
commitment by both the mayor's office, as well as the school 
system to open up space for charter schools because these are 
our children as well.
    Senator Landrieu. And one thing I want to add for the 
record and I think Senator DeWine is aware of this, but one 
excellent thing the District has done is to attach a sort of a 
maintenance-and-operation per child that moves to a charter 
school, so not only do they move with their operational funds, 
but they move with, I think it is, what, $1,000 that is sort of 
estimated to be operations and maintenance per child.
    So it is ``x'' amount for teaching and ``x'' amount--is 
that the way you all broke it down, or am I misled about that?
    Mr. Chavous. I do not know the number, but I think it is--
--
    Ms. Cooper-Cafritz. It is $1,500.
    Senator Landrieu. $1,500.
    Mr. Chavous. Yes.
    Senator Landrieu. So it is $1,500 attached to each child, 
which basically could be allocated for some sort of, you know, 
building improvements.
    And then how much, Peggy, is it per child for the actual 
teaching? What do you send with each of these charter children?
    Ms. Cooper-Cafritz. It is the same----
    Senator Landrieu. Okay, what is it?
    Ms. Cooper-Cafritz. [continuing]. Same per pupil.
    Senator Landrieu. So it is--so what are you sending them? 
$1,500 for the maintenance----
    Ms. Cooper-Cafritz. Right.
    Senator Landrieu. And then the per-pupil, which is----
    Dr. Vance. $8,000.
    Ms. Cooper-Cafritz. I do not know. $8,600?
    Dr. Vance. That is----
    Senator Landrieu. $8,600?
    Ms. Cooper-Cafritz. Yes, right.
    Senator Landrieu. Okay. We are going to have to wrap this 
panel up.
    Senator, do you have any additional----
    Senator DeWine. Yes. I have----
    Senator Landrieu. Go ahead.
    Senator DeWine. I have one more question.
    Mr. Chavous, I am intrigued by your school beginning at 3 
years of age. Do you envision that as being mandatory 
schooling?
    Mr. Chavous. Well, that was the original legislation I 
introduced, but what I did to really try to ferret out the best 
approach is I appointed a commission of educators, parents and 
administrators and partnered with American University--it was a 
commission on primary education reform. They just released that 
report. We have had townhall meetings around the City, and we 
have got one actually tomorrow.
    Senator DeWine. What kind of reaction do you get?
    Mr. Chavous. Well, it is good. Some parents are concerned, 
because they do not understand. We are not saying that every 3-
year-old has to go into a classroom and be ready for a 
standardized test.
    What we are saying is that we already have, under Ms. 
Graham's leadership, a good early childhood development 
program. There needs to be that marriage between an early 
childhood development program that is in her shop with what Dr. 
Vance is doing in the public schools. So early childhood 
development should have more quality-based pre-K instructors. 
Every citizen should have access to that.
    Now, we know some parents do not want that. So we would 
exempt home schooling. We would exempt, you know, those who 
want to send their children to Montessori, you know, Montessori 
schools and private schools and religious schools and the like.
    But we are seeing that too many of our children, as I have 
said on many occasions, enter first and second grade at age 6 
and 7, and they have never seen a number or a letter block.
    This goes to the special education problem. If we can 
identify at that young age how many children there are that are 
being disserved at home, then we will be able to intervene 
through social services so that we are not losing children to 
special education down the road.
    So the committee came up with universal pre-K as the 
recommendation, and they said the goal should be universal pre-
K for every 3- and 4-year-old. And mandatory may be the way to 
go, but they are leaving it up to the policymakers.
    What I envision happening after these hearings, and Dr. 
Vance is being very supportive and helpful in this, is that the 
Council will vote on some legislation that will pave the way 
for more universal pre-K and put in place a pilot program that 
Dr. Vance and Ms. Graham have already been working on.
    We want to carve out funding for this. I mean, I do--I 
really believe, Senator, that if we can get more of our young 
children to have an early start, when they run that 100-yard 
dash, they will not be 50 yards behind the starting line. And 
that is what we are seeing now. And I think it will make a huge 
difference if we give our children an early start. I am glad 
the President and the First Lady is involved in that, are 
involved in this.
    Senator Landrieu, I know this is one of your passions, 
because the problem with special education is really this 
problem that we failed our children at such a young age.
    Senator DeWine. While I appreciate your comments and I 
think we can spend all day, all year on this, on this issue, 
and we are not--obviously we are not going to do that, but I 
think we all know that early childhood development is so very, 
very important and, you know, whether you are a parent or 
whether you are a teacher or if you are just around kids, you 
understand what is happening and when that child is 2 years of 
age and 1 year of age, you know, all these are very, very 
important.
    You know, as a society, we are going to have to work on 
this. And how we do it, it is going to be very, very difficult, 
because you do not want to supplant the parents. You do not 
want to violate what the parents want done.
    But on the other hand, you want that child to have every 
advantage that we can give that child.
    Senator Landrieu. Well, I would just----
    Senator DeWine. So that is how we work through that. It is 
very tough and, you know, how much do you involve the parents 
in that? You know, do you work more with the parents? And some 
States have tried that; Missouri, for example, when Senator 
Biden was governor. One of the programs that they initiated is 
still going, I understand, and is to work more with there 
parents.
    So there are many different ways of getting at that. And I 
applaud you and your interest in it, and I look forward to 
watching and seeing how you do.
    Mr. Chavous. Thank you, Senator.
    Senator Landrieu. And I would just--Ms. Graham, did you 
want to add something?
    Ms. Graham. I would like to do that. We certainly believe 
that parental involvement and engagement in this process is so 
important. We have established eight parent development centers 
that are directly linked to the early childhood development 
process as we have expanded early childhood development 
opportunities for families in the District of Columbia. So we 
are watching this very closely, recognizing that parental 
involvement goes hand-in-hand with child success in school.
    Senator DeWine. And it is not just in the sense of giving 
the parents veto or giving parents----
    Ms. Graham. No.
    Senator DeWine. It is also helping that parent to develop.
    Ms. Graham. Exactly.
    Senator DeWine. And that parent who may not know how to 
read or write, or that parent who may lack at the age of 17, 
parenting or parental skills----
    Ms. Graham. Right.
    Senator DeWine [continuing]. And not have that--you know, 
there are many different ways that we, you know, can approach 
this. And I think that, you know, we all understand that we 
have to do it.
    Senator Landrieu. And I would just like to ask one 
question, and then do a final comment.

                            PARENTAL CENTERS

    Are these parental centers that you just identified, are 
they linked specifically to schools, neighborhood schools? Is 
there a partnership between those parent centers and schools, 
or are they independent?
    Ms. Graham. They are independent, because they are funded 
with government dollars.
    Senator Landrieu. Yes.
    Ms. Graham. But they will be working with the T9 school 
initiative, where they are in the communities that these 
transforming schools are located.
    Senator Landrieu. Because one of the links that is so 
important is to link your parent centers and your Head Start 
and Early Start programs with elementary schools, so that it is 
a seamless feeding system along with linking, in some 
instances, to universities.
    The District is a little at the short end of that, because 
you do not have a system of public universities like in many 
other cities, but you know, we are working on that. But still 
there are other private universities that could serve the same, 
you know, function here in the District, so that you have got 
your universities linked to your elementary schools, and your 
elementary schools with links out to your parental centers and 
your Head Start and your Early Start.
    But one comment about mandatory early childhood education, 
I would be very committed to the creation of universal options, 
but not mandatory. Some parents feel very strongly about 
keeping their children home until the age of 5 or 6 and doing a 
lot of that development at home, and some parents are more than 
capable of doing that across the spectrum.
    Then some parents need choices and really are desperate for 
choices to send children to quality programs at the age of 3 
and 4, because many parents are working and absolutely have to 
have some sort of alternative other than, you know, mediocre 
at-home care or mediocre neighborhood care. But I would just 
caution us and--to keep on the side of giving, providing it and 
letting parents make choices, because it is very empowering 
when parents have choices and are not, you know, forced and 
because, you know, one shoe does not fit all and it is a very 
independent individual choice for families.
    But moving to having it offered universally for every 3- or 
4-year-old is spectacular. I am not sure there is a State that 
has met that goal. I think there are States for 4-year-olds. I 
think Georgia has a 4-year-old program and maybe Texas. But I 
do not know anybody that has gotten it together enough for the 
funding for the 3-year-olds as well, which would be 
extraordinary.
    Then, Dr. Vance, you wanted to end with just a comment. And 
then we will close this panel.
    Dr. Vance. Our commitment to the early childhood education 
initiative and our work with Ms. Graham and Mr. Chavous is 
really steeped in the most recent brain development research, 
which has come out of the laboratories, research laboratories 
in this section of the country. And it is heavily steeped in 
that.
    One of the compelling features of that research, which 
really made me a convert was that the possibility exists with 
many of our youngsters, because of environments over which they 
have no control by the time they are three, and certainly by 
the time they are 4 years old, we may have already lost them. 
And in developing a research model that is closely akin to the 
recommendations that came out of that research, I believe here 
in the District on a pilot basis, giving parents options. We 
certainly can render a service to our student population, and a 
student population which dramatically needs that service.
    When we set about to make certain that we had immunized 
41,000 youngsters who were in our public schools who had not 
been immunized, and then this year we had reduced that figure 
to 21,000, it was just dramatic.
    Ms. Graham can talk about this as well as I can. The 
conditions we found with young people, and particularly the 
very young, young people, and in talking with the nurses that 
had come over from Health and Human Services to work with us 
and to support us, they just were shattered.
    They came and they met with me, and they said, ``Dr. Vance, 
you know, we are talking with youngsters who are in high school 
who have never been to a primary care provider in their lives, 
a doctor,'' and we are just appalled at that.
    But we are taking steps to correct them with Federal 
funding and nutrition and health and continuing this assault. 
And by the way, that number of youngsters that have not been 
immunized is down to 80, and we are convinced that before the 
school year is over, we are going to somehow capture them and 
immunize them.
    I just wanted to make those comments about the research 
model that we have worked on collaboratively.
    Senator Landrieu. Thank you. And just real quick.
    Ms. Cooper-Cafritz. Thirty-seven percent of the adult 
population in D.C. is illiterate, and one of the things we have 
approached the mayor on is using the Federal literacy money so 
that we can have, you know, family literacy, and link them, you 
know, together that way. It is a very difficult nut to crack.
    Senator Landrieu. Many districts are doing that. It is an 
excellent concept. Thank you. This panel has been terrific.
    We are going to take a 5-minute break before our next 
panel.
    Ms. Cooper-Cafritz. Thank you.
    Senator Landrieu. Thank you all very much.
                       NONDEPARTMENTAL WITNESSES

    Senator Landrieu. Okay. Welcome to our second panel. We 
have Mr. Andrew Rotherham, Director of 21st Century Schools 
Project for the Progressive Policy Institute. Welcome.
    We have Mr. Robert Cane, Executive Director of Friends of 
Choice in Urban Schools; Ms. Virginia Walden-Ford, Executive 
Director for D.C. Parents for School Choice.
    All of you have been deeply involved in the issue of public 
schools and school excellence in the District. We are looking 
forward to hearing your testimony. And if we can begin, 
obviously, you know, your testimony as you have written it will 
be submitted to the record. So if you will, just summarize it. 
And each one of you will have 5 minutes, and then we will have 
a round of questioning.
    Unfortunately, we are going to have to close this hearing 
at 11:30, so our time is a little bit short, but please 
proceed.
STATEMENT OF ANDREW ROTHERHAM, DIRECTOR, 21ST CENTURY 
            SCHOOLS PROJECT, PROGRESSIVE POLICY 
            INSTITUTE
    Mr. Rotherham. Great. Thank you, Senator; Senator DeWine, 
as well. I appreciate the opportunity to testify today. I will 
be brief and submit my testimony for the record.
    Special education is an issue that bears on students around 
the country whether or not they have special needs, and that is 
true here in Washington as well.
    I do not come before you today as an expert on the District 
of Columbia's schools, but rather as an analyst on special 
education and education generally, and I do believe some of the 
work we have done at Progressive Policy Institute will be of 
great use to the committee as you consider these issues.
    In advance of the current reauthorization for the 
Individuals with Disabilities and Education Act, IDEA, the 
Progressive Policy Institute partnered with the Thomas B. 
Fordham Foundation to examine special education a quarter 
century after the passage of IDEA and, as I said, in advance of 
this current reauthorization.
    We initiated this project, because while PPI and Fordham, 
while we have some common goals on education, we are certainly 
not ideological soul mates on this issue, but we felt that by 
bringing people together from across a diverse spectrum to 
examine these issues, we could stimulate some fresh thinking.
    The result of that was a 2-day conference and the 
publication of this book, ``Rethinking Special Education for a 
New Century.'' I will certainly not submit that for the record, 
but it is available to you and your staff.
    In short, we found that special education and IDEA have 
accomplished a tremendous amount for students with special 
needs. The legislation was ground-breaking, and it not only 
opened our school to students with special needs, but became a 
catalyst for a major culture shift with regard to these 
students.
    But despite these accomplishments, we also found that IDEA 
has developed some problems that demand the attention of 
policymakers. Rather than go through all of the 14 papers and 
our recommendations and analysis, I am going to focus on three 
that I think particularly bear on the issues that we are 
discussing today. Those are the over-identification of 
students, and minority students in particular, for special 
education; inadequate student outcomes; and financial issues.
    It is important to remember that as opposed to other policy 
areas, where the bulk of policy is fundamentally State and 
locally developed, special education policy is overwhelmingly 
dictated by this law, by the IDEA law, which is a Federal law.
    In terms of over-identification, there are several findings 
that I think the committee should keep in mind. First is a 
counter-intuitive finding that researchers Matthew Ladner and 
Christopher Hammons found. They found that there is an over-
identification problem, but they have had a very counter-
intuitive finding that, first of all, race is the primary 
predictor for identification for special education, which 
should trouble all of us.
    However, they found that as minority enrollment in a school 
district declined, special education identification of minority 
students increased. And that is a counter-intuitive finding and 
a very troubling finding.
    Subsequent to that, the civil rights project at Harvard and 
the National Research Council elaborated on these issues. The 
NRC report found that while nationwide African-American 
students comprised 17 percent of the student population, they 
account for 20 percent of students identified for special 
education and 33 percent of those identified as mentally 
retarded, and 27 percent of those identified as having 
emotional disturbances. Those are troubling issues.
    The larger over-identification problem is exacerbated by 
inadequate reading instruction, as the first panel highlighted, 
and also problems with access to prenatal care, health care for 
women and so forth, and inadequate pre-K preparation as 
Councilman Chavous said on the first panel.
    In terms of student performance, I think everybody would 
agree that the outcome for too many students nationwide and in 
Washington are unacceptable. Nationwide in 1998, only about 55 
percent of students with disabilities left high school with a 
diploma. That is an increase of about 4 percent during the last 
decade, which is encouraging; but at the same time, that means 
that almost half of students with special needs are entering 
the knowledge economy without even the basic credential of a 
high school diploma.
    These days, I think we would argue at the Progressive 
Policy Institute that we must view civil rights in education 
not only as an issue of access, and IDEA has made tremendous 
gains of access, but also as an issue of quality. And if you 
look at special ed, and I think that some of the problems that 
D.C. has exemplify this, it is a system that penalizes and 
rewards schools based on compliance rather than performance. 
Schools are naturally going to respond to those incentives, and 
that comes at the expense of performance.
    The cost issue--there is some new research that is in my 
testimony on costs, and I think in D.C. you can see the cost 
problem. The three ideas that I come before you with, very 
briefly, the first one is the issue of teacher quality. The 
other two witnesses this morning are going to testify about 
charter schools and choice.
    We strongly support public charter schools and public 
school choice, but it is important to remember Adam Smith's 
rules do not differentiate among various things in the 
education universe. Teachers, as well, will respond to 
competitive incentives, and we need to attract and retain 
special education teachers in the City.
    We are, quite simply, going to have to pay them more. What 
we have right now is an untenable situation where teachers come 
to D.C. and then they leave for the suburbs. D.C. should be 
commended, unfortunately, for offering a tremendous training 
and recruiting service for the suburban districts that ring 
this city. That is not the situation that we want.
    This is, in part, a working conditions issue. Special 
education teachers spend 5 hours a week on paperwork. That is 
as much as they spend on lesson preparations and ten times more 
than they spend communicating with parents. But it is also an 
issue of breaking away from the salary scale and paying 
professionals more.
    As I said, pre-K is a huge issue. There is a gap in pre-K 
participation in the City. I share your concern about making it 
mandatory, but access is key. That will go a long way towards 
preventing these issues, as will better health care.
    Then finally two very D.C. specific issues: I do think that 
some cap on routine legal fees is going to have to be put in 
place in the City to get special education costs under control. 
At the same time, the school district, they have a seven-point 
plan. It is going to seriously have to implement efforts to 
improve the capacity of the school system to serve these kids.
    Quite frankly, the capacity is not there to serve a range 
of students with special needs. That is unacceptable. It leads 
to an unacceptable number of children being served in private 
placements and contributes to this out-of-control cost 
structure.
    The rest of my testimony is in here. Well-intentioned 
people can disagree about issues with special education, with 
issues about the District of Columbia, but I think it is clear 
that special education in the District of Columbia is not going 
to improve until the general education situation does as well. 
But likewise, reforming special education is a key step in 
improving overall education quality.
    Thank you. I look forward to your questions.
    [The statement follows:]

               Prepared Statement of Andrew J. Rotherham

    Chairwoman Landrieu and members of the subcommittee, thank you for 
the opportunity to testify before you this morning about an issue of 
such importance--ensuring high quality education for students with 
special needs. Senator Landrieu, I would like to acknowledge, for the 
record, all of your efforts on education in the Senate. I've been 
consistently impressed at your willingness to tackle the tough and 
controversial issues that don't lend themselves to easy or simple 
solutions.
    Special education is an issue that bears on students around the 
country whether or not they have special needs. While I am not an 
expert on the District of Columbia Public Schools (DCPS), as an analyst 
of special education the Progressive Policy Institute's (PPI) work 
should be useful to the subcommittee as you consider the issue of 
education, and special education in particular, in the District of 
Columbia.
    In advance of the current reauthorization cycle for the Individuals 
with Disabilities in Education Act (IDEA), PPI partnered with the 
Thomas B. Fordham Foundation to examine special education a quarter-
century after the passage of IDEA. While we share some common goals, 
PPI and Fordham are certainly not ideological soulmates on the issue of 
education. But we believed that by coming together to jointly 
investigate this issue we could stimulate some fresh thinking about 
IDEA and helping students with special needs and demonstrate that 
addressing the challenges they face need not be ideologically divisive. 
The initial result of our collaboration was a two-day conference and 
the subsequent publication of Rethinking Special Education for a New 
Century. Rethinking is a volume of 14 original papers along with 
analysis and preliminary recommendations from PPI and Fordham. On 
behalf of trees everywhere I will not submit Rethinking for the record 
but it is publicly available and widely cited and we would be happy to 
furnish committee staff with copies if you would like.
    Not surprisingly, we found that special education and IDEA have 
accomplished a tremendous amount for students with special needs. This 
groundbreaking legislation not only opened our schools to students with 
special needs but also literally became the catalyst for a major 
culture shift that opened the doors of opportunity for these 
youngsters. However, despite these accomplishments, we also found that 
IDEA has developed problems that demand the attention of policymakers. 
These problems are not the fault of any particular policymaker or lobby 
but are rather the consequence of an inevitable collision between 
complex procedural legislation, changes in the educational landscape in 
this country, and advances in research. More to the point, it's 
important to remember in the context of what we're discussing today 
that many of the problems with special education are outgrowths of 
larger problems with education generally and must be treated as such. 
It's no coincidence that many of the communities struggling with 
special education challenges are the same communities plagued by 
general education deficiencies.
    Rather than go through all of the analysis and recommendations in 
Rethinking, today I will focus on three points that are national issues 
and also issues DCPS should consider with regard to special education. 
These are over-identification of students and minority students in 
particular for special education, inadequate student outcomes, and 
fiscal issues. As opposed to other policy areas in education where the 
bulk of policy is largely determined at the State and local level, it 
is important to remember that most, but not all, special education 
policy is derived from Federal statutes, particularly IDEA.
               over-identification for special education
    The issue of over-identification of minority students for special 
education is not a new concern and has been discussed in special 
education literature for some time. However, renewed attention to the 
achievement of minority students has sparked increased attention and 
research into this issue. In the District of Columbia, according to the 
most recent data we found, a slightly higher percentage of students 
were enrolled in special education than the national average of 12 
percent.
    As part of the PPI-Fordham special education conference researchers 
Matthew Ladner and Christopher Hammons presented a paper analyzing 
over-identification and found that race predicts identification for 
special education more than any other variable they examined including 
class size, spending, and poverty. Most significantly, Ladner and 
Hammons found that as minority enrollment in a school district 
declined, special education identification for minorities increased. 
This is a counter-intuitive and important finding. The paper is 
included as a chapter in Rethinking.
    Subsequently, research from the Civil Rights Project at Harvard 
University and the National Research Council (NRC) elaborated on these 
issues. The NRC recently issued a report by a commission headed by 
former Council for Basic Education president and Bush Administration 
education official Christopher T. Cross. The NRC found that there are, 
``biological and social or contextual contributors to early development 
that vary by race and ethnicity.'' Specifically the NRC report pointed 
out that minority students are disproportionately poor and thus more 
likely to be exposed to effects of poverty such as, ``higher rates of 
exposure to harmful toxins, including lead, alcohol, and tobacco.'' 
However, like the Ladner-Hammons study, the NRC also found that school 
experiences contribute to differences in special education 
participation among various racial and ethnic groups.
    According to the NRC report, while African-American students 
comprise 17 percent of the student population they account for 20 
percent of students identified for special education. More troubling, 
black students account for 33 percent of those identified as mentally 
retarded as well as 27 percent of those identified with emotional 
disturbances.
    This means that an African-American student is 2.28 times more 
likely to be identified as mentally retarded and 1.58 times more likely 
to be identified as emotionally disturbed than a white student. Thus 
while a higher incidence of disabilities may be partly explained by 
poverty and related factors, the data clearly indicate a more 
substantial education problem as well.
    The larger over-identification problem is exacerbated by inadequate 
reading instruction, which I will discuss in a moment, and also 
insufficient attention to heath and prenatal care for women and 
children in too many communities.
                          student performance
    Special education has accomplished a great deal with regard to 
student performance. Increased access to the general curriculum and an 
increased emphasis on performance is helping to improve achievement for 
students with special needs. Nonetheless, substantial challenges 
remain.
    The high school graduation rate for students with special needs is 
unacceptably low. According to the Department of Education in 1998 only 
about 55 percent of students with disabilities left high school with a 
diploma. It should be noted that this is almost a 4 percent rise since 
1994, but it still leaves almost half of special needs students facing 
life in the knowledge economy without a high school diploma.
    Further, while more special needs students are participating in 
assessments of performance--a key accountability tool--their 
performance is still disappointing. According to the National Center on 
Educational Outcomes at the University of Minnesota, in only 15 States 
are special needs students performing better on assessments than in 
previous years. In 18 States performance is unchanged and it is lower 
in 4 States. Thirteen States lacked this data illustrating that despite 
the 1997 law, data about special education participation and outcomes 
are still too frequently incomplete. While some of the problems here in 
Washington are extreme, DCPS are not alone in terms of inadequate data 
collection and analysis for special education.
    While IDEA has largely accomplished the goal of ensuring access to 
schools, that accomplishment remains insufficient: The goal is ensuring 
access to education.
    We must now view civil rights in education as an issue of quality 
not only of access. In Rethinking we conclude that some of the problems 
with performance exist because current special education policy rewards 
and penalizes schools for compliance rather than outcomes and schools 
are responding to these incentives at the expense of performance and 
quality.
                                 costs
    Surprisingly, despite the attention to special education spending 
over the past few years, only recently have well documented spending 
numbers emerged. In Rethinking, after reviewing several estimates and 
analyses we concluded that spending is in the $35-$60 billion range 
annually. Last month, the American Institutes for Research (AIR) 
released a study stating that special education spending is 
approximately $50 billion annually. This means that the cost of 
educating students with special needs is 21.4 percent of K-12 spending 
in the United States.
    When thinking about special education costs it is important to 
remember that the lowest incidence disabilities that carry the highest 
costs. Thus, anecdotal and apocryphal stories about students who cost 
tens or even hundreds of thousands to educate must be viewed in the 
appropriate context. Nevertheless, for small and rural districts these 
students can present enormous fiscal problems because while funding for 
special education is dispersed based on identification-neutral 
formulas, educational costs for a particular high-cost child are 
concentrated in the particular school or school district where that 
child resides. Although it is beyond the scope of this subcommittee, 
PPI believes that some mechanism for direct payments for students with 
severe disabilities should be incorporated into IDEA. Rethinking 
included this recommendation as well.
    In addition, the category of special education identification that 
has grown the most during the past 25 years carries with it, generally 
speaking, lower costs than other disabilities. This is the learning 
disabilities category that has ballooned from 21.6 percent of students 
identified for special education in 1977 to 46.2 percent in 1998 and is 
now over 50 percent. As Wade Horn and Douglas Tynan pointed out in 
Rethinking, this 233 percent growth stands in contrast to 13 percent 
growth among all other special education categories combined. Some of 
this expansion can be explained by more sophisticated diagnostic 
measures but there are also clearly more complex issues involved not 
all of which are understood. One that policymakers can deal with from 
an evidence-based standpoint is reading problems among young children--
too many of whom end up in special education needing remedial help that 
could have been avoided with proper instruction. This is a teaching 
disability rather than a learning one, and better training for 
teachers, research-based reading practices, and high-quality early 
childhood programs with early screening for problems will help address 
this issue.
    There is currently no analysis of the net fiscal and special 
education enrollment impact of a better emphasis on prevention of 
reading problems (including more robust pre-k education) coupled with 
better screening to identify those who do have genuine learning 
disabilities but now go undiagnosed. It is counterproductive to 
withhold increased funding for IDEA pending resolution of these issues 
but IDEA funding should be considered in the context of these broader 
reforms.
                        considerations for dcps
Teacher Quality
    First, a common thread that runs through many special education 
issues and K-12 education overall is teacher quality. Although a 
generalized problem, this issue is particularly acute with regard to 
special education. Today other witnesses are testifying about how 
competition in public education through charter schools and public 
school choice can improve education. PPI strongly supports public 
school choice and charter schools. However, policymakers must remember 
that Adam Smith's rules do not apply only to some parts of the 
education universe and not to others. Teachers too will respond to 
competitive incentives.
    A shortage of special education teachers means that extra 
incentives must be in place to attract and retain these teachers in 
challenging positions. In part this is a working conditions issue, 
particularly with regard to paperwork issues. According to the 
Department of Education, the average special education teacher spends 5 
hours a week on paperwork compared to 2 hours per week for general 
education teachers. This is as much time as special education teachers 
report spending on lesson preparation, five times as much as they 
report spending on professional collaboration and ten times as much as 
they do communicating with parents. In large part, however, addressing 
this challenge is a money issue. Attracting scarce professionals to 
these positions requires breaking away from an antiquated single-salary 
scale based on degrees and experience and instead compensating teachers 
with skills that are in high demand through increased compensation. 
Special education teachers are clearly in this category. In addition, 
as increasing attention is rightly focused on pre-k education it's 
important to remember that salaries are a key part of addressing 
teacher quality problems in that area as well. According to Bureau of 
Labor Statistics figures, the mean salary for pre-k teachers is $20,100 
annually or $9.66 per hour.
    The 7-point plan for special education improvement that DCPS 
developed includes measures to increase the emphasis on training 
general education teachers about special education issues. This is a 
key component of reform. Too often special education and general 
education operate in isolation from one another and too few teacher 
preparation programs adequately address special education for general 
education teachers.
Pre-K and Prevention
    The DCPS have made an effort to ensure access to pre-k and 
kindergarten programs. In fact, an irony in the debate over choice in 
the District of Columbia is that while voucher proponents focus on the 
plight of parents seeking to exit the public school system; some 
parents from other jurisdictions seek to illegally enroll their 
children because of DCPS' full-day kindergarten program
    However, according to DCPS statistics, for the 1999-2000 school 
year pre-k enrollment was only 55 percent of kindergarten enrollment. 
That's a gap that should concern policymakers. Ample research shows 
that high quality early childhood education is an important step toward 
giving students a strong start in school and lessening the effects of 
poverty. Most recently, a longitudinal study funded by the National 
Institutes of Health and the Department of Education and conducted by 
the University of Wisconsin examined early childhood programs in 
Chicago. The researchers found that low-income children who attended 
quality early-childhood education programs were more likely to complete 
high school and less likely to be in trouble with the law than their 
peers. In terms of special education, the study found that 14.4 percent 
of the students participating in high quality early childhood programs 
were later enrolled in special education programs compared with 24.6 
percent of comparable students. Although outcomes for these students 
were still not on par with more affluent youngsters the results show 
that quality pre-k programs can help address disparities in 
opportunity.
    The behavior of affluent parents indicates that they understand the 
importance of early-childhood education. The Department of Education 
found that nationally 65 percent of children from families with incomes 
over $50,000 go to preschool compared with only 37 percent of children 
from families with incomes under $10,000. But the opportunity gap is 
frequently starker than these numbers suggest because of differences in 
the quality of programs available to low-income parents.
    In Rethinking, Drs. Reid Lyon, Jack Fletcher and others argue that 
early-childhood programs, along with strong literacy instruction in the 
early grades, can play a key preventative role with regard to special 
education. But, they caution that, ``A major problem with such efforts 
is that special educators who typically provide instruction to children 
with [learning disabilities] have not been integrated into the early 
identification and prevention initiatives and have not had a role in 
efforts to design and implement early prevention programs. It is 
important that both regular and special education embrace these efforts 
and view prevention as part of their mission.''
    To help prevent the need for special education, the District of 
Columbia should focus on ensuring quality and enhancing access to pre-k 
programs. Beyond helping students before they fall behind, greater 
prevention has the potential for cost savings and allows special 
educators in the District more effectively to concentrate their 
efforts.
    Finally, although it is beyond the scope of this morning's hearing, 
an emphasis in public policy on prenatal and health care issues for 
women and children is essential to addressing these issues as well.
Costs and Performance
    Improving the performance of special needs students is embedded in 
the 7-point plan the DCPS has developed to improve its special 
education program. However, because of the nature of the current IDEA, 
compliance and regulatory issues also feature prominently. A focus on 
improving data collection and tracking is an absolutely necessary step. 
But, it is essential that officials remember the overarching goal of 
special education--improving the performance of special needs 
youngsters.
    Two steps we recommend with regard to costs and performance are:
  --Restore a cap on routine legal fees so that special education 
        dollars are spent on education while allowing larger fees in 
        extraordinary cases;
  --Expand and enhance DCPS' capacity to offer special education 
        services and programs to lessen the need for private placements 
        and improve quality.
    A key problem with IDEA is that despite admirable and well-
intentioned efforts, too many low-income parents are at a disadvantage 
in terms of accessing IDEA's procedural safeguards. In the case of 
Washington, there is no evidence that removing the caps helps address 
this problem. As School Board Chair Peggy Cooper Cafritz has pointed 
out in the Washington Post, the fee cap does not seem to impact private 
placements for poor African American students.
    Moreover, Washington has a well-documented problem with abuses of 
the special education system. Most recently Justin Blum of the 
Washington Post documented rampant conflict of interest and abuse of 
the special education process by a private company. The cap should also 
apply to public charter schools.
    The amount of money DCPS spends on private placements is appalling. 
By some estimates it is as much as $100 million per year. In 1999, a 
Washington Monthly article estimated the costs of private placements as 
at least $56 million. That alone would account for $791 per DCPS 
student in spending (assuming an enrollment of 70,762). Some of these 
placements are necessary because as in most communities there are 
students who have exceptional needs that the school system cannot meet. 
However, a combination of poor services and abuse of the system creates 
an untenable situation that thwarts reform. The ultimate victims are 
all students in DCPS.
    The issues of capacity, legal costs, and private placements are 
interrelated and must be dealt with in concert. DCPS must deal with the 
issue of private placements by upgrading its own special education 
programs and capacity to legitimately serve students with special needs 
as well as retooling its administrative and legal approach to special 
education to avoid abuse. Curbing the torrent of money spent on legal 
costs is a difficult but important step in this process. Expanding the 
number of charter schools and other options for serving special needs 
students is another positive step if these schools and their programs 
are well designed and implemented and not a new incarnation of present 
shortcomings.
                               conclusion
    Reasonable and well-intentioned people can disagree about 
particular special education reforms in the District of Columbia and 
nationally. Nonetheless, it's clear that special education in the 
District of Columbia will not improve until the general education 
situation does as well. However, improvement of general education is 
also linked to special education reform in DCPS and around the country. 
Again, Senator Landrieu I applaud you for discussing these tough issues 
and appreciate the opportunity to testify before this subcommittee. I 
look forward to your questions and those of the other senators.

    Senator Landrieu. Okay. Let me ask you one, and then I will 
come back.
    Is there anything in the District law or Federal law that 
prevents the District right now from paying special education 
teachers more than other teachers or paying teachers that teach 
in difficult schools more than in less challenging schools?
    Mr. Rotherham. That is a great question, Senator. In terms 
of Federal law, no, there is nothing. In D.C., there is a 
collective bargaining arrangement, which I am not an expert on, 
but in many areas, it does restrict the flexibility the school 
officials have and when they do have flexibility, it is usually 
simply moving somebody up a ladder. That is as in other 
districts. As I said, I am not familiar with Washington.
    But there is nothing concrete in policy that cannot be 
changed to address--to either have bonuses, better pay. The 
system we use to pay teachers now is almost 100 years old, and 
it was designed for a time that is long gone.
    Senator Landrieu. So basically if the teachers and their 
associations agreed with the concept, that teachers who teach 
in more challenging and difficult situations should be paid 
more and others should be paid less, that could be implemented 
without anything other than a decision on the part of the 
school board and the teachers.
    Mr. Rotherham. Well, I think the school board would have to 
change its policy as well. But there is disagreement among 
education associations in this country about the wisdom of this 
course. Some support differential pay and paying people who 
work in more challenging circumstances in the harder-to-serve 
areas like the hard sciences or special ed, paying them more. 
Some others do not.
    I think in education, we have sometimes made the mistake of 
equating equality with equity, and that is not necessarily the 
case and paying all teachers equally in D.C. is not going to 
provide equity for special needs students who simply do not 
have the teachers that they deserve.
    Senator Landrieu. Excellent point.
    Mr. Cane.
STATEMENT OF ROBERT CANE, EXECUTIVE DIRECTOR, FRIENDS 
            OF CHOICE IN URBAN SCHOOLS
    Mr. Cane. Thank you, Senator. It is nice to meet you. My 
name is Robert Cane.
    Senator Landrieu. Mr. Robert Cane.
    Mr. Cane. I am executive director of Friends of Choice in 
Urban Schools. We are a non-profit grassroots support 
organization for the District of Columbia Public Schools.
    Much of what is in my written testimony has already been 
said by others, panelists and yourself, and it is wonderful to 
hear you all saying it. So I should be able to be very brief.
    I just want to highlight a couple of things. You have 
already heard about the great popularity with parents of the 
public charter schools in the District. I would just like to 
say that after only 5 years, one out of seven of all public 
school students in the District now attend public charter 
schools.
    New schools will be coming on line next year, and we expect 
this figure to go up. The public charter schools are in the 
process, I should say, of revitalizing education and public 
education in the District in a number of ways. I have talked 
about four of these ways in my testimony, but I just want to 
highlight parts of two of them.
    First, the public charter schools are bringing to their 
students innovative approaches to learning, and the kinds of 
academic programs previously reserved for the well-to-do. 
Several of our charter schools employ cutting edge whole school 
design models. Others offer curricula focused on a particular 
subject theme, such as fine and performing arts, foreign 
language immersion, environmental studies or technology.
    Many target niche markets such as students who are several 
years behind grade level, children in the juvenile justice 
system, many children who have dropped out of school and are 
coming back, and even adult learners. And D.C. had the first 
public urban boarding school in the United States in the form 
of a charter school.
    Another innovation that was talked about a little earlier 
is that the public charter schools have brought real 
accountability to public education in the District. You had a 
colloquy with Mr. Chavous about the closing of public charter 
schools, but there is another element of this accountability 
that I think is very important to highlight. And that is that 
since the advent of the public charter schools, all public 
schools operating funds in the District go through something 
called the uniform per student funding formula.
    What this means is that every child in the District gets 
the same level of funding. And even more important, the schools 
are only paid for those students who are actually enrolled in 
their schools, and there is an independent audit every year.
    So a child that walks to a particular public charter school 
and is there on audit day, that charter school gets his or her 
funds. All the money goes into DCPS, which then divides its 
money up. But the audit also applies to DCPS.
    So what we have here is a double form of accountability. 
The closure of schools as you indicated only applies to the 
public charter schools, but it is very, very important. The 
idea of the charter school law in the District, which is a very 
liberal law and encourages the creation of lots of charter 
schools is that you find creative, dedicated people. You give 
them a chance to do better and if they succeed, you support 
them. If they fail, you take that charter and give it to 
someone else.
    It seems to me that this is a really rational way to 
approach public schooling, and it also creates powerful 
incentives for the schools to pay attention to the needs of the 
students and the desires of the parents.
    You asked the other panelists about barriers facing public 
education in the District, and you heard much about the 
facilities crisis that is facing the public charter schools. In 
fact, you asked about it. I just wanted to say that I do not 
really have anything to add to what Mr. Chavous said about 
this, except that this really is a crisis in the truest sense 
of the word.
    We have two successful public charter schools that will 
close at the end of this year if they do not find new 
facilities, because they are losing their lease. We have what 
we hope will be a very good school with 400 students. It is 
supposed to open with 400 students in the fall. It can only 
open with 40 students, because that is all the space they could 
find.
    Senator Landrieu. What are the two that are scheduled to 
close without new facilities?
    Mr. Cane. One is Washington Math, Science and Technology, 
and the other is Tech World. And these are both in the 
Waterside Mall in Southwest, and they have been there for a few 
years. And they have lost their lease.
    Senator Landrieu. And what is the one that wants to open 
with only 40 slots?
    Mr. Cane. It is called Barbara--no, no. It is called Tri-
Community. I apologize.
    Senator Landrieu. Okay.
    Mr. Cane. Tri-Community.
    Senator Landrieu. Continue, please.
    Mr. Cane. We have other schools. One of our most prominent 
schools is Cesar Chavez School, which has received national 
recognition. It is at its maximum of 240 students in a woefully 
inadequate space. And they are going to actually have to shrink 
down next year because they cannot continue to do a good job 
with their students in that space.
    In closing, I would just like to mention a related issue 
that the Congress has helped us with in the past, and we hope 
may be able to help us with again, and that is the issue of the 
financing of purchase or leasehold improvements.
    If the charter schools are lucky enough to find a building, 
they have to--and the next step is to convince the bank, you 
know, to finance what generally are major costs in the millions 
of dollars. And many of these charter schools are new. Their 
founders are not people of great wealth. They cannot provide 
personal guarantees.
    Well, a couple of years ago the Congress set up a credit 
enhancement fund and found $5 million to put in it for the 
charter schools in the District. And this has enabled--so far, 
we have had four schools receive about $2 million in credit 
enhancement, which they have been able to use to leverage $9 
million in purchase and improvements.
    For this to serve all the charter schools that will need it 
over the next few years, we need to have about an additional 
$15 million in that fund. And this fund is administered by a 
committee appointed by the mayor. They have had some problems 
getting the money out fast enough, but they seem to be 
improving and, with some help, could improve more. And this 
would be a wonderful way to make sure that we do not have this 
artificial barrier to the charter school success, which would 
frustrate the will of the parents.
    I will be happy to answer any questions you have.
    Senator Landrieu. Thank you very much.
    [The statement follows:]

                  Prepared Statement of Robert I. Cane

    Good morning Senator Landrieu. My name is Robert Cane, and I'm 
executive director of Friends of Choice in Urban Schools, a D.C. 
grassroots non-profit that supports D.C.'s public charter schools. 
Thank you for holding this hearing and for your interest in public 
schooling in the District of Columbia.
    D.C. has the most successful public charter school program of any 
city in the United States. Just 5 years after the first school opened, 
14 percent of all D.C. public school students attend school on 41 
public charter school campuses. Three new schools are scheduled to open 
next fall and enrollment, now just under 11,000, is expected to grow to 
around 13,000.
    impact of the public charter schools on public education in the 
                                district
    These public charter schools are revitalizing public education in 
the District in a number of important ways.
  --They are giving D.C.'s most disadvantaged families alternatives to 
        troubled schools. Ninety-nine percent of the District's public 
        charter school students are members of minority groups. Public 
        charter schools are located in seven of the District's eight 
        wards and are more frequently located in tracts with lower 
        incomes and higher poverty rates than are traditional public 
        schools. Nearly two-thirds of public charter school students 
        qualify for free and reduced lunch.
  --They are bringing to these students innovative approaches to 
        learning and the kinds of academic programs previously reserved 
        for the well-to-do. Several of our charter schools employ 
        cutting-edge whole-school design models. Others offer curricula 
        focused on a particular subject theme, such as fine or 
        performing arts, foreign language immersion, environmental 
        studies, or technology. The remainder target niche markets, 
        such as students who are several years behind grade level, 
        children in the juvenile justice system, or adult learners. One 
        D.C. charter was the first public, urban boarding school in the 
        United States.
  --They are involving parents in their children's education to an 
        unprecedented degree. By law, two parents of enrolled students 
        must be on the board of trustees of every public charter school 
        in the District. What's more, our public charter schools pride 
        themselves on being parent-friendly and open to parental 
        involvement at all levels. A recent survey sponsored by the 
        National Science Foundation found that parents of D.C. public 
        charter school students are much more favorably inclined toward 
        their children's schools than are parents of children in the 
        traditional schools.
  --They have brought real accountability to public education in the 
        District. Since the advent of the public charter schools all 
        operating funds of the school system and the individual charter 
        schools are provided through a uniform per-pupil funding 
        formula. Under the Formula DCPS and the public charter schools 
        receive funding only for those students that an independent 
        audit shows are actually enrolled in their schools. This 
        creates competition for students and the funds they bring with 
        them and puts pressure on the public charter schools and the 
        school system alike to improve their schools. The pressure is 
        especially intense on the individual public charter schools, 
        which will close down if they do not attract and hold enough 
        students.
    The District's public charter schools are accountable to parents 
and the public in another significant way. Schools whose students do 
not show sufficient academic progress or which mismanage public funds 
can be closed down. This very real threat of closure provides a 
powerful incentive for school improvement.
        problems faced by the district's public charter schools
    Two related problems have the potential to bring the public charter 
school movement to its knees.
    The first is a lack of suitable facilities, a problem that has 
reached crisis proportions. The second is that many of the public 
charter schools that do find facilities lack the wherewithal to obtain 
financing to acquire and improve them.
                         the facilities crisis
    Two public charter schools will have to close their doors at the 
end of this year if they do not find new facilities. Several others 
will not be able to add promised grades. A new school scheduled to open 
with 400 students will have only 40 because that's the only space they 
could find.
    Meanwhile, two dozen DCPS schools are more than half empty. The 
Board of Education could defuse the charter school facilities crisis by 
permitting the charter schools that need facilities most urgently to 
lease space in some of these buildings.
    Similarly, the District of Columbia administration controls nearly 
30 former school buildings. Under the School Reform Act passed by 
Congress in 1996, the public charter schools have a preference to 
acquire these buildings.
    Unfortunately, neither DCPS nor the administration has taken on the 
responsibility to solve this problem. What is needed is for District 
government to treat public charter school children the same way they do 
DCPS children and make sure they have decent places to go to school. If 
they do not do so soon the charter school movement will run into a 
brick wall.
                           lack of financing
    Most of the public charter schools start out with just a few grades 
and a relatively small number of students, usually in temporary space. 
After two or 3 years they outgrow that space and need to acquire new--
preferably permanent--space. If they are lucky enough to find a 
suitable building they run into the next problem: convincing a bank to 
put up the money needed to buy it or to make leasehold improvements.
    Most who start public charter schools are people of modest means 
who can't provide personal loan guarantees. Thanks to the Congress, 2 
years ago the District established a ``credit enhancement fund'' for 
D.C. public charter schools. This $5,000,000.00 revolving loan fund, 
administered by a committee appointed by the mayor, has so far enhanced 
the credit of four schools to the tune of $2,000,000, and applications 
from other schools are pending. The two million provided so far has 
been leveraged into $9 million worth of loans.
    In order to serve all the schools that will need credit enhancement 
over the next few years, this fund needs to be increased by 
approximately $15 million. I've attached to my testimony the 
calculations that support this figure. We would be most grateful for 
your support in helping to build the fund to an appropriate level.
    Thank you. I'll be happy to answer any questions you may have.

    Senator Landrieu. Ms. Ford.
STATEMENT OF VIRGINIA WALDEN-FORD, EXECUTIVE DIRECTOR, 
            D.C. PARENTS FOR SCHOOL CHOICE
    Ms. Walden-Ford. Good morning. Thank you for this 
opportunity to be here, and it is really nice to meet you.
    I came into this whole terrible problem as a parent. One of 
my own children was failing in the D.C. Public Schools. And we 
got a scholarship to take him out. I saw the turnaround in him 
and, as a result, felt like I needed to do something to give 
back to the community because we had a happy ending.
    So I started an organization called D.C. Parents for School 
Choice, which is an information dissemination organization for 
parents. We represent parents. We speak on behalf of parents, 
so today I would like to share with you some of the things 
those parents have been saying to us.
    We work primarily with low-income parents in parts of the 
City that oftentimes are neglected, and they feel that way. We 
hear from parents who have really bright children who are 
behind in math and reading. And they know they are behind. They 
may not have the same kind of education, but they want the best 
for their children.
    We also hear a great deal from parents who have children 
that are in special education that they many times feel have 
been mislabeled and feel like the schools have just really 
given up on those children and thrown them into, you know, the 
pit, as you will.
    We are also hearing from parents more and more about 
children dropping out or are beginning to prepare to drop out 
in middle school. I mean, I hear stories from parents about 
their seventh and eighth graders coming home because their 
schools are not giving them what they believe they need, and 
they start missing school and that is just a preparation for 
dropping out.
    Then, of course, when they get to high schools, which in a 
lot of cases are not serving the needs of the children, then 
that becomes a reality to those children.
    Many parents that call us, and we have hundreds and 
hundreds of parents that call us, tell us stories of how they 
fear for those children's lives and how they understand that in 
Washington, D.C. when children drop out of school, then they do 
not go back and they do not get GEDs, and then in most cases, 
they end up in jail or worse.
    We have found that the public charter schools have offered 
some degree of solution to these problems. More and more we are 
getting calls from parents telling us that they have taken 
advantage of some of the charter schools, and of all of the 
charter schools and have found this is the first time in their 
children's lives that they have had a positive educational 
experience.
    We would like to see more charter schools in the 
neighborhoods that we believe are being left behind by the 
reform efforts of the DCPS and which really concern us. We 
visit a lot of schools. We visit a lot of parents, and we have 
not seen a change in the fixing of the schools. And we want to 
know how long those parents will have to wait for those 
changes. And they want to know, and we cannot tell them.
    So we direct them constantly to charter schools. But that 
is always an issue, because the charter schools tend to be in 
communities away from the worst schools in the District. And a 
lot of those parents--even though, you know, we do not think 
about it, we kind of take it for granted that it costs $1.10 to 
ride across town. $1.10 for many of the parents that we serve 
is for 5 days back and forth is just an incredibly large amount 
of money that they cannot find.
    So their children end up being forced to stay in bad 
schools in high-crime communities. And we just spent a lot of 
time visiting housing projects in Southeast. And a lot of those 
parents feel there is nothing that is ever going to be done. 
They feel very hopeless and helpless about what is happening as 
far as the reform efforts for their schools. They feel like 
they will be the last ones, and their children will be lost if 
something is not done immediately for those people.
    Parents have been really--my staff and I spend a lot of 
time counseling and talking to parents just trying to make them 
feel less frustrated about what is going on, and trying to give 
them some solutions to what has happened with their children in 
education. But we are quickly running out of solutions to give 
them. It has become more and more difficult.
    [The statement follows:]

               Prepared Statement of Virginia Walden-Ford

            status of education in the district of columbia
    Thank you, Chairman Byrd, for this opportunity to speak on behalf 
of so many desperate parents in the District of Columbia.
    My name is Virginia Walden-Ford. Several years ago, I was a single 
mother with a son in 9th grade. When my son started having problems in 
and out of school, I knew I did not want him to continue attending 
Roosevelt High School, a D.C. public school that had (and still has) 
many problems of its own.
    Thanks to a neighbor's financial help, I was able to send my son to 
a private High School, where his grades and attitude immediately began 
to improve. He has now graduated and in serving in the U.S. Marine Corp 
and doing very well. I still shudder to think how very different his 
life would have been had he not been able to attend a school that 
offered a strong academic program and an environment that inspired him 
to succeed.
    You have no idea what it is like to be trapped in poor performing 
schools like the ones in some of our neighborhoods here in DC. For 
years DC parents have been told to wait and reform would come. But is 
it right to sacrifice the educational future of our children by waiting 
four more or 6 more years and seeing no changes or changes that come so 
slowly they are impossible to see.
    I lead D.C. Parents for School Choice and counsel many low-income 
parents, and I know that being low-income does not mean caring any less 
about a child's education. We hear from parents who have bright 
children but those children are behind in reading and math based on the 
documented performance of many schools in the poorest communities in 
DC. Other children in those same neighborhoods, especially African 
American male children, have been inappropriately labeled Emotionally 
Handicapped or Learning Disabled and sentenced to a special education 
system that is one of the worst in the nation.
    Children in some of the worst high schools in the city have begun 
to acclimate themselves to the ``drop-out'' culture that pervades their 
schools. They will begin to expect to drop out the way many of their 
friends have. Tragically, parents are beginning to see the same 
attitudes even in our city's middle schools students. Parents have 
begun fearing for their children's lives. In our neighborhoods, when 
young males drops out they often end up in prison or worst.
    We have a system which leaves hundreds of thousands of low-income 
predominantly minority children in terrible schools with low academic 
achievement and high rates of crime.
    I have been an advocate of public charter schools since the 
inception of the public charter school law because it provides parents 
an alternative to failing neighborhood schools. We have received 
hundreds of calls from parents who were seeking to help their children 
and many felt as though they had no place to go.
    The DC Public Charter Schools offer parents a choice. Because they 
are open to children from all over the city and have different 
curriculums and themes, parents have an opportunity to find a school 
that can capture their child's interest. Charter schools are an 
excellent alternative for some families. Parents have continually 
called us back to report that for the first time they feel as though 
their children have a chance to benefit from quality educational 
facilities.
    As we have observed the operating public charter schools and 
listened to the parents and children they serve, we have seen that, for 
these families, a renewed involvement in their children's education is 
growing stronger. It is exciting for us to see that children who were 
not learning are now engaged and excited about their educational 
experience.
    In 1999, I got married and became stepparent to two youngsters, 14 
and 12 year old boys. I had to decide where they would be educated here 
in the District. The DC public charter schools offered us ideal 
opportunities finding placement for the boys in schools that met their 
particular needs.
    Parents here in the District are daily expressing their frustration 
in a school system that is taking too long to fix itself. Many of them 
have come to the point where they feel hopeless and helpless, which is 
often interpreted as not caring about their children. However, we have 
seen that, when children are placed in nurturing educational 
environments, they succeed and their parents become active and 
involved.
    We believe that DC Public School leaders have to listen to all 
parents and take their concerns and complaints seriously as they look 
to fixing the school system. Parents are tired of waiting. How many 
more children will we sacrifice?
    Thank you very much.

    Senator Landrieu. Let me ask on that, because we have just 
got a few more, and I could stay on this panel all afternoon. 
But let me ask you: In terms of trying to give some immediate 
help to parents, would it be of any assistance whatsoever to 
just provide some transportation to some of these parents, 
since there are no schools in their area, just so that they can 
get to some schools that might have space?
    Or is the problem that there is no space anywhere, even if 
they could get there, that there are more people in line to get 
in charter schools than there is space provided? Could somebody 
try to shed some light on that?
    Ms. Walden-Ford. I would like to answer that if I could.
    Senator Landrieu. Okay.
    Ms. Walden-Ford. Both. I think that we need to work with 
the charter schools so they will have the facilities where they 
can expand and make more space available for children. And once 
that has been done, I think some kind of transportation 
allowance would be really practical for the poorest families.
    Then those are the ones that are least served by most 
programs, and those are the ones that people often say are not 
concerned about the education of their children, but 
oftentimes, the problems in their lives are so overwhelming 
that that is one problem that is so big that they often cannot 
express it. You know, we counsel parents about that, so I 
believe that it is both.
    Senator Landrieu. And then the ultimate solution would be, 
of course, to have more options so that every neighborhood--and 
I think this committee took some action to help fund a specific 
startup for Thurgood Marshall which is going to be the first 
charter high school in the Anacostia area, I understand.
    Mr. Cane. Well, it is not the first. We now have about 29 
percent of the high school students who are in Anacostia are in 
charter schools. But many people think that it should be easy 
to find space east of the river, and it is just not. And so we 
have many of our schools, in fact, most of our schools want to 
locate over there, but have not been successful. You have heard 
of the Kip Academy. They are sitting in Ward Six, because they 
have not been able to find a place in Ward Eight.
    So I agree with Ms. Walden. The problem facilities problem 
is at the root of so much of this.
    Senator Landrieu. Right. If we could help you all solve 
that, then a lot of the other problems may work themselves out.
    Mr. Cane. Right.
    Ms. Walden-Ford. Well, I mean I just totally think that 
once the facility issues has been solved and we have more 
availability of space for kids, but then I think we still need 
to go to the people in those areas that are least served by 
this city, the poorest of the poor, and do some educating.
    You know, our experience has been that many of them do not 
know about what is available for them, so we spend a lot of 
time just providing information.
    Senator Landrieu. That is a very good service. Let me ask 
you: Ms. Ford, you said that you were able to get a scholarship 
and get out. Could you explain that to me, for your own child?
    Ms. Walden-Ford. I was a single parent raising three kids 
in Washington, and my last child was attending a D.C. Public 
High School that was just absolutely failing him and, you know, 
many people want to say it is because the parent is not 
involved. I was probably one of the most involved parents at 
the school, and could not figure out how to save my own child.
    I got a scholarship from a neighbor who saw some potential 
in my son. He had cut his grass and talked to him and we did 
not have a father in our home, so my son William had kind of 
gravitated towards this guy who was young and out there, and 
you know, he had a young child, so he liked having these 
teenagers around. And he and two of his friends paid his 
tuition to a Catholic school, where I saw him dramatically turn 
around. I mean not in a month, not in 2 months, but 
immediately; I mean, in a week, I saw a difference in this 
child.
    This was the child that the final straw had been the police 
brought him home because he did not go to school, and I came 
home to my son handcuffed to the porch. And I do not have any 
frame of reference for that. I am from Arkansas. I mean, I just 
did not get it.
    Then I found that he felt that nobody was taking care of 
him. And then this child graduated top of his class and is now 
in the Marine Corps serving his country in California. So, you 
know, the happy endings can happen.
    Oftentimes, parents like me, and I was not out there and 
vocal and visible. I was a parent. And I was a young struggling 
parent, and oftentimes parents when provided with the 
information and resources and a little bit of help, you know, I 
mean a little bit of personal attention, all kinds of things 
can happen.
    I mean, I cannot even imagine where I would be or what 
would have happened to my child, had it not been for that 
scholarship.
    Senator Landrieu. Yes. Well, so that is an excellent way to 
end this, to end with this panel.

                          SUBCOMMITTEE RECESS

    You have all been terrific. I thank you for your interest 
and your commitment in giving your personal time and your 
personal stories. And we are committed to working, this 
committee, with all of you, both on our second and first panel, 
to help fashion a school system and district that our whole 
Nation can be proud of, and recognize these challenges are not 
unique to this area, that all systems face challenges, but 
there are solutions, and there are happy endings.
    Thank you. God bless you all.
    [Whereupon, at 11:30 a.m., Tuesday, April 16, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

















        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2003

                              ----------                              


                       WEDNESDAY, APRIL 24, 2002

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:44 a.m., in room SD-116, Dirksen 
Senate Office Building, Hon. Mary L. Landrieu (chairman) 
presiding.
    Present: Senators Landrieu and DeWine.

  PUTTING FAMILIES FIRST: THE ROAD TO REFORM OF THE D.C. FAMILY COURT

STATEMENT OF CORNELIA ASHBY, DIRECTOR OF EDUCATION, 
            WORKFORCE AND INCOME SECURITY, GENERAL 
            ACCOUNTING OFFICE

             OPENING STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Our subcommittee meeting will come to 
order.
    I thank our panelists for attending and for being with us. 
And I think the arrangements of this room will give us an 
opportunity to have a little bit more informal exchange, which 
might be helpful as we work with you and as a team to set up 
what we hope will be the finest family court in the country, 
because there is a tremendous amount of interest on our side of 
the table, and I think on your side in accomplishing that goal.

                           PREPARED STATEMENT

    Let me welcome our panelists this morning. I am going to 
submit my opening statement for the record, because we only 
have about an hour and half of time, and I find that--that is 
helpful.
    I have got an extensive statement for the record, which I 
will submit.
    [The statement follows:]
             Prepared Statement of Senator Mary L. Landrieu
    The Subcommittee will come to order. Good morning. Welcome to this 
hearing on Putting Families First: the Road to Reform of the D.C. 
Family Court.
    Just the other day, I had the good fortune to participate in the 
National Day of Hope hosted by an organization that I am sure everyone 
in this room is familiar with, CASA--the Court Appointed Special 
Advocates. On this day, CASA invited members of the Washington, D.C. 
community to come and light 8,775 candles of hope, representing all of 
the children who are abused each day in the United States. That is a 
staggering statistic when you stop to think about it. What struck me 
most, however, was the irony of the situation. Here we were in the 
Nation's Capital, standing before the U.S. Capitol building where laws 
on child abuse are passed and programs to prevent abuse are funded--yet 
everyday nearly 9,000 children are still abused. So what does that tell 
us?
    As a long time advocate for children, I have come to learn that any 
positive, long term change in policy relating to children does not come 
from just one law, one program or one change in policy. Rather it comes 
from a community-based, collaborative effort that focuses on working 
together toward the achievement of shared goals. Effective reform plans 
involve creating a role and establishing connections between all 
related agencies, from schools and hospitals to law enforcement 
officers and business leaders.
    Early this year, the President signed into law the District of 
Columbia Family Court Act of 2001. This is historic legislation for the 
D.C. Courts because it will bring about the first change in the 
Courts's organization in 3 decades. With this law comes the unique 
opportunity for the District to start anew and to put in place a system 
that can serve as a model for the rest of the country.
    The core organizing principle of the Family Court Act is to 
establish a ``One Judge/One Family'' system. Too many children have 
fallen through the cracks because they get a different judge with every 
hearing. Add to this the fact that a child could have multiple social 
workers involved in their cases at different times and the results can 
be heartbreaking. We need to redevelop the D.C. court system so that it 
becomes a helpful intervention in the lives of at-risk families. A 
place where children can feel safe and protected. A place committed to 
ensuring that each and every child it meets has the chance to grow up 
in permanent, loving homes.
    A second organizing principle of the Family Court Act is that those 
working to protect the families of Washington should have a strong 
background and experience in working with families. A simple concept 
really. Under the new plan, the judges and associated magistrates asked 
to serve on this court will have experience and expertise in every 
facet of the District's family law and child welfare system. They will 
receive ongoing training in areas such as early childhood development 
and family dynamics so that they will be better equipped to protect 
children and nurture and support families.
    Third, the Act calls for the D.C. Courts to create family-friendly 
court facilities and to establish an information technology system for 
handling cases. Some people may think that the facility that a family 
court operates in is not all that important. I beg to differ. I think 
that the facility can be the linchpin to the court's success. A well 
designed, family and child friendly facility is a living testament to 
the principles that the court is built on, both figuratively and 
literally. If a court is truly committed to putting families first, 
then the building they work in should reflect that.
    Finally, the One Judge/One Family structure will not work if the 
information system for managing cases will not support it. Currently, 
the D.C. Courts use 18 information systems in its operations, covering 
the wide range of cases it hears whether criminal, civil, probate, or 
family, as well as the courts's administrative functions. Think about 
it: if a child comes before a judge on an adoption matter, the judge 
has to go to 18 different places to find out whether that child or that 
child's family have any other cases pending in the system. Add to this 
the complicating factor that the D.C. Courts's current systems are not 
integrated with other city agencies such as Child and Family Services 
and the Metropolitan Police Department, and it is no wonder that 
children fall through the cracks.
    The Family Court Act requires the Courts to report on its 
transition to the new Family Court. The witnesses today are Cornelia 
Ashby, Director for Education, Workforce, and Income Security for the 
General Accounting Office (GAO). GAO has reviewed the transition plan 
and will make a report to the Subcommittee on that review. Chief Judge 
Rufus King, III and Deputy Judge Lee Satterfield, Presiding Judge of 
the Family Court, will talk about where things stand with the 
transition from their perspective. We will also hear from experts in 
the area of family courts who will give us examples of best practices: 
Matthew Fraidin, Legal Director of the Children's Law Center; Ms. 
Deborah Luxenberg, Chair of the Children in the Courts Committee of the 
Council on Court Excellence; and Ms. Jacqueline Dolan from the 
California Partnership for Children.
    I have three goals for the successful implementation of the Family 
Court Act that I want to discuss at this hearing. First, I want the 
District of Columbia to have a Family Court that serves and protects 
the best interests of the children and the families whose circumstances 
place them within the Court's jurisdiction. One Judge/One Family will 
help make that happen. Second, the new Family Court must be accountable 
and must implement evaluation systems based not only on the nuts and 
bolts of effective case administration, timing, computer systems, and 
paperwork processing, but evaluations based on the long-term outcomes 
for children and families. Finally, it is essential to me that the 
Family Court feels like home. For many of the children in the child 
welfare system, the Family Court may be the one constant in their 
lives. It must be welcoming, not frightening; a friendly place, not a 
sad one. It should be something a child looks forward to, not something 
the child has to ``get through'' like a medical examination.
    As I mentioned at the beginning of my remarks, the Family Court Act 
is an historic opportunity for the District of Columbia Courts. I hope 
the judges and city officials seize this moment as a starting point for 
fixing child welfare as we have known it. While I know getting the new 
Family Court up and running efficiently and effectively will take time, 
and fixing the child welfare system will take even longer, we cannot 
afford to wait to start.

    Senator Landrieu. I will ask my ranking member, Senator 
DeWine, if he wanted to make some statements in just a moment.
    Senator DeWine. Yes. I will submit my statement as well.
    Senator Landrieu. Okay. Thank you, Senator, for including 
you or statement in the record.
    [The statement follows:]
               Prepared Statement of Senator Mike DeWine
    Madame Chairman, I would like to thank you for holding this very 
important hearing today on the District's Family Court transition plan. 
As I have said over and over again, it is absolutely imperative that we 
protect all children in the District--especially those caught in the 
child welfare and foster care system. That is why the Chairman and I 
introduced the DC Family Court Act of 2001, which President Bush signed 
into law in January. Our law contains reforms that are crucial for 
children and families in the District.
    When we were drafting that legislation, we realized that in order 
to have real reform in the District's Family Court, Congress would have 
to accept some financial responsibility.
    And so, as Chairman and Ranking Member of this Committee, Senator 
Landrieu and I were able to allocate roughly $24 million for the DC 
Superior Court. But, through our Family Court Act, we stipulated that 
in order for the Court to access these funds, it must submit a 
transition plan to Congress within 90 days of the Family Court Act 
being signed into law. And that is why we are here today--to examine 
that plan for transition.
    I recognize that everyone involved in drafting this transition plan 
shares a common objective of ensuring that the children who come into 
contact with the DC child welfare system are placed in safe and stable 
environments. Part of that objective also is to ensure that children 
are not ``reabused'' by the very system designed to protect them. And 
so, as we try to assess the effectiveness of the District's plans to 
create the Family Court and its ability to meet these objectives, I am 
left with many questions and am anxious to hear from the panel today.
    I want to thank all of our witnesses for taking such an interest in 
the families and children in the District. Judge King and Judge 
Satterfield--I know you have made reforming the Family Division of the 
DC Court your number-one priority, and I look forward to continuing to 
work with both of you. Additionally, I would like to thank Cornelia 
Ashby from the General Accounting Office, Deborah Luxenberg from the 
Council for Court Excellence, Matthew Fraidin [fray-den] from the 
Children's Law Center, and Jacqueline Dolan from the California 
Partnership for Children. Your expertise and dedication to this process 
are vital.
    As we discuss the District's transition plans, I would like to 
remind the Committee and the panel of the reform that I find most 
important--and that is the One-Judge/One-Family provision. The 
implementation of this policy will ensure that the same judge--a judge 
who knows the history of a family and who knows the child--will be 
making the decisions that will forever affect a child's life.
    This is vital for those hard cases involving abuse and neglect.
    Additionally, when there are multiple allegations and issues, the 
practice of One-Judge/One-Family would ensure that the same judge would 
hear the more complicated cases. A judge would no longer see only a 
piece of the puzzle, but rather would see entire picture. A judge needs 
to be aware of all of the issues--the entire situation not just a 
fragment.
    It was our intention when drafting the Family Court law that when 
the Court implemented the One-Judge/One-Family policy, a child removed 
from his or her home would be assigned to the same judge from the 
initial intake hearing to the child's ultimate placement. That same 
judge would hold an adjudication hearing regarding the abuse or neglect 
charges against a child's parent(s). This judge would be well informed 
and able to make the difficult decision about whether to reunify the 
child with his/her parent(s) or whether other permanency options need 
to be evaluated.
    All of these efforts are designed to help stop the practice of 
bouncing children from judge to judge to judge.
    Right now, it is unclear to me from the transition plan that this 
tragic practice will cease. We have given the Court the latitude to 
develop the One Judge/One Family System that will work best in the 
District. But, what that system will look like is still unclear to me. 
By the conclusion of this hearing, I am optimistic that I can say 
otherwise.
    Once again, I would like to thank you, Madame Chairman, for holding 
this hearing today. I am very interested to hear from our witnesses.

    Senator Landrieu. And let us get right in, if we could, to 
our panel. We have Cornelia Ashby with the General Accounting 
Office, the GAO, that has just completed a report, who is here 
to give us her testimony.
    We thought we would begin, Ms. Ashby, with your report, 
which should take about 10 or 15 minutes. And then we will hear 
from Chief Judge King, Judge Satterfield, who are respectively 
the chief judge and the presiding judge of the Family Court.
    We will then have some question-and-answer time for the 
judges, and then hear from Matt Fraidin of the Children's Law 
Center, who is a legal advocacy group for children here in the 
District; and Deborah Luxenberg, Council for Court Excellence. 
The Council for Court Excellence is a D.C. non-profit 
organization that works to improve justice in the region's 
local and Federal courts.
    And then Jackie Dolan from the California Partnership for 
Children--Ms. Dolan is a children's advocate who has worked 
extensively on developing family-friendly, less intimidating 
legal environments for children. She was actively involved in 
the design of the Edelman Courthouse in Los Angeles County, 
which I understand is a real success story. We are anxious to 
hear from her.
    But why do we not begin with the General Accounting Office 
study summary? Ms. Ashby.
    Ms. Ashby. Good morning.
    Senator Landrieu. Good morning.
    Ms. Ashby. Madam Chairman and Senator DeWine, I am pleased 
to be here today to discuss the progress made by the District 
of Columbia Superior Court in transitioning its family division 
to a Family Court.
    The District of Columbia Family Court Act of 2001 required 
the chief judge of the Superior Court to submit to the 
President and the Congress a transition plan outlining the 
proposed operation of the Family Court. The Congress also 
required that, within 30 calendar days after submission of the 
plan by the Superior Court, GAO submit to the President and the 
Congress an analysis of the contents and effectiveness of the 
plan in meeting requirements of the Family Court Act.
    My testimony today is based on our analysis of the 
transition plan. Our final report will be submitted to the 
President and the Congress by Monday, May 6th, 2002.
    In summary, the Superior Court has made progress in 
planning the transition to a family court; but in implementing 
the plan, the Superior Court and the Family Court will face 
challenges.
    Completion of the transition hinges on timely completion of 
a complex series of interrelated, interdependent plans intended 
to obtain and renovate physical space to house the court and 
its functions. In addition the development and application of 
the District of Columbia Court's Integrated Justice Information 
System, known as IJIS, will be critical for the Family Court to 
be able to operate effectively. The Superior Court's transition 
plan addresses most, but not all, of the 10 required elements 
specified in the Act. Before I discuss the elements that are 
not fully addressed in the plan, I would like to briefly 
mention some of the processes the court outlined in the plan 
for transitioning to the one-family/one-judge approach required 
by the Family Court Act.
    I want to mention these processes because they form the 
foundation for the other determinations that were to be 
explained in the elements of the plan and of the challenges the 
court faces.
    The one-family/one-judge approach involves two processes: 
transferring back to the Family Court child abuse and neglect 
cases pending before judges in other divisions of the Superior 
Court; and, case flow management for cases in the Family Court.
    With respect to the transfer of cases back to the Family 
Court, the Family Court intends to have all child abuse and 
neglect cases, pending before judges serving in other divisions 
of the Superior Court, closed or transferred into the Family 
Court by June 2003.
    Some cases are to be transferred immediately, that is by 
June 2002. Cases that the court believes may not be candidates 
for transfer by June 2002, include those for which transfer 
could delay permanency.
    According to the plan, the court has asked each Superior 
Court judge to review his or her caseload to identify those 
cases that meet the criteria established by the court for 
immediate transfer to the Family Court.
    In this regard, magistrates recently hired under the 
expedited appointment process mandated by the Family Court Act 
are to assist the Superior Court judges with the transfer of 
child abuse and neglect cases back to the Family Court. The 
court estimates that 1,500 cases could be candidates for 
immediate transfer.
    With respect to case flow management for cases within the 
Family Court, the plan indicates the Family Court will 
implement the one-family/one-judge approach by assigning all 
cases involving the same family to one judicial team, comprised 
of a Family Court judge and a magistrate.
    This assignment will begin with the initial hearing by the 
magistrate on the team and continue throughout the life of the 
case. To facilitate this approach, the court plans to 
centralize intake.
    As part of centralized intake, case coordinators are to 
identify any related cases that may exist in the Family Court. 
To do this, the coordinator is to ensure that a new intake 
cross-reference form is completed for the parties involved in 
the case, and also check the 18 computer systems currently 
serving the Family Court.
    Closely associated with the successful transition to the 
one-family/one-judge approach is an effective performance 
evaluation system. The evaluation measures developed to assess 
the court's progress in reforming its operations could include 
additional measures that reflect outcomes for children. The 
evaluation measures listed in the plan are oriented more toward 
the court's processes, such as whether hearings are held on 
time, than on outcomes.
    According to a court expert, measures must account for 
outcomes that result in achievements for children. Measures 
could include the number of finalized adoptions, that is, that 
did not disrupt, reunifications that did not fail, children who 
remain safe and are not abused again while under court 
jurisdiction or in foster care, and the proportion of children 
who successfully achieve permanency.
    In addition, the court will need to determine how it will 
gather the data necessary to measure each team's progress in 
ensuring such outcomes and in meeting the requirements of the 
Adoption and Safe Families Act. Further, the court has not 
established a baseline from which to judge its performance.
    With regard to the requirements that were not fully 
addressed in the plan, the transition plan addresses the number 
and roles of judicial officers, but other human capital issues 
remain unclear. For example, the plan states that the court has 
determined that 15 judges are needed to carry out the duties of 
the court and that 12 judges have volunteered to serve on the 
court. However, the plan does not include a request that the 
Judicial Nomination Commission recruit, and the President 
nominate, the additional three judges to serve on the Superior 
Court, as required by the Family Court Act.
    In addition, the plan does not address the qualifications 
of the 12 judges who volunteered for the Family Court. Although 
the plan states that these judges have agreed to serve full 
terms of service, according to the act, the chief judge of the 
Superior Court may not assign an individual to serve on the 
Family Court unless the individual also has training or 
expertise in family law and certifies that he or she will 
participate in the ongoing training programs conducted for 
judges in the Family Court.
    Further, the plan does not include the number of non-
judicial staff needed. The court acknowledges that while it 
budgeted for a certain number of non-judicial personnel based 
on current operating practices, determining the number of 
different types of personnel needed to operate the Family Court 
effectively is pending completion of a study.
    Finally, although specifically required by the act, the 
plan does not state how the court determined the number of 
magistrates to be hired under the expedited process.
    Of course, the transition plan is only a blueprint, a 
beginning. Full transition to the Family Court in a timely, 
effective manner is dependent on two critical factors: 
obtaining and renovating appropriate space for all new Family 
Court personnel; and, the development and installation of a new 
automated information system, currently planned as part of the 
D.C. Court's IJIS system.
    The transition plan states that there are a number of risks 
associated with the space plan. These include a very aggressive 
implementation schedule and a design that makes each part of 
the plan interdependent with other parts of the plan.
    The transition plan further states that the desired results 
cannot be reached if each plan increment does not take place in 
a timely fashion.
    The Family Court is currently housed in the H. Carl 
Moultrie Courthouse, and plans call for expanding and 
renovating additional space in this courthouse to accommodate 
the additional judges, magistrates, and staff who will help 
implement the D.C. Family Court Act.
    The court estimates that accommodating these judges, 
magistrates, and staff requires an additional 29,700 occupiable 
square feet, plus an undetermined amount for security and other 
amenities.
    Obtaining this space will require non-related D.C. court 
entities to vacate space to allow renovations, as well as 
require tenants in other buildings to move to house the staff 
who have been displaced.
    The plan calls for renovations under tight deadlines and 
all required space might not be available, as currently 
planned.
    As we reported in February 2002, a number of factors 
significantly increased the risk associated with acquiring and 
managing IJIS. Prior to issuing our February 2002 report, we 
discussed our findings with D.C. Courts officials, who 
generally concurred with our findings and stated their 
commitment to only go forward with the project when the 
necessary actions had taken place to reduce the risk to 
acceptable levels.
    In this report, we made several recommendations designed to 
reduce the risk associated with this effort. In April 2002, we 
met with D.C. Courts officials to discuss the actions taken on 
our recommendations and found that significant actions had been 
initiated, and if properly implemented, they should reduce 
risk.
    In addition, D.C. Courts officials told us that they are 
developing a separate transition plan that will allow them to 
use the existing systems, should the IJIS project experience 
delays.
    We will review the plan once it is made available to us. 
Although they recognize that maintaining two systems 
concurrently is expensive and causes additional resource needs, 
such as additional staff and training for them, these officials 
believe that the two systems are needed to mitigate the risks 
associated with any delays in system implementation.
    Although these are positive steps forward, D.C. Courts 
still faces many challenges in its efforts to develop a system 
that will meet its needs and fulfill the goals established by 
the Family Court Act.
    Examples of these include ensuring that the systems 
interfacing with IJIS do not become the weak link; by that we 
mean that deficiencies in the other systems will not inhibit 
the ability of IJIS to operate effectively.
    Other examples include effectively implementing the 
discipline processes necessary to reduce the risks associated 
with IJIS to acceptable levels, ensuring that the requirements 
used to acquire IJIS contain the necessary specificity to 
reduce requirement-related defects to acceptable levels, 
ensuring that users receive adequate training, and avoiding a 
schedule-driven effort. We believe the effort should be event 
driven and not schedule driven.

                           PREPARED STATEMENT

    In conclusion, on the whole, even though some important 
issues are not addressed, the transition plan represents a good 
effort at outlining the steps the Superior Court will take to 
implement a Family Court. However, as I have just explained, 
the court still faces key challenges to ensuring that its 
implementation will occur in a timely and effective manner.
    Madam Chairman, this concludes my statement. I will be 
happy to respond to any questions you have.
    [The statement follows:]
                Prepared Statement of Cornelia M. Ashby
    Madam Chairman and Members of the Subcommittee: I am pleased to be 
here today to discuss the progress made by the District of Columbia 
Superior Court in transitioning its Family Division to a Family Court. 
In January 2002, the District of Columbia Family Court Act of 2001 
(Public Law 107-114) was enacted to, among other things, (1) 
redesignate the Family Division of the Superior Court of the District 
of Columbia as the Family Court of the Superior Court, (2) recruit 
trained and experienced judges to serve in the Family Court, and (3) 
promote consistency and efficiency in the assignment of judges to the 
Family Court and in the consideration of actions and proceedings in the 
Family Court. The passage of this act represented the first major 
overhaul of the Superior Court's Family Division in 3 decades. The 
Congress, in considering such an overhaul, found that poor 
communication between participants in the child welfare system, a weak 
organizational structure, and a lack of case management were serious 
problems plaguing the Family Division.
    As a first step in initiating changes to the Family Division, the 
Family Court Act required the chief judge of the Superior Court to 
submit to the president and the Congress a transition plan outlining 
the proposed operation of the Family Court. The Congress also required 
that the chief judge submit the transition plan to the U.S. General 
Accounting Office (GAO) and that, within 30 calendar days after 
submission of the plan by the Superior Court, we submit to the 
president and the Congress an analysis of the contents and 
effectiveness of the plan in meeting the requirements of the Family 
Court Act. My testimony is based on our analysis of the transition 
plan, including discussions with court and child welfare experts,\1\ 
juvenile and family court judges across the country, and officials from 
the District of Columbia Superior Court and the Family Court. To 
supplement our analysis of the transition plan, we also asked several 
court experts to examine the plan and highlight its strengths and areas 
that may need more attention. Our final report will be submitted to the 
president and the Congress by May 5, 2002.
---------------------------------------------------------------------------
    \1\ We interviewed officials of a variety of organizations, such as 
the National Council of Juvenile and Family Court Judges; the National 
Center for State Courts; the Center for Families, Children and the 
Courts at the University of Baltimore; and the Child Welfare League of 
America.
---------------------------------------------------------------------------
    In summary, the District of Columbia Superior Court has made 
progress in planning the transition of its Family Division to a Family 
Court, but some challenges remain. The Superior Court's transition plan 
addresses most, but not all, of the required elements outlined in the 
act. Significantly, the completion of the transition hinges on timely 
completion of a complex series of interdependent plans intended to 
obtain and renovate physical space to house the court and its 
functions. For example, the plan explains how the abuse and neglect 
cases currently being heard by judges in other divisions of the 
Superior Court will be closed or transferred to the Family Court; 
however, the plan states that the complete transfer of these cases can 
only occur if additional judges and magistrates are hired, trained, and 
housed in appropriate space. All required space may not be available, 
as currently planned, to support the additional judges the Family Court 
needs to perform its work in accordance with the act, making it 
uncertain as to when the court can fully complete its transition. 
Finally, the development and application of the District of Columbia 
Courts' \2\ Integrated Justice Information System (IJIS) \3\ will be 
critical for the Family Court to be able to operate effectively, 
evaluate its performance, and meet its judicial goals in the context of 
the changes mandated by the Family Court Act.
---------------------------------------------------------------------------
    \2\ The D.C. Courts includes three main entities--the Superior 
Court, the Court of Appeals, and the Executive Office--and provides the 
overall organizational framework for judicial operations. The Superior 
Court contains five components: Civil Division, Criminal Division, 
Family Court, Probate Division, and the Tax Division. The Court of 
Appeals, among other responsibilities, handles appellate functions 
referred to it from the Superior Court. The Executive Office performs 
various administrative management functions.
    \3\ Faced with a myriad of nonintegrated systems that do not 
provide the necessary information to support its overall mission, the 
D.C. Courts is in the process of acquiring a replacement system called 
IJIS. See U.S. General Accounting Office, DC Courts: Disciplined 
Processes Critical to Successful System Acquisition, GAO-02-316, 
(Washington, D.C.: 2002) for more details on the court's planning of 
IJIS.
---------------------------------------------------------------------------
                               background
    The District of Columbia Family Court Act of 2001 (Public Law 107-
114) was enacted on January 8, 2002. The act stated that, not later 
than 90 days after the date of the enactment, the chief judge of the 
Superior Court shall submit to the president and Congress a transition 
plan for the Family Court of the Superior Court, and shall include in 
the plan the following:
  --The chief judge's determination of the role and function of the 
        presiding judge of the Family Court.
  --The chief judge's determination of the number of judges needed to 
        serve on the Family Court.
  --The chief judge's determination of the number of magistrates \4\ of 
        the Family Court needed for appointment under Section 11-1732, 
        District of Columbia Code.
---------------------------------------------------------------------------
    \4\ A magistrate is a local judicial official entrusted with the 
administration of the law, but whose jurisdiction may be limited.
---------------------------------------------------------------------------
  --The chief judge's determination of the appropriate functions of 
        such magistrates, together with the compensation of and other 
        personnel matters pertaining to such magistrates.
  --A plan for case flow, case management, and staffing needs 
        (including the needs of both judicial and nonjudicial 
        personnel) for the Family Court, including a description of how 
        the Superior Court will handle the one family/one judge 
        requirement pursuant to Section 11-1104(a) for all cases and 
        proceedings assigned to the Family Court.
  --A plan for space, equipment, and other physical needs and 
        requirements during the transition, as determined in 
        consultation with the administrator of General Services.
  --An analysis of the number of magistrates needed under the expedited 
        appointment procedures established under Section 6(d) in 
        reducing the number of pending actions and proceedings within 
        the jurisdiction of the Family Court.
  --A proposal for the disposition or transfer to the Family Court of 
        child abuse and neglect actions pending as of the date of 
        enactment of the act (which were initiated in the Family 
        Division but remain pending before judges serving in other 
        divisions of the Superior Court as of such date) in a manner 
        consistent with applicable Federal and District of Columbia law 
        and best practices, including best practices developed by the 
        American Bar Association and the National Council of Juvenile 
        and Family Court Judges.
  --An estimate of the number of cases for which the deadline for 
        disposition or transfer to the Family Court cannot be met and 
        the reasons why such deadline cannot be met.
  --The chief judge's determination of the number of individuals 
        serving as judges of the Superior Court who meet the 
        qualifications for judges of the Family Court and are willing 
        and able to serve on the Family Court. If the chief judge 
        determines that the number of individuals described in the act 
        is less than 15, the plan is to include a request that the 
        Judicial Nomination Commission recruit and the president 
        nominate additional individuals to serve on the Superior Court 
        who meet the qualifications for judges of the Family Court, as 
        may be required to enable the chief judge to make the required 
        number of assignments.
    The Family Court Act states that the number of judges serving on 
the Family Court of the Superior Court cannot exceed 15. These judges 
must meet certain qualifications, such as having training or expertise 
in family law, certifying to the chief judge of the Superior Court that 
he or she intends to serve the full term of service and that he or she 
will participate in the ongoing training programs conducted for judges 
of the Family Court. The act also allows the court to hire and use 
magistrates to hear family court cases. Magistrates must also meet 
certain qualifications, such as holding U.S. citizenship, being an 
active member of the D.C. Bar, and having not fewer than 3 years of 
training or experience in the practice of family law as a lawyer or 
judicial officer. The act further states that the chief judge shall 
appoint individuals to serve as magistrates not later than 60 days 
after the date of enactment of the act. The magistrates hired under 
this expedited appointment process are to assist in implementing the 
transition plan, and in particular, assist with the transition or 
disposal of child abuse and neglect proceedings not currently assigned 
to judges in the Family Court.
    The Superior Court submitted its transition plan on April 5, 2002. 
The plan consists of three volumes. Volume I contains information on 
how the court will address case management issues, including 
organizational and human capital requirements. Volume II contains 
information on the development of IJIS and its planned applications. 
Volume III addresses the physical space the court needs to house and 
operate the Family Court. Courts interact with various organizations 
and operate in the context of many different programmatic requirements. 
In the District of Columbia, the Family Court frequently interacts with 
the child welfare agency--the Child and Family Services Agency (CFSA)--
a key organization responsible for helping children obtain permanent 
homes. CFSA must comply with Federal laws and other requirements, 
including the Adoption and Safe Families Act (ASFA), which placed new 
responsibilities on child welfare agencies nationwide.\5\ ASFA 
introduced new time periods for moving children who have been removed 
from their homes to permanent home arrangements and penalties for 
noncompliance. For example, the act requires States to hold a 
permanency planning hearing not later than 12 months after the child is 
considered to have entered foster care. Permanent placements include 
the child's return home and the child's adoption.
---------------------------------------------------------------------------
    \5\ For additional details on the challenges facing the District of 
Columbia's child welfare system and the implementation of ASFA, see 
U.S. General Accounting Office, District of Columbia Child Welfare: 
Long-Term Challenges to Ensuring Children's Well-Being, GAO-01-191, 
(Washington, D.C.: 2000) and Foster Care: States' Early Experiences 
Implementing the Adoption and Safe Families Act, GAO/HEHS-00-1, 
(Washington, D.C.: 1999).
---------------------------------------------------------------------------
 transition plan contains most, but not all, required elements of the 
                            family court act
    The Family Court transition plan provides information on most, but 
not all, of the elements required by the Family Court Act. For example, 
the plan describes the Family Court's method for transferring child 
abuse and neglect cases to the Family Court, its one family/one judge 
case management principle,\6\ and the number and roles of judges and 
magistrates.\7\ However, the plan does not (1) indicate if the 12 
judges who volunteered for the Family Court meet all of the 
qualifications outlined in the act, (2) include a request for judicial 
nomination, and (3) state how the number of magistrates to hire under 
the expedited process was determined. In addition, the court could 
consider taking additional actions, such as using a full range of 
measures by which the court can evaluate its progress in ensuring 
better outcomes for children.
---------------------------------------------------------------------------
    \6\ The Family Court Act requires the Family Court, to the greatest 
extent practicable, feasible, and lawful, to assign one judge to handle 
a case from initial filing to final disposition, as well as to handle 
related family cases that are subsequently filed.
    \7\ In the Family Court, two Family Court judges--the presiding and 
deputy presiding judges--will primarily handle the administrative 
functions of the court. Family Court judges are judges of the Superior 
Court who have received training or have expertise in family law. These 
judges will hear a variety of cases in the court. Family Court 
magistrates are qualified individuals with expertise and training in 
family law. These magistrates will also hear various Family Court 
cases.
---------------------------------------------------------------------------
The Transition Plan Includes a Description of the Court's Plan for 
        Transferring Abuse and Neglect Cases to the Family Court
    The transition plan establishes criteria for transferring cases to 
the Family Court and states that the Family Court intends to have all 
child abuse and neglect cases pending before judges serving in other 
divisions of the Superior Court closed or transferred into the Family 
Court by June 2003. According to the plan, the court has asked each 
Superior Court judge to review his or her caseload to identify those 
cases that meet the criteria established by the court for transferring 
or not transferring cases. Cases identified for transfer include those 
in which (1) the child is 18 years of age and older, the case is being 
monitored primarily for the delivery of services, and no recent 
allegations of abuse or neglect exist; and (2) the child is committed 
to the child welfare agency and is placed with a relative in a kinship 
care program. Cases that the court believes may not be candidates for 
transfer by June 2002 include those with respect to which the judge 
believes transferring the case would delay permanency. The court 
expects that older cases will first be reviewed for possible closure 
and expects to transfer the entire abuse and neglect caseloads of 
several judges serving in other divisions of the Superior Court to the 
Family Court. Using the established criteria to review cases, the court 
estimates that 1,500 cases could be candidates for immediate transfer.
    The act also requires the court to estimate the number of cases 
that cannot be transferred into the Family Court in the timeframes 
specified. The plan provides no estimate because the court's proposed 
transfer process assumes all cases will be closed or transferred, based 
on the outlined criteria. However, the plan states that the full 
transfer of all cases is partially contingent on hiring three new 
judges.
The Transition Plan Describes The Family Court's Approach to Managing 
        Its Cases, But The Court Could Consider Additional Approaches 
        to Assessing Implementation
    The transition plan identifies the way in which the Family Court 
will implement the one family/one judge approach and improve its case 
management practices; however, the evaluation measures developed to 
assess the court's progress in reforming its operations could include 
additional measures that reflect outcomes for children. The plan 
indicates that the Family Court will implement the one family/one judge 
approach by assigning all cases involving the same family to one 
judicial team--comprised of a Family Court judge and a magistrate. This 
assignment will begin with the initial hearing by the magistrate on the 
team and continue throughout the life of the case. Juvenile and family 
court experts indicated that this team approach is realistic and a good 
model of judicial collaboration. One expert said that such an approach 
provides for continuity if either team member is absent. Another expert 
said that, given the volume of cases that must be heard, the team 
approach can ease the burden on judicial resources by permitting the 
magistrate to make recommendations and decisions, thereby allowing the 
Family Court judge time to schedule and hear trials and other 
proceedings more quickly. Court experts also praised the proposed 
staggered terms for judicial officials--newly-hired judges, 
magistrates, and judges who are already serving on the Superior Court 
will be appointed to the Family Court for varying numbers of years--
which can provide continuity while recognizing the need to rotate among 
divisions in the Superior Court.
    In addition, the plan identifies actions the court plans to take to 
improve case management. First, the Family Court plans to centralize 
intake. According to the plan, a central office will encompass all the 
functions that various clerks' offices--such as juvenile, domestic 
relations, paternity and support, and mental health--in the Family 
Court currently carry out. As part of centralized intake, case 
coordinators \8\ will identify any related cases that may exist in the 
Family Court. To do this, the coordinator will ensure that a new 
``Intake/Cross Reference Form'' will be completed by various parties to 
a case and also check the 18 current computer systems serving the 
Family Court. Second, the court plans to use alternative dispute 
resolution to resolve cases more quickly and expand initial hearings to 
address many of the issues that the court previously handled later in 
the life of the case. Last, the plan states that the Family Court will 
provide all affected parties speedy notice of court proceedings and 
implement strict policies for the handling of cases--such as those for 
granting continuances--\9\although it does not indicate who is 
responsible for developing the policies or the status of their 
development.
---------------------------------------------------------------------------
    \8\ Coordinators will provide day-to-day liaison between judges and 
magistrates, legal counsel, litigants, court clerks, and the child 
welfare agency. They will also be responsible for monitoring the cases 
for ASFA compliance.
    \9\ When a continuance is granted by the judge, the case is 
rescheduled for another day.
---------------------------------------------------------------------------
    The plan states that the court will conduct evaluations to assess 
whether components of the Family Court were implemented as planned and 
whether modifications are necessary; the court could consider using 
additional measures to focus on outcomes for children. For example, 
evaluation measures listed in the plan are oriented more toward the 
court's processes, such as whether hearings are held on time, than on 
outcomes. According to a court expert, measures must also account for 
outcomes the court achieves for children. Measures could include the 
number of finalized adoptions that did not disrupt, reunifications that 
do not fail, children who remain safe and are not abused again while 
under court jurisdiction or in foster care, and the proportion of 
children who successfully achieve permanency. In addition, the court 
will need to determine how it will gather the data necessary to measure 
each team's progress in ensuring such outcomes or in meeting the 
requirements of ASFA, and the court has not yet established a baseline 
from which to judge its performance.
The Transition Plan Addresses the Number and Roles of Judicial 
        Officers, But Other Human Capital Issues Remain Unclear
    The transition plan states that the court has determined that 15 
judges are needed to carry out the duties of the court and that 12 
judges have volunteered to serve on the court, but does not address 
recruitment and the nomination of the three additional judges. Court 
experts said that the court's analysis to identify the appropriate 
number of judges is based on best practices identified by highly 
credible national organizations and is, therefore, pragmatic and 
realistic. The plan, however, does not include a request that the 
Judicial Nomination Commission recruit and the president nominate the 
additional three individuals to serve on the Superior Court, as 
required by the Family Court Act.
    The Superior Court does not provide in the plan its determination 
of the number of nonjudicial staff needed. The court acknowledges that 
while it budgeted for a certain number of nonjudicial personnel based 
on current operating practices, determining the number of different 
types of personnel needed to operate the Family Court effectively is 
pending completion of a staffing study.\10\
---------------------------------------------------------------------------
    \10\ D.C. Courts has hired Booz-Allen & Hamilton to conduct a 
workforce planning analysis over a 6 month period. The analysis and the 
development of a customized automated tool for ongoing workforce 
planning and analysis is scheduled to be complete by May 15, 2002. The 
courts contracted for this project in response to our report, D.C. 
Courts: Staffing Level Determination Could Be More Rigorous, GAO/GGD-
99-162, (Washington, D.C.: Aug. 27, 1999).
---------------------------------------------------------------------------
    Furthermore, the plan does not address the qualifications of the 12 
judges who volunteered for the court. Although the plan states that 
these judges have agreed to serve full terms of service, according to 
the act, the chief judge of the Superior Court may not assign an 
individual to serve on the Family Court unless the individual also has 
training or expertise in family law and certifies that he or she will 
participate in the ongoing training programs conducted for judges of 
the Family Court.
    The transition plan describes the duties of judges assigned to the 
Family Court, as required by the act. Specifically, the plan describes 
the roles of the designated presiding judge, the deputy presiding 
judge, and the magistrates. The plan states that the presiding and 
deputy presiding judges will handle the administrative functions of the 
Family Court, ensure the implementation of the alternative dispute 
resolution projects, oversee grant-funded projects, and serve as back-
up judges to all Family Court judges. These judges will also have a 
post-disposition \11\ abuse and neglect caseload of more than 80 cases 
and will continue to consult and coordinate with other organizations 
(such as the child welfare agency), primarily by serving on 19 
committees.\12\ One court expert has observed that the list of 
committees to which the judges are assigned seems overwhelming and 
added that strong leadership by the judges could result in the 
consolidation of some of the committees' efforts.
---------------------------------------------------------------------------
    \11\ At the disposition hearing, a decision is made regarding who 
will have custody and control of the child, and a review is conducted 
of the reasonable efforts made to prevent removal of the child from the 
home.
    \12\ These committees include the Child Welfare Leadership Team, 
the Mayor's Advisory Committee on Child Abuse and Neglect, and the 
Mayor's Advisory Committee on Permanent Families for Children.
---------------------------------------------------------------------------
    The plan also describes the duties of the magistrates, but does not 
provide all the information required by the act. Magistrates will be 
responsible for initial hearings in new child abuse and neglect cases, 
and the resolution of cases assigned to them by the Family Court judge 
to whose team they are assigned. They will also be assigned initial 
hearings in juvenile cases, noncomplex abuse and neglect trials, and 
the subsequent review and permanency hearings,\13\ as well as a variety 
of other matters related to domestic violence, paternity and support, 
mental competency, and other domestic relations cases. As noted 
previously, one court expert said that the proposed use of the 
magistrates would ease the burden on judicial resources by permitting 
these magistrates to make recommendations and decisions. However, 
although specifically required by the act, the transition plan does not 
state how the court determined the number of magistrates to be hired 
under the expedited process. In addition, while the act outlines the 
required qualifications of magistrates, it does not specifically 
require a discussion of qualifications of the newly hired magistrates 
in the transition plan. As a result, none was provided and whether 
these magistrates meet the qualifications outlined in the act is 
unknown.
---------------------------------------------------------------------------
    \13\ Review hearings are held to review case progress to ensure 
children spend the least possible time in temporary placement and to 
modify the family's case plan, as necessary. Permanency hearings decide 
the permanent placement of the child, such as returning home or being 
placed for adoption.
---------------------------------------------------------------------------
    A discussion of how the court will provide initial and ongoing 
training for its judicial and nonjudicial staff is also not required by 
the act, although the court does include relevant information about 
training. For example, the plan states that the Family Court will 
develop and implement a quarterly training program for Family Court 
judges, magistrates, and staff covering a variety of topics and that it 
will promote and encourage participation in cross-training.\14\ In 
addition, the plan states new judges and magistrates will participate 
in a 2 to 3 week intensive training program, although it does not 
provide details on the content of such training for the five 
magistrates hired under the expedited process, even though they were 
scheduled to begin working at the court on April 8, 2002. One court 
expert said that a standard curriculum for all court-related staff and 
judicial officers should be developed and that judges should have 
manuals available outlining procedures for all categories of cases. In 
a September 2000 report on human capital, we said that an explicit link 
between the organization's training offerings and curricula and the 
competencies identified by the organization for mission accomplishment 
is essential.\15\ Likewise, organizations should make fact-based 
determinations of the impact of its training and development programs 
to provide feedback for continuous improvement and ensure that these 
programs improve performance and help achieve organizational results.
---------------------------------------------------------------------------
    \14\ Cross-training refers to the practice of bringing together 
various participants in the child welfare system to learn each other's 
roles and responsibilities. The act requires the court to use the 
resources of lawyers and legal professionals, social workers, and 
experts in the field of child development and other related fields in 
developing its cross-training program.
    \15\ U.S. General Accounting Office, Human Capital: A Self-
Assessment Checklist for Agency Leaders, GAO/OCG-00-14G, (Washington, 
D.C.: Sept. 2000).
---------------------------------------------------------------------------
challenges in obtaining the necessary physical space and in developing 
   a new information system could impede family court implementation
    Two factors are critical to fully transitioning to the Family Court 
in a timely and effective manner: obtaining and renovating appropriate 
space for all new Family Court personnel and the development and 
installation of a new automated information system, currently planned 
as part of the D.C. Courts IJIS system. The court acknowledges that its 
implementation plans may be slowed if appropriate space cannot be 
obtained in a timely manner. For example, the plan addresses how the 
abuse and neglect cases currently being heard by judges in other 
divisions of the Superior Court will be transferred to the Family 
Court, but states that the complete transfer of cases hinges on the 
court's ability to hire, train, and provide appropriate space for 
additional judges and magistrates. In addition, the Family Court's 
current reliance on nonintegrated automated information systems that do 
not fully support planned court operations, such as the one family/one 
judge approach to case management, constrains its transition to a 
Family Court.
The Plan for Obtaining the Necessary Space and Facilities Carries a 
        Number of Project Risks
    The transition plan states that the interim space plan \16\ carries 
a number of project risks. These include a very aggressive 
implementation schedule and a design that makes each part of the plan 
interdependent with other parts of the plan. The transition plan 
further states that the desired results cannot be reached if each plan 
increment does not take place in a timely fashion. For example, 
obtaining and renovating the almost 30,000 occupiable square feet of 
new court space needed requires a complex series of interrelated 
steps--from moving current tenants in some buildings to temporary 
space, to renovating the John Marshall level of the H. Carl Moultrie 
Courthouse by July 2003.
---------------------------------------------------------------------------
    \16\ The interim space plan addresses facility needs of the Family 
Court in response to the act. D.C. Courts is also developing a 
comprehensive master plan to address the needs of the courts through 
2012.
---------------------------------------------------------------------------
    The Family Court of the Superior Court is currently housed in the 
H. Carl Moultrie Courthouse, and interim plans call for expanding and 
renovating additional space in this courthouse to accommodate the 
additional judges, magistrates, and staff who will help implement the 
D.C. Family Court Act. The court estimates that accommodating these 
judges, magistrates, and staff requires an additional 29,700 occupiable 
square feet, plus an undetermined amount for security and other 
amenities. Obtaining this space will require nonrelated D.C. Courts 
entities to vacate space to allow renovations, as well as require 
tenants in other buildings to move to house the staff who have been 
displaced.
     The plan calls for renovations under tight deadlines and all 
required space may not be available, as currently planned, to support 
the additional judges the Family Court needs to perform its work in 
accordance with the act, making it uncertain as to when the court can 
fully complete its transition. For example, D.C. Courts recommends that 
a portion of the John Marshall level of the H. Carl Moultrie 
Courthouse, currently occupied by civil court functions, be vacated and 
redesigned for the new courtrooms and court-related support facilities. 
Although some space is available on the fourth floor of the courthouse 
for the four magistrates to be hired by December 2002, renovations to 
the John Marshall level are tentatively scheduled for completion in 
July 2003--2 months after the court anticipates having three additional 
Family Court judges on board. Another D.C. Courts building--Building 
B--would be partially vacated by non-court tenants and altered for use 
by displaced civil courts functions and other units temporarily 
displaced in future renovations. Renovations to Building B are 
scheduled to be complete by August 2002. Space for 30 additional Family 
Court-related staff, approximately 3,300 occupiable square feet, would 
be created in the H. Carl Moultrie Courthouse in an as yet undetermined 
location.
Reducing Risks in Developing the New Information System Critical to 
        Meeting Family Court Goals
    The Family Court act calls for an integrated information technology 
system to support the goals it outlines, but a number of factors 
significantly increase the risks associated with this effort, as we 
reported in February 2002.\17\ For example:
---------------------------------------------------------------------------
    \17\ U.S. General Accounting Office, DC Courts: Disciplined 
Processes Critical to Successful System Acquisition, GAO-02-316, 
(Washington, D.C.: February 2002).
---------------------------------------------------------------------------
  --The D.C. Courts had not yet implemented the disciplined processes 
        necessary to reduce the risks associated with acquiring and 
        managing IJIS to acceptable levels. A disciplined software 
        development and acquisition effort maximizes the likelihood of 
        achieving the intended results (performance) on schedule using 
        available resources (costs).
  --The requirements \18\ contained in a draft Request for Proposal 
        (RFP) lacked the necessary specificity to ensure that any 
        defects in these requirements had been reduced to acceptable 
        levels \19\ and that the system would meet its users' needs. 
        Studies have shown that problems associated with requirements 
        definition are key factors in software projects that do not 
        meet their cost, schedule, and performance goals.
---------------------------------------------------------------------------
    \18\ Requirements represent the blueprint that system developers 
and program managers use to design, develop, and acquire a system. 
Requirements should be consistent with one another, verifiable, and 
directly traceable to higher-level business or functional requirements.
    \19\ Although all projects of this size can be expected to have 
some requirements-related defects, the goal is to reduce the number of 
such defects so that they do not significantly affect cost, schedule, 
or performance.
---------------------------------------------------------------------------
  --The requirements contained in the D.C. Courts' draft RFP did not 
        directly relate to industry standards. As a result, inadequate 
        information was available for prospective vendors and others to 
        readily map systems built upon these standards to the needs of 
        the D.C. Courts.
    Prior to issuing our February 2002 report, we discussed our 
findings with D.C. Courts officials, who generally concurred with our 
findings and stated their commitment to only go forward with the 
project when the necessary actions had been taken to reduce the risks 
to acceptable levels. In that report, we made several recommendations 
designed to reduce the risks associated with this effort to acceptable 
levels. In April 2002, we met with D.C. Courts officials to discuss the 
actions taken on our recommendations and found that significant actions 
have been initiated that, if properly implemented, will help reduce the 
risks associated with this effort. For example, D.C. Courts is:
  --beginning the work to provide the needed specificity for its system 
        requirements. This includes soliciting requirements from the 
        users and ensuring that the requirements are properly sourced 
        (e.g., traced back to their origin). According to D.C. Courts 
        officials, this work has identified significant deficiencies in 
        the original requirements that we discussed in our February 
        2002 report.
  --issuing a Request for Information to obtain additional information 
        on commercial products that should be considered by the D.C. 
        Courts during its acquisition efforts. This helps the 
        requirements management process by identifying requirements 
        that are not supported by commercial products so that the 
        courts can reevaluate whether it needs to (1) keep the 
        requirement or revise it to be in greater conformance with 
        industry practices or (2) undertake a development effort to 
        achieve the needed capability.
  --developing a systems engineering life-cycle process for managing 
        the D.C. Courts information technology efforts. This will help 
        define the processes and events that should be performed from 
        the time that a system is conceived until the system is no 
        longer needed. Examples of processes used include requirements 
        development, testing, and implementation.
  --developing policies and procedures that will help ensure that the 
        courts' information technology investments are consistent with 
        the requirements of the Clinger-Cohen Act of 1996 (Public Law 
        104-106); \20\ and
---------------------------------------------------------------------------
    \20\ D.C. Courts has decided to apply this act to its investments 
even though it is not required to do so. The Clinger-Cohen Act requires 
Federal executive agencies to establish a process to maximize the value 
and assess and manage the risks of information technology investments. 
This process is to provide for, among other things, identifying for a 
proposed investment quantifiable measurements for determining the net 
benefits and risks of the investment, and minimum criteria for 
undertaking a particular investment, including specific quantitative 
and qualitative criteria for comparing and prioritizing alternative 
systems investment projects. Only by comparing the costs, benefits, and 
risks of a full range of technical options can agencies ensure that the 
best approaches are selected.
---------------------------------------------------------------------------
  --developing the processes that will enable the D.C. Courts to 
        achieve a level 2 rating--this means basic project management 
        processes are established to track performance, cost, and 
        schedule--on the Software Engineering Institute's \21\ 
        Capability Maturity Model.\22\
---------------------------------------------------------------------------
    \21\ The Software Engineering Institute is recognized for its 
experience in software development and acquisition processes. It has 
also developed methods and models that can be used to define 
disciplined processes and determine whether an organization has 
implemented them.
    \22\ Capability Maturity ModelSM (a service mark of Carnegie Mellon 
University, and CMM? is registered in the U. S. Patent and Trademark 
Office) provides a logical and widely accepted framework for baselining 
an organization's current process capabilities (i.e., strengths and 
weaknesses) and assessing whether an organization has the necessary 
process discipline in place to repeat earlier successes on similar 
projects.
---------------------------------------------------------------------------
    In addition, D.C. Courts officials told us that they are developing 
a separate transition plan that will allow them to use the existing 
(legacy) systems should the IJIS project experience delays. We will 
review the plan once it is made available to us. Although they 
recognize that maintaining two systems concurrently is expensive and 
causes additional resource needs, such as additional staff and training 
for them, these officials believe that they are needed to mitigate the 
risk associated with any delays in system implementation.
    Although these are positive steps forward, D.C. Courts still faces 
many challenges in its efforts to develop an IJIS system that will meet 
its needs and fulfill the goals established by the act. Examples of 
these include:
    Ensuring that the systems interfacing with IJIS do not become the 
weak link.--The act calls for effectively interfacing information 
technology systems operated by the District government with IJIS. 
According to D.C. Courts officials, at least 14 District systems will 
need to interface with IJIS. However, several of our reviews have noted 
problems in the District's ability to develop, acquire, and implement 
new systems.\23\ The District's difficulties in effectively managing 
its information technology investments could lead to adverse impacts on 
the IJIS system. For example, the interface systems may not be able to 
provide the quality of data necessary to fully utilize IJIS's 
capabilities or provide the necessary data to support IJIS's needs. The 
D.C. Courts will need to ensure that adequate controls and processes 
have been implemented to mitigate the potential impacts associated with 
these risks.
---------------------------------------------------------------------------
    \23\ For example, see U.S. General Accounting Office, District of 
Columbia: Weaknesses in Financial Management System Implementation, 
GAO-01-489, (Washington, D.C.: April 30, 2001); District of Columbia: 
The District Has Not Adequately Planned for and Managed Its New 
Personnel and Payroll System, GAO/AIMD-00-19, (Washington, D.C.: Dec. 
17, 1999); and District of Columbia: Software Acquisition Processes for 
A New Financial Management System, GAO/AIMD-98-88, (Washington, D.C.: 
April 30, 1998).
---------------------------------------------------------------------------
    Effectively implementing the disciplined processes necessary to 
reduce the risks associated with IJIS to acceptable levels.--The key to 
having a disciplined effort is to have disciplined processes in 
multiple areas. This is a complex task and will require the D.C. Courts 
to maintain its management commitment to implementing the necessary 
processes. In our February 2002 report, we highlighted several 
processes, such as requirements management, risk management, and 
testing that appeared critical to the IJIS effort.
    Ensuring that the requirements used to acquire IJIS contain the 
necessary specificity to reduce requirement related defects to 
acceptable levels.--Although D.C. Courts officials have said that they 
are adopting a requirements management process that will address the 
concerns expressed in our February 2002 report, maintaining such a 
process will require management commitment and discipline.
    Court experts report that effective technological support is 
critical to effective family court case management. One expert said 
that minimal system functionality should include the identification of 
parties and their relationships; the tracking of case processing events 
through on-line inquiry; the generation of orders, forms, summons, and 
notices; and statistical reports. The State Justice Institute's report 
on how courts are coordinating family cases \24\ states that automated 
information systems, programmed to inform a court system of a family's 
prior cases, are a vital ingredient of case coordination efforts. The 
National Council of Juvenile and Family Court Judges echoes these 
findings by stating that effective management systems (1) have standard 
procedures for collecting data; (2) collect data about individual 
cases, aggregate caseload by judge, and the systemwide caseload; (3) 
assign an individual the responsibility of monitoring case processing; 
and (4) are user-friendly.\25\ While anticipating technological 
enhancements through IJIS, Superior Court officials stated that the 
current information systems do not have the functionality required to 
implement the Family Court's one family/one judge case management 
principle.
---------------------------------------------------------------------------
    \24\ Flango, Carol R., Flango, Victor E., and Rubin, H. Ted, ``How 
are Courts Coordinating Family Cases?'' State Justice Institute, 
National Center for State Courts (Alexandria, VA: 1999).
    \25\ National Council of Juvenile and Family Court Judges, 
Information Management: A Critical Component of Good Practice in Child 
Abuse and Neglect Cases, Technical Assistance Bulletin, Vol. II, No. 8 
(Reno, NV: Dec. 1998).
---------------------------------------------------------------------------
    Ensuring that users receive adequate training.--As with any new 
system, adequately training the users is critical to its success. As we 
reported in April 2001, \26\ one problem that hindered the 
implementation of the District's financial management system was its 
difficulty in adequately training the users.
---------------------------------------------------------------------------
    \26\ U.S. General Accounting Office, District of Columbia: 
Weaknesses in Financial Management System Implementation, GAO-01-489, 
(Washington, D.C.: April 30, 2001).
---------------------------------------------------------------------------
    Avoiding a schedule-driven effort.--According to D.C. Courts 
officials, the act establishes ambitious timeframes to convert to a 
family court. Although schedules are important, it is critical that the 
D.C. Courts follows an event-driven acquisition and development program 
rather than adopting a schedule-driven approach. Organizations that are 
schedule-driven tend to cut out or inadequately complete activities 
such as business process reengineering and requirements analysis. These 
tasks are frequently not considered ``important'' since many people 
view ``getting the application in the hands of the user'' as one of the 
more productive activities. However, the results of this approach are 
very predictable. Projects that do not perform planning and 
requirements functions well typically have to redo that work later. 
However, the costs associated with delaying the critical planning and 
requirements activities is anywhere from 10 to 100 times the cost of 
doing it correctly in the first place.\27\
---------------------------------------------------------------------------
    \27\ Rapid Development: Taming Wild Software Schedules, Bruce 
McConnell, (Microsoft Press).
---------------------------------------------------------------------------
                        concluding observations
    On the whole, even though some important issues are not discussed, 
the Superior Court's transition plan represents a good effort at 
outlining the steps it will take to implement a family court. However, 
the court still faces key challenges in ensuring that its 
implementation will occur in a timely and efficient manner. The court 
recognizes that its plan for obtaining and renovating needed physical 
space warrants close attention to reduce the risk of project delays. In 
addition, the court has taken important steps that begin to address 
many of the shortcomings we identified in our February 2002 report on 
its proposed information system. The court's actions reflect their 
recognition that developing an automated information system for the 
Family Court will play a pivotal role in the court's ability to 
implement its improved case management framework. Our final report on 
the transition plan may discuss some additional actions the court might 
take to further enhance its ability to implement the Family Court Act 
as required.
    Madam Chairman, this concludes my prepared statement. I will be 
happy to respond to any questions that you or other members of the 
subcommittee may have.
                    gao contact and acknowledgments
    For further contacts regarding this testimony, please call Cornelia 
M. Ashby at (202) 512-8403. Individuals making key contributions to 
this testimony included Diana Pietrowiak, Mark Ward, Nila Garces-
Osorio, Steven J. Berke, Patrick DiBattista, William Doherty, John C. 
Martin, Susan Ragland, and Norma Samuel.
Related GAO Products
    DC Courts: Disciplined Processes Critical to Successful System 
Acquisition. Washington, D.C.: 2002.
    District of Columbia: Weaknesses in Financial Management System 
Implementation. Washington, D.C.: 2001.
    District of Columbia Child Welfare: Long-Term Challenges to 
Ensuring Children's Well-Being. Washington, D.C.: 2000.
    Foster Care: Status of the District of Columbia's Child Welfare 
System Reform Efforts. Washington, D.C.: 2000.
    Foster Care: States' Early Experiences Implementing the Adoption 
and Safe Families Act. Washington, D.C.: 2000.
    Human Capital: A Self-Assessment Checklist for Agency Leaders. 
Washington, D.C.: 2000.
    D.C. Courts: Staffing Level Determination Could Be More Rigorous. 
Washington, D.C.: 1999.
    District of Columbia: The District Has Not Adequately Planned for 
and Managed Its New Personnel and Payroll System. Washington, D.C.: 
1999.
    Management Reform: Elements of Successful Improvement Efforts. 
Washington, D.C.: 1999.
    District of Columbia: Software Acquisition Processes for A New 
Financial Management System. Washington, D.C.: 1998.

    Senator Landrieu. Thank you very much for that excellent 
summary. Now is the time basically for the questions to the 
judges to respond to that report. I have prepared some and 
Senator DeWine has some, but let me just give you my general 
comments from the report that I have now read and reviewed and 
now heard.
    I want to try to remain encouraged about the progress and 
the challenges that are before us. And the reason I want to try 
to remain encouraged is because I continue to remember and 
think and remind myself of the over 200 children who have died 
in care of this system over the last 7 years We have lost over 
200 children. So, there is an imperative for us to get this 
right, get it right as quickly as possible, and to be very 
clear.
    I am encouraged by the fact that a plan has been presented, 
and I am encouraged because we have stepped onto the road and 
are hopefully moving, at least, in a direction. And I am 
encouraged because there seems to be some unity among all the 
factors about really wanting to see the change.
    But let me tell you what I heard in terms of weaknesses of 
the system, which greatly concern me. One was the summary by 
Ms. Ashby, that we are very clear on process but very short on 
outcomes. The other weakness that I heard, that concerns me a 
great deal, is there doesn't seem to be any clear baseline so 
that we can tell the progress if we are making some or not.
    I am also concerned about the lack of clarity, about the 
certification of the judges who have volunteered. I am 
particularly concerned, and I share this concern with other 
members, particularly I will say for the record Senator Durbin, 
who has spoken to me on numerous occasions about his concern of 
a lack of focus on court assistance, particularly from social 
workers recognizing that a team approach, including a judge, a 
magistrate, and other administrative personnel is very 
important.
    We hear a lot about the judges. We hear some things about 
magistrates, and we hear virtually nothing about the other 
personnel necessary to handle these kinds of very complicated 
cases in the new time requirements set by Congress, which are 
now mandates.
    I am concerned about, the building plans seem very 
complicated to me and I am not clear that it is going to 
facilitate or lend itself to smooth operations, while some of 
these moves are going on in a system that is already very 
fragile. I am not sure how it could sustain any more stress to 
it in terms of renovations and moving, et cetera. That is not 
clear to me.
    And finally, a weakness is still this computer and 
information system that I have no confidence at this point and 
have not been given enough evidence that it is going to work. 
And its working means life or death for children, so I am going 
to be very, very tough about this tracking system working.
    So, those are some of the weaknesses that I have heard. I 
have tried also to give you some of the strengths.
    Senator DeWine may have some comments or questions at this 
point and then I will have some questions to the judges.
    Senator DeWine. No, Madam Chairman, I am going to wait.
    Senator Landrieu. Okay.
    Senator DeWine. And I will just hear the rest of the 
witnesses, and then I do have questions.
    Senator Landrieu. All right. If you all would submit, Chief 
Judge King and Judge Satterfield, your statements for the 
record. But why do I not begin by asking you all to comment on 
some of the weaknesses and strengths that I have outlined, and 
also either take that chart that is up there, which came from 
your plan, which is the new plan, and walk us through, if you 
wanted to bring that up, take us through one case, give us an 
example of one case.
    And if my staff could give me a little version of it, so I 
could see it more clearly. Yes, I have got it right here.
    First, I want you to comment on the strengths and 
weaknesses that you have heard, and then, Judge Satterfield, 
since you are the presiding judge, I would like you to start 
with a petition filed and just sort of make up a case in your 
head about how this system would work within the 18-month time 
frame that is now required by law.
    Once a child hits the system and becomes identified by the 
system, we have, in every district now in the nation, a law 
that says you have 18 months to either have that child back 
with the family which they were taken from, or they have to be 
with an adoptive family, or they have to have permanency in 
guardianship.
    The days of long-term foster care are thankfully coming to 
a halt in this nation. They are going to be slowly phased out. 
We are not going to have long-term foster care in the country. 
We are going to either have permanency and reunification or 
adoption with a new family or permanent guardianship. And that 
is a new law that Congress initiated; and the District will 
abide by that law, as will every other district in the country.
    So why do you not start, Judge, and give me your comments 
about the strengths and weaknesses and then walk us through a 
specific case and the time lines.

STATEMENT OF JUDGE LEE SATTERFIELD, PRESIDING JUDGE, 
            FAMILY COURT, SUPERIOR COURT OF THE 
            DISTRICT OF COLUMBIA
ACCOMPANIED BY RUFUS G. KING, III, CHIEF JUDGE, SUPERIOR COURT OF THE 
            DISTRICT OF COLUMBIA

    Judge Satterfield. All right. Thank you. And let me thank 
you, Madam Chairman, for the opportunity to talk about the 
transition plan today; and you too, Senator DeWine for that 
opportunity. And I will go right to some of the weaknesses that 
we cited, or some of the problems that were cited by the GAO in 
terms of our transition plan.
    Let me say that first it is a transition plan. It is a plan 
that is----
    Senator Landrieu. Pull the mike a little closer.
    Judge Satterfield. I am sorry.
    It is a plan that is not final, because this is an ongoing 
process that we have undertaken under the Family Court Act and 
it is going to take some time to get to the point where we are 
satisfied with everything that is being implemented in the act.
    In terms of the sum of the outcomes, a comment was that the 
report is sort of process-driven and not outcome-driven, with 
respect to the children that we serve in those cases.
    We feel that the processes that are put in place are 
designed for good outcomes for children. I think that in terms 
of having a baseline, we are currently working on having a 
baseline, because we understand that we have to have a baseline 
in order to evaluate what those outcomes are for the children. 
And so we are in the process of establishing that baseline.
    Senator Landrieu. Could I ask you just some comments about 
what in your mind a baseline would look like? I mean, what 
would you have in a baseline, so we could tell if we were 
making progress?
    Judge Satterfield. We want to know how long the children 
are staying in the court system for one. We want to know what 
that average is because I think some of the positive results 
that we expect to see is that that time will go down if we are 
successful in implementing some of the reforms of the Family 
Court Act.
    We want to know whether or not we are meeting all of the 
time lines, not just through the Federal ASFA, but also through 
the D.C. ASFA, because those time lines are designed so that 
the case of a child can move forward to permanency quicker.
    But we also want to make sure that we are also providing 
quality to the case itself, because these are children and even 
though there are time lines, we have to make sure and ensure 
that these children are safe and that we are achieving 
permanency.
    But the time lines are there so that we can expedite 
permanency for the children. So we want to make sure that we 
are doing that. So we want to establish a baseline of where we 
are on those time lines.
    Senator DeWine. Judge----
    Senator Landrieu. Go ahead.
    Senator DeWine. Madam Chairman, if I could just interrupt?
    Senator Landrieu. Go ahead.
    Senator DeWine. Judge, I think what I am saying--I do not 
know whether the Chairman is saying this--is why is that not in 
the plan? You are telling us today what you want to do, and 
those are all very good things and we appreciate that.
    Why is that not a part of a plan that is in writing that 
you can get your hands on, and then you can measure it?
    Judge Satterfield. Because we do not have the baseline. 
Now, that is correct; that is why we are establishing that. If 
we had the baseline, we would have included that part of it in 
the plan so that we can show where we are starting from.
    We recognize that we do not have the baseline. We are 
starting to develop that so that we are able to show to you 
what the baseline is, so we can report to you what our progress 
is.
    Senator DeWine. I wonder if the GAO has got a response to 
that?
    Ms. Ashby. Well, more of a question than a response. Given 
that we are now implementing the Family Court, how do you at 
this point develop a baseline if you do not already have it? 
You know, the baseline would have been what happened last year 
or what happened over the last 2 or 3 years.
    Once you start implementing the new system, it is kind of 
late, I think, to establish a baseline.
    Senator DeWine. So, see, you already have the statistics.
    Judge King. May I? If I may?
    Senator Landrieu. Go ahead, Chief Judge King.
    Judge King. One of the key elements of the transition plan 
is the development of an effective Integrated Justice 
Information System (IJIS). We do not have an effective IJIS. We 
have to pull all that data together so, of course, we are doing 
that.
    We are pulling together data by hand in some cases and by 
very arduous, slightly automated, processes in others, to 
establish a baseline. We are taking an historical look but we 
just do not have it done yet.
    Senator Landrieu. Yes, okay.
    Judge King. In the plan, we will get to a point where if 
you asked us today what our baseline was in 1999, we could go 
back and have it to you by noon. But we are just not there yet.
    Senator DeWine. But does the plan say what specifically 
should be measured and how it is going to be measured?
    Ms. Ashby. No, it----
    Judge King. Yes, we have some criteria.
    Senator DeWine. Well, I am getting a no and I am getting a 
yes.
    Senator Landrieu. She says no and you are saying----
    Senator DeWine. And that is why we are having the hearing.
    Judge King. Okay. It does not elaborate and I think we need 
to establish--and frankly, the comments of GAO have been 
helpful and instructive for us. We will develop criteria, which 
by consensus, with the consensus of GAO and with agreement of 
the Bar and other participants in our process, are a good way 
of measuring ``Are we doing better for children?''
    Senator Landrieu. Okay. Let me ask this, and if I could 
just--because this is a very important starting point, I think, 
and would be worth some time to discuss in some detail with 
everyone's input. It seems to me that we could go one of two 
ways, and let me just clarify the facts for the record.
    Is it true or can somebody tell me how many cases are in 
this universe? Are we talking about 4,500, 4,200, or 3,800? Do 
we have an official number of cases that we have identified as 
belonging to this new Family Court?
    Judge Satterfield. We have an official number. We cited 
these statistics----
    Senator Landrieu. What is that number?
    Judge Satterfield. Well, I have to turn to what we cited as 
of the end of this year, which is in one of the appendices. I 
cannot give it to you off the top of my head, but we----
    Senator Landrieu. Okay. Does anybody in the audience know 
what the number is?
    Judge Satterfield. Well, I have it here.
    Senator Landrieu. Does GAO know?
    Ms. Ashby. I believe in the appendix it is 5,000-and-some 
cases.
    Judge Satterfield. Well, you are talking about the child 
welfare cases, but----
    Senator Landrieu. I am talking about the cases that have 
now been identified----
    Judge Satterfield. Right, right.
    Senator Landrieu [continuing]. As having to be dealt with 
that we are trying to get our hands around.
    Judge Satterfield. So you are talking about the cases of 
children, the child welfare cases----
    Senator Landrieu. Yes.
    Judge Satterfield [continuing]. That are the ones that are 
either coming back into----
    Senator Landrieu. That are going to be in the new Family 
Court.
    Judge Satterfield. Right. That number of----
    Senator Landrieu. Okay. I have here in the exhibit, just 
for the record: pending divorce cases, 6,663; paternity and 
support, 8,497; juvenile delinquency, 825; mental health and 
retardation, 2,436; child abuse and neglect, 5,145; adoption, 
807; for a total of 24,000. However, I am going to assume that 
some of these cases are double-counted; is that a good 
assumption?
    Judge Satterfield. No, they are not double-counted.
    Senator Landrieu. And so, they are all individual cases?
    Judge Satterfield. Yes.
    Senator Landrieu. These are all individual children, all 
for the families.
    Judge Satterfield. Well, all of the child abuse and neglect 
cases are all individual children. Actually, the only--some of 
the--let me backtrack on that. The double counting, if there is 
some, would be in some of the child abuse and neglect cases are 
pending adoption, so there would be some double counting there; 
not anywhere else.
    Senator Landrieu. And it would not overlap with mental 
health and retardation?
    Judge Satterfield. No.
    Senator Landrieu. So, none of your child abuse and neglect 
cases would involve a child that had mental illness or mental 
retardation?
    Judge Satterfield. It would not involve a mental health or 
mental retardation cases. We have those types of issues in our 
child abuse cases. We just do not have a separate case jacket 
for that child.
    We deal with that in the child welfare case, so that would 
not mean any double numbers there.
    Senator Landrieu. Maybe GAO can help me, because what I am 
trying to get a handle on, which is a very important starting 
place, is how many cases we are talking about. Because if it is 
24,000 as opposed to 5,000, then the plan is going to look a 
lot different, I suggest. I mean, that is a big difference in 
number.
    Judge Satterfield. No. There are 5,000 cases, or 5,100 
cases as of the end of last year, of children in our abuse and 
neglect system.
    Senator Landrieu. And those are the only cases that are 
going to go to this new Family Court?
    Judge Satterfield. No. All of these cases are in the Family 
Court. All of these cases, but specifically for the ones of 
children, we are looking at the child abuse and neglect and the 
juvenile delinquency cases and the adoption cases. And of those 
cases, we have identified the numbers, and each number 
represents one child.
    Senator Landrieu. Okay. Your plan in broad terms is to take 
these 24,000 cases and divide them among the 15 judges and--17 
magistrates?
    Ms. Ashby. Ultimately.
    Senator Landrieu. Ultimately.
    Judge Satterfield. Yes.
    Senator Landrieu. So, you are going to take 24,000 and 
divide these cases all to these judges?
    Judge Satterfield. They will not be divided evenly because 
some of the cases are weighted differently, meaning that some 
of them take longer to process. And we have to--we look at 
which ones and what they are processed for. A juvenile trial 
can take up to 5 days in some respects. A divorce or custody 
trial can take longer. And so they will not be divided evenly, 
but----
    Senator Landrieu. That is okay. They do not have to be 
divided evenly, but they will be identified to a particular 
judge, because the founding principle of this act is one-judge/
one-family.
    And so the most important mandate in this act is for these 
cases to be distributed however you all see fit. But once the 
case is given to the judge and to that court, it is going to 
stay there until it is handled from beginning to end, and not 
moved from judge to judge, or magistrate to magistrate, or 
lawyer to lawyer. So the families get a real quality service.
    Judge Satterfield. We propose and I agree that that is the 
overarching principle of the act, is the one-judge/one-family, 
and we propose to implement that in phases as we set forth in 
the transition plan, starting with the child welfare cases. Of 
the child welfare cases, in that 5,100 number, we are talking 
about approximately 3,500 of those cases that are not assigned 
to judges in Family Court. Those are the cases that we are 
bringing back home to Family Court.
    Senator Landrieu. Senator DeWine and I would be very 
interested to see written clearly on paper, the time lines for 
assigning these cases and to what judges they are going to go 
to of the 5,145, and how quickly either you or GAO think that 
you can clearly identify what cases are staying with what 
judges. And I understand that none of this is automated.
    Judge Satterfield. True----
    Senator Landrieu. I understand that these are all in 
jackets, in files that have to be sorted by hand. I am clear 
about that. There is no computer system that will help us to 
sort, but this is my point, we have a decision to make 
together.
    We can either spend the next couple of years automating the 
system and then do the sort, which puts some more months and 
years with these children in limbo, or we can do a hand sort, 
get the cases moving, and then develop the automated system.
    Judge Satterfield. Well, we completely agree with you.
    Senator Landrieu. Okay.
    Judge Satterfield. We are moving those cases now. In fact, 
up to 1,500 of those cases are going to go throughout the month 
of May, to the new magistrate judges that are finishing their 
training this week and will start sitting on cases next week. 
So we totally agree. We are not waiting for automation to do 
that.
    Senator Landrieu. That's good. Okay.
    Judge Satterfield. And I can go to some of the major 
milestones in terms of the transition, if you would like. We 
expect to get in 1,500 to start, and that is of the 3,500 cases 
that are outside of the Family Court. The remaining of that 
1,500 are already in and being served by judges now.
    Senator Landrieu. It would be helpful if you could simply 
submit, maybe within 60 days, Judge, a specific written time 
frame about what cases are moving to what courts, in what time 
frame and how long it will take?
    Judge Satterfield. I can----
    Senator Landrieu. If you do not have that now--
    Judge Satterfield. I can tell you now what we expect to 
happen with respect to the transition of all those cases that 
are outside the Family Court.
    Senator Landrieu. Well, why do you not tell us now and then 
submit it in writing?
    Judge Satterfield. Because we truly believe that we will 
get them in before the transition period is over, if we can 
work out some of the challenges we have with respect to space, 
because right now we are having to put in a stop order, because 
of the lack of the money coming forth, so that we can start 
building out the space. And we are getting very close to doing 
that.
    But we truly believe if that resolves itself, which we hope 
that it will, that we will get these cases in. We expect the 
first 1,500 to come in during the months of May and June. Then 
when we bring on four additional magistrate judges later in the 
year, we expect to bring another 1,200 kids back into Family 
Court.
    Senator Landrieu. Later in the year would be what month?
    Judge Satterfield. What we are looking in terms of getting 
the space built out, we are looking at the earliest as 
December. In the interim, though, we expect that when 
children's cases close, of the first 1,500 cases that go in, 
some of those cases we hope--because we are targeting it for 
certain reasons--will close. As they close, we will continue to 
give those new magistrate judges that are already on board 
additional cases from judges who are outside of Family Court.
    We told them your case load, you will not be able to 
measure your success by whether you get your numbers down. You 
will measure your success by the outcome you achieve with a 
child. And each time you achieve a good outcome for a child, we 
are going to bring you another child in from outside the Family 
Court, so that you could do the same thing there.
    So even in the interim, we have two goals and two dates in 
which we are going to have a larger number of children's cases 
coming in. But in the interim, in that period in between, as 
they close these cases, we bring in additional cases to them.
    Senator Landrieu. Would GAO like to comment on that?
    Ms. Ashby. Well, the numbers, the 1,500 and the 1,200 later 
this year and early next year are in the plan. The difficulty 
we had in accounting for total numbers were, number one, we 
were not sure that the 5,000 listed here, how that connected 
with the numbers in the narrative of the plan. But just looking 
at the numbers, there were gaps. And it was not clear in some 
cases whether--it sounded from the narrative as if some cases 
would not transfer back into the Family Court, because they 
would be closed before that would happen.
    But we were not clear in terms of numbers. The 3,500 seemed 
to be brought forward in the narrative as coming back into the 
court. But as I said, there was a discussion about some cases 
being closed outside of the Family Court, so there was some 
confusion.
    Senator Landrieu. Okay. I would like to try to unravel this 
confusion; because I think as a starting point it is very 
important and I am not sure what to suggest. I do not want to 
take too much time on this one point, but perhaps you all could 
meet with GAO and see if you could resolve that, and submit to 
this committee, in writing, specifically, the cases that are 
going to be resolved by the current system, which I think we 
allowed in the law.
    We did not say all the cases would have to move 
immediately, because we did not want to cause even yet another 
disruption for some of these cases. So some of the judges who 
are not Family Court judges are going to resolve the cases that 
were in their court. They are going to transfer only a portion 
of the 5,000 cases to the new judges, and then----
    Judge Satterfield. Of the 3,500 cases. I am sorry.
    Senator Landrieu. Of the 3,500 cases, a portion----
    Judge Satterfield. Coming back in.
    Senator Landrieu. Oh, there are 3,500 coming back in and 
about 1,500----
    Judge Satterfield. Right.
    Senator Landrieu [continuing]. Staying with the----
    Judge Satterfield. That they are already being handled by--
--
    Judge Satterfield [continuing]. The Family Court 
jurisdiction officers.
    Senator Landrieu. Okay. So, are there any cases remaining 
with judges who are part of the court, but not Family Court 
judges?
    Judge Satterfield. That is the 3,500 cases that you are 
talking about. They are the ones that are with the judges 
outside of Family Court.
    Senator Landrieu. Are not some of those judges keeping some 
of their cases?
    Judge Satterfield. They will not. We have asked them to 
identify if the case has a child reaching majority before the 
end of the year, that case will be closed before the end of the 
year.
    We have asked them to keep a case where they know that the 
adoption will go through before the end of the year, because 
that case does not need the services and intense scrutiny of 
the magistrate judges that are coming on board.
    We have asked them that if in June, when we want this 
particular case to come in, you are dealing with a major crisis 
with your child, and you want some continuity to resolve that 
crisis, resolve that crisis; and then that case that has been 
identified to come back in, we will bring that case back in, 
after you have done that.
    So, we have only asked and given them very limited 
exceptions as to what types of cases would stay out. And we 
only--and, of course, there has to be some of that, because of 
the capacity that we have, but----
    Senator Landrieu. Okay. That is fine. Let me ask you what 
we would like for our records. We would like GAO to help us 
identify what cases have been held by what judges and what 
specific cases have moved to the new court and identify each 
court and each magistrate and their basic caseload as the 
baseline.
    You have to have a starting point.
    Judge Satterfield. Well, we have that, and we can give you 
that, because we have identified the cases. The only reason 
that we have not attached them to the magistrate judge yet is 
because we are trying to work out something with Child and 
Family Services, where we would have these cases that are 
coming back in assigned to magistrate judges based on who the 
social workers are, so that a number of social workers would 
only have to appear in front of one judge, which would free up 
their time to do other things in court.
    So we are working on that with Child and Family Services. 
We have the cases, that are coming back in, identified.
    Senator Landrieu. So let us talk about that for a minute. 
GAO can step in any time, but your plan is having some 
difficulty assigning these cases, because you want to put the 
same social workers together with the magistrate?
    Judge Satterfield. It is not difficulty. We have offered 
Child and Family Services that, if they can identify for us 
clusters of social workers, we were willing to assign those 
cases according to who the social worker is.
    That is not our difficulty. We can assign them right now by 
just----
    Senator Landrieu. But you are waiting for them?
    Judge Satterfield. We are just waiting for them, and they 
have given me an answer yesterday, that they think we are going 
to be able to do that. And part of the problem is, as you 
identified already, our computer systems do not talk, so a lot 
of things have to happen; it is labor-intensive to get that 
process going.
    We can assign these cases right now. We have identified 
them. We have identified the categories. We have 1,500.
    We can give them to the magistrate judges right now. We 
expect to start doing that next week in any event, because they 
will have stopped their training at the end of this week. But 
we have been trying to work out a system where we can also 
accomplish the scheduling goal of trying to free up additional 
time, because Child and Family Services says they would like 
additional time obviously to do what they need to do, because 
they are so overloaded with their cases and the lack of social 
workers. So, we are trying to do that with them to accomplish 
that goal, as well.
    Senator Landrieu. That is a very good goal and I want to 
encourage you. This cooperation between these agencies is so 
important. Maybe our committee could help by sending a letter 
to the city urging them to try to get back to you as quickly as 
possible with their cluster groups of social workers. When you 
assign these cases, you are keeping social workers that have 
been working on the cases together with these new magistrates.
    We know it is not going to be perfect. But that is how we 
develop a baseline: how many cases, what the teams look like, 
and how long it has taken us to adjudicate these cases in the 
past.
    As you build the Family Court over the next couple of 
years, we hope to see that the process has become more 
efficient, outcomes have improved, the quality of service has 
improved, et cetera, et cetera. You are going in the right 
direction.
    Otherwise, we can spend a lot of time talking and not a lot 
of improvement.
    Ms. Ashby. Yes. I just wanted to add that--actually, that 
is reasonable given that ultimately the team would go beyond 
the judge and the magistrate--and as I understand it from the 
plan--would include perhaps a person from child welfare, a 
worker and attorneys and----
    Senator Landrieu. Let us talk about that now for the 
record. Judge Satterfield--how do you envision structuring your 
Family Court teams? Who is on a team?
    Judge Satterfield. We expect to have the judge--associate 
judge and magistrate judge, and I am an associate judge, and 
new magistrate judges on a team, along with--and that is how 
this team will begin. Because we can group them together now, 
and because that is something that the court has control over.
    Then we have asked the other stakeholders that are involved 
in this process, like the city's attorney, that we would like 
to see them assigning their assistant corporation counsel 
attorneys to particular teams. And they have to do a number of 
things to do that, as well. And so we have asked them to do 
that.
    Then we are looking for adding some of the other attorneys, 
the private attorneys that represent the children as guardians 
ad litem, and the parents' attorneys to participate and appear 
in front of a certain team set of judges, a magistrate judge 
and associate judge on the child welfare cases of the children.
    And then we are asking that the--we do that through social 
workers as well. That takes some time only because you have to 
coordinate with the other agencies to get this accomplished; 
and I can give you an example.
    When we start to bring these cases together and there are 
many cases where the city's attorney is involved in the case, 
if I have an abuse and neglect case, I have one city attorney. 
If I bring in the juvenile case, there is another city attorney 
that handles the juvenile case. If I bring in the related 
domestic violence case, there is another city attorney that may 
handle that.
    They have to work on, as well, the cross-training, so that 
you do not have 10 lawyers in front of you, not accomplishing 
anything but hearing a lot of noise. You have to work on the 
cross-training there as well. And then we have to work on 
bringing the social worker in, and bringing that team in.
    And the social workers change sometimes, depending upon 
where the child is through the process. And so, those are some 
of the things that we have to coordinate to accomplish this 
team approach. And that is why we say by the end of June, 2003, 
we hope to have this whole team together.
    Senator Landrieu. Okay. Let me ask you this, to facilitate 
that, have we established either by law or by administrative 
directive a task force that is responsible for carrying out 
this interagency coordination?
    Judge Satterfield. Well, we have--we, by law----
    Senator Landrieu. Not within the court--not within the 
court.
    Judge Satterfield. But you----
    Senator Landrieu. The--something that sits that can sort of 
help the court----
    Judge Satterfield. But we have been----
    Senator Landrieu [continuing]. And the social welfare, and 
the prosecutors basically----
    Judge Satterfield. Sure.
    Senator Landrieu [continuing]. To do this.
    Judge Satterfield. We have been working with the child 
welfare team, which is a team that is facilitated by the 
court--Council for Court Excellence for some time. That team 
has been in place prior to the enactment of the Family Court 
Act. And all the players that I am talking about are members of 
that team.
    Senator Landrieu. Okay.
    Judge Satterfield. And so we have had these discussions. I 
am not saying we are not--we are working together on it, Dr. 
Golden and the others. And everybody recognizes it, but it is 
just those types of obstacles and challenges that we have to 
take on to move this thing along, and we are moving it along. 
It just takes some time for others to reorganize, to complement 
what we are trying to do in Family Court.
    Judge King. If I may just add, one of the first things, 
when the bill came into effect, is that I issued two 
administrative orders establishing an internal oversight team 
and an external working group, which is overseeing this.
    So we have our own group, which does include people from 
the outside agencies as an oversight group, working on this.
    Judge King. Because we obviously have to work step----
    Senator Landrieu. I realize that which is why I said one of 
the strengths that I see is that everybody is really trying to 
work in a unified manner, and I think that is very, very good.
    I think the unity is a tremendous strength. What concerns 
me is that any time you are trying to do a fairly complicated 
task there has to be significant coordination. If all groups do 
not do what they are supposed to do on time, submit their 
plans, do their work, it holds everybody else up.
    So my question is: which agency is forcing everybody to 
meet their deadlines, have their teams organized so that 
everybody can work together? Because if that is this committee, 
I need to know about that.
    If it is somebody else, then I can help them to get the 
resources they need to do that, so that we have all very 
positive outcomes and we meet our time lines, which are tight. 
These time lines are tight.
    Judge King. But we--I mean we are leading in this, because 
this is the plan that we put together in collaboration with the 
other groups.
    Senator Landrieu. Okay. So you will tell me if there is a 
team or group that are not doing what they are supposed to do, 
or the child welfare agency is not doing it, you will come and 
tell this committee.
    Judge King. We are happy to do that.
    Senator Landrieu. Okay. Because we are going to hold you 
all accountable.
    Judge King. I know. So we are happy to do that.
    Senator Landrieu. All right. All right. So we will hold you 
all accountable. You will tell us and we are clear about--you 
know, so I do not want to hear ``We could not do it because so-
and-so did not do what they were supposed to do,'' because we 
will--okay?
    Judge King. I think that is the clear--I think from the 
very beginning of the discussions----
    Senator Landrieu. Okay.
    Judge King [continuing]. And the Act, it was clear that the 
court is the ultimate arbiter--ultimately, we are the ones who 
are responsible for making the thing go.
    Senator Landrieu. Okay.
    Judge King. And I believe we have put in place the proper 
team to carry out that vision.
    Senator Landrieu. Okay. Would you walk me through, and then 
Senator DeWine probably has a comment or a question--will you 
walk me through that flow chart, and show us and go through a 
specific, you know, just a made-up case of how the petition is 
filed, because there are no time lines? What I noticed on here 
is not only is it----
    Judge Satterfield. We have added them on there--because we 
noticed that, too.
    Senator Landrieu. Okay. Would you go----
    Judge Satterfield [continuing]. Because we noticed that, 
too.
    Senator Landrieu. Would you write the time lines up there, 
or have somebody write them up there?
    Judge Satterfield. They are up there. They are up there 
now. They are not in the one that is in the transition plan.
    Senator Landrieu. Okay. In the book.
    Judge Satterfield. But we understand that was a concern. 
You wanted to see those, so we have added them to the one that 
is on here.
    Senator Landrieu. Okay. Could I have a new copy then with 
time lines?
    Judge King. This one is current.
    Senator Landrieu. And Senator DeWine would like one, too.
    So the first one, we did not have time lines, which is very 
important; and the second one we now have time lines.
    Judge Satterfield. That is right.
    Senator Landrieu. Because we have 18 months from the time 
this petition is filed until down here and I--just for my 
purposes, I would like to say, ``Child go home,'' or ``Child 
adopted'' would be the two--you know, either--either home, 
guardianship, or adoption are the three outcomes that are on 
the bottom of this sheet.
    We have 18 months from the time the petition is filed to 
get to those three outcomes; so Judge Satterfield, why do you 
not walk us through this, if you would?
    Judge Satterfield. So if a child case comes into our court, 
it is going to come in on a petition filed by the attorney from 
the city. Within 24 hours of the child being removed, we are 
going to have what we call the initial hearing, and that is to 
determine the legal basis for the removal of the child.
    After the initial hearing, within 30 days of that initial 
hearing, one of two things will occur. We have a child 
protection mediation program, that is ongoing, that has been 
grant-funded through the Council for Court Excellence, and 
being evaluated by the National Council of Juvenile and Family 
Court Judges.
    We are sending 50 percent of our cases involving children, 
our new cases as of January through that. By the end of the 
year, we will know, because it is being evaluated; all 
appropriate cases that should go through that, and we will 
increase that number with all appropriate cases once that 
evaluation is completed.
    Senator Landrieu. And let me be clear, because Senator 
DeWine and I, I think, are big supporters of this. But this is 
an opportunity, within 30 days of a child being removed to have 
a counseling session with the extended family?
    Judge Satterfield. No. I am sorry. This is not family 
counseling, which is something that the agency is trying to do. 
This is a child--this is a mediation with all of the lawyers 
present, the guardian ad litem, the parents' attorneys, in a 
hope to resolving the child's case in terms of an adjudication, 
so that there would not need to be a trial, and so that we can 
get ahead of all the time lines, because there will not be a 
need for a trial.
    So, they are trying to mediate the resolution, because we 
need an admission of neglect for us to gain the jurisdiction to 
move forward with the other aspects of----
    Senator Landrieu. Let me just tell you my comments about 
this. And Senator DeWine is truly an expert, because he was a 
prosecutor.
    But what I have tried to figure out about this is that, 
some time after a child is removed from a home, there should 
be, and there might not be in our law, but we could create it--
it may not be legal, I am not sure--but in my mind, I think 
that there should be a time where the lawyers or the court 
personnel bring together some opportunity for the extended 
family to make a family decision about what should happen to 
this child--people who know the child and know the family.
    Now, while it is important to have lawyers involved because 
lawyers know a lot about the law, sometimes the lawyers do not 
know about the children. They do not know about the family. 
They are not familiar enough.
    So I am not suggesting that we not do this. I am just 
suggesting that let us just, really, search for the very best 
system. And in my mind, and I have heard about other systems 
doing this, there is a time for input from the grandmother, the 
aunt, the next-door neighbor, the principal, the second-grade 
teacher, who know this child and who know the situation.
    They do not need to investigate. They know. They come 
together and it is a facilitated discussion about, ``You all 
who know this child the best, what do you think would be the 
best?''
    If those things work successfully, you could reduce your 
caseload substantially, because a lot of times a resolution 
will come out right then, within 30 days and that group will 
say, ``We know this child. We have watched this child suffer 
for 4 years. We know and we are strongly recommending that this 
child be adopted by the aunt or the sister or the grandmother'' 
or ``We are strongly recommending a guardianship of the 
neighbor, who has been raising this child basically since it 
was born.'' Or, you know, the teacher says, ``I really have a 
solution.''
    And I want to press you all to that kind of system. And if 
you need laws changed or you need us to do anything, you know, 
we can help you facilitate it.
    And then the idea is to keep a third--maybe 40, maybe 50 
percent of these cases from ever getting to the court system 
itself where it is adversarial, the way is not clear, there is 
not a consensus. And then you really have no alternative but to 
go to some court system where people have to take sides; and 
then it takes longer.
    Judge Satterfield. Can I comment on that, though, because I 
think----
    Senator Landrieu. Yes.
    Judge Satterfield [continuing]. Some of what you said 
occurs before it comes to our court system, or needs to occur 
before it comes to our court system.
    The other part of it is we try to do things at the initial 
hearing to identify relatives. We ask the social workers, 
``Start identifying the relatives,'' so that in 30 days for the 
mediation, while they may not be in the mediation room as a 
party to the case, they are available.
    We expect that they have talked to the social workers, so 
that we can do just what you are saying, resolve these cases in 
an expedited way, which results in some future permanency for 
the child and safety for the child, by using relatives. And 
some of that can be accomplished through the child protection 
mediation in 30 days.
    Senator Landrieu. Let me recognize Senator DeWine, and I 
will be right back.
    Senator DeWine. Okay.
    Judge King. Yes. I would like to finish that answer or 
finish up his answer----
    Senator Landrieu. Go ahead.
    Senator DeWine. Go ahead. Go ahead, Judge.
    Judge King. You mentioned something in your example of 
maybe--a neighbor could be a guardian. And it is a subject near 
and dear to my heart.
    Our guardianship law would not allow us to do that. And one 
of the things I have spoken informally on with the City 
Council, perhaps a letter of encouragement or support might 
help.
    Senator DeWine. It is your D.C. law?
    Judge King. We need to change the law in order to allow us 
to have that option, because I agree; I believe that that would 
be a very big help in closing cases, a group of cases, not all 
of them. But there is a group of cases that could be closed by 
that legal provision, if we had it available.
    Senator DeWine. Let me get back to the issue of fundamental 
policy, and how it pertains to this time line, and how it 
pertains to the plan that you have submitted.
    As you know, under the Federal law, the ASFA law, there are 
certain instances where reasonable efforts are not required to 
reunite the family--a child with a family; the parent who has 
murdered another child would be an extreme horrible example.
    On your time line, when will the determination be made as 
to whether or not reasonable efforts are required at all? You 
know, if reasonable efforts are not appropriate, the Federal 
law requires a permanency hearing within 30 days. Does that 
time line cover that?
    Judge Satterfield. Well, if it is a case where ``reasonable 
efforts'' is not required, we would have to get it to trial 
within a certain period of time in order to have it 
adjudicated, that the child has been neglected, to give us the 
jurisdiction to move forward with some other permanency goal of 
adoption or guardianship or whatever it would be.
    Senator DeWine. But you are going to have to make a 
determination, an initial determination. I mean, you know, 
obviously, someone in the system has to make that initial 
determination, at least in your mind; then you move forward.
    I mean, just where does it show--just show me up there, 
walk up there and just show me where it fits in.
    Judge Satterfield. There are two--there are two areas where 
it can be initially--in the initial hearing when we are looking 
at the type of case it is in terms of--and under the law it is 
usually made at the disposition hearing, which is under the 
adjudication block where we indicate that no reasonable efforts 
were necessary, or in the permanency hearing where we indicate 
that no reasonable efforts were necessary because of the nature 
of the crime, as you said for one that involves sort of abuse-
type crimes.
    Senator DeWine. So, we are covered?
    Judge Satterfield. I think we are covered, yes.
    Senator DeWine. Okay.
    Judge King. I would also point out----
    Senator DeWine. Sure, Judge.
    Judge King [continuing]. That it depends on the nature of 
the circumstance. Obviously, in a case where a sibling has been 
murdered, you do not need 30 days to figure that out. That gets 
done at the initial hearing, in terms of where that case is 
ultimately going to go. But this covers all of the instances 
where we would ultimately determine that there are not----
    Senator DeWine. Speaking of the initial hearing, tell me, 
the initial hearing, who hears that?
    Judge Satterfield. We have a magistrate judge hearing and 
our proposal in the plan by January is to have the magistrate 
member of the judicial team to rotate through there when they 
pick up cases of children during the week that they pick up 
cases of children, and they conduct the initial hearing.
    Senator DeWine. So the assignment--but the case assignment 
goes before that hearing? In other words----
    Judge Satterfield. No. The case is assigned----
    Senator DeWine. Am I going to have--my question is, just to 
make it real simple----
    Judge Satterfield. Sure.
    Senator DeWine. Am I am going to have, from a simplistic 
point of view, am I going to have one magistrate at the initial 
hearing and then a determination is going to be made where we 
are going or--and then we go to somebody else?
    Judge Satterfield. We are doing that now. And that is how 
we have done it in the past.
    Senator DeWine. Yes, I know.
    Judge Satterfield. But we are moving from that to have the 
magistrate judge----
    Senator DeWine. Okay. So we immediately then have the 
continuity?
    Judge Satterfield. Right. We are going to----
    Senator DeWine. The second hearing is going to be with the 
first--the same person that had it----
    Judge Satterfield. The second hearing will be either with 
the magistrate judge assigned to the team that will conduct the 
initial hearing or----
    Senator DeWine. Yes.
    Judge Satterfield [continuing]. That judicial officer 
assigned to that same judicial team. And that is what we are 
moving toward, and we propose implementing that in January of 
next year.
    Senator DeWine. We have discussed, I believe, in the past 
this issue, but I want to revisit again. It is my understanding 
that the court will not terminate parental rights for a child 
unless an adoptive parent has already been identified. Is that 
true?
    Judge Satterfield. No. I mean, I think there is some case 
law that we have with the Court of Appeals that talks about 
that being one factor that we should look at, but we do not 
have a statute such as they have in California, which is 
inconsistent with the Federal ASFA, where they will not----
    Senator DeWine. So that is not your--that is not your 
policy?
    Judge Satterfield. No. No. We do not have a policy in any 
way close to that.
    Senator DeWine. Well, what is the policy?
    Judge Satterfield. Well, the policy is to look at it on the 
merits of the case and see whether or not the standard has been 
met in order to terminate the rights. But the fact that there 
is no adoptive parent involved, or parents involved, at the 
time is not a factor that could--that would preclude the 
termination of parental rights in the case.
    We typically have done the termination through our adoption 
case in order to expedite it, because the appeal process with 
respect to adoption was different and the outcome for the child 
with respect to adoption was different than if we did it 
through the termination of parental rights petition.
    So a lot of our cases--because you will see that our 
termination of parental right numbers are down in terms of 
cases, because most of that is done through the adoption case, 
without a petition to terminate it being filed.
    I understand that in order to meet ASFA in the spring or 
summer, or at least summer, that we expect a substantial influx 
of motions to terminate parental rights being filed by the 
agency through their counsel, because they have to comply with 
that requirement that, you know, 15 out of the 22 months the 
child is in foster care.
    But we have never had the position or a law that says we do 
not terminate unless there is an adoptive family that is 
involved. We obviously want one involved, because otherwise the 
child does not have anywhere to go once the rights are 
terminated, if we have not identified an adoptive family.
    Senator DeWine. You--well, yes, we want one, but do we not 
also have the situation that parents--people--prospective 
parents are not willing to come forward if they do not have 
some assurance, I mean, that you are going to have that child--
that that child is going to be able to be adopted?
    Judge King. If I can----
    Senator DeWine. That is what experts tell me across the 
country when I talk to them.
    Judge King. If I can jump in, the emphasis here is that 
there has to be a merits determination for a particular child. 
So, for example, and I do not mean these are--none of this is 
hard law; it is all decisional law in our Court of Appeals.
    But if you have, for example, an infant--a healthy infant, 
well that would certainly point generally in the direction of 
``go ahead and terminate rights,'' because the likelihood of 
rather easily finding a good permanent solution is up there.
    Senator DeWine. It is pretty easy, yes.
    Judge King. If you have, on the other hand, a troubled 13-
year-old who has got a number of medical issues and maybe 
already some substance abuse issues, and they have a long 
relationship, however troubled, with their parents, then you 
have to look at that when you make a decision.
    Senator DeWine. Sure.
    Judge King. So it is a merits determination. And those are 
the kinds of things that might come into it.
    Judge Satterfield. And our 14-year-olds, under the law, 
have the right to object to going forward with adoption. So, if 
they were in foster care for that time period, and we 
terminated the rights of their parents, which under that time 
period we are required to do, they may not be adopted either. 
So that is what I mean when I say----
    Senator DeWine. Yes. Okay.
    Judge Satterfield [continuing]. That we hope to have an 
adoptive family.
    Senator Landrieu. But let me pursue this for a moment, 
because we are all learning about the--this whole new world of 
adoption. Sometimes a child thinks that terminating parent--
parental rights is the same thing as terminating their ability 
to ever see the parent again. And it is two completely 
different things.
    And sometimes we do not tell children the truth about that. 
And the facts are we could create a system where you would 
terminate the rights of a parent who has proven, time after 
time after time after time, to be unable or unwilling, or a 
combination of both, to be the kind of support and nurturing 
that that child needs.
    And so the court has to make a decision even if the child 
is 13 and troubled and in difficulty, or 10, or 14, or 15, that 
this child needs a functioning parent; this child needs a 
functioning guardian.
    And so that has to be the determination that the only thing 
in the court's mind is the fact that children cannot raise 
themselves. That is not why they were created; they have to be 
raised by someone. And so, you could then terminate the rights 
of that parent but allow for a visitation, allow for rigorous, 
you know, interaction between the parent, you know, the 
parents, or put them under sort of what I think is allowed in 
your law, a legal guardianship, which even gives, I think, 
greater rights to--well, not greater rights, but greater 
opportunity for the parents to stay involved, the biological 
parents to stay involved with the child's life over a long 
period of time. So the----
    Judge Satterfield. We will set those goals, no question 
about that; that is our mandate. We will do that, but we need 
the agency, we need the community, we need them to bring us the 
guardian. We do not make the guardian. They need to bring them 
to us, so that once we set that goal, we have a place for that 
child to go.
    Senator Landrieu. That is why I get back to my point, 
within 30 days of removing that child--and I heard that it is 
not legal right now in the system--that one good thing to do is 
to bring an extended family, or people who know the child well, 
together. Your chances of identifying a guardian, a permanent 
guardian or a potential adoptive family, are highly increased 
by just that exchange, and that interchange.
    So I do not want to take too much time on this particular 
point, because we have others to go forward, but can I assume 
that this chart with the, now, time lines fits the 18-month new 
requirement by law without going through each----
    Judge Satterfield. Yes. And there are even stricter time 
lines, because D.C. has to have stricter time lines for the----
    Senator Landrieu. What are those time lines?
    Judge Satterfield. Well, for us to get the case to 
adjudication, it is written on here we have to do it within 45 
days of the petition being filed if the child is not removed, 
within 105 days if the child is removed. And then the other 
time lines are pretty much consistent with Federal ASFA, so, 
yes, I think you can see--we have identified that for you.
    [The statements follow:]

Prepared Statement of Rufus King, III Chief Judge Superior Court of the 
                          District of Columbia

    Madam Chairwoman, Senator DeWine, members of the Subcommittee: I am 
Rufus G. King, III, Chief Judge of the Superior Court of the District 
of Columbia. I thank you for the opportunity to speak to you today. 
Judge Lee Satterfield, Presiding Judge of the Family Court of the 
Superior Court, joins me today in testifying about our Family Court 
Transition Plan. We are pleased to have this opportunity to update you 
on the progress we have made so far and the plans we have for the 
future.
    To begin with, Madam Chairwoman and Senator DeWine, I would like to 
thank you both for drafting, negotiating and shepherding the Family 
Court Act of 2001 through to passage. It involved tremendous effort on 
your parts and on the part of your able staff, and we are most 
appreciative.
    Judge Satterfield, along with the Deputy Presiding Judge of the 
Family Court, Anita Josey-Herring, led a team that created the case 
management plan for the Family Court--a plan that will dramatically 
enhance our ability to serve the abused and neglected children of the 
District of Columbia. I want to thank them for their hard work and 
commend them for their leadership in a truly collaborative planning 
effort that included input from and discussion with all stakeholders. 
The kind of cooperation displayed during preparation of the plan will 
substantially improve the ability of all to deliver services to 
children and families.
                               background
    The President signed the Family Court Act of 2001 into law on 
January 8, 2002 with the support of the Court, the bar and most of the 
stakeholders in the child advocacy community. We shared a goal of 
improving the provision of services to the abused and neglected 
children of the District and expediting permanency for them. The bill 
is a major step toward that goal. And now that the bill is law, the 
Court is preparing to implement all of its provisions as effectively 
and expeditiously as possible.
                            progress to date
    To that end, we submitted the plan--3 days before its due date--and 
appointed the five magistrate judges for the Family Court within 2 
months, as the bill required. The magistrate judges are finishing their 
month-long training this week and will begin hearing cases next week. 
We have already begun implementing the ``one family/one judge'' concept 
by keeping all cases within the Family Court for review once 
disposition had been reached, as opposed to the previous practice of 
referring many of them to judges outside the Family Division. In 
addition, when each new child comes into the system, we check whether 
there are Family Court cases involving any member of the child's 
family. If so, we assign the child's case to the same judge.
    I have asked Judge Satterfield to present testimony on the case 
management part of the Family Court plan and I will provide you with an 
overview of the space and facilities part of the plan, as well as the 
information technology needs.
                          space and facilities
    In September 2001, the Courts initiated a master space plan study 
to provide a blueprint for Court capital projects and space utilization 
for the next 10 years and to identify the optimal location for the 
Family Court. The General Services Administration (GSA) is conducting 
the study and has developed the Interim Facilities Plan for Family 
Court Transition, which is contained in Volume III of the Family Court 
Plan. With GSA's assistance, we have completed Step 1 to provide space 
for the five new magistrate judges, at a cost of approximately 
$600,000. We reconfigured the existing magistrate judges' office suite, 
expanding it by shifting other operations within the Courts' 
facilities. To provide hearing rooms for these magistrate judges when 
they begin hearing cases next week, we have recommissioned three 
hearing rooms in the main courthouse and modified assignments for 
others.
    Step 2 of the interim plan accommodates the space needs of the four 
additional magistrate judges and three additional associate judges that 
the Family Court will require. The plan is to renovate the JM level of 
the main courthouse and construct 3 new courtrooms, 4 new hearing 
rooms, and a Family Services Center. This will be the office from which 
court and District social services will be coordinated. The 12 existing 
hearing and courtrooms on that level will be used by the Family Court, 
and the whole area will be modified to impart a separate identity for 
the Family Court. GSA estimates the cost of Step 2 of the interim plan, 
including providing space for the courtrooms that currently occupy the 
JM level, at $11.4 million, and we plan to have this work completed by 
deadline--18 months after submission of the Transition Plan, or early 
October, 2003.
    Ultimately, we plan to co-locate the entire Family Court and 
supporting mediation and Court Social Services space on the JM and 1st 
level and provide a separate entrance. The existing clerks' offices for 
the different branches of the Family Court would also be consolidated 
to provide a central location for filing all cases within the Family 
Court, from Mental Health and Domestic Relations to Juvenile and Abuse 
& Neglect. The architects have done some preliminary feasibility 
studies and report that by modifying the C street side and the Indiana 
Avenue entrance of the Moultrie Building there will be enough space to 
accommodate all of these functions in contiguous space on the JM and 
first floor levels of the courthouse.
    As I mentioned at our hearing last month, a pressing concern for 
the Court is the need to obligate funds in order to comply with the Act 
prior to the funds becoming available under applicable appropriations 
law. The District of Columbia Appropriations Act, 2002 provides that 
the Family Court appropriation becomes available only after a 30 day 
GAO review followed by a Congressional review of 30 legislative days, 
which we estimate will be completed by mid or late June. In the 
interim, we expect to obligate approximately $1 million for the new 
magistrate judges for personnel costs and the construction I mentioned 
above. To date, we have utilized funds from the Courts' fiscal year 
2002 operating and capital budgets. These obligations will not pose a 
problem if funds appropriated for the Family Court can be used as 
reimbursement. However, the GAO has informed us that this reimbursement 
would constitute a transfer, for which statutory authority is required.
    Of even greater concern, to keep the architectural and construction 
work on schedule for completing the transition, we estimate that most 
of the Interim Plan funds (up to $11.4 million) must be obligated 
during this review period. If the Courts were authorized to obligate a 
part of the Family Court funds in advance, the work in the Interim Plan 
could proceed without delay. The lack of this authority could 
potentially place the Courts in the untenable position of requiring us 
to choose between compromising fundamental health and safety needs of 
the public using the courthouse, and delaying time-sensitive 
construction contracts to keep the Family Court on schedule.
    This subcommittee has been very generous in securing sufficient 
funding for the Family Court effort. We hope that the Subcommittee will 
continue its support with these timing issues as it has in providing 
funds to implement the Family Court Act.
                         information technology
    The Courts were already in the planning stages of an integrated 
information system when the Family Court Act was proposed. The first 
phase of this system will be built in the Family Court. This system is 
a key element of meeting the Act's requirements for serving children 
and families and for tracking and reporting on our progress.
    The Courts' Integrated Justice Information System (IJIS) is a 3-
year project, estimated to cost approximately $7 million, to replace 
the aging computer infrastructure of the Superior Court and link it 
with the Court of Appeals by creating an integrated case information 
system that will eliminate the current fragmented system, consisting of 
over 18 separate databases. IJIS began as part of a District-wide 
effort to improve information technology within and among the 
District's criminal justice agencies, and this information sharing 
focus will help the Court coordinate with District agencies that serve 
children and families.
    The initial planning phase of IJIS was completed in December 2000 
and resulted in the production of a written requirements analysis by an 
independent contractor, the National Center for State Courts (NCSC). In 
its analysis, the NCSC proposed that the Courts acquire a commercially 
available off-the-shelf software package, as well as integrated modules 
to handle specific divisions and/or case categories and to implement 
these modules by segments, including training, during the next three 
fiscal years. Following the submission of the detailed plan for IJIS to 
Congress in May 2001, the Comptroller General (GAO) reviewed the 
project. GAO's constructive recommendations, which we are implementing, 
will strengthen the project, helping to ensure that IJIS serves the 
Court most effectively.
    IJIS is critical to the success of Family Court implementation. 
IJIS will automate identification of cases involving the same family so 
we can assign them to the same judicial officer and implement ``One 
Family/One Judge'' more effectively and efficiently. Unlike many 
existing systems, IJIS will not merely facilitate scheduling, but will 
provide performance data to permit us to track our progress and to 
compile the reports required by the Act.
    Overall, IJIS will improve Court operations and services in many 
ways:
  --Improve the identification of related cases (not only in the Family 
        Court) thereby enhancing the information available to judges 
        responsible for case resolution;
  --Facilitate scheduling/calendar management, thereby reducing waiting 
        time in court for police, attorneys, litigants and the public;
  --Reduce the flow of paper across and within operating divisions and 
        the statistical reporting unit of the Court;
  --Eliminate redundant data entry at the Courts and throughout the 
        District's child welfare and criminal justice agencies;
  --Improve management reports and provide enhanced decision support 
        for court managers, including the ability to effectively 
        monitor operations, identify needed improvements and develop 
        budgets; and
  --Enhance public access to court information and services.
                               conclusion
    Judge Satterfield, Presiding Judge of the Family Court, will 
provide you with details about the case management aspects of our 
Family Court Transition Plan. We would both be pleased to answer any 
questions you may have.
                                 ______
                                 
             Prepared Statement of Judge Lee F. Satterfield
    Madam Chairwoman, Senator DeWine, members of the Subcommittee, I 
want to thank you for the opportunity to testify today and to provide 
you with a summary of the Family Court Transition Plan's case 
management approach. I hope to be able to answer any questions you have 
about it, address any concerns, and listen if you have some suggestions 
on how we could improve it.
                              introduction
    As Chief Judge King said in his testimony, the Family Court Act of 
2001 was the result of hours of work, discussion, deliberation, and 
sometimes even vigorous persuasion. But in the end we have a law that 
all of us agree will improve the operations of what is now the Family 
Court of the Superior Court of the District of Columbia. The time for 
debate is over and the time for action is at hand. To that end, as 
Chief Judge King mentioned, Judge Josey-Herring and I have been devoted 
to developing a plan that will implement both the spirit and the letter 
of the law, and will allow all interested parties to best address the 
needs of children and families in the District.
                               background
    As the subcommittee well knows, the District saw a dramatic surge 
in abuse and neglect filings in the late 1980's and, while the most 
recent increases do not seem to be as significant, they have not yet 
leveled off. Each year, more than 1,500 children are alleged to be 
neglected or abused by their parents. The Child and Family Services 
Agency is completing its transition out of receivership and is striving 
to strengthen its ability to deliver services to children and families.
    The Court is beginning the transition under which cases of 
neglected and abused children being reviewed by judges outside the 
Family Court will be transferred to judges within the Family Court. In 
addition, since January, all new abuse and neglect cases have been 
retained in the Family Court.
                          the family court act
    The District of Columbia Family Court Act of 2001 fundamentally 
changed the way the Superior Court serves children and families. The 
Act elevated the Family Division, creating. a Family Court within the 
Superior Court, set out principles for processing children's cases, and 
established judges' terms and the position of Magistrate Judge. The Act 
emphasized that the guiding principle behind all decisions, procedures, 
and policies must be to make the safety, permanency, and well being of 
the child of paramount importance.
    As required by the Act, we submitted to Congress a report on how we 
will implement the provisions of the Act. Chief Judge Rufus G. King III 
designated me, along with Deputy Presiding Judge Anita Josey-Herring to 
develop the processes, protocols, calendars, and staffing plan that 
would enable the Family Court to meet the legislative mandates. The 
plan follows the ``one-family/one judge'' principle, ensures greater 
resources will be devoted to expeditious resolution of family cases, 
and is a blueprint for how we will improve the family law and child 
development skills of all those who handle Family Court cases.
                    the family court transition plan
    The Family Court Transition Plan provides a phased-in transition by 
which all cases outside of the Family Court will be returned to judges 
within it and the one family/one judge approach will be fully 
implemented. The plan proposes teams each composed of one associate 
judge and one magistrate judge, so that one member of the team hears 
most aspects of each child's case, but the other keeps apprised of all 
cases assigned to the team, to provide back-up and to cover during 
transitions at the end of a judge's term. The team approach will ensure 
that each family's dynamics are well known to a judge and builds in 
redundancy so that the additional team member knows the children and 
their families and can make very well-informed decisions at any stage 
of the case, if needed.
    We have already begun to implement the one family/one judge 
approach by ending the practice of referring cases to judges outside 
the Family Court for the review stage, the continuing review of the 
child's case after a judicial determination that abuse or neglect 
occurred. In addition, we plan to transfer 1,500 of these review cases 
to the Family Court by June of this year, as the five new magistrate 
judges begin hearing the older cases.
    There are several other aspects of the family court plan that are 
essential to its success. First, we look forward to the implementation 
of the Integrated Justice Information System, IJIS, which will enable 
us to better track and monitor the progress of cases. Most importantly, 
IJIS will allow us to determine, when a child comes into the abuse and 
neglect system, whether other family members or household members have 
cases before the Family Court, so we can assign their case to the same 
judicial team, the team already familiar with that family's dynamics.
    The plan also suggests centralizing intake for all of the branches 
of the Family Court--mental health and retardation, domestic relations, 
paternity and child support, juvenile delinquency and abuse & neglect--
in a single location. This would be easier for those filing cases and 
enhance the Court's ability to accomplish the one family/one judge 
mandate.
    Further, we plan to establish a Family Services Center within the 
Family Court, to provide a centralized location with referral to 
services that the District and the Court offers. For many parents, it 
is crucial to have available treatment, or at least a referral or 
appointment, when they are in the courthouse. Follow-up is less likely 
when the parents have to make the calls and locate available services 
themselves. The Act's provision requiring that District agencies 
provide on-site representatives provides a wonderful addition to the 
services already available to children and families through the Court's 
Social Services Division.
    Enhanced training is another crucial element of the statute and the 
plan. The Court has already begun to increase training. We held a 
three-week training course for all magistrate judges entering Family 
Court for the first time and plan periodic training sessions for 
judges, as well as staff in the Family Court and Social Services 
Division. In addition, we will provide mandatory quarterly 
interdisciplinary training (``crosstraining'') for Family Court judges, 
case-coordinators, attorney advisors and other staff. Lastly, we plan 
to hold periodic cross-training programs for stakeholders responsible 
for child welfare and related family issues, and hope to secure 
sponsorship of an annual training conference held here in the District 
for judges, court personnel, attorneys, social workers and other 
stakeholders.
    We are also pleased with the expanded role that ADR--alternative 
dispute resolution--or mediation will play in the new Family Court. We 
have already begun, through a grant from the Council for Court 
Excellence, to refer half of all cases to our mediation program, the 
Multi-Door Dispute Resolution Office. Our goal is to determine, at the 
end of one year, which cases are most assisted by mediation and then to 
use that experience to speed resolution of cases in the future by 
utilizing mediation in those cases where it promises to be most 
effective.
    Perhaps most important is continuous, close coordination between 
the Family Court, Child & Family Services Agency (CFSA), and the Office 
of Corporation Counsel (OCC). We are working with those two agencies so 
that the team approach involves not just judges and children, but also 
social workers and attorneys. We are working together to determine the 
best method of assigning cases to judicial teams so as to allow their 
staff to work in the team approach as well.
    This is an ambitious plan. However, as you well know, Madam 
Chairwoman and Senator DeWine, these changes are important. They worth 
any effort if they can bring children into permanent, safe, and loving 
homes sooner. We at the Court are excited about the new Family Court 
and implementing the plan. I was gratified to find that ten of my 
colleagues--excellent, enthusiastic judges with a wealth of family law 
experience--chose to join Judge Josey-Herring and myself as the first 
twelve Family Court judges. I was also very impressed with the caliber 
of applicants for the five new magistrate judges positions. The five 
who were chosen and have already been installed--Carol Dalton, Pam 
Gray, Noel Johnson, Alec Haniford Deull and Juliet McKenna--are truly 
top-notch family law practitioners with a level of commitment to family 
cases and dedication to children that I find inspiring.
                               conclusion
    In closing, please let me thank you, Chairwoman Landrieu and 
Senator DeWine, for all you have done to establish and support the 
Family Court. I appreciate the opportunity to testify today to discuss 
the Family Court Transition Plan and tell you about changes already 
underway. I am happy to answer any questions.

    Senator Landrieu. Yes. Okay.
    Let me ask some of the other panelists here, and I know 
that you have got statements for the record, but would you all 
like to comment on some of the practices or best practices that 
you have heard about in other places that could be helpful to 
this discussion?
    Matt Fraidin, we will start with you.
    Mr. Fraidin. Well, thank you.
STATEMENT OF MATTHEW FRAIDIN, LEGAL DIRECTOR, THE 
            CHILDREN'S LAW CENTER
    Mr. Fraidin. Thank you, Chairperson Landrieu and Senator 
DeWine. My name is Matt Fraidin, I am the legal director of the 
Children's Law Center here in D.C.
    And we help at-risk children find safe, permanent homes, 
and the education, health, and social services they need to 
flourish, by providing comprehensive legal services to 
children, their families, and foster and kinship caregivers.
    All of that means that I have plenty of opportunity to 
appear in front of these judges, almost on a daily basis. And 
as I have said in written statement, I spend plenty of time 
arguing with them and disagreeing with them.
    And so I feel sort of specially qualified to say that I am 
very cheered by the plan as I see it, and feel a sort of 
distinct level of energy and commitment that comes from the 
court and comes from the plan that I think bodes very well for 
the future.
    There are a few things that I think could be taken from 
other jurisdictions, and one very specific thing that we have 
mentioned in our written statement is--applies to training. I 
mean, it--I apologize that it is not specifically on the 
subjects that you have been addressing, but I think that as the 
Court moves toward reforming all of its processes and toward 
achieving better results for children, that training both of 
judges and of the lawyers who practice before the court is 
going to be just a very important part of making sure everybody 
is on the same page, that everybody has the knowledge base and 
the skills base that is required to push these cases through 
and to get the good outcome for children.
    [The statement follows:]

                Prepared Statement of Matthew I. Fraidin

                              introduction
    Good morning, Chairperson Landrieu and members of the Committee. My 
name is Matthew Fraidin, and I am the Legal Director of The Children's 
Law Center here in Washington, D.C. The Children's Law Center helps at-
risk children in the District of Columbia find safe, permanent homes 
and the education, health and social services they need to flourish by 
providing comprehensive legal services to children, their families and 
foster and kinship caregivers.
    Thank you for the opportunity to speak with you today about the 
Family Court Transition Plan and its impact on children and families in 
the District of Columbia, a subject of great concern to us all.
    I would like to preface my remarks with an observation borne of my 
experience appearing almost daily in front of District of Columbia 
Superior Court judges. Although I have argued strenuously, and 
frequently disagreed, with judges in individual cases, there can be no 
doubt that the judges in Superior Court care deeply about children. It 
is my hope that the Family Court Act of 2001 and the Transition Plan 
that implements it will give these judges the structure, tools, and 
support they need to ensure that their decisions improve the lives of 
the abused and neglected children whose interests they protect.
    Having reviewed the Family Court Act of 2001 and the Transition 
Plan, it is my opinion that the Transition Plan appropriately addresses 
the core components of the Act. I believe that the Act challenged the 
Court to engage in careful scrutiny of its own strengths and 
weaknesses, and that the Transition Plan reflects a sober assessment of 
those and an aggressive attempt to capitalize on the opportunity for 
change.
    I would like in the following minutes to outline several very 
positive aspects of the Transition Plan, and comment on a few areas 
that could benefit from additional consideration. I will do this by 
addressing the Plan's approach to problem-solving with respect to three 
important actors in the child welfare system: the Court itself; the 
attorneys who represent children, parents and caregivers; and the 
District of Columbia Child and Family Services Agency.
    The message I hope to convey is that the Court is devoted to 
improving the welfare of children, and the Transition Plan represents a 
tremendous commitment to step up to the plate. But I also hope the 
Committee and the Court will hear another message: The Court must go 
one step further. We know from experience that judges cannot protect 
children unless lawyers and the Child and Family Services Agency 
provide them with accurate information. Judges must use their authority 
to ensure that lawyers and CFSA do their job. Judges need the help of 
attorneys and CFSA, and can make sure--by convening hearings, issuing 
orders and demanding adequate performance--that the others contribute 
to the process the information and representation required to protect 
children.
                   the transition plan and the court
    First and foremost, the Plan comprehensively focuses on routinizing 
and professionalizing the Court's own structures and procedures. The 
Plan sets forth a methodical approach to consolidating abuse and 
neglect cases within the Family Court. The Plan also describes steps 
that are being taken to ensure that families benefit from the 
consistency and knowledge provided by a ``one family-one judge'' 
approach. I note in this regard that the one family-one judge approach 
already is standard practice in the Court's Domestic Violence Unit and 
is the subject of one of the Unit's governing rules of practice. In 
addition, it is our recent experience that judges throughout the Family 
Court have embraced this approach and have been applying it already as 
they become aware of multiple proceedings involving the same family.
    We applaud the Plan's emphasis on collaboration and training. 
Innovations such as the Family Services Center and the centralized 
filing and intake center will make information more readily accessible 
and facilitate planning and implementation of services. Comprehensive, 
accurate information that is available in a centralized, user-friendly 
location will help avoid the delays and uncertainties that can plague 
planning. I am a member of the Court's new committee on judicial 
training, and believe that the committee represents a valuable cross-
section of knowledgeable practitioners from varied fields whose 
insights will provide substantial benefits.
    I note that the performance measures listed in the Plan all relate 
to dates, timelines, and other easily measurable numerical goals. We 
recognize that Federal statutes require substantial attention to 
achievement of specified timelines and other quantifiable objectives. 
In addition, we recognize that it is difficult to measure and evaluate 
the quality of outcomes. Nonetheless, it is important to remember that 
implementation of efficient systems and achievement of quantitative 
targets must not overshadow judges' duty to look at the specific needs 
of each individual child, and to achieve the right result for every 
child in every case. Focusing on systemic improvements creates the risk 
that children will be seen as ``cases,'' docket numbers, statistics, 
generalizations. Any Plan, and any Family Court, for that matter, must 
allow judges to see children as people, with distinct lives and needs 
and strengths. As the court looks to streamline its processes, it must 
do so in the service of children, not at their expense.
    I note that the Plan does not mention the role of foster parents--
who represent the backbone of the abuse and neglect system. They are 
the bridge from a child's past to her future, the glue that holds 
together the badly-strained present. Foster parents are entitled by 
existing law to notice of court hearings and an opportunity to be heard 
on the subject of the children in their care. In fact, foster parents 
receive notice of hearings only sporadically, and then only informally 
from the social worker assigned to monitor the child. The Children's 
Law Center urges the Court to recognize the invaluable service provided 
by foster parents, and the valuable information they can provide to the 
Court, by taking responsibility for providing notice to foster parents 
as it does to other parties in the case.
                   the transition plan and attorneys
    The Children's Law Center fully supports the Court's efforts to 
impose and enforce practice standards and training requirements on 
attorneys. We also suggest that the Court consider strategies to 
provide additional supports to abuse and neglect attorneys.
    With respect to training, the Court should consider following the 
practice of other jurisdictions, such as Chicago, where the court 
actually closes one afternoon each month to permit attorneys to attend 
regular in-service training sessions.
    In addition, the Court should consider the special needs of solo 
practitioners, who make up the vast majority of abuse and neglect 
attorneys. Solo practitioners often do not have access to the latest 
technologies, or the means to maintain legal research tools and 
resource data. The Children's Law Center is attempting to step into the 
breach by providing information and resources on our website, by 
hosting the Probono.net website, and by providing materials and 
technical support to practitioners and service providers. But the Court 
should enhance the efforts of the dedicated abuse and neglect attorneys 
by ensuring that attorneys have the support they need. At the same 
time, the Court should continue to advocate for improved compensation 
for abuse and neglect attorneys.
    Finally, the child welfare system depends on the active, high-
quality efforts of abuse and neglect attorneys who represent children 
and parents. Judges cannot step down off the bench and visit children 
and families in their homes. They rely on the information brought to 
them by the attorneys. If, as is sometimes the case, an attorney for a 
child has had insufficient contact with the child to ascertain the 
child's needs and identify services and service providers to address 
those needs, judges cannot reasonably be expected to know what is 
required to meet the needs of the child and to ensure that it is 
provided. When parents' attorneys fail to maintain contact with their 
clients between hearings, and fail to advocate for the services that 
might help the parents remedy the deficiencies that caused the child to 
be removed from the family's home, judges legitimately cannot reunify 
children with their biological families.
    It is thus in the Court's interest and in the interest of children 
that the attorney practice standards promised in the Transition Plan be 
promulgated and enforced. The Court must satisfy its commitment to 
improve the service provided by attorneys in abuse and neglect cases.
      the transition plan and the child and family services agency
    The Plan recognizes the Child and Family Services Agency's unique 
position and statutory duty to assist judges in identifying and 
implementing strategies that will serve children's best interests. The 
Plan also implicitly acknowledges that the Agency often fails in its 
mission. Judges, whether individually or collectively, cannot reform 
the Child and Family Services Agency. This task falls to the Mayor and 
the people of the District of Columbia. Judges can and must, however, 
use their authority to require the Agency to act properly on behalf of 
individual children.
    The Transition Plan reflects new and creative ways in which the 
Court is holding the Child and Family Services Agency accountable. An 
important element of the Plan is its promise to continue implementing 
the Court's philosophy of expediting abuse and neglect cases by setting 
a tone of aggressive, creative, and thorough problem-solving from the 
outset of the case. The Plan mentions several ways in which the Court 
has begun considering issues at the initial hearing stage that 
previously were ignored until later in the life-cycle of neglect cases. 
These include resolution of issues such as paternity, notice, and 
establishing deadlines for filing motions. The Court should consider 
expanding that list further, by, for example, requiring in every 
appropriate case that the Child and Family Services Agency create a 
family tree and investigate all possible relative placements within 21 
days.
    It is worth noting that these strategies--like the performance 
measures mentioned earlier--relate to the speedy and effective 
processing of cases. We urge the Court to consider measures more 
directly related to the children themselves. For example, the Court 
could consider establishing as a matter of policy a presumption that 
all initial hearing orders include a requirement that the Agency 
coordinate within 48 hours a visit between a removed child and his or 
her brothers and sisters, and that the Agency ensure within 48 hours 
that a removed child has been enrolled in school, if the child has been 
placed in a new school district. Imposition of specific requirements 
would help hold the Agency accountable for promptly addressing the 
traumatic impact on children of being uprooted from home. The Agency is 
not taking these actions on behalf of children, and only the Court can 
make sure that it happens.
    The Court also should require compliance by CFSA with statutorily-
imposed duties such as providing case reports to the court and all 
counsel 10 days prior to hearings. Finally, the Court should never 
accept as part of the ordinary course of business the non-appearance at 
a hearing of a social worker.
                               conclusion
    The Transition Plan is an excellent beginning and reflects what we 
perceive at The Children's Law Center as the Court's genuine commitment 
to providing the best possible protections for the children in its 
care. The Court must follow through by implementing the Plan 
expeditiously. And the Court must do what already is within its power: 
ensure that the lawyers and the Child and Family Services Agency help 
the Court do its work.
    The child welfare system is like a three-legged stool--the court, 
the lawyers and social services are the three legs. No matter how 
strong we make the court leg, the stool will fall down if the other two 
legs are broken. Without good lawyers and an effective Child and Family 
Services Agency, the court cannot do its job.
    The changes occasioned by the Family Court Act are enormous; 
implementation of the Act's mandates will require ongoing support by 
all stakeholders and policymakers here on Capitol Hill. I urge this 
Committee to provide the court with the resources it needs to implement 
the Act and to give our most vulnerable citizens a chance to be raised 
in healthy, loving families and to become productive members of our 
community.
    We must all be vigilant in ensuring that our ultimate focus remains 
the best interests of each individual child. New organizational charts 
and creative redistribution of responsibility are not enough; we need 
new practices and renewed energy to safely, humanely, and responsively 
provide every child with the benefits of a permanent home.

    Senator Landrieu. Do you have specific suggestions about 
training that is being conducted somewhere in the country that 
would be helpful, or should we establish our own training 
program?
    Mr. Fraidin. Well, one example that I am aware of is that 
in Chicago, the court closes down one afternoon every month and 
specifically--it is specifically devoted to allow lawyers to be 
trained.
    I know that the plan itself calls for regular, I believe, 
quarterly training of the judges.
    Senator Landrieu. Yes.
    Mr. Fraidin. And I am very supportive of that. And the 
magistrate judges are all getting 3 weeks of intensive training 
before they start. So we think that they have--that the court 
has paid appropriate attention to that issue. But as you have 
said, best practices from around the country certainly can be 
helpful.
    Senator Landrieu. Well, I would like to--we just had a vote 
called. I am going to ask Senator DeWine----
    Senator DeWine. I will go first.
    Senator Landrieu [continuing]. If he can go vote and then 
come back, so we can keep the hearing going. And when he comes 
back, then I will go and vote. And we will try to keep this 
hearing going until 11:30--okay.
    Well, I would like the courts to take that suggestion under 
consideration actually, you know, a monthly, at least within 
the first year to kind of, you know, mandatory training, sort 
of built-in service time, the same way that teachers in a 
school will go into an in-service training day as an 
opportunity. I think that is a very good suggestion.
    And it leads me to my second question to the judge about 
the plan. There was a requirement of the new magistrates for 3 
weeks of training. There is a certification for the new judges, 
but of the 12 judges that volunteered, there does not seem to 
be, and GAO raised this, any certification of training. Are we 
just assuming, because they volunteered they want to do it and 
they are qualified, or what assumptions have we made?
    Judge Satterfield. No. Maybe we should not have assumed, 
because we did not put it in our plan, but the assumption, I 
guess, we made is that we are judges and we follow your law. We 
would not have put them in the court if they were not, in our 
view, qualified--or willing to serve, because that is what the 
law says. Every one of those judges that have volunteered----
    Senator Landrieu. The current judges will meet the 
qualifications?
    Judge Satterfield [continuing]. Meet the qualifications and 
have come forward because they wanted to be a part of this 
process and knew the process of reform that we are going 
through with the court.
    So they are very willing. They meet the qualifications 
either through training or experience or both, and they are 
continuing to receive the training as we go through the course 
of this year.
    So they meet the qualifications. We did not include that in 
there. They have indicated their willingness to stay the 
required term or more and do ongoing training.
    Senator Landrieu. Deborah Luxenberg, let me ask you and 
then Jacqueline Dolan, we will come back to some of the other 
panelists, but any comments about the organization, the time 
frame, the universe, the training, the staffing that you would 
just briefly like to make on what you have heard or what you 
could suggest?
STATEMENT OF DEBORAH LUXENBERG, CHAIR, CHILDREN IN THE 
            COURTS COMMITTEE, COUNCIL ON COURT 
            EXCELLENCE
    Ms. Luxenberg. Thank you, Chairwoman Landrieu. First of 
all, before making comments about some of those issues----
    Senator Landrieu. Speak into the mike, if you would.
    Ms. Luxenberg [continuing]. I do have to--now, I really 
spoke into the mike. I really do want to commend the court 
under the leadership of Chief Judge King. I think they have 
done a really thoughtful job, a really admirable job. And one 
thing that we have all been incredibly heartened and encouraged 
by is the nature of the collaborative effort; that the court 
has involved not only other agencies that they need to work 
with, but the whole legal community and universe of this 
community, that are concerned about children and families.
    Now, there is one issue that the court acknowledged itself 
in the plan, in volume one of the plan, which is what we 
primarily been focusing on that they are still working on, and 
that is the issue of staffing. And it--and the GAO has also 
mentioned that the particular numbers of personnel that are 
needed have not been identified.
    Now, the staffing is critical, not only to the time lines 
that we are talking about here, but to the whole process. And 
the staffing issue is one that is critical; but everybody knows 
that. And the court staff have been doing an excellent job 
within the constraints that they have had.
    Alone in the domestic relations division of the court, the 
clerk, Paul Trudeau, is just a fabulous person, very energetic, 
and doing the best job he can possibly do. He has 11 people 
down from 20. And this is under the old organization of the 
court.
    We all feel that it is really critical to have the same new 
energetic look at the clerk's office and the staffing office so 
that that can be given the same new look and new view. And we 
would really recommend and--``request,'' I guess, is the better 
word--that the Congress consider appropriating additional funds 
to the court so that they can really undertake a systematic 
approach in looking and doing a creative look at the clerk's 
office; because that clerk's office across the board is the 
backbone of this system.
    And if the judges all are doing the great job that they are 
going to be doing with the teams and the cases, if the court 
notices do not go out on time, the court orders and the files 
disappear because people are increasingly faced with more 
complex situations when they are trying to coordinate all of 
these cases in a way so that we really do get to the one-judge/
one-family concept, they need the support of a really good 
clerk's office. And I think they need the assistance to be able 
to complete that.
    They have recognized it. They have identified that is 
something that they are working on. And I know that the court 
feels very strongly about that as well.
    [The statement follows:]

                Prepared Statement of Deborah Luxenberg

    Good morning, Chairwoman Landrieu, Senator DeWine, and other 
members of the U.S. Senate Appropriations Subcommittee on the District 
of Columbia. Thank you for inviting the Council for Court Excellence to 
provide testimony at today's hearing on the subject of review of the 
Transition Plan of the District of Columbia Family Court. My name is 
Deborah Luxenberg, and I serve as Chair of the Council for Court 
Excellence's Children in the Courts Committee. I have been a family law 
practitioner in the DC Superior Court for more than 25 years.
    I am honored to present the views of the Council for Court 
Excellence to this Committee. Our organization has been engaged over 
the past 2 years in facilitating the joint work by the city's public 
officials to reform the child welfare system, and specifically to meet 
the challenge of implementing the Adoption and Safe Families Act of 
1997. We believe that work and our familiarity with the legislative 
history of the Family Court Act of 2001 give us a good perspective on 
the issues before this Committee.
    For the record, let me summarize the mission of the Council for 
Court Excellence. The Council for Court Excellence is a District of 
Columbia-based non-partisan, non-profit civic organization that works 
to improve the administration of justice in the local and federal 
courts and related agencies in the Washington, D.C. area. Since 1982, 
the Council for Court Excellence has been a unique resource for our 
community, bringing together members of the civic, legal, business, and 
judicial communities to work jointly to improve the administration of 
justice. We have worked closely with Senate and House DC Subcommittees 
in the past on such issues as the DC Jury System Act of 1986 (setting 
the One Day/One Trial term of jury service), the DC Criminal Justice 
Coordinating Council and, throughout the past year, the development of 
the DC Family Court Act of 2001.
    No judicial member of the Council for Court Excellence participated 
in or contributed to the formulation of our testimony here today.
    Today's hearing focuses on the DC Superior Court's Family Court 
Transition Plan, submitted for Congressional review on April 5, 2002, 
as required by section 3 of the Family Court Act. My testimony refers 
only to Volume I of that Plan, on Case Management. The Council for 
Court Excellence has not yet seen Volumes II and III, on information 
technology and space and facilities, and thus we cannot comment on them 
at this time.
    In summary and with the qualification just noted, we believe that 
the DC Superior Court has done an excellent job preparing this case 
management plan, and that the plan provides a clear initial blueprint 
for implementation of the new Family Court. We commend the Court both 
for the inclusive, collaborative process they followed in developing 
the plan and for the quality of the resulting document. The case 
management plan, in our opinion, fully embraces both the letter and the 
spirit of the Family Court Act of 2001. Once fully implemented, this 
plan should yield better, more consistent, and more expeditious service 
to everyone who has business before the Family Court, especially the 
city's abused and neglected children. We support the prompt approval of 
this case management plan and authorization to start its 
implementation.
    The DC Family Court Act of 2001 called for dramatic changes in 
structure and policy in the DC Superior Court's Family Court, with a 
special emphasis on the handling of child abuse and neglect cases. In 
particular, four key policy cornerstones were specified, all drawn from 
tested ``best practices'' in various family courts around the country. 
First, only judges who volunteered for substantial terms of service in 
the Family Court could serve. Second, all judicial officers serving in 
the Family Court must have prior experience in family law and must 
receive regular training during their service. Third, all family law 
cases must be handled from start to finish by judicial officers 
assigned to the Family Court. Fourth, the Family Court must assign and 
manage cases by the one judge/one family approach, in which one 
judicial officer hears all types of family law matters relating to any 
member of the same family. The Act provides an 18-month phase-in period 
after submission of the plan under review today to complete the 
implementation of these many changes.
    In our opinion, both the Superior Court's actions to date in 
assigning judges and selecting magistrate judges for the Family Court, 
and the Court's case management and training plans laid out in the 
document under review today match the Act's policy requirements. 
Furthermore, the Court proposes to complete the phase-in of all case 
management changes several months before the October 2003 18-month 
implementation deadline. For all of this, we applaud the Court, and 
especially Chief Judge Rufus King, Family Court Presiding Judge Lee 
Satterfield, and Family Court Deputy Presiding Judge Anita Josey-
Herring, for their strong leadership and commitment to the success of 
this planning process.
    The Court has made an excellent start and is building momentum, 
which we believe should be supported by the Congress. But it is 
important to realize that many details remain to be worked out and 
there is a long way to go to capitalize on the promise of the changes 
already specified. Three areas are of particular interest to the 
Council for Court Excellence, based on our work over the past 2 years. 
First, calendaring practices of the judicial officers. Second, support 
staffing and business process re-engineering. Third, training and 
cross-training programs.
    When we study the Court's transition plan, we and others want to 
know more detail about how the Family Court plans to manage the 
judicial officers' mixed-caseload calendars. While Congress is 
primarily interested in child abuse and neglect cases, those cases 
represent only 22 percent of the Family Court caseload, according to 
the Court's transition plan, and thus many court users are focused on 
other portions of the Family Court's overall caseload. The detail of 
the Family Court's calendaring, or case scheduling, practices will 
determine whether service improves or declines for the 78 percent of 
the Family Court caseload which is not child abuse and neglect.
    As to the child abuse and neglect system, the court's calendaring 
practices will also determine how frequently Child and Family Services 
Agency (CFSA) social workers and Office of Corporation Counsel (OCC) 
attorneys will need to be in each of the 25 courtrooms (15 judges and 
10 magistrate judges) handling child abuse and neglect cases. The way 
the Court organizes for Family Court judicial hearings has a great 
impact on the resource needs and management practices of CFSA and OCC, 
and on how much time CFSA social workers will have available for their 
primary responsibility: to provide direct services to our city's 
children and families.
    Make no mistake, Madame Chair, the DC child welfare system will not 
improve unless the plans and reforms of the Court, CFSA, and OCC are 
fully synchronized, and unless the performance of all participants in 
the DC child welfare system improves. Over the past year, we at the 
Council for Court Excellence have been eyewitnesses to a new positive 
spirit of genuinely shared responsibility among the leaders of the 
Family Court and DC executive branch agencies. This makes us quite 
hopeful that, over the next 14 months, the remaining important details 
of calendaring DC Family Courtrooms, reducing the number of courtrooms 
hearing abuse and neglect cases from 60 to less than 25, and matching 
judicial teams with social worker and attorney teams will be worked out 
in a manner and on a timetable which meets each agency's needs and 
results in improved productivity and service to city residents. We urge 
the Congress and this Committee to review progress on this matter 
periodically over the next 18 months of implementation, and we pledge 
that, to the best of our ability, the Council for Court Excellence will 
do likewise.
    Our second area of remaining concern is Family Court support 
staffing and business process re-engineering. The Court's transition 
plan emphasizes the organization and assignment of the caseload among 
the judicial officers, with little description of the Family Court 
support staffing infrastructure and case management processes. This 
initial focus is understandable, given both the 90-day deadline and the 
plan topics mandated in the statute. Yet lawyers, other court users, 
and concerned civic groups like the Council for Court Excellence have a 
strong interest in the staffing and processing topics, and we read the 
plan to understand how it will work ``on the ground'' on a daily basis.
    The ``quality of life'' for DC Family Court users (and presumably 
for judicial officers as well) is affected as much by what happens 
outside the courtroom as by what happens within it. The plan (at page 
35) simply lists the various job titles within the Family Court, with 
brief descriptions of general functions, and notes: ``The Court is 
preparing an estimate of the number of different types of personnel, 
pending the completion of a staffing study now in progress.'' We are 
unaware if that staffing study includes a full examination of the 
business processes followed within the Family Court. If it does not, we 
would urge the Court and Congress to seek such an examination to 
determine if re-engineering those ``back-office'' Family Court Clerk's 
Office processes could yield efficiencies, economies of scale, improved 
morale and job satisfaction, and better service to the public and court 
users alike. We offer any appropriate assistance from the Council for 
Court Excellence to ensure that such a management study can take place 
promptly. And we urge that the Court offer a timetable for completing 
the back-office planning process.
    Our third and final topic of concern is training and cross-
training. We commend the Court for laying out in its transition plan an 
ambitious agenda of training topics and training initiatives. The Court 
plans quarterly in-house training for Family Court judicial officers 
and staff. Court-appointed attorneys who practice in the Family Court 
will also be required to participate in periodic training. In addition, 
cross-training will be planned and presented for Court and stakeholder 
personnel. Many details and logistics must be worked out to maximize 
the efficiency and the effectiveness of all of this training, including 
how it will all be jointly scheduled well in advance to accommodate all 
participants' planning. We suggest this as a further topic for Congress 
and this Committee to review periodically over the next 18 months of 
implementation. The Council for Court Excellence has already offered to 
provide any appropriate help to the Court and other Child Welfare 
Leadership Team stakeholders to plan these training initiatives and to 
carry out the plans.
    We thank this Subcommittee for your policy and fiscal leadership of 
the effort to create a state-of-the-art Family Court in the DC Superior 
Court, we thank the Court for the promising plans it has laid out for 
itself, and we look forward to working with the Court and you over the 
next several years to bring the planned reforms to fruition. I would be 
happy to answer your questions at this time.

    Senator Landrieu. Well, this committee would be very 
inclined to do that if we could see a specific plan from you 
and your organization and the courts in writing about the 
specific recommendations of upgrades, personnel, job 
qualifications, slots, and money associated. And if you all 
have that in the works, get it to us. If it is part of the 
plan, we will receive it today. And if not, you can get it to 
us in the future.
    Judge King. We have made that a----
    Senator Landrieu. A part of the plan?
    Judge King. We are doing a staffing study now, which will 
give us more articulation, but we have made the critical 
shortage in support staff a part of our presentation in the 
fiscal year 2003 budget presentation.
    This is well known to us and--it is an urgent need for the 
court. We need this--we need the staff filled out.
    Senator Landrieu. Let me just ask the staff something.
    Okay. We have in the file, as you can see, a request for a 
$6 million increase, in addition to the $6 million current 
operating costs budget. We need some more details of how that 
would be utilized.
    Judge King. We would be happy to provide that.
    Senator Landrieu. Specifically how many positions, job 
descriptions, you know, responsibilities, and it would be 
helpful if it could come jointly.
    Judge Satterfield. And I think what you are saying is 
that--a number of things that was being said, we are 
implementing a re-engineering process in addition to that work 
study. The things we are trying to do, including the intakes, 
the essential intake center for the clerk's office and the new 
case management, as well as our IJIS computer system, are going 
to require that we have those type of processes in place in 
order to accomplish what we are hearing here today.
    Senator Landrieu. And, Ms. Luxenberg, you had a question 
about the mixed case loads for judges and you said supporting 
staff, business management training and cross-training. Could 
you make just brief comments about that?
    And then, Ms. Dolan, I am going to ask you to comment.
    And then I am going to go vote and come back.
    Ms. Luxenberg. All right. And there is one other thing I am 
going to try to jam in there as well, but the mixed case load, 
the issue of the mixed case load, you actually alluded to in 
the beginning, and that is that we are talking about not just 
abuse and neglect cases, but the divorce and custody and 
support cases, and how all of those things are going to work 
and jell together.
    It is going to be a complicated process and needs to be 
given more look, which I know the court is working on. But we 
want to just reiterate that--that focus needs to be there, that 
we have been focusing a lot on the abuse and neglect situation, 
but there are a lot of other cases.
    Senator Landrieu. Okay. Is there any court in the country 
that organizes a family's cases around a serious case of child 
abuse and neglect, where the child becomes the focal point of 
the case, so the familys' cases go before the judge on the 
child abuse and neglect case?
    If, in fact, that child is being beaten every night--his 
parents are in the middle of the divorce, and there is also an 
older brother in the family who has problems with drugs and the 
law, is there some way that the system could be that the whole 
family situation goes to the judge that is trying to protect 
that child, so that protecting the child becomes the focus? And 
then the same judge just deals with the divorce. They deal with 
the older child's problem and they save this child from being 
beaten to death. Is that possible?
    Ms. Luxenberg. I believe that the assistant director of the 
Council for Court Excellence is aware of the plan.
    Senator Landrieu. Is that the plan? Judge Satterfield or 
Chief Judge, is that the plan?
    Judge Satterfield. It is child-focused. And that is why we 
start out with the one-judge/one-family in the child welfare 
cases.
    Senator Landrieu. And that is how it will work?
    Judge Satterfield. Except for the criminal cases that are 
outside of Family Court; they will not come in. But when you 
are talking about the abuse case, if another case comes in 
Family Court that is related, such as the custody or the 
divorce of the parents or something to that effect, we are 
focusing on the child's case and bringing that family's case 
in, if it is going to help us resolve the child's case, 
expedite permanency, not delay permanency, and keep the child 
safe.
    So we have a child focus, one-judge/one-family plan that we 
plan to implement.
    Senator Landrieu. Okay. But to be very clear, since 
domestic abuse is also a crime and not just child abuse, what 
you just said is the domestic abuse, if it is a crime could be 
before a different judge than the child who is being abused. If 
the mother is also being abused, she is before one judge; the 
child is before another judge. And yet again, the older teenage 
boy who is having problems, legal problems, is yet before 
another judge. Is that possible under the plan?
    Judge Satterfield. Well, if it is a teenage boy, that boy--
child's case can come, because it would be a juvenile case 
within our jurisdiction. If it is an adult----
    Senator Landrieu. To the same judge----
    Judge Satterfield. To the same judge.
    Senator Landrieu [continuing]. That the younger child is 
with?
    Judge Satterfield. Yes. If there is an adult case, it is 
criminal charges, and that is not within the Family Court.
    Senator Landrieu. I realize that.
    Judge Satterfield. That is what I am saying. That is not 
within the Family Court jurisdiction, but--and so that case, 
although we are aware of it and we can consult and find out 
where it is.
    Senator Landrieu. That is fine. But under the juvenile--you 
could pull in the mother who is being abused to that judge----
    Judge Satterfield. Yes.
    Senator Landrieu [continuing]. The child, the other 
juvenile that is having problems----
    Judge Satterfield. Yes.
    Senator Landrieu [continuing]. And the little child that is 
getting beaten up?
    Judge Satterfield. Yes.
    Senator Landrieu. All before one judge?
    Judge Satterfield. Yes.
    Senator Landrieu. Okay. That is good. All right.
    Okay. I would like to turn to Ms. Dolan for comments.
STATEMENT OF JACQUELINE DOLAN, CALIFORNIA PARTNERSHIP 
            FOR CHILDREN
    Ms. Dolan. You know, I would just like to address the issue 
that you were talking about, the family conferencing. 
California has been doing----
    Senator Landrieu. Go ahead.
    Ms. Dolan [continuing]. Has been doing some of that family 
conferencing models. It was taken from the New Zealand model. I 
do not know if you are familiar with that, but Judge Edwards 
and I gave Judge King that, his information, has been doing the 
family conferencing in Santa Clara County.
    We are doing it in part of our county. And we are 
struggling to--because it is difficult for us to get the family 
together in----
    Senator Landrieu. So, tell me a little about this. How long 
have you been doing family conferences? How many sort of 
families? Just give us a little flavor for the process.
    Ms. Dolan. We are on the fringes.
    Senator Landrieu. Fringes of it, okay.
    Ms. Dolan. We are--if you talk to some people, they will 
say it is implemented.
    Senator Landrieu. Right.
    Ms. Dolan. You know, the person you can get some 
information from is The Annie Casey Foundation in Seattle----
    Senator Landrieu. Okay.
    Ms. Dolan [continuing]. Because they are----
    Senator Landrieu. Promoting it?
    Ms. Dolan. They are funding a number of the startups.
    Senator Landrieu. Because I would be willing----
    Ms. Dolan. And they are also studying the outcomes from it.
    Senator Landrieu. I would be willing to help fund for you 
all sort of a traditional mediation model and the sort of non-
traditional pushing-the-envelope mediation model, and to test 
for you, you know, which one----
    Ms. Dolan. I think----
    Senator Landrieu [continuing]. Would work the best; or 
maybe you could use both of them, or maybe you will decide 
after trying for a year that, you know, one is too complicated 
and we would just as soon stick with kind of the regular 
mediation.
    So if you all want to discuss that and present that in your 
budget, I would be happy to, because I think it is very 
important.
    Ms. Dolan. I would be real interested to see what--we have 
family preservation services, and I would be really interested 
to see how family preservation and family conferencing could 
mold itself together.
    [The statement follows:]

                 Prepared Statement of Jacqueline Dolan

                         child sensitive courts
    My name is Jacqueline Dolan and I live in Pasadena, California. I 
am an advocate for children who have been neglected and/or abused by 
the adults who are either unable or unwilling to care for them. I 
currently work with the California Partnership for Children based in 
Sacramento, California.. I welcome this invitation to speak before you 
about the issue of Child Sensitive Courts.
    For a moment, that for you will go away, I would like you to 
imagine that you are a child whose parents having been drinking or 
using drugs and fighting all night. A neighbor who has heard this many 
times before becomes fearful for you and your four siblings. She calls 
the authorities and soon there after, the police are at your home and 
you are taken away. Now you know that police take only the ``bad guys'' 
away. In the dark of night, with the feeling that you have done 
something very wrong, you are placed in the home of a stranger. There 
is room in that home for just you and you have no idea where your four 
siblings have gone. Within 72 hours you will be picked up by a 
transportation worker, another stranger from the Children's Services 
Office, and escorted to the court where decisions will be made that 
will change your life forever.
    Just picture yourself in a foreboding Court building and now a 
court room filled with many more strangers who will speak in legalese--
the minor this, and the minor that--hereinafter referred to as--
according to W&I Section . . .. You will meet your Social Worker and if 
she has time, she might explain what has happened as you are returned 
to the emergency shelter home. You are no longer in the same school, 
you have no family and no friends, and you have no idea how your 
brother and sisters are faring.
    Now imagine the difference, instead of a foreboding building, you 
are taken to a Children's Courthouse that is clean and freshly painted. 
In the entry way there are drawings done by children, there are seats 
just your size. In the waiting area there are games to play, books to 
read, art projects to take your mind off the unknown. The people who 
work in these nice surroundings are pleasant and caring, they are 
concerned and ask if they can answer any questions you might have. 
Inside the court room the Judges' bench is elevated only slightly, so 
as not to be overpowering to the child but enough to indicate authority 
to the offending adults. The pictures on the walls are of interest to 
and about children, creating a warm and safe feeling. Once the case is 
heard the judge invites the child to choose from an array of stuffed 
animals, one to take home.
    We can stop imaging now! The picture should be very clear how the 
beginning of protecting these children whose cases must come to court, 
get off to a much better start in a child sensitive environment. A 
place where the caring for those children, who have had no one else to 
care for them, begins.
    We advocates in Los Angeles are very proud of our Edelman 
Children's Court, named after a now retired member of the Los Angeles 
County Board of Supervisors, who took the time to listen, and then to 
provide the leadership to see that this children's courthouse was built 
with all the features that provide the children with a sense of safety. 
To see that it also enabled, those who need to process the children's 
cases, with adequate space: The Department of Children and Family 
Services; the Court Appointed Special Advocates (CASA) office, known in 
Los Angeles as The Child Advocates Office; The Los Angeles Unified 
School District; The County Counsel; The Dependency Court Legal 
Services; The Department of Mental Health, Free Arts for Abused 
Children; Info Line (provides referral) and several community based 
organizations.
    In preparation for this testimony, I spoke with the Presiding Judge 
of the Juvenile Court, the Honorable Michael Nash. He stated that the 
recurring theme is to minimize the child's anxiety by providing many 
diversions. Because the surroundings are pleasant and the space is 
adequate the staff function more effectively.
    The Honorable Judge Paul Boland who was the Presiding Judge who 
served on the design committee for the Children's Courthouse and is now 
serving as a California Appellate Court Judge, recently took 50 
research attorney's to view the Dependency Court process. Judge Boland 
reported that these attorneys were in awe of the process they observed. 
The judge stated that a child sensitive court can accomplish what law, 
court rules, and protocols are not able to accomplish by themselves. 
This change in environment for all concerned, changes the culture of 
what courts decide for society's most serious and far reaching cases. 
Judge Boland continued by observing that court personnel are more 
courteous and lawyers less adversarial and children are not as 
intimidated and therefore feel comfortable. Parents are respected and 
offered dignity and are therefore more motivated to follow and 
participate in needed services.
    This exemplary court house came about because many people showed 
deep concerns for the way we were treating the most needy of our 
society. Funding for the building is the result of a unique partnership 
effort that included the Los Angeles County Board of Supervisors, the 
Los Angeles Superior Court, the state of California, the business 
community, local community organizations and the academic world.
    If this can happen in a large, sprawling and diverse community such 
as Los Angles County, it can happen anywhere. All that is needed is the 
will to improve the lives of our children, and the commitment to leave 
no child behind.

    Senator Landrieu. Yes.
    Judge King. Let me just be very clear.
    Senator Landrieu. Go ahead.
    Judge King. I think I heard you say you would be willing to 
fund the----
    Senator Landrieu. Yes, I did.
    See, he always hears these things. I mean, really----
    Judge King. I am ready. I am ready to start designing that 
program next week.
    Senator Landrieu. You mean this afternoon.
    Judge King. Get started, yes.
    Senator Landrieu. All right.
    Judge Satterfield. You know, I have spoken to Judge Edwards 
in San Jose and a number of other judges because we are a part 
of the Model Court Initiative sponsored by the National Council 
of Juvenile and Family Court Judges. So I am familiar with what 
they are trying to do there, in terms of family counseling in 
his jurisdiction.
    Ms. Dolan. I think it is probably more easily done in a 
smaller community than it is in a sprawling area like Los 
Angeles or Chicago or New York.
    Senator Landrieu. Okay.
    Mr. Fraidin. You know, and I would just say that I am aware 
that the Child and Family Services Agency already is trying to 
do that on some limited scale. Having participated in one such 
conference----
    Senator Landrieu. Yes.
    Mr. Fraidin [continuing]. I can say that it was successful 
and it really did get a very large extended family together to 
address issues that I think had been lingering for some time. 
And they were all able to come up with a resolution that was--
--
    Senator Landrieu. And just for anecdotal purposes, what was 
the outcome of that particular conference that you experienced?
    Mr. Fraidin. The outcome of that family case conference was 
reunification, with----
    Senator Landrieu. With the biological----
    Mr. Fraidin. Of the child with the biological mother.
    Senator Landrieu [continuing]. Mother. Okay.
    Mr. Fraidin. That is correct.
    Senator Landrieu. All right. I am going to have to leave to 
go vote in a minute. I am waiting for Senator DeWine.
    But I would like to move a line of questioning about the 
physical renovations of this court. And I, unfortunately, have 
not toured the site, but I have been given this diagram of 
several court buildings. And the idea that the Family Court 
would be in this, is it the Moultrie Building?
    Judge King. Moultrie.
    Judge Satterfield. Moultrie.
    Senator Landrieu. Moultrie Building.
    Judge Satterfield. The building you attended during the 
adoption ceremony.
    Senator Landrieu. Oh, good. Okay. Well, I have been there--
--
    Judge Satterfield. Yes.
    Senator Landrieu [continuing]. To that atrium-type----
    Judge King. There is a small diagram, but if I might stand 
and kind of walk you through that a little bit?
    Senator Landrieu. Okay. Oh, we're holding--all right, 
Judge. You know, what, Judge? I am going to have to go vote----
    Judge King. All right.
    Senator Landrieu [continuing]. Because they are holding the 
vote, we will have to take a 2-minute break.
    As soon as Senator DeWine comes back, he can resume 
questions.
    Judge King. At your pleasure, I would be happy to walk you 
through this.
    Senator Landrieu. All right.
    Senator DeWine. She will be right back.
    I just have several additional questions and if it works 
out right, I will be done with my questions by the time Senator 
Landrieu gets back.
    Let me direct the questions to the judges. The plan is 
really--seems to me based on a number of things. Well, three of 
the things it is based on is a computer system, the three 
additional judges, and having the facility that Senator 
Landrieu was starting to ask you about a moment ago.
    And I guess I would like to go through and ask how 
realistic it is that each one of these will be on line when you 
believe they will be, because it seems to me the plan is pretty 
much based on that. And let me start by asking GAO what your 
assessment is of the computer system, the plan, where we--where 
they are going in. Enlighten us please.
    Ms. Ashby. Well, I do not know how much I can enlighten 
you, because there are still a number of unknowns. As I said in 
my short statement and as we elaborate on in our official 
statement for the record, we did review the system and the IJIS 
is really a D.C. Courts' system of which part of it will serve 
the purposes of the Family Court, the first phase of the 
system.
    In our initial review--in our review that culminated in our 
report last February--we found basically a lack of discipline 
in terms of determining requirements, making sure that user 
needs are actually going to be accommodated, that life cycle 
management, which is so important to any systems development 
project, actually is used.
    It is time consuming, but the time is put up front as 
opposed to later when you try to implement the system and see 
that it does not work or does not meet needs.
    The courts agreed with our recommendations and agreed to 
implement them, and we believe we are in the process of 
implementing them. Part of that implementation is to come up 
with a new statement of requirements. And they are in the 
process of doing that. So we, of course, have not seen the 
result.
    So we would hope that there would be more specificity, more 
concern about users needs, more inclusion of users needs, more 
discipline, the life-cycle management steps will be adhered to, 
but we have not seen the result of that. So not having seen 
that, we cannot really comment on the scheduling.
    Senator DeWine. Judge Satterfield, Judge King.
    Judge King. We have worked closely with GAO from the 
referral end. I think it was originally referred in May of last 
year. And then in November, we came up with a set of 
requirements that GAO felt we needed to address. We have been 
working as closely and as vigorously as we can with GAO.
    Mr. Ken Foor, our IT director, is present in the room with 
us, today. We have tried to meet their----
    Senator DeWine. Who is present? I am sorry.
    Judge King. Our information technology director, who is 
responsible for the effort.
    Senator DeWine. He is welcome--you are welcome to bring him 
up here, if you want to do that.
    Judge King. I am happy to. I am not----
    Mr. Foor. Good morning.
    Senator DeWine. Good morning. You are welcome to join us. 
We--it looks like we have plenty of room still left.
    Judge King. Right. All right. Join the fun.
    Senator DeWine. And for the record, would you state your 
name?
    Mr. Foor. Yes. My name is Kenneth Foor. I am the 
information technology director for the court.
    Senator DeWine. And, again, I--I guess rephrase or restate 
the question. You have had the--you were in the room and you 
had the opportunity to hear the comments that were made by the 
representative of GAO; is that correct?
    Mr. Foor. Yes, sir. That is correct.
    Senator DeWine. And you--now, you all can respond however 
you wish.
    Judge King. All right. Well, I wanted to say is simply 
that----
    Senator DeWine. Right, sure.
    Judge King [continuing]. At all times from two-and-a-half 
years ago, we have tried to work with consultants. We had one 
disappointing situation with a consultant that did not give us 
the product we had hoped for.
    We have surmounted that. We have gone around it now. We are 
moving forward. And I am going to let Mr. Foor paint in some of 
the details of our effort to prosecute that conversion 
expeditiously, but at the same time staying in step with GAO, 
so that we--and I think GAO made the very apt comment, in this 
area more than any of the other areas you can do it right the 
first time or you can do it faster and maybe not get it right 
and then you go into many multiples of the cost of doing it as 
opposed to doing it right the first time.
    But I am going to let Mr. Foor paint in some of the 
details.
    Mr. Foor. Some of the issues were identified as the 
specificity of our requirements. What we have done is we have 
brought in a team of subject matter experts and actually sat 
down and identified all the stakeholders, not only within the 
court, but externally as well.
    And we have conducted extensive interviews. And they will 
be completed by the end of this week.
    The documentation for those interviews will actually be 
placed into some software tools, which actually relate the 
requirements, the legalities back with the specifications 
themselves. That is the--that product will produce our request 
for proposals for a computerized system.
    GAO also recommended that we do a request for information 
from existing vendors. Because we personally believe that there 
is a commercial off-the-shelf system out there that will meet 
our needs, especially in the core requirements area.
    This is especially important, because along with the 
commercial off-the-shelf system, it minimizes the amount of 
modifications or customization that will be required. It is 
already existing and running in other court systems.
    Additionally, in our budget, we plan for approximately 
$800,000 worth of training. Training is a very critical 
component dealing with any kind of computer system or a change 
in culture.
    Right now, we are very manually driven by paper, by case 
jackets with some automation in terms of being able to generate 
calendars, schedules, notices, and reports.
    Our transition.--We actually have, in addition to the IJIS 
system, we have developed transitional software to do the ASFA 
reporting and the other types of monitoring that will be 
required until the IJIS system is actually available.
    Senator DeWine. Well, given all that, when do you feel the 
system will be operable?
    Mr. Foor. Making the assumptions that we put into our plan, 
we are looking at September of 2003 to be fully operational.
    Now, part of the plan also tasks, or looks at the 
possibility of implementing abuse and neglect. Part of the 
issue that we have and difficulty--one of our challenges is 
running multiple systems at a time. That is why we are really 
planning a transitional system, and then a cut-over to the 
integrated system.
    Senator DeWine. Ms. Ashby, do you want to comment at all on 
that on the response that you just heard? I do not know that--I 
do not know that you do. I just want to give you the 
opportunity if you do. We are just trying to be enlightened and 
sometimes I find the best way to be enlightened is to go back 
and forth.
    Ms. Ashby. I will just reiterate what we said in our 
statement and what I said in my opening remarks, running a dual 
system is expensive. And we do not know very much about the 
software that you want to use as your second system.
    We really were not clear whether that was really some type 
of new system that should run parallel to IJIS, or whether it 
was simply combining the manual checking of the 18 legacy 
systems that are currently there.
    We were not clear. The plan was not clear.
    Senator DeWine. Is it clear now?
    Ms. Ashby. It sounds like you have actually come up with 
something in addition to what is in the plan, that there is 
some software that you think you can use along with IJIS.
    Senator DeWine. Sure, go ahead.
    Judge King. If I can just jump in with the--where we want 
to end up is one unified system that runs the entire court 
system.
    Senator DeWine. Sure. Sure.
    Judge King. We have already taken the steps of, for 
example, locking in the Oracle platform, which is the almost 
universal standard. It is also the standard that the rest of 
the city is using.
    So we are already doing what we can to make sure that what 
we build out for the court, first of all, fully serves the 
court's needs, but also leaves us in a position to facilitate, 
to the maximum degree possible, connecting up with other city 
users and city agencies. That is the charter that Mr. Foor has.
    Senator DeWine. Anything to add?
    Mr. Foor. Yes. We are not actually dealing here with 18 
systems. Predominantly we are dealing with three systems. And 
we are, in fact, modifying the three existing systems so that 
they support our transition program.
    And it is from that modification of the existing transition 
program that will migrate into the final system, that will 
integrate fully with the other court operations; criminal, 
civil and so forth.
    Senator DeWine. Well, you know, the reason we are spending 
some time talking about this, obviously this is a crucial issue 
and it is an integral part of--a very important part of your 
plan. You know, one of the things, just to take an example, one 
of the things that--to follow the theory of the one child in 
one right--with one judge idea, is the ability to identify the 
siblings of a child.
    Now do you have the ability to identify the siblings of a 
child? Now do you have the ability to--you cannot do that now?
    Mr. Foor. That is correct, we cannot do it now.
    Senator DeWine. And is----
    Mr. Foor. We are in the process of working to identify 
common identifiers and possibly cross-referencing so that, in 
fact, that can happen.
    Senator DeWine. And you think you can do that by 2003, 
September, is that----
    Mr. Foor. That is correct.
    Senator DeWine [continuing]. That is the idea? Judge.
    Judge King. That is through the technology, though. We are 
working on doing it with labor manually to----
    Senator DeWine. Right. Right.
    Judge King. Because that is so important. So we are moving 
forward, even though the technology that is going to help us do 
it better is not there yet.
    Senator DeWine. Let me turn, if I could, to the second 
component of the--the piece. The first one was the computer 
system that I questioned and candidly, you know, I hope you are 
right. The GAO report is troubling about where we are on that.
    But let me turn to the----
    Judge King. May I just add----
    Senator DeWine. Sure.
    Judge King [continuing]. Add one thing?
    Senator DeWine. Sure.
    Judge King. There is one thing no matter how accountable we 
want to be and intend to be, we cannot avoid some risk in the 
procurement process. If we do not get the right responses, or 
that process takes a little more time, it is so imperative that 
that be done right and that we do it carefully that we have now 
planned to accomplish that within the 18 months.
    But are there any guarantees in life? No. That is going to 
depend. We will do the best we can to pursue it vigorously, but 
we cannot guarantee that there will not be glitches in 
procurement.
    Senator Landrieu. Well, let me follow up on that, before 
Senator DeWine gets onto another subject. We have got to wrap 
this up in the next 10 or 15 minutes at the latest.
    But I want to just go over just a couple of things to be 
clear that we are trying to design this IJIS system that is a 
district-wide, city-wide, technology-based system, that all 
city agencies--all agencies including the court at every level 
try to interface. Is that the general thrust?
    Judge King. If I can----
    Senator Landrieu. No or yes?
    Judge King. Can I clarify that?
    Senator Landrieu. I mean, I hear yes from here and no from 
the audience. So----
    Judge King. Can I clarify that?
    Senator DeWine. It is more than no from the audience. There 
is groaning out there.
    Senator Landrieu. Groaning, yes.
    Judge Satterfield. They want us to get it right.
    Senator Landrieu. Okay. What is it?
    Judge King. Can I clarify that? We obviously do not--we 
truly do not have responsibility for the other city computer 
systems. We just do not have that authority.
    Senator Landrieu. Correct.
    Judge King. What we are doing is we are designing first a 
system which will fully support what the court needs and 
particularly, initially, the Family Court. That has to be our 
priority that we are responsible for.
    It needs to identify children. It needs to tell us where 
they are. It needs to tell us what related cases there are. It 
needs to be instantly and easily accessible by people who are 
non-computer sophisticated. That is what we are going to start 
with.
    Senator Landrieu. Yes.
    Judge King. The rest of the city is working on various 
pieces of their system of information. So what we can do to 
make sure--the piece that we can control is that we will design 
our system so that it is as close to a universal connector as 
we can get, so that when corporation counsel is ready, we are 
ready to go.
    Senator Landrieu. I am greatly relieved.
    Judge King. When CFSA is along, we are ready to connect up, 
and they will not have a large amount of difficulty.
    Senator Landrieu. I am greatly relieved to hear that.
    Judge King. We cannot--if we design--if we wait until the 
entire city has designed a system, we are going to be having 
this conversation in 2010.
    Senator Landrieu. Yes.
    Judge King. We need to move ahead and design the court 
system and build it out----
    Senator Landrieu. Okay.
    Judge King. But what we will commit to you is that we will 
do that in a fashion which will--to the maximum extent that we 
are capable, it will facilitate the city connecting with us and 
having the right exchange of information.
    Senator Landrieu. That is very good. My final question is: 
have we identified another entity existing in the United States 
of America that has successfully designed such a program, that 
we have looked at, and that we are confident that, if we just 
did what they did, it would work?
    Judge King. We have done it here in--well, there are two 
pieces to that question. There are other computer systems 
that--and I think, I am going to let Ken tell you which----
    Senator Landrieu. Which system--yes.
    Judge King [continuing]. In court--inside the court. But 
then I want to answer the city-wide part.
    Senator Landrieu. But my question was specifically: Have 
you identified one other jurisdiction in the United States of 
America where this computer system is up, running, created, 
working, the judges are happy with it, so that we can just take 
that and make it happen in the District of Columbia?
    Mr. Foor. That is part of our criteria for actually going 
out for proposal. And, yes, we have identified four different 
computer systems----
    Senator Landrieu. And what would those be?
    Mr. Foor [continuing]. That are potentially----
    Senator Landrieu. What would those be if you can say what 
they are?
    Mr. Foor. I can tell you the vendors' names. I cannot tell 
you----
    Senator Landrieu. Okay. What are their names?
    Mr. Foor [continuing]. What jurisdiction they are in.
    Senator Landrieu. What are their names?
    Mr. Foor. ACS is one.
    Senator Landrieu. Okay.
    Mr. Foor. Tyler Technologies is the second.
    Senator Landrieu. All right.
    Mr. Foor. Maximus is the third. The fourth one does not 
come right off the top of my head.
    Senator Landrieu. Okay. But you have four and I would like 
you tell those--you know, get that fourth one to GAO.
    And they are going to identify for us where those systems 
are operating and set up in the country. If they are or not, 
because before we start, I just want to know that. Because it 
is a big difference.
    If there is one already operating and it has already been 
done, it gives us a greater confidence it can be redone and we 
can put you on a shorter time frame.
    If we are starting from scratch and developing it just on 
the basis of what vendors say they can do, then we are in a 
whole other ball game and, you know, I have been doing this for 
25 years, and so has Senator DeWine.
    Mr. Foor. We also do have the jurisdictions those systems 
are running in.
    Senator Landrieu. Okay.
    Mr. Foor. So I would be happy to share that.
    Senator Landrieu. All right.
    Senator, go ahead and I have some questions on physical 
facilities. Go ahead.
    Senator DeWine. And I will be brief. The plan calls for 
three additional judges.
    Judge King. Are we--is Mr. Foor finished or do you----
    Senator Landrieu. Yes.
    Senator DeWine. Well, for now. He can go relax for now. 
Good luck. We will wish him luck.
    Senator Landrieu. Yes.
    Senator DeWine. That we will do.
    Three judges, how are we coming on that?
    Judge King. As you will notice from this schedule--or it is 
on the board, here.
    Senator DeWine. Right.
    Judge King. The appointment process begins when I make a 
request in September 2002. I make the request for the three 
additional judges.
    The reason for that is that, right now, I already have 
fewer courtrooms than I have judges who need them and no 
chambers facilities. So, until we can----
    Senator DeWine. We cannot--cannot make the request and say, 
``Here is when we are going to need them''?
    Judge King. Well, I have already done that informally. But 
it--but there is a process that once they kick it in, there are 
some time deadlines they have to comply with. And it is 
typically 6 to 9 months.
    So if I asked for them now, we would have judges at the end 
of the year with no place to go and no place to work.
    Senator DeWine. Do you have--how confident are you that 
that procedure will work if you make that work in the time that 
we need them?
    Judge King. I have good confidence, if we start in 
September, the likelihood of having them by this time of the 
year, or between now and the end of May next year, is very, 
very consistent with past experience.
    Senator DeWine. Do you want them all in court when?
    Judge King. By----
    Judge Satterfield. By June and July when we expect to have 
the partial build-out completed in the Moultrie building----
    Judge King. Right.
    Judge Satterfield [continuing]. So that we can house them 
and they can start hearing cases.
    Senator DeWine. But the--which brings me to my third 
question, which is the facility.
    Judge King. Yes.
    Senator DeWine. What assurance do we have that this is 
going to be on line? What impediments do you see?
    Judge King. Well----
    Senator DeWine. What are the road blocks?
    Judge King. There are two pieces of it. Obviously, our goal 
is to have a place that really is a substantial departure from 
what we have now. We want a facility that has meeting rooms and 
conference rooms and waiting rooms that are not intimidating to 
children.
    Senator DeWine. Sure.
    Judge King. We want the service resource center. There is a 
lot that we want to put into this.
    Senator Landrieu. Judge King, can I ask you, if I could 
just have a minute to interrupt at this moment? Because Ms. 
Dolan has come to testify specifically on this point about the 
kinds of child-friendly courtroom spaces and what they look 
like. And I would like to ask her, if she would, just for three 
or four minutes----
    Ms. Dolan. I am going to deter from my written statement--
--
    Senator Landrieu. Okay. That would be fine. And just 
generally----
    Ms. Dolan [continuing] And just address the issues that 
were raised here today.
    Senator Landrieu [continuing]. So that we can come back and 
then ask questions about what the space requirements are. I 
know we do not have pictures, but kind of describe to us what 
it looks like.
    Ms. Dolan. There actually are some pictures in your--and 
some--you know, I was involved in getting the building 
designed----
    Senator Landrieu. Yes.
    Ms. Dolan [continuing]. From an advocate and from a child's 
perspective. I am not an architect, nor a designer. But our 
courtrooms are warm and friendly and----
    Senator Landrieu. All right.
    Ms. Dolan [continuing]. Just even approaching the building, 
we have the house effect that--from a child's drawing. And we 
used a consultant from Berkeley, California, who is mentioned 
in there, to add the child focus within our courthouse.
    The seats are children-sized. The bathrooms are designed 
for families, so that there are changing tables, whatnot.
    What you are holding up there is a meeting room where the 
children meet with their attorneys. In California, and 
especially in Los Angeles, all children come to court from 4 
years of age and up, so that they have their opportunity to 
speak to the judge.
    These courtrooms and--those pictures are of empty 
courtrooms when we first designed them. They are now filled 
with teddy bears and pictures of things that interest children.
    And we have a shelter care area where the children wait 
that has games, pool, foosball. All of those were supplied by 
foundation money and monies raised by our Rotary five in Los 
Angeles. Over, oh, almost close to $2 million now has been 
raised to keep the extra activities going.
    The courthouse costs $52 million, almost $53 million to 
build. That was in 1980, 1990--1992, we opened, but----
    Senator Landrieu. But how big is your system? How many 
people does this serve?
    Ms. Dolan. Well, we have----
    Senator Landrieu. Los Angeles is----
    Ms. Dolan. Unfortunately, I hate to say this, we have--when 
the courtroom was--courthouse was designed, we had 52,000 
children under court supervision. We are down to 36,000, which 
is not small.
    Senator Landrieu. Okay, 36,000 cases.
    Ms. Dolan. Yes.
    Senator Landrieu. And it cost you $52 million in 1980?
    Ms. Dolan. Then, yes.
    Senator Landrieu. We have how many cases?
    Judge Satterfield. Well, in total for Family Court, 24,000, 
a little bit more than----
    Senator Landrieu. Is that apples to apples, or is it--or 
are you--is that child abuse?
    Judge King. No. She is talking about----
    Ms. Dolan. We are just talking child abuse. We have a 
separate Family Court----
    Senator Landrieu. Okay. What is the number here--Okay. 
Well, let me just stick with this, 52,000 cases, $52 million. 
How many cases are in the District?
    Judge Satterfield. We have 5,100 cases of children----
    Senator Landrieu. 5,100 cases.
    Judge Satterfield [continuing]. And 3,500 of those cases 
are outside of Family Court.
    Senator Landrieu. Okay. But 5,100 cases to--I mean, what is 
it?
    Ms. Dolan. 36,000.
    Senator Landrieu. 36,000, okay. So, somewhere is--you can 
get a reference point of the kind of money that we are going to 
have to----
    Ms. Dolan. You need money----
    Senator Landrieu [continuing]. Have for this facility.
    Ms. Dolan [continuing]. Because you just need money. You 
really need money.
    Senator Landrieu. But we need money, but we also need 
creativity, will----
    Ms. Dolan. Right, well spent.
    Senator Landrieu [continuing]. Commitment, money well spent 
and a system to get private sector contributions to do the 
extras that the government just cannot, with the other 
obligations that we have to----
    Ms. Dolan. I will tell you that I did not put in my 
testimony, we did--we attempted to build this courthouse with 
private dollars. We did a feasibility study and found that the 
world thought that courthouses were supposed to be built by 
government. And the----
    Senator Landrieu. That is true.
    Ms. Dolan. But by asking these questions--it is funny what 
you do when you go out to the public and you inform them of 
what is happening to children. They said, ``But we would 
fund''----
    Senator Landrieu. Yes.
    Ms. Dolan [continuing]. ``Making it more pleasant.''
    Senator Landrieu. Yes.
    Ms. Dolan. So the extra things have been funded by private.
    Senator Landrieu. And I would like to ask about that in 
general. We can come back now to the questions about what is 
our overall plan to building something similar to the Edelman 
Children's Court, including public/private partnerships. Where 
are we in designing child-friendly space?
    Judge King. Let me just, I hope, slow down one train----
    Senator Landrieu. Go ahead.
    Judge King [continuing]. Before it gets out of the station. 
The thrust of your comments suggested that, ``Well, if they 
spent $50 million, we are going to be able to do it for $4 
million,'' or something.
    Ms. Dolan. Less than that now, but no. It is 10 years 
later.
    Judge King. We spent to accommodate the five new magistrate 
judges, that is to build-out, take some existing space, move a 
couple of offices, build-out their offices and furnish them, we 
spent approximately $1 million.
    So, we are not going to be able to do this in a way that 
anybody is going to want to acknowledge as their work product.
    Ms. Dolan. Well, I think reconstruction costs more than 
starting from scratch.
    Judge King. It does. And that is--I mean, we are----
    Senator Landrieu. Okay. That is why I want to suggest that 
we are clear about where we are going, because I am not sure 
there is a consensus.
    Judge King. Well, I had----
    Senator Landrieu. It is important for Senator DeWine and I 
to be clear. I just want to know what our options are.
    Judge King. All right.
    Senator Landrieu. If we can build a brand new building----
    Judge King. I agree with----
    Senator Landrieu [continuing]. And a brand new space, we 
might get the political will and the private sector 
contributions to do that. If we want to try to do that, we are 
not too far down the line to get that done.
    If the answer is no, we cannot muster that, then we can 
renovate the best building we can. But I want the outcome to be 
a very good outcome. And you will not have a good outcome 
unless you know what you are getting when you get started.
    Judge King. Right.
    Senator Landrieu. And I am just saying we are unclear about 
what we are going to get. And I am hoping to get something as 
close to the Los Angeles Children's Court as possible, 
realizing that we may not get exactly that caliber facility.
    Judge King. Right.
    Senator Landrieu. But I do not want to end up 5 years or 10 
years from now, having spent a lot of money----
    Judge King. And I think----
    Senator Landrieu [continuing]. And not getting anywhere 
near where we want to be.
    Judge Satterfield. And we are familiar with that, because 
we have the same packet that you have. Plus, I have spoken to 
Judge Nash who is the presiding out there, on a number of 
occasions through that project I was telling you about.
    And we are scheduled to see him in May of this year to take 
a walk-through, because that is the one thing we have not done 
with his courtroom, to see how his courtrooms are structured, 
because if you--even if you do it without building another 
building, you want to make the courtrooms and the settings and 
all that appropriate for children. And I think the Chief has 
more on how we are going to----
    Senator Landrieu. Okay. So, Chief Judge, go ahead.
    Judge King. There are two--obviously, the implication of 
your question, there are two directions we can go. We have 
worked with GSA and their architects to do the first space 
requirements and the options, a development of options.
    The problem is that to remain anywhere near the justice 
campus, which is what you were looking at before we broke----
    Senator Landrieu. Right, this.
    Judge King [continuing]. You will see the--if I can just do 
corresponding ones here, at the bottom of the diagram, your 
diagram is the Moultrie building. Then all of the buildings in 
this whole kind of center area here are all court buildings 
with the metro and accessible to the court, with the exception 
of the United States Court of Appeals for the Armed Forces.
    To build out any of those buildings, one of my preferences 
would have been to take what we call building B, which is up 
here, and simply start over, double the building in size.
    What we run into are the historical preservation concerns. 
Apparently, there is a huge amount of interest in keeping this 
looking much like it does now. I have had very preliminary 
discussions with the Freedom Forum, which is putting up a 
Newseum across C Street from----
    Senator Landrieu. It is a magnificent building. It is going 
to be beautiful. I have seen a sketch of it.
    Judge King. They have a section of that building, which is 
now slated for residential use, and it occurred to me that--
that could be our courthouse, because it is right across the 
street. It would be an easy way to do it. Again, we run into 
some local interest in bringing in residential into the area.
    Senator Landrieu. Okay. We have 11 minutes to a vote, and 
we are not going to be able to come back.
    Judge King. I will finish in three.
    Senator Landrieu. So finish in three.
    Judge King. I will finish in three.
    Senator Landrieu. And then we are going to have to close 
the hearing.
    Judge King. It is--if we talk, as I am told, I am led to 
believe, and this is coming from the architects----
    Senator Landrieu. Yes.
    Judge King [continuing]. I do not--you know, I do not do 
this every day. As soon as we start talking a separate 
building, we are adding a couple of years to our time line. So, 
what they were originally told to do is keep it in the justice 
campus somewhere and do it by--do it in 18 months.
    Senator Landrieu. Yes.
    Judge King. They have come up with what they consider to be 
the option, which will meet that deadline, and that is the plan 
that you have heard about, where we are going to take two 
floors.
    And let me just show you--here is a floor plan of the 
principal level of the Moultrie Building. The bottom one of 
that page--the bottom floor plan on that page that I just 
handed to you is the John Marshall level of our courthouse. And 
you will see a large shaded area on the right.
    That is currently occupied by our small claims and 
landlord/tenant courts. They are being moved out to the 
building on the top of the page, which is building B.
    Senator Landrieu. Okay. And we do not have to go through 
all the general detail.
    Judge King. We do not need all of that.
    Senator Landrieu. But you are just moving people around and 
trying to end up with a family court space.
    Judge King. We have to move it out, so that we can come up 
with enough space, then down the road, we can finish in 18 
months getting everybody on board and getting the thing 
functioning.
    To get to where Los Angeles is takes one more step. And 
that is putting a sleeve on the C Street side of the Moultrie 
Building, and expanding the space.
    Senator Landrieu. Okay. But let me be clear, because we 
only have a few minutes, and we may have to just follow up with 
questions. But when you say within 18 months, I want to know, 
generally, the square footage and the number of courtrooms and 
the number of judges that you have in your plan in 18 months, 
just in that order.
    What is the square footage that you have envisioned 
generally?
    Judge King. Family Court will require ultimately 140,000 
square feet.
    Senator Landrieu. So you think in 18 months under your 
plan, you will have 140,000 square feet. How many courtrooms?
    Judge King. Ultimately, we need 32 courtrooms or hearing 
rooms.
    Senator Landrieu. But will you have that in 18 months?
    Judge King. We already have most of them, so this is adding 
to what we have.
    Senator Landrieu. Okay. So you will have, in 18 months, 32 
courtrooms and 140,000 square feet of space for the Family 
Court.
    Judge Satterfield. We will have the courtrooms, but we will 
not have the complete build out, because that takes building 
out on part of the court for all the other service centers.
    Senator Landrieu. Okay.
    Judge Satterfield. But for the judicial officers to hear 
the cases, we will have----
    Judge King. We will be functioning and we will have 
everybody aboard and functioning in courtrooms in 18 months.
    Now, there is a caveat, though. And if I can just very 
quickly--I know I have talked about this and so I do not need 
to be at great length, but we do not now have access to the 
funds to begin the build out process.
    The GSA has said that they will not--they will not be able 
to obligate any funds to begin that construction process until 
they have the money from us.
    We do not have--they are telling us they need $11 million 
in order to get started. So we are now in a period when we 
cannot do anything anyway under the law.
    That period ends on May 5. Beginning May 5 until we have 
access to the money is a delay that will be attributable to the 
money availability.
    Senator Landrieu. Okay.
    Judge King. And I am told by the architects that we are 
already jeopardizing the 18 months. In other words, not 
starting now is already jeopardizing the 18 months.
    So with that caveat, obviously we are going to work as hard 
and as fast as we can, but we cannot control when the funding 
will be available.
    Meanwhile, GAO is going to be asked to go get some 
additional information and fill in some of the blanks of the 
report, and I thank you all. I think it has been a very helpful 
hearing.

                    ADDITIONAL COMMITTEE STATEMENTS

    In addition, I would like to include in the record the 
statements of Mr. Paul Strauss, the Shadow Senator of the 
District of Columbia and Ms. Susan Golstman, a child-friendly 
courthouse architect.
    [The statements follow:]

    Prepared Statement of Paul Strauss, Shadow Senator, District of 
                                Columbia

    Good afternoon, Chairwoman Landrieu and Senator DeWine. I want to 
thank you for the opportunity to present testimony today. My name is 
Paul Strauss and as you know, I am the United States Senator 
representing the District of Columbia. My role as the District's 
elected U.S. Senator is to be an advocate on issues of importance to 
the citizens of the District of Columbia that are before the Senate. It 
is in this role that I provide testimony in support of the District's 
Family Court.
    I am pleased to have the opportunity to speak on the transition of 
the Family Courts since the passage of the District of Columbia Family 
Court Act of 2001. In addition to my role as a United States Senator, I 
am also currently involved in the Family Court System representing 
abused and neglected children. I value any opportunity made within the 
Family Court that benefits the children it serves. The D.C. Family 
Court Reform legislation reflects the need to correct deficiencies in 
the management of child abuse and neglect cases in the existing system. 
This legislation represents a valuable effort put forth to identify the 
specific deficiencies within the existing Family Court to better serve 
children of the District of Columbia.
    The reform plan established by the District of Columbia has 
outlined many needed changes such as the need for a ``One Judge/One 
Family'' system, training staff working with families in the District, 
and providing family-friendly facilities. In addition, the need for a 
centralized information technology system has been identified to allow 
those working in the Family Courts access to client information to 
better provide services.
    In an effort to correct the problem of children falling through the 
cracks, this legislation introduces the One Judge/One Family program to 
the management of child abuse and neglect cases. This program aims to 
correct the problem of cases being seen by several judges and passed 
around with little coordination amongst the host of actors involved in 
managing the case. Too many children in the District of Columbia have 
faced several judges managing their case and a severe disconnect 
between the results of one court hearing versus the next. This program 
mandates that the same judge follows a family through the life of their 
case. Under this program, the likelihood that a child could fall 
through the cracks is highly improbable, which is an absolutely 
imperative provision of the legislation. Decisions regarding the 
child's welfare are more likely to be consistent and in the true 
interest of the child under the One Judge/One Family program. The 
sharing of knowledge and institutional capacity to support this 
objective must be established very early in the reform process in order 
for this provision to be met with success.
    A second major advancement under this legislation concerns training 
the staff working with families in the District. Progress continues 
toward providing training opportunities for all individuals involved in 
case management to continually update these professionals as to the 
latest developments in child abuse and neglect monitoring as well as 
developments in this area specific to the District. Training services 
are to be provided to judges and staff in the Family Court and Social 
Services Division. Meetings will be held that bring together all of the 
actors in this process to promote ``cross-training'', a process whereby 
case management professionals share their knowledge and expertise 
regarding each case to better coordinate the entire experience and 
ultimate result of the case across the system. The actors involved in 
these training sessions will include, Family Court judges, case-
coordinators, attorney advisors, staff, and stakeholders. It is 
suggested that funds be sought from all available avenues to promote 
the regular continuation of all aspects of the training program agenda. 
This effort is the crucial link between all actors involved to ensure 
that coordination is smooth and successful leading to the most 
effective and expeditious resolve leading to a better quality of life 
for the children affected.
    Additionally, the enhanced role of alternative dispute resolution 
in, the process of case management is a step forward in giving families 
an avenue to resolve their problems that does not involve a court 
appearance. This method is preferable for many families involving child 
that have already experienced a traumatic situation at home and do not 
desire to be subjected to any further stress involving having to 
testify in front of a judge regarding the trauma they have undergone. 
This process is much friendlier to the children involved and often 
promotes more congenial relations amongst the participants leading to a 
more effective resolve more likely to be in the best interest of all 
involved due to the fact that the involved actors have conferred to 
develop the resolution themselves. I advocate a wider use of this 
process for more families. This process is the least intense for the 
children and often leads to a quicker more successful solution for all 
involved.
    Another key aspect of this legislation promoting improvement 
involves the provision of family-friendly facilities in the case 
management process. The entire process is designed to be more family-
friendly in every way; however, special attention is given to improving 
the quality of the experience for the children in particular. 
Provisions such as an automatic granted visit with siblings within 48 
hours after placement out of the home, child-friendly environments in 
the institutional spaces where their cases are managed and improved 
morale and job satisfaction for the case management professionals to 
ensure that they are prepared to courteously deliver effective service 
in a caring manner are included in the current legislation. These 
improvements are difficult to quantify. Improvements are not realized 
in achievement of an ultimate goal. The provisions outlined in this 
legislation laid the groundwork for great things to develop to improve, 
the quality of the process for children, families, and professionals 
alike. However, continual assessment of this aspect of the process must 
be a cornerstone to improvement in the future.
    The final aspect of the legislation leading to advancement of the 
Family Court Reform process involves the provision of information 
technology to ease the coordination of the case management process 
across a variety of actors. The provision calls for an integrated 
information system charged with the task of tracking and reporting 
progress in each case in the District. This Integrated Justice 
Information System (IJIS) will be a welcomed replacement of the ailing 
computer infrastructure currently in place. The ability to coordinate 
the process of case management under one judge for each family is 
enhanced by the technological infrastructure to provide the involved 
actors with all of the information regarding the case at hand coupled 
with the ability to continually update this information to provide 
everyone with the most current events and advancements related to the 
case.
    The Family Court Reform Act in this reform plan is totally 
judicially focused. Of course, these are important steps, but many are 
concerned that the efforts to reform the child welfare system and 
family court processes will stop with the judiciary. Even if we have 
the wisest judges in the world presiding in the best facilities, we 
still will not have accomplished anything significant without quality 
attorneys representing children and families and a strong network of 
social services, including social workers with a manageable caseload. I 
know this committee will do what is required to ensure that the 
necessary resources are in place to implement meaningful reform.
    I believe that the current plan that has been set in motion by the 
District of Columbia Family Court Act of 2001 is beneficial to the 
District and the families that reside within its boundaries. I want to 
take this time to thank Chief Judge Rufus King, III for his work in the 
Family Courts. Again, I want to thank Chairwoman Landrieu and the 
committee for the opportunity to speak before you today regarding the 
Family Courts of the District of Columbia.
                                 ______
                                 

   Prepared Statement of Susan Golstman, a Child-Friendly Courthouse 
                               Architect

    edmund d. edelman children's courthouse, county of los angeles, 
                               california
    The Edmund D. Edelman Children's Court is the newest facility in 
the Los Angeles Superior Court System. The first courthouse of its kind 
in the United States, it is specifically designed to handle Juvenile 
Dependency Court cases. The Children's Court provides a dignified, yet 
child-sensitive atmosphere where abused and neglected children and 
their families can begin the all-important process of recovery and 
family reunification.
    The physical environment of such facility could either demonstrate 
sensitivity to the needs of the children and parents, or add 
immeasurably to the trauma of a court experience. While responding to 
children's needs, the design of this facility also had to communicate 
serious messages to abusive parents, as well as provide a comfortable 
and functional workplace. This balancing act was a singular challenge 
to the design team.
Guiding the Design
    Essential to the facility's success was the establishment and 
implementation of design guidelines for child-and-family-sensitive 
settings. The guidelines were developed at the request of the 
Children's Courthouse Design Committee and Kajima Associates, the 
architects of the facility (Goltsman, et al, 1991). The firm of Moore 
Iacofano Goltsman, Inc. developed the guidelines based on a series of 
interviews and working sessions with children, parents, court staff, 
attorneys, judges, child advocates, Department of Children's Services 
staff, and other involved in the Dependency Court process. The 
guidelines offered recommendations for providing efficient working 
spaces and facilitate Court operations while creating an environment 
sensitive to the needs of the children.
Defining Conditions
    The user survey and field observation methods used to gather 
information on existing conditions included: open-ended interviews; a 
user questionnaire; focus groups and workshops with judges, children 
and youth in shelter care, social workers, youth in foster care, and 
attorneys; and field observations of both people and spaces, as well as 
a full-scale simulation of the new courtroom arrangements.
Changing Environments and Programs
    A child-sensitive facility must center on programs, which express 
caring attitudes, policies and actions; the physical design reinforces 
program goals and reminds everyone that the facility is a place for 
children. The setting, mass, scale and a configuration of spaces send 
critical messages about purpose and process. In translating the child 
and family-sensitive concept into physical design, spaces and elements 
were introduced that are distinctly for children, evidenced by the 
creative use of light, color, form, textures and activity areas, which 
protect, nurture and stimulate.
System Implications
    The court is only one aspect of a complex set of dependency 
services that a child in the social services system is effected by. To 
``fix'' one part of the system understanding the entire system and how 
all parts interact is problematic. Although the entire system cannot be 
improved by building a new courthouse facility, the facility design 
process, if handled correctly, can be used to raise critical issues 
about the system that are more difficult to address otherwise.
    In the court facility, all the players in the system come together 
for the hearing. This is an opportunity to make the connections 
necessary to improve the life of the child and their family. At the 
hearings, a variety of activities occur that set the system into 
motion. For example, the judge may order the parents to take 
counseling. If the court design included a social service station, it 
could facilitate getting parents help by immediately scheduling the 
court-ordered counseling and arranging transportation to the 
appointment. Ultimately, this helps the goal of reunification of the 
parent(s) with their child. If the designer understands the system, 
design can be used to make the system work better.
Courthouse Features
    Some examples of amenities in the courthouse are:
    The Entry.--The entry to the lobby is a not monumental as in 
traditional court facilities. The entry is scaled down to have a more 
``residential'' character. The colors are in soft neutral shades with 
bright accents. The lighting in the lobby is primarily natural with 
accents on the features to draw people through the lobby to the court 
floors.
    Family Visiting Area.--Off the lobby, beside a palm street 
sculpture, is the family visiting area. Here, children who have been 
removed from their homes and are in foster care can visit with their 
parents and sibling(s) if the Court permits. The environment is 
designed as several small, intimate living rooms, with couches, chairs, 
art, non-institutional lighting, and plants. Each room has a large 
picture window with outside shutter details to help create a ``home-
like'' atmosphere as well as provide for supervision.
    The Waiting Area.--The four court floors encompass 25 courtrooms. 
Each courtroom has its own distinct scaled-down entrance with doors 
that appear home-like and architectural details that make the entry 
familiar. Each courtroom has a small waiting area in front with a 
variety of loose seating and small tables at which children can read or 
color. Each area has video monitors showing programs designed to inform 
viewers about the court process, teach parents skills, and educate or 
entertain children.
    People may have to wait in the areas for up to eight hours a day 
because of the nature of the court scheduling. To provide a less 
confining environment, this area was also designed to have the best 
view to the outside. (In traditional court facilities, judges' chambers 
would have the best view).
    A ``sun'' sculpture on the pillars is part of a signage system 
throughout the building. Each floor is represented by a different 
symbol, which appears in the lobby directory, at each elevator and in 
each elevator lobby. Symbols, instead of words, were used to covey 
location for easier understanding by children as well as non-English 
language speakers.
    The Courtroom.--The courtroom is downsized and the judge's bench is 
lowered. Extensive research was conducted to determine the furniture 
configuration, seating adjacencies and a simpler symbology in the 
courtroom. Each courtroom is staffed by a judge, court reporter, two 
clerks, a bailiff, two social workers, and five to eight attorneys. A 
case remains with the same court staff for its duration, up to 18 
months.
    The Shelter Care Area.--Children who are in protective custody wait 
in the Shelter Care for up to eight hours a day. It is a 10,000-square-
foot interior play space and an 8,000 sq. ft. outdoor facility. No one 
can enter this space except children, caregivers, social workers, child 
advocates, and the child's attorney. The area is divided into attorney 
interview rooms, a play area for children 4-11 year old, a play area, 
eating area, and administrative offices.
    The area for the younger children has a games area with Velcro 
walls for throwing, a dramatic play area with child-size house, a quiet 
area, a science/computer area, a dress area, a blocks and construction 
area, arts and crafts area, a theater, personal storage, and restrooms.
Result
    The result of this design process is a facility that was conceived 
from the needs and perspective of children to fulfill the difficult 
role of creating a positive environment, for a child in the legal 
system while providing a good work place for the business of the court.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Landrieu. Okay. Well, let me just say, this has 
been an excellent hearing. We have gotten a lot of good things 
on the record. We have some challenges ahead. There is a lot of 
unity, but there are some additional pieces that have to be put 
into place.
    I thank all of you very much. We will continue to work. And 
because of this constraint of funding and reform based on 
space, we are going to either call another hearing or at least 
another meeting to kind of hammer out the physical facility and 
plan.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Mary L. Landrieu

    Question. While we are not opposed to the designation of a Deputy 
Presiding Judge, the Family Court Act does not specifically call for 
one. We would appreciate further clarification on how the Presiding 
Judge and the Deputy Presiding Judge will interact? Which of the duties 
outlined in the Family Court Act will remain as the Presiding Judge's 
responsibility? Which duties will be delegated to the Deputy Presiding 
Judge? What plans are there for coordination between these two officers 
of the Court?
    Answer. Consistent with long standing practice in Superior Court of 
appointing both a presiding and deputy presiding judge for each of the 
Court's divisions, the chief judge appointed Judge Anita Josey-Herring 
as the Deputy Presiding Judge of the Family Court to serve with 
Presiding Judge Lee F. Satterfield. As indicated on page 24 of the 
transition plan, the Deputy Presiding Judge will assist the Presiding 
Judge in carrying out his duties to serve children and families.
    The Deputy Presiding Judge will assist in implementing the Family 
Court Transition Plan and overseeing the goals and objectives of the 
Family Court. She will assist the Presiding Judge in coordinating 
training for Family Court judicial officers and cross training with 
stakeholders, and in ensuring development and implementation of 
attorney practice standards. In addition, the Deputy Presiding Judge 
will assist the Presiding Judge in carrying out other duties and 
responsibilities that are not specified in the Family Court Act, many 
of which are set forth in the Court's Transition Plan, such as: serving 
on the Mayor's committees related to children and families, leading the 
Court's Family Treatment Court initiative, and overseeing grant funded 
projects in the Family Court.
    In carrying out these functions, the Presiding and Deputy Presiding 
Judges will work very closely together, meeting on an as needed basis 
to ensure the efficient and effective operation of the Family Court to 
best serve the District's children and families.
    Question. On page 48 of the plan, you indicate the intake office 
will be responsible for assigning a case before a judge or magistrate 
judge. While the plan does indicate that preference will be given to 
the judicial officer who has the most experience, it is not clear from 
the plan whether the Court intends to give preference to judges when a 
case requires the attention of a more experienced judicial officer. 
More specifically, does the court intend to place the more difficult 
cases, (i.e. cases where there is an allegation of homicide, criminal 
child abuse and neglect, or severe mental illness) with a family court 
judge?
    Answer. As indicated in the Plan, case coordinators will screen all 
new cases filed in the Family Court to determine whether there is a 
related case(s). If so, the intake office will assign the new case to 
the judicial team already hearing the related case, and consequently, 
most familiar with the dynamics of the particular family. Beginning 
January 2003, the magistrate judge assigned to the team will conduct 
the initial hearing for all abused and neglected children assigned to 
that team, and using criteria developed for the assignment of cases 
between team members, will distribute the new cases between the judge 
and the magistrate judge. In general, the magistrate judge will take 
abuse and neglect cases alleging neglect while cases alleging either 
physical or sexual abuse will be assigned to the team Family Court 
judge. Please note that if there is a criminal case related to an abuse 
and neglect case, for example, a case involving allegations of homicide 
or criminal child abuse, the criminal case would be heard in the 
Superior Court's Criminal Division. In those instances, the Family 
Court judge hearing the abuse and neglect case would coordinate with 
the Superior Court judge handling the criminal case.
    Question. On April 8, 2002, the Court hired five magistrate judges 
through the expedited appointment process. The Court indicated that 
these magistrates went through three weeks of intensive training. What 
was the process the court used for designing this training? In 
addition, we would like to have details of the training they received, 
including: who provided the training; where the training took place; 
and whether magistrates received a training manual for their ongoing 
review.
    Answer. Training for magistrate judges hired under the expedited 
process was designed by the Presiding and Deputy Presiding Judges of 
the Family Court in conjunction with the Court's Judicial Education 
Committee, which conducts training for all judicial officers on a 
regular basis. At the conclusion of the training, conducted at Superior 
Court, the magistrate judges received manuals covering the subjects 
under Family Court jurisdiction as well as other materials prepared by 
program facilitators.
    The content of the training provided to the magistrate judges hired 
under the expedited process is listed below in three categories: (1) 
issues involving children and families (2) guidance on how to conduct 
court hearings in cases of children and families and (3) general and 
administrative matters.
                              category one
    The magistrate judges received training on the following topics:
  --Child development
  --Substance abuse
  --Mental health
  --Public benefits
  --School enrollment and special education
  --Abuse and neglect law
  --Domestic relations law
  --Guardianship law
  --Adoption law
  --Juvenile law
  --Child support law
  --Domestic violence law
  --Contempt Powers
  --Adoption and Safe Families Act (ASFA)
  --Interstate Compact for the Placement of Children (ICPC)
  --Probate issues in abuse and neglect cases
  --Role of community collaboratives
  --Role of social workers
  --Services provided through Child and Family Services Agency
  --Services provided through Superior Court Social Services Division
  --Issues related to children with both abuse and neglect cases and 
        juvenile cases
  --Child mediation programs
                              category two
    The magistrate judges received training on how to conduct the 
following types of hearings:
  --Initial hearings in abuse and neglect cases
  --Pretrial conferences in abuse and neglect cases
  --Trials in abuse and neglect cases
  --Disposition hearings in abuse and neglect cases
  --Review hearings in abuse and neglect cases
  --Permanency hearings in abuse and neglect cases
  --Hearings on guardianship petitions arising out of abuse and neglect 
        cases
                             category three
    The general and administrative topics included:
  --Court personal security
  --Court interpreter services and special needs
  --Relations with the press
  --Court technology
  --Relations with courtroom clerk
  --Judicial ethics
  --Relations with the Court of Appeals
    The training took place at Superior Court. The magistrate judges 
also observed experienced Family Court judges in court hearings. They 
attended and continue to attend Family Court weekly meetings at which 
they are able to discuss issues with their judicial team members and 
other Family Court judges. They toured facilities such as group homes 
for children and the St. Ann's Infant Home.
    The training faculty consisted of Family Court judicial officers 
with expertise in family law and issues relating to children and 
families; representatives from the Georgetown University Child 
Development Center; social workers and managers from the Child and 
Family Services Agency (CFSA); members of the community collaboratives; 
representatives from the American Public Human Services Association, 
including ICPC administrators from the State of Maryland, the 
Commonwealth of Virginia and the District of Columbia; and attorneys 
from the Legal Aid Society, the Office of Corporation Counsel (OCC) and 
the Georgetown University Law Center Legal Clinic.
    Question. The Family Court Act specifically states that upon the 
date of enactment (January 2002), all new cases filed with the court 
would be subject to its protections. Yet, it doesn't appear from the 
court's transition plan that new cases (i.e. cases opened after January 
8, 2002) are receiving all of the services outlined in the Family Court 
Act of 2001. We are particularly concerned with new cases not being 
afforded the full protections of the principle of One-Judge/One-Family 
until June of 2003. To help us better understand the distinction 
between the case flow plan for new and pending cases, we would 
appreciate it if you would explain, in detail, how each of the 
following hypothetical cases would be managed if they were filed in the 
court today?
    Case A.--A baby is abandoned at birth at a local hospital. Neither 
the biological parents nor any family members can be located. 
Permanency goal recommended by CFSA: Adoption.
    Case B.--A family with three children, ages 3, 7, and 11, loses 
their housing and is living on the District's streets. The parents 
voluntarily place their children in foster care until such time as they 
can provide their children with a suitable home. While in foster care 
the 11-year-old is caught shoplifting candy from a convenience store. 
Permanency goal recommended by CFSA: Reunification.
    Case C.--A single mother with a severe drug problem is charged with 
neglect for leaving her 13-month-old and four-year-old child at home 
unattended. The mother pleads guilty to the neglect charge and requests 
assistance from the court for her drug problem. The mother is 
inconsistent in attending her supervised visits and although in 
treatment, continues to test positive for drug use. Eighteen months 
have passed since CFSA removed the children. They have been with the 
same foster parents, yet the foster parents are not interested in 
adopting them. Recommended goal of CFSA: Reunification.
    Answer. Given the volume and broad range of cases filed in the 
Family Court, the Court determined, in consultation with OCC and CFSA, 
that the gradual implementation of the one family one judge concept 
would be the most feasible and practicable in this jurisdiction (see 
page 10 of the Transition Plan). The Transition Plan, as designed, 
progressively consolidates the cases related to a child before a single 
judicial team.
    Effective June 2002, each judicial team is responsible for all case 
management in their new abuse and neglect cases following the child's 
initial hearing. This includes any subsequent actions arising out of 
the child's abuse and neglect case such as guardianship, termination of 
parental rights, custody, adoption, or civil domestic violence, as well 
as the coordination of all cases involving brothers and sisters.
    In January 2003, we will begin consolidating other cases related to 
children, such as child support and post-disposition juvenile cases, 
with the same judicial team responsible for the original abuse and 
neglect case, provided that the consolidation is likely to contribute 
to the child's safety or well-being and does not delay permanency for 
the child.
    In March 2003, related Family Court cases not arising from the 
abuse and neglect case, such as domestic relations or mental health 
cases of immediate family or household members, will be assigned to the 
same judicial team.
    In June 2003, the Family Court will expand the judicial teams 
serving abused and neglected children to include social workers, 
assistant corporation counsel, Guardians Ad Litem (GALs) and parents' 
attorneys who routinely appear before the judicial team on abuse and 
neglect cases.
    Based on our experience, consultations with the Child and Family 
Services Agency and the Office of the Corporation Counsel, and best 
practices, we believe that a gradual approach is the most effective 
method to ensure safety and permanency for children.
    Consistent with the one family one judge provision of the Family 
Court Act and without rendering any advisory rulings on factual 
scenarios that frequently are before the Court, the Family Court would 
manage the hypothetical cases under the following procedures:
    Case A.--At the initial hearing, the baby's case would be assigned 
to either the associate judge or magistrate judge in a judicial team. 
The assigned judicial officer would conduct all hearings consistent 
with the timelines in D.C. and Federal ASFAs. If, during a permanency 
hearing, the goal of adoption were determined to be the appropriate 
permanency plan for the baby, and a subsequent adoption petition were 
filed, the associate judge on the team would preside over the adoption 
matter.
    Case B.--At the initial hearing, these children's cases would be 
assigned to either the associate judge or magistrate judge in a 
judicial team. The assigned judicial officer would conduct all hearings 
consistent with the timelines in D.C. and Federal ASFAs. If, during a 
permanency hearing for the children, the goal of reunification were 
determined to be the appropriate permanency plan, the children's case 
would remain with the assigned judicial officer until the family could 
be reunited. Appropriate services to accomplish that goal would be 
ordered. If a charge of shoplifting were filed against the 11 year old 
child, the juvenile case would be assigned to a different Family Court 
judge for trial only and then returned to the judicial officer handling 
the neglect case for all post-adjudication purposes.
    Case C.--At the initial hearing, these children's cases would be 
assigned to either the associate judge or magistrate judge in a 
judicial team. The assigned judicial officer would conduct all hearings 
for the children consistent with the timelines in D.C. and Federal 
ASFAs. At a permanency hearing, the appropriate goal for the children 
would be determined. If the goal were adoption or custody and a 
subsequent petition for adoption or custody were filed, the children's 
cases would be handled by the associate judge of the team. If the goal 
were reunification or guardianship, then the assigned judicial officer, 
whether an associate judge or magistrate judge, would continue to hear 
the children's cases and the petition for guardianship.
    Question. The Family Court Act of 2001 created a very limited 
criterion for cases not to be transferred or disposed of into the 
Family Court. Section 11-908A (b)(1) (l) requires the court's 
transition plan to estimate the number of cases for which the deadline 
for disposition or transfer to the Family Court cannot be met and the 
reasons why such deadline cannot be met. It does not appear that this 
requirement is complied with in the Court's plan. Can you please 
provide further clarification of this point?
    Answer. As indicated on pages 12-13 of our transition plan, before 
the end of the transition period, the Court intends to transfer into 
Family Court or dispose of all cases assigned to judges outside the 
Family Court. Accordingly, the Court estimates that there will not be 
any Family Court cases remaining outside the Family Court at the end of 
the transition period. To date, more than 1,500 children whose cases 
were assigned to judges outside the Family Court have had their cases 
transferred to Family Court judicial officers.
    Question. The D.C. Superior Court currently assigned 12 judges to 
the Family Court who reportedly have expertise and/or training in 
Family Law. Since the plan does not specify their qualifications in 
full, we are left to assume that the fact that these judges served in 
the Family Division of the Superior Court is what is being used to 
satisfy the expertise and background requirement? How many are 
qualified for reasons other than previous service on the family court? 
Have any of these judges received specialized training in the last six 
months? How many hours of training did they receive? What was the 
curriculum? From whom did they receive this training?
    Answer. The Court considered three factors when assigning judges to 
the Family Court: (1) experience and training; (2) positive interest in 
serving; and (3) willingness to participate in the extended training 
required under the Act. All 12-associate judges who volunteered to 
serve on the Family Court met all three of the selection criteria. They 
have certified that they intend to serve the full term of service and 
to participate in ongoing specialized training programs for Family 
Court judges. Nearly all of these judges served in the Family Division 
at some time prior to the enactment of the District of Columbia Family 
Court Act of 2001. All of these judges are qualified by virtue of 
family law training or experience or both, and all have participated in 
training on family law issues prior to becoming a Family Court judge. 
In addition, judges who began their judicial careers in the Family 
Court or Family Division participated in a two week pre-service 
training program, which focused on family law and issues related to 
children and families.
    In May 2000, judges participated in a training program entitled 
``Enhancing Judicial Skills in Domestic Violence Cases,'' which 
included presentations on the dynamics of domestic violence, its effect 
on children who witness domestic violence, decision-making skills in 
domestic violence and the cultural aspects of domestic violence. In May 
2001, judges participated in a training program entitled ``New 
Developments in the Law of Child Abuse and Neglect.'' Topics included 
ASFA, the implications of substance abuse in abuse and neglect cases, 
child development, risk assessments and reunification efforts, special 
education, and mental health intervention in the abuse and neglect 
system. Finally, since the enactment of ASFA, the Court has conducted 
several training programs for judges on the requirements of ASFA, 
including sessions in March 1999, May 2001 and December 2001. Faculty 
members at each program consisted of national and local experts on 
issues affecting children and families. Additionally, in December 2001, 
the judges in the Family Court received 3 full days of training that 
included many of the topics listed in response to Question 3.
    Detailed below are summaries of the family law training and 
experience of the judges who volunteered to serve in Family Court.
    Lee F. Satterfield, Presiding Judge, Family Court.--Judge 
Satterfield was appointed an associate judge in November 1992. He 
joined the Family Division in June 2001 and has served there 
continuously since then. He has handled abuse and neglect cases of 
children for over nine years. He currently presides over abuse and 
neglect, paternity and support and mental health cases. He was 
appointed Presiding Judge of the Family Division in November 2001 and 
designated Presiding Judge of the Family Court after the enactment of 
the District of Columbia Family Court Act of 2001.
    Judge Satterfield has served in every Division of the court except 
the Probate Division. He served as the Presiding Judge of the Domestic 
Violence Unit for two years from 1998 to 1999. While in that position 
he handled civil, custody and criminal cases involving domestic 
violence and the administrative duties of a presiding judge. He also 
served as a Drug Court judge where he handled numerous cases of adults 
with substance abuse problems. As a judge and a former assistant United 
States attorney, Judge Satterfield has handled numerous criminal cases 
involving children as witnesses and victims.
    Judge Satterfield serves on many court and community committees 
relating to children and families, such as the Mayor's Advisory 
Committee on Child Abuse and Neglect and the Mayor's Advisory Committee 
on Permanent Families. He also serves as the court's lead judge on the 
Model Courts initiative of the National Council of Juvenile and Family 
Court Judges. He serves on the Judicial Education Committee and the 
Superior Court Rules Committee. He is chair of the Family Court 
Implementation Committee, co-chair of the Family Court Organization and 
Management Oversight Team and chair of the Family Court Advisory Rules 
Committee. He formerly chaired the Superior Court Domestic Violence 
Coordinating Council and the Domestic Violence Unit Implementation 
Committee. He also served on a national domestic violence advisory 
committee, which drafted model court criteria for domestic violence 
courts.
    Judge Satterfield has attended, as a participant and faculty 
member, numerous training programs relating to issues involving 
children and families. These programs were sponsored by the National 
Council of Juvenile and Family Court Judges, the American Humane 
Society, the Family Violence Prevention Fund and various law schools. 
He also has participated in training programs conducted by the Court on 
family law and domestic violence including the May 2000 program on 
domestic violence and the May 2001 program on abuse and neglect. He 
served as program chair of the Court's May 2000, training program 
entitled ``Enhancing Judicial Skills in Domestic Violence Cases.'' He 
also attended the court training programs on ASFA.
    Anita Josey-Herring, Deputy Presiding Judge, Family Court.--Judge 
Josey-Herring was appointed an associate judge in September 1997 and 
began her judicial career in the Family Division, where she has 
remained since. She was appointed Deputy Presiding Judge of the Family 
Division in September 2000, and designated Deputy Presiding Judge of 
the Family Court after the enactment of the District of Columbia Family 
Court Act of 2001. She has handled a variety of family law cases 
involving abuse and neglect, paternity and support, mental health, 
juvenile delinquency and domestic relations. She currently presides 
over abuse and neglect, juvenile drug court and mental health cases.
    Judge Josey-Herring has chaired and participated in numerous 
committees which deal with issues affecting the welfare of children and 
which seek to improve the court process, such as the Family Drug Court 
Planning Committee, the Mayor's Child Fatality Review Committee, the 
Mayor's Advisory Committee on Child Abuse and Neglect and the Mayor's 
Interagency Task Force on Substance Abuse Prevention, Treatment and 
Control. She is a member of the Family Court Implementation Committee 
and is co-chair of the Family Court Organization and Management 
Oversight Team.
    Judge Josey-Herring has attended numerous training programs on 
issues related to children and families and family law. These programs 
were conducted by the Court and local and national organizations such 
as the District of Columbia Children's Trust Fund, the National Council 
of Juvenile and Family Court Judges, and the American Humane Society. 
She has coordinated court-wide family law training such as training on 
ASFA in December 2001 and has spoken about family law issues at local 
seminars.
    Judge Josey-Herring's prior experience includes serving as the 
Deputy Director of the Public Defender Service for the District of 
Columbia for three years. While in that position, Judge Josey-Herring 
managed and supervised attorneys who handled mental health and juvenile 
delinquency cases. Before becoming the Deputy Director, she handled 
criminal and juvenile delinquency cases in the Superior Court and 
argued appeals in juvenile delinquency cases before the District of 
Columbia Court of Appeals. She also served as a member of the Domestic 
Violence Coordinating Council, which was responsible for planning the 
Superior Court Domestic Violence Unit.
    Nan R. Shuker, Associate Judge.--Judge Shuker was appointed an 
associate judge in December 1983. Since that date she has served in the 
Civil Division, Criminal Division and Family Division. She joined the 
Family Court in January 2000 and currently presides over adoption cases 
and abuse and neglect cases. She began to handle abuse and neglect 
cases in 1987 when she was assigned to the Family Division and has 
presided over juvenile delinquency cases and complex domestic relations 
cases during several years since then. In 1990, she was appointed 
Deputy Presiding Judge of the Civil Division and from 1993 to 1996, she 
served as Presiding Judge of the Civil Division.
    She has chaired or served on numerous Court committees relating to 
issues of families and children, such as the Family Court 
Implementation Committee where she is chair of the subcommittee on 
abuse and neglect and adoptions, the Family Court Advisory Rules 
Committee and the Family Drug Court Planning Committee. She has chaired 
the committees that developed court procedures for the Child Mediation 
Program and that developed court procedures and forms to implement the 
Guardianship law. Judge Shuker has also developed court forms in 
adoption cases and served on a committee chaired by the Deputy 
Presiding Judge that is developing revised forms for abuse and neglect 
cases.
    Judge Shuker has participated in numerous training programs on 
issues involving children and families. She has served as a faculty 
member in most Family Court programs including the court's pre-
assignment and pre-service training programs and training for the new 
magistrate judges appointed under the Family Court Act. Prior to 
becoming a judge, as an assistant corporation counsel, Judge Shuker 
participated in the training of new Superior Court judges as they 
entered the Family Division for the first time. She also trained police 
and social workers in the investigation of abuse and neglect cases and 
the giving of testimony in such cases.
    Judge Shuker began her legal career at American University in 1969 
where she assisted Dr. Nicholas Kittrie in creating a new program for 
the Center for the Administration of Justice. Many of the new courses 
developed in this program dealt with issues such as domestic violence, 
child abuse and juvenile matters.
    In 1972, Judge Shuker joined the Office of Corporation Counsel as a 
staff attorney in the Juvenile Section. She served as Assistant Chief 
and Chief of the Juvenile Section. While an Assistant Corporation 
Counsel, Judge Shuker developed and obtained first funding for a 
project for the identification of child abuse in the District of 
Columbia from the Office of Criminal Justice Plans and Analysis. This 
included the development of a team approach with social workers, 
Assistant Corporation Counsel, police and the Children Hospital's child 
abuse team. She also developed the first neglect and abuse unit in a 
local prosecutor's office and led it for several years. Judge Shuker 
was Co-Director of the Child Abuse and Child Safety Project. Her 
responsibilities included implementation of a physicians consulting 
service in conjunction with area hospitals, training of physicians and 
other child-care professionals in the detection and reporting of child 
abuse and assisting two other co-directors in the administration of an 
interdisciplinary team approach to child abuse. She was designated by 
the Corporation Counsel to assist City Counsel member Polly Shackleton 
in drafting the 1978 child abuse and neglect law. Finally, Judge Shuker 
served for two years on the National Advisory Committee for the United 
States Department of Health, Education and Welfare on the drafting a 
model law for the reporting and court handling of abuse and neglect 
cases.
    Linda D. Turner, Associate Judge.--Judge Turner was appointed as an 
associate judge in September 1990 and began her judicial career in the 
Family Division. While assigned to the Family Division, Judge Turner 
handled juvenile and neglect and abuse cases. She presided over abuse 
and neglect cases since her appointment as a judge. She also served in 
the Criminal and Civil Divisions. Judge Turner has served as Drug Court 
judge in the Criminal Division. She rejoined the Family Division (now 
Family Court) in January 2002. She currently presides over abuse and 
neglect cases.
    Judge Turner has participated in numerous court training programs 
on issues involving children and families including the pre-service and 
pre-assignment training programs, the programs on ASFA, the May 2001 
program on abuse and neglect cases and the May 2000 program on domestic 
violence cases.
    Judith Bartnoff, Associate Judge.--Judge Bartnoff was appointed an 
associate judge in August 1994. She began her judicial career in the 
Family Division. She has presided over abuse and neglect cases since 
1994. While in her first assignment to the Family Division, she 
presided over domestic relation cases, mental health cases, paternity 
and support cases and civil domestic violence cases. Judge Bartnoff 
served in the Criminal and Civil Divisions and then returned to the 
Family Division in January 2001. She currently presides over abuse and 
neglect cases and complex domestic relation cases.
    Judge Bartnoff is chair of the court's benchbook committee, which 
is responsible for drafting and updating legal manuals that judges rely 
on in handling cases. While a member of the committee, she rewrote and 
updated the benchbook on abuse and neglect.
    Judge Bartnoff has attended a variety of judicial training programs 
on issues relating to children and families, including pre-service and 
pre-assignment training programs, the May 2001 program on abuse and 
neglect, the May 2000 program on domestic violence and the programs on 
ASFA. Judge Bartnoff's assignment to the Criminal Division provided her 
with an opportunity to learn a great deal about substance abuse 
problems and treatment. Her assignment to the Civil Division provided 
invaluable experience in preparing her to handle the complex domestic 
relation cases.
    Judge Bartnoff's prior experience includes working as an Associate 
Deputy Attorney General at the United States Department of Justice. Her 
responsibilities in that position included overseeing matters relating 
to the United States Marshals Service, including issues of custody and 
visitation in the Witness Protection Program. She served as an 
assistant United States Attorney in the Civil Division of the United 
States Attorney's Office for the District of Columbia. Judge Bartnoff 
also was in private practice where she handled aspects of custody and 
adoption cases on a pro bono basis.
    Ronna L. Beck, Associate Judge.--Judge Beck was appointed an 
associate judge in June 1995. She began her judicial career in the 
Family Division. She has presided over abuse and neglect cases since 
1995. During her first assignment to the Family Division, she presided 
over domestic relations, mental health, civil domestic violence and 
paternity and support cases. She served in the Criminal and Civil 
Divisions. While in the Criminal Division, she handled criminal cases 
involving drug abuse issues. She returned to the Family Division in 
January 2002. She currently presides over abuse and neglect and 
domestic relations cases.
    Judge Beck is co-chair of the Family Court Panels Committee which 
is responsible for creating panels of qualified attorneys for court 
appointment to children in abuse and neglect and juvenile delinquency 
cases, and parents in abuse and neglect cases. She served as a member 
of the Court's Criminal Justice Act Committee, which created panels of 
qualified attorneys who are appointed to represent indigent defendants 
in criminal cases.
    Judge Beck has participated in numerous court training programs on 
family law and issues related to children and families including pre-
service and pre-assignment programs, the court programs on ASFA, the 
May 2001 program abuse and neglect and the May 2000 program on domestic 
violence. She also participated in an ASFA training session conducted 
at Howard University.
    Judge Beck's prior experience includes working as a psychiatric 
nursing assistant at a mental hospital. She was in private practice 
where she handled custody, divorce and adoption cases. She worked at 
the District of Columbia Public Defender Service where she represented 
juvenile offenders. Judge Beck also took courses in psychology, 
psychopathology and family law while in college and law school. While 
in law school, she audited a yearlong child development course at the 
Baltimore-District of Columbia Psychoanalytic Institute.
    Linda Kay Davis, Associate Judge.--Judge Davis was appointed an 
associate judge in June 1995. She began her judicial career in the 
Family Division and has presided over abuse and neglect cases since 
1995. She served in the Criminal and Civil Divisions and in the 
Domestic Violence Unit. While in the Criminal Division, Judge Davis 
handled criminal cases involving drug abuse issues. While in the 
Domestic Violence Unit for two years, she handled civil, domestic 
relations and criminal cases involving domestic violence. She also 
served as Acting Presiding Judge of the Unit when the Presiding Judge 
was on extended medical leave. She rejoined the Family Division in 
January 2002. She currently handles neglect and abuse cases and 
domestic relations cases.
    Judge Davis has participated in court training programs on family 
law and issues related to children and families including pre-service 
and pre-assignment programs, the court programs on ASFA, the May 2001 
program on abuse and neglect and the May 2000 program on domestic 
violence. In 1996, she attended the National Symposium on Child 
Victimization, a four-day conference that focused on child sexual and 
physical abuse. She also attended a regional conference on family 
violence and child sexual abuse which was hosted by the Fairfax Circuit 
Court and the Metropolitan Washington Council of Governments.
    Judge Davis' prior experience includes working at the Public 
Defender Service as a staff attorney where she represented juvenile 
offenders. She also served in the Civil Rights Division of the United 
States Department Justice.
    Robert Morin, Associate Judge.--Judge Morin was appointed an 
associate judge in September 1996. He has presided over abuse and 
neglect cases since 1996. He joined the Family Division in January 2001 
and has presided over mental health, domestic relations, juvenile 
delinquency and paternity and support cases. He currently presides over 
abuse and neglect and domestic relations cases. Judge Morin served in 
the Criminal Division where he handled criminal cases involving drug 
abuse issues.
    Judge Morin serves on the Family Court Implementation Committee and 
is chair of its subcommittee on Domestic Relations and Paternity and 
Support. He also serves on the Family Court Panels Committee.
    Judge Morin has participated in numerous court training programs on 
issues involving children and families including pre-service and pre-
assignment programs, court programs on ASFA, the May 2001 program on 
abuse and neglect and the May 2000 program on domestic violence.
    Hiram E. Puig-Lugo, Associate Judge.--Judge Puig-Lugo was appointed 
an associate judge in July 1999. He began his judicial career in the 
Family Division and has presided over abuse and neglect cases since 
1999. During his first assignment to the Family Division, he also 
presided over juvenile delinquency cases. He served on the Domestic 
Violence Unit where he handled civil, domestic relations and criminal 
cases involving domestic violence. He returned to the Family Division 
in January 2002.
    Judge Puig-Lugo serves on the Family Court Panels Committee. Judge 
Puig-Lugo has participated in numerous court training programs on 
family law and issues related to children and families, including pre-
service and pre-assignment programs, court programs on ASFA, the May 
2001 program on abuse and neglect and the May 2000 program on domestic 
violence.
    Judge Puig-Lugo's prior experience includes working at the Civil 
Rights Division of the United States Department of Justice and as a 
staff attorney for the District of Columbia Public Defender Service 
where he represented juvenile offenders.
    John McAdam Mott, Associate Judge.--Judge Mott was appointed as an 
associate judge in July 2000 and began his judicial career in the 
Family Division. He has presided over juvenile delinquency, mental 
health and paternity and support cases. He currently handles abuse and 
neglect and domestic relations cases.
    Judge Mott serves on the Family Court Panels Committee. Judge Mott 
has participated in numerous court training programs on family law and 
issues related to children and families, including pre-service and pre-
assignment programs, court programs on ASFA, and the May 2001 program 
on abuse and neglect. He also participated in a two-week training 
program at the National Judicial College, which covered a wide variety 
of topics, including family law.
    Judge Mott's prior experience includes working as a staff attorney 
at the District of Columbia Public Defender Service where he 
represented juvenile offenders and in the Civil Rights Division of the 
United States Department of Justice.
    John Ramsey Johnson, Associate Judge.--Judge Johnson was appointed 
an associate judge in November 2000 and began his judicial career in 
the Family Division. He presides over juvenile delinquency and abuse 
and neglect cases.
    Judge Johnson is co-chair of the Family Court Panels Committee. He 
has participated in court training programs that focused on family law 
and on issues related to children and families, including pre-service 
and pre-assignment programs, court programs on ASFA and the May 2001 
program on abuse and neglect.
    Judge Johnson's prior experience included 25 years in the United 
States Attorney's Office for the District of Columbia. He has served in 
various supervisory capacities including the Interim United States 
Attorney. During his years as an assistant United States attorney, 
Judge Johnson was instrumental in establishing both a drug court and 
domestic violence unit in the Superior Court. Both of those efforts 
required an in depth understanding of the twin evils of drug abuse and 
domestic violence as they affect families and children.
    Odessa F. Vincent, Associate Judge.--Judge Vincent was appointed an 
associate judge in January 2002 and began her judicial career in the 
Family Division. She currently handles juvenile delinquency and abuse 
and neglect cases.
    Judge Vincent has attended court training programs that focused on 
family law and on issues related to children and families including 
pre-service and pre-assignment programs and a court program on ASFA. 
She also attended a session involving presentations from CFSA at the 
pre-service training program for the new magistrate judges appointed in 
April 2002.
    Judge Vincent's prior experience includes working as an assistant 
United States attorney in the Sex Offense Unit. While in that position, 
she participated in training programs on issues of physical, mental and 
sexual abuse of children, resources for children that are victim of 
crimes and how to work with child victims and child witnesses. She 
investigated and prosecuted numerous child abuse and child sex abuse 
cases. She also attended seminars on the following topics: child sex 
abuse and exploitation, domestic violence victims, and child 
maltreatment.
    Question. The Court's transition plan indicated that all judges 
serving on the Family Court certified that they would serve the entire 
three-year term. However, the Court's transition plan does not identify 
which of the 12 volunteers had already been serving in the Family 
Division prior to the Act nor can the minimum remaining term length for 
each volunteer be determined from the plan. We are requesting that the 
Court please provide this information.
    Answer. All of the judges currently assigned to Family Court have 
certified that they will serve at least a term of three consecutive 
years. In the absence of an extension of service pursuant to Sec. 3(a) 
of the Act (codified at D.C. Code sec. 11-908A(c)(3) or (4)), each 
judge will serve for three years from the commencement date shown 
below:
    Commencement of Service on Family Court
  --Judge Satterfield--June 2001
  --Judge Josey-Herring--September 2000
  --Judge Shuker--January 2000
  --Judge Turner--January 2002
  --Judge Bartnoff--January 2001
  --Judge Beck--January 2002
  --Judge Davis--January 2002
  --Judge Morin--January 2001
  --Judge Puig-Lugo--January 2002
  --Judge Mott--July 2000
  --Judge Johnson--January 2001
  --Judge Vincent--January 2002
    Question. In Judge King's letter to Cornelia Ashby at the General 
Accounting Office he indicated that the Court's Remedial project 
examined case processing times in abuse and neglect cases for calendar 
year 2001 (post ASFA). Can you please provide us with a copy of the 
report on the Court's Remedial Project? What are the Court's benchmarks 
for 2001? How long did it take to process abuse and neglect cases from 
initial hearing until the case was closed? How many cases in 2001 were 
out of compliance with the timelines established by ASFA?
    Answer. Attached are the two most recent reports prepared by the 
Council for Court Excellence as part of our remedial project. The 
reports provide information on compliance with statutory guidelines 
established under D.C. and Federal ASFAs for processing abuse and 
neglect cases.
    Data from the most recent report, reviewing cases filed between 2/
1/01 and 1/31/02, indicate that compliance with the statutory 
requirement to hold an initial hearing within 24 hours was uniformly 
met. The median time from filing to stipulation was 102 days and the 
median time from filing to trial was 148 days. The median time from 
filing to disposition was 205 days. These median times are higher than 
our statutory requirements. A review of cases filed since the project's 
inception that were still open indicated that 60 percent of the cases 
were in compliance with the 14-month permanency hearing requirement 
under ASFA, a significant improvement over the 40 percent compliance 
rate found in October 2001 and the 24 percent compliance rate found in 
July 2001. As indicated in the Transition Plan, the Court plans to hire 
two attorney advisors who will assist the Presiding Judge in monitoring 
all cases for compliance with ASFA.

                               Memorandum

To: Child Welfare Leadership Team
From: Andrea J. Larry, Senior Policy Analyst, Council for Court 
    Excellence
Subject: New Referrals, Compliance with Statutory Deadlines--Quarterly 
    Report
Date: May 2, 2002

    The computer data which serves as the basis for this summary report 
and the attached tables is available upon request.
Methodology
    This is CCE's first quarterly report for the year 2002. The 
methodology we used is slightly different than what we used in past 
reports. We analyzed the cases filed in each of the three years since 
the implementation of ASFA as three separate groups of individuals or 
``cohorts,'' We tracked and reported on the occurrence and timeliness 
of case milestones for each of the three groups separately, e.g. Year 1 
Kids, Year 2 Kids, and Year 3 Kids, then compared the groups to 
determine whether progress has been made. The data for each of the 
three groups will likely change over time as cases continue to achieve 
milestones. The results to date are shown in Tables 1 and 2.
Summary of Results
    The data is consistent with what our earlier reports have shown. 
Although the city is not in compliance with ASFA statutory deadlines, 
we are beginning to see a downward trend in the amount of time it takes 
to reach major case milestones, particularly stipulation, trial, and 
disposition.
Trials/Stipulations
    It took Year 2 Kids a median of 102 days to reach a stipulation 
compared to 118 days for Year 1 Kids. It took Year 2 Kids significantly 
longer to get to trial, a median of 148 days. However, this is less 
than it took Year 1 Kids to get to trial, a median of 193 days. There 
is insufficient data on Year 3 Kids to draw any conclusions yet--no 
trials and only 40 stipulations have been recorded.
    Data on Year 1, 2, and 3 Kids shows that cases are much more likely 
to stipulate than go to trial. In Year 1 and Year 2 case stipulations 
are approximately three times more common than trials.
Dispositions
    It took Year 2 Kids a median of 165 days to reach disposition 
compared to 205 days for Year 1 Kids. However, 236 Year 2 Kids are 
still pending disposition and the data from these cases could 
significantly after the Year 2 Kids data. Again, the data on Year 3 
Kids is insufficient to draw any conclusions.
Review/Permanency Planning
    There appears to be a significant reduction in the amount of time 
it took Year 2 Kids to reach the 1st review or permanency planning 
heating--241 days--as compared to 328 days for Year I Kids. 
Surprisingly, however, more than one-half of the Year 2 Kid's cases 
have not yet had a review or permanency planning hearing. It is very 
likely that the Year 2 Kids figure--241 days--will increase 
significantly over time as fixture review and permanency planning 
hearings take place.
Permanency Hearings
    The permanency hearing data is consistent with our earlier reports. 
Approximately 60 percent of Year 1 Kids cases are in compliance with 
ASFA's 14 month permanency hearing deadline via a permanency hearing or 
dismissal prior to 14 months. See CCE's March 7, 2002 Report. Few of 
Year 2 and none of Year 3 cases have been pending long enough to reach 
ASFA's 14 month deadline.
    Other Observations:
  --The city consistently complies with the statutory deadline for 
        conducting initial hearings.
  --The number of cases dismissed without a trial or stipulation is 
        fairly consistent from Year 1 to 2--about 10 to 15 percent of 
        the caseload. 




        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
        
                               Memorandum

To: Child Welface Leadership Team
From: Andrea J. Larry, Senior Policy Analyst, Council for Court 
    Excellence
Subject: New Referrals, Permanency Hearings--Compliance with ASFA--
    Latest Comparison Chart; Tracking Against Care Protocols & 
    Statutory Deadlines--Summary Comparison Chart--Year 1 & Year 2.
Date: March 7, 2002

    The computer data which serves as the basis for this summary report 
and the attached charts is available upon request.
    Permanency Hearings.--Compliance with 14 Month ASFA Permanency 
Hearing Deadline
    The results of CCE's latest permanency hearing analysis are 
displayed in the last column of the attached comparison chart--Chart A. 
The data shows significant improvement over previous analyses. Of the 
860 cases that were filed 14 months ago or earlier, 60 percent are in 
compliance with ASFA's permanency hearing requirement, via permanency 
hearing or dismissal prior to 14 months. This is a tremendous 
improvement over the 40 percent compliance rate of 5 months ago and the 
24 percent compliance rate of eight months ago. The Leadership Team has 
done an excellent job of responding to this issue. Your continued 
attention and diligence will be required, however, to achieve a 100 
percent a compliance rate which is necessary to achieve maximum federal 
reimbursement. CCE will do its part by continuing to provide monthly 
permanency hearing ticklers.
    The proto-typical data tracking system does not provide an adequate 
means of recording the date of a child's removal, i.e., the date from 
which time generally begins to run toward ASFA's 14 month permanency 
hearing deadline. Therefore, we tracked time from the date of the 
petition rather than the date of removal. We realize, however, that not 
all children are removed from home at the petition date or any other 
date. To compensate for this we have tried to eliminate from the total 
population of cases those in which the child has not been removed, 
i.e., is in protective supervision.
    One of the obstacles to full compliance with the permanency hearing 
requirement is the lack of uniformity in the orders used by the various 
judges. There are approximately one-half dozen different orders in use 
and not all of these orders contain the necessary elements of a 
permanency hearing, i.e., (1) a decision as to what the child's 
permanency plan will be; and (2) a time frame for accomplishment of the 
plan. Indeed, one of the most frequent omissions is a time frame for 
accomplishment of the permanency plan--an element specifically required 
by the ASFA statute. The lack of uniformity sometimes makes it 
difficult for CCE's data entry specialists to recognize permanency 
hearings.
Tracking Against Case Protocols & Statutory Deadlines
    As promised, CCE has completed a year-end analysis of Track II 
cases filed in ``Year 2'' of the New Referrals Project, i.e., between 
February 1, 2001 and January 31, 2002. We then compared the results to 
data obtained from CCE's February 28, 2001 year-end analysis report of 
Track II cases filed in ``Year 1,'' i.e., between February 1, 2000 and 
January 31, 2001. Our intent was to compare performance in the first 12 
months with performance in the second 12 months to determine whether 
progress has been made. Specifically, we measured the number of cases 
that reached critical case milestones and the median and average length 
of time it took to reach those milestones.
    The results, which are displayed in Chart B, show that the District 
of Columbia is not in compliance with protocol or statutory deadlines. 
Indeed, the median and average amount of time it takes to reach certain 
case milestones has increased. On the positive side, the data shows 
that more status/pre-trial hearings; trials/stipulations, dispositions 
and dismissals occurred in Year 2 than occurred in Year 1 in 
approximately the same or slightly longer amount of time. For example, 
609 trials/stipulations were conducted in Year 2 in a median amount of 
time of 103 days from filing of the petition compared to 439 trials in 
Year 1 in a median of 105 days from filing of the petition. Also, 460 
dispositions were conducted in Year 2 in a median of 171 days from 
filing of the petition compared to 270 dispositions in Year 1 in a 
median of 155 days from filing of the petition.
    Interestingly, fewer review and/or permanency planning hearings 
were conducted in Year 2--47 compared to 100 review hearings in Year 1. 
The fact that the Court is conducting comprehensive permanency planning 
hearings rather than perfunctory review hearings may account for this 
difference.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                          SUBCOMMITTEE RECESS

    Senator Landrieu. Thank you very much. We will stand in 
recess.
    [Whereupon, at 11:49 a.m., Wednesday, April 24, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]















        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2003

                              ----------                              


                         TUESDAY, JUNE 11, 2002

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:40 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Mary L. Landrieu (chairman) 
presiding.
    Present: Senators Landrieu and Hutchison.

                          DISTRICT OF COLUMBIA

STATEMENT OF ANTHONY A. WILLIAMS, MAYOR
ACCOMPANIED BY MARGARET KELLEMS, DEPUTY MAYOR FOR PUBLIC SAFETY

             OPENING STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Good morning and let me welcome everyone 
to the Committee on Appropriations, Subcommittee on the 
District of Columbia.
    We are pleased this morning to have two panels that will be 
testifying on the first local budget for the District of 
Columbia and the local funds budget. The second panel will be 
on the Anacostia Waterfront Initiative.
    Let me first welcome our panelists, Mayor Williams, 
Chairperson Linda Cropp, and Dr. Julia Friedman, who is the 
Deputy Chief Financial Officer, testifying on behalf of the 
CFO, Dr. Gandhi, who is unable to be with us this morning.
    Let me begin with just some brief opening remarks, Mr. 
Mayor, and then we will call on you in the order that you all 
were introduced. And I thank you for being a part of this 
hearing this morning.
    But as you all know, our main purpose is to discuss the 
District of Columbia's budget. I am particularly interested in 
how the city plans to build on the progress that we have made 
together so far in improving city services and balancing the 
budget. You have approved a budget, the Mayor and the council, 
of $3.7 billion, an increase of $168 million, a 4.7 percent 
increase above the 2002 fiscal year. All of the money in this 
budget, as you all well know, was raised from local revenue 
sources, income taxes, and sales and business taxes, fees and 
private funds. All cities collect these types of funds from 
their residents and visitors. The District should spend these 
funds in the same manner as any other city through a locally 
generated and approved budget. And that is what we are 
reviewing here this morning.
    I hope that my colleagues both in the Senate and the House 
will take a fair look at legislation that supports treating 
D.C.'s locally generated funds just as our home cities are 
treated.
    The city's elected leadership, including you, Mr. Mayor, 
and the members of the council, deserve congratulations for 
your hard work to create a fiscally responsible budget plan. 
Your noteworthy efforts should be congratulated.
    The fiscal stewardship by local officials is due in part to 
your leadership, as well as the strong partnerships that I 
think you have created here with Members of Congress. 
Washington, D.C., despite the setbacks of September 11, is 
enjoying the challenges ahead a renaissance of a certain sort.
    However, there are great challenges that we know we 
continue to face, and this is not an exhaustive list, but just 
to mention three. The public education system in the District 
of Columbia is still facing many serious challenges and 
obstacles in terms of implementing reforms in the classroom. I 
understand there are only one of three or four districts in the 
whole Nation that have been designated as not complying with 
new Federal standards required, as you know, under our new ESA 
reforms that have been put into place. Also, in that category 
special education costs seem to be expanding and we need to get 
a handle on that particular budget.
    The child welfare system, which you all have worked very 
closely with us on, is another area of concern, and obviously 
the long-term infrastructure and financial issues facing the 
District.
    So, despite these and other challenges, I remain 
optimistic. I want to congratulate you on your efforts.
    Unfortunately, our ranking member, Senator DeWine, will not 
be with us this morning, but Senator Hutchison is here with us, 
and we are hoping the Senator Reed will be able to step in for 
just a few minutes.
    I would like to ask Senator Hutchison now if she has any 
opening statements and we would like to keep those short so 
that we can get on to the panel and hear your presentation of 
the budget.
    [The statement follows:]
             Prepared Statement of Senator Mary L. Landrieu
    The Subcommittee will come to order. Good morning and welcome to 
this hearing of the District of Columbia Appropriations Subcommittee. 
This is the second Subcommittee hearing this year to aide us in 
developing the fiscal year 2003 appropriations bill. On March 21 we 
held a hearing on the budget requests of the two Federal agencies that 
serve the District: the District of Columbia Courts and the Court 
Services and Offender Supervision Agency (CSOSA). These agencies 
receive 100 percent of their resources in Federal funds. The purpose of 
today's hearing is to examine the budget of the D.C. government, funded 
primarily with locally-generated funds. The local budget supports all 
of the city services that impact the quality of life in the District. 
Our witnesses on the First Panel today are Mayor Anthony Williams, City 
Council Chairman Linda Cropp, and Dr. Julia Friedman, Acting Chief 
Financial Officer. I would like to thank all of the witnesses for 
coming today.
    There will be a second panel at today's hearing to discuss the 
City's plans for the development of the Anacostia River. This is an 
exciting project to turn the City's forgotten river into a valuable 
resource. I had the opportunity to tour the Southeast Federal Center 
site, part of the development plans along the river. The Federal Center 
will bring government offices, shops, and housing to the area right 
next to the Washington Navy Yard. The City is working with the Navy and 
a number of other federal agencies that own property along the 
Anacostia to beautify parks, add walking and biking trails, create 
nature preserves, and bring a host of other improvements to the river. 
I encourage my colleagues to stay for the second panel and learn about 
the revitalization of the waterfront. Our witnesses will be Mayor 
Williams; the City's Director of Planning Andrew Altman; and Jerry 
Johnson, the Director of the District's Water and Sewer Authority.
    Our main purpose for being here this morning is to discuss the 
District of Columbia local budget. And I want to discuss how the city 
plans to build on the progress made so far in balancing city services 
and balancing the budget. The City has approved a balanced budget of 
$3.78 billion to fund its operations and services in fiscal year 2003, 
an increase of $168 million or 4.7 percent above the 2002 fiscal year. 
This budget covers local funding for local programs like public safety, 
education, public works, parks and recreation. All of the money in this 
budget was raised from local revenue sources: income taxes, sales and 
business taxes, fees and private funds. These are the same type of 
funds collected by any other city in the country from their residents 
and tourists and the District should spend these funds in the same 
manner as any other city through a locally-generated and approved 
budget. The District's local-funds budget should not be tampered with, 
which is why I have supported budget autonomy for the District in 
authorizing legislation this year. I hope my colleagues will take a 
fair look at that legislation and support treating D.C.'s locally-
generated funds just as their home cities are treated.
    However, the Congress, in its oversight capacity is interested in 
how the local budget is developed and how it best serves the 
partnership we have: to maintain a balanced budget and excellent 
services to the citizens and visitors to the District. In addition, the 
Congress has the responsibility to see that Federal funds provided to 
the District are used wisely and appropriately. Beyond the small amount 
of Federally-appropriated funds, the City receives Federal grants and 
formula funds totaling $1.7 billion, about 30 percent of the total 
spending for the year that are directed toward particular purposes. All 
together, the City's fiscal year 2003 budget totals $6.56 billion.
    This budget deserves a high degree of respect because the District 
has achieved the Congressional requirements of the Control Board Act, 
so this is the first budget in several years that was created and 
approved by the City without a Control Board in effect. The process was 
driven and directed by the locally-elected representatives of the 
citizens of Washington, D.C. without the involvement of the Control 
Board. This budget opens a new chapter of fiscal responsibility in the 
City's history.
    I want to congratulate Mayor Williams and Council Chairman Cropp, 
and all of the other elected officials involved for their hard work to 
create a fiscally-responsible plan to meet their citizens's needs. I 
would also like to recognize the extraordinary work of the Chief 
Financial Officer, Natwar Gandhi for his efforts to ensure that the 
City has accurate information about the status of its finances, so that 
we can examine this budget with confidence, and for creating a true 
picture of the City's health. Dr. Gandhi is not able to be here today, 
we hope he is doing well, and we welcome Dr. Julia Friedman to testify 
on behalf of the Office of the Chief Financial Officer.
    Due in part to the fiscal stewardship of local officials, 
Washington, D.C. has enjoyed a renaissance. People are beginning to 
move back into the City after years of declining population. The real 
estate market is booming. Crime is far below the levels of ten years 
ago. Throughout the region, the City has become a favored destination 
for shopping, dining, and entertainment. It has even begun to recover 
from the shock of September 11.
    The City does face serious challenges that may threaten its 
continued budgetary and economic success, however. Public education in 
the District of Columbia has severe problems implementing reform in the 
classroom. Special education costs threw the Public Schools budget into 
deficit in fiscal year 2002. Part of this is certainly due to the fact 
that many families seek legal redress to have their children placed in 
costly private schools for special education services. But there is 
also a management failure at work here: the failure to collect all of 
the Medicaid reimbursements due to the District Public Schools for 
special education has exacerbated this problem. Nor has the school 
system developed adequate special education programs as an alternative 
to private placements. I am particularly interested to learn about the 
city's proposed Medicaid Special Education Reform Fund and how the city 
and school district will work together to make the most of this unique 
funding opportunity.
    The child welfare system is another area of concern. Too many 
children are, staying in foster care situations for too long at great 
expense, or they are placed in dangerous settings. Last year, Congress 
established a Family Court for the District that will hopefully improve 
matters, but the City still needs more social workers and better 
placement screening. This Subcommittee invested in the from of the 
Family Court, and has contributed to hiring social workers who will 
support children as they maneuver through the Courts to permanency. I 
look forward to an update from the City on how the funds provided in 
fiscal year 2002 are being expended.
    Some of the long term fiscal problems facing the District are due 
to the unique status the City has as the Nation's Capital. More than 
half of the City's property cannot be taxed because it is owned by the 
Federal government or other tax-exempt entities. Much of the income 
earned in the City is not subject to taxation. The City still pays for 
a variety of functions that could be considered ``state'' 
responsibilities. Other cities do not support services to the same 
degree or in the same manner. Public education will be 21 percent of 
the District's fiscal year 2003 local budget, an expense many other 
cities do not have. We reviewed the budgets for Seattle, New Orleans, 
and Milwaukee all about the same size as the District and none of them 
had a line item in their budgets for schools. Education is often a 
shared cost between the state and possibly direct local taxes or bonds.
    I am also interested in the state of infrastructure in the 
District. Every city suffers from degrading schools and government 
buildings. However, the District, and the Congress before it, have 
continually deferred capital improvements, maintenance was deprived due 
to poor management, leaving every aspect of infrastructure lacking. The 
result is not only a depleted capital stock, but beleaguered citizens 
seeking clean parks, safe roads, a sewer system that can handle heavy 
rain and modernized schools.
    The General Accounting Office is examining these factors, believed 
to reflect a structural imbalance in the District, and a report is 
forthcoming. I had hoped that GAO's work would be finished in time for 
this hearing, but the detailed analysis required to make this report 
useful to Congress will take longer than anticipated.
    Despite all the difficulties that remain, I believe that the City 
is up to the challenge. The Chief Financial Officer has taken 
appropriate steps to resolve some $250 million in spending pressures in 
fiscal year 2002. The Mayor and the City Council took the brave step of 
suspending a scheduled income tax rate reduction in order to have 
adequate resources on hand in the future to meet the City's needs. In 
this budget, the City has put off some capital projects in order to 
make ends meet. These are the kinds of responsible steps any group of 
city officials must take in meeting fiscal challenges.
    I believe the District of Columbia has a bright future. The 
renaissance will continue and expand to reach all of the city. I 
commend all of the elected officials for their focus on the City's 
continued financial success. Mayor Williams has tackled the most 
difficult management problems and is working to fix them. The Council, 
under the leadership of Chairman Cropp, has shown its seriousness of 
purpose by getting the budget out on time and by its active oversight 
over city operations. Natwar Gandhi and his team have fixed a broken 
revenue system and are doing a terrific job advising the Mayor and the 
Council on the City's overall fiscal health. Most importantly, all of 
these people are working together to continue the Washington success 
story. With sound fiscal management and a vision to revitalize areas 
like the Anacostia, Washingtonians can be proud of the work that is 
being done by their elected representatives.
    Thank you all for your time today. I look forward to hearing from 
our witnesses.

               STATEMENT OF SENATOR KAY BAILEY HUTCHISON

    Senator Hutchison. Thank you, Madam Chairman.
    Welcome, Mayor, and welcome, council leader Linda Cropp.
    I want to say that I am very interested in hearing your 
testimony. I have been looking at what you have been doing, and 
I am very pleased, in general, with the way the city is going. 
You know that when I was chairman of this subcommittee, we 
created a cash reserve system that we hoped would be solid so 
that the city would have its rainy day funds in the event of an 
emergency. Certainly with the hard economic times we have had 
this year, you have had to dip into those funds, and I am glad 
that we had a bit of an excess.
    Also, my purpose was to strengthen the city's bond rating 
so that the costs of borrowing would be less and it would save 
borrowing costs in the long run. Therefore, I am pleased to see 
that you are on schedule for filling the reserve fund, but I 
would also like to have your testimony about how you are going 
to refill the money used from reserve funds last year.
    Also, I am very concerned about the situation with the 
lifting of the caps on the school system's attorney's fees last 
year. As you know, I fought this because I felt that the 
millions that were put into attorney's fees could go for 
serving the school children in the District. I am sorry to say 
that lifting the caps will cost the city's school district 
millions of dollars. I would like to pursue this issue with you 
to see what your view is and if you believe that we should do 
something to try to keep some kind of cap on attorney's fees 
without jeopardizing a child's or parent's right to sue, but at 
the same time making sure that it does not become a business. 
The Washington Post certainly pointed out that it has become a 
business.
    I thank you, Madam Chairman, and look forward to continuing 
to work with the city.
    Senator Landrieu. Thank you.
    Mr. Mayor, if we could start with your opening statements, 
and we are asking you to keep them to 5 minutes each, and then 
we will have a round of questions.

                 STATEMENT OF MAYOR ANTHONY A. WILLIAMS

    Mr. Williams. Well, thank you, Chairman Landrieu and 
Senator Hutchison. What I will do is I will submit my testimony 
for the record and try to abbreviate my testimony and give you 
the highlights of it here in my opening statement so we can get 
to questions and answers that I look forward to eagerly.
    This is the first budget that we have developed after the 
sunset of the Control Board, and I am proud to report that it 
is a balanced budget. It reflects the priorities of our 
citizens and begins a new era of cooperation among locally 
elected leaders of the District of Columbia. At a time when 
economic and security challenges face our city and our Nation, 
elected leaders must be especially disciplined and resourceful 
and must make tough decisions among competing priorities. This 
budget reflects such choices. It includes small but important 
investments in areas of high priority to citizens. It includes 
sacrifices in other areas, as needed, to preserve the city's 
strong financial recovery.
    Throughout our budget formulation process, three central 
goals guided our decision making at this significant time in 
the District's development: one, investing in key priorities; 
two, reducing spending; and three, obtaining relief from 
Federal barriers to the District's financial recovery.
    In the area of investing in key priorities, we invest in 
priorities articulated by thousands of residents and citizens 
at our Citizen Summit last October, as well as top priorities 
developed through 39 neighborhood planning sessions across the 
city.

                           BUDGET PRIORITIES

    And we submit to you today a budget that includes modest 
investments in education, children, infrastructure, and 
emergency preparedness. A few of the highlights.
    A $36.7 million increase for public schools to support 
mainstream classroom teaching, including funding for a pay 
increase of 20 percent for District teachers over the next 3 
years.
    An $11.4 million increase for children and family services 
agencies as part of our commitment to raising the standard for 
services for our most vulnerable children, and $5 million for 
the Children and Youth Investment Trust, which provides a wide 
array of child care and other support services for citizens.
    A $45 million commitment in the capital budget for the 
Unified Communications Center to begin rebuilding the city's 
emergency response infrastructure.
    A $13 million net increase for the Department of Public 
Works, primarily for a trash disposal contract, $4.5 million; 
equipment lease debt service for vehicle purchases, around $3 
million; increased parking enforcement operations, which I hear 
a lot about, $2 million; approved pay raises of $3 million.
    And finally, a $6 million increase for WMATA.

                          RESPONSIBLE SPENDING

    In the area of reducing spending, the District no longer 
suffers from rampant overspending by agencies. There remain, 
however, two troubled programs that really drive the cost 
increases in this government above acceptable levels, and they 
are Medicaid and special education. They require immediate 
reform in order to compensate for decades of operational 
neglect.
    The District is wrestling with Medicaid for the same 
reasons as other States, rising health care costs, increased 
enrollment, and the challenges of cost containment. To address 
this issue, I am focusing resources on this program in the same 
way we focused on solving the problems with receiverships, 
which I am happy to say are now ending across the city. 
Agencies administering these programs will be held accountable 
for producing, at a minimum, $50 million in annual savings by 
the beginning of fiscal year 2005. I also expect to appoint a 
director of public provider Medicaid reform to coordinate the 
very complex functions across agency programs that are needed 
to bring this issue under control.
    Until the District achieves these savings, however, the 
tobacco securitization funds will be used to cover these 
health-related cost increases. Initially we wanted to use these 
tobacco funds for new health programs and investments, but 
given that Medicaid cost increases are in part due to the 
expansion of health services, we found it a reasonable way to 
use them for a limited time.
    Special education in the District has mushroomed into a 
dangerous drain on the District of Columbia Public Schools' 
budget and the resources of the District as a whole. We are 
spending 30 percent of our schools budget on 16 percent of the 
school body, mostly because the District does not have the 
capacity to provide for students with special education needs 
within the city and, I might add, within the system. The 
transportation costs alone are exorbitant. The city contributed 
an extra $90 million to manage special education in fiscal year 
2002, and it is providing about that much in fiscal year 2003.
    In the same way we have tackled the receiverships and other 
financial and management crises, we will focus the highest 
level of this administration's resources on fixing this problem 
in partnership with DCPS and the council. The public schools 
have developed a plan to reform special education over the next 
3 to 5 years. The plan focuses on seven key points: building 
understanding and acceptance of local schools' responsibility 
to meet the needs of special education; managing the use of 
non-public school special education providers; strengthening 
the schools' internal special education capacity; restructuring 
and improving management and operations to establish cost 
management measures; effectively managing transportation; 
establishing new legal strategies to contain growing attorney's 
fees, and I might say litigation, which is why out of whack or 
out of synch with the size of our school population; building 
creative partnerships with other agencies within the District 
government. And I believe that addressing special education and 
addressing Medicaid, we can begin to bring our costs down to an 
acceptable level and can meet our commitment to the council and 
to our citizens to reduce overall the level of operations by 
the District government, $150 million by 2005.
    I also might add that we are on track by 2002 in meeting 
our 7 percent cash reserve, are on track in meeting our budget 
reserve obligations, and as part of that on a local level, I 
think meeting our $50 million budget reserve as well.

                           LONG-TERM RECOVERY

    I want to talk very briefly about what I think are Federal 
barriers to the District's fiscal long-term recovery.
    One, I urge the Congress' adoption of the Fiscal Integrity 
Act of 2002, which would, in addition to providing for the 
necessary independence and autonomy for the CFO and the IG, 
give the District autonomy over its local funds budget, which I 
think is important to give us the competitive standing that we 
need to compete as a center of a growing region and a global 
economy.
    I also believe that the Congress should give favorable 
consideration to Congresswoman Eleanor Holmes Norton's 
proposal, the Fair Federal Compensation Act of 2002, which 
would give the District a durable, longstanding, and yet 
elastic formula of Federal contribution to meet a growing set 
of demands that are regional and Federal, international even in 
nature that are imposed on our city with a very limited tax 
base.
    That sums up my remarks, an abbreviation of them. Again, 
the full testimony has been submitted for the record, and as 
always, I look forward not only to answering your questions, 
but look forward to working with this committee, as we have in 
the past, to make our city the shining star we know it can be.
    [The statement follows:]
            Prepared Statement of Mayor Anthony A. Williams
    Good afternoon Chairman Landrieu, Senator DeWine, and members of 
the subcommittee. I am very pleased to be here today to discuss the 
District's fiscal year 2003 Budget and Financial Plan.
    This is the first budget developed after the sunset of the control 
board, and I am proud to report it is balanced. This budget reflects 
the priorities of our citizens and begins a new era of cooperation 
among the locally elected leaders of the District of Columbia. At a 
time when economic and security challenges face our city and our 
nation, elected leaders must be especially disciplined and resourceful, 
and must make tough choices among competing priorities. This budget 
proposal reflects such choices. It includes small but important 
investments in areas of high priority to citizens, and it includes 
sacrifices in other areas as needed to preserve the city's strong 
financial recovery.
    Throughout our budget formulation process, three central goals 
guided our decision-making at this significant time in the District's 
development:
  --Investing in key priorities
  --Reducing spending
  --Obtaining relief from federal barriers to the District's financial 
        recovery
    By meeting these goals, I believe the District government will 
ensure that city services and neighborhoods will continue to improve, 
while maintaining the highest standards of fiscal responsibility.
                      investing in key priorities
    The District is undergoing a tremendous renaissance in our 
neighborhoods and downtown, while the delivery of city services has 
greatly improved. However, because too many of our neighborhoods and 
citywide infrastructure still suffer from the effects of decades of 
neglect, much work remains to be done.
    This budget invests in priorities articulated by thousands of 
residents at our second Citizen Summit last October as well as the top 
priorities developed through 39 neighborhood planning sessions across 
the city. These priorities include improving investing in neighborhood 
services, providing a safety net for our most vulnerable citizens, 
improving public schools, and restoring the Anacostia River and the 
neighborhoods along its banks.
    The budget we submit to you today includes modest investments in 
education, children, infrastructure, and emergency preparedness. Here 
are a few of the highlights:
  --A $36.7 million increase for DCPS to support mainstream classrooms, 
        including funding for a pay increase of 20 percent for District 
        teachers over the next 3 years;
  --A $11.4 million increase for Child and Family Services as part of 
        our commitment to raising the standard for services for our 
        most vulnerable children; and $5 million more for the Children 
        and Youth Investment Trust, which provides a wide array child 
        care and other support services for our citizens;
  --A $45 million commitment in the capital budget for the Unified 
        Communications Center to begin rebuilding the city's emergency 
        response infrastructure;
  --A $13 million net increase in DPW primarily for trash disposal 
        contract ($4.5 million), equipment lease debt service for 
        vehicle purchases ($2.9 million), increased parking enforcement 
        operations (2 million), approved pay raises ( $3.3 million); 
        and
  --A $6 million increase for WMATA.
                           reducing spending
    The District no longer suffers from rampant overspending by 
agencies. There remain, however, two troubled programs--Medicaid and 
Special Education--that require immediate reform in order to compensate 
for decades of operational neglect.
    The District is wrestling with Medicaid for the same reasons as 
other states: rising health care costs, increased enrollment, and the 
challenges of cost containment. To address this issue, I am focusing 
resources on this program in the same way we focused on solving the 
problems with receiverships. Agencies administering these programs will 
be held accountable for producing, at a minimum, $50 million in annual 
savings by the beginning of fiscal year 2005. I also expect to appoint 
a Director of Public Provider Medicaid Reform to coordinate the very 
complex functions across agency programs that are needed to bring this 
issue under control.
    Until the District achieves these savings, however, the Tobacco 
Securitization funds will be used to cover these health-related cost 
increases. Initially, we wanted to use these tobacco funds for new 
health programs and investments, but given that Medicaid cost increases 
are in part due to expansion of health services, we found it reasonable 
to use them for a limited time.
    Special education in the District of Columbia has mushroomed into a 
dangerous drain on District of Columbia Public Schools' budget and the 
resources of the District as a whole. We are spending 30 percent of our 
schools' budget on 16 percent of the student body--mostly because the 
District does not have the capacity to provide for students with 
special educational needs within the city. The transportation costs 
alone are exorbitant. The city contributed an extra $90 million to 
manage Special Education in fiscal year 2002 and is providing about 
that much in fiscal year 2003.
    In the same way that we have tackled the receiverships and other 
financial and management crises, we will focus the highest level of 
this administration's resources on fixing this problem, in partnership, 
with DCPS and the council. DCPS has developed a plan to reform special 
education over the next three to five years. The plan focuses on seven 
key points:
  --Building understanding and acceptance of local schools 
        responsibility to meet the needs of special education children;
  --Managing the use of non-DCPS special education providers;
  --Strengthening DCPS' internal special education capacity and 
        offerings;
  --Restructuring and improving management and operations to establish 
        cost management measures;
  --Effectively managing transportation;
  --Establishing new legal strategies to contain growing attorney fees; 
        and
  --Building creative partnerships with other agencies within District 
        government.
    I believe that with the full support of the District's leadership, 
we will turn around special education service delivery in the District.
                             fiscal resolve
    Over the past five years, the District has demonstrated its will to 
solve its financial crisis and the ability to continuously strengthen 
its financial health. During the control period--and since its end--
District citizens and leaders have steered the city cautiously and 
responsibly. This leadership produced balanced budgets, clean financial 
audits, investment-grade bond rating, and hundreds of millions of 
dollars in financial reserves. The District's response to the fiscal 
challenges emanating from September 11 and the overall economic 
slowdown is testament to our commitment to fiscal responsibility and 
our ability to make expeditious financial decisions.
    I am pleased that Congress has recognized the District's ability to 
manage its finances, and as such, has introduced the ``Fiscal Integrity 
Act of 2002'' to permanently remove locally generated tax dollars from 
the federal appropriations process. The District's local budgeting 
process is immensely complicated by the need to work through 
appropriation subcommittees in both the House and Senate--and all of 
this effort is exerted to approve the spending our local tax dollars. 
This lengthy process greatly complicates our revenue estimation and 
routinely delays the beginning of our fiscal year.
    This legislation will also permanently authorize the city's Chief 
Financial Officer (CFO) to maintain independent monitoring and control 
over essential financial functions. The CFO plays a critical role in 
providing good and open government to our residents, and I strongly 
urge Congress to support this legislation and move it forward.
    In addition to passing the Fiscal Integrity Act, there remains a 
second set of federal barriers impeding the full financial recovery of 
the District.
         federal barriers to the district's financial recovery
    When it comes to delivering human service, public safety service, 
and other services the federal government treats the District as a 
state. However, the federal government places major restrictions and 
demands on the District that no state must face. Specifically, the 
federal government:
  --Does not pay property taxes on the buildings it occupies, which 
        cover 42 percent of the District's taxable area;
  --Requires a height restriction on all buildings in the District, 
        which further limits the city's tax base;
  --Requires major municipal services for the large presence of federal 
        events, property, and employees--services that are funded by 
        local residents; and
  --Does not allow the District to tax the income of non-resident 
        workers.
    Because of this disparate treatment, the District faces a 
structural imbalance between growing expenditures and limited revenues. 
Experts--including former members of the control board--estimate this 
imbalance to be $400 to $500 million annually, and predict it will 
threaten our financial recovery and operational improvements.
    The District has made major sacrifices to balance our budget 
despite its inherent imbalance. These sacrifices include delayed 
improvements to our schools, our transportation system, sewer system, 
emergency preparedness projects, and other infrastructure needs. 
District leaders will continue to balance its budget, regardless of the 
sacrifices required. Our agencies are working to root out inefficiency 
and identify savings, but even with savings, federal compensation is 
necessary because no local government could solve this problem on its 
own--a problem caused by the federal government's restrictions and need 
for services.
    The federal government must play an important role in removing the 
barriers to the District's continued financial recovery. This can be 
accomplished by: removing the limitations on our tax base, ending the 
uncompensated service demands, and providing compensation for this 
disparate treatment.
    Congresswoman Eleanor Holmes Norton has introduced the Fair Federal 
Compensation Act of 2002, which will provide federal compensation to 
the District so it can continue to provide improved services to local 
taxpayers, commuters, and the federal government, while maintaining its 
hard-earned fiscal stability. I strongly encourage the Congress to 
introduce and pass similar legislation.
          a critical juncture in district-federal partnership
    We have the opportunity to make our Nation's Capital a shining 
example to the world of what America can achieve. I know you share our 
vision of Washington as the premier world-class city.
    The President, Congress, and District leadership have demonstrated 
strong cooperation and mutual commitment to the well being of the 
nation's capital city. We appreciate your support in carrying forward 
this spirit of cooperation as we pursue enactment of the District's 
fiscal year 2003 budget and of the Fiscal Integrity Act.
    Finally, the District is truly on the verge of achieving its full 
potential as the heart of this vibrant region. Yet, as the world's 
leading democracy, the United States does not grant voting rights to 
the residents of its capital city. Although full voting representation 
is a fundamental right held by every citizen, the people of the 
District have been disenfranchised for almost 200 years. This body has 
acted on behalf of disenfranchised women, African Americans, Latinos, 
Native Americans, and other groups, and now the people of my city look 
to you to act on behalf of all disenfranchised citizens of our Nation's 
Capital by passing legislation to reverse this injustice.
    This concludes my testimony. I thank you for the opportunity to 
present our priorities to you today, and I would be happy to respond to 
any questions you may have.

    Senator Landrieu. Thank you, Mr. Mayor, for those very 
concise remarks, and we appreciate your highlighting some of 
the areas that this committee and you share an interest in.
    Mrs. Cropp?
STATEMENT OF LINDA W. CROPP, CHAIRMAN, COUNCIL OF THE 
            DISTRICT OF COLUMBIA
    Ms. Cropp. Thank you. Good morning, Chairman Landrieu and 
Senator Hutchison. It is a pleasure to be here before you again 
testifying on behalf of the citizens of the District of 
Columbia.
    The fiscal year 2003 budget is another fiscally sound and 
responsible budget that marks a monumental stride in our city's 
home rule. It exemplifies our readiness and capacity to govern 
ourselves. This budget is a reflection of us as one good 
government that stood united, resolved, and resolute to turn 
our abysmal financial situation around, got rid of the 
Financial Authority, made some very tough decisions, and 
legislated another balanced and financially sound product.
    Fiscal discipline has always been and will be a top 
priority of our legislative agenda. We demand it of the 
executive branch and the council practices it ourselves. The 
various forms of fiscal discipline from rainy day savings, 
financial safeguards, insurance, and investment policies, 
economic triggers to PAY-AS-YOU-GO funds, that we have demanded 
of and imposed on ourselves in the past several years have 
yielded high returns on investments.
    Case in point. In spite of the temporary setbacks suffered 
after 9/11 following the recession and the war against 
terrorism, the robust fiscal health of the city has provided an 
important buffer against the economic downturn. As you will 
see, this fiscal year 2003 budget reflects our priority to 
guarantee that residents are provided benefits, services, and 
programs, basic municipal needs that are critical in making the 
District a very special place to live.

                        LEGISLATIVE ACHIEVEMENTS

    As this council period comes to a close, we are proud to 
say that in addition to fiscal discipline that we imposed on 
ourselves and the executive branch, we have achieved other 
important goals set forth on the agenda. They are the 
revitalization of our neighborhoods, the investment in our 
youth, protection of vulnerable citizens, oversight of the 
executive performance and service delivery, promotion of 
economic stability and growth, and we are still looking forward 
to the expansion of home rule and democracy.
    I have a copy of our legislative agenda titled At Work for 
a Better Washington and would like to provide this as part of 
the record to my testimony today.
    The council worked diligently with the Mayor in aligning 
both sets of priorities and put together a fiscally sound and 
responsible spending plan. The operating budget funds basic 
city services and programs. The capital budget, as a result of 
stringent oversight by the council, was realigned. For example, 
funds were redirected and targeted toward projects with higher 
priority and critical needs such as schools for children, 
improving blighted properties in the neighborhoods, and 
enhancing existing facilities for better public and council 
interaction.
    The council submitted earlier 12 committee reports, and we 
would like for that to be a part of the record of this 
testimony too.
    To meet the goals of our legislative agenda, schools 
continue to receive full funding. To protect our vulnerable 
citizens, the council found $7.3 million to fund the Interim 
Disability Assistance Program for Disabled Adults. To invest 
for future generations, capital and operating dollars were 
added for our young children to improve their studying 
environments and broaden their academic and vocational skills. 
We scrubbed, scrounged, and saved another $10 million for long-
term investment in the Tobacco Trust Fund. This is in addition 
to the $33 million that we have painstakingly saved for the 
past 2 years.
    At this juncture I would like to emphasize how the council 
exercised fiscal prudence with additional money that became 
available. It chose to put in place a budget stabilization 
function, also known as PAY-GO, for critical, one-time 
expenditures. First, this budget approach allows the District 
to spend funds on necessary items to improve service delivery 
for the residents, and second, it controls the base budget and 
restricts agencies from overspending and ballooning their 
budget. Third, it prevents the tendency simply to plow more 
money into ongoing programs without constraint and needs. And 
lastly, it helps us by not having to pay debt service on money 
that we would borrow for capital projects.
    In addition, the council will continue to phase in the tax 
reductions associated with the Tax Parity Act of 1999, albeit 
with some modifications. In agreement with the Mayor, the 
council will reduce the corporate tax rate from 9.975 to 9 
percent. When the CBO released a modest economic growth rate of 
2.2 percent this winter, the personal income tax rates were 
judiciously postponed. Should the District's economic outlook 
continue to improve, the council does intend to phase in the 
continuation of the individual income tax at a later date.
    When we looked at the spending, we wanted to make sure that 
we did not continue to spend, and there was a cap that was 
placed in for future years at the 4 percent level.
    As you consider our appropriations request, we ask that you 
support and pass the 2003 budget in time for the start of the 
new fiscal year and before adjournment of the 107th Congress. 
We are eagerly anticipating that you will pass the supplement 
which is pending before you, which actually you are working on.
    We would like to thank you for allowing the city to use its 
own funds for the expansion of the health benefits for domestic 
partners. We ask that you continue this good faith action by 
respecting our own local laws and decisions and urge that no 
extraneous or new riders be inserted into our budget bill. Let 
me emphasize that this appeal for no anti-democratic riders 
extends to a recent, unprecedented effort to deal with zoning 
issues.
    Let me also ask if in this budget, at no cost to the 
Federal Government, if the District would be allowed to carry 
over funds that we have not spent. Once we reach our cash 
balance, which we hope to reach this year much earlier than we 
had anticipated and certainly a larger amount than any other 
government, we would like to be able to carry over funds from 1 
year to the other. No other government is not allowed to do 
that. In fact, by not allowing us to do that, it sort of says 
to folks, spend, and that's not the message we want to send to 
our agencies. So, we would like to carry them over.
    Finally, we urge you to support this monumental budget 
because it is a true home rule budget put together by local 
leadership. This council-Mayor-public citizen process, besides 
complementing the efforts in our crafting a spending plan that 
will make Washington, D.C. a much better place, truly reflects 
the beauty of our democratic principles at work. Like Congress, 
the council remains staunch in its legislative role and stands 
committed to oversee the executive branch operations. We will 
keep expenditures and revenues in check. We will respond 
swiftly to our constituents and their needs, and we will work 
with the Mayor, Congress, and the surrounding governments to 
achieve mutually shared goals. We will always produce good 
responsible budgets that invest dollars for the District and 
leave a legacy for future generations.
    And thank you very much.
    [The statement follows:]
                 Prepared Statement of Hon. Linda Cropp
    Good morning, Chairman Landrieu and members of the Senate 
Appropriations Subcommittee on the District of Columbia. I am pleased 
to be here to testify on the District's fiscal year 2003 budget.
                              introduction
    The fiscal year 2003 budget is another fiscally sound and 
responsible budget and marks a monumental stride in our city's history 
of home rule. This is the first budget that we, the locally elected 
leaders, have crafted by ourselves AND entirely within the Home Rule 
process in a post-Control Board period. This budget is proof that the 
Council and the Mayor can work together and produce a good spending 
plan that continues to make the District a better place to work, live, 
visit, and raise a family. Most importantly, this budget, which came at 
the heels of the Council's reoccupation of its own City Hall, marks a 
new era for the District. It exemplifies our readiness and capacity to 
govern the city ourselves. Moreover, it is a reflection of us as one 
good government that stood united, resolved, and resolute to turn our 
abysmal financial situation around, got rid of the Financial Authority, 
made some tough decisions, and legislated another balanced and 
financially sound ``product''.
    Fiscal Discipline.--This has always been and will always be a TOP 
PRIORITY on our legislative agenda even as the Council Period XIV comes 
to a close. We not only demand it of the Executive Branch, we practice 
it ourselves. The various forms of fiscal discipline--from rainy day 
savings, financial safeguards, insurance and investment policies, 
economic triggers to PAYAS-YOU-GO funds--that we have demanded of, and 
imposed on ourselves in the past several years, have yielded high 
``Returns On Investments''.
    Case in point . . . inspite of the temporary setback the city 
suffered after 9/11, followed by the recession and the war against 
terrorism, the robust fiscal health of the city has provided an 
important buffer against the economic downturn. As you will see, this 
fiscal year 2003 budget reflects our priority to guarantee that 
residents are provided benefits, services, and program--basic municipal 
needs that are critical in making the District a special place to live.
                           council period xiv
    As the Council comes to the close of Period XIV, we are proud to 
say that in addition to the fiscal discipline that we imposed on 
ourselves and the Executive Branch, we have achieved other important 
goals set forth in our agenda. These are:
  --Revitalization of our Neighborhoods
  --Investment in our Youth
  --Protection of our Vulnerable Residents
  --Oversight of the Executive Performance and Service Delivery
  --Promotion of Continued Economic Stability and Growth
  --Expansion of Home Rule and Democracy
    I have here a copy of our Legislative Agenda titled At Work for a 
Better Washington and would like to provide this for your information 
as it elaborates on the various measures that the Council implemented 
to achieve these priorities.
                    the council/mayor budget process
    In December of last year, the Council passed the Fiscal Year 2003 
Budget Submission Requirements Resolution of 2001. It established March 
18 as the date by which the Mayor shall submit to the Council the 
proposed budget. The Mayor transmitted his budget on March 18 and the 
Council acted on it within the 50 days as required by the Home Rule 
Charter. During this 50-day period, the Council worked diligently with 
the Mayor in aligning both sets of priorities and, put together a 
fiscally sound and responsible spending plan. The operating budget 
funds basic city services and programs. The capital budget, as a result 
of stringent oversight by the Council, was realigned. For example, 
funds were redirected and targeted toward projects with higher priority 
and critical needs, such as schools for the children, improving 
blighted properties in the neighborhoods, and enhancing existing 
facilities for better public and Council interaction.
               the council/public citizen budget process
    An integral part of the Council budget process is public input and, 
as such, many hearings on the fiscal year 2003 budget were held. The 
process gave the citizens and our workforce an opportunity to comment 
and critique programmatic and funding needs and agency performances 
that impact them. This feedback is invaluable because it contributed 
and culminated in the decisions and recommendations of each committee 
in the mark-up of the budgets. Following a review of the committee 
marks, the Committee of the Whole made additional recommendations in 
order to bring the budget into balance. At the end of this public 
process--which translated into 67 public hearings or about 282 hours--
we incorporated findings from our citizens and employees into the 
budget.
    I've here copies of the Council's committee reports and the fiscal 
year 2003 Budget and I would ask that they be made part of the record.
               highlights of the fiscal year 2003 budget
    When the Mayor submitted the budget to us, he had proposed a local 
budget of $3.74 billion, an increase of $168 million or 4.7 percent 
over the revised fiscal year 2002 budget as amended by the fiscal year 
2002 supplement, the reallocation of reserve funds, and the 
reprogramming. On May 7, the Council approved the $6.4 billion spending 
plan that provides adequate funding for basic city services and 
programs. To meet the goals in our legislative agenda, schools continue 
to receive full funding. To protect our vulnerable residents, the 
Council found $7.3 million to fund the Interim Disability Assistance 
program for disabled adults. To invest for future generations, capital 
and operating dollars were added for our young children to improve 
their studying environments and broaden their academic and vocational 
skills. We scrubbed, scrounged, and saved another $10 million for long-
term investment in our Tobacco Trust Fund. This is in addition to the 
$33 million that we have painstakingly saved from the past two years.
                          pay-as-you-go funds
    At this juncture, I would like to emphasize how the Council 
exercised fiscal prudence when additional money becomes available. It 
chose and put in place, a budget stabilization function, also known as 
the PAY-GO for critical one-time expenditures. First, this budget 
approach allows the District to spend funds on necessary items to 
improve service delivery for the residents. Second, it controls the 
base budgets and restricts agencies from overspending and 
``ballooning'' their budgets. Third, it prevents the tendency to simply 
plow more money into ongoing programs without constraint and need.
                         tax parity/tax relief
    In addition, the Council will continue the phase-in of tax 
reductions associated with the Tax Parity Act passed in 1999, albeit 
with some modifications. In agreement with the Mayor, the Council will 
reduce the corporate tax rate from 9.975 percent to 9 percent. When the 
CBO released a modest economic growth rate of 2.2 percent this winter, 
the personal income tax rates were judiciously postponed. Should the 
District's economic outlook continue to improve at a rapid rate, the 
Council intends to phase-in the individual income tax reductions 
starting in 2004. Given our amazing financial turnaround, the 
revitalization of the city, and the resilience of our economy, we are 
very optimistic that the ``renaissance'' of Washington will come full 
circle once we bring our taxes in-line with our neighbors in the next 
few years. Lastly, let us not forget the tax relief we gave our 
residents in this budget when we capped real property tax assessment 
increases at 25 percent for all owner-occupied housing.
                            cap on spending
    Having pulled ourselves out of the financial abyss of the mid-
1990s, the Council has always remained vigilant fiscally. Concerned 
about the unchecked growth in spending, we decided to compare the 
growth rate of local spending and revenues from fiscal year 1997 to 
2001. This analysis shows that based on a 3-year growth rate from 1999 
to 2001, the District has experienced an average of 9.9 percent growth 
(see attached chart)! Concerned about the spike in growth spending in 
this current administration, the Council passed an amendment that would 
cap the expenditures at 4 percent for the fiscal year 2004 budget. In 
taking this action, the Council believes that while we do not take the 
good fortunes of the city for granted, we too must prevent a fiscal 
train wreck when we see it coming.
         federal financial assistance for structural imbalance
    According to a study done by the McKinsey Group, the District could 
face a budget deficit of at least $500 million unless corrective and 
preventive actions are taken. While we do our share to contain 
spending, we ask that the Committee provide additional financial 
assistance to compensate for the structural constraints and financial 
burdens that the District bears as the Nation's capital. This 
structural imbalance is also supported by the analysis done by the 
Greater Washington Society of CPAs (GWS of CPAs) on the District's 
share of revenues from the federal grants. Compared to the other 50 
states, 32 states received a greater portion of federal funds for their 
general fund than the District does. Given our long and historical 
federal/local relationship, the ratio of federal grants to the District 
General Fund revenue is not fair and hardly equitable (see table 
attached).
                               conclusion
    As you consider our appropriations request, we ask that you support 
and pass the fiscal year 2003 budget in time for the start of the new 
fiscal year and before the adjournment of the 107th Congress. We are 
eagerly anticipating that you will pass the Fiscal Year 2002 Supplement 
which is pending before you. As fellow legislators, we recognize that 
disparate issues often become linked in unpredictable ways. Under 
current law, our budget requires Congressional approval. Your action on 
this Supplement, which the Council passed in early April, would greatly 
support the city's budget process.
    We also would like to thank you for allowing the city to use its 
own funds for the expansion of health benefits for domestic partners. 
We ask that you continue this good faith action by respecting our own 
local laws and decisions and urge that you not include any extraneous 
or new riders in our budget bill. Let me emphasize that this appeal for 
``no anti-democratic riders'' extends to a recent, unprecedented effort 
by several of your colleagues to interfere in a local zoning matter for 
which local administrative appeals have not even been exhausted and 
about which litigation is pending in the courts. Please let the locally 
elected and locally appointed officials who represent the citizens of 
the District of Columbia decide local issues--such as those pertaining 
to the District's zoning and permitting process.
    Finally, we urge you to support this ``monumental'' budget because 
it is a ``true'' Home Rule budget put together by the local leadership 
(and without the Financial Authority). This Council/Mayor/Public 
Citizen budget process--besides complementing the efforts in our 
crafting a spending plan that will make a better Washington a reality--
truly reflects the beauty of our democratic principles at work. Like 
Congress, the Council remains staunch in its legislative role and 
stands committed to oversee the Executive Branch operations. We will 
keep expenditures and revenues in check. We will respond swiftly to our 
constituents and their needs. We will work with the Mayor, Congress, 
and the surrounding governments to achieve mutually shared goals. We 
will always produce good responsible budgets that invest dollars for 
the District and leave a legacy for future generations.

       COMPARISON OF GOVERNMENTAL FUND TYPE REVENUES--DC vs. OTHER GOVERNMENTS FOR ACTUAL FISCAL YEAR 2000
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                                           Prince
                                                              District of    State of     George's     State of
                                                                Columbia     Maryland    County, MD    New York
----------------------------------------------------------------------------------------------------------------
Federal Grants..............................................       $1,253       $3,974         $663      $24,004
Federal Pension Costs.......................................          182  ...........  ...........  ...........
Federal Reimbursements for ``Restrictions and Unusual                 254  ...........  ...........  ...........
 Costs''....................................................
Taxes.......................................................        3,128       10,405          854       37,259
All other...................................................          488        1,523          101       10,474
                                                             ---------------------------------------------------
      Total revenue.........................................        5,305       15,902        1,618       71,737
                                                             ===================================================
Percent Federal Grant Revenue to total revenue..............           24           25           41           33
----------------------------------------------------------------------------------------------------------------
Source: District of Columbia Audit Task Force, Greater Washington Society of CPAs, District of Columbia Audit
  Briefing Fiscal Year 2000 Report.

  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





  
    Senator Landrieu. Thank you.
    Dr. Friedman.
STATEMENT OF DR. JULIA FRIEDMAN, DEPUTY CHIEF FINANCIAL 
            OFFICER FOR RESEARCH AND ANALYSIS, AND 
            CHIEF ECONOMIST, DISTRICT OF COLUMBIA
    Dr. Friedman. Good morning, Chairman Landrieu and Senator 
Hutchison. I am Julia Friedman. I am the Deputy Chief Financial 
Officer for Research and Analysis, and the Chief Economist for 
the District. I am here for Dr. Gandhi, who has been called out 
of the country on a family emergency.
    My remarks will briefly touch on the fiscal year 2002 
budget and the fiscal year 2003 budget outlook. The formal 
submission----
    Senator Landrieu. Dr. Friedman, you are going to have to 
try to speak a little more closely into that microphone.
    Dr. Friedman. Dr. Gandhi has been called out of the country 
on a family emergency and sends his apologies for not being 
able to be here.
    As the Chief Financial Officer, Dr. Gandhi's major 
responsibility is to ensure the overall financial viability of 
the District of Columbia in the short-, medium-, and long-term. 
In the past year, we have enjoyed some notable successes, 
including the fifth consecutive clean opinion from the city's 
independent auditors, with the fiscal year 2001 comprehensive 
annual financial report completed ahead of time and with a 
balanced budget. Overall, the city ended fiscal year 2001 with 
a surplus of $77.6 million and a positive fund balance of 
$562.2 million. In 1996, there was a negative fund balance of 
$518 million. So, we have witnessed a turnaround of over $1 
billion since then.
    I believe we are on a good position to continue this 
progress. We have instituted several changes in financial 
systems that will give us a much better picture of our 
financial position as we go through the year. And for fiscal 
year 2003, we plan to apportion the budgets of the city's 
largest agencies. At the end of 2001, we had $100.8 million in 
cash reserves available. This has now grown to nearly $151 
million, and we expect the amount to grow to about $250 million 
by the end of fiscal year 2002. Along with the fund balance 
noted earlier, these steps should solidify the district's 
improved bond ratings and contribute to lower borrowing costs 
in the future, as they were intended to do.
    Senator Hutchison. Thank you.
    Dr. Friedman. For fiscal year 2002, year-to-date spending 
pressures are estimated to cumulatively total $283 million. 
Through various actions, the District has resolved $250 million 
of these spending pressures and the remaining $33 million will 
be addressed through the District's budgeted reserve.
    The fiscal year 2002 supplemental bill consists of $37 
million in appropriation authority changes and a set of 
language provisions to clarify the intent of Congress in 
selected areas. This has now been reported out of the full 
committee and we want to thank you for your leadership in this 
matter.

                    FISCAL YEAR 2003 FINANCIAL PLAN

    Moving to fiscal year 2003, the District's general fund 
operating request is $5.7 billion from all funding sources. 
This represents an increase of $402 million, or about 7.6 
percent, over the fiscal year 2002 appropriated levels.
    In local funds, which are about two-thirds of our budget, 
the fiscal year 2003 budget request is $3.8 billion, an 
increase of $209 million, or 5.9 percent, over fiscal year 2002 
appropriated levels.
    Much of the remainder of the testimony speaks to the issue 
of the structural imbalance that the CFO sees in the District's 
long-term prospects for fiscal stability for the District. 
There is a great deal to be said about this, and I would 
recommend these remarks to you. A long-term solution has to be 
found in some way.
    One option is the passage of the Federal Fair Compensation 
Act of 2002, as introduced by Congresswoman Norton. This would 
certainly improve the District's ability to service its 
residents, as well as its nonresident workers in the long term. 
In the absence of this act, a dialogue must continue that 
revisits the Federal-local partnership and arrives at a long-
term solution for the support of D.C. services.
    Madam Chairwoman, this concludes my prepared remarks, and I 
request that the prepared statement of D. Gandhi be made part 
of the record.
    [The statement follows:]
 Prepared Statement of Dr. Natwar M. Gandhi, Chief Financial Officer, 
                          District of Columbia
    Good morning, Chairwoman Landrieu, Senator DeWine, Congresswoman 
Norton, and members of the subcommittee. I am Natwar M. Gandhi, Chief 
Financial Officer for the District of Columbia, and I am here today to 
testify on the District's fiscal year 2003 budget request to the 
Congress. My remarks will briefly touch on the fiscal year 2002 
financial outlook and supplemental, the fiscal year 2003 request, and 
the structural imbalance that threatens the District's long-term 
financial viability.
                                overview
    As the chief financial officer, my major responsibility is to 
ensure the overall financial viability of the District of Columbia in 
the short-, mid-, and long-term. In the past year, we have enjoyed some 
notable successes, including the fifth consecutive ``unqualified'' (or 
clean) opinion from the city's independent auditors, with the fiscal 
year 2001 Comprehensive Annual Financial Report (CAFR) completed ahead 
of time and with a balanced budget. Overall, the city ended fiscal year 
2001 with a surplus of $77.6 million and a positive fund balance of 
$562.2 million. In fiscal year 1996, there was a negative fund balance 
of $518 million, so we have witnessed a turnaround of over a billion 
dollars since then. This result is another milestone for the financial 
turnaround that began in the fiscal year 1997 CAFR and is a fitting 
beginning for the District's return to Home Rule last October 1.
    I believe we are in a good position to continue this progress. We 
have instituted several changes in financial systems that will give us 
a much better picture of our financial posture as we go through the 
year, and for fiscal year 2003 we plan to apportion the budgets of the 
city's largest agencies. At the end of fiscal year 2001, we had $100.8 
million in cash reserves available; this now has grown to nearly $151 
million. We expect this amount to grow to about $250 million by the end 
of fiscal year 2002. Along with the fund balance noted earlier, these 
steps should solidify the District's improved bond ratings and 
contribute to lower borrowing costs in the future.
    We have made progress on other fronts as well. This year, for the 
first time, the District of Columbia's ``Comprehensive Financial 
Management Policy'' appears as an appendix of the budget submission. 
This policy, required annually by the fiscal year 2001 District of 
Columbia Appropriations Act (Public Law 106-522), is actually a 
compilation of policies in key areas and a financial management tool 
that codifies current policies and procedures. It will be updated 
annually.
    Effective with the fiscal year 2003 budget development process, we 
began the transition to performance-based budgeting. With the active 
support of the Office of the City Administrator, seven large operating 
agencies, including the OCFO, submitted performance-based budgets based 
on agency strategic business plans aligned with the mayor's citywide 
strategic plan. For the fiscal year 2004 budget process, we anticipate 
converting another 20 agencies to performance-based budgeting.
    In the area of payroll operations, we have moved all agencies 
except Fire and Emergency Medical Services back to the UPPS payroll 
system. This agency will be converted before the end of the fiscal 
year. A long-term replacement strategy for the payroll system and its 
integration with other administrative systems has been developed as 
part of the Administrative Services Modernization Program, spearheaded 
by the Office of the Chief Technology Officer.
    Over the next two years, all of the District's administrative 
systems--personnel, payroll, pension operations, procurement, property 
management, and budget--will be upgraded and integrated with the System 
of Accounting and Reporting (SOAR). For the first time, this will give 
the District a top quality, integrated information system with which to 
manage District operations. Now that we have two years of operating 
experience with SOAR, we are utilizing more of its capabilities.
                   fiscal year 2002 financial outlook
    Year-to-date spending pressures for fiscal year 2002 are estimated 
at $283 million. Through various actions (use of reserves, 
reprogrammings, agency gap-closing plans, and the proposed supplemental 
appropriation), the District has resolved $250 million of the spending 
pressures. The remaining $33 million will be addressed through the 
District's budgeted reserve. Thus, I am confident we will end the year 
with a balanced budget.
    The District submitted a fiscal year 2002 supplemental budget 
request consisting of $37 million in appropriation authority changes 
and a set of language provisions to clarify the intent of Congress in 
selected areas. The Council of the District of Columbia passed the 
supplemental on April 9. The full committee reported out the 
supplemental on May 22, and it passed the Senate on June 7. We want to 
thank you for your leadership and support on the District portion of 
it.
                    fiscal year 2003 budget request
    The Council of the District of Columbia voted to approve the fiscal 
year 2003 budget request on May 7, and copies of the budget documents 
were recently made available. I would like to briefly summarize some of 
the key points in the request.
    In total, the District's general fund operating request for fiscal 
year 2003 is $5.7 billion from all funding sources (local, federal, 
private, and other), which represents an increase of about $402 
million, or 8 percent, over approved fiscal year 2002 levels. The total 
number of positions in fiscal year 2003 from all funding sources is 
33,958, which represents an increase of 708 positions, or about 2.1 
percent.
    In local funds, which comprise about two-thirds of the total 
budget, the fiscal year 2003 budget request is about $3.8 billion, an 
increase of about $209 million, or 5.9 percent, over approved fiscal 
year 2002 levels. The total number of positions funded with local funds 
is 26,846, an increase of 524 positions, or 2.0 percent.
    The District's expenditure growth since fiscal year 1999 has been 
concentrated in several large agencies. The overall growth rates of 
expenditures in fiscal year 2000 (over fiscal year 1999) and fiscal 
year 2001 (over fiscal year 2000) were 8.9 percent and 10.8 percent, 
respectively. However, an analysis shows that the District's 
expenditure growth has been driven by four agencies--the DC Public 
Schools, the Public Charter Schools, the Department of Mental Health, 
and the Public Benefit Corporation subsidy (plus transition costs in 
fiscal year 2001)--where expenditure growth was 28.5 percent and 29.3 
percent in fiscal year 2000 and fiscal year 2001, respectively. These 
rapid growth rates are attributable to rising enrollments in Public 
Charter Schools, and, in the other three agencies, to Medicaid and 
other costs related to the health care needs of the District's low-
income citizens. Outside of these four agencies, expenditures grew by 
only 2.5 percent in fiscal year 2000 and 3.1 percent in fiscal year 
2001, aided in part by reductions in debt service. During this same 
period, the Consumer Price Index for the Washington Metropolitan Area 
grew by 3.1 percent and 2.9 percent, respectively.
    As you will see, the budget projects positive net operating margins 
through fiscal year 2006. This projection shows a positive financial 
picture and is based on revenue forecasts that use realistic economic 
and demographic assumptions generally accepted by the forecasting 
community and the federal government.
    However, a closer examination of the data suggests that the 
District is operating on a much slimmer financial margin. While we 
believe the costs of maintaining current services can be kept within 
projected amounts, it is unlikely the city will operate over the next 
few years without program initiatives. Further, as we have seen 
recently, it has been necessary to use reserve funds. While revenues 
grew by 7.4 percent annually between fiscal year 1999 and fiscal year 
2001, the District now likely faces a more slowly rising revenue curve, 
as financial markets return to more normal patterns and the frenzied 
pace of property renovations lets up. For these reasons, the city and 
its elected leadership will face difficult program and financial 
decisions in the years to come. For these same reasons and others, we 
believe there is a structural imbalance in the District's budget that 
needs to be addressed.
             structural imbalance in the district's budget
    The ``structural imbalance'' is the difference in the long-term 
between the District's unreimbursed expenditures and its constrained 
revenue base. Working together, the elected officials of the District 
must find ways to balance expenditure needs with revenue requirements, 
in order to balance the city's budget and ensure that the control board 
does not return. This involves some very difficult decisions, due in 
significant part to the unique status of Washington, DC, and the 
challenges related to that status.
    Others external to the District have looked and continue to look at 
the structural imbalance. The Federal City Council commissioned 
McKinsey & Company to independently assess the District's financial 
position. Their report, issued in March 2002, stated, among other 
things, that federal constraints impose an annual opportunity cost of 
at least $500-$600 million. As you know, both the General Accounting 
Office and the Congressional Research Service are conducting separate 
analyses of the city's financial structure.
    What we already know is that the recent recession forced cities and 
states across the country into difficult budget decisions. Cities and 
states have dipped into rainy day funds, delayed tax reductions, and 
implemented service cuts. For cities, the economic downturn compounds 
other recent fiscal challenges. While the population of states rose by 
an average of 13.1 percent in the 1990's, the population of the largest 
27 cities grew by a slower rate of 8.5 percent. While states provide 
services to a resident base with a poverty rate of 11.3 percent, cities 
provide services to a resident base with a poverty rate of 17.9 
percent. And while the federal government and state governments 
experienced revenue growth of 136 percent and 97 percent respectively 
between 1988 and 2001, cities--which rely on revenue sources such as 
property taxes, which generally do not keep pace with the economy--
experienced more modest growth of 69 percent. In the District, growth 
over this period was 34 percent. Excluding the federal payment, 
District revenues grew by 58 percent over this period, lower than the 
other jurisdictions.
    In each of these three cases--population growth, poverty rate, and 
revenue growth--the District performed more poorly over the past decade 
than cities overall and the states. In the District of Columbia, the 
pressures facing all levels of government generally--and all cities 
particularly--are extenuated by restrictions on the District's revenue 
base and expenditure requirements reflective of the District's unique 
status as the nation's capital.
    The revenue base is constrained because:
  --66 percent of the income earned in the District cannot be taxed by 
        the city, meaning that 34 percent of the District's income tax 
        base subsidizes the public services that the District provides 
        its nonresident workers;
  --42 percent of the real property in the District is owned by the 
        federal government and is exempt from city taxation;
  --11 percent of other real property in the District also is exempt 
        from taxation; and
  --District buildings have federally-imposed height restrictions, 
        which reduce population and economic density, as well as 
        property tax revenues.
    The District also provides services beyond its capacity. For 
example:
  --Services to the federal government, such as public works and public 
        safety, are valued at $240 million in a normal year and more in 
        times of crisis; between fiscal year 2002 and fiscal year 2006, 
        this is estimated at $1.2 billion.
  --Services of a state-like nature, such as human services, mental 
        health, and the University of the District of Columbia, are 
        valued at $500 million a year; between fiscal year 2002 and 
        fiscal year 2006, this is estimated at $2.6 billion. These 
        services are in addition to those absorbed by the federal 
        government through the 1997 Revitalization Act.
  --Services to the region, such as the 400,000 out-of-District 
        vehicles that drive in the city every day--and represent 70 
        percent of traffic on District roads during business hours--but 
        do not contribute to road repairs are valued at $150 million a 
        year; between fiscal year 2002 and fiscal year 2006, this is 
        estimated at $0.75 billion.
    While these expenditure and revenue pressures are not unique to 
Washington, they represent a special challenge here, due to the 
District's limited ability to address them, because:
    District tax rates and burdens on both households and businesses 
already are high in comparison to neighboring jurisdictions when 
considering the complete menu of taxes--sales tax, income tax, property 
tax and business taxes. The individual income tax burden in the 
District is 34 percent higher than Virginia, and the city's real 
property tax burden is 15 percent higher than Alexandria.
    The District's capacity to borrow funds is limited, with a per-
capita debt of $4,651, second only to New York City's per-capita debt 
of $4,664. Due to planned capital spending, the District's per-capita 
debt will rise steadily through fiscal year 2006 to an estimated 
$6,531. Even that level of capital spending does not address all of the 
urgent infrastructure needs, particularly roads, Metro expansion, and 
the DC Public Schools. Deferring investments in infrastructure can 
cause crisis-like pressure on operating spending.
    Local fund expenditures also are constrained. Of the nearly $3.8 
billion in budgeted expenditures, less than $1.5 billion is available 
for discretionary purposes. The remaining expenditures are mandatory, 
in the sense that they are required to fulfill financial or contractual 
obligations or to comply with federal or local legislation or court 
order. Even within the discretionary total of less than $1.5 billion, 
most is required to provide a basic level of municipal services, such 
as police, fire, and public works.
    The long-term solution to the structural imbalance is a matter to 
be addressed by District and congressional policy-makers. Passage of 
the Federal Fair Compensation Act of 2002 (H.R. 3923), as introduced by 
Congresswoman Norton, would certainly improve the city's ability to 
service its residents as well as its non-resident workers. In the 
absence of this act, a dialogue must continue that revisits the 
federal/local partnership and arrives at a long-term solution for 
equitable support of District services.
                               conclusion
    Madam Chairwoman, this concludes my prepared remarks. I request 
that this testimony be made part of the record. I will be pleased to 
answer any questions you or the other members may have.

    Senator Landrieu. Thank you very much. I appreciate it.

                       THE DISTRICT'S BOND RATING

    Let me just begin, if I could, with you, Ms. Friedman. The 
bond rating. Both Senator Hutchison and I served as treasurers 
of our State, so we had to take this on. Kind of our full-time 
focus was to increase the bond ratings of our States and keep 
them high. It is just one reflection of the fiscal health of an 
entity. It is not the only, but it is a good guiding post 
because, as you know, the rating agencies rate all States and 
all cities and all jurisdictions. So, they have a lot of 
comparative data.
    I am noting that the bond rating for the city, although we 
have made a lot of progress, is still one of the lowest in the 
Nation. It is a BBB+. I would note that it is equivalent to my 
own home city, the City of New Orleans, which is facing some 
challenges.
    But could you, from your position, outline the three or 
four things that the rating agencies are looking for before 
they will begin to consider moving the city higher? What are 
the two or three things that they discuss with you about that?
    Dr. Friedman. One of the benchmarks that they constantly 
refer to is our debt per capita. It is quite high in the 
District, second only to New York City.
    Senator Landrieu. And what is that ratio, do you remember, 
just for the record?
    Dr. Friedman. Someone will pass me the number in just a 
minute. It's something like $5,000 per capita. We have brought 
that down successfully in the last year with the securitization 
of the tobacco funds and using that money to write down our 
debt. So, we have substantially reduced it.
    We also note that some of our indicators are considerably 
stronger than other cities that have much higher ratings such 
as Detroit and Philadelphia and some of the other areas where 
we have more real property value per capita. We have in some 
ways much stronger budget positions than they do.
    In our discussions with the rating agencies, they continue 
to look for strong political leadership and consistent and 
strong management. These are areas that they talk about.
    There is a certain degree of uncertainty that is inherent 
in the city's relationship with the Federal Government and they 
do talk to us about the need for certainty and stability in 
that relationship as well.
    The debt per capita, I am told, is $4,600 in the District.
    Senator Landrieu. So, besides the debt per capita, the 
uncertainty of the relationship, and some management issues, 
would you say that those are the three points that continue to 
be a challenge for the District?
    Dr. Friedman. Yes, I would say that. In fact, there has 
been a history, that you are quite aware of, of testimony 
before you by the rating agencies. Those are the same elements 
that repeatedly reoccur. They are very happy about the 
relationship between the Mayor and the council and very 
impressed by that. We hear that quite a lot.
    Senator Landrieu. Mr. Mayor, would you like to add anything 
to that? And Ms. Cropp. I know that you all talk with the 
rating agencies too, so just something from your perspective 
that you would like to add.
    Mr. Williams. Well, you know, my years as CFO talking to 
the rating agencies and now as Mayor talking to them, I would 
agree with Julia that their concern is the debt load per capita 
being high. But I think the point has to be made that that debt 
load per capita is high. It used to be, in large part, driven 
by uncontrolled expenditures and bad management, recognizing 
now that it is driven by the fact that we have a very narrow 
tax base to support that kind of debt load and--and this gets 
to the Federal relationship--a feeling by the rating agencies 
that we have got to finally figure out a way to address 
structural imbalance in our budget, which gets us to the need 
for a Federal contribution I think because the city can do what 
it has done, in terms of better fiscal management--we are very 
proud of the fact that, working with Senator Hutchison and the 
committee, that by the end of 2002, we are going to have 7 
percent of our cash reserve. This is going to be leading the 
country. The District of Columbia. No one would have thought 
that years ago. But having met that kind of tight fiscal 
benchmark, to still have the credit rating we have to us is 
really frustrating because we think that it is not completely 
within our power to solve. We need that durable, elastic 
Federal contribution I believe.
    Senator Landrieu. Ms. Cropp, anything?
    Ms. Cropp. Just in addition to that, I think they are 
pleased with the way the city is moving with our budget. We 
have been meeting with them recently and, I think, again 
tomorrow actually. The idea that we are not putting all of our 
dollars into our base budget in case something happens, that we 
will have access to some monies in the future, I think has been 
very helpful.
    Attached to my testimony is something that the Mayor said 
with regard to structural imbalance with the District. I do 
want to call your attention to a chart that was created by the 
Greater Washington Society of CPAs that really shows that the 
District and its relationship with the Federal Government is 
not as lucrative as with many other States. In fact, with the 
Federal Government acting somewhat as the District's State, the 
District's percentage of Federal dollars that comes back to it 
is much smaller than many other places.
    Senator Landrieu. Well, on that point, let me mention 
because I am hopeful that this bond rating will improve and I 
think there have been steps taken that would warrant an upgrade 
in the bond rating. It is one very, sort of clear-cut 
benchmark, if you will. So, what I have heard this morning 
indicates that potentially the city is in a position to see an 
upgrade in the bond rating.
    One point on the debt and then one point on the structural 
imbalance. I think the Mayor is absolutely right in the sense 
of analyzing debt. If you have got a lot of debt because you 
are overspending your operating budgets, then that could be 
very detrimental not only in the short term, but in the long 
term. But if your debt is high because you are making wise 
investments in infrastructure and future and capital 
improvements, then that is a whole other issue. So, it is not 
just the amount of debt, but the purposes for which the debt is 
being entered into, and I think we are in a positive trend 
line.
    I want to say on the record that although we do not have a 
date yet, it is the intention of this chair and our committee 
to hold a several-hour hearing on the structural imbalances 
issue. Both the Mayor and the chairman of the council have 
requested that. I have agreed to that. Our members are 
interested, but we are waiting for a report that GAO is 
currently working on that they indicate will have some 
preliminary findings in the fall. So, we really hope to address 
that issue because there are some questions that are being 
raised and potentially some solutions to that for the long term 
for the District.

                           SPECIAL EDUCATION

    I have one more question on education, and then I am going 
to turn it over to Senator Hutchison. To either the Mayor or to 
the president of the council, can you talk a little bit more 
about the special education challenge? Spending 30 percent of 
the overall budget for 16 percent of the children is very 
problematic. Having a special education budget--I would not say 
out of control, but there is not the kind of framework in place 
that gives me confidence that we are going to be moving in a 
positive direction in this. And I will say that all 
jurisdictions are struggling with this, including the Federal 
Government itself with our rules and regulations regarding 
special ed.
    But it seems to me that the District has more children in 
private schools, and I do not support widespread vouchers, but 
I am having a hard time understanding the difference between 
vouchers for special education and general vouchers because, 
generally, you have a system of vouchers to me in the District. 
In other words, if you cannot get the services in a public 
school, you basically give a child a voucher to go to a private 
school to get educated. 2,500 children currently, if my number 
is correct.
    So, Mr. Mayor, you may want to comment about that, because 
we would like to try to help if we can. Both Senator Hutchison 
and I are very interested in trying to contain these costs and 
help develop a system that is fair to the children and the 
families but also fair to the taxpayer. If you all could just 
give a little more testimony about our plans for reform.
    Senator Hutchison. Could I add something?
    Senator Landrieu. Let the Senator respond.
    Senator Hutchison. Before you answer, I would like to 
intervene because that was a line of questioning I also was 
going to pursue. If I add my question to Senator Landrieu's 
comments, I think you can answer them all at once.
    Not only is there a high level of private school usage, but 
apparently it has been abused by one law firm that also has an 
interest in private schools and diagnostic testing. There has 
been over $9 million in abuse paid to this one law firm in a 
round robin way by the law firm being legal adviser, giving 
diagnostic tests and sending students to a private school in 
which the firm has an interest. Therefore, please speak to the 
general point, the abuses that have been reported and what you 
will be doing about then.
    Mr. Williams. I think the public schools have shown in the 
past a limited capacity to provide services to the most 
disabled students on a local basis. So, as a result, these 
students are being placed by court order in out-of-town 
schools. You have got expensive transportation costs, expensive 
tuition. Sometimes you have got cases of thousands of dollars 
being spent on transportation. You could almost rent a car for 
a student and family for lower than you are paying for 
transportation. A huge amount for out-of-state tuition.
    The one issue where the schools have done a good job of 
addressing a problem has actually made the problem worse, and 
that is 2 years ago we had a huge backlog of students who had 
not been properly assessed for special education placement. So, 
the schools diligently went at assessing these students, and in 
fixing this problem, as a result, out-of-state and overall 
costs have mushroomed. So, this now presents a dangerous drain 
on resources to the schools and hence a dangerous drain on 
resources for the city as a whole.
    What the Mayor and council have agreed to jointly do is, 
initially by Mayor's order and now by legislation, to create, 
chaired by this Mayor and the Chair of the council's Education 
Committee, a special education task force. The special 
education task force's job will be to do what we have done in 
receiverships across the government. We have now moved, with 
the exception of special education, if you want to call it 
semi-receivership, all of our receiverships back into the 
government because we have satisfied judges, masters, 
advocates, stakeholders, and everybody else that the District 
can now responsibly meet all of these responsibilities, all 
these requirements and objectives.
    We want to do the same thing in special education and 
harness our private sector, our nongovernmental organizations, 
all the District's agencies with the goal of building and 
bringing more special education within the city to the maximum 
extent possible, within the District, doing what we can to 
reengineer and revitalize systems so that we reduce 
transportation costs, and in all of this, find a way to--and I 
believe this is the ultimate challenge here--reduce the need 
for litigation in the first place by changing the process of 
assessment because right now we have, I think, something like 
10 times fewer people than Chicago and 10 times more 
litigation. So, we clearly are going off on the wrong track. 
When you have, I think, a process that invites litigation and 
in and of itself triggers litigation, then the lifting of the 
attorney's fees cap is going to have the result that we all 
expect it is going to have, which is a mushroomed cost. But I 
guess the point I am making is it is not necessarily attorney's 
fees in and of themselves; it is the amount of litigation that 
we engender in the process that we have.
    Senator Landrieu. Well, two things. Let me comment about 
the fee cap, and I do not want to take too much time on this. 
But also, I would like you to try to answer a little bit more 
specifically about this particular question of Senator 
Hutchison about the particular law firm, the system. Has that 
been addressed? Is it going to be addressed, et cetera?
    But I am glad, Mayor, that you mentioned that while the fee 
cap might have some bearing, the system of how children are 
designated, first of all, to be special ed children, the 
responsibility that each individual school in the District 
considers their responsibility to take care of the special ed 
children within their district, limiting out-of-city placement, 
and limiting private school placement, as well as getting a 
handle on the system that Senator Hutchison--I think is a 
combination of things that will help us to get this under 
control. And if we do not, it may upset the financial balance 
of the school system and then directly the city's good 
financial trend line.
    So, Chairman Cropp, can you add something to that?
    Ms. Cropp. I just want to add. You both have mentioned the 
out-of-state placement. It is to the point where it is almost 
ridiculous where we have had to pay $80,000 for one student.
    One of the things that is happening is we are looking at 
our charter schools, and our charter schools are starting to be 
able to provide the type of services that we have been 
utilizing out-of-state placement for. So, we hope to see the 
cost reduced by that.
    Additionally, the executive branch has successfully 
negotiated a new contract with our teachers that will change 
the hours of school enrollment that will help to ease the 
transportation problem and the costs with that.
    One of the things that the Federal Government can help 
with--and I would suspect it is not just a problem in the 
District, but across the country. We are required in the 
District, for example, with transportation to put one child on 
one large school bus, and I want to put emphasis on that. We 
will move one child in a school bus instead of a car, instead 
of a van. And as I understand it, it is because of laws that 
are in existence. Our transportation cost has really been 
somewhat overwhelming, and we would like to work with you all 
on that as we look at trying to address this particular issue. 
I think all of us are interested in the safety of our children, 
and it is a safety issue I understand. And all of us, 
obviously, are interested in the safety of our children, but I 
think that we can probably find a better approach for us to 
deal with that.
    Senator Landrieu. Dr. Friedman?
    Dr. Friedman. Just a couple of more factual comments. One 
thing that happened in fiscal year 2001 was that there was a 
large caseload of applications for special education that kind 
of got worked through and cleared out so that some of the 
increases that we have seen lately is a response to the fact 
that the caseloads are not so backlogged anymore.
    The second is that one of the problems in the 2003 budget 
is that we have had to reduce the estimate of how much revenue 
would be recovered from Medicaid, for expenses on Medicaid-like 
expenditures in the public schools. So, there is a $27 million 
increase in local expenditures that we hope eventually can be 
filled with Medicaid revenue.

              REPRESENTATION OF CHILDREN WITH DISABILITIES

    Senator Landrieu. I have just got to get something on the 
record in response to the question about the system of the same 
company doing the evaluation, the placement, and then running 
the ultimate schools. Has any action been taken? Do you plan to 
take any action, or is it something that you endorse? I mean, 
you either like the system and you endorse it or you think that 
there have to be some changes, and I just need to get something 
on the record.
    Mr. Williams. My understanding is that the Board of 
Education is in the process of creating new regulations 
regarding the relationship of attorneys to recipient 
organizations and clients to try to break up that triangle that 
has been identified in the question and in the earlier article.
    Ms. Cropp. Let me say that, no, I do not like the system. I 
do not think the city likes the system, and we will make sure 
that it changes. It is something that leads someone to try to 
get more money out of this city than is necessary. So, it is 
our expectation that we will see a change there.

                     DEVELOPMENT OF CHARTER SCHOOLS

    Senator Landrieu. And a question on the charter schools, 
and then I will turn it over to Senator Hutchison. I am glad to 
hear you say, Ms. Cropp, that the charter schools could 
potentially be part of the solution to our special ed 
challenges and part of the solution to try to bring renewal and 
renaissance and reform as a catalyst for change to our whole 
public school system. As you know, because you have attended 
many of these hearings, I am a very strong supporter and have 
encouraged you all and commented about the job you seem to be 
doing and being open to charter schools.
    But what are you planning as the City Council Chair, or the 
Mayor may want to comment--about supporting the need for 
charter schools to have some capital funds so that they can 
create the kind of physical facilities necessary to carry out 
their mission and also be helpful with special ed students 
which then becomes particularly challenging to try to have the 
physical facilities to care for student, as well as students 
with disabilities, some of whom are physically challenged? So 
there are expenses associated with those kinds of facilities. 
Mr. Mayor?
    Mr. Williams. First of all, in terms of space for the 
schools, we had 38 surplus schools. More than half of them went 
to immediate use of education facilities, and around a dozen 
went to charter schools. Of those schools that were identified 
for other public uses, to the extent that those programs are 
not moving as fast as we would like, we are also identifying 
some of that space for our charter schools. So, we are more 
than open to giving our public space to charter schools on an 
accelerated basis, full funding over the last couple of years 
for charter schools. So, they do not have that to worry about.
    The City Council and I have worked together to create 
something called the Charter School Credit Enhancement Fund, 
which is a fancy way of saying giving them the resources to get 
additional facilities. We have added $5 million in local money 
to that, and I stand willing to go to the council for further 
modifications, additional money as the case may be.
    A final point and the chair can talk about this. I give her 
credit for pushing the whole notion of collocation of our 
regular public schools and the charter schools because while we 
have been providing a lot of outside of regular public school 
space for the charter schools and while we have provided full 
funding now for the charter schools--and we are happy to say 
that--we have also maintained the regular funding for the 
original public schools and the regular space for the original 
public schools, even though 10,000 students have left. So, 
clearly there has to be an accommodation with the regular 
public schools budget, and I will let the chair continue on 
that line.
    Ms. Cropp. Senator, the idea is that we have a vacancy rate 
in our existing traditional public schools. The charter schools 
are looking for space. We have an obligation to help with the 
facilities of the charter schools. They ought to be able to 
collocate in buildings where there is a vacancy. It will do a 
couple of things. It will save money from having to spend it on 
new facilities for the charter schools. It would help us use 
those dollars to help renovate and update the existing school 
building for usage by the charter school and the traditional 
public school.
    The Mayor and the council are on the same page with that. 
We have had council hearings about it. We have talked to the 
charter schools and the public schools about it, and hopefully 
we will see that really swinging into effect in the very near 
future.
    Senator Landrieu. Okay.
    Senator Hutchison?

        REFORM OF SYSTEM REPRESENTING CHILDREN WITH DISABILITIES

    Senator Hutchison. Thank you, Madam Chairman.
    Mayor Williams, I just want to go back one more time to the 
line of questioning that Senator Landrieu was pursuing and ask 
you if you are also committed to stopping the reported abuses 
of the law firm-diagnostic-private school nexus.
    Mr. Williams. Absolutely. In supporting of the board in its 
effort to pursue new regs, bringing in the IG as necessary to 
do the necessary investigations, and with the task force that 
we have created by law, we have now got across the government 
the plenary authority to go in and make changes where we have 
to make changes to prevent these abuses from happening in the 
future.
    Senator Hutchison. Do you think putting some kind of 
reasonable cap on attorney's fees would be a step back in the 
right direction. We had the caps and it lowered the cost of 
attorney's fees. According to a GAO report the caps did not 
make much of a difference, but the report only analyzed 99 
payments that resulted from court judgements, while there were 
more than 5,800 payments paid to attorney. Of the $13 million 
paid in lawyer's fees by the District for special education 
cases, only $3 million, resulted from the 99 cases court 
judgments. Therefore, it seems that the lack of caps could 
cause the attorney's fees to go back up from the more 
reasonable levels that we had last year before.
    Do you have any suggestions on a way to handle this without 
jeopardizing a right to be represented while at the same time 
establishing some reasonable limit?
    Mr. Williams. Well, you know we originally supported a 
reasonable cap on fees. When that really was not effectively 
working, we are now looking for another strategy to try to 
streamline and make more efficient--and you are absolutely 
right--the administrative process, clean up and make more 
efficient the assessment process in general so we do not spawn 
and engender all the litigation and all the disputes that I 
think are driving these fees in the first place. I think that 
is the way to go about it in a way that gets the buy-in and the 
stakeholdership of all the different parties.
    The problem we had with pursuing the original strategy of 
simply curtailing attorney's fees was not proving workable in 
my mind because it did not have the buy-in and stakeholdership 
of all the different groups, the council, the plaintiffs' 
lawyers involved, the advocates, and everybody else. I am just 
trying to find something that is workable and gets to the 
fundamental issues involved. And I think it is cleaning up the 
administrative process, cleaning up the basic issues that are 
driving the disputes and the litigation.
    Senator Hutchison. Well, perhaps that will work and perhaps 
taking away the incentives for the abuse that has led some law 
firms to have reportedly received inordinate fees, but you just 
cannot argue with the numbers of what is going into attorneys' 
pockets versus getting the job done of educating the children 
with special needs in the District. I would like some 
substantive proposals because I just cannot, in good 
conscience, sit here and let the District spend $13 million 
when previously it was handling these on a much more regular 
basis. So, I am open but I am looking for answers.

                         BUDGET RESERVE POLICY

    The second question is back to the budget. I wanted to, 
first of all, say I appreciate how diligent all of you have 
been--Mayor, your leadership, Mrs. Cropp, your leadership, and 
certainly the Chief Financial Officer, Dr. Gandhi--in 
establishing these reserves. The one thing that happened this 
year is that some of the reserves were spent, and you will have 
to spend about $45 million to come back up to the $70 million 
that is required under our agreement under the budget for 2003. 
So, it is about $45 million, as I understand it, because the 
budget reserve is currently at $25 million, and by 2003 you 
need $70 million.
    So, is that in the budget and do you expect that you will 
be able to do that?
    Dr. Friedman. The answer is yes. The full $70 million is 
budgeted in the new budget for 2003.
    Senator Hutchison. And plus, you are ahead of schedule on 
the other reserves, which I think is just fabulous.
    Let me just ask you one other question and that is back to 
your answer----
    Mr. Williams. See, Senator, that is where I think it is 
really patently unfair. Here we are, as you know as a former 
treasurer, we have one of the most outstanding cash reserves 
now in the country, but we do not have the bond rating to show 
for it. I think it is really unfair.
    Senator Hutchison. Well, I think that you are on the road. 
Do not be faint-hearted because I think your bond rating is 
going to go up and I think the elements that Dr. Friedman 
mentioned are there. The leadership is there. The reserves are 
very clearly there, and that is the main thing that they look 
at and on which they have complimented you.

                 DEBT AND CAPITAL INFRASTRUCTURE POLICY

    So, the one outstanding issue, it seems to me, is the 
amount of debt per capita. Mayor I wanted to clarify what you 
said in the tobacco securitization fund when you said you were 
going to spend that money on health care costs. Is that in lieu 
of paying down debt or is that in addition to it?
    Mr. Williams. The securitization of debt using the stream 
of tobacco payments has happened, and so what we are talking 
about are the proceeds from that pay-down of a huge amount of 
debt. And I am proud the Mayor and the council came together to 
do that. What we are talking about is temporarily suspending 
another aggressive program that the Mayor and the council have 
launch, which is to take half of the tobacco stream, the 
proceeds freed up from the pay-down of debt, and half of that, 
in turn, put into a rainy day fund. This is on top of the 7 
percent of cash reserve on top of the budget reserve. So, we 
are extremely fiscally prudent, and we are saying up until the 
period of 2005, temporarily use funds to help Medicaid and 
special education get on their feet, with the recognition that 
special education and Medicaid have to give back to the 
government a total of $50 million.
    Senator Hutchison. But you will be paying down long-term 
debt, the half of it.
    Mr. Williams. Absolutely.
    Senator Hutchison. As you originally had intended.
    Mr. Williams. Absolutely.
    Senator Hutchison. Well, as that occurs, do you think it is 
going to show with the rating agencies? I know your long-term 
debt has been quite expensive, and I know you are paying that 
off first. Is that on course? Do you see that debt per capita 
coming down in the next 2 years?
    Dr. Friedman. Well, we have brought the debt down by more 
than $500 million through the securitization process, and then 
in the secondary process of the savings on that and allocation 
of those savings, we will have a further impact on the amount 
that we have to borrow. We do have the capital improvement 
program facing us, but as part of the 2003 capital improvement 
budget, there was a scrub basically that reduced $230 million 
of prior projects. So, we brought that baseline down another 
$230 million.
    In addition, in this budget--and Mrs. Cropp should speak to 
this issue--there is a PAY-GO option. I believe it is budgeted 
for $16 million.
    So, all of these things are coming together to maintain 
this downward pressure on the amount of debt per capita that we 
carry.
    Ms. Cropp. Senator, with regard to our capital budget, over 
the past 2 years, the District has really gone through a 
revolutionary process where we have truly reduced the amount of 
money that we were borrowing. In fact, what we would do, if a 
project was not ready to really move off, we would remove that 
project, put it closer to the end of the line and move up a 
project that was there rather than to keep borrowing all the 
dollars.
    I think the bond market is very pleased with regard to the 
PAY-GO capital line that we have. It is $16 million with the 
potential of going up to $22 million for this budget season. As 
I said, it allows us to fix projects in the city, but we do not 
go and borrow the dollars. So, that is something that is 
exceptionally good.
    In addition, there are still some tobacco dollars too that 
we have not spent.
    Senator Hutchison. I think what you have done in that 
regard is excellent, and I applaud you. Every city in this 
country is facing problems because of the economy. So, I think 
you are doing very well in this climate.
    Let me just ask one last question of Dr. Friedman. Is long-
term debt--or whatever is the most expensive debt that is on 
the books--are you in your office trying to replace that with 
the shorter-term, lower interest costs?
    Dr. Friedman. We have been through a process of doing some 
refundings, and I need to actually get information from behind 
me. But I believe we are in the process of evaluating 
refundings for 2003.
    Senator Hutchison. Well, it is wonderful not to borrow 
more, and I would like for you to answer this in writing when 
Dr. Gandhi comes back. But I hope that part of this program 
includes a restructuring, assuming that the numbers work, by 
replacing long-term expensive debt with less expensive short-
term funding--I hope that is part of the process because it 
seems that everything else is going in the right direction. The 
budgeting process, the reserves, holding the line on spending; 
those all seem to be going in the right direction, but you need 
to make sure that on the financial side you are doing favorable 
restructuring.
    [The information follows:]

                      Letter From Natwar M. Gandhi

            Government of the District of Columbia,
                     Office of the Chief Financial Officer,
                                     Washington, DC, June 18, 2002.
Hon. Kay Bailey Hutchison,
Subcommittee on the District of Columbia, Committee on Appropriations, 
        U.S. Senate, Washington, DC.
    Dear Senator Hutchison: At the Subcommittee's June 11 hearing on 
the fiscal year 2003 budget request of the District of Columbia, you 
requested information on the District's long-term debt structure. This 
letter provides that information.
    Over the past several years, the District's Office of Finance and 
Treasury (OFT), in conjunction with its financial advisors, has been 
constantly monitoring and evaluating its debt structure and the 
composition of its debt portfolio. The District has been taking 
appropriate actions to optimize its debt profile, given the level of 
its capital.needs and the constraints within which it must function.
    In this regard, several accomplishments are noteworthy.
    The District executed a debt restructuring in fiscal year 1999, 
which took the District's debt profile from one that was heavily 
``front-loaded'' (a disproportionate amount payable in the near-term, 
putting a strain on the budget) to a structure that was in line with 
rating agency benchmarks and industry standards regarding debt 
amortization.
    The District has used innovative (yet not excessively risky) 
financing structures and techniques to produce lower debt service 
costs. This includes the use of variable-rate demand bonds and 
interest-rate swaps, resulting in lower interest rates, and therefore 
debt service savings, for the District.
    District financial officials continually monitor the District's 
outstanding debt for opportunities to refinance, its debt at lower 
interest rates to produce savings. The District has executed several 
debt refinancings between fiscal year 1997 and the present, in order to 
replace higher-cost debt with lower-cost debt. These transactions have 
resulted in over $25 million of present-value savings to the District 
in debt service costs.
    The District intends to execute another refinancing transaction 
this year on its outstanding Certificates of Participation, in order to 
produce additional savings.
    The District will continue to actively monitor and evaluate its 
outstanding debt, and take appropriate actions to obtain and maintain 
an optimal debt profile.
    I hope this responds to your concerns. If you have any further 
concerns, please contact me on 727-2476.
            Sincerely,
                                          Natwar M. Gandhi,
                                           Chief Financial Officer.

    Dr. Friedman. I will turn the mike over to the chairman in 
just a minute. One of the things we have been very conscious of 
with the tobacco money and our whole debt management strategy 
in the last several years is spreading out the debt. I know you 
were familiar with this enormous sort of mountain of debt that 
we faced in the near term about 10 or 14 years out. The 
District's strategy has been to try to reduce the debt, 
particularly in that time period so that the debt service 
burden is not so large in the very near term.
    I think that strategy has been working very well. If you 
could see the chart that shows the time distribution of the 
debt, it is much flatter, and we have accomplished really a 
piece of that goal, and that continues to be the goal.
    I know one of the things we are doing now is seeking more 
variable rate debt so that we can take advantage of the lower 
interest rate options kind of automatically as they come along 
as well.
    Ms. Cropp. There is one thing and it is with regard to the 
cash reserve. That would be possibly $240 million. It seems to 
me that the city ought to have an opportunity for those dollars 
for us to have maybe three levels of investment for those 
dollars so that we can get a good return, for you to have that 
much cash somewhere in a safe, somewhat conservative form of 
investment. We ought to be able to do it. If you look at our 
worst time in the past, I guess, few years, we have had to 
spend maybe $120 million with D.C. General where we needed to 
come up with an awful lot of money. If you look at that, I do 
not think we will have anything where we would again have to 
spend that much.
    We ought to be able to divide our cash reserves some way, 
maybe in a three-tier type program where the first tier will be 
something that will be in the Mayor's drawer, and if we need it 
on an emergency basis, he can open up the drawer and pull it 
out. Obviously, the return would be very short. But we ought to 
be able to invest it where it will be a little harder to get 
the money, but we should be able to get it if we need it. And 
then the third tier, harder term.
    Our problem is that as we looked at how we could do that 
investment, at some point based on investments, we may not have 
the 7 percent, and we would like to be able to work with you 
all so that we could get the best return on that much money.
    Senator Landrieu. Absolutely. There are a couple of 
solutions that we can work with you on. And they are not 
difficult because many cities and States have these--in 
Louisiana we have a Louisiana asset management program which we 
actually started for all of our cities. It is a pooled 
investment strategy where cities can get a very high or higher 
rate of return than they normally would with having deposits in 
a more traditional fashion. But the money is readily usable and 
available. So, why do we not direct the staffs to come up with 
some specifics and we will work with you on that. I think that 
we can solve that problem.
    Let me just go to three things quickly, and I would like to 
start with the second panel in about 5 minutes.
    But, Mr. Mayor, one of the great challenges before us with 
you right now is protecting the city from future terrorist 
attacks and from dealing with the consequences, should they 
occur. Right after September 11, we invested as a Congress over 
$200 million to help increase the security of the District, 
recognizing that this is a very target-rich place. Because of 
that, because this is the Nation's capital, the city has 
additional responsibilities. All cities have to heighten their 
security, but the District has some challenges.
    However, I was concerned when I read recently about an 
incident that occurred in Metro where a man suffered a heart 
attack and because of some communication breakdown, we were 
unable to provide him the kind of immediate assistance 
necessary. It had to do with the new radios that we provided 
funding for, but yet we did not have the kind of antennas 
necessary between the city and Metro.
    So, Mr. Mayor, could you address that? We hope that has 
been fixed. If not, how are we going to fix it? Because it is a 
little bit discouraging to continue to fund new radios, new 
equipment, new systems and then to have something like this 
happen that causes us to wonder if we are getting it right.
    Mr. Williams. In order to give you a complete and thorough 
answer, could I ask our Deputy Mayor to respond on that 
particular instance?
    Senator Landrieu. Yes.
    Ms. Kellems. Good afternoon. I am Margaret Kellems, the 
Deputy Mayor for Public Safety.
    That was a disturbing incident we had there, and we have 
worked very closely with WMATA, the Metro Authority, that 
actually has jurisdiction.
    To make a very long story short, you all were kind enough 
to give this city a significant amount of money, $156 million 
approximately, for emergency preparedness. About $46 million of 
that was to fix, among other things, the radio system, the 
communication system, for first responders. WMATA, the Transit 
Authority, actually got a separate pot of money as well.
    The technical issues aside, essentially you need 
communication systems inside the tunnels and above ground. And 
we are working very closely with WMATA and have struck a deal 
that this city is making the investment for the above ground 
infrastructure and WMATA is making the investment for the 
infrastructure needed inside the tunnels. In the meantime, we 
are working through some operational short-term fixes so that 
we do not have this problem again.
    The bottom line is communication systems have a very hard 
time operating underground in any city.
    Senator Landrieu. But a couple questions. Are we convinced 
that the plan we have now can be implemented, and when it is 
implemented, can the taxpayers expect basically full coverage 
underground and above ground? Or are we going to be somewhat 
limited no matter what we do?
    Ms. Kellems. Well, we will have 100 percent coverage but it 
will not necessarily be from the infrastructure investment. We 
are hoping to get very, very close to 100 percent, but there 
will always be some very, very limited circumstances where the 
infrastructure is not going to be the solution. In other words, 
you will have to have some kind of interim solution for very 
certain limited circumstances.
    In Washington, because of height limitations, we build down 
very deep into the ground and it is difficult, if not 
impossible to get radio signals. The example we always use is 
the communications. There is a cellular carrier here that has 
more than 100 antennas throughout Washington and they do not 
have coverage everywhere. It becomes at some point impossible.
    Our goal is to have 100 percent communication even if only 
98 percent of it is from the infrastructure of the antennas 
that we are putting into place, and 2 percent has to be 
augmented with other systems.
    Senator Landrieu. In terms of the time frame, when do you 
estimate that coverage will be completed, antennas up, 
infrastructure in, so we can count on a pretty good system of 
security and communication between Metro and the city?
    Ms. Kellems. Well, with the Metro system, we are hoping to 
do this very expeditiously. There is a plan in place and they 
are looking to build it out. I am going to get back to you with 
a very definitive answer, but I would say it is probably in 6 
to 9 months. For the rest of the city, for the rest of the 
internal into the buildings, we are looking at about 16 months 
right now.
    In the meantime, this is incremental. It is not sort of 
nothing is going to happen and 16 months from now we flip the 
switch. The incremental improvements are being made as we go 
along right now with things like vehicle repeater systems and 
mobile communications devices that we can dramatically improve 
the communications as we go along.
    Senator Landrieu. Thank you for that information.
    Two more questions quickly, both to the Mayor and Mrs. 
Cropp. One of the great challenges before the city is reform of 
the child welfare system. I understand in your budget the Mayor 
has proposed and the city council has approved an increase. 
There are going to be an additional, I think, 82 positions. How 
many of those positions are social workers? Could you both give 
maybe a minute-and-a-half comment about how you see the child 
welfare reforms developing, what you are pleased with, what you 
still see are problem areas? And how many of these new 
positions are actually going to be social workers? And can you 
comment as to what the caseload will then be decreased to, 
which is one of the main problems of an efficient system having 
too few social workers, too many cases, and not enough 
attention per child or per family?
    Ms. Cropp. Our rate of social workers coming on and off I 
think has been much too swift. The District in the past, 
because it wanted to do things a little better, had some 
outdated things with regard to some of our social workers. I 
would like to see us move into somewhat of a tier case having 
social workers with a master's degree and then also having some 
social workers with a bachelor's degree to help out.
    We have to do a better job I think on hiring, bringing 
people in and attracting our social workers to come in. That is 
one of the areas where I think you will see the Mayor and 
council working together on it. It is one of those problem 
areas, as we come out of receivership, that we are going to 
concentrate on.
    Senator Landrieu. Mr. Mayor?
    Mr. Williams. June 15 marks the 1-year anniversary of the 
termination of Federal Court receivership for child and family 
services. Two things that I am particularly proud of is, one, 
bringing in Olivia Golden as the director of this agency. I do 
not think you could find a better director in the country than 
Olivia Golden with just a national standing, working for Marion 
Wright Edelman, national standing working for Donna Shalala, 
just a huge background to bring to this job.
    Second, working with Sandy Allen, the Chair of the 
council's Human Services Committee and the council to do 
something that is sometimes unusual for public organizations to 
do, and that is fully fund child and family services agencies. 
As you know, there is no lobby for the child and family 
services agency. There is no one standing outside your door 
saying fully fund this agency. You get a lot of brickbats and 
abuse for funding an agency that has had, because it was in 
receivership, a lot of problems. That is why it was in 
receivership. But to fully fund that organization and to allow 
it to meet its responsibilities I think takes us a long way.
    The fiscal year 2003 budget requests $224 million. It is 
the first budget developed for the agency as a new cabinet 
level agency for the District with new responsibilities for 
abuse and neglect, licensing and monitoring of foster homes and 
group homes, as well as for personnel and procurement 
authority. It is the first budget that reflects a full child 
welfare reform enacted by the District in April 2001.
    And I can get you the figures as to how this budget is 
broken down between social workers--we are getting it right 
here. New positions, 28 social workers transfer from court 
services, 40 brand new positions, for a total of 68. And our 
goal is 340 social workers next year to get close to the 
mandated ratio. So, we are actually making substantial progress 
now in meeting that objective.
    Senator Landrieu. Well, let me commend you for the 
leadership that you brought in because I have a great deal of 
confidence in this leadership team and have met with them on 
several occasions. And we will try to keep a close relationship 
because, Mr. Mayor, as you know, this is an issue of great 
importance to Members of Congress on both sides of the aisle in 
both the Senate and the House. We have invested as a Congress a 
considerable amount of money, almost $30 million in a new 
family court system, and will continue. That will only work if 
the city's half of that effort is conducted in a professional 
and efficient way.
    And I really want to commend you and tell you please do not 
hesitate to ask for resources that are necessary, not to say 
that we could meet every request, but we want to truly be a 
partner in creating a model child welfare system in this 
community.
    The same way you have a very desperate shortage of 
teachers, we have to think of new ways of recruiting teachers, 
new ways of compensating teachers, new ways of thinking outside 
of the box of certifying teachers. I think the same thing is 
going to start happening with social workers because, Chairman 
Cropp, our turnover rate is too high. So, we have to think of 
getting different kinds of people involved that can do the 
work, maybe not have the traditional certifications, but do 
have the skills, do have the motivation, and do have the 
ability to help our families and our children through some very 
difficult crises. So, I challenge you all to think about that.
    Let me say I am sorry I have got to bring this to an end 
and begin our second panel because, Mayor, I know your time is 
limited. I am going to have to stop this hearing actually in 20 
minutes. I want to thank this panel for their time.

                    ANACOSTIA WATERFRONT INITIATIVE

    Would the second panel please come forward: Mayor Williams, 
Mr. Andrew Altman, who is Director of the Office of Planning 
for the Anacostia Waterfront, and Mr. Jerry Johnson, General 
Manager. We will not take a break, if you do not mind, and just 
continue to try to work through. Thank you all very much.
    Could we start with the PowerPoint presentation I 
understand that you all have? And let us go ahead and get that 
started because I really think it would be important for us to 
see this presentation and then have at least 10 minutes for 
questions and comments. Are we ready to begin? No, not yet?
    Let us start with you, Mr. Mayor, while they are getting 
ready. Do you want to make some opening remarks? I know that 
you and I share a passion for this initiative, and let me just 
begin by thanking you and complimenting you. It is just a 
wonderful project for the city and this region, and we are 
looking forward to the presentation today.
    Mr. Williams. Well, Chairman Landrieu, I am speaking to a 
partner in our effort for the Anacostia Waterfront initiative. 
So, I have submitted written testimony which really reiterates 
something that you well know and other Members of Congress 
know, our partners, about the need to restore this river and 
the need to focus on our Anacostia River not only to bring the 
District's waterfront to where it should be for a great city, 
but also to use the Anacostia waterfront and surrounding 
neighborhoods as a way to tie our city together recreationally, 
culturally, commercially, and environmentally.
    There have been some notable successes in bringing this 
river back, a river with such glorious history, Frederick 
Douglass and the Navy. You are well aware of some of the 
initial successes from the work on the river walk to the 
investments of the Department of Housing and Urban Development 
to the investment of NAVSEA and the expansion of the Navy Yard, 
partnership with the Army Corps of Engineers, the partnership, 
for that matter, with Congressman Steny Hoyer enlisting support 
in the Congress to relook and rethink about South Capitol 
Street as a major gateway into our Nation's capital. It is 
certainly a major gateway right now, as you well know, as you 
cross the Frederick Douglass Bridge.
    So, while we have a lot to speak to in terms of 
accomplishments, there is still a need for major public 
investment and I think chief among those investments--and I am 
glad that Jerry Johnson is here who is the Executive Director 
of the Water and Sewer Authority--certainly initially is to get 
control of combined sewage overflow into the Anacostia. It 
makes it one of the dirtiest rivers in the country.
    Certainly another initial investment--and we want to thank 
you for your support on it--is looking at the whole area around 
Kenilworth Park and seeing what we can do to make it a major 
investment in the short term to provide more recreation for our 
children and families, and do it in such a way that in the long 
term it supports the District's efforts to be a site of the 
2012 Olympic bid.
    With that, I think the PowerPoint is just about ready, but 
I want to thank you, Madam Chair, for your leadership and 
partnership with us on what I think will be a legacy project 
for all of us, 20, 30, 40 years down the road and something we 
can all be proud of.
    [The statement follows:]
            Prepared Statement of Mayor Anthony A. Williams
                    anacostia waterfront initiative
    Chairman Landrieu, Senator DeWine, and members of the subcommittee, 
thank you for allowing me the opportunity to speak to you today about 
the Anacostia Waterfront Initiative. We have achieved our first 
successes, and yet much remains to be done to restore the Anacostia 
River and recover its shoreline for the people of the District of 
Columbia and the nation.
    We face a historic opportunity in the District of Columbia--
virtually unmatched in scale by any other American city--to transform 
upwards of 900 acres of a neglected, abused river corridor into a model 
of 21st century urban life. A network of neighborhoods and parks that 
are socially diverse and vital can be made environmentally and 
economically sustainable for future generations.
    Conventional wisdom tells us that Washington lies along the 
Potomac, but this is just half of the story. The Anacostia--the 
District's other river--comprises more than two-thirds of our city's 
total linear shoreline. The Anacostia is the District's--perhaps even 
the nation's--most undervalued natural resource.
               history and the current state of the river
    The Anacostia has played a critical role in our city's history. 
Early settlers were drawn to its natural riches. With the establishment 
of the capital city, it became the location for our nation's oldest 
Navy Yard, which was surrounded by bustling market places and working 
harbors. Freed slaves found footholds in waterfront neighborhoods, 
particularly on its eastern shores.
    However, the Anacostia has been in a state of environmental decline 
for centuries. By the time of the Civil War, the river had been silted-
in by deforestation and careless agriculture. The deep-water port of 
Bladensburg was no longer navigable by ocean-going vessels. The 
development of armaments at the Navy Yard combined with other 
industrial uses introduced toxic wastes into its eco-system. The 
construction of Washington's combined sewer system has discharged 
sewage into the river for more than a century.
    In the 1920s, Congress authorized the U.S. Army Corps of Engineers 
to fill in the river's tidal wetlands in pursuit of public health 
improvements and flood control. The resulting 1200 acres of parkland 
were placed under the control of the U.S. Department of the Interior, 
but no significant investment has been made in the lands since that 
time. The National Park Service must also renew its commitment to 
stewardship of lands in its care.
    Increasingly, the Anacostia River is threatened by the phenomenon 
of non-point-source pollution--the run-off carrying pollutants from our 
parking lots and streets. Post-war suburbanization of the river's 
watershed has resulted in the most densely populated sub-watershed in 
the entire Chesapeake Bay. With 80 percent of the river's watershed 
located in Maryland, this is a regional environmental crisis.
    Today, 70 percent of the watershed has been urbanized. Less than a 
quarter of the original forest cover remains. In addition to upstream 
pollution, the District's sewer system still releases sewage into the 
river when the storm sewer system is overwhelmed by heavy rains. The 
Anacostia is one of the Chesapeake's three most polluted rivers.
                            need for action
    I like to take visitors up to St. Elizabeths for the breathtaking 
view of the District and the Anacostia River that runs through it. For 
too long, the river has symbolically divided our city into rich and 
poor neighborhoods. Nothing would better symbolize our aspirations and 
our success in revitalizing our city than to restore the river and its 
waterfront.
    As one of the District's most unique assets, we must capitalize on 
what the Anacostia can offer us. We can unify and revitalize diverse 
waterfront neighborhoods by introducing new parks, housing, and 
commerce.
    Currently, more than 90 percent of the river's immediate shoreline 
is in public ownership, with the National Park Service, the Navy 
Department, the General Services Administration (GSA), and the District 
the major landowners. The waterfront revitalization effort necessitates 
a broad-based, coordinated effort between the District and the federal 
government.
    In March 2000, I brought all the parties together that own or 
control the land along the Anacostia. The resulting Anacostia 
Waterfront Initiative memorandum of understanding (MOU) was signed by 
the District of Columbia and more than 18 federal agencies.
    I believe that this is one of the most important partnerships 
between the District and the federal government.
                            accomplishments
    As a result of this new and unprecedented level of coordination, 
the Anacostia partnership has begun to produce results. Just to mention 
a few:
    The consolidation of the NAVSEA division to the Washington Navy 
Yard as part of the base realignment process has proven to be powerful 
driver for the Near Southeast neighborhood. The Navy has invested more 
than $200 million into renovating its historic structures, which now 
includes more than 10,000 personnel. Once again, the Navy Yard is an 
important economic engine for Southeast Washington.
    The U.S. Department of Housing and Urban Development (HUD) has 
awarded the District of Columbia Housing Authority (DCHA) a $35 million 
HOPE VI grant to transform distressed public housing only five blocks 
away from the Capitol building. This action is historic in two 
respects. First, it is the highest leveraged grant in the history of 
the HOPE VI program, inducing more than $350 million of public and 
private investment. Secondly, the project has guaranteed one-to-one 
replacement of public housing units. This development will go a long 
way to realizing our vision of a mixed-use and mixed-income waterfront 
neighborhood in the Near Southeast.
    A partnership that includes the U.S. Army Corps of Engineers, the 
District, and the National Park Service has led to the restoration of 
42 acres of wetlands on Kingman Lake, one of the islands in the 
Anacostia. Habitat restoration work is also underway on Kingman Island, 
after the title was transferred to the District in December 2000. These 
projects foreshadow the large-scale environmental restoration projects 
necessary to reconstruct the river's riparian systems.
                       need for public investment
    A river that was once a national embarrassment will one day become 
a national treasure. However, there is a need for continued public 
investment in the river and its neighborhoods, if we are to achieve our 
shared vision:
    To fish and swim in the Anacostia within our lifetime, it is 
imperative that the District of Columbia Water and Sewer Authority's 
Long-Term Control Plan be implemented. Implementing this plan will 
control sewer overflows, one of the Anacostia's major sources of 
pollution.
    To safely stroll and bicycle along the shoreline, it is imperative 
that the Anacostia Riverwalk and Trail provide more than 18 miles of 
continuous paths. More than any other project, the Riverwalk will 
connect divided neighborhoods to each other and give people access to 
the river. The project has already received $1.3 million for planning 
and three demonstration segments will be constructed this coming 
summer.
    To engage in waterfront activities and enjoy the Anacostia's 
natural splendor, it is imperative that a system of great parks is 
constructed along its shores. New signature parks and plazas should be 
constructed in Southwest, at the Southeast Federal Center and at Poplar 
Point. The Navy is leading the way with a newly constructed park 
nearing completion at the Navy Yard.
    In addition, the surrounding obsolete highways, bridges, and 
boulevards need to be redesigned and reconstructed in order to provide 
access to the waterfront. We are promoting multi-modal uses and civic 
design for all river crossings. We envision redesigning the city's 
principal avenues to the waterfront--Maine Avenue, South Capitol 
Street, and Pennsylvania Avenue--into pedestrian-friendly urban 
boulevards and gateways to the area's network of parks.
                                endeavor
    Our shared vision for the Anacostia Waterfront is to transform the 
river from a dying artery into to a great civic heart--beating with 
vitality and life. It is a vision that promotes a sustainable balance 
of neighborhoods and the natural environment; that provides the 
amenities and infrastructure necessary to grow in the 21st century.
    The District and our federal partners are working closely on the 
Anacostia Waterfront Initiative framework plan, which is projected to 
be released this fall.
    Similar to the MacMillan Commission's vision for the National Mall 
in 1900, the Anacostia Waterfront Initiative will take many years to 
fully implement. I look forward to returning to this committee to brief 
you on the full outline of improvements proposed by the partnership's 
framework plan. I look forward to working with the Senate and the House 
to establish sustainable and regular appropriations to address this 
important investment in our city.
    This concludes my testimony. I thank you for the opportunity to 
bring this important initiative before the committee. I would be 
pleased to respond to any questions you may have.

    Senator Landrieu. We will go ahead while we are waiting. 
Mr. Altman.
STATEMENT OF ANDREW ALTMAN, DIRECTOR, DISTRICT OF 
            COLUMBIA OFFICE OF PLANNING
    Mr. Altman. Thank you very much, Chairwoman Landrieu. What 
I am going to do today is to provide a very brief overview in 
light of the time on the PowerPoint.
    As the Mayor said, the Anacostia really is the future of 
the city and of 21st century Washington, of bringing together 
the east and west sides of the river and really being the 
center of Washington in its next stage of development. It is in 
many ways the unfinished business of both the MacMillan plan 
100 years ago, and we have a tremendous momentum now on the 
anniversary of that plan to really see it through to completion 
and transform the city. It truly is a legacy project.
    What makes this initiative I think so unique and so 
different from past efforts has been the leadership of the 
Mayor in bringing together all the Federal agencies. It is 
truly a partnership between over 18 Federal agencies. As you 
know, 90 percent of the land along the Anacostia is publicly 
owned. Over 70 percent is Federally owned. So, the initiative 
cannot be successful without a strong partnership and that is 
what the Mayor has brought together in the memorandum of 
understanding that has been signed by these agencies who all 
committed to focus on the Anacostia Waterfront as the major 
initiative moving forward for the city.
    [The statement follows:]
                  Prepared Statement of Andrew Altman
                             the awi vision
    Few human endeavors are more rewarding than participating in the 
reversal of a long-standing, negligent course of action towards an 
environment--and reaping the benefits of the reversal of fortune for 
that environment. That is what lies ahead for the District of Columbia 
in relationship to the Anacostia River and its environs.
    The District faces a historic opportunity--virtually unmatched in 
scale in other American cities--to transform upwards of 900 acres of a 
long-neglected, indeed, abused, river corridor into a model of 21st 
century urban life--socially heterogeneous; culturally diverse and 
vital; environmentally and economically sustainable across generations.
    Implementing the vision outlined in the forthcoming Anacostia 
Waterfront Draft Framework Plan will mean that successive generations 
of 21st century Washingtonians will experience an enhanced quality of 
life made possible by a restored, reclaimed and well used river 
environment at their civic doorstep. A revitalized Anacostia waterfront 
will be key to the rediscovery of the city as a great place to live.
    It will mean reinvestment in, and stewardship of, a host of 
neighborhoods that have long bordered the Anacostia, but have had 
insufficient access to its assets.
    It will mean the creation of new neighborhoods, fulfilling the 
growing demand for additional urban housing and accompanying urban life 
styles sought by Americans interested in alternatives to the suburban 
experience.
    It will mean a generosity of public space and a substantial 
expansion of those indelible images of place that American's associate 
with their nation's capital.
    No longer to be the District's unheralded river, the Anacostia 
represents the natural next direction of both growth and renewal for 
the city itself. It must be wise growth and renewal. The Anacostia 
Waterfront Initiative sets its sights on nothing less. Its foremost 
goal is the creation of a world-class urban waterfront cherished by the 
citizens of the District, and a symbol of renewed center-city urbanity 
for America.
                            what is the awi?
    The Anacostia Waterfront Initiative is an inter-agency partnership 
to create a vision for waterfront areas along the Anacostia River. 
Building on the great historic plans for the District of Columbia, the 
partnership envisions an energized waterfront for the next millennium 
that will unify diverse areas by capitalizing on one of the City's 
greatest natural assets, the Anacostia River. The Initiative seeks to 
revitalize waterfront neighborhoods, enhance and protect park areas, 
improve quality of water and environment, and where appropriate, 
increase access to activities along the waterfront.
               the awi memorandum of understanding (mou)
    A Memorandum of Understanding was signed in March 2000 by 18 
Federal and District agencies who control or have direct jurisdiction 
over the banks of the Anacostia River. Please find a copy of the MOU 
attached to this testimony.
                             the awi goals
    The community planning process has developed a series of guiding 
objectives:
    1. Restore the Anacostia's water quality and its natural beauty
    2. Reclaim the river's waterfront as a magnet of activity
    3. Embrace the Anacostia as the District's central natural feature
    4. Stimulate sustainable development in waterfront neighborhoods
    5. Promote excellence in design in all aspects of the endeavor
    6. Engage all segments of the community to foster river stewardship
    7. Create a lively urban waterfront of world-class distinction
                      the awi draft framework plan
    All great urban waterfronts depend upon the following 
characteristics: waters that are clean and safe (and therefore able to 
be well used), segments which preserve the river's natural qualities 
and habitats, clear and easy access to and along the water, frequent 
crossings (so that the water itself avoids becoming a barrier), a 
continuous network of great parks and open spaces, special destinations 
and attractions, and vital neighborhoods for living, working and 
learning. The five themes that guide the forthcoming AWI Draft 
Framework Plan document (for release in September 2002) aim to achieve 
these qualities on the Anacostia waterfront.
1. A Clean and Active River
    The most ambitious, yet most essential goal of the AWI is for the 
Anacostia River to be a clean, safe and well-used waterway--a swimable 
and fishable river--by 2025. This involves implementing the D.C. Water 
and Sewer Authority's (WASA) estimated $1.4 billion, 20-year Combined 
Sewer Containment Plan to control sewer outflows, the Anacostia's 
principal source of pollution. Likewise, best practices must be 
employed throughout the watershed with low-impact development, natural 
systems restoration, and environmental stewardship.
2. Breaking Down barriers and Gaining Access
    The Anacostia is unique as it is readily served by transit with 8 
Metro stations within a 10 minute walk of the waterfront. Nevertheless, 
the waterfront is currently separated from its adjacent neighborhoods 
by aging, commuter-oriented transportation infrastructure making it 
difficult for anyone to access the river's edge. The emerging Anacostia 
Riverwalk and Trail will provide over 18 miles of continuous access to, 
along and across the water connecting neighborhoods to the river and to 
each other. Moreover, the Frederick Douglass Bridge and the 11th Street 
Bridges should be reconstructed for local access and all bridges must 
be redesigned to include pedestrian and bicycle access. The redesign of 
the city's principal avenues, like Maine Avenue, South Capitol Street 
and M Street, into pedestrian-friendly urban boulevards is another 
vital step towards revitalizing the Anacostia waterfront.
3. A Great Riverfront Park System
    The Anacostia River and the National Park Service's Anacostia Park 
are two of the District's most precious, though underutilized, natural 
resources. Creating the Anacostia Waterfront Park Network would 
complete the regional park system by integrating it with the river and 
the existing Anacostia Park through the 18-mile Anacostia Riverwalk and 
Trial and over 120 acres of new, distinctive waterfront parks in the 
Southwest Waterfront, Near Southeast, Reservation 13 and Poplar Point. 
From the wetlands and wilds along its upper reaches to the formality of 
esplanades along the Navy Yard and the Southwest Waterfront, the 
Anacostia's potential is even greater than that of Rock Creek Park to 
serve the very heart of the District as a great and varied park 
environment.
4. Cultural Destinations of Distinct Character
    The Anacostia River waterfront is a diverse landscape made up of 
qualitatively different segments--the upper reaches are 
characteristically natural and pastoral, while the middle and lower 
reaches are more recreational and urban. By designing new places and 
parks for civic gathering, celebration and culture, the segments of the 
river can be made more distinct, diverse, and special. There are 10 
possible sites along the waterfront for new museums and 15 possible 
sites for new memorials.
5. Building Strong Waterfront Neighborhoods
    Opportunities to live and work along the waterfront will be 
plentiful with approximately 20,000 new units of waterfront housing 
Connect existing neighborhoods to waterfront park system New mixed-use 
(housing, retail, office, culture, recreation) waterfront 
neighborhoods.
                       the benefits to be gained
    This strategic long-term partnership between the District and the 
Federal Government, dedicated to transforming 900 acres of land along 
an urban waterfront--nearly 90 percent of which is in public 
ownership--will result in:
  --Preliminary estimated public investment of $3 Billion over 25 
        years.
  --Substantially improved water quality for the Anacostia through the 
        implementation of the Combined Sewer Outflow Long Term Control 
        Plan, wetland restoration and stream daylighting, and 
        environmental guidelines governing future development along the 
        Anacostia.
  --An integrated open space system incorporating and connecting 1,800 
        acres of park land, including over 100 acres of newly created 
        public parks.
  --Eighteen miles of a continuous Anacostia Riverwalk and Trail along 
        both banks of the Anacostia.
  --A revitalized South Capitol Street Corridor in the form of a 
        ceremonial boulevard and, along with the Suitland Parkway, 
        creating a grand gateway to the Capitol Building.
  --A signature cultural park at Poplar Point celebrating the area's 
        rich African American history and heritage, with improved 
        access to the river from all of the adjacent neighborhoods.
  --New mixed-use neighborhoods at the Southwest Waterfront, Buzzard 
        Point, the Near Southeast Waterfront, and Reservation 13.
  --15,000 to 20,000 additional housing units for the District.
  --Prominent sites for 10 additional museums and/or cultural 
        destinations, and for more than a dozen future memorials and 
        monuments.
  --Four-to six additional public boat launching sites and boathouses.
  --Upwards of 20,000,000 square feet of commercial, retail and 
        service-oriented space.
                      coordinated actions to-date
The Anacostia Waterfront Initiative: Two Years Old and Setting High 
        Goals, May 16, 2002
    It has been two years since Mayor Anthony A. Williams gathered 
representatives of over 18 Federal and District agencies at the 
Washington Navy Yard to sign the Anacostia Waterfront Initiative 
Memorandum of Understanding. Since that day in March 2000, the AWI 
partnership has been at work coordinating land use and landscape plans 
for the waterfront.
    This process has been unprecedented in a number of ways:
  --Inter-agency cooperation has included all government agencies, both 
        District and Federal, who own, control or regulate land along 
        the river;
  --The process includes both sides of the river from the Maryland 
        border to the Tidal Basin, not just a single property or 
        neighborhood;
  --The planning has been comprehensive and has sought to find 
        integrated and sustainable solutions to environment, 
        transportation and land use challenges;
  --Most importantly, the process has included extensive community 
        engagement, which has brought the wishes and desires of 
        neighborhood leaders to the fore and into direct contact with 
        MOU agency representatives.
    The process is being coordinated by the DC Office of Planning, 
which has recently issued the AWI's preliminary recommendations for a 
first round of public comment and is working toward releasing the 
complete AWI Draft Framework Plan this fall.
    However, AWI is not intended as a planning exercise only.--The AWI 
partnership has been hard at work coordinating actions ``on the 
ground'' and yielding exciting new results for the neighborhoods along 
the river. The following represents a snapshot of current public sector 
projects that are catalyzing the transformation of the shores of the 
Anacostia River and the Washington Channel by providing important 
infrastructure and environment improvements.
Upper Reaches of the River: Anacostia Waterfront Park Network
    The District, the National Park Service (NPS) and the Maryland 
Department of Transportation (M-DOT) have signed an MOU to extend the 
Anacostia Riverwalk and Trail from the Kennilworth Aquatic Gardens to 
the recently constructed public marina and park in Bladensburg, 
Maryland.
    The U.S. Soccer Federation, together with NPS and DC Sports and 
Entertainment Commission (DC-SEC) have received funding to begin 
planning of recreational fields in Kenilworth Park.
    The District Department of Transportation (D-DOT) is revising 
designs for the Kenilworth Freeway at Nannie Helen Burroughs NE to 
create a pedestrian and bicycle gateway to Kenilworth Park and Aquatic 
gardens. This link will connect the District's largest park and trail--
Watts Branch--to the waterfront park system.
    Langston Golf Course is in the design phase to build a new club 
house.
Middle Reaches of the River: RFK Area/Reservation 13, Anacostia 
        Waterfront Park Network
    The District Department of Transportation (D-DOT) is completing 
reconstruction of the Benning Road bridge to include wide sidewalks and 
a new pedestrian gateway to Kingman Island.
    The DC Department of Parks and Recreation (DC-PR), the DC 
Environmental Health Agency (DC-EHA) and the U.S. Army Corps of 
Engineers (U.S.-ACE) are restoring natural habitat to Kingman and 
Heritage Island and constructing additional wetlands along the Island's 
shoreline.
    The US-ACE and the NPS are ``daylighting'' Popes Branch and Ft. 
Dupont Creek. These projects will take the streams out of below-grade 
storm sewers to flow at-grade through Anacostia Park thereby creating 
habitat and visual interest in the park.
    The DC-SEC has brought the Cadillac Grand Prix racing event to the 
RFK campus for the first time and is currently reconstructing the 
parking lots north of RFK, while introducing state-of-the-art storm 
water run-off technologies to the RFK parking lots.
    St. Coletta School is in design for the first building to be 
constructed on Reservation 13 since the Draft Master Plan was completed 
in March. The design architect is Michael Graves.
Poplar point
    The NPS, DC-EHA and the National Oceanic and Atmospheric 
Administration (NOAA) are funded to daylight Stickfoot Creek and 
remediate soils on Poplar Point.
    The Advantage Charter School is nearing completion on Howard Road.
Near Southeast
    The Marine Barracks project has broken ground at 7th and L Streets 
SE. The project will be the new home for the U.S. Marine Corps Band and 
practice facility as well as a ballfield to be shared with neighborhood 
residents.
    The $35M HOPE VI grant from the U.S. Department of Housing and 
Urban Development (HUD) has been leveraged by the DC Housing Authority 
(DC-HA) by approximately 9:1. Over 1500 new units of housing will be 
created with a guaranty of 1:1 public housing unit replacement to 
create a new mixed-use, mixed-income waterfront neighborhood.
    The D-DOT will break ground on three important projects this 
summer, including the reconstruction of 8th Street Barracks Row, the 
extension of M Street and the Anacostia Riverwalk and Trail 
demonstration projects.
    The Navy is in the final stages of constructing a beautiful new 
waterfront park, which includes innovative elements such as Low Impact 
Development measures as well as a design approach which will address 
force protection and security while also allowing continuous public 
access to the water's edge.
    The U.S. Department of Transportation will be relocating to the 
Southeast Federal Center. This 1.7 million gsf building will bring an 
additional 7,500 federal employees to the neighborhood.
    The GSA has completed construction of a new seawall at the 
Southeast Federal Center and has issued an RFP for the development of 
the remaining 44-acres of prime waterfront land. D-DOT has 
reconstructed all of the streets surrounding the SEFC, upgrading the 
quality of public spaces in preparation for development.
    The DC Office of Planning has rezoned the land known as Buzzard 
Point permitting residential uses to be introduced to this prime 
waterfront land.
    Pepco, the District, NPS and the Navy have partnered with the Earth 
Conservation Corps and the National Geographic Society to create the 
Matthew Henson Center, a new environmental learning center in the 
former PEPCO pump house.
    In a similar partnership, D-DOT has made a building beneath the 
11th Street bridges available to the Capitol Community Rowing Center, a 
non-profit boat house to serve the Anacostia River rowing community.
Southwest/Washington Channel Waterfront
    The District has entered into a public-private partnership to re-
introduce 4th Street SW through the site known as Waterside Mall in 
order to create a new retail town center for the Southwest 
neighborhood.
    D-DOT and Federal Highways are commencing the rehabilitation of the 
10th Street overpass which will include the redesign of the urban 
streetscape of L'Enfant Plaza. The goal will be to create a more 
hospitable urban realm between the Smithsonian Institution and the 
Washington Channel Waterfront.
    The National Capital Revitalization Corporation (NCRC) has taken 
control of the Gangplank site and procured the services of a new marina 
operator.
    The District has issued a $46 million tax-revenue bond for the 
Mandarin-Oriental hotel on the Portals Site, providing a key amenity at 
the gateway between the Tidal Basin and the Washington Channel.
    The US-ACE and the District Department of Housing and Community 
Development are completing a marina and site improvements, which will 
restore historic structures, create more marina capacity and improve 
parking at the Washington Marina and the Fish Market.
    Together, these projects demonstrate the first-step commitment to 
reclaim Washington's waterfront for the benefit of neighborhoods, the 
nation's capital and the region. The Anacostia Waterfront Initiative 
Framework Plan will build on these first steps to chart the course 
towards achieving full clean-up of the River's water; easy access to 
its shores; creation of a great new parks network; introduction of 
cultural destinations and the strengthening of all the neighborhoods 
along its shores.

    Senator Landrieu. Can I just ask you something? Is the 
planning money that supports that 18 agency consortium coming 
out of the city budget or is it something the Federal 
Government is contributing to?
    Mr. Altman. That is largely city. We received some Federal 
funds through transportation dollars, but largely it has been a 
city-backed initiative.
    Senator Landrieu. I would like to help you with that. I 
think we could pick up legitimately some additional expenses 
associated with that since it involves so many Federal 
agencies. It is not just coordinating city agencies, but it is 
our responsibility also I think to help coordinate the Federal 
agencies. So, we will work with you, Andrew, on that.
    Mr. Altman. That would be wonderful.
    Senator Landrieu. It is a small help, but I think it would 
make sense.
    Mr. Altman. Much appreciated. It goes a long way.

                      WHAT MAKES UP THE WATERFRONT

    As you can see here, the boundaries of the initiative go 
all the way from the southwest waterfront, which is 7 blocks 
from the Mall where we sit today, all the way through--this is 
Buzzard Point over to the east, Poplar Point. This is around 
RFK and where Reservation 13, our recent planning efforts, 
Kingman and Heritage Island, and all the way up to the 
Arboretum, and of course, Kenilworth. So, it is roughly 2,800 
acres in area.
    We have five major themes. I am going to run through these 
very quickly because there are a lot of detail and 
recommendations behind each of these. There are five critical 
elements to creating a great waterfront for the city. One is a 
clean river. Two is breaking down our barriers, in other words, 
getting access to the river. Third is creating a great park 
system that we think should rival the great park systems of the 
world. The fourth is bringing cultural destinations to the 
waterfront, and the fifth is building strong waterfront 
neighborhoods. And I am going to go through each of these very 
briefly.
    The first is a clean and active river. I am glad that Jerry 
Johnson is here, and you will hear more detail about this. But 
it is clear that we have one of the most polluted rivers in the 
country. The Mayor has been very committed to the cleanup of 
the Anacostia and made that a priority to put our attention to 
it, and the plan you will hear from Jerry Johnson today is part 
of redressing that. But clearly fundamental is getting a clean 
river again. That also requires the cooperation with Maryland 
in order to do that.
    The overview of the plan shows that the major initiatives 
to do that are implementing the CSO, the combined sewer 
overflow plan that WASA is putting forward, implementing state-
of-the-art restoration practices. We have to continue to have 
the cooperation with Maryland because roughly 80 percent of the 
pollution is coming from downstream as part of the watershed 
here. We want to create triple the amount of wetlands as is 
happening now with the restoration around Kingman and Heritage 
Island. We want to continue to expand public access to the 
water. We want to start daylighting streams and really doing 
more low impact development. But key to this will be the sewer 
plan that you are going to hear in a moment.
    Our goal is, obviously, to have a swimmable river by 2025 
so that we can move from the condition--as you see here, this 
is some of the sewer outflow. These are some of the industrial 
uses that pour into the river--to create much better 
environments along our waterfront.

                     BARRIERS TO WATERFRONT ACCESS

    The second major initiative of the Anacostia Waterfront is 
eliminating barriers. Here are some of the barriers to 
accessing our waterfront, the railroads, the bridges, many of 
the freeways that come through were built in sort of the 
classic way in cities throughout the country that separated 
waterfronts from their neighborhoods. So, we have to overcome 
those barriers and bring access to the waterfront.
    Some of the key things we want to do. One is build our 
capacity with transit. We are looking at different light rail 
possibilities in the city, particularly along M Street and 
going up here through RFK. Here are all the Metro stations. If 
we connect that with the new light rail, you would have a 
tremendous opportunity. It has been done. San Francisco 
recently has put light rail along their waterfront. It 
transformed the Embarcadero.
    We are looking at reconfiguring the bridges so the South 
Capitol gateway being more of a commuter bridge, make these 
other bridges on 11th Street and moving up the river, 
Pennsylvania Avenue, more local bridges the way the Ellington 
Bridge is. If you think what a beautiful bridge that is 
connecting Adams Morgan to Woodley Park, imagine that across 
the Anacostia.
    Here just shows you the South Capitol gateway. This is 
going to be a major initiative. This is what the Mayor 
mentioned in terms of Congressman Hoyer's intention. He has 
given us $500,000 to study a new alignment, and you can see 
here is the current alignment. If you move it over this way, 
you can restore Poplar Point, create a really beautiful park 
here, a signature park, have a great bridge. This is in Bilbao. 
So, you can imagine a beautiful bridge, create access to 
neighborhoods that are landlocked. It will be a major 
initiative.

                        REVITALIZING CITY PARKS

    Third, creating great parks. This just shows you the park 
systems of Washington. Here is Rock Creek Park, roughly 1,200 
acres. Here is the Anacostia, which is roughly 1,800 acres on 
Park Service land. Here is the Mall. This is basically the way 
the system works. We have to create so the Anacostia parks are 
equal and surpass Rock Creek. So, you start thinking of the 
Anacostia park as where everyone from the neighborhoods and the 
city goes on the weekends and it is part of the original 
MacMillan plan. This actually shows the park system. People 
focus on the Mall, but actually there was as much attention to 
what happens in this whole park system. We want to complete 
that. We would like to have over 100 acres of new destination 
parks from the southwest where we think we could have a new 
sort of park at M Street. The Southeast Federal Center is an 
opportunity for a new 5-to 7-acre park. Poplar Point should be 
a great, wonderful park. We have the Frederick Douglass home 
right here. The gardens could be a part of this, make this a 
great cultural park, going up to Kingman Island where the Mayor 
has made a priority of bringing a nature center, really making 
that a great place for children and education activities along 
the waterfront, fully restoring that. That was returned to the 
city last year, thanks to the Mayor's work with the President. 
So, there are really wonderful opportunities. And of course, 
Kenilworth is here. Watts Branch. So, a system of parks is the 
key that you'd be able to go in a day, you would imagine going 
to a series of different kinds of parks, urban parks, more 
recreation, leisure parks, and parks that are really very rural 
in nature as you go up the Anacostia.

                        FUNDING THE INITIATIVES

    Senator Landrieu. May I ask a question on that? I am going 
to try to expedite this. The main way the Federal Government 
helps localities fund parks throughout the country is through 
the Land and Water Conservation Fund. The State side of that 
funding had been zeroed out for a number of years and now is on 
the increase. Do you all look at this fund as a potential 
source of funding? Does that even fit in your equation? I do 
not think the District has gotten very much money out of the 
Land and Water Conservation Fund, and I want to just suggest to 
you that that should be something, Mr. Mayor, that we put a 
little political muscle behind and require. I would be happy to 
do that because it is, on average, about $450 million on the 
Federal side and about $200 million to $300 million on the 
State side. There is a formula that gives money out.
    But there might be a way that we could secure a portion of 
those funds for a long-term commitment to this project. It is 
not a huge amount of money, but I am thinking $5 million to $10 
million to $12 million. But if you keep getting that every 
year, you can bond it out and it could go a long way towards 
securing a long-term capital improvement plan for this area.
    And that is my question. This plan looks spectacular. Have 
we identified a revenue stream or a source to help fund the 
development of these various parks, and what would it be 
briefly?
    Mr. Altman. It is a very good question. Right now we have 
developed a plan. There are a couple more sections I would like 
to share with you.
    As you know, most of this is under Federal ownership. As I 
said, roughly 70 percent is under Federal ownership. So, I 
think you are absolutely right. One of the things we want to 
do--and the Mayor is going forward to present so that the 
Federal Government can start to make the appropriations 
necessary in order to implement the plan. Transportation funds, 
for example, that will be needed for the bridges and the 
infrastructure. Funding for the park, as you have identified, 
because as we know, working with the park system, they are 
saying they control 1,800 acres of the park, and they really 
have very minimal allocations. They barely had enough money, 
frankly, to do their long-term management plan, let alone 
improvements to make it a great park.
    We are also looking at some local revenue sources in terms 
of the city's portion that is privately owned and also where 
the National Capital Revitalization Corporation controls the 
southwest part of the waterfront. And we are looking at what 
local sources we can also use to support that development so 
that we can have a Federal-local match so we can put up funds 
that would hopefully leverage those Federal dollars.
    Senator Landrieu. I think that is just so important. 
Capital improvements of your basic infrastructure, highways, 
and the bridges is one thing, but I would like to pursue the 
Land and Water Conservation Fund in getting the District its 
appropriate share of to help improve some of these parks.
    Continue.
    Mr. Altman. Absolutely. I am almost done.

                 EXAMPLES OF WATER-FRONT REVITALIZATION

    But your point is exactly right. Just to show you--I think 
it is pretty dramatic--here is Poplar Point. Here is the river 
here. It is about 120 acres and in it you have various 
facilities that have been thrown up as sort of temporary 
facilities. It is not really a beautifully landscaped park that 
can serve as a resource for the neighborhoods. Particularly, 
neighborhoods have been cut off from the water, some of the 
poorer neighborhoods of the city that should have a great 
waterfront; RFK, where it is largely parking lot. So, you have 
areas where we could really transform these into great parks.
    This is Louisville, Kentucky. It just shows you--110 acres, 
roughly the same as Poplar Point--the difference that you can 
make by having the right kind of appropriations to create a 
great park system.
    Really the signature of this will be a river walk. We would 
like to create a continuous 18-mile river walk that connects 
from the southwest all the way, both sides of the river, really 
unify the waterfront. We think that that is about $1 million 
per mile. It is roughly a $25 million project just to create a 
nice, simple trail.
    Just to show you the difference, this is the Mount Vernon 
Trail on the Potomac, a very simple trail. And now, here is the 
Anacostia. Same city. So, we really need to look at the same 
Park Service and we have to look at how do we get funds so that 
there is an equity issue to make sure that the remainder of the 
Anacostia, the 18 miles, can really be not only equal to the 
Potomac, but frankly surpass the Potomac and get that 
investment.
    This just shows you how to take--this is out by Watts 
Branch in Kenilworth and taking what had been a former 
municipal dump and turning it into really a recreation center. 
This is where the soccer investment that you have made--and we 
would like to build on that. This is Watts Branch. The 
neighborhood is very interesting in restoring that. Make this a 
great park, multi-use recreation. The Mayfair neighborhood 
here. The golf course is here and the Arboretum is here.

                         EXPLORING PARK DESIGN

    Senator Landrieu. Can you leave that slide up just a 
minute? Let me make a comment. I am not an expert on park 
development, but I have been working at it enough years to kind 
of have a sense that while you want to keep your parks, 
obviously, open to everyone and have multi-use, it is also 
important for each park to have a lead purpose. Some parks--
their lead purpose is recreation, but they are used for other 
things such as, organized sports. Others are sort of wilderness 
parks that are occasionally used.
    I would like to challenge us to come up with a plan that 
would really identify parks, so it is clear. In other words, if 
you know who owns it, then somebody will actively advocate for 
it. If it is unclear who owns it, then nobody is responsible 
for it and nobody lobbies for it because it is kind of nobody's 
park.
    So, part of what I would like to see how Kenilworth would 
develop is primarily recreational for organized sports, which I 
think the District is really short on and, as you know, was 
featured in many articles and just highlighted recently about 
the disparity between the conditions of fields. Whether you are 
speaking about soccer fields, baseball fields, or golfing 
opportunities for young children. While that park could be used 
for other things, walking trails and some wilderness areas--
there is a beautiful garden and the Arboretum is right there--
that to have a place where families can really focus on soccer 
and basketball and baseball and tennis and golf is so important 
so that we can stop having to send our kids out to the suburbs 
on the weekend and they can play right here in the District 
because there is a big exodus every weekend. Everybody gets in 
cars and goes miles and miles away to find these good fields to 
play on when we could have them right here in the District.
    So, I really want to work with you on that and make sure, 
particularly on the soccer and basketball and baseball we 
have--and then the revitalization of Langston both for the 
adults and the Junior Tee or what do they call it?
    Mr. Altman. First Tee.
    Senator Landrieu. First Tee project maybe in some ways 
connected to Langston. But, again, Mayor, it fits into your 
idea about getting these fields up to snuff so we can compete 
for some of these national games, whether it is the Olympics or 
something else.
    Mr. Altman, real quickly if you can wrap up.
    Mr. Altman. Okay. I am going to wrap up. Two more points.
    One is creating also great cultural destinations. I think 
your point is excellent. What we want to create is a series of 
experiences along the waterfront. So, for example, we want to 
bring new museums, new cultural institutions, places like 
Poplar Point. Here you have the Navy Yard, the Navy Museum, the 
southwest waterfront near Arena Stage, and the nature center, 
so new sites for cultural institutions as part of a park 
system, as part of revitalizing the waterfront.
    And of course, the Olympics, which will be a major impetus 
for us in terms of what it brings to the Anacostia in terms of 
facilities.

                   BUILDING WATERFRONT NEIGHBORHOODS

    Finally, we want to build strong waterfront neighborhoods. 
There are roughly 900 acres. Out of the 2,800 acres along the 
Anacostia Waterfront that we think you can create new 
neighborhoods. What that means is large tracts of Federal land, 
for example, that are no longer needed for those purposes can 
become great neighborhoods. We toured the Southeast Federal 
Center. So, here it sits right here. The Mayor brought in HOPE 
VI with the cooperation of the Federal Government, transforming 
the southeast. The Navy Yard has 10,000 jobs. The Southeast 
Center could be home to up to, we think, 2,000 new residential 
units. Bring residential to the southwest waterfront. We just 
completed planning around Reservation 13, jurisdictions being 
transferred to the city. It could be another 1,000 units of 
housing, as well as health care facilities. Poplar Point as 
well.
    So, we think we can build new neighborhoods. It does not 
involve displacement. It strengthens the waterfront, takes 
Federal lands. St. Elizabeth's is right here. It actually 
touches the waterfront. It is about 300 acres of land. It is 
the most beautiful area, no longer needed, we believe, for 
Federal purpose, connect that to the waterfront, and you build 
great neighborhoods east and west.
    Senator Landrieu. May I ask a question on that? I really 
thank you. I had a wonderful tour that day that we spent 
several hours touring the site and am now very familiar with 
it.

                        PLANNING FOR THE FUTURE

    But what in your opinion would be the best way the Federal 
Government could help you? I understand that there are some 
discussions about whether we have multiple master plans or a 
single master plan. What would be the best thing that GSA could 
do to help you all keep this coordinated and keep it moving? It 
is not just the coordination of it, but it is moving it so it 
does not take us 30 years to do it, that we could actually see 
this accomplished in the next few years. Should we push for a 
multi-master or a single master, or what in your opinion would 
be the best approach?
    Mr. Williams. I think the most important thing we can do, 
Senator, is for the Federal Government and the city with GSA to 
focus on joint master planning for the southeast waterfront and 
for St. Elizabeth's, and then with St. Elizabeth's work on 
early disposition of St. Elizabeth's to the District, similar 
to what the Federal Government is doing right now with 
Governors Island in New York to New York City or what happened 
with the Presidio out in San Francisco, you know, speed up the 
master planning and the disposition. When I say the city, I 
mean basically the consortium somehow or another managing it so 
we can get this into active use because even more so than the 
southeast waterfront--I do not know if you have toured St. 
Elizabeth's. We need to take you up there. That is a 
spectacular site.
    Senator Landrieu. And do we not need legislation or some 
sort of administrative action to initiate that? Because I would 
be happy to try to get in as soon as possible to initiate that 
through this committee.
    Mr. Williams. Well, we would like to work with the 
Congresswoman to figure out--with the support of the leadership 
of the city, some sort of Federal legislation that would 
sanctify or enshrine or formalize, I guess is a better word, 
this consortium because the problem with the consortium right 
now is it does not have the durability and the standing that 
goes beyond any one set of players. So, if Congresswoman Norton 
is gone or you are gone or I am gone or Linda Cropp is gone, 
what is to keep this project going? One.
    Senator Landrieu. Absolutely.
    Mr. Williams. And two, what is to keep the Federal 
Government bound and committed? No one is a stronger supporter 
for home rule than I am, but you cannot bind the Federal 
Government with local law. We need some kind of Federal rubric 
here.
    Senator Landrieu. We will pursue that.
    Mr. Williams. Do you agree?
    Mr. Altman. Absolutely.
    Senator Landrieu. Mr. Johnson, because we only have a few 
more minutes, can you just testify briefly maybe 1 or 2 minutes 
about the cleanup efforts underway?
STATEMENT OF JERRY N. JOHNSON, GENERAL MANAGER, 
            DISTRICT OF COLUMBIA WATER AND SEWER 
            AUTHORITY
    Mr. Johnson. Yes, ma'am, and thank you very much, Senator. 
Madam Chairman, I appreciate the opportunity to be here today.
    We have been working for the last 3 years, with support of 
the Federal Government, with EPA, in developing a long-term 
control plan to address CSO outfalls, 17 of which are located 
on the Anacostia River. There are a total of 60 in the District 
of Columbia on the Potomac, Rock Creek, and Anacostia. However, 
those 17 outfalls are responsible for about 65 percent of all 
of the combined sewer overflow that goes into that water body 
and overflows about 75 times per year.
    A combined sewer system I am sure you are probably familiar 
with. It is a combination of both sanitary and storm flow. When 
we get rainfalls of a certain duration and certain volumes of 
water, the system is overwhelmed. Generally that flow will go 
to the waste water treatment plant. When it becomes 
overwhelmed, it flows directly into these water bodies as a 
solution of dilute sewage that is going into these water 
bodies.
    The system was designed in the 1890's by the Corps of 
Engineers and constructed in the early part of the century and 
serves about one-third of the District of Columbia.
    The plan that we put together is a plan that represents a 
$1.2 billion expenditure in today's dollars, and it is a 
program of engineering and construction projects throughout the 
system that include the development of Metro-sized tunnels 
basically to park this flow until we have the capacity to be 
able to pump it into the waste water treatment plant.
    We have not waited for the plan to be approved and for 
certain actions to be taken. We spent about $10 million of 
ratepayer monies to date in addressing this problem. We have 
another $100 million on the drawing board either in design or 
out to bid to support this project.
    Our plan will reduce those overflows generally by 96 
percent. It will reduce flows into the Anacostia by 98 percent, 
from 75 to 2 overflows per year. The problem is that it creates 
a tremendous burden on the ratepayers of the District of 
Columbia in trying to fund the project.
    Am I okay with time? Can I take about another minute?
    Senator Landrieu. Go ahead.
    Mr. Johnson. This project, in looking at the EPA 
affordability guidance, basically says that it is primarily 
affordable. When we dig deeper into the population, we find 
that about 20 percent of the population is currently above that 
maximum affordability level established by U.S. EPA. And with 
the imposition of this plan, that pushes us to about 3.75 
percent or well over the affordability guidance. We believe 
that in order for us to get this plan undertaken, that it is 
going to require a partnership between the Federal Government 
and the District of Columbia in order to fund the plan and 
avoid this tremendous rate shock on the residents of the 
District of Columbia.
    We have submitted written testimony that goes into a great 
deal of detail explaining the program and the plan, and we urge 
this committee's continued support of the efforts that are 
being undertaken both by WASA and the Mayor through the offices 
within the District of Columbia to make this project happen.
    Thank you very much for the opportunity to speak.
    [The statements follow:]
                 Prepared Statement of Jerry N. Johnson
    Good morning, Madame Chairman, and members of the Committee. My 
name is Jerry N. Johnson, and I am the General Manager of the District 
of Columbia Water and Sewer Authority (``the Authority'' or ``WASA''). 
I am very pleased to represent the agency at its first appearance at 
this annual hearing, and to be asked to provide testimony on the 
Anacostia Waterfront Initiative--one of the most significant economic 
development and environmental initiatives to be undertaken here in the 
nation's capital.
                    general authority responsibility
    The Authority provides retail water services to residents, 
businesses and visitors to the national capital. Treatment is provided 
by the Washington Aqueduct. We operate storage, pumping and 
distribution lines to deliver about 132 million gallons of water per 
day.
    Of particular relevance to any discussion of the Anacostia River 
and the Waterfront Initiative is WASA's responsibility to provide 
wastewater collection and treatment services for this same population. 
In addition, WASA provides wastewater treatment services to 1.6 million 
people in Maryland and Virginia through its operation of the Blue 
Plains Advanced Wastewater Treatment Plant, the largest advanced 
wastewater treatment plant in the world.
           strong authority governance & management capacity
    The Authority, with its independent board of directors, was created 
in 1996 as a quasi governmental agency with the strong interest and 
support of the United States Congress. As you may know, six of the 
Authority's eleven board members including its Chairman are residents 
of the District of Columbia, five members reside outside the District 
in Prince George's, Montgomery and Fairfax Counties, and each is 
appointed by Mayor of the District of Columbia. Since 1996, WASA has 
made tremendous strides in improving its operations and financial 
status by, for example:
  --reducing its operating budgets while improving the quality and 
        timeliness of its services
  --routinely meeting EPA Drinking Water and other regulatory 
        requirements
  --maintaining a 180-day operating reserve equivalent to six months of 
        expenses or about $90 million
  --earning ratings from three bond agencies of ``A1'', ``A'' and 
        ``A+''
  --initiating a $1.6 billion 10-year Capital Improvement Program 
        (``CIP'') to repair and rehabilitate the aging wastewater 
        collection and treatment systems and the water distribution 
        infrastructure.
  --undertaking the development of a long-term control plan to address 
        combined sewer overflows that affect our waterways, especially 
        the Anacostia River.
         ltcp component of anacostia river improvement efforts
    WASA was among the first signatories to the Anacostia Waterfront 
Initiative MOU, Madame Chairman. I mention WASA's governance structure 
and accomplishments only to emphasize its growing capacity to 
effectively undertake and manage yet another major capital project that 
is a central ingredient in the success of efforts to make our waterways 
cleaner, especially the Anacostia River. That project is the Combined 
Sewer Overflow Long-Term Control Plan (``CSO LTCP'').
    Improving the quality of urban waterways is a challenging technical 
public policy issue. Streams in the District of Columbia receive 
pollutant loadings from a number of diffuse sources, both inside and 
outside the District. Combined sewer overflows are a significant source 
of pollution in our rivers, including the Anacostia.
    The $1.2 billion program (in today's dollars) will rival the 
current $1.6 billion 10-year Capital Improvement Program in size and 
scope. WASA has built the management capacity to develop and implement 
this plan designed in response to federal requirements. We note, 
however, that the financial impact of adding such a large new 
infrastructure program will be extremely burdensome to District of 
Columbia ratepayers.
    The future of the Anacostia waterfront and its neighborhoods are at 
stake as the question of whether the waterfront will continue to be 
walled off from nearby neighborhoods or is developed as a community 
resource. Both Mayor Williams and Mr. Altman have noted today a clear 
vision that embodies this joint District, federal and community effort 
to revive one of the national capital's historic waterways.
    Major public and private decisions and substantial investments are 
being made, and these decisions will dramatically affect the future of 
the Anacostia River, residents, businesses and visitors. Similarly, the 
Authority in conjunction with the Government of the District of 
Columbia and the United States Environmental Protection Agency, is also 
preparing to launch a program to address the problems associated with 
the combined sewer system, the combined sewer system overflow long-term 
control plan.
                         combined sewer system
    In a separate sewer system storm water collected during periods of 
wet weather is discharged directly to area waterways. As you may know, 
Madame Chairman, about 12,955 acres (33 percent) of the nation's 
capital is served by a drainage system known as the combined sewer 
system that conveys both sanitary waste and wet-weather storm water.
    During wet weather, the flow (a dilute mixture of sanitary 
wastewater with storm water) carried by the combined sewer system may 
exceed the conveyance capacity of the collection system to carry the 
flow to the Blue Plains Advanced Wastewater Treatment facility. 
Approximately 75 times a year, rainfall volume is high enough to result 
in periodic discharges, or ``combined sewer overflows'' (``CSOs'') into 
the Potomac, Anacostia or Rock Creek.
      federal origins and reliance upon the combined sewer system
    This system was planned, designed, and constructed by the U.S. Army 
Corps of Engineers in 1890, and built by the federal government late in 
the nineteenth century. The system was designed to pump most sanitary 
and storm sewage eastward and downstream, far away from the White 
House, the U.S. Capitol, and major federal office buildings.
    The combined sewer system encompasses much of the central core of 
the District (the White House, U.S. Capitol complex, the Supreme Court, 
U.S. Naval Observatory and much of the downtown area, including many 
major federal office buildings). The combined sewer system serves many 
federal agencies, embassies and a large number of all those who work in 
and visit the nation's capital and contribute to the approximately 3 
billion gallons of combined sewer overflows from the combined sewer 
system into Rock Creek, the Anacostia River, and the Potomac River.
    Unfortunately, discharges from the District's combined sewer 
system, and from other combined sewer systems across the country, 
affect the quality of waterways. The lower Anacostia, which flows 
through a highly urban area but which is bordered by the Navy Yard, the 
Anacostia Naval Station, and national park land is subjected to a 
number of these CSO overflow events--approximately 75 in an average 
year, and will be a principal beneficiary of the plan to control CSOs.
                        epa permit requirements
    CSOs are regarded as point sources of pollution and are subject to 
both technology-based and water quality-based permitting requirements 
under the federal Clean Water Act. EPA allows CSOs under the National 
Pollutant Discharge Elimination System (NPDES) permit issued to the 
District of Columbia. The EPA permit, however, also requires the DC 
Water and Sewer Authority to propose a program that addresses these 
CSOs--a Long Term Control Plan. The permit requires WASA to reduce the 
periodic overflows into receiving streams in the nation's capital, and 
the long-term control plan or LTCP is the proposed response to this 
federal mandate.
                   the long-term control plan process
    After a 3-year study conducted with support from the EPA, WASA 
released a proposed draft plan in June of 2001. In accordance with EPA 
guidelines a large range of technological options were considered, 
including complete sewer separation. These options were evaluated in 
the context of regulatory compliance standards, cost effectiveness, 
complexity and other operational factors, and public acceptance.
    It is important to note, Madame Chairman, that WASA has not been 
idle through this process. We have moved forward to address some CSO 
issues using our existing Capital Improvement Program, even as we 
worked to develop a long-term plan over the last few years. WASA has, 
for example, already invested about $10,000,000 of its resources to 
evaluate and upgrade existing CSO control facilities, like a swirl 
concentrator facility and fiber dams, even as the LTCP has been under 
development.
    Efforts to solicit public comment have continued throughout the 
last several months in response to our issuance of the draft plan last 
summer. An extensive public participation program that included, for 
example, establishing a Stakeholder Advisory Panel, preceded this 
comment period. The Panel held ten well-attended meetings, and 
significantly influenced WASA's approach to developing the draft LTCP. 
Useful discussion with all stakeholders, including the District of 
Columbia Department of Health and the EPA are on going.
                                the ltcp
    Implementation of an LTCP will cost in excess of $1.2 billion in 
today's dollars (significantly more with inflation), and involves a 
program of engineering and construction projects throughout the 
combined sewer system. The plan involves creating large storage tunnels 
to provide significant system storage capacity during periods of heavy 
rainfall, as well as upgrading pumping capacity to move stored storm 
and wastewater to the treatment plant at appropriate intervals. The 
LTCP would result in very significant progress, but does not completely 
eliminate CSO discharges or ``overflow'' events.
    It is important that the Committee understand that elimination of 
all CSOs would require complete separation of the storm sewer system 
from the sanitary sewer at approximately three times the cost of the 
draft LTCP. As important, Madame Chairman, complete separation would 
provide a lower degree of improvement in water quality than the plan. 
WASA is very pleased that our plan will provide a 96 percent overall 
reduction in CSO volume, with the highest reduction of 98 percent for 
the Anacostia River. As a result, the plan will reduce CSOs to levels 
that surpass those required by the Environmental Protection Agency of 
85 percent (the presumptive approach requirement). WASA is preparing to 
issue a final control plan shortly.
                          impact on anacostia
    The general study area boundaries for the Anacostia Waterfront 
Initiative extend from the Washington Channel on the west to 
approximately the District line on the east. The boundaries that 
parallel the River vary depending on the surrounding neighborhood, but 
generally include the Southeast neighborhood and Southeast Federal 
Center, the Southwest Waterfront and the surrounding neighborhoods 
including Buzzard Point, Anacostia Park and the Poplar Point area, the 
Anacostia-Park on both sides of the river, and the RFK Stadium area. 
The Anacostia River, in particular, and waterfront development 
initiatives will greatly benefit from controlling CSOs.
    The impact of the CSO plan will be very significant, particularly 
on the Anacostia. Currently:
  --there are a combined 60 CSO ``outfalls'' where discharges from the 
        combined sewer system empty into Rock Creek, the Potomac and 
        the Anacostia--several of the outfalls are located on the 
        Anacostia
  --of the total system volume of overflows from the combined sewer 
        system, models indicate over 65 percent is discharged in the 
        average year into the Anacostia
  --an average of 75 overflow events occur annually on the Anacostia
    Implementing the LTCP will result in:
  --only 2 overflow events on the Anacostia in the average year
  --the volume of overflows into the Anacostia dropping from 2,142 
        million gallons to 54 million gallons, for a 98 percent 
        reduction in the average year
  --reductions in the impact of CSOs on bacteria and low dissolved 
        oxygen levels
  --although there are other sources of bacteria, and other causes of 
        low dissolved oxygen levels in the Anacostia, the impact of 
        CSOs will be significantly reduced
  --virtually eliminating the solids and floatable debris from CSO 
        discharges because the majority of CSOs will be captured and 
        treated.
    The LTCP will completely eliminate some of the outfalls along the 
Anacostia River, and water quality in the river will be improved and 
floating trash and debris from CSOs will be practically eliminated.
    WASA's studies have also demonstrated that that even complete 
elimination of CSOs would not result in making the Anacostia fishable 
and swimmable much of the time. This is because other pollution 
sources, including sediments in the river bed, District storm water and 
upstream sources in Maryland would prevent attainment of standards even 
if CSOs were completely eliminated. The District's combined sewer 
system is not the source of all pollutants that prevent making the 
Anacostia swimmable and fishable, and this finding is consistent with 
other assessments performed by the District of Columbia Department of 
Health and the Metropolitan Washington Council of Governments.
                             affordability
    Financing CSO programs in an equitable manner without placing an 
unreasonable burden on ratepayers is one of the biggest challenges 
facing any CSO community, especially Washington, DC. The current cost 
of wastewater services in for the average household is $271 annually. 
The additional cost following completion of the current Capital 
Improvement Program will be $357 in today's dollars. The cost will rise 
to about $600 annually for the average household with the addition of 
the proposed CSO control program.
    WASA has used EPA procedures outlined in: ``Guidance for Financial 
Capability Assessment and Schedule Development'' for determining 
affordability to help assess the impact of CSO control costs on 
ratepayers and the fiscal health of the District of Columbia.
    EPA's method is based on computing the cost per household of both 
CSO projects and existing and proposed non-CSO wastewater projects on 
median income households ($39,760 in 2001). EPA regards residential 
impact as ``low'' if the combined cost of wastewater projects is less 
than 1 percent of the median household income; ``medium'' if the cost 
is between 1-2 percent of median income, and ``high'' if the costs is 
greater than 2 percent of the median household income. Other factors 
like the unemployment rate are also used to make an overall assessment. 
Using EPA's methodology, the burden will be in excess of 1.5 percent 
for median income households for wastewater treatment costs including 
the proposed CSO controls. EPA, therefore regards the proposed control 
program as resulting in a ``medium'' burden.
    However, the projection approaches the ``high'' threshold, even for 
the median household in the District, and EPA officials have voiced 
concern about the affordability of the control program. Also, as you 
know, household income levels in the District of Columbia do not follow 
a conventional statistical distribution. Rather, incomes are clustered 
at the high and low ends of the spectrum. For the lowest 20 percent of 
District of Columbia households on the income distribution, the current 
capital improvement program imposes about a 2 percent burden. With the 
additional cost of the CSO controls, the burden will rise to about 3.24 
percent.
    The District of Columbia and its citizens face a massive challenge 
in financing the reinvestment in all publicly owned assets like local 
roads, schools as well as the water and sewer infrastructure upon which 
the local community, the region, the federal government and the nation 
depend to one degree or another. Already, WASA's ratepayers are already 
beginning to absorb their share of the cost of a $1.6 billion 
investment program to upgrade the water distribution, sewer collection 
and wastewater treatment systems. The cost of the CSO plan will be 
almost as large.
                              partnership
    WASA is in the midst of a rate-setting process for the coming year. 
Although the WASA Board has insisted that the rate increases required 
to finance the existing $1.6 billion CIP be carefully managed in order 
to avoid ``rate shock,'' the increasing costs of services will be a 
burden to many of our ratepayers. The additional cost of the LTCP, 
unless other sources of funding can be obtained from our partners in 
this initiative, will be problematic for many of our customers.
    As you know, Madame Chairman, Mayor Williams has requested federal 
participation in this massive infrastructure project in the past two 
appropriations cycles, including a request for $50,000,000 for fiscal 
year 2003. There are many precedents for such direct Congressional 
support to communities across the nation. In several instances, there 
have been very substantial grants over a number of years, including 
direct support for CSO control. Until last year's $1.8 million grant, 
Madame Chairman, we are aware of no direct appropriation to support 
these efforts in the nation's capital.
    Apart from the financial burden, there are a number of compelling 
reasons to justify a meaningful long-term partnership with the federal 
government in addressing this environmental, economic development, 
engineering and financial challenge:
  --the federal government designed and built the combined sewer system
  --the federal government owns much of land served by combined sewer 
        system
  --the federal government relies upon the combined sewer system 
        (serves White House, Capitol, Supreme Court, federal agencies, 
        embassies, other institutions, commuters, visitors)
  --the majority of the federal workforce is housed in this area
  --the federal government (EPA) mandates under the Clean Water Act 
        that WASA address combined sewer overflows
    Even though WASA's role is that of a utility and its job with 
respect to CSO control is principally technical and administrative, 
there are other important considerations. The Authority's view of 
itself is that we are among the most important stewards of the 
waterways surrounding the nation's capital. The Anacostia Waterfront 
Initiative, as the Mayor and Mr. Altman have described it, is likely to 
help re-define the waterfront and the neighboring communities well into 
the future. The Anacostia and Potomac Rivers and Rock Creek Park, 
however, have also helped define the culture and the history of the 
national capital.
    There already exists a many-layered relationship with the federal 
government affecting many aspects of this historic waterway. The LTCP 
is an opportunity for a meaningful partnership that provides tangible 
and quantifiable benefits for the environment, the local community, and 
the nation.
    Once again, WASA appreciates the invitation to appear before the 
Committee. The Authority particularly appreciates your interest, Madame 
Chairman, and that of the Committee in the Long-Term Control Plan. I 
would be pleased to respond to any questions from the Committee at this 
time.

    Senator Landrieu. Well, I thank you very much because your 
contribution to this effort is just so necessary because the 
swimability issues, the recreation issues, the development 
issues, none of that is going to happen until people feel 
confident that the cleanup is not only planned well but there 
is funding to actually implement it because no one wants to 
look out on a dirty river. No one is going to recreate around a 
river that they do not consider or does not look to them to be 
clean and attractive.
    But on that, let me also try to lighten your burden in this 
way. Every city in America--and I cannot tell you the long 
stream of people that come into my office on this exact issue. 
Every city has these affordability problems, and it is getting 
to be such a crowd, that I think Congress is going to end up 
addressing this in a national way--I am not sure exactly how--
to try to provide a source of funding to cities to try to deal 
with these costs because otherwise, it is either an unfunded 
mandate or a tax increase of substantial proportion on some of 
your lower income people throughout the Nation or moderate 
income or middle class families. It is a real problem.
    So, let us keep working on District-specific solutions, but 
to connect as much as you can with this national effort that is 
sort of bubbling up to get the Federal Government's attention 
for some real investments in these sewer systems that have to 
be addressed or we will not be able to clean up the water 
anywhere, not here in Washington, New York, San Francisco, or 
New Orleans.
    Mr. Johnson. Madam Chairman, I happen to also be Chairman 
of the National CSO Partnership, which is an organization that 
was formed a number of years ago, and has been looking to 
address these issues.
    Senator Landrieu. Well, good. Then you are absolutely in 
the right position to help.
    Mr. Johnson. I am very plugged in.
    Senator Landrieu. Good. You are probably doing the plugging 
if you are the Chairman. So, that is good. But keep pushing 
because we have really got to press the Federal Government for 
some additional help in this regard and identify a source of 
revenue to help our cities because they are really struggling.

                          prepared statements

    Finally, I want to include for the record, the statement of 
Doug Siglin, the Director of the Chesapeake Bay Foundation 
regarding the Anacostia River and Paul Strauss, the Shadow 
Senator for the District.
    [The statements follow:]
      Prepared Statement of Doug Siglin, Chesapeake Bay Foundation
    Chairman Landrieu, Senator DeWine and members of the subcommittee, 
I am most grateful for the opportunity to submit a brief statement for 
the hearing record regarding the District of Columbia's fiscal year 
2003 appropriations request and the Anacostia Waterfront Initiative.
    The Chesapeake Bay Foundation's Anacostia River Initiative is 
working to help catalyze the cleanup and restoration of the Anacostia 
River so that it can become a valuable economic, recreational and 
natural resource for the District of Columbia and the surrounding 
region, as well as a healthy component of the Chesapeake Bay system.
    In general, we are deeply supportive of both the Anacostia 
Waterfront Initiative and the District's request for a $50 million 
fiscal year 2003 appropriation to begin the process of modernizing the 
city's combined sewer.
    In regards to the Anacostia Waterfront Initiative, we believe it 
very important that the District derive more economic, recreational and 
educational value from the tremendous natural resource with which we 
have been blessed. Of course, we are full of high hopes and 
expectations that the AWI will, over time, serve to enhance rather than 
degrade the water quality of the Anacostia. The proof will come to the 
degree that present and future development along the Anacostia is 
required or is provided incentives to substantially improve air and 
water quality. If each new construction project marginally improves the 
environmental status quo, the public investment in the Anacostia 
Waterfront Initiative and the private investment that follows will be 
good for the economy, the environment, and the quality of life in the 
region generally--the essence of sustainable development.
    In regards to the District's $50 million appropriations request, we 
believe that it is imperative for the federal government to take on a 
substantial portion of the projected cost of the proposed combined 
sewer modernization. While the final details of the plan have yet to be 
worked out, we know that the cost will be substantial, and we urge the 
Senate Appropriations Committee to do all it possibly can to support 
the costs of this most critical upgrade in the city that is the federal 
seat of government.
    I want to offer four broad points for your consideration:
(1) The Anacostia is, more than any other, the river of the Nation's 
        Capital
    The Anacostia, as Mayor Williams poetically put it a couple of 
years ago, runs through the soul of Washington. It flows 6\1/2\ miles 
through the center of the District, and much of the District's 
population lives in its watershed. More than 200 years ago, President 
Washington had the Residence Act changed to include the Anacostia 
within the original borders of the District, and the materials that 
built the Capitol building came up the Anacostia on ships and barges. 
Today, the Anacostia flows past Capitol Hill about 2000 yards from the 
U.S. Capitol, and pollution from not only that building, but from most 
of the public buildings in Washington, contributes to the river's 
challenges.
(2) The Anacostia is among the nation's most polluted rivers
    Substantial progress has been made in cleaning up the Anacostia, 
but it still carries a huge load of sediment, bacteria, organic matter, 
nutrients, chemicals, and metals. At certain spots in the tidal river, 
there are deep toxic accumulations in the bottom sediments. These 
challenges are significant, but not insurmountable.
(3) The full economic and recreational value of the Anacostia 
        Waterfront Initiative can only be achieved if the river is much 
        cleaner than it is today
    It is certainly possible to derive additional economic value from 
the Anacostia in its polluted state, but it stands to reason that the 
value of the housing, office buildings, and small businesses that the 
Anacostia River Initiative anticipates will be significantly enhanced 
if the river isn't filthy and dangerous. Moreover, the use of the 
Anacostia as a recreational asset is severely limited in its current 
state. The fishing, canoeing, kayaking, and sailing that are normal and 
widely enjoyed recreational activities in America's waterways simply 
can't thrive with the river so severely polluted.
(4) Although there is substantial federal activity to clean up and 
        restore the Anacostia, the scope and pace of efforts is not 
        nearly sufficient.
    The U.S. Environmental Protection Agency, the U.S. Army Corps of 
Engineers, the National Oceanic and Atmospheric Administration, the 
National Park Service, the Navy, and other federal agencies continue to 
be involved in projects to help clean up and restore the Anacostia. We 
appreciate and applaud such efforts. The pace, however, is insufficient 
to the task. We urge you and your colleagues to consider a focused 
Congressional effort, perhaps involving hearings, to determine what can 
best be done to pick up the pace of federal involvement in the cleanup 
and restoration of the river that runs through the heart and soul of 
the District.
    In closing, I reiterate that we believe that the Anacostia River 
has the potential to be an extremely valuable federal, regional and 
local resource deserving of significant public investment. However, we 
believe that additional public investment to clean the river must be 
made to maximize the value of the public and private economic 
investment that the Anacostia Waterfront Initiative envisions. We 
would, of course, be grateful for the opportunity to continue 
discussing with your staffs specific ideas and policy initiatives 
towards that end.
    Thank you again for the opportunity to offer our views in this 
hearing. We very much appreciate your interest in the future of the 
Anacostia River.
                                 ______
                                 
 Prepared Statement of Paul Strauss, Shadow U.S. Senator, District of 
                                Columbia
    Chairperson Landrieu and distinguished members of the Subcommitee. 
I am Paul Strauss, and I am the elected United States Senator for the 
District of Columbia. In that capacity, I am pleased to submit this 
statement for the record on the Anacostia Waterfront Initiative. The 
communities within the District of Columbia understand the necessity 
for local improvement and hope to work on maintaining an environment 
that we can proudly call our nation's capital. I would like to thank 
you for the opportunity to discuss the necessity and potential benefits 
of the Anacostia Waterfront Initiative.
    This initiative is essential for the development of our city. The 
improvement of the current status of the Anacostia Waterfront is 
essential for both the economic and moral development of the District 
of Columbia. I am a boater here in DC and have sailed the Anacostia 
River and understand the need for significant changes in this area. The 
project is important to both residents of the Anacostia area and boat 
owners like myself. There are several benefits to this project, which 
will affect not only the District of Columbia but also the Federal 
Government. The Anacostia River, named for the Native Americans who 
first settled here, is a symbol of our great American history. As a 
river sailed by George Washington and other founding fathers in the 
early days of our nation, it is our duty to maintain this heritage. By 
supporting this initiative, we are not only supporting the economic 
needs of the residents in the area, but maintaining an area that is 
important to the United States and Native American history.
    The main purpose of the Anacostia Waterfront initiative includes a 
development of a plan for the future of the waterfront and a 
coordination of land use and development actions of the city and 
federal funds. This coordination is necessary in order to delegate over 
$30 million in both district and federal funds. By forming a coalition 
of local interests, we will attract new resources that will benefit the 
community and raise revenues. I am asking that the Senate support the 
Anacostia Waterfront Initiative in providing the necessary funding for 
the project.
                       background of the project
    The district and federal governments own 90 percent of the 
riverfront land, suggesting a joint responsibility for the improvement 
of the area. The future of the Anacostia waterfront and its 
neighborhoods is essential to the future of the District of Columbia. 
There is a dire need for both public and private investment in this 
area, especially by the Southeast area of the Anacostia Riverfront 
between the river and Southeast Freeway, I-395. This is an area that is 
in a stage of potential development. With an operation of only 5 
percent capacity, there is currently a $100 million plan to create new 
office buildings, which is a partnership at the Southeast Federal 
Center, the Capital Square townhouse community, a new Navy Yard Metro 
Center on M Street, and streetwork for M street. This type of joint 
commitment along the waterfront will provide success and economic 
development to much-needed areas. It is necessary that these areas 
begin operating at full capacity in order to ensure adequate 
development and increase revenue for the District of Columbia. Without 
this type of initiative, potential gains will never be seen.
    It is important to note that this is a joint initiative between 
both city and federal agencies, which will be involved in both the 
planning and funding process. The estimated costs of this plan are $1.5 
million, which will be shared by district and federal agencies, the 
Sports and Entertainment Commission, the Summit Fund, and the Housing 
Authority. Coordination of the Anacostia Waterfront Initiative is 
currently the responsibility of the Memorandum of Understanding, which 
includes the DC Office of Planning, the U.S. General Services 
Administration, and the National Parks Service. This type of coalition 
indicates the joint interests in propelling the plan to serve several 
different interests. There are several groups that will benefit from 
this process, and it is essential that funding and organization 
continue until the fulfillment of the plan.
                           economic benefits
    The economic benefits of the Anacostia Waterfront Initiative are 
both vast and necessary for the future of the District of Columbia. 
There are several aspects of the economy which will a positive change 
with the completion of the Anacostia Waterfront Initiative. For 
example, the plan will promote the continuation of maritime use in the 
area, which is essential for both the existing community and the future 
of tourism. It also serves as encouragement for future private 
investment in the area. Along with the importance of maritime use, 
there will be aesthetic benefits to the project. The beautification of 
this area is important in encouraging private organizations to bring in 
job creation and commercial activity, two elements that are crucial to 
the area at this time.
    It is also necessary to address community concerns of residents and 
property owners in the area. By improving the residential property, 
there is a potential influx of new residents and business owners that 
could further improve the quality of economic development on the 
Anacostia Waterfront.
                         environmental benefits
    There is a dire need to improve the environmental situation on the 
Anacostia Waterfront. By completing the Anacostia Waterfront 
Initiative, we will address necessary environmental concerns. There are 
plans to restore the water quality of the Anacostia River, as well as 
enhance its natural beauty. There has been a stated concern by the 
Department of Health, Environmental Health Administration, Bureau of 
Environmental Quality, and Watershed Protection Division. The 
improvement of water quality and the aesthetic well being of the area 
is important to further sustainable economic development, as well as 
prevent further environmental damage to the rest of the city.
    There has been a proven improvement in the economic and 
environmental aspects due to waterfront initiatives in several other 
U.S. cities, including Providence and Jersey City. The economic and 
aesthetic improvements in these cities created vast improvement, which 
indicates that there is a definite potential for the same improvements 
to occur in the District of Columbia.
                               conclusion
    I would like to thank you, Chairperson Landrieu, and other 
supporters of the Anacostia Waterfront Initiative, especially those 
individuals involved in the planning of the project. There is a 
definite interest in the improvement of the city, as seen by the work 
put into this project. We must realize that this project not only 
provides benefits to the city, but other necessary changes as will. I 
hope that this project will attain successful completion and provide 
the necessary improvement for the Anacostia area. In closing, let me 
thank Ms. Urmy Shukla of my staff, for her assistance in preparing this 
statement.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Landrieu. There will be some additional questions 
which will be submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to Mayor Williams for response subsequent to the 
hearing:]
            Questions Submitted by Senator Mary L. Landrieu
                         overall fiscal health
    Question. What specific steps is the city taking in implementing 
the fiscal year 2002 and 2003 budgets, and in planning for the fiscal 
year 2004 budget to maintain a balanced budget?
    Answer. In fiscal year 2002, the District faced substantial 
spending pressures and, consistent with a trend affecting states across 
the country, a substantial revenue shortfall. To address these 
challenges, the District utilized reserve funds and reduced agency 
spending. Through these measures, the District will balance its budget 
at the end of the fiscal year.
    To ensure that current year spending pressures do not create a 
problem in fiscal year 2003, the District (a) is reforming the Medicaid 
and special education operations which were the primary sources of 
revenue and expenditure problems in the District, and (b) has budgeted 
substantial general fund increases for Medicaid in fiscal year 2003 to 
cover potential spending pressures and revenue shortfalls that cannot 
be avoided in the near term.
    Since the District finalized its fiscal year 2003 budget, however, 
major new revenue shortfalls have emerged for states across, and the 
District is no exception. Currently, the District is updating its 
revenue projections for fiscal year 2003 and fiscal year 2004, and 
expects a major decline in revenue for those years. To offset this 
revenue loss, the District is developing plans to scale back 
expenditures and tap other revenue sources in order to ensure balanced 
budgets.
    Question. What is the District's plan for continuing the capital 
projects deferred in the fiscal year 2003 budget?
    Answer. The capital projects deferred in fiscal year 2003 represent 
two categories:
    (1) projects that have been completed with funds still available or 
have been dormant for a number of years; and
    (2) projects that are still priorities of the District but were 
deferred due to a lack of available funding and a need to lower the 
District's debt per capita. The first category of projects was an 
exercise in cleaning up the District's Capital Improvement Program. As 
for the second category of projects, the District is looking for other 
sources of funding to continue these projects. If no other funding can 
be identified, the District will revisit including them in upcoming 
budget formulation processes as funding becomes available.
    Question. Has the City engaged in a long-term planning process for 
capital improvements?
    Answer. The District is in the process of evaluating its capital 
budget over a 20-year planning process in order to develop long-term 
replacement schedules for its infrastructure and equipment. This task 
will be done in conjunction with the development of condition 
assessments on all District facilities. It is anticipated this will be 
a two year process and will be tied to the development of the budget 
module in the ASMP project in an effort to improve the planning process 
of the Capital Improvements Program.
                           special education
    Question. Is the School Board planning to access the Medicaid 
Reform Fund? If so, is development of the required savings underway?
    Answer. The fiscal year 2003 budget includes $27 million accruing 
to the city's Tobacco Settlement Trust Fund earmarked for use by the 
District of Columbia Public Schools (DCPS) as reimbursement for special 
education related services, predominantly expenses related to Medicaid. 
The DCPS fully intends to access these dollars and is in the process of 
developing the cost savings plan required for drawing down the funding.
    Question. In reviewing the savings plan, will the Special Education 
Task Force consult with administrators in other districts or best 
practices experts?
    Answer. As one of its guiding principles, the Special Education 
Task Force will look to best practices within the school system as well 
as in other jurisdictions to inform its decision making. In addition, 
DCPS has consulted with McKinley and Company and more recently, Harvard 
University in developing the Seven Point Plan for Special Education 
Reform to incorporate best practices as well as address the specific, 
and often unique, circumstances in the District.
                   charter school facilities funding
    Question. I would like to include for the record a detailed summary 
of the Charter School Credit Enhancement Fund, including the following 
information:
  --current balance of the fund
  --source of those funds (local budget, Federal appropriation)
  --amount and recipient of any loans disbursed and status of those 
        loans
  --number of applications received for loans
    Answer. The current balance of the Credit Enhancement Fund is 
$1,433,500, which remains from a $5,000,000 federal appropriation. 
Seven applications have been received for Credit Enhancement Funding. 
The following schools have received awards in the following amounts:
  --Capital City Public Charter School--$500,000
  --The New School for Enterprise and Development Public Charter--
        $500,000
  --The Integrated Design and Electronics Academy--$426,000
  --Arts and Technology Academy Public Charter School--$546,000
  --Meridian School--$500,000
  --Southeast Academy for Scholastic Excellence (through the Charter 
        School Development Corporation)--$574,000
                    child and family services agency
    Question. Please list the per diem rate for all types of placements 
(emergency, group home, foster home, kinship, etc.). Please provide a 
range, from the highest rate to the lowest with a description of the 
reasoning for that rate.
    Answer. The Consent Order that governs the Child and Family 
Services Agency (CFSA) as it reemerges from Federal Court Receivership 
and moves through it probationary period explicitly states that rates 
have to increase as required by the Modified Final Order (MFO). The MFO 
states the board rates have to meet a level consistent with the USDA 
standards concerning the actual cost of raising a child and utilizing 
specialized rates as necessary. As the USDA standards increase so then 
must the DC rates for foster and kinship care in order to support the 
needs of children, and the families that care for them.
    Often in order to support the needs of children and families CFSA 
contracts with vendors. To ensure that contracts reflect performance 
goals and the needs of children and families, we are currently engaged 
in an overhaul of our contracting system. Toward that end, we have 
enlisted national technical assistance that includes help in designing 
a rate-setting process. There is a new internal process of preparing 
new solicitations for release in the spring of 2003 for all currently 
contracted services. Our current vendors have already been informed 
that extensions and option years will be exercised only through March 
31, 2003. The rates summarized below are prior to this reform.
    The schedule below provides the range of rates for the various 
types of care provided to children in placement with CFSA. As the rates 
increase, the level of care required also increases.
    Family Settings.--The range of rates for family settings is $23.93 
per day to $200.00 per day. Our most inexpensive care is for children 
placed in traditional foster homes, kinship care homes and subsidized 
adoption. These are family settings where the basic needs of the child 
are met in a family home environment. In addition, where warranted, we 
will provide services outside the home such as therapy, mentoring etc. 
The mid-level rates encompass therapeutic foster homes, specialized 
infant care homes and homes for medically fragile children who require 
more services on a daily basis than a traditional home setting can 
provide. The highest rates are paid for severely emotionally disturbed 
children or children with severe medical problems often requiring 
skilled nursing care but also in a single family setting.
    Congregate Care.--The next tier of rates involves the more 
traditional group home settings. These rates range from $140.00 per day 
to $400 per day. The most extreme rate is for a child with numerous 
chronic medical problems who is in a vegetative state requiring 
intensive 24/7 nursing care. These are congregate care facilities for 
children who need more intensive care or are unable for any number of 
reasons to stay in a family setting. These settings include traditional 
group homes, residential treatment facilities and congregate care 
facilities for children with severe medical conditions.
    Our experience in caring for these children is that the number of 
children requiring care with a strong mental health or physiological 
component is increasing, thereby creating a need for more of the high 
cost services.
    Question. Please provide a breakdown of the range of per diem rates 
paid into high, medium and low categories. What percentage of all the 
rates paid does each category represent?
    Answer. The numbers are as follows:

------------------------------------------------------------------------
                                                 Percent of   Percent of
                                                  dollars        days
------------------------------------------------------------------------
Low...........................................           41           77
Medium........................................           48           20
High..........................................           11            3
------------------------------------------------------------------------

    One trend which has become apparent (see recent Washington Post 
articles) is that the emotional and physical/medical needs of the 
children coming into care are more acute. We would expect that the 
medium and high cost of care figures would increase rather than 
decrease as a result of this.
                          parks and recreation
    Question. How does the Department determine funding or improvements 
for each park? Is it based on public usage?
    Answer. The Department of Parks and Recreation proposes capital 
projects to the D.C. Office of Budget and Planning for inclusion in the 
annual budget of the city, based upon:
    (a) Safety and health concerns/remediation
    (b) Citizen in-put and request
    (c) Staff assessment and recommendations
    (d) Cooperative interaction with the D.C. Planning Office
    Question. How are the maintenance needs of each park determined?
    Answer. Parks are assessed twice yearly by a certified safety 
inspector as he basis for identifying and addressing maintenance needs. 
Additionally, facilities with staff on the premises are inspected daily 
for health and safety concerns and those findings are forwarded to the 
agency's Risk Manager for follow-up and resolve. Citizens, ``friends-
of'' groups, volunteers, and our custodial, trash-hauling, and skilled-
labor staff, who routinely visit sites at a minimum of once a week, 
provide additional assessments.
    Question. How many public/private or non-profit partnerships does 
the Department have in effect currently? What are the Department's 
plans for expanding this type of partnership?
    Answer. Currently the Department has public/private or non-profit 
partnerships with: City Lights School, Sacha Bruce Public Charter 
School, Time-Dollar Institute, Garfield Terrace Resident Council, 
United Planning Organization, Wish List of Washington, DC, Stoddert 
Soccer, Babe Ruth Baseball, Barney House Senior Program, Advisory 
Neighborhood Commission 3G, Associates for Renewal in Education, 
Elementary Baseball, Anacostia Museum, Corcoran Gallery, Historical 
Preservation Society, Kaboom, and the Washington Bullets (the legal 
incorporated name for the Washington Sports Group. Additionally, we 
continue to work in collaboration with: Little League Baseball, Jabbo 
Kenner Tackle Football League, our ``Friends of'' groups and the many 
neighborhood-based one time only partnerships, which are realized to 
the benefit of the community at large.
              emergency preparedness: management of funds
    Question. The D.C. Subcommittee provided $216 million in the fiscal 
year 2002 D.C. Appropriations Act and the fiscal year 2002 Defense 
Supplemental Appropriations Act. In addition, the fiscal year 2002 
Supplemental Appropriations bill, currently awaiting the President's 
signature, includes $44 million for D.C.
    I want to ensure that the District has the proper equipment and 
support to make the Capital secure. Has the District identified any 
funding gaps that were not originally funded but there is a critical 
need to fill?
    Answer. As you know, the President failed to support the $5.1 
Billion Supplemental Package that contained the $44 million referenced 
above. This obviously leaves the District with a gap that we previously 
had expected would have been filled. The $44 million in the fiscal year 
2002 Supplemental contained funding for the following:
  --$12 million for public safety expenses related to security events
  --$5 million for Unified Communications Center
  --$6 million for Containment facilities and Bioterrorism activities 
        at Washington Hospital
  --$10 million to Children's National Medical Center for quarantine & 
        decontamination facilities
  --$8 million to Washington Metropolitan Area Transit Authority for a 
        regional transportation back-up operations control center
  --$1.75 million to Metropolitan Washington Council of Governments for 
        support of the Regional Incident Communications and 
        Coordination System.
  --$1.25 million to Water and Sewer Authority for remote monitoring of 
        water quality.
    These items continue to be high priorities for the District and we 
will therefore continue to seek these resources to ensure the security 
needs in the Nation's Capital are adequately met. We also believe that 
the Forensics Laboratory is a very high priority for the District. Both 
the Forensics Laboratory and the Unified Communications Center are very 
large capital projects that we hope we can continue to work with you 
on, to secure adequate resources.
                    anacostia waterfront initiative
    Question. The Committee supports the objectives of the Anacostia 
Waterfront Initiative and understands this is a long-term process. What 
are the key first steps that the city has identified as necessary to 
revitalize the waterfront and how does the city plan to address these?
    Answer. The District is currently in a transition phase between the 
initial community-based planning that was coordinated by the D.C. 
Office of Planning and the coordination of the implementation efforts 
to realize the revitalization goals established by the Draft AWI 
Framework Plan. Please note that there is virtually no project which is 
being completed without some form of participation or coordination by a 
District government agency. The primary District agency stakeholders 
are:
  --Office of the Mayor
  --Office of Planning
  --District Department of Transportation
  --District Department of Parks and Recreation
  --District Department of Health, Environmental Health Agency
    Immediate next steps for implementing the goals and objectives of 
the AWI fall into three primary categories:
  --Existing Projects: Existing projects or initiatives requiring next 
        step actions.
  --Strategic Planning: Strategic planning with regard to long-term 
        funding and agency coordination.
  --Catalyst Projects: Capital improvements of ``catalyst projects'' 
        which will help initiate site-specific development plans and 
        which will encourage private development projects.
                      existing project priorities
    South Capitol Gateway Improvement Project.--This project is 
currently funded by the U.S. Department of Transportation for a total 
of $500,000. The goal of the project is to complete a feasibility study 
which charts the reconstruction of the South Capitol Street corridor 
from the Suitland Parkway to the Capitol. The study includes the 
feasibility of constructing a new river crossing to replace the 
existing Fredrick Douglass bridge. Nest step actions include initiation 
of the NEPA process for transportation improvements ($500K) and 
detailed urban design guidelines to be developed as part of area-wide 
zoning reform actions. ($300K)
    Riverwalk Demonstration Project.--This project is currently funded 
by the U.S. Department of Transportation for a total of $400,000. The 
objective of this project is to implement small sections of the 
Riverwalk, while researching state-of-the-art low impact development 
design techniques. A total of about 400 feet of trail will be 
constructed as part of this project. Next step actions include 
additional demonstration segments of the Riverwalk in strategic areas 
where the trail can be easily implemented. While the overall cost of 
the Riverwalk is estimated to total approximately $25 to $30 million, 
individual strategic segments can be implemented on a stand-alone 
basis. Strategic segments include: Connection from Kenilworth Park to 
Maryland ($1M), Barney Circle to RFK ($1M) and the Tidal Basin Gateway 
($1.75M) which includes improvements of connections to the Southwest 
Waterfront from the Tidal Basin, inclusive of a pedestrian footbridge 
to Hains Point from a location adjacent to the Washington Marina.
                           strategic planning
    Long-term Agency Funding Strategy.--A number of comparable efforts 
nation-wide have created implementing entities such as land trusts and 
development corporations in order to restore underutilized river or 
park environments. The Presidio Trust is but one example. A detailed 
economic analysis must occur in order to coordinate and optimize the 
various funding mechanisms that already exist and determine which 
funding mechanisms need to be created to attempt to capture the private 
value being created by extensive public investments along the river. 
($150,000)
    Long-term Agency Coordination.--A complementary strategic planning 
effort needs to explore the existing impediments to project approvals. 
Streamlining of the various required agency approvals is necessary for 
two important reasons: reduce and better coordinate the redundancies in 
Federal and District approvals process; and, introduce a more 
transparent and comprehensible approvals process for the public to 
understand, in order to eliminate ``surprise'' projects and reduce the 
overall amount of litigation being pursued by neighborhood and 
environmental advocacy groups. The creation of a ``community design 
center'' might be part of this strategy, a location where proposed 
projects could be jointly reviewed by the public and agency 
representatives. ($150,000)
                           catalyst projects
    The following catalyst projects are public infrastructure or public 
park projects which have been identified in specific site planning 
efforts conducted by the Office of Planning. These first-step projects 
seek to create a dramatically new image for specific sites along the 
river, at a relatively small scale, in order to change the perception 
of the Anacostia Waterfront from that of a forgotten wasteland' to that 
of a public amenity. These projects have been specifically identified 
to set neighborhood benchmarks for design and construction, which will 
set the tone for subsequent private development projects.
    Southwest Tidal Basin Gateway.--This project (identified earlier in 
the Riverwalk Demonstration) seeks to create a superior pedestrian 
connection between the Southwest Waterfront and the National Mall at 
the location of the Tidal Basin. The District Department of 
Transportation is currently completing a detailed pedestrian access 
study to the Fish Wharf, which would become the basis for the 
improvements. Widening of sidewalks, construction of a pedestrian 
bridge and the introduction of designated bicycle lanes constitute the 
scope of this project. This project seeks to help address the imbalance 
of visitation to the Tidal Basin and the Southwest Waterfront. The 
project would also significantly leverage private funds committed as a 
component of the Mandarin Hotel project and recent appropriations for 
the Washington Marina. This segment of the waterfront is a key element 
of the Potomac National Scenic Heritage Trail, a regional multi-purpose 
trail being coordinated by the National Park Service. ($1.5M)
    Near Southeast Canal Blocks Park.--This project seeks to transform 
three parcels of land (which were formerly a component of the historic 
Washington Canal) into a significant new park. The cost of the park has 
been estimated to be $5M including soft costs. The immediate importance 
of creating this park include:
    The need to facilitate public access from Captol Hill to the 
Southeast Federal Center and its proposed waterfront park and the 
Riverwalk trail system;
    The need to create a community destination and public open space 
which will help realize the goal of creating a mixed-use and mixed-
income neighborhood in the Near Southeast. The new park would provide 
an essential common ground' for the variety of public and private 
residential development projects which are being planned for the area, 
the most significant of which is the Capper Carrollsburg Hope VI 
project which is funded to construct approximately 1,500 units of 
housing;
    The need to instill a community pride-of-place in this neighborhood 
by taking advantage of the significant historical heritage of the 
Washington Canal and commemorating its historic existence in the form 
of a park. The site has also been identified by NCPC as a potential 
site for a monument of national importance.
    The ideal opportunity to institute state-of-the-art storm water 
runoff mitigation and low impact development measures as a component of 
neighborhood-wide development projects. The added significance of the 
former Canal is that upon its abandonment, it was reutilized to serve 
as the location for the main trunk line of the District's combined 
sewer system.
    The need to implement this public open space in a timely manner in 
order to properly leverage the ongoing real estate development projects 
into a veritable neighborhood.
    Kingman Island restoration.--This project is a partnership that 
includes the U.S. Army Corps of Engineers, the District, and the 
National Park Service has led to the restoration of 42 acres of 
wetlands on Kingman Lake, one of the islands in the Anacostia. Habitat 
restoration work is also underway on Kingman Island, whose title was 
transferred to the District in December 2000. These projects foreshadow 
the large-scale environmental restoration projects necessary to 
reconstruct the river's riparian systems.
    Riverwalk Connection from Kenilworth Aquatic Gardens to Maryland-
Bladensburg Waterfont Park.--This project (described earlier in the 
current projects) has been planned in partnership with the Maryland 
Department of Transportation and the National Park Service. The project 
seeks to leverage the commitment that M-DOT has made to construct the 
Anacostia Riverwalk from the Bladensburg Park to the DC-MD line (2.3 
miles). The segment in question is the element connecting from the DC-
MD boundary to the parking lot at the Kenilworth Aquatic Gardens and 
Kenilworth Park Recreation Center (0.4 miles). The estimated costs for 
the project total $1.5M. A detailed engineering feasibility study has 
been completed by the Office of Planning and is available for review.
    Overall public infrastructure.--The total estimated cost of the 
infrastructure projects needed to create appropriate access to the 
waterfront, prepare currently underutilized land for development and 
provide the necessary public amenities for the impending waterfront 
development is approximately $2 Billion.
    Question. Please detail what steps the District is taking to create 
immediately recognizable benefits on the waterfront, in conjunctions 
with the long-term infrastructure building to prevent further 
degradation of the river.
    Answer. The Anacostia Waterfront Initiative (AWI) process is being 
coordinated by the DC Office of Planning, which has recently issued the 
AWI's preliminary recommendations for a first round of public comment 
and is working toward releasing the complete AWI Draft Framework Plan 
this fall.
    However, AWI was never intended as a planning exercise only. The 
AWI partnership has been at work, coordinating actions ``on the 
ground'' and yielding exciting new results for the neighborhoods along 
the river. The following represents a snap shot of current public 
sector projects, which are catalyzing the transformation of the shores 
of the Anacostia and the Washington Channel by providing important 
infrastructure and environment improvements.
                       upper reaches of the river
    The District, the National Park Service (NPS) and the Maryland 
Department of Transportation (M-DOT) have signed an MOU to extend the 
Anacostia Riverwalk and Trail from the Kennilworth Aquatic Gardens to 
the recently constructed public marina and park in Bladensburg, 
Maryland.
    The U.S. Soccer Federation, together with NPS and DC Sports and 
Entertainment Commission (DC-SEC) have received funding to start design 
of recreational fields in Kenilworth Park.
    The District Department of Transportation (D-DOT) is revising 
designs for the Kenilworth Freeway at Nannie Helen Burroughs NE to 
create a pedestrian and bicycle gateway to Kenilworth Park and Aquatic 
gardens. This link will connect the District's largest park and trail--
Watts Branch--to the waterfront park system.
    Langston Golf Course is in the design phase to build and a new club 
house.
                      middle reaches of the river
    The District Department of Transportation (D-DOT) is completing 
reconstruction of the Benning Road bridge to include wide sidewalks and 
a new pedestrian gateway to Kingman Island.
    The D.C. Department of Parks and Recreation (DC-PR), the DC 
Environmental Health Agency (DC-EHA) and the U.S. Army Corps of 
Engineers (US-ACE) are restoring natural habitat to Kingman and 
Heritage Island and constructing additional wetlands along the Island's 
shoreline.
    The US-ACE and the NPS are ``daylighting'' Popes Branch and Ft. 
Dupont Creek. These projects will take the streams out of below-grade 
storm sewers to flow at-grade through Anacostia Park thereby creating 
habitat and visual interest in the park.
    The DC-SEC has brought the Cadillac Grand Prix racing event to the 
RFK campus for the first time and is currently reconstructing the 
parking lots north of RFK, while introducing state-of-the-art storm 
water run-off technologies to the RFK parking lots.
    St. Colettas School is in design for the first building to be 
constructed on Reservation 13 since the Master Plan was completed in 
March. The design architect is Michael Graves.
                              poplar point
    The NPS, DC-EHA and the National Oceanic and Atmospheric 
Administration (NOAA) are funded to daylight Stickfoot Creek and 
remediate soils on Poplar Point.
    The Advantage Charter School is nearing completion on Howard Road.
                             near southeast
    The Marine Barracks project has broken ground at 7th and L Streets 
SE. The project will be the new home for the U.S. Marine Corps Band and 
practice facility as well as a ball field to be shared with 
neighborhood residents.
    The $35M HOPE VI grant from the U.S. Department of Housing and 
Urban Development (HUD) has been leveraged by the D.C. Housing 
Authority (DC-HA) by approximately 9:1. Over 1,500 new units of housing 
will be created with a guaranty of 1:1 public housing unit replacement 
to create a new mixed-use, mixed-income waterfront neighborhood.
    The D-DOT will break ground on three important projects this 
summer, including the recontruction of 8th Street Barracks Row, the 
extension of M Street and the Riverwalk demonstration project.
    The Navy is in the final stages of constructing a beautiful new 
waterfront park, which includes innovative elements such as Low Impact 
Development measures as well as a design approach which will address 
force protection and security while also allowing continuous public 
access to the water's edge.
    The U.S. Department of Transportation will be relocating to the 
Southeast Federal Center. This $1.7 million building will bring an 
additional 7,500 federal employees to the neighborhood.
    The GSA has completed construction of a new seawall at the 
Southeast Federal Center and has issued an RFP for the development of 
the remaining 44-acres of prime waterfront land. D-DOT has 
reconstructed all of the streets surrounding the SEFC, upgrading the 
quality of public spaces in preparation for development.
    The D.C. Office of Planning has rezoned the land known as Buzzard 
Point permitting residential uses to be introduced to this prime 
waterfront land.
    Pepco, the District, NPS and the Navy have partnered with the Earth 
Conservation Corps and the National Geographic Society to create the 
Mathew Henson Center, a new environmental learning center in the former 
PEPCO pump house.
    In a similar partnership, D-DOT has made a building beneath the 
11th Street bridges available to the Capitol Community Rowing Center, a 
non-profit boat house to serve the Anacostia River rowing community.
                           washington channel
    The District has entered into a public-private partnership to re-
introduce 4th Street SW through the site known as Waterside Mall in 
order to create a new retail town center for the Southwest 
neighborhood.
    D-DOT and Federal Highways are commencing the rehabilitation of the 
10th Street overpass which will include the redesign of the urban 
streetscape of L'Enfant Plaza. The goal will be to create a more 
hospitable urban realm between the Smithsonian Institution and the 
Washington Channel Waterfront.
    The National Capital Revitalization Corporation (NCRC) has taken 
control of the Gangplank site and procured the services of a new marina 
operator.
    The District has issued a $46 million tax-revenue bond for the 
Mandarin-Oriental hotel on the Portals Site, providing a key amenity at 
the gateway between the Tidal Basin and the Washington Channel.
    The US-ACE and the District Department of Housing and Community 
Development are completing a marina and site improvements, which will 
restore historic structures, create more marina capacity and improve 
parking at the Washington Marina and the Fish Market.
    Together, these projects demonstrate the first-step commitment to 
reclaim Washington's waterfront for the benefit of neighborhoods, the 
City and the region. The Anacostia Waterfront Initiative Framework Plan 
will build on these first steps to chart the course towards achieving 
full clean-up of the River's water; easy access to its shores; creation 
of a great new parks network; introduction of cultural destinations and 
the strengthening of all the neighborhoods along its shores.
                             public health
    Question. Do you believe the needle exchange program operated by 
Prevention Works is an effective program for reducing the spread of 
HIV/AIDS and Hepatitis B in the District?
    Answer. Yes, we believe the needle exchange program operated by 
Prevention Works is an effective program for reducing the spread of 
HIV/AIDS and Hepatitis B in the District.
    Individuals may become infected with HIV, the virus that causes 
AIDS, and Hepatitis B and C when sharing needles used to inject drugs. 
Both HIV and Hepatitis B and C are incurable and can be fatal; 
consequently, primary and secondary prevention is crucial to avoiding 
transmission. Needle exchange programs can be an effective part of a 
comprehensive prevention strategy to reduce the incidence of HIV and 
Hepatitus B and C.
    In the District of Columbia, there are an estimated 9,720 Injection 
Drug Users (IDUs). Of particular note is that sharing of contaminated 
needles is the primary route of HIV infection among African American 
women in the District. Prevention Works, as well as all other HIV and 
viral hepatitis prevention programs targeting injection drug users, are 
of paramount importance considering the District's large population of 
IDU's, many of whom are indigent with limited access to health care and 
treatment services.
    I hope these responses answer the questions you have posed. Please 
feel free to contact me if you should require additional information.

                         CONCLUSION OF HEARINGS

    Senator Landrieu. Thank you all very much for being here, 
that concludes our hearings.
    [Whereupon, at 11:30 a.m., Tuesday, June 11, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]












       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Altman, Andrew, Director, District of Columbia Office of Planning   274
    Prepared statement...........................................   275
Ashby, Cornelia, Director of Education, Workforce and Income 
  Security, General Accounting Office............................   153
    Prepared statement...........................................   160

Cane, Robert, Executive Director, Friends of Choice in Urban 
  Schools........................................................   144
    Prepared statement...........................................   147
Chavous, Kevin P., Chair, Committee on Education, Council of the 
  District of Columbia...........................................   122
    Prepared statement...........................................   123
Cline, Michael, Coordinator of Emergency Management for Virginia.     1
Cooper-Cafritz, Peggy, President, District of Columbia Board of 
  Education......................................................   101
    Prepared statement...........................................   106
Cropp, Linda W., Chairman, Council of the District of Columbia...   246
    Prepared statement...........................................   248

DeWine, Senator Mike, U.S. Senator from Ohio:
    Opening statement............................................   105
    Prepared statements..........................................5, 155
Dolan, Jacqueline, California Partnership for Children...........   201
    Prepared statement...........................................   201

Fraidin, Matthew, Legal Director, The Children's Law Center......   191
    Prepared statement...........................................   192
Friedman, Dr. Julia, Deputy Chief Financial Officer for Research 
  and Analysis, and Chief Economist, District of Columbia........   253

Gandhi, Dr. Natwar M., Chief Financial Officer, District of 
  Columbia:
    Letter from..................................................   267
    Prepared statement...........................................   254
Golstman, Susan, a child-friendly courthouse architect, prepared 
  statement......................................................   217
Graham, Carolyn, Deputy Mayor for Children, Youth and Families, 
  Government of the District of Columbia.........................   116
    Prepared statement...........................................   117

Hutchison, Senator Kay Bailey, statement of......................   240

Johnson, Jerry N., General Manager, District of Columbia Water 
  and Sewer Authority............................................   285
    Prepared statement...........................................   286
Jones, Cynthia, Director, Public Defender Service, District of 
  Columbia.......................................................    65
    Prepared statement...........................................    67

Keldsen, Donald, Acting Director, Maryland Emergency Management 
  Agency.........................................................     1
Kellems, Margaret, Deputy Mayor for Public Safety, District of 
  Columbia:
    Prepared statement...........................................     7
    Statements of................................................1, 237
King, Rufus G., III, Chief Judge, Superior Court of the District 
  of Columbia:
    Prepared statements.........................................91, 187
    Statements of...............................................89, 171
Landrieu, Senator Mary L., U.S. Senator from Louisiana:
    Opening statements.............................1, 53, 101, 153, 237
    Prepared statements............................3, 58, 103, 153, 238
    Questions submitted by.....................................219, 294
LaPorte, Peter G., Director, Emergency Management Services 
  Agency, District of Columbia...................................     1
    Prepared statement...........................................    12
Luxenberg, Deborah,, Chair, Children in the Courts Committee, 
  Council on Court Excellence....................................   195
    Prepared statement...........................................   196

Ormond, Jasper, Interim Director, Court Services and Offender 
  Supervision Agency, District of Columbia.......................    53
    Prepared statement...........................................    62
    Statement of.................................................    60

Rogers, Michael, Executive Director, Metropolitan Washington 
  Council of Governments.........................................     1
    Prepared statement...........................................    22
Rotherham, Andrew, Director, 21st Century Schools Project, 
  Progressive Policy Institute...................................   137
    Prepared statement...........................................   139

Satterfield, Judge Lee, Presiding Judge, Family Court, Superior 
  Court of the District of Columbia..............................   171
    Prepared statement...........................................   189
Schwartz, James, Assistant Chief of Operations, Arlington, 
  Virginia Fire Department.......................................     1
    Prepared statement...........................................    30
Siglin, Doug, Chesapeake Bay Foundation, prepared statement......   291
Strauss, Paul, Shadow Senator, District of Columbia, prepared 
  statements...................................................216, 292

Vance, Dr. Paul L., Superintendent, District of Columbia Public 
  Schools........................................................   112
    Prepared statement...........................................   113

Wagner, Hon. Annice M., Chair, Joint Committee on Judicial 
  Administration in the District of Columbia.....................    80
    Prepared statement...........................................    84
Walden-Ford, Virginia, Executive Director, D.C. Parents for 
  School Choice..................................................   148
    Prepared statement...........................................   149
White, Richard A., Chief Executive Officer, Washington 
  Metropolitan Area Transit Authority............................     1
    Prepared statement...........................................    16
Wicks, Anne, Executive Officer, D.C. Courts, District of Columbia    80
Williams, Anthony A., Mayor, District of Columbia:
    Prepared statements........................................243, 272
    Statements of..............................................237, 241
















                             SUBJECT INDEX

                              ----------                              

                          DISTRICT OF COLUMBIA

Accomplishments..................................................   273
Action, need for.................................................   273
Additional committee questions...................................   294
Affordability....................................................   289
Anacostia:
    Impact on....................................................   289
    River improvement efforts, LTCP component of.................   271
    Waterfront initiative.................................287, 272, 297
        Draft framework plan.....................................   276
        Goals....................................................   276
        Memorandum of understanding (MOU)........................   276
        Vision...................................................   275
        What is the?.............................................   275
Benefits to be gained............................................   277
Budget:
    Priorities...................................................   241
    Reserve policy...............................................   264
Catalyst projects................................................   298
Charter school:
    Development of...............................................   262
    Facilities funding...........................................   295
Child and Family Services Agency.................................   295
Children with disabilities:
    Reform of system representing................................   263
    Representation of............................................   262
City parks, revitalizing.........................................   281
Coordinated actions to-date......................................   277
Council/Mayor budget process.....................................   249
Council period XIV...............................................   249
Council/public citizen budget process............................   249
Debt and capital infrastructure policy...........................   265
District's:
    Bond rating..................................................   257
    Budget, structural imbalance in the..........................   256
District-Federal partnership, a critical juncture in.............   246
Economic benefits................................................   293
Emergency preparedness: Management of funds......................   297
Endeavor.........................................................   274
Environmental benefits...........................................   294
EPA permit requirements..........................................   288
Existing project priorities......................................   298
Federal:
    Barriers to the District's financial recovery................   245
    Origins and reliance upon the combined sewer system..........   288
Fiscal:
    Health, overall..............................................   294
    Resolve......................................................   245
Fiscal year:
    2002 financial outlook.......................................   255
    2003 budget request..........................................   255
    2003 financial plan..........................................   254
Funding the initiatives..........................................   281
Future, planning for the.........................................   284
General authority responsibility.................................   286
Highlights of the fiscal year 2003 budget........................   249
History and the current state of the river.......................   273
Key priorities, investing in.....................................   244
Legislative achievements.........................................   247
Long-term:
    Control plan process.........................................   288
    Recovery.....................................................   243
Near southeast...................................................   300
Overview.........................................................   254
Park design, exploring...........................................   283
Parks and recreation.............................................   296
Partnership......................................................   290
Pay-as-you-go funds..............................................   250
Poplar point.....................................................   300
Project, background of the.......................................   293
Public:
    Health.......................................................   301
    Investment, need for.........................................   274
River:
    Middle reaches of the........................................   300
    Upper reaches of the.........................................   299
Sewer system, combined...........................................   287
Special education..............................................259, 295
Spending:
    Caps on......................................................   250
    Reducing.....................................................   244
    Responsible..................................................   242
Strategic planning...............................................   298
Strong authority governance & management capacity................   287
Structural imbalance, Federal financial assistance for...........   250
Tax parity/tax relief............................................   250
Washington channel...............................................   301
Waterfront:
    Access, barriers to..........................................   280
    Neighborhoods, building......................................   284
    Revitalization, examples of..................................   282
    What makes up the............................................   279

                                 Courts

Appropriations language changes..................................    89
City unveils plan for D.C. General site..........................    54
Close supervision................................................    63
Coordination with D.C. agencies..................................    97
Court-ordered criminal justice reforms...........................    68
Courts and the community.........................................    86
Criminal justice collaboration projects..........................    68
DC Courts' fiscal year 2003 budget request.......................    87
DNA sample collection response initiative........................    69
Drug treatment...................................................    71
Families lamenting life after Lorton.............................    55
Family court.....................................................    93
Fiscal year:
    2002 accomplishments.........................................    67
    2003 request.................................................    69
Homes, shops, waterfront park, health-related offices, envisioned    54
Increasing court-wide support staff..............................    97
Information technology...........................................    65
Long-term care insurance.........................................    96
Offender population..............................................    69
Old courthouse...................................................    86
Parole revocation defense initiative.............................    69
Partnerships.....................................................    64
Performance measurement at the courts............................    85
President's fiscal year 2003 budget, critical budget priorities 
  above the......................................................    84
Public Defender Service priorities...............................    78
Re-entry into the community......................................    70
Relatives find visits daunting, with prisoners all over country..    55
Risk and needs assessment........................................    63
September 11th...................................................    89
Sex offender registry............................................    73
Sound management practices.......................................    85
Strategic planning...............................................    85
Supervision caseload.............................................    73
Transition back into the community...............................    75
Treatment and support services...................................    64

                               Education

Charter schools..................................................   131
Costs............................................................   141
District's public charter schools:
    Considerations for...........................................   142
Problems faced by the............................................   147
Education in the District of Columbia, status of.................   149
Facilities crisis................................................   147
Financing, lack of...............................................   148
Over-identification for special education........................   140
Parental centers.................................................   135
Public charter schools on public education in the District, 
  impact of the..................................................   147
School expenditures..............................................   111
Special education..............................................110, 126
Student performance..............................................   141

  PUTTING FAMILIES FIRST: THE ROAD TO REFORM OF THE D.C. FAMILY COURT

Category:
    One..........................................................   220
    Three........................................................   221
    Two..........................................................   221
Child sensitive courts...........................................   201
Edmund D. Edelman Children's Courthouse, County of Los Angeles, 
  California.....................................................   217
Family Court Act.................................................   189
Family court:
    Implementation, challenges in obtaining the necessary 
      physical space and in developing a new information system 
      could impede...............................................   165
    Transition plan..............................................   190
GAO contact and acknowledgments..................................   168
Information technology...........................................   188
Memorandum.....................................................228, 232
Observations, concluding.........................................   168
Progress to date.................................................   187
Space and facilities.............................................   187
Transition plan and:
    Attorneys....................................................   193
    The Child and Family Services Agency.........................   193
    The court....................................................   192
    Contains most, but not all, required elements of the Family 
      Court Act..................................................   162

          REGIONAL EMERGENCY PLANNING FOR THE NATION'S CAPITAL

Coordinating:
    Regional preparedness........................................    43
    School evacuations...........................................    49
Transportation security..........................................    46
District response plan...........................................     6
Domestic preparedness task force.................................     5
Emergency preparedness ``tabletop'' exercise 2002 senior leaders' 
  seminar participant list--March 12-13, 2002....................    36
Planning and training............................................    35
Region, defining the.............................................    32
Regional coordination............................................    18
Security funding.................................................    17
Transportation...................................................     6
WMATA's emergency response role..................................    17

                                   - 

</pre></body></html>
